<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2007</title>
<body><pre>[Senate Hearing 109-375]
[From the U.S. Government Printing Office]




                                                 S. Hrg. 109-375, Pt. 5

                                                        Senate Hearings

                                 Before the Committee on Appropriations

_______________________________________________________________________


                                            Commerce, Justice, Science,

                                                   and Related Agencies

                                                         Appropriations

                                                            Fiscal Year
                                                                   2007

                                         109th CONGRESS, SECOND SESSION
                                                              H.R. 5672

PART 5
        DEPARTMENT OF COMMERCE
        DEPARTMENT OF JUSTICE
        NATIONAL AERONAUTICS AND SPACE ADMINISTRATION
        NONDEPARTMENTAL WITNESSES


 Commerce, Justice, Science, and Related Agencies Appropriations, 2007 
                          (H.R. 5672)--Part 5


                                                 S. Hrg. 109-375, Pt. 5

  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2007

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   on

                               H.R. 5672

  AN ACT MAKING APPROPRIATIONS FOR SCIENCE, THE DEPARTMENTS OF STATE, 
JUSTICE, AND COMMERCE, AND RELATED AGENCIES FOR THE FISCAL YEAR ENDING 
               SEPTEMBER 30, 2007, AND FOR OTHER PURPOSES

                               __________

                         PART 5 (Pages 1-811)

                         Department of Commerce
                         Department of Justice
             National Aeronautics and Space Administration
                       Nondepartmental Witnesses

                               __________

         Printed for the use of the Committee on Appropriations



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
27-360                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                      COMMITTEE ON APPROPRIATIONS

                  THAD COCHRAN, Mississippi, Chairman
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         PATRICK J. LEAHY, Vermont
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
MITCH McCONNELL, Kentucky            BARBARA A. MIKULSKI, Maryland
CONRAD BURNS, Montana                HARRY REID, Nevada
RICHARD C. SHELBY, Alabama           HERB KOHL, Wisconsin
JUDD GREGG, New Hampshire            PATTY MURRAY, Washington
ROBERT F. BENNETT, Utah              BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado
                    J. Keith Kennedy, Staff Director
              Terrence E. Sauvain, Minority Staff Director
                                 ------                                

    Subcommittee on Commerce, Justice, Science, and Related Agencies

                  RICHARD C. SHELBY, Alabama, Chairman
JUDD GREGG, New Hampshire            BARBARA A. MIKULSKI, Maryland
TED STEVENS, Alaska                  DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            HERB KOHL, Wisconsin
KAY BAILEY HUTCHISON, Texas          PATTY MURRAY, Washington
SAM BROWNBACK, Kansas                TOM HARKIN, Iowa
CHRISTOPHER S. BOND, Missouri        BYRON L. DORGAN, North Dakota
THAD COCHRAN, Mississippi (ex        ROBERT C. BYRD, West Virginia
    officio)                           (ex officio)
                           Professional Staff
                              Art Cameron
                              Allen Cutler
                              James Hayes
                           Rachelle Schroeder
                             Goodloe Sutton
                        Paul Carliner (Minority)
                      Gabrielle Batkin (Minority)
                        Alexa Sewell (Minority)
                      Kate Fitzpatrick (Minority)

                         Administrative Support
                             Augusta Wilson

                            C O N T E N T S

                              ----------                              

                        Wednesday, April 5, 2006

                                                                   Page
Department of Justice:
    Office of the Attorney General...............................     1
    Federal Bureau of Investigation..............................    36
    Drug Enforcement Administration..............................    45
    Bureau of Alcohol, Tobacco, Firearms and Explosives..........    61
    United States Marshals Service...............................    73

                       Wednesday, April 26, 2006

National Aeronautics and Space Administration....................   117

                         Wednesday, May 3, 2006

Department of Commerce: Office of the Secretary..................   197
Nondepartmental Witnesses........................................   233

 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2007

                              ----------                              


                        WEDNESDAY, APRIL 5, 2006

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:02 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Richard C. Shelby (chairman) 
presiding.
    Present: Senators Shelby, Stevens, Mikulski, Leahy, Kohl, 
Murray, and Harkin.

                         DEPARTMENT OF JUSTICE

                     Office of the Attorney General

STATEMENT OF HON. ALBERTO R. GONZALES, ATTORNEY GENERAL


             OPENING STATEMENT OF SENATOR RICHARD C. SHELBY


    Senator Shelby. The subcommittee will come to order.
    I want to welcome Attorney General Alberto Gonzales to the 
subcommittee. He has been here before. And also, my second 
panel, we will have the Federal Bureau of Investigation 
Director Robert Mueller, Drug Enforcement Administration 
Director Karen Tandy, Bureau of Alcohol, Tobacco, Firearms and 
Explosives Director Carl Truscott, and U.S. Marshals Service 
Director John Clark who will be appearing before the 
subcommittee this afternoon.
    Mr. Attorney General, in reviewing the Justice Department's 
budget request and anticipating the budget constraints weighing 
upon us due to the war on terror and the natural disasters that 
devastated the gulf coast, I believe it will take your unified 
leadership to make the tough choices regarding the allocation 
of scarce resources in this bill.


                    FISCAL YEAR 2007 BUDGET REQUEST


    The fiscal year 2007 budget request for the Department of 
Justice is $20.8 billion and represents a 0.5 percent decrease 
over the fiscal year 2006 enacted level. While this request 
proposes increases for the FBI, the U.S. attorneys, and the 
U.S. Marshals Service, it proposes cuts to local law 
enforcement assistance programs and other critical areas that 
are troubling. In particular, it recommends a $1.6 billion 
decrease for State and local law enforcement programs. It 
proposes to rescind $142 million for the construction of two 
new Federal prisons and includes the same failed $120 million 
mandatory fee on explosives manufacturers to fund the day-to-
day operations of critical law enforcement activities.
    The budget request for the FBI provides $6 billion, an 
increase of 6 percent over the fiscal year 2006 enacted level. 
As the former chairman of the Senate Intelligence Committee, I 
know firsthand the challenges facing the Bureau's new national 
security branch, which is responsible for coordinating 
intelligence activities with the Director of National 
Intelligence. The Bureau's budget request seeks to permanently 
realign 300 special agent positions from criminal 
investigations to counterterrorism, to support the work of the 
NSB.
    This shift in resources signals the importance of 
reprioritizing funding and personnel to the threat of 
terrorism. However, this realignment may not go far enough, as 
the budget request only adds one new agent position for this 
upcoming year. Instead, the FBI budget funds a variety of 
technological improvements for intelligence infrastructure, 
information technology management, information technology 
infrastructure, and the next generation of the much-maligned 
Trilogy program.
    This subcommittee and the Bureau share the difficult task 
of targeting these resources in a manner that safeguards 
taxpayers' dollars while preserving public safety.
    The FBI's former $537 million technology initiative, 
Trilogy, while providing primitive functionality, was hardly a 
sound investment for the taxpayers. I was disappointed to learn 
that after spending in excess of $170 million, Trilogy's 
Virtual Case File system was basically a failure. This 
represents a devastating blow to the information technology 
needs of the FBI.
    The 2006 Government Accountability Office Trilogy report 
raises serious questions about the FBI's ability to oversee and 
to build any type of information technology system. The FBI's 
new technology initiative, Sentinel, like Trilogy, promises to 
bring the FBI into the 21st century. This new technology, I 
believe as you do, is critically important, but I remain 
concerned that the FBI does not possess the necessary project 
management expertise, nor do I feel that the FBI has applied 
lessons learned from past mistakes. We hope so.
    And while I support and realize the importance of 
information technology to the FBI's mission, as you do, I 
cannot support unlimited and unchecked resources. I do not 
believe this subcommittee would do that. We will not tolerate 
broken promises for results that were never realized or 
delivered, such as Trilogy.
    Given one failed attempt, Mr. Attorney General, I believe 
it is imperative that you proceed with caution to ensure that 
the FBI does not make the same mistakes. I expect results. We 
do here, and I will do everything we can to ensure there is a 
thorough congressional oversight for this program.
    The budget request for the Bureau of Alcohol, Tobacco, 
Firearms and Explosives imposes a $120 million tax on 
explosives manufacturers. I want to point out that even if 
Congress passed this proposal today, it would take the 
Department 2 years, I have been told, to begin collecting the 
fee. If this were true, I do not understand how the Department 
of Justice proposes to use the receipts from this fee to offset 
the 2007 ATF budget.
    This $120 million hole is just one example of many 
contained in this budget request. These shortfalls force the 
subcommittee to make extremely difficult choices that undermine 
our ability to fund critical budget increases for hard working, 
as you have, Department of Justice law enforcement agencies.
    While we believe that your new initiatives are extremely 
important, Mr. Attorney General, it will be difficult to give 
them consideration when the subcommittee must weigh this 
request with the numerous proposed rescissions, cuts, and 
eliminations of local law enforcement programs. State and local 
law enforcement agencies are the foundation of our Nation's law 
enforcement community. You know this as the former attorney 
general in Texas.
    These proposed cuts have the potential to significantly 
weaken the ability of these agencies to protect our communities 
from traditional crimes, to maintain vigilance in the war on 
terror and to prepare for catastrophic disasters. Continually 
proposing major reductions for local law enforcement assistance 
programs will cripple the police and sheriffs' departments 
which are fixtures in our Nation's communities.
    For the second year in a row, the Federal Bureau of Prisons 
has disregarded explicit congressional direction to construct 
new prisons in McDowell, West Virginia, and Burlington, New 
Hampshire. This year's proposed $142 million rescission, 
combined with last year's $314 million rescission, totals $456 
million in previously appropriated funding for the construction 
of additional correctional institutions. Not only are we facing 
significant prison overcrowding here in the country, but the 
Bureau of Prisons projects, according to what they tell us, 
approximately 8,500 new prisoners will enter the Federal system 
this year alone.
    I look forward to hearing from you, Mr. Attorney General, 
first, and then the others later about your visions and the 
challenges that you see.
    Senator Mikulski.


                STATEMENT OF SENATOR BARBARA A. MIKULSKI


    Senator Mikulski. Thank you very much, Mr. Chairman, and I 
once again, as we open our hearings on the Commerce, Justice, 
Science appropriations we look forward to working with you on a 
bipartisan basis to achieve important national goals in terms 
of public policy and yet be stewards of the Federal purse.
    We want to welcome the Attorney General and our top law 
enforcement team from the FBI, DEA, ATF, and of course, the 
Marshals Service. Mr. Attorney General, I know we are anxious 
to get to your testimony, but we want to welcome you. We know 
that you said your goal was to help secure the American dream 
for all Americans and to keep America safe. We want to work 
with you to do that.
    Your Department is responsible for protecting America, for 
your Department is one of the agencies responsible for 
protecting America from a predatory attack by international or 
even domestic terrorists and at the same time protect Americans 
from predatory attacks in our own neighborhood, whether they 
commit arson against those people in our community trying to 
buy a home for the American dream; whether they are the sexual 
predators stalking and betraying children on the Internet; or 
whether they are the drug kingpins coming into our community. 
We need to protect America.
    We are concerned, as we look at all of this and the 
national goals about some of the aspects of the budget, but 
before we get into the cuts that I am concerned about, we 
understand that when we look at counterterrorism, which we know 
is one of your priorities, the FBI does get the largest 
increase to pay for investigations and technology upgrades.
    I share the flashing yellow lights and flashing impatience 
that has been shared with you by the chairman. I have met with 
the director of the FBI on our new approach to the case 
management system, and we are satisfied that a framework has 
been put in place that we can begin to get the best value in 
technology and the best value for the taxpayers' dollar. I want 
to work with the chairman and with the director on important 
oversight of this system.
    At the same time, we do know that while we are upgrading 
the technology, we need to upgrade our agents and make sure 
that they have the best training. I am concerned that the 
facilities at Quantico are aging, that they are tattered; that 
while our agents are being brought in that we need to be sure 
that where we train them and how we train them is as modern as 
the mission that we have given them.
    In the areas of agreement, we agree with you on reducing 
gun violence, ridding our streets of gangs, and keeping the 
Internet safe for our children, and protecting our fair 
housing. Those are your national goals, and we want to work 
with you on that. Yet, what we are concerned about is the cuts 
to local law enforcement. In my time, I would just like to 
focus on that, because your national goals, I will get to in 
there, but no matter how great the FBI, ATF, DEA is, they have 
to rely on local law enforcement. There is just not enough 
agents. There will never be enough agents. They have to be the 
cops on the beat, and they have to be trained. They have to be 
equipped, and they have to be ready to work with the kind of 
talent that we are asking.
    In my own hometown in Maryland, because we are in the 
Capital region, we fear a predatory attack from terrorists, and 
at the same time, we have one of the highest heroin addiction 
rates in the country, and we need DEA, and ATF has come to our 
rescue in helping to find people who are trying to burn down 
the homes of African-Americans moving into new neighborhoods.
    So we worry, though, that because the people that were 
caught were caught by local law enforcement, we are concerned 
about the cuts of several hundreds of millions of dollars in 
the Byrne grants and in other local law enforcement areas. So 
we want to hear from you how you think that is going to work, 
because as I said to you privately, and I said to you publicly, 
all of these members will feel this pressure.
    We do not want to be into the mother of all earmarking. And 
we are concerned that if the communities cannot get their money 
for their policemen through a grant program that is peer 
reviewed, based on competition, granted on merit, they come to 
us to be able to do this, to fight crime, upgrade their 
technology, gang initiatives, and also deal with this 
horrendous challenge of meth that is sweeping this country.
    So we need to find a way and a wallet to really deal with 
the local law enforcement that is the underpinnings that 
support in many ways the efforts of our very talented Federal 
law enforcement and the variety of agencies that they have. So 
let us work on those national goals, but really, the gang 
fighting, so many of these things, are done at the local level.
    So, Mr. Chairman, we will follow this up in more extensive 
conversations.
    Senator Shelby. Thank you.
    Senator Stevens.


                    STATEMENT OF SENATOR TED STEVENS


    Senator Stevens. Well, thank you very much, and welcome, 
Mr. Attorney General. I have another committee meeting, as a 
matter of fact, but I came to emphasize what Senator Mikulski 
has already addressed, and that is this methamphetamine. The 
COPS meth hot spots program was authorized for $99 million. 
This is a scourge as far as rural America is concerned. And I 
have got a question I would like to submit for the record and 
appreciate your answers, Mr. Attorney General.
    Thank you very much.
    Senator Shelby. Senator Leahy.


                 STATEMENT OF SENATOR PATRICK J. LEAHY


    Senator Leahy. Mr. Chairman, I will put my whole statement 
in the record so we can go to the witnesses.
    Senator Shelby. Without objection.
    Senator Leahy. I would say that I am concerned, and I will 
raise this in my questions, about the budget cutting of funds 
for proven anti-crime and anti-drug and community safety 
efforts. They make a difference in your State, my State, 
Vermont and elsewhere. I see programs slated for elimination. 
Cuts include Byrne and the COPS grant, something every police 
department has benefitted from; the crime victims fund, the 
bullet proof vest partnership that Senator Ben Nighthorse 
Campbell and I started; the Violence Against Women Act 
programs; boys and girls clubs.
    We have unlimited amounts of money to build up everything 
that they want in Iraq. I think we should be worried more about 
crime victims and rank and file police in the United States.
    I will also ask questions about what, in heaven's name, we 
are allowing somebody as careless as ChoicePoint to get control 
of our data, but I will put my whole statement in the record, 
Mr. Chairman, and I will ask those questions.
    Senator Shelby. Without objection, so ordered.
    [The statement follows:]

             Prepared Statement of Senator Patrick J. Leahy

    Mr. Chairman, I join you, the ranking member and our colleagues in 
welcoming all of our distinguished witnesses who are here to testify 
before our subcommittee today on the Justice Department's fiscal year 
2007 budget. I particularly want to welcome Attorney General Gonzales 
and FBI Director Mueller, both of whom I see from time-to-time when 
they come before the Judiciary Committee for oversight hearings. Today, 
however, I am here to wear my appropriator's cap and listen to them 
describe and attempt to justify the Justice Department budget request 
for the coming year.
    During recent years, the Justice Department has confronted the 
daunting challenge of protecting our Nation against international 
terrorism in the wake of the attacks of September 11, 2001, the 
subsequent anthrax attack and other threats. All the witnesses before 
us today deserve credit for their efforts to assure the safety of the 
American people.
    I was disappointed to see, however, that the administration's 
fiscal year 2007 Justice Department budget request calls for deep cuts 
in crime prevention programs that State and local police and sheriffs' 
departments have long relied upon, including key efforts such as Byrne 
Grants, the Crime Victims Fund, the Bulletproof Vest Partnership 
Program, and the Violence Against Women Act programs. This budget would 
undermine proven anti-crime, anti-drug and community safety efforts 
that are making a difference in Vermont and in communities across the 
Nation. These budget priorities are out of whack. This budget puts more 
tax cuts for the rich at the front of the line, while leaving behind 
crime victims, local police and boys and girls clubs. This is simply 
irresponsible and wrong.
    In the wake of terrorist attacks, I recognize that the Justice 
Department focused much of its attention on the prevention of terrorism 
and the promotion of national security. Its top priorities continue to 
be the prevention, investigation and prosecution of terrorist 
activities against U.S. citizens and interests, which is evident in the 
request for $318.5 million in new investments for the FBI, including 
counterintelligence activities and justice information systems 
technology. Unfortunately, the FBI has not always been a good steward 
of those resources.
    It has been almost a year since the FBI announced it would have to 
scrap the $170 million IT project known as the Virtual Case File (VCF). 
I have repeatedly expressed my deep frustration and concern over the 
millions wasted on ``lessons-learned'' and the fact that more than 2 
years have passed since the original deadline; however, these 
technology goals are not yet met.
    In the year since the FBI announced the VCF's successor, the 
Sentinel program, I have seen nothing to boost my confidence in the 
Bureau's ability to manage the status and cost of this project. We 
learned recently that the FBI estimates that Sentinel will cost the 
American taxpayers $425 million to complete and that the full Sentinel 
system will not be deployed until 2009. The FBI has asked Congress to 
commit $197 million to the project between this year and the coming 
year, but it is already behind schedule and the FBI has yet to solidify 
its IT goals and plans for achieving them. The President's fiscal year 
2007 Budget proposes another $100 million for the Sentinel project. We 
must ensure that the FBI's technological capabilities keep pace. To do 
so requires an emphasis not just on providing funds, but also on 
effective use and implementation. I hope the latter is not neglected.
    No one will argue over the importance of counterterrorism programs. 
Nonetheless, I am concerned that the DOJ's traditional duties have 
recently garnered too little attention and support. The Justice 
Department must lead the Nation in deterring, investigating and 
prosecuting gun, drug and civil rights violations; incarcerating 
offenders; partnering with State, local and community groups to prevent 
crimes; and providing leadership and assistance in meeting the needs of 
crime victims. In recent years we have seen an end to the downward 
trend in violent crime, with rates leveling out instead of continuing 
to decrease. We must not allow daily responsibilities that keep our 
citizens safe to fall aside.
    The President claims that he wants to ensure that our State and 
local police receive the resources necessary to do the job the American 
public expects them to do. I am truly frustrated to see, however, that 
he proposes the elimination or reduction of funding by $1.31 billion, 
or 52 percent cut, for programs crucial to State and local law 
enforcement and terrorism prevention. As a Senator from a rural State 
that relies in part of Federal grants to combat crime, I am deeply 
concerned about these cuts.
    Under this budget, we would see an end to Byrne Memorial Justice 
Assistance Grants, which Congress recently reauthorized by law to 
provide vital grant funding to States to improve the functioning of the 
criminal justice system, as well as a $23.3 million cut COPS programs. 
Police departments nationwide would experience severe reductions in 
equipment and support staff grants to combat illegal drugs. In my home 
State, these programs have provided vital funding for the Drug Task 
Force, which combats the growing problem of heroin use and trafficking, 
as well as keeps the production and use of highly addictive 
methamphetamine from infiltrating Vermont's borders.
    The Bulletproof Vests Partnership Grant Program plays a vital role 
in distributing lifesaving bulletproof vests to law enforcement 
officers serving in the front lines nationwide. I am proud to have 
authored with our former colleague, Senator Campbell, the charter to 
create this program that saves lives and spares injuries of law 
enforcement officers nationwide by providing more help to State and 
local law enforcement agencies to purchase body armor. The Vests 
Partnership is authorized to allow for $50 million per year through 
fiscal year 2009 so that this successful program can continue to help 
protect the lives of State and local law enforcement officers. Indeed, 
it is so successful that since 1999 it has provided law enforcement 
officers in more than 11,900 jurisdictions nationwide with nearly 
450,000 new bulletproof vests.
    The President's budget, however, proposes to drastically reduce 
funding of this program by almost $20 million, or by 67 percent. This 
proposal comes at a time when the Bulletproof Vest Partnership Program 
is needed more than ever. Compounding the usual funding demand for help 
to purchase vests, concerns over the effectiveness of Zylon-based body 
armor vest have resulted in an estimated 200,000 of these vests needing 
to be replaced. Across our Nation, law enforcement agencies are 
struggling over how to find the funds necessary to replace defective 
vests that are less than 5 years old with ones that will actually stop 
bullets and save lives. We should be making sure that every police 
officer who needs a vest gets one.
    Two more points I would like to make: The Boys and Girls Clubs of 
America--a proven and growing success in preventing crime and 
supporting our children--would have its budget reduced by $25 million, 
a 30 percent cut. Finally, the President proposes to drain all amounts 
remaining in the Crime Victims Fund at the end of fiscal year 2007. 
This represents an estimated cut of $1.255 billion, and will place 
crime victim service programs in serious jeopardy. These cuts send the 
wrong message to our children and crime victims.
    Now is not the time to eliminate initiatives that we know to be 
effective in the prevention, enforcement and aftermath of crime. 
Strengthening security, information sharing and disaster response 
programs to combat terrorism must not totally overshadow the prevention 
of more traditional crimes.

    Senator Shelby. Senator Harkin.

                    STATEMENT OF SENATOR TOM HARKIN

    Senator Harkin. I just wanted to make one point. Mr. 
Attorney General, just echoing what Senator Mikulski and 
Senator Stevens were saying. Methamphetamine. I was looking 
through your statement, there are drastic cuts in the COPS 
program and in the Byrne grant program, and when my question 
comes around, that is what I want to focus on. Because I see no 
justification for this. We are just having the rug pulled out 
from underneath our local law enforcement by submitting a 
budget that zeroes out the Byrne grant program. I will have 
more to ask you about that when my question comes around.
    Thank you, Mr. Chairman.
    Senator Shelby. Senator Kohl.
    Senator Kohl. Mr. Chairman, in order to expedite getting to 
our witnesses, I will forego an opening statement.
    Senator Shelby. Without objection, so ordered.
    Senator Murray.

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Thank you, Mr. Chairman, and Ranking Member 
Mikulski for holding the hearing and Attorney General Gonzales 
and all the witnesses today. Like my colleagues, I just want to 
say that I have some serious concerns about the cuts to the 
Byrne grant and COPS programs. These programs really help 
reduce crime in communities all across this country, and Byrne 
grants in particular have allowed my State, the State of 
Washington, to take on the meth epidemic with some real 
resources. And I am proud to say that Washington State is now 
the national model in the fight against meth.
    You know, States from all over the country have been 
talking to leaders in law enforcement and education and 
treatment in my State about how to create similar comprehensive 
efforts to stop meth in their States. But Washington State got 
to be a leader in the fight on meth by showing that 
partnerships work, and not just partnerships between law 
enforcement and education and treatment community but 
partnerships at all three levels of the Government: Federal, 
State, and local jurisdictions. And there is no question that 
the Federal resources from COPS and the Byrne grant help these 
partnerships grow and become really a keystone in the fight 
against drugs.
    At the same time that police officers are retiring, and 
local funding has dried up for our drug task force, this 
administration wants to close the door on law enforcement, and 
I know that this subcommittee will hear about some newfound 
efficiencies and better partnerships. But let me be clear: any 
solution that lets the criminals win is not a win in my book.
    Speaking of meth, I want to just say that I am very 
concerned that the Department of Justice is not doing enough, I 
believe, to stop the spread of methamphetamine and other 
synthetic drugs. Although efforts in our States to increase 
precursor control and the passage of the Combat Meth Act are 
going to help, drug cartels are now flooding the market with 
meth.
    So just as we are now succeeding to stop some of the 
smaller mom and pop operations, we are now seeing these cartels 
use their immense resources and drug distribution chains to 
bring meth back into our neighborhoods and meet the demand that 
is out there. So I hope to hear this afternoon how you and 
Administrator Tandy are working on taking on those drug cartels 
to help stop this.
    Finally, I just want to mention, we have talked before, you 
and I, about the needs of local jurisdictions along our 
northern border. In Washington State, our northern border 
counties are spending millions of dollars on cases that are 
initiated by Federal agencies. Whether it is Customs or ICE, 
our Federal agencies are increasing the numbers of criminals 
that they bring into these local courts and detain in our local 
jails. And the U.S. Attorney's Office has been unable to meet 
the demand and often declines these cases and refers them 
directly to cities and counties for processing and prosecution.
    Whatcom County, which is on our northern border just across 
the border from Vancouver, British Columbia, is now spending 
over $2 million a year to process these federally initiated, 
declined, and deferred cases. So we have county sheriff offices 
who are unable to serve warrants now because their jails are 
full, and I hope that we can continue to work together to help 
the northern border communities so that our local communities 
are not forced to let their criminals go free because the 
Federal agencies are now forcing them to take more and more of 
these border related cases.
    This is really an equity issue, because as you know, along 
the southwest border, there is a program to reimburse those 
local costs associated with the criminals caught on the border, 
and I think it is time we fixed this problem and created a 
sister program to the Southwest border prosecution initiative 
to help States like mine and Alaska, New Hampshire, Vermont, 
Wisconsin, other northern border States that are facing the 
same problem.
    So I hope that we hear from all of you today about how your 
departments and agencies are finding better ways to partner 
with our local jurisdictions and working with our communities 
to help our neighborhoods be safe. And I think we can continue 
to create some success stories if we have increased law 
enforcement partnerships at the local, Federal, and State 
level.
    Thank you, Mr. Chairman.
    Senator Shelby. Attorney General, welcome again to the 
subcommittee. Your written testimony will be made part of the 
record. You may proceed as you wish.

             SUMMARY STATEMENT OF ATTORNEY GENERAL GONZALES

    Attorney General Gonzales. Good afternoon, Mr. Chairman, 
Ranking Member Mikulski, and members of the subcommittee. First 
of all, Senator Mikulski, congratulations on last night's great 
victory.
    The men and women of the Department of Justice are working 
every day to secure the opportunities of the American dream for 
all Americans. As Attorney General, I want to ensure that our 
neighborhoods are safe, secure, and prosperous. This is an 
enormous goal and one that we have made steady progress on over 
the past few years.
    Today, I present the President's fiscal year 2007 budget 
for the Department. Mr. Chairman, in an administration that is 
committed to controlling overall Government spending, this 
budget prioritizes our top public safety needs. This is a 
budget that builds on our expertise, launches new programs, and 
eliminates or cuts programs that have not met our high 
standards. It focuses State and local assistance on priorities 
established by the administration and by Congress.

                    COUNTERTERRORISM INVESTIGATIONS

    Included in this $19.5 billion budget are the Department's 
six major priorities for the coming year. Our highest priority 
is to stop the terrorists who seek to destroy the American 
promise of liberty and prosperity. Waging the war on terror has 
been among the most difficult challenges that the Justice 
Department and the Government have ever undertaken. But we have 
made great progress, as evidenced by the hundreds of 
convictions we have obtained in terrorism-related 
investigations and by the terror cells that we have located and 
broken up from coast to coast.
    Still, we know that al Qaeda remains a threat. I want to 
thank Congress for reauthorizing the PATRIOT Act and providing 
resources in the war on terror. I look forward to your support 
of our effort to stand up the new National Security Division, 
which will enable us to house our counterterrorism and 
counterintelligence prosecutors side by side, making it faster 
and easier to connect the dots.
    The threat of terrorism is not going to go away, and 
neither is our commitment to do everything we can to stop it. 
And so, we are requesting over $330 million for new and 
directed counterterrorism and intelligence programs to protect 
our Nation from this continuing threat.
    Every American deserves to live free from the fear of 
violent crime. The President's Project Safe Neighborhoods is 
taking criminals off the streets and reducing gun and gang 
crime. Our efforts are working. Crime has plunged to 30-year 
lows, resulting in thousands of Americans who have not been 
threatened, have not been harmed, and have not been violated by 
gangs with guns. However, gang violence is still a problem, and 
this budget requests over $22 million in enhancements and 
almost $163 million in State and local grants to further 
liberate our communities from gang and gun crime.
    Illegal drugs poison children, destroy lives, and threaten 
the safety and the prosperity of our communities. 
Methamphetamine is particularly destructive, and the Department 
has worked harder than ever to combat methamphetamine over the 
past year. We have successfully dismantled some of the most 
deadly drug organizations that dump drugs into our 
neighborhoods. This budget requests almost $235 million in 
enhancements to stem the supply of drugs from overseas and 
secure our homeland and shut down our borders to illegal 
aliens.

                          CHILDSAFE INITIATIVE

    The Internet should be a safe, crime-free place for all 
Americans, especially our children. Our new Project Safe 
Childhood Initiative is designed to complement our other 
efforts to secure for every child the most important gift that 
we can give: a safe environment in which to live, grow, and 
learn.
    Through this initiative, we will identify, prosecute, and 
lock up those who victimize our children through the production 
and distribution of child pornography and those who use the 
shadow of the Internet to lure minors into sexual activity. In 
this budget, we seek more than $186 million to end the sexual 
exploitation of children and the proliferation of obscenity.

                         CIVIL RIGHTS DIVISION

    Securing the American dream requires protecting individuals 
from illegal discrimination, and I am pleased that the 
Department prosecuted a record number of criminal civil rights 
cases in the last 2-year period, but I am asking the Civil 
Rights Division to do even more: to vigorously protect our 
citizens' right to vote, to work, and to buy or rent a home 
free from discrimination. We are seeking over $113 million for 
the Civil Rights Division to accomplish these goals. We have 
also launched a new initiative, Operation Home Sweet Home, 
which expands our Fair Housing Act testing program.

                           HUMAN TRAFFICKING

    The Division is also focused on eradicating the modern day 
slavery of human trafficking. Prosecutions of this crime have 
increased over 300 percent during this administration, but even 
one victim is too many. In the coming year, we will continue 
our efforts to locate and rescue the victims of this atrocity.
    The sixth and final priority I want to emphasize is the 
Department's fight against Government and corporate corruption. 
Honesty and integrity in Government and in business are 
essential for a strong America. Prosperity cannot flourish if 
taxpayers and investors lose their confidence in these 
institutions. As part of our anticorruption commitment, more 
than 200 new FBI agents have been added in the past 3 years to 
anticorruption squads across the United States.
    Now, virtually all of these priorities require our Federal 
prosecutors to do more. Over the past several years, Congress 
has been supportive in providing law enforcement more agents 
and investigators to detect crime. But now that we have more 
cops on the street, we need more prosecutors in the courtroom 
to make sure that the criminals we identify are brought to 
justice. Accordingly, I am asking that you fully fund the 
budget for the United States Attorneys, to provide additional 
prosecutors to ensure justice in communities across the Nation.
    The priorities I outlined today in no way reflect all of 
our many important responsibilities. The Department serves as 
the Nation's chief prosecutor and litigator, representing the 
people of the United States in court not just to prosecute 
crime but also to enforce immigration laws, protect 
intellectual property, safeguard the environment, defend the 
laws that Congress passes, and protect the National Treasury 
against fraud.
    The Department also protects our communities by safely and 
securely confining all of the people in Federal custody. These 
are all tremendous responsibilities and require sufficient 
resources as well.
    Securing the American dream for all Americans is an easy 
thing to say, but it is a very difficult thing to do. In the 
past few years, America has been a safer, more secure place 
than it was a decade ago. We have faced many challenges, and we 
have made great strides. Others are still before us. You have 
my commitment that the men and women of the Department of 
Justice will work hard every day with the resources you provide 
to make the communities that we both serve as safe, secure and 
prosperous as possible.
    Thank you, Mr. Chairman.
    [The statement follows:]

               Prepared Statement of Alberto R. Gonzales

    Good afternoon Chairman Shelby, Senator Mikulski, and Members of 
the Subcommittee: It is my pleasure to appear before you today to 
present the President's fiscal year 2007 Budget for the Department of 
Justice (``Department'' or ``DOJ''). My goal as Attorney General is 
simple: Secure the opportunities of the American dream for all 
Americans and for future generations. It is a goal I am sure this 
Committee supports. But it is no small task and requires the hard work 
of thousands of Department officials stationed around the country and 
the globe. With your continued support, I have established priorities 
and initiatives to guide the Department's efforts in the coming year.
    My highest priority remains keeping America safe by using every 
tool at our disposal, consistent with our Constitution, to prevent 
another terrorist attack on our Nation. At the same time, the 
Department continues to investigate, prosecute, detain, and incarcerate 
federal criminals. We are currently focusing on top initiatives such as 
an aggressive anti-gang program that will help combat some of the most 
violent gangs in the country.
    In pursuit of these and other priorities, for fiscal year 2007, the 
President's Budget requests $19.5 billion for DOJ, including $330.8 
million in new investments for preventing and combating terrorism. The 
fiscal year 2007 budget further strengthens counterterrorism efforts by 
investing in essential intelligence infrastructure and information 
technology. The budget also includes many new, critical investments 
that will continue to make America a safer place for law-abiding 
American citizens and a tougher place for criminals. An integral part 
of our funding need is support for the United States Attorneys' 
Offices. The budget prioritizes funding for our most important goals 
and proposes reductions to some programs, many of which have not shown 
effective results.
    I also want to thank the Congress for reauthorizing the USA PATRIOT 
Act. The USA PATRIOT Act is a vitally important tool for the 
Department, and its reauthorization will help us prevent another 
terrorist attack.

                   PREVENTING AND COMBATING TERRORISM
 
   In the 5 years since 2001, the Department has requested and the 
Congress has provided significant resources for counterterrorism and 
intelligence activities. With these resources, the Department has 
accomplished a great deal. But we must never forget we are under 
constant threat. Al Qaeda leaders continue to remind us of their desire 
to attack our homeland and murder our citizens. We must continue to 
work together to stop terrorists before they strike. To that end, the 
Department remains open to productive suggestions on how to improve our 
organizational capacity to accomplish our counterterrorism mission. 
With the passage of the USA PATRIOT Act reauthorization, the Department 
is moving quickly to make operational the new National Security 
Division. Yesterday, I sent up to the Congress a reprogramming request 
for the National Security Division. I hope the Congress will support 
this request.
    The National Security Division was created in response to the 
recommendations presented by the Commission on the Intelligence 
Capabilities of the United States Regarding Weapons of Mass Destruction 
(WMD Commission). This major organizational change reflects the 
Department's commitment to building a structure that best supports our 
national security mission. The fiscal year 2007 budget includes $67 
million to fund the new National Security Division. This Division will 
combine the Counterterrorism Section and the Counterespionage Section 
from the Criminal Division with the Office of Intelligence and Policy 
Review (OIPR). The Division will be led by a new Assistant Attorney 
General for National Security who will coordinate all of the 
Department's counterterrorism, counterespionage, and intelligence work. 
This new Assistant Attorney General will also serve as the lead conduit 
for our activities with the Intelligence Community and the Director of 
National Intelligence.
    The requested increase would add 21 attorneys to OIPR and 12 
attorneys to the Counterterrorism and Counterespionage Sections of the 
National Security Division. These additional resources will assist the 
new Division in meeting the increased workload of intelligence searches 
and surveillances, and will ensure that the Department aggressively 
pursues cases involving trade in weapons of mass destruction.
    Over the past 5 year's, the FBI has developed a distinct 
Intelligence Program and hired and trained thousands of new Special 
Agents and Intelligence Analysts who have contributed to our continuing 
safety. The fact that there has not been another major attack within 
the United States borders since September 11th is a credit to the hard 
work of those individuals, working alongside our prosecutors and 
partners in law enforcement and intelligence. With the support of 
Congress, the Department has realigned millions in base resources to 
support these efforts. This budget requests additional, critical 
resources to further enhance our counterterrorism efforts, while 
continuing to realign base resources to wage the war on terror. The 
Department will use these resources to remain on the offensive, 
detecting and disrupting the enemies' plans and bringing terrorist 
operatives to justice.
    As the lead federal law enforcement agency for counterterrorism, 
the FBI's critical mission requires a significant amount of personnel 
and infrastructure. To maximize the effectiveness of the additional 
personnel resources Congress has provided in recent years, this request 
stresses the FBI's infrastructure needs. The request provides a total 
of just over $6 billion for the FBI, with enhancements of $319 million 
to support the following objectives: the continued development of our 
intelligence infrastructure, including increasing the number of secure 
facilities to conduct intelligence analysis; enhanced intelligence 
collection systems and training for a growing and diverse workforce 
that can act upon intelligence information; the continued development 
of the SENTINEL case management system, which will improve productivity 
and information sharing; and upgraded fingerprint identification 
systems to improve screening activities and identify more criminals and 
terrorists.
    Since 2001, the Federal Government has added thousands of federal 
agents and analysts to the counterterrorism effort. The addition of 
these personnel has magnified the need for additional prosecutors in 
the field. For example, the criminal caseload for the United States 
Attorneys has increased by 18 percent in this same time frame. The 2007 
budget supports the ongoing activities for the United States Attorneys 
with over $1.6 billion in total resources, of which $92 million will 
support national security and terrorism-related prosecutions. I believe 
that it is very important that the President's budget request for 
United States Attorneys be fully funded.
    The United States Attorneys are vital to the Federal Government's 
counterterrorism effort. In the past year alone, the government has 
obtained convictions or guilty pleas in 40 terrorism-related cases 
across the Nation, continuing the successful record established since 
September 11th. For example, Ahmed Omar Abu Ali was convicted of 
terrorism charges, including conspiracy to assassinate the President of 
the United States; conspiracy to commit air piracy; and conspiracy to 
destroy aircraft. Ali Al-Timimi was convicted on all charges in 
connection with the ``Virginia Jihad'' case. In a domestic terrorism 
case, Eric Robert Rudolph pleaded guilty to charges related to deadly 
bombings in Birmingham, Alabama, and in the Atlanta area, including the 
bombing at the 1996 Olympics. Since the September 11th attacks, the 
Department has charged more than 400 individuals in matters arising 
from terrorism-related investigations and obtained convictions or 
guilty pleas in more than 220 of those cases to date. Some of those 
cases include the conviction of John Walker Lindh, Richard Reid and the 
disruption of terrorist cells in New York, Oregon, Ohio, Virginia, and 
North Carolina. This budget requests additional positions and $7.7 
million to enhance counterterrorism prosecution efforts by our United 
States Attorneys' Offices.
    This budget also supports other key intelligence initiatives within 
the Department. The Department is requesting an increase of $12 million 
for the Drug Enforcement Administration (DEA) to facilitate full 
coordination and information sharing with other members of the U.S. 
Intelligence Community. That coordination will enhance national 
security, combat global terrorism, and reduce the global supply of 
drugs. Even though DEA did not officially have capabilities in the 
Intelligence Community until February, it has been contributing to 
national security investigations for many years. In fiscal year 2005, 
DEA disrupted eight, and dismantled two, terrorist-linked Priority 
Target Organizations using information gathered during drug 
investigations. In support of our national security objectives, the 
fiscal year 2007 budget also provides resources to help the Executive 
Office for Immigration Review and the Civil Division's Office of 
Immigration Litigation address their expanded caseload.

                       PROJECT SAFE NEIGHBORHOODS

    In 2001, the Administration announced the Project Safe 
Neighborhoods (PSN) initiative to reduce gun crime in our communities. 
PSN brings together local, State, and Federal law enforcement 
officials, prosecutors, and community leaders to implement a multi-
faceted strategy to deter and punish gun criminals. This initiative is 
taking some of the most dangerous and violent offenders out of our 
communities. Today, federal firearms prosecutions are up nearly 73 
percent and violent crime is at its lowest level in 30 years. Since 
2001, the nonfatal firearm crime rate has dropped from 2.3 incidents 
per 1,000 residents to 1.4, and firearm incidents have dropped 40 
percent--from 467,880 to 280,890. With the support of Congress, the 
Department has dedicated over $1.5 billion to this important program. 
Those funds have provided necessary training, hired agents and 
prosecutors, and supported State and local partners working to combat 
gun crime. For 2007, the budget requests $395 million for PSN.
    In response to the danger that violent gangs pose to our 
neighborhoods, the Department recently developed a comprehensive 
strategy to combat gang violence as part of PSN. Building on the 
lessons learned fighting gun crime, this strategy coordinates 
enforcement, prosecution, and prevention resources to target gangs that 
terrorize our communities. The Violent Crime Impact Team (VCIT) 
program, part of the PSN initiative, helps reduce communities' homicide 
and firearms-related violent crime through the use of geographic 
targeting, aggressive investigation, and prosecution. This budget 
provides $16 million for ATF and the United States Attorneys to combat 
gang activity by expanding the VCIT program to 15 additional cities, 
for a total of 40 sites.
    The PSN request also includes enhancements of $44 million for DOJ's 
State and Local Gun Violence Assistance Program. This program is the 
State and local grant program that supports PSN in individual 
communities. This request also includes $15 million to initiate a new 
Gang Training and Technical Assistance Program that will provide 
assistance to States and localities in support of efforts to reduce 
criminal gang activity and reduce the threat of terrorism and violent 
crime through enhanced sharing of criminal intelligence; and a $29 
million increase for the National Criminal History Improvement Program, 
which provides grants to States to improve their criminal history and 
related records so that they are complete, accurate, and available for 
use by Federal, State, and local law enforcement.
    United States Attorneys' Offices across the country continue to 
work with law enforcement partners to develop strategies to make their 
communities safer. Thus, the fiscal year 2007 PSN request includes 
resources to prosecute gang members and gun criminals and to create new 
and strengthened partnerships with local agencies that are addressing 
gang violence and gun crime.

                  DRUG ENFORCEMENT AND BORDER SECURITY

    In February 2002, the President set an ambitious goal: ``To reduce 
the use of illegal drugs by 10 percent over 2 years, and by 25 percent 
over 5 years.'' To meet this goal, the Department announced a six-part 
drug enforcement strategy for DOJ. The Department focuses its drug law 
enforcement efforts on reducing the availability of drugs by disrupting 
and dismantling the largest drug supply and related money laundering 
networks operating nationally and internationally, including those on 
the Consolidated Priority Organization Target (CPOT) List. The CPOT 
list identifies the ``Most Wanted'' drug trafficking and money 
laundering organizations believed to be primarily responsible for the 
Nation's illicit drug supply. In fiscal year 2005, the Department 
dismantled 121 CPOT-linked drug trafficking organizations and severely 
disrupted another 204 CPOT-linked organizations. For example, DOJ 
arrested the two founders of the Cali Cartel and arrested two Afghan 
drug kingpins with ties to the Taliban. The fiscal year 2007 budget 
requests enhancements of $234.7 million for its drug enforcement 
efforts.
    The cornerstone of the Department's drug supply reduction strategy 
is the Organized Crime Drug Enforcement Task Force (OCDETF) program. 
Centrally managed within the Department, the OCDETF program combines 
the resources and expertise of DEA, the FBI, the Bureau of Alcohol, 
Tobacco, Firearms and Explosives (ATF), the U.S. Marshals Service, the 
Internal Revenue Service, the Bureau of Immigration and Customs 
Enforcement, the U.S. Coast Guard, and the litigating forces of DOJ's 
Criminal Division, Tax Division, and the United States Attorneys' 
Offices. The fiscal year 2007 Budget contains $706 million for OCDETF, 
which includes a $208 million transfer of the Office of National Drug 
Control Policy's High Intensity Drug Trafficking Area (HIDTA) Program. 
Transferring the HIDTA Program to the Department will facilitate 
strategic coordination with our other drug enforcement assets, 
eliminating duplication and ensuring the most effective use of limited 
resources.
    As the only federal agency with its sole focus on drug enforcement, 
DEA must have the necessary resources to invest in intelligence and 
operational requirements overseas to stem the supply of illegal drugs. 
This budget requests $13 million in additional funds to continue 
reducing the availability of illicit drugs and the diversion of licit 
drugs and precursor chemicals in the United States. The Department will 
achieve these goals by disrupting and dismantling significant drug 
trafficking and money laundering organizations as well as attacking the 
economic basis of the drug trade. DEA's drug trafficking and money 
laundering enforcement initiatives support and augment U.S. efforts 
against terrorism by denying both drug trafficking and money laundering 
routes to foreign terrorist organizations. DEA's work also helps stem 
the use of illicit drugs as barter for munitions to support terrorism. 
This request includes $4 million for Foreign Advisory Support Teams 
(FAST) to continue attacking drug trafficking and foreign terrorist 
organizations operating in Afghanistan, and $3.5 million for a new team 
to deploy in the Western Hemisphere. Focusing resources on a geographic 
area or group, like the FAST program, yields results: for example, DEA 
investigations have led to the indictment of 13 members and associates 
of the Colombian terrorist group, the Revolutionary Armed Forces of 
Colombia (FARC), on drug trafficking. In fiscal year 2005, two high 
ranking FARC officers were extradited to the United States to stand 
trial.
    After the drug arrests, searches, and seizures have been completed 
by DEA, the Federal Government also has the responsibility to clean-up 
the toxic chemicals left behind at methamphetamine labs. This budget 
provides $40 million to the Office of Community Oriented Policing 
Services for the clean-up of these toxic waste sites, an increase of 
$20 million over the enacted 2006 level. The additional funding would 
ensure that DEA is able to respond to the increased workload to clean 
up methamphetamine laboratories seized by State and local law 
enforcement agencies and fund the start up costs for State container 
programs.
    On November 28, 2005, President Bush outlined his plan to enhance 
America's homeland security through comprehensive immigration reform. 
Two major partners in this reform are the Department's Executive Office 
for Immigration Review (EOIR), and the Civil Division's Office of 
Immigration Litigation (OIL). The Department's fiscal year 2007 Budget 
requests significant increases to help EOIR and OIL keep pace with the 
growing workload resulting from DHS' increased border security efforts. 
A good portion of this workload is related to national security and is 
critical to the Department's mission to combat terrorism and violent 
crime.
    The EOIR request includes an increase of 120 positions and $8.8 
million to meet additional caseload requirements that have resulted 
from the increased resources DHS has received for immigration 
enforcement from 2003 to 2006. For example, EOIR caseloads increased by 
70,000 cases in 2005. In addition, the appellate caseload is expected 
to increase by approximately 4,000 cases annually. EOIR's requested 
increase is linked to DHS' increase of nearly 4,000 detention beds, 
which will be fully on-line by 2007.
    Established in 1983, OIL has jurisdiction over all civil 
immigration litigation and is responsible for the nationwide 
coordination of immigration matters before the federal district courts 
and circuit courts of appeals. Since fiscal year 2001, OIL's caseload 
has more than tripled as OIL attorneys defend the government's efforts 
to detain and remove illegal aliens, many of whom are criminals or 
suspected terrorists. This budget provides 114 positions and $9.6 
million in enhancements to assist OIL's vigorous defense of the cases 
that are critical to the safety of our communities.

                 CRIMES AGAINST CHILDREN AND OBSCENITY

    The Department is committed to fighting child pornography and 
obscenity as well as to protecting children from trafficking and other 
forms of exploitation. The Department works with other law enforcement 
agencies to target, dismantle, and prosecute predatory child molesters 
and those who traffic in child pornography. In 2005, the Department 
increased its efforts, charging 1,503 individuals and obtaining 1,220 
guilty pleas and convictions in criminal cases involving predation of 
children.
    The fiscal year 2007 budget request includes an additional $2.7 
million to combat crimes against children and obscenity, $23.9 million 
for the Office of Justice Programs to direct to State and local law 
enforcement, and an enhancement of 26 positions and $2.6 million for 
the United States Attorneys' Offices to bolster their efforts in 
combating child exploitation. These requests are complemented by $50.9 
million for the Missing and Exploited Children Program (MECP), which is 
the primary vehicle for building an infrastructure to support the 
national effort to prevent the abduction and exploitation of our 
Nation's children. The request includes support for the National Center 
for Missing and Exploited Children.
    To enhance this work, I recently announced a new Project Safe 
Childhood initiative. This effort will be implemented through a 
partnership of United States Attorneys, Internet Crimes Against 
Children Task Forces, and other Federal, State, and local law 
enforcement officials in each district. These partnerships will 
investigate and prosecute crimes against children that are facilitated 
through the Internet or other electronic media. Communities will be 
able to design and execute programs tailored specially for their 
individual needs, while maximizing national resources and expertise. In 
fiscal year 2006, DOJ will award more than $14 million to the Internet 
Crimes Against Children program, a national network of 46 regional task 
forces funded by the Department's Office of Justice Programs. In fiscal 
year 2005, federal prosecutors charged 1,447 child exploitation cases 
involving child pornography, coercion, and enticement offenses. The 
Criminal Division's Child Exploitation and Obscenity Section, in 
conjunction with the FBI's Innocent Images Unit, will fully integrate 
the Project Safe Childhood Task Forces by sharing local leads that 
develop from its major national operations.

                              CIVIL RIGHTS

    In 2005, the Civil Rights Division secured more convictions against 
human trafficking defendants, increased the number of trafficking cases 
filed by over 30 percent, and doubled the number of trafficking 
defendants charged from the previous year. We need to continue to 
support this concerted effort. The Civil Rights Division has also 
reported record enforcement of laws that protect the right to vote, 
ensure the disabled can fully participate in their communities, and 
provide the highest standard of care for institutionalized persons. It 
is my goal to build on these successes while supporting the 
reauthorization of the Voting Rights Act and renewing the Department's 
commitment to the principle of fair housing.
    In addition to an increased Civil Rights Division budget request of 
$113 million, the President's 2007 Budget envisions the creation of 
Operation Home Sweet Home. This initiative will focus on ensuring fair 
housing practices through improved targeting, increased testing, 
aggressive public awareness, and partnership with fair-housing 
organizations across the country. The initiative will include 
concentrated housing discrimination testing in areas recovering from 
the effects of Hurricane Katrina and bring to an all-time high the 
number of fair housing test investigations nationwide.
    All Americans should have the same chance to pursue their dreams by 
earning a job, finding homes for their families, voting for their 
representatives, and living safe from fear and servitude. We will 
continue to aggressively combat discrimination wherever it is found.

                    PUBLIC AND CORPORATE CORRUPTION

    Another priority for the Department is ensuring the integrity of 
government and business. Integrity in these institutions is the 
foundation for a strong America--both taxpayers and investors deserve 
nothing less. The Department is engaged in robust efforts to prosecute 
corruption, and I have called on Justice Department employees to 
preserve the integrity of our public institutions and corporations.
    With several high-profile convictions over the last year, the 
Department has made great strides in this area. For example, former 
public relations specialist Michael Scanlon pleaded guilty to 
participating in a conspiracy to commit bribery, mail and wire fraud, 
and honest services fraud, and 40 defendants pleaded guilty in 
connection with Operation Lively Green, a widespread bribery and 
extortion conspiracy.

                  ENFORCING FEDERAL LAW IN THE COURTS

    The Department of Justice serves as the Nation's chief prosecutor 
and litigator, representing the United States in court by prosecuting 
crime and enforcing federal civil laws. The Department's work includes 
protecting civil rights, safeguarding the environment, preserving a 
competitive market place, defending the national treasury against fraud 
and unwarranted claims, as well as preserving the integrity of the 
Nation's bankruptcy system.
    As Congress puts more law enforcement agents on the street, the 
number of cases referred for prosecution continues to rise and the 
number of criminals incarcerated will climb. The fiscal year 2007 
budget request includes enhancements of $20.2 million to fortify the 
United States Attorneys' immigration and intellectual property crime 
prosecutions; enhance the Criminal Division's ability to investigate 
and prosecute intellectual property crimes; and provide sufficient 
resources to the Tax Division to handle an increased number of tax 
cases referred by the Internal Revenue Service. Also, the fiscal year 
2007 budget includes additional resources for the United States 
Trustees to address new requirements imposed by the recently enacted 
Bankruptcy Reform legislation.

               JUDICIAL SYSTEM SUPPORT AND INCARCERATION

    As a result of successful law enforcement policies targeting 
terrorism, violent crime, and drug crimes, the number of criminal 
suspects appearing in federal court continues to grow, as does the 
number of individuals ordered detained and ultimately incarcerated. The 
fiscal year 2007 President's Budget requests significant resources to 
improve courtroom security and to provide for the detention and 
incarceration of those accused or convicted of violent crimes. During 
fiscal year 2005, the Nation's federal prison population rose 4 
percent, an increase of 7,499 inmates. During the same period, the 
federal prisoner detention population rose 7.8 percent, increasing by 
approximately 4,558 detainees per day. The request provides additional 
resources for the Bureau of Prisons (BOP) and Office of the Detention 
Trustee (OFDT) to manage this growth, including funds for additional 
contract beds. The fiscal year 2007 Budget requests $156.6 million in 
enhancements in these areas.
    The United States Marshals Service (USMS) provides protection to 
federal courthouses, members of the federal judiciary, and witnesses 
associated with federal court cases. The fiscal year 2007 budget 
provides 37 new positions and an increase of $4.6 million to enhance 
this mission. These resources will enable the marshals to detect, 
assess, and respond to potential threats in a timely manner and will 
strengthen threat analysis capability. This budget also provides new 
resources to make important upgrades to USMS information technology and 
financial management capabilities.
    The Department's BOP and OFDT protect American society by providing 
for the safe, secure, and humane confinement of persons in federal 
custody. This budget provides $1.3 billion for the OFDT and $5 billion 
for the BOP. The costs of federal incarceration and detention account 
for almost a third of DOJ's annual discretionary budget. At present, 
there are over 189,000 inmates in federal custody, of which 
approximately 11 percent were arrested on immigration-related charges 
and over 53 percent were arrested on drug-related charges. The BOP 
request will provide an additional $40.4 million to add contract beds 
at a new contractor-owned and operated low security prison in 
Philipsburg, Pennsylvania, to secure additional contract prison bed 
space and to begin the activation of a new housing unit at an existing 
correctional institution at FCI Otisville, New York, adding a total of 
1,962-beds. This budget also provides funds to house an average daily 
detainee population of 63,000. These funds will support the 
Department's goal of ensuring zero escapes from federal detention and 
secure BOP facilities.
    Criminals deserve to serve the time that they are sentenced in 
prison. However, once their time is served, they will re-enter society. 
The fiscal year 2007 Budget includes $14.9 million for a prisoner re-
entry initiative at the State and local level, designed to reduce 
recidivism and the societal costs of crime by helping released 
offenders find work and stable housing when they return to their 
communities.

                  STATE, LOCAL, AND TRIBAL ASSISTANCE

    State and local law enforcement agencies are critical partners in 
the war against terror and the fight against crime. The 2007 budget 
includes over $1.2 billion in discretionary grant assistance to States, 
localities and tribes. This funding includes $66.6 million to 
strengthen communities through programs providing services such as drug 
treatment; $44.6 million to fight terrorism; $409 million to assist 
crime victims; $88.2 million to combat crime, including enhancements to 
grant funding provided under Project Safe Neighborhoods; $214.8 million 
for law enforcement technology, including funding to continue and 
enhance the Administration's DNA initiative; and $209 million to 
support drug enforcement, including funding to continue the Southwest 
Border Drug Prosecution Program.
    In addition to the requested funding at DOJ, the Administration has 
continued its commitment to provide funding to State and local 
governments for homeland security by including $2.8 billion in funding 
for these programs in DHS' budget request for fiscal year 2007.
    The Department's fiscal year 2007 request provides enhancements to 
strengthen our communities, including $9.9 million for the Department's 
component of the Administration's offender re-entry initiative, which 
includes the participation of the Departments of Labor and Housing and 
Urban Development; $13.9 million for Capital Litigation Improvement 
grants that provide training to private defense counsel, public 
defenders, State and local prosecutors, and State judges to improve the 
competency of all participants connected with the trial of State 
capital cases; $59.3 million for Drug Courts; and $68.4 million for the 
President's DNA initiative.
    The fiscal year 2007 budget also contains $29.8 million for local 
prosecutor offices in the four Southwest border states--California, 
Texas, Arizona, and New Mexico. This funding would provide for payment 
of approved prosecution and pre-trial detention costs for cases 
referred to local prosecutors by the United States Attorneys' Offices, 
and cases diverted from federal prosecution by law enforcement pursuant 
to a locally-negotiated agreement.
    The fiscal year 2007 request for State and local resources also 
includes $40.7 million in support of activities authorized in the 
Justice For All Act, including funds for the enhancement of the federal 
victim notification system as well as legal counsel and support 
services for victims of crime.

           MANAGEMENT AND INFORMATION TECHNOLOGY IMPROVEMENTS

    The Department of Justice is committed to providing the management 
and information technology necessary to ensure that our resources are 
used efficiently and effectively. The fiscal year 2007 President's 
Budget requests $133.9 million in enhancements for critical Department-
wide initiatives that support the Department's Strategic Goals and the 
President's Management Agenda.
DOJ Financial Management
    The Department of Justice is committed to full accountability and 
continuous improvement in its financial operations, and we were 
extremely pleased to restore the unqualified audit opinion on our 
public financial statements this past year. However, independent 
auditors again identified material weaknesses in the Department's 
outdated financial systems, weaknesses that the planned Unified 
Financial Management System (UFMS) is designed to address. To that end, 
we greatly appreciated the funding provided by Congress in fiscal year 
2006 for the UFMS project. That funding permitted us to make a contract 
award to begin implementation of the new system in the first two 
components (DEA and the Assets Forfeiture Fund). To continue this 
critical project in 2007, we are requesting $25 million to complete the 
component implementations begun this year and begin implementation work 
for three additional components, including the FBI.
Other DOJ Information Technology Initiatives
    The fiscal year 2007 Budget request includes enhancements of $18.1 
million for the Justice Consolidated Office Network (JCON) to complete 
transition of the Bureau of Prisons to the JCON community. JCON 
provides a modern office automation system to multiple components using 
a common architecture for enhanced information sharing and 
interoperability. The request also includes $9 million and 29 positions 
for USMS audited financial statements and technology enhancements, 
including $3.9 million for the Justice Detainee Information System. The 
request also includes $83.7 million for FBI information technology 
enhancements, including $33 million for IDENT/IAFIS Interoperability 
activities.
    The Department continues to evaluate its programs and operations to 
improve management and stewardship. Our goal is to achieve both 
component-specific and Department-wide economies of scale, increased 
efficiencies, and cost savings/offsets to permit us to fund initiatives 
that are of highest priority. The Department is engaged in a multi-year 
process to implement a wide range of management and information 
technology improvements that will result in substantial savings. 
Enhancements in management and information technology will ensure all 
DOJ components are able to function in an interoperable environment, 
particularly with respect to preventing terrorist attacks on the United 
States.
Working for America Act Implementation
    The Working for America Act requires agencies to manage, develop, 
and reward employees effectively and to implement a new pay and 
performance system. Implementing this Act requires significant 
investments in training. The Department requests $2 million to support 
the Working for America Act through the training of managers and 
supervisors in performance management and in using the new pay and 
performance system.

                               CONCLUSION

    Mr. Chairman, Senator Mikulski, Members of the Subcommittee, I 
recently started my second year as Attorney General. I would like to 
take this opportunity to commend the people of the Justice Department. 
Each day I work with people who could be Chief Executive Officers in 
the private sector or partners at private law firms, but they all 
choose to serve their Nation by working for justice. They work for 
justice because they believe in the work we do to fight crime and 
safeguard the American people from terrorism. I am honored to work 
alongside them every day.
    I ask for your support in providing the resources requested in the 
2007 budget, so that we can fulfill our mission to safeguard the 
American people. I am honored to testify before you and look forward to 
working with you on this budget proposal and other issues.
    Thank you. I would be pleased to answer any questions you might 
have.

                        STATE AND LOCAL PROGRAMS

    Senator Shelby. Thank you, Mr. Attorney General.
    Just to touch on a few subjects, we have all brought them 
up, Mr. Attorney General, the Department of Justice, as I said 
earlier, is requesting a 51.6 percent funding cut for State and 
local law enforcement assistance programs. The Department 
expresses how critical State and local law enforcement 
partnerships are in homeland security and the war on terror but 
continuously proposes these cuts.
    When you visited the gulf coast area devastated by the 
hurricanes of the 2005 season, what was the number one thing 
that State and local law enforcement officials needed from the 
Department of Justice in support of their recovery efforts?
    Attorney General Gonzales. They needed resources. They 
needed training. They needed support. That is what they were 
asking for. Mr. Chairman, this budget does have cuts in certain 
programs----
    Senator Shelby. Sure.
    Attorney General Gonzales [continuing]. That have 
benefitted State and local law enforcement. But I think if you 
study the budget, you will see that there is a lot of 
assistance being provided through this budget to State and 
locals in a wide variety of areas. There is $1.2 billion in 
discretionary grants to State and locals, for example. There is 
$66 million to help communities with issues like drug 
treatment; $44 million to fight terrorism--these are grants 
directly to State and locals--$409 million to assist crime 
victims; $82 million to fight crime, including enforcement for 
Project Safe Neighborhood programs; $214 million for law 
enforcement technology, including funding for the DNA 
databases; $209 million to support drug enforcement, including 
funds for the Southwest border drug prosecution program.
    And so, there is a lot of assistance and support for State 
and local agencies in this budget. I want to emphasize that. We 
understand how important these partnerships are. As I travel 
around the country, and I talk to State and local officials, I 
emphasize to them my commitment to continue working with them 
as hard as I can.
    We have difficult decisions that have to be made in the 
budget. This budget represents the President's priorities. We 
think this budget does provide a large amount of assistance to 
State and locals, but it is targeted in a way that meets the 
President's priorities and ensures that we are accountable in 
the way these funds are spent, we are accountable to the 
taxpayers in this country.
    Senator Shelby. Mr. Attorney General, the budget also 
proposes a 44 percent cut from last year in juvenile justice 
programs. Why such a drastic cut on programs that impact our 
children?
    Attorney General Gonzales. We have reduced juvenile justice 
programs by $150 million; $98 million of that is for 
demonstration programs that were earmarked funding that we 
simply are not requesting, and $49 million of that was for the 
juvenile accountability block grant that did not fare well in 
our evaluation and analysis process of whether or not programs 
that we are funding are effective. There is insufficient 
accountability.
    But we still fund $188 million for juvenile justice, and I 
think we should also get credit for the amount of money that we 
spend on law enforcement to help kids in the area of gangs, 
prevention, reinforcement, and reentry; OJP programs focusing 
on child prostitution, the sex offender registry, the ICACs, 
which are the Internet crimes against children task forces; 
Amber Alert; the money we spend to fund for new prosecutors to 
go after people exploiting children, trafficking in children; 
money for drug courts.
    So there is a lot of money in the President's budget to 
focus on crime specifically related to juveniles.

                            SEXUAL PREDATORS

    Senator Shelby. Mr. Attorney General, the rate of 
recidivism among convicted sexual predators remains alarmingly 
high. According to the National Center for Missing and 
Exploited Children, there are approximately 550,000 registered 
sex offenders in the United States. It is estimated that nearly 
100,000 sex offenders have not registered or have failed to 
update their information. These people are normally obscure 
when living in our neighborhoods but have been convicted of 
preying upon families and children.
    Last year, the Department of Justice announced the creation 
of a National Registry website for sex offenders. Could you 
tell us about the registry, expand just a little on it, and any 
goals or successes the Department could share with us here? I 
think it is important.
    Attorney General Gonzales. We did announce a National 
Registry which would allow parents to go online to determine 
whether or not there were sex offenders living in their 
neighborhoods. The registry is dependent on the information 
provided by State records. To date, all the States but two are 
now part of this registry. So we have made good progress in 
getting States to participate in this program.
    There is, however, a problem, as I indicated. We are 
dependent on the records provided by the States and the upkeep 
of these records by the States, and we have discovered 
instances where some States are rather tardy in updating their 
records.
    Senator Shelby. Do they register them in different ways in 
different States?
    Attorney General Gonzales. It is different information. 
That is right. We did not want to impose upon the States a 
uniform method of providing the information. This was a way 
that we could provide information to parents fairly quickly, 
without a great deal of cost to the States. So that is why we 
took this approach. In my judgment, it has been effective, but 
again, we need to work with the States to ensure that they are 
updating their databases as often as possible so that we have 
the most current information for parents.
    Senator Shelby. How can you meet the challenge, that is, 
there are an estimated 100,000 sex offenders who are 
unregistered? How can you work with the Justice Department and 
local law people to get these 100,000 people to register?
    Attorney General Gonzales. Well, that is a very good 
question, Mr. Chairman. It is a challenge for the Department. 
As these offenders are, in fact, convicted, and first of all, 
we hope that there are requirements that they do register. If 
they do not register, there needs to be some kind of 
enforcement to ensure that there are consequences for it. But 
you are right. I do not have an answer for you, a good answer 
for you, Mr. Chairman. What I can tell you is that I am aware 
of the problem, and we will continue to work on it with State 
and local officials.

                             FEDERAL PRISON

    Senator Shelby. I want to get into the Bureau of Prisons. I 
mentioned that in my opening statement.
    Attorney General Gonzales. Yes.
    Senator Shelby. A couple of prisons that you recommended 
last year and this year, one in West Virginia, one in New 
Hampshire for rescission. How and under what statute could you 
justify ignoring the direction of Congress 2 years in a row by 
rescinding funding for two prison construction projects? Could 
this be clarified as an impoundment of funds, or what is it?
    Attorney General Gonzales. It is not an impoundment, Mr. 
Chairman, and it is not as a technical matter a rescission. No 
one has told the Bureau of Prisons or directed the Bureau of 
Prisons not to move forward with these two prisons. And in 
fact, with respect to the West Virginia prison, we expect that 
a contract for the design and planning will be let shortly and 
that there are sufficient funds in the budget for 2007.
    With respect to New Hampshire, we anticipate that that 
contract will be let sometime in the fall, and we will have a 
decision by this subcommittee as to whether or not funds will 
be available in 2007 for the design and plans of that facility. 
If the subcommittee makes the decision to not provide funds for 
the design and the planning of that facility for 2007, then 
what we will have to do is see if there are other resources 
within BOP, see if there are other resources within the 
Department.
    Again, if resources are not there, then what we will have 
to do is see whether or not we ought to look at--besides 
looking at building a new facility, is there a way we can 
renovate existing facilities? Is there a way that we can 
contract out for beds with State and local entities? We do need 
the beds, and the question is what is the most efficient way to 
obtain those beds? So that is my response to your question 
about the $142 million.
    Senator Shelby. Thank you.
    Senator Mikulski.

                       NATIONAL SECURITY DIVISION

    Senator Mikulski. Mr. Attorney General, the Justice 
Department is tasked with playing a very important role in the 
global war against terrorism. Under the PATRIOT Act, my 
question is going to go to the National Security Division that 
has been created through the PATRIOT Act.
    The 2007 budget includes the funding of $67 million for 
this National Security Division. Could you share with the 
subcommittee what this money will buy? Essentially, how does 
it--because we have now been through a look at the PATRIOT Act. 
How will this $67 million buy us more security, or is it buying 
us more bureaucracy?
    And how, then, does that differ from the national security 
branch that is going to be at the FBI? And how does it all fit 
together, and how do you fit in with the DNI? Let us start with 
what we buy for $67 million. That is a lot of money, and is 
this to stand up a new division? Is it to buy more gizmos and 
gear? Where are we heading here?
    Attorney General Gonzales. Well, currently, we are talking 
about consolidating three branches within DOJ: The Office of 
Intelligence Policy and Review, the counterespionage section 
and the counterterrorism section. So we are talking about 226 
individuals, 226 people with a budget of currently about $48 
million.
    And so, what we are asking for in 2007 is for an additional 
$19 million to add an additional 68 people to the National 
Security Division. You have to remember that part of what we 
are talking about is the branch that is responsible for 
preparing the applications for the Foreign Intelligence 
Surveillance Act (FISA). And there has been a lot of talk 
recently about FISA application and whether or not we have 
sufficient resources to continue to make FISA an effective tool 
not only in the war on terror but against other foreign powers.
    Senator Mikulski. You need $20 million more and 68 people 
just to do FISA applications?
    Attorney General Gonzales. Oh, no ma'am, that is not what I 
said, ma'am.
    Senator Mikulski. And does it cost $20 million to hire 68 
people? That is expensive even by some Government accounting.
    Attorney General Gonzales. Yes, ma'am. But in addition, of 
course, there are going to be startup costs in connection with 
consolidation of these units. It is going to require special 
technology. We want more secure technology so that they can 
communicate with each other and also communicate more 
effectively with the entire intelligence community.
    And so, these are some of the costs that are going to be 
incurred. I would like the opportunity, Senator, to give you a 
more detailed breakdown.
    Senator Mikulski. Is this an awkward place to have this, in 
an unclassified setting?
    Attorney General Gonzales. No, ma'am, I do not think it is 
that, quite frankly. I just do not have the detail in my head 
that you are asking for. Okay; technology, the Sensitive 
Compartmental Information Facility (SCIF), we need more SCIFs 
and more intel analysts. So these are some of the additional 
things that we would need in connection with the startup of 
this division.
    And you asked whether or not this is the creation of a new 
bureaucracy. You have to remember that this was one of the 
recommendations of the 9/11 Commission. They recognized that of 
all the departments, all the agencies that focus on the war on 
terror, here you have the Department of Justice claiming that 
terrorism is our number one priority, and yet, we had no 
central location, no central officer below the Attorney General 
and the DAG that was focused primarily on the national security 
of our country with respect to law enforcement matters.
    And so, my hope and certainly my intent--this is not the 
creation of a bureaucracy, but we will make the Department more 
effective.
    Senator Mikulski. If I could jump in, the FBI, first of 
all, I understand we are into the 9/11 Commission reforms. We 
recommended some essentially one-stop shops: the Office of DNI; 
now, this at the Justice Department. And I am not disputing the 
value. We want to implement the--absolutely passionate about 
implementing the 9/11 Commission's report. But then, it says 
the Criminal Division of Counterterrorism and Counterespionage. 
But does the FBI not also have this?
    Attorney General Gonzales. Yes.
    Senator Mikulski. And are you duplicating what the FBI 
does?
    Attorney General Gonzales. Of course, their focus is in the 
investigation. We will be focused primarily on the prosecution 
side of it, and so, we will have different functions. And 
obviously, there will be a lot of interaction, and we will be 
working closely together.
    Senator Mikulski. You mean the prosecution of terrorism?
    Attorney General Gonzales. Yes, ma'am, but not only the 
prosecution of cases but also detection and prevention. Working 
with----
    Senator Mikulski. Is that not what FBI is doing with 
detection and prevention?
    Attorney General Gonzales. Yes, ma'am, and they will 
certainly be doing that as well.
    Senator Mikulski. You see my question is are we all going 
to be bumping into each other.
    Attorney General Gonzales. No, ma'am, we are not going to 
be bumping into each other. We have been working very hard.
    Senator Mikulski. And I am not being sarcastic.
    Attorney General Gonzales. And I do not take your comment 
as that.
    Senator Mikulski. It has been 5 years since 9/11, 5 years, 
and I do not know if I feel safer. We in the Capital region 
still do not have a clear evacuation plan. We in the Capital 
region do not have interoperable communication. We do know in 
the Capital region local law enforcement talks with each other 
and works together, as we saw under the leadership of the FBI 
and ATF the way we handled the sniper, which is considered a 
national model of dealing with a crisis, for which we were very 
grateful and very proud. But----
    Attorney General Gonzales. You asked whether or not we were 
safe.
    Senator Mikulski. Do you see where----
    Attorney General Gonzales. Yes, ma'am.
    Senator Mikulski. And so, I am looking at whatever we do, 
it is not about new boxes and new bucks. It is about safety, 
security, and strength.
    Attorney General Gonzales. Senator, I believe that this 
will make us safer, and I think we are safer than we were 5 
years ago. We have taken tremendous steps with the assistance 
of Congress, and thank you for that, to give us additional 
tools to make America safer. I believe, and I think others 
believe, including the President of the United States, that 
having a National Security Division which focuses on our number 
one priority, which coordinates the law enforcement efforts to 
prosecute and to prevent terrorism, is something that is 
necessary for the Department of Justice and will make us safer.
    You ask a legitimate question as to whether or not we are 
going to be bumping into each other. My goal is that we 
recognize that that cannot happen, and obviously, it is 
something that we have to be sensitive to as we stand up the 
National Security Division and as the FBI moves forward with 
the national security branch.
    Senator Mikulski. Well, I know we will be pursuing this 
more when we talk to the FBI.
    I want to be very clear about what I said about feeling 
safer. I want to say hats off to the people who work in the 
intelligence community, to the FBI and others who are doing due 
diligence, that I believe have detected, derailed, destroyed 
the predatory attacks coming into the United States. So it has 
been 5 years since an attack. So I want to acknowledge that.
    But we have a lot more systemic reform that we need to do, 
and I sometimes am fearful that we get bogged down in boxes and 
charts and bureaucracy rather than safety and security. So I do 
not in any way doubt the energetic, dedicated work that people 
all over our country and all over the world who work for the 
Federal Government are doing to keep us safe, so I want to 
acknowledge that.
    That is why we want the best organization, the resources 
that they need along with the training and management and 
technology, that they do it right. So my time is up on this. I 
know that we will come back.
    Senator Shelby. Senator Leahy.

                              CHOICEPOINT

    Senator Leahy. Thank you, Mr. Chairman. As I indicated in 
my earlier statement, I am concerned that the FBI signed a 
multimillion dollar licensing agreement with data broker 
ChoicePoint. I consider them the poster child for lax identity 
protection. They want to expand the use of software to help the 
Bureau analyze criminal organizations.
    Just to put this into context, earlier this year, the FTC 
levied the largest civil penalty on record on ChoicePoint. They 
found that they had sold 160,000 consumer records to identity 
thieves. Last year in the Senate Judiciary Committee, we heard 
that because of this, hundreds of Americans were victims of 
identity theft, and people who have faced that sometimes can 
spend years and huge amounts of money to get out of it.
    So now, we take the same company that has done horrible 
damage to their customers already, and they are to expand the 
FBI's analysis of criminal organizations. How do you justify 
entering into a multimillion dollar contract with ChoicePoint 
to handle sensitive investigative data about criminal 
enterprise operations when we know they are so lax that they 
used terrible judgment before with nonsensitive data, just 
normal data?
    Attorney General Gonzales. Senator, obviously, there were 
mistakes made by ChoicePoint, and they have suffered the 
consequences for that. Let me just----
    Senator Leahy. Consequences, yes, they got a big fine, but 
why ChoicePoint? What is in their history that suggests that 
they know how to do this?
    Attorney General Gonzales. The decision was our 
determination that this was the best contract for the Bureau. 
It is a contract for technology and software only. It is not a 
contract for data services. It is a $12 million contract over 5 
years, and I think that it reflects the best judgment that this 
was the best contract for the Bureau.
    I want to emphasize that we understand the importance of 
respecting and protecting people's privacy, and we take those 
concerns very seriously. Those concerns were taken into account 
in connection with this contract.
    Senator Leahy. Well, you know, I want to beg to differ with 
you a little bit on taking the concerns of people's privacy 
seriously. Yesterday, the GAO found that the Justice 
Department, which uses private information services for law 
enforcement and counterterrorism and other investigations often 
does not even follow Federal rules. You do not even follow your 
own laws in protecting Americans' privacy.
    According to the report, the Department of Justice and 
three other Federal agencies spent about $30 million last year 
on companies such as ChoicePoint that maintain billions of 
electronic files about adults' current and past addresses, 
family members and associates, buying habits, personal 
finances, listed and unlisted phone numbers.
    I mean, this is going way beyond criminals or criminal 
organizations you are after. This is people in this room, 
tourists walking through this building or viewing the Grand 
Canyon or anything else. Now, what do you say about GAO? They 
say you are not even following the law. You are contracting out 
tens of millions of dollars. You are collecting a huge amount 
of data. Why should we feel more secure about this?
    Attorney General Gonzales. Senator, obviously, the 
allegation that we are not following the law is a serious one. 
I have not read the GAO report, but obviously, we are going to 
study it very, very carefully, and if we are not doing what we 
are supposed to be doing, there should be consequences. We take 
our responsibilities very seriously, but again, I have not seen 
the report. I have not studied the report. I am not saying the 
report is incorrect.
    Senator Leahy. Mr. Attorney General, understand that I am 
not suggesting that you as Attorney General want to go and hand 
out this private data to crooks any more than I do or any more 
than anybody here. What I am saying is what level of competence 
are you requiring so that does not happen? Because it is not 
enough for us just to say, whoops, too bad if you have had 
somebody's life or their business ruined or their children's or 
their spouse's, or their medical records are all over the 
place, and they have lost their privacy. You see my concern.
    Attorney General Gonzales. I do understand your concern, 
and I share your concern. There should be only one standard, 
and that is what the law requires to ensure that the personal 
data with respect to individuals is not compromised. You are 
correct: when that happens, it can be devastating to 
individuals. We have an obligation to ensure that we are doing 
everything we are legally required to do and perhaps beyond 
that to ensure the protection of this kind of information. If 
we are not doing that, Senator, I am going to--I want to know 
why and----
    Senator Leahy. Well, I have asked this question. I will be 
following up with you, and somebody should look carefully into 
it.
    Attorney General Gonzales. Yes, sir.
    Senator Leahy. I was glad to hear you say you want to keep 
FISA helpful in your answer to Senator Mikulski's question; I 
am glad to know that you consider it helpful. Next time you are 
down at the White House, you might want to mention it to them 
that it is helpful, because the word has not gotten there.

                           CRIME VICTIMS FUND

    I have one last question on the crime victims fund. I saw 
so many victims of crime when I was a prosecutor. It has gotten 
far worse now than it was then just because we have become a 
larger country, and crime has gotten even more vicious. The 
crime victims fund has been so helpful all over the country, 
and now I find the administration wants to raid it of roughly 
$1.25 billion by the end of the fiscal year. Last year, the 
administration tried to do that. Congress, in a bipartisan way, 
blocked it.
    Now, this is not money from American taxpayers. It comes 
from criminal fines----
    Attorney General Gonzales. And penalties.
    Senator Leahy [continuing]. And forfeitures. It has 
provided critical services: 4 million victims of domestic 
violence and sexual assault, child and elder abuse, drunk 
driving, all these other crimes, this is $1.25 billion, what we 
will spend between now and the end of the week in Iraq. But we 
are cutting this from people here in the United States who 
desperately need it. How can you justify that?
    Attorney General Gonzales. Well, Senator, there has been a 
cap on the use of this excess above what has been appropriated 
since, I believe, 2000 or 2001. And so, when you say how can 
you take this away from victims, the truth is we cannot even 
spend it on victims. There is an obligation cap on spending 
this money. What we are----
    Senator Leahy. Operation cap? This is going to leave it at 
zero going into 2008. I guarantee you, just go one dollar over 
zero, and we will spend that.
    Attorney General Gonzales. We begin collecting receipts for 
2008 in 2007. If we look at the record of the past few years, 
we can see the receipts will clearly reach a level of $625 
million, which is what both the administration and the Congress 
have indicated in the past few years is an appropriate level of 
expenditure with respect to----
    Senator Leahy. No, because last year, when you tried to cut 
it out, we put it back in, so now you are trying the same thing 
so we will put it back in?
    Attorney General Gonzales. But, Senator, you said you put 
it back in----
    Senator Leahy. Big spending Congress?
    Attorney General Gonzales [continuing]. We cannot spend it 
on victims. You characterize this as monies that are available 
for victims, and yet, you would not let us spend it. There is a 
cap.
    Senator Leahy. And drunk driving and child and elder abuse 
and a whole lot of other things. Maybe we are ships crossing in 
the night, but under your plan it is zeroed out by fiscal year 
2008. How many of these organizations that are using this are 
going to be able to plan for it?
    Attorney General Gonzales. We will commence collecting 
receipts for 2008 in 2007, and we will have a very good idea as 
to whether or not the receipts are going to be sufficient to 
meet the obligations.
    Let me just emphasize that again, this administration is 
very much committed to crime victims. That is why we support 
the $625 million to be spent on crime victims programs. What we 
are talking about is $1.2 billion, which represents a perpetual 
float. It is not appropriate--well, I am not an accountant, but 
it seems to me it seems an odd accounting--I do not want to say 
gimmick--but procedure to include this in the budget when, in 
fact, it cannot be spent for crime victims. And it simply rolls 
over year after year after year. We believe very strongly in 
ensuring that there is a large amount of money available for 
crime victims, and we believe $625 million----
    Senator Leahy. Well, I think it is going to come as a huge 
surprise to a lot of people who deal with crime victims around 
this country that, gosh, we have got too much money for you to 
use. I know so many crime victims organizations that are 
desperate for money for battered women----
    Attorney General Gonzales. But, Senator, you will not let 
us spend the money.
    Senator Leahy [continuing]. For abused children----
    Attorney General Gonzales. You will not let us spend the 
money.
    Senator Leahy. What?
    Attorney General Gonzales. You will not let us spend the 
money for crime victims above $625 million. So to say that 
the----
    Senator Leahy. Well, let me put it this way: you say the 
Congress, so it is Congress' fault. Has the administration ever 
asked us to put more money or lift these caps?
    Attorney General Gonzales. Well, I think the $625 million 
is sufficient to meet the needs of crime victims.
    Senator Leahy. Okay. Thank you, Mr. Chairman. I appreciate 
the time.
    Senator Shelby. Senator Harkin.
    Senator Harkin. Thank you very much, Mr. Chairman.

                          BYRNE GRANT PROGRAM

    Mr. Attorney General, I want to get back to the Byrne grant 
program. Funding has been eliminated in the budget. One of the 
rationales offered is that the program has not demonstrated a 
satisfactory level of performance results. You said in your 
opening statement that your budget cuts programs have not met 
our high standards.
    However, the people in Iowa tell me that there has never 
been any effort on the part of the Bureau of Justice Assistance 
to actually measure the performance results of this program. 
Mr. Attorney General, has there been a valid effort to 
determine if Byrne dollars are working nationally as well as 
they are in Iowa?
    Attorney General Gonzales. My understanding, Senator, is 
that with respect to the Byrne grant funds that are 
discretionary, they are all earmarked, and it is very, very 
difficult for us to determine whether or not they are being 
effectively spent. I do not know the answer to your question as 
to whether or not there has been some kind of effort by the 
Department to evaluate the effectiveness of these grants in 
your State, but I can certainly find out and get back to you.
    Senator Harkin. I am talking about nationally. I mean, you 
said that you cut these programs that do not meet your high 
standards and that have not demonstrated a satisfactory level 
of performance results. Well, how can you zero out the Byrne 
grant program when you do not know?
    Attorney General Gonzales. Well, Senator, I think that 
again----
    Senator Harkin. May I correct one thing?
    Attorney General Gonzales. Yes.
    Senator Harkin. You said that all the dollars were 
earmarked? Is that what you said?
    Attorney General Gonzales. Well, with respect to Byrne 
grants, some are based on formulas to States.
    Senator Harkin. Yes, $416 million was formula.
    Attorney General Gonzales. And some are discretionary.
    Senator Harkin. $167 million.
    Attorney General Gonzales. Which are earmarked.
    Senator Harkin. $167 million.
    Attorney General Gonzales. All of it is earmarked.
    Senator Harkin. $167 million.
    Attorney General Gonzales. As I understand it.
    Senator Harkin. Pardon?
    Attorney General Gonzales. As I understand, all of it is 
earmarked.
    Senator Harkin. $416 million went out by formula.
    Attorney General Gonzales. Exactly; some of it is by 
formula to the States, and a portion of it, which is 
discretionary, and all of that is earmarked.
    Senator Harkin. And that is $167 million. I said that.
    Attorney General Gonzales. Yes, sir, and part of the 
problem that we have with the earmarks is, quite frankly, it 
takes off the table the ability of nonprofit groups, faith-
based organizations to compete for these dollars. They can 
provide services, very important needy services to the 
community, but they are precluded from doing so because these 
programs----
    Senator Harkin. Can you name me one NGO or faith-based 
group that is doing the kind of work that the local law 
enforcement people are doing under Byrne in fighting 
methamphetamine?
    Attorney General Gonzales. Perhaps not on the law 
enforcement side, but of course, in fighting methamphetamine, 
we are focused well beyond law enforcement. We are looking at 
education; we are looking at prevention; we are looking at 
reentry, and so, clearly, there are NGOs and faith-based 
organizations that are involved in that effort.
    Senator Harkin. That is true, but that is in another 
funding packet. Where do you fund that? That is not funded 
under Byrne. Byrne is for law enforcement.
    Attorney General Gonzales. Well----
    Senator Harkin. I still want to get back. I mean, how can 
you say it has not met your high standards when there has not 
been any effort done to quantify performance results?
    Attorney General Gonzales. Senator, I did not say that 
there has not been an effort. Let me find out and confirm that 
with you.
    Senator Harkin. Well, I have reviewed the publicly 
available so-called performance assessment rating tool, PART 
analysis of the Byrne JAG program. It does not contain any 
feedback from any of the program participants or beneficiaries. 
Again, I would think that feedback and actual results, which I 
can compile, would be included in any type of review. Why would 
that not be included?
    Attorney General Gonzales. Well, Senator, let me just say 
this, and I would like the opportunity to get back to you to 
respond to your question. I want to make sure that I give you 
the most accurate information that I can. But in terms of while 
Byrne grants may have been zeroed out, we are giving a lot of 
money to States, to local communities on a wide variety of 
issues including drugs, $10 million for the prescription drug 
monitoring program; $70 million for drug courts.
    And so, the fact that Byrne may have been cut does not mean 
that State and locals are not receiving Federal dollars with 
respect to some of these programs. What we have done is 
identified those priority areas for this President and focused 
money on those priority programs.
    Senator Harkin. Well, all I can say is that just between 
2005 and this year, Iowa absorbed a $2 million cut, 42 percent 
of the funding. And again, this paid almost exclusively for 
drug task officers going to have to be laid off in the middle 
of a meth epidemic.
    And again, I recognize you have to have education. We need 
more money for rehabilitation. We do not have enough money in 
there for meth rehab. The recidivism rate is very high, because 
we know that to effectively get people over the hump on meth, 
it takes 6 months to 1 year. Yet, we are treating them for 6 
weeks, and then, we are wondering why they are showing back up 
in our jails and our prisons again. So we do not have enough 
money for that either. But I am really upset. As far as I have 
heard from law enforcement all over this country, the Byrne 
grant program has worked. It is working well.
    I just want to say one other thing for the record, Mr. 
Attorney General. On the issue of performance results, States 
are required to report the results of the Byrne grant program 
to the Bureau of Justice Assistance. Last year, my staff asked 
BJA about this reporting. They were told that 20 States had not 
met the deadline to turn in their reports. So we investigated 
that. We called these States. And then finally got back to BJA, 
and they conceded that, in fact, only Guam and American Samoa 
had failed to turn in their performance results. We were being 
told that 20 States had not.
    So again, this all calls into question your justification 
for eliminating the program. You say you are going to get back 
to me on it. I appreciate that. But what in the meantime do I 
tell law enforcement officers in Iowa and others when I see the 
budget eliminated? You know, again, I just see no justification 
for it whatsoever. And I still do not know the answer as to why 
it has been eliminated. But if you can get back to me on that, 
I would appreciate it.
    [The information follows:]

                       Cuts to Byrne JAG Program

    In order to focus departmental resources on 
counterterrorism, which is and must be the Department of 
Justice's (DOJ) overriding priority, the Administration was 
required to make difficult choices in this budget proposal.
    The President's fiscal year 2007 budget proposal recognizes 
the Federal government's responsibilities in regard to 
supporting effective law enforcement and improving the nation's 
criminal justice system. If approved as proposed, the 
President's fiscal year 2007 budget will provide over $1.2 
billion to State, local, and tribal law enforcement through the 
U.S. Department of Justice. This includes $66.6 million to 
strengthen communities through programs providing services such 
as drug treatment; $88.2 million to combat violence, including 
enhancements to Project Safe Neighborhoods; and $209 million to 
support drug enforcement, including funding to continue and 
expand the Southwest Border Drug Prosecution Program. The 
initiatives included in this proposal were selected by 
concentrating scarce resources on the highest priority criminal 
justice issues; promoting effective, evidence-based approaches 
to improving law enforcement and criminal justice system 
capabilities; and eliminating funding for programs that could 
not demonstrate results.
    The proposed elimination of the JAG Program in fiscal year 
2007 is based on this program's inability to clearly 
demonstrate its effectiveness. During the fiscal year 2005 PART 
assessment of the JAG Program and its predecessors (the Byrne 
Formula Grant Program and the Local Law Enforcement Block 
Grant), OMB concluded that these programs have not been able to 
clearly demonstrate through quantifiable performance measures 
that they had achieved nor were making progress toward their 
goals. In light of the broad array of assistance offered to 
State, local, and tribal law enforcement agencies through OJP, 
the Administration determined that the funds currently devoted 
to the JAG Program could be used more effectively elsewhere.

                       VIOLENCE AGAINST WOMEN ACT

    Senator Harkin. One last thing, Mr. Attorney General, and 
that is the Violence Against Women Act. The President hailed 
the reauthorization of it when he signed the bill in early 
January, but in February, the budget provided no funding for 
any of the new programs authorized by the Violence Against 
Women Act. That included $50 million in funding for victims of 
sexual assault. I was just visited in my office this morning by 
some people regarding that.
    It is the first time that sexual assault victims received 
dedicated funding. And again, if you have any information on 
that at your fingertips, I would like to know why there was not 
any funding for any of the----
    Attorney General Gonzales. Well, Senator, I believe that 
the President's budget does include $347 million for the Office 
on Violence Against Women. So perhaps I need to go back and 
check my figures, and I am happy to do that. If we need to give 
you more information about what we are doing for victims of 
violence, be happy to do that.
    Senator Harkin. Well, I would appreciate that, because I am 
told that there is no funding for any of the new programs, one 
of which is in funding for victims of sexual assault. It is the 
first time that they received dedicated funding, and there was 
no funding for it.
    Attorney General Gonzales. I would be happy to look at 
that.
    [The information follows:]

  Violence Against Women Act Funding Within the Department of Justice

    The 2007 President's budget for the Office on Violence 
Against Women (OVW) is $347,013,000. An additional $21,869,000 
is requested for victims of child abuse programs administered 
by the Office of Justice Programs. These amounts do not include 
increased funding or new initiatives based on the recently 
enacted reauthorization of the Violence Against Women Act 
(VAWA), due to the fact that the reauthorization was signed 
just prior to the release of the 2007 President's budget. As 
the Administration prepares future budget proposals, the 
reauthorization will be considered. In the interim, OVW is 
actively working on a plan to make the changes directed by the 
new legislation for the current VAWA grant programs.

    Senator Harkin. I appreciate that. Thank you, Mr. Attorney 
General.
    Thank you, Mr. Chairman.
    Senator Shelby. Senator Kohl.
    Senator Kohl. Thank you, Mr. Chairman.

                              BYRNE GRANTS

    Just to conclude the Byrne grant questions, Mr. Attorney 
General, if you talked to police chiefs or sheriffs all across 
my State, all across the country, they say that the Byrne grant 
program is the backbone of Federal aid for local law 
enforcement. Now, it has been for many, many years. They have 
always attested that it was a good program, that the funds were 
used carefully.
    As you know, the funds are appropriated down to the local 
level so that each dollar becomes very important. We are not 
talking about billions. We are talking about, you know, 
millions and thousands and hundreds of dollars so that they see 
that these dollars are used very efficiently. I think there is 
ample evidence that that is true.
    Now, you have not told us why you would see fit not to cut 
this program but to scrap it. Did I hear your explanation, or 
have you not given it?

                        STATE AND LOCAL PROGRAMS

    Attorney General Gonzales. Well, let me try to clarify what 
I have said. With respect to Byrne, this has been a difficult 
decision. The decision was made that we have got to be more 
focused on the priorities of the administration. And if you 
look at the money that is going to State and locals, there is a 
lot of money that is being spent for State and locals on areas 
like terrorism, $40 million for terrorism. And so, it may not 
be going through a Byrne grant, but there is $40 million going 
to State and locals regarding terrorism; to reduce crime, $16 
million for VCIT programs; $59 million for Project Safe 
Neighborhoods; $15 million for gang training and technical 
assistance; $10 million for prescription drug monitoring; $7 
million for drug courts; $15 million for ICACs; $22 million for 
trafficking; $2 million for sex offender registry; $347 million 
for Office on Violence Against Women; $106 million for DNA; $40 
million for the national criminal history improvement program 
(NCHIP); $30 million for Southwest border prosecution; $50 
million for the weed and seed program; $31 million for Indian 
country problems; $40 million for meth cleanup; $3.9 million 
for training.
    The point is, Senator, is there is a lot of money going to 
State and locals. We have simply decided that it is better--we 
have a responsibility to the taxpayers to ensure that the 
monies that are being allocated to the States are focused on 
specific programs which we believe are effective, which we 
believe affect the most pressing needs of our communities.
    And we believe it is a more effective way to provide monies 
out to deal with local issues. This does not reflect in any way 
a lack of commitment to working with State and local officials 
who we consider our partners. We want to continue to build on 
that relationship, but we have a responsibility, too, to the 
taxpayers, and we believe this is a more responsible way to get 
dollars down to State and local officials.
    Senator Kohl. Are you saying that these programs total up 
to as much as more than the Byrne grant program.
    Attorney General Gonzales. No, sir, I am not saying that.
    Senator Kohl. I see.
    Attorney General Gonzales. I am not saying that, no, sir.
    Senator Kohl. I think when we add up the dollars, Mr. 
Attorney General, we are talking about cuts, significant cuts.
    Attorney General Gonzales. But, sir, I am not sure that our 
service to our communities can be measured solely in the 
dollars. The dollars have to be spent efficiently and wisely, 
and I know as a businessman, you understand that and can 
appreciate that.
    And so, that is the question: are we spending the 
taxpayers' dollars efficiently and wisely on programs that are 
targeted on the greatest needs in our communities?
    Senator Kohl. But you have never assessed the program. You 
are apparently saying the money was not being spent 
efficiently. You are sort of winging it when you say that, and 
I do not want to use that word inappropriately.
    Attorney General Gonzales. Yes, sir.
    Senator Kohl. So we are just going to cut it.
    Attorney General Gonzales. No, Senator, what I am saying is 
that we have identified in this budget the President's 
priorities: the pressing needs within the communities, and the 
decision has been made that we ought to take the monies in the 
budget and target those needs and focus dollars on the programs 
that address the most pressing needs.
    Senator Kohl. That is fine, and I appreciate that. I think 
these scarce dollars that have been appropriated to local law 
enforcement should not have been cut; now, of course, we can 
have a difference of opinion on that, and it is very strongly 
felt out there at the local level, where I know you are 
focused.
    Attorney General Gonzales. Sir, I hear about it when I 
travel. Obviously, this is an important issue. But I think, and 
I may be wrong about this, but I think State and local 
officials, they care about the dollars. I am not sure that they 
care that they be funded through the Byrne program. If there is 
another way that the dollars are getting down to the State and 
local officials, obviously, that is what they care about.
    Senator Kohl. Just one other, and then, I will turn it over 
to Senator Murray.

                  COMMUNITY ORIENTED POLICING SERVICES

    The COPS program, as you know, was a brilliant program for 
several years. It was universally acclaimed as being 
successful. It was at $1 billion at its zenith, and now, it is 
basically zeroed out. Now, when Attorney General Ashcroft was 
here several years ago, and we asked him about it, I want to 
quote what he said: he said the COPS program was, quote, a good 
thing, quote, that it had worked very well, and quote, that it 
had been one of the most successful programs that we have ever 
had, quote.
    So now, we are talking about taking a program that did as 
much good around our country again at the local level, which is 
where it is all about, and we are just saying let us forget 
about it. Why would you do that?
    Attorney General Gonzales. Let me just echo General 
Ashcroft's comments about the importance of the COPS program. 
Putting more people on the streets, I think, is one reason we 
have had a reduction in violent crime across America. The COPS 
program in terms of hiring more cops was focused on getting 
100,000 cops on the street by a certain period of time.
    We met that goal. I do not believe it was ever intended 
that we would continue to make monies available to continue to 
fund more hiring of State and local police officers on the 
streets. Now, having said that, there is still $400 million in 
proposed appropriations for the COPS program. There is $102 
million for COPS-administered programs, including $31 million 
for Indian country issues, $40 million for meth cleanup, $3.9 
million for training of State and local officials.
    And so, this notion that we have zeroed out COPS, there is 
no money for hiring additional police officers, but that was 
reflected in last year's budget approved by Congress. There 
were no additional COPS dollars for hiring police officers. 
That is the budget that Congress passed. And so, this is 
consistent with what Congress did in 2006, and I would just 
again remind you that there is $400 million in proposed 
appropriations in the COPS program.
    Senator Kohl. Thank you, Mr. Chairman.
    Senator Shelby. Senator Murray.

                              DRUG CARTELS

    Senator Murray. Well, thank you very much, Mr. Chairman. 
Let me ask you about the meth program, because I am deeply 
concerned that--well, back in 2001, actually, a Drug 
Enforcement Administration estimate said drug cartels made up 
80 percent of the meth consumed in the United States, and that 
has probably increased since then because of the crackdown we 
have done on some of the home mom and pop production.
    But what we do know is that these cartels require about 200 
metric tons of ephedrine and pseudoephedrine every year, and it 
is about 10 percent of the world's output of those legal 
chemicals. I am very concerned that we may be missing an 
opportunity to work with chemical factories abroad to prevent 
the cartels from getting their hands on these chemicals, and I 
wanted to know what you and the administration are doing to go 
after these cartels and their suppliers to stop the flow of 
meth into our communities.
    Attorney General Gonzales. Those are all very good 
questions, Senator. I am sure Administrator Tandy will be able 
to amplify on what I have to say.
    We are working with countries like China, Germany, and 
India to restrict the import of precursor chemicals into 
Mexico, because you are right, it is a serious problem. And we 
are working closely with our counterparts in Mexico about this 
issue. I have had several meetings with the Mexican attorney 
general. He and I are attending an anti-meth conference in 
Dallas in May, because he understands how serious this issue 
that we can do, we can pass all the laws here at the Federal 
level and at the State level which have been successful with 
respect to reducing mom and pop labs, but if we do not have 
some help from Mexico and the law enforcement efforts there, it 
is a tough, tough battle.
    And so, I share your concern. We are focused on it. I know 
Administrator Tandy is working on this issue, and Mexico has 
already passed legislation to--maybe not legislation; could be 
regulations to deal with limiting access to precursor chemicals 
as well. But you are right: the problem is that we have to put 
limits or try to retard efforts to have precursor chemicals 
come in from other countries, and we are doing that.
    Senator Murray. Good, we do not want to miss that, because 
I think it is the gorilla in the room if we are not focused on 
these drug cartels and where they are getting their supplies, 
so I really encourage you to do that and want to hear more 
about that as we go along.

                            NORTHERN BORDER

    Let me ask you another question, because the importance of 
local law enforcement agencies having the ability to work 
closely with their Federal counterparts has never been more 
significant, and in my opening statement, I talked about the 
concern I have about the need to increase Federal, State, and 
local law enforcement partnerships.
    In my State, southwest Washington is an area where law 
enforcement continues to talk to me about the need for an 
increased Federal presence. Vancouver, Washington right on the 
border, Columbia River, is now the fourth largest city in 
Washington. It is projected to be the second largest by 2010, 
and as you probably know, Federal agents cannot cross over the 
Columbia River, because that represents the dividing line of 
Federal jurisdiction.
    What that means is that southwest Washington's primary 
offices for Federal assistance are located more than 100 miles 
away, and there is a lot of threats we are hearing about 
including organized crime and drug trafficking. So a Federal 
presence in Vancouver is really essential for our State.
    And I wanted to know, I know we got about six new staff a 
few years ago, but I would like to ask if you would be willing 
to work with my office and law enforcement stakeholders in our 
region to take a look at this situation and really help us find 
some solutions to this.
    Attorney General Gonzales. Senator, I am told, and I do not 
know how current this information is, that the Department has 
769 personnel in your State. We may only have two agents in 
Vancouver.
    Senator Murray. Correct.
    Attorney General Gonzales. Period; that may be the sole 
scope of our presence.
    I am not sure that that is right, and so I have asked our 
folks to look at this issue, and I would be happy to work with 
you on it.
    Senator Murray. I would really appreciate if we could get 
together and focus on that with some of the folks from 
southwest Washington. I think we need to come up with some 
solutions for them. It is really becoming more and more 
critical.
    I also wanted to talk to you about the challenges facing 
our northern border States with respect to some of the 
typically border related cases. You and I have talked about 
this before. We are seeing increased border apprehensions for 
drug smuggling, money laundering, other crimes because we have 
increased the number of people on the border.
    The southwestern States, as I said, have a Federal program 
for reimbursement. We do not have a similar program at the 
northern border, and this really puts a tremendous burden on 
our local officials. I know they have talked to you. I know 
Senator Cantwell and I have mentioned this many times.
    I wanted to find out would you support an effort to expand 
the southwest border prosecution initiative program to our 
northern border States?
    Attorney General Gonzales. I would be happy to talk with 
you about it. I worry about the fact that 70 percent of our 
immigration cases are on the southern border, and 30 percent 
are on the northern border.
    [The information follows:]

                       Northwest Border Security

    The Department does not support an effort to expand the 
Southwest Border Prosecution Initiative to the Northern Border 
at this time. A review of the Department's statistics indicate 
that 68 percent of all immigration cases occur on the Southwest 
Border (12,318 immigration cases were filed in the Southwest 
Border Districts out of a total of 18,147 immigration cases 
filed nationwide in 2005). Furthermore, the Department did an 
extensive study of this issue and determined that while both 
borders share some of the same vulnerability the security of 
the SW border requires significantly more resources and 
personnel to address the explosion of people crossing the 
border illegally.

    Senator Murray. But I would remind you that Ahmed Rassam 
came through the northern border.
    Attorney General Gonzales. No question about it. Obviously, 
we need to be concerned.
    Senator Murray. I believe there was an investigation a few 
weeks ago that showed that a dirty bomb could get through that 
came through the northern border in my State.
    Attorney General Gonzales. No question about it.
    My own view of reimbursement of costs of State and local 
officials is that quite frankly, the Federal Government needs 
to do its job. It needs to do a better job of securing the 
border so that you do not have the kinds of burdens that we see 
today on municipalities and State governments. So I think that 
should be our focus. In terms of focusing on reimbursement, I 
think we ought to be focusing on, quite frankly, the Federal 
Government doing its job, but I would be happy to talk to you 
about it.
    Senator Murray. Well, we had the same conversation 1 year 
ago. It feels like we are in the same spot; no changes.
    So I would really like to hear from you if you could get a 
response back to us how we are going to deal with this critical 
issue.
    Attorney General Gonzales. Yes, ma'am.
    Senator Murray. Thank you.
    Senator Shelby. Mr. Attorney General, we appreciate you 
appearing here today, and we appreciate your service to the 
Nation. We have a number of additional questions we will submit 
for the record, and we would appreciate your timely response if 
you can do it as soon as you can.
    Attorney General Gonzales. I will, Mr. Chairman.

                    Federal Bureau of Investigation

STATEMENT OF ROBERT MUELLER, DIRECTOR
    Senator Shelby. And at this time, we would like to call the 
second panel of witnesses. They are Director Robert Mueller, 
Director of the Federal Bureau of Investigation; Administrator 
Karen Tandy, Drug Enforcement Administration; Director Carl J. 
Truscott, Bureau of Alcohol, Tobacco, Firearms and Explosives; 
and Director John Clark, United States Marshals Service.
    Director Mueller, we will start with you. If you could just 
sum up briefly, because we have enough; your top points. We 
welcome you to the subcommittee, and we also appreciate your 
service, all of your service to the country.
    Mr. Mueller. Thank you, Mr. Chairman, and thank you for 
having me today, and thank you, Senator Mikulski, Senator 
Leahy, for being here. Thank you for the opportunity to testify 
today in front of you. I want to thank you also for the funding 
that was provided to the FBI in the Hurricane Katrina 
supplemental, and I understand yesterday that the 2006 war 
supplemental may also have passed through the Senate, and we 
thank you for your support there.

                        NATIONAL SECURITY BRANCH

    My testimony sets forth the details supporting the budget 
request of the over 31,000 positions and $6 billion, and I do 
not want to spend a great deal of time on that because it is in 
my written remarks. I will say, I want to spend a couple 
moments at the outset first of all talking about the national 
security branch that was approved in September. And the mission 
of the national security branch, as you are well aware, is to 
position the FBI to protect the United States against weapons 
of mass destruction, terrorist attacks, and foreign 
intelligence operations.
    With regard to the budget for the national security branch, 
we have asked for $25.8 million for resources to respond to 
terrorist threats and incidents such as those posed by weapons 
of mass destruction; $15 million for essential infrastructure 
enhancements; and $16 million to support our core intelligence 
processes.
    I do want to make the point that while national security 
efforts remain our top priority, we continue to fulfill our 
crime fighting responsibilities as well. Public corruption is 
the top criminal priority for the FBI. In the last 2 years, our 
investigations have led to the conviction of over 1,000 
Government employees involved in corrupt activities, to include 
177 Federal officials, 158 State officials, 260 local 
officials, and more than 365 police officers.
    At the same time, we continue to focus on implementing the 
national gang strategy along with ATF. This strategy is 
designed to identify the prolific and violent gangs in the 
United States and to investigate, disrupt, and dismantle their 
criminal enterprises.

                                SENTINEL

    Having made those two points, Mr. Chairman, I would like to 
spend a couple of moments to focus on Sentinel, which was 
raised in your opening remarks. As you are aware, as we have 
discussed, on March 16, we announced the award of a $305 
million contract to Lockheed Martin for the development, 
operation, and maintenance of the Sentinel program. And I would 
like to spend a couple of moments responding to anticipated 
questions and some of the remarks you made in your opening 
comments.
    As you are aware, the $305 million contract cost 
constitutes approximately $232 million for development of 
Sentinel, and this new information management system will be 
developed over a period of approximately 4 years and will be 
deployed in four phases. We anticipate completion of the first 
phase approximately 1 year from now. And as each phase is 
completed and deployed, we will begin to incur costs for 
operation and maintenance or O&M, as it is called.
    After completion of the final phase in 2009, we have the 
opportunity to exercise the option for Lockheed Martin to 
continue providing O&M for an additional 2 years, through 2011.
    With regard to these four phases, each phase will deliver a 
new standalone capability and will provide greater access to 
existing information and will, as importantly, facilitate the 
input of information into the system and the dissemination of 
information to others both inside the FBI as well as to our 
partners outside the FBI. In addition, Sentinel will provide 
the FBI a system that is flexible and adaptable to address 
future advances in technology and changes in our mission and 
the threat environment.
    I know that, Mr. Chairman, you are concerned as we are 
concerned about the success of this program, and to ensure the 
successful and the timely completion of Sentinel within budget, 
we have structured the contract with Lockheed Martin in such a 
way as to provide clear requirements, deliverables, and 
milestones. The contract is also structured so that each phase 
is an exercisable option. And in addition, we have invited 
close scrutiny of each phase of the Sentinel process through 
multiple venues, both internal and external.
    We have created a strong program management office for 
Sentinel and staffed it with skilled technical, programmatic, 
business management, and administrative subject experts. In 
fact, two of our program management employees have recently 
been honored by industry for their leadership and their 
accomplishments.
    We also have independent contractors who will conduct 
verification and validation reviews of the Sentinel program, of 
the management office, of the Lockheed Martin's performance and 
the performance of the subcontractors in order to ensure proper 
execution and delivery of Sentinel. We have asked the GAO and 
the inspector general to work with us as we undertake this 4-
year program to ensure that we are on the right track.
    We are aware of the GAO's recently released report to which 
you averted in your remarks, and we welcome that report, and we 
have established safeguards for Sentinel, as has been 
recommended in that report by GAO. The Justice Department 
inspector general will be conducting audits of Sentinel 
throughout the development and implementation of the program as 
well, and it recently released its first report on the preaward 
phase of Sentinel, which in part confirms that we are 
addressing the issues identified in the GAO report.
    The Deputy Attorney General, the Department of Justice 
Chief Information Officer, the Office of the Director of 
National Intelligence, the Office of Management and Budget, are 
all meeting periodically with the Sentinel program manager and 
senior FBI management to ensure that Sentinel is proceeding as 
planned.
    We have engaged as well outside experts to help us review 
and assess the implementation of Sentinel, and finally, 
Sentinel will be subject to close congressional scrutiny. We 
are committed to keeping this subcommittee and/or other 
oversight committees informed as we move ahead.
    Mr. Chairman, we believe that the extensive internal and 
external oversight I have just described will ensure the 
successful delivery of Sentinel, and even so, we are ever 
mindful of the challenges of the past, and I believe we have 
learned from what went right and what went wrong with Trilogy. 
And I know you have a number of concerns, and I would like to 
briefly address three of those concerns, which you mentioned in 
your opening statement.

                       VIRTUAL CASE FILE PROJECT

    First, the cost to the taxpayers of the Virtual Case File 
project as compared with this project: if you recall, sir, in 
the beginning of 2004, we were presented with Virtual Case File 
by the contractor. It did not work. We went into negotiations 
with that contractor. We were told that it would take $50 
million in addition to the $170 million to get a project or a 
product that would work.
    We employed outside independent contractors to come in and 
see whether it was worthwhile spending that money. They said 
no. That contract ultimately would have been around $220 
million if we were lucky. This is around $232 million for the 
same development, but it is a development of a product that 
will put us on a firm foundation in the future.
    Let me turn to the deficiencies in the GAO report. As I 
mentioned briefly, we have taken, we have looked at those 
deficiencies. We have established a new unit to address those 
deficiencies that were identified in the GAO report, and I 
believe that we, with that new unit, we will be on top of the 
matters that were pointed out to us by the GAO.

                                SENTINEL

    And last, Mr. Chairman, I know that there were concerns 
about two of the subcontractors on the Sentinel project. One of 
those subcontractors was involved in providing training to 
employees under the Trilogy project, but that was not an issue 
with regard to the successes and/or the failures of Trilogy. 
The other subcontractor acquired an entity that had previously 
performed work on the Trilogy project, but that division has 
nothing to do with providing work on the Sentinel project.
    Let me finish by summarizing and saying that we recognize 
that Sentinel is a large project and a large investment for the 
taxpayers of the United States.
    Senator Shelby. But an important one.
    Mr. Mueller. But a very important one, and it is important 
to the men and women of the FBI, who need this technology 
system, and I can tell you that we have learned from the 
mistakes of the past. We are intent in bringing this home, and 
we have, in Lockheed Martin, I believe, a partner who will get 
us across the finish line.
    And with that, I would be happy to respond to any questions 
on this or any other issues.
    Thank you, Mr. Chairman.
    [The statement follows:]

              Prepared Statement of Robert S. Mueller III

    Good afternoon, Mr. Chairman, Senator Mikulski, and Members of the 
subcommittee. I appreciate the opportunity to appear before you today 
to discuss the President's fiscal year 2007 budget for the Federal 
Bureau of Investigation (FBI). I also would like to thank you for 
passing the fiscal year 2006 Katrina supplemental which included $45 
million for the FBI. Our employees in the Gulf region endured great 
suffering and devastating property loss in the aftermath of Katrina. In 
addition to the horrific personal toll the storm took on the people of 
the Gulf region, the FBI offices in New Orleans, Beaumont, Gulfport and 
Pascagoula were either severely damaged or completely destroyed. 
However, your funding is helping to rebuild our offices, put our 
employees back to work, and enable us to bring our capabilities back to 
pre-Katrina levels.
    With this Committee's help, the FBI was able to establish Katrina 
Fraud Task Forces, in Lake Charles and Lafayette, Louisiana, to 
investigate and prosecute those unscrupulous individuals who seek to 
benefit from this national tragedy. We intend to continue this 
important work as the Gulf region recovers.

                          2007 BUDGET REQUEST

    The fiscal year 2007 budget totals 31,359 positions and $6.04 
billion. The net fiscal year 2007 program increases total 75 positions. 
Our fiscal year 2007 budget is focused on enhancing and improving our 
infrastructure. Since September 11th, the FBI has undergone significant 
reorganization and tremendous personnel growth. However, FBI 
Headquarters (HQ) facilities and infrastructure programs have not kept 
pace with our transformation from a law enforcement entity to a key 
player in the Government's war against terrorism.
    As an agency, we must find the proper balance between expanding our 
workforce and supporting on-board employees with the technology and 
infrastructure necessary to accomplish our dual mission as both a law 
enforcement and an intelligence entity. I believe the fiscal year 2007 
budget will go a long way in rectifying the gaps between our rapid 
growth in personnel and our current infrastructure.

                   IMPROVING PHYSICAL INFRASTRUCTURE

    The FBI's space for handling and storing classified information is 
currently inadequate. We are formulating a strategy to address 
Sensitive Compartmented Information Facility (SCIF) space requirements. 
The primary objective of the FBI's plan is to provide SCIF space and 
SCI connectivity to key national security field facilities by the end 
of calendar year 2007 which will be accomplished using resources 
requested in the fiscal year 2007 President's Budget.
    In fiscal year 2007, the FBI is requesting $33 million in 
construction funding for SCIF expansion. This funding would allow for 
information sharing between the FBI and our partners within the 
Intelligence Community (IC), as envisioned by the President and 
Congress. Without this SCIF expansion, the FBI cannot ensure an 
adequate intelligence infrastructure to achieve our strategic goals. In 
the fiscal year 2006 conference report you requested that we develop a 
plan to prioritize our SCIF expansion program. This report is currently 
under Administration review and we look forward to discussing it with 
the Committee once it is released.
    We are also requesting $8.8 million to acquire additional space for 
an FBI Headquarters Annex which would be located in the Washington, 
D.C. metropolitan area. Most of FBI's Headquarters components operate 
in fragmented and overcrowded office space. The FBI must secure an 
additional 150,000 square feet of useable space in order to accommodate 
the needs of new personnel coming on-board through fiscal year 2007.
    The current FBI Academy training facilities located at Quantico, 
Virginia are inadequate to address the training needs of our analysts 
and Special Agent personnel. Most of the Academy's facilities were 
designed in the late 1960s to accommodate small groups in a traditional 
classroom training setting. However, given the FBI's growth and dual 
mission requirements, the Academy can no longer support our expanding 
needs or provide us the forum to develop a world-class cadre of 
intelligence professionals.
    After the September 11th terrorist attacks, the FBI developed and 
implemented professional training for Intelligence Analysts (IA) 
throughout the FBI. In October 2001, the Center for Intelligence 
Training (CIT), formerly known as College of Analytical Studies, was 
established at the FBI Academy. The CIT was established to improve the 
FBI's analytical capabilities to meet our present and future 
investigative responsibilities. All courses delivered by the CIT are 
designed to support the FBI's Counterterrorism (CT), 
Counterintelligence (CD), and analytical missions. The CIT experienced 
significant growth during its first years of operation and, based on 
expected hiring levels of new IAs, the FBI expects the CIT to continue 
to expand its operational and training missions.
    In the fiscal year 2007 budget, we are requesting $6.3 million to 
upgrade our CIT facilities by beginning the process of designing the 
CIT training center at the FBI Academy complex in Quantico, Virginia. 
The CIT will be a major element in continuing to promote and develop 
the FBI's leadership training for FBI-wide, State/local, and 
international law enforcement personnel.
    We are also requesting $11.9 million for interim space at the FBI 
Academy for the FBI's Hostage Rescue Team (HRT). Although HRT's current 
space was built to accommodate only 50 employees, there are currently 
more than 200 staff members using this limited space. As with many FBI 
units, HRT's responsibilities have increased enormously since the 
September 11th terrorist attacks. Over the past 3 years, the HRT has 
been deployed on 159 occasions, of which over 62 percent were related 
to counterterrorism. The HRT was also utilized in support of search and 
recovery efforts in the aftermath of Hurricanes Katrina and Rita. Much 
of HRT's work is sensitive in nature and must be conducted in a secure 
area.

                         INFORMATION TECHNOLOGY

    We continue to upgrade and enhance our technological 
infrastructure. In our fiscal year 2007 budget, we are requesting $100 
million for Sentinel. Sentinel will leverage technology to reduce 
redundancy, eliminate inefficiencies, and maximize the FBI's ability to 
use the information in its possession. Our objectives for Sentinel 
include the following: (1) Deliver a set of capabilities that provide a 
single point of entry for investigative case management and 
intelligence analysis; (2) Implement a new and improved FBI-wide global 
index for persons, organizations, places, things and events; (3) 
Implement a paperless information management and work-flow capability; 
and (4) Implement an electronic records management system.
    I want to stress that the Sentinel program is not a reincarnation 
of the Virtual Case File. In the past few years we have struggled with 
our information technology programs. However, we have learned hard 
lessons from our missteps and we are doing things very differently this 
time. Each phase of the Sentinel contracting process is being closely 
scrutinized by a team of FBI technical experts, the Government 
Accountability Office (GAO), the Office of Management and Budget, and 
the Department of Justice's Chief Information Office and Inspector 
General. Furthermore, at this Committee's recommendation, we have also 
engaged outside experts to help us review and assess the implementation 
of Sentinel.
    On March 16, 2006, we announced the award of the contract for 
development of the Sentinel to Lockheed Martin. Under the terms of the 
$305 million, 6-year contract, Lockheed Martin and its industry 
partners will use proven commercial off-the-shelf technologies to 
produce an integrated system that supports processing, storage and 
management of the FBI's current paper-based records system. The program 
includes an incremental development and delivery of Sentinel 
capabilities including $73 million for operations and maintenance 
activities.
    Now that the contract has been awarded, we are moving forward with 
phase one of the development process. Each of the four phases will 
introduce new stand-alone capabilities and will be user-focused. As 
each phase is implemented, existing information will be transferred to 
new systems and old legacy systems will be retired. As a result, 
Sentinel will replace a number of legacy applications including: 
Automated Case Management System (ACS); ASSET; Criminal Informant 
Management System; Bank Robbery Statistical Application; and Financial 
Institution Fraud and Integrated Statistical Reporting Analysis 
Application (ISRAA).
    I will continue to update this committee on the progress of 
Sentinel and I expect and welcome your strong congressional oversight 
of this program.

                  NGI AND IAFIS/IDENT INTEROPERABILITY

    We are also requesting funding for major enhancements to our 
Integrated Automated Fingerprint Identification System (IAFIS). IAFIS 
is the ten-rolled fingerprint identification system that was 
successfully deployed in 1999 and is used by Federal, State, and local 
law enforcement and authorized non-criminal justice agencies to 
identify subjects with criminal history information. While IAFIS was a 
state-of-the-art system at its inception, technology has since 
advanced, and we must update IAFIS in order to meet the needs of our 
customers.
    The FBI intends to meet these new requirements by implementing a 
Next Generation Identification system (NGI). We are currently 
conducting a comprehensive requirements study that will produce an 
Implementation/Strategy Plan, baseline Systems Requirement Document 
(SRD), Functional Requirements Document, and Requirement Traceability 
Matrix.
    Once we have completed the planning effort, we will design, 
develop, and implement modular builds with each module providing 
improved functionality, such as improved accuracy and speed. The FBI is 
requesting $38 million to support development of NGI.
    Along with improvements to IAFIS, the FBI is developing 
interoperability with the Department of Homeland Security's (DHS) 
Automated Biometric Identification System (IDENT). DHS's IDENT program 
is a two-flat fingerprint identification system. Various legislative 
acts have required the FBI and DHS to ensure that the systems are 
interoperable and that the criminal and immigration information that 
they contain is accessible to, and shared among, other Federal, State, 
and local law enforcement agencies. In 2002, the FBI began providing 
DHS with extracted, partial data from IAFIS. This is a temporary 
solution until full interoperability can be achieved.
    Interoperability efforts between IAFIS and IDENT are advancing. A 
multi-agency Interoperability Integrated Project Team (IPT) was 
established to address the problem. In June 2005, FBI Criminal Justice 
Information Services (CJIS), DHS United States Visitor and Immigrant 
Status Indicator Technology (US VISIT) and the Department of State 
signed a charter which established cooperative guiding principles for 
IPT. IPT is aggressively pursuing different interoperability models to 
find a solution to the problem. For fiscal year 2007, the FBI is 
requesting $33 million to purchase hardware, software, and contract 
services to support this interoperability initiative.

                            HUMAN RESOURCES

    During fiscal year 2005, this Committee provided the FBI with the 
legislative authority and resources to help us compete with other 
homeland security and Intelligence Community (IC) organizations who 
often recruited employees away from the FBI. The funding allowed us to 
provide recruitment bonuses for potential new hires, retention and 
relocation bonuses to existing employees with job offers from other 
government entities, and increased funding for our University Education 
Program and student loan repayments. Thanks to your support, the FBI 
used approximately $22 million for these purposes during fiscal year 
2005, including almost $5 million on recruitment initiatives, $1.6 
million on employee retention and relocation bonuses, and $14.9 million 
on degree programs and student loan repayments.
    The additional funding this Committee provided as an extension of 
these authorities is allowing the FBI to extend relocation bonuses to 
agents assigned to high cost of living offices. Each of these 
incentives is providing us with the leverage to retain a high-caliber 
workforce to better serve the Nation in our fight against terrorism.
    Additionally, this Committee provided for the establishment of our 
Sabbatical Program. Last year, the FBI sent participants to the St. 
Andrews Program for International Security Studies and to Harvard's 
John F. Kennedy School of Government. This year, we added several new 
partners to our Sabbatical Program and are able to provide 
opportunities for FBI employees to attend Mercyhurst College; the 
George C. Marshall Center; the National Defense University; the Naval 
Postgraduate School; the Marine Corps University; and the Naval War 
College. Students will benefit from receiving various certificates and 
degrees ranging from Applied Intelligence to National Resource 
Strategy.
    The FBI is developing programs designed to recruit, train, develop, 
and retain professionals who have the skills necessary for the success 
of its national security missions. Among these workforce programs are 
the Special Agent career path and the Intelligence Career Service. 
These programs are designed to enhance the national security workforce 
and to create training and development opportunities for agents, 
analysts, linguists, and surveillance specialists in the FBI's national 
security programs. Last year, the FBI trained 589 new agents and over 
1,000 Intelligence Career Service professionals.
    The FBI will expand current in-service and virtual intelligence 
training initiatives for FBI employees and our partners in other 
Federal, State, local, and tribal agencies. Efforts are underway to 
assess our training and to develop the capabilities we need as we go 
forward. Revisions to New Agents and Cohort training programs are also 
underway. We are requesting $5 million in fiscal year 2007 to provide 
advanced intelligence training curriculum development and $1 million to 
establish our Intelligence Officer certification program.

                   NATIONAL SECURITY BRANCH--CT/CI/DI

    Over the past 4 years, the FBI has developed its intelligence 
capabilities and improved its ability to protect America from threats 
to national security. We have built on our established capacity to 
collect information and enhanced our ability to analyze and disseminate 
intelligence. Implementation of the National Security Branch (NSB) is 
the next step in the FBI's transformation.
    On June 28, 2005, in response to the findings of the Commission on 
the Intelligence Capabilities of the United States Regarding Weapons of 
Mass Destruction (WMD Commission), President Bush directed the FBI to 
create a ``National Security Service'' within the FBI. The FBI 
implemented this directive through the creation of a new entity--the 
National Security Branch (NSB)--that integrates the FBI's primary 
national security programs under the leadership of a single Executive 
Assistant Director, and through policies and initiatives designed to 
enhance the capability of the entire FBI to support its national 
security mission.
    The mission of the NSB is to optimally position the FBI to protect 
the United States against weapons of mass destruction (WMD), terrorist 
attacks, foreign intelligence operations, and espionage by integrating 
investigative and intelligence activities against current and emerging 
national security threats; providing useful and timely information and 
analysis to the intelligence and law enforcement communities; and 
effectively developing enabling capabilities, processes, and 
infrastructure, consistent with applicable laws, Attorney General and 
Director of National Intelligence guidance, and civil liberties.
    The FBI's NSB was established and is making significant progress in 
integrating the missions, capabilities, and resources of the 
Counterterrorism, Counterintelligence, and Directorate of Intelligence 
(DI) programs. The NSB builds on the success of the DI and other 
initiatives already underway by helping to integrate the FBI's 
intelligence mission more fully into the FBI and into the IC, so that 
the IC can better understand FBI operations, while enhancing the FBI's 
ability to protect the Nation.
    The NSB essentially puts one face on the FBI's intelligence mission 
to stakeholders, including Congress, other IC agencies, and the general 
public. The FBI is currently working with the Department of Justice 
(DOJ) and the Administration to ensure that the NSB meets the 
directives set forth by the President and is responsive to the Office 
of the Director of National Intelligence (ODNI).
    A major part of our counterterrorism work has been supporting the 
war on terror overseas in Iraq and Afghanistan. The FBI's 
responsibility there is to protect U.S. interests and persons from 
terrorist attacks by conducting investigations and acquiring 
intelligence that would prevent, disrupt, and defeat terrorist 
operatives targeting America. The U.S. military and IC are partners 
with the FBI in this mission.
    As a result of our intelligence gathering overseas, IC reports 
indicate Al-Qa'ida has declared its intent to execute a WMD attack 
against the United States. A successful attack using a WMD device 
consisting of a chemical, biological, radiological, or nuclear payload 
would have catastrophic consequences. Preventing the detonation of a 
WMD device through an effective, coordinated, and technically 
proficient response program is an FBI responsibility defined by 
Presidential Decision Directive-39. The FBI is requesting $25.8 million 
to provide resources to respond to terrorist threats and incidents such 
as WMD and other explosive devices.
    The DI oversees the Field Intelligence Groups (FIGs). FIGs are 
central to the integration of the intelligence cycle into field 
operations. The FIGs coordinate, manage, and execute all the functions 
of the intelligence cycle. FIGs include Special Agents and Intelligence 
Analysts as well as officers and analysts from other intelligence and 
law enforcement agencies. The establishment of FIGs in every field 
office during October 2003, and the issuance of initial guidance for 
their operations, laid the groundwork for enhancing the FBI's 
intelligence capability in the field. From January 2004 through January 
2006, Intelligence Analyst staffing increased on the FIGs 61 percent, 
from 617 to 995. Work will continue with the implementation of a plan 
to more fully integrate the intelligence cycle into FBI field 
operations through standardized processes, pilot implementation 
projects, specialized training, and refinement of roles and 
responsibilities. We have also assessed our field-wide intelligence 
collection capabilities to include human, technical, and physical 
collection posture. Our fiscal year 2007 budget request reflects our 
need for resources to close gaps identified in our Intelligence Program 
infrastructure.
    In addition to overseeing the national security operations of the 
CT, CD and DI, the NSB is also accountable for the functions carried 
out by the other FBI divisions that support the national security 
mission, such as language translation support and Field Intelligence 
Group program management.
    Today's FBI linguist cadre is 69 percent larger than it was on 
September 11th. The three languages with the largest growth are Somali, 
Pashto, and Turkish, each with an increase of over 400 percent. This 
growth was made possible by the resources provided by this Committee.
    Another way we are providing support to counterterrorism and 
counterintelligence investigations is through the West Virginia 
Translation and Analysis Center. The Center provides field offices with 
an alternative to processing their Foreign Intelligence Surveillance 
Act audio collections. Analysts at the Center listen for pertinent 
English conversation containing intelligence material and provide 
English summaries and occasional full transcripts.
    The National Virtual Translation Center (NVTC) is an excellent 
example of the continuous transformation efforts underway at the FBI: 
creative and aggressive recruiting; interagency resource sharing and 
collaboration; and streamlined methods for serving agencies across the 
United States government in support of the war on terrorism. The NVTC 
was established with Central Intelligence Agency (CIA) resources under 
the authority of the USA PATRIOT Act to provide accurate and timely 
translations of foreign intelligence material to the IC.
    During 2003, the CIA awarded the FBI executive agency authority 
over the NVTC. Together with the CIA, we have recruited translators 
from the military and colleges, and secured added assistance through 
civilian contract staff. We continue to benefit from the interagency 
sharing of translation resources, collaborative use of human and 
automated translation capabilities, and parity in translation workload 
across various IC elements.
    Additional fiscal year 2007 enhancements to the NSB include:
  --$15 million for Intelligence infrastructure requirements. This 
        funding will provide essential infrastructure enhancements for 
        the Intelligence Program including multi-media workstations, 
        FALCON notebook computers for language analysts, electronic 
        surveillance data management system development, expanded 
        SIPRNET access, and IC XML application, Intelligence website 
        support, and non-English web page postings.
  --$16 million for Intelligence Operations and Production. This 
        funding will support initiatives that comprise the core 
        intelligence processes that are aligned with the intelligence 
        production cycle. This would provide 5 positions for human 
        source validation, 52 positions for intelligence operations and 
        production, FBIHQ operations and maintenance funding for the 
        FBI's IIR Dissemination System [FIDS], a human source 
        validation system, and physical surveillance support.

                                 CYBER

    The cyber threat confronting the United States is rapidly 
increasing as the number of people with the tools and abilities to use 
computers against us is rising. The country's vulnerability is 
escalating as the United States economy and critical infrastructures 
become increasingly reliant on interdependent computer networks and the 
World Wide Web. Large scale computer attacks on the Nation's critical 
infrastructure and economy could have devastating results. The Internet 
knows no boundaries. A perpetrator can sit at his computer anywhere in 
the world and gain unauthorized access to systems throughout the globe 
with complete anonymity. This puts law enforcement at a severe 
disadvantage and we must leverage all of our existing resources to 
bring cyber investigations to successful conclusions.
    We must continue to increase our capability to identify and 
neutralize enterprises and individuals who illegally access computer 
systems, spread malicious code, or support terrorist or state-sponsored 
computer intrusion operations. Since fiscal year 2001, the FBI has seen 
a 906 percent increase in International terrorism, Counterintelligence, 
and Domestic Terrorism computer intrusion cases. The FBI's Legal 
Attaches are working closely with our international law enforcement and 
intelligence partners to combat this rising threat.

                         LEGAL ATTACHE PROGRAM

    The FBI continues to expand its Legal Attache (Legats) program. 
International cases have become the rule, rather than the exception, 
for the Bureau. Legats are a key component of our extraterritorial law 
enforcement effort and often provide the first response to crimes 
against the United States that have an international nexus. Legats also 
provide a prompt and continuous exchange of information with foreign 
law enforcement. But Legats are no longer just information conduits. 
Rather, these offices assist our counterparts overseas on joint 
investigations, intelligence-sharing, and the development of new 
methods to prevent terrorist attacks. Currently, we have 53 fully 
operational Legal Attaches offices, and 13 fully operational sub-
offices covering over 200 countries throughout the world.
    This year we plan to open six more offices, located in Afghanistan, 
Qatar, Sudan, South Africa, Algeria, and El Salvador, and convert two 
sub-offices, Port-of-Spain and Jakarta, to fully operational Legats. 
The San Salvador Legat office is being opened with the support and 
resources provided by this Committee for the intended purpose of 
working with El Salvador's law enforcement to target the MS-13 gang's 
leadership in one of its Central America strongholds.

                           CRIMINAL PROGRAMS

    Although much of my testimony has been geared toward a discussion 
of the FBI's national security efforts, we continue to take great pride 
in our criminal programs. As with all of our investigative efforts, 
these criminal programs are in concert with the Attorney General's 
priorities, as announced earlier this spring. Specifically, as I 
mentioned earlier, we are aggressively pursuing any Katrina-related 
criminal fraud. The Attorney General has asked the United States 
Attorneys' Offices to adopt a ``zero tolerance'' policy toward all 
cases involving hurricane relief related fraud. To date, over 150 
investigations have been initiated and over 100 individuals have been 
indicted on corruption and fraud related charges.
    Public corruption is the top criminal priority for the FBI. The 
FBI's highly sensitive public corruption investigations focus on all 
levels of government. The heightened focus has helped increase both the 
number and quality of the cases being investigated. Over the last 2 
years, FBI investigations have led to the conviction of more than 1,060 
government employees involved in corrupt activities, to include 177 
federal officials, 158 state officials, 360 local officials, and more 
than 365 police officers.
    We also continue our work refining and implementing the National 
Gang Strategy (NGS). Developed in 1993, the goal of the NGS is to 
identify the prolific and violent gangs in the United States and to 
aggressively investigate, disrupt, and dismantle their criminal 
enterprises through prosecution under the federal racketeering statutes 
and other appropriate laws.
    I know the escalation of gang violence is an area of particular 
concern to this Committee and the FBI appreciates the efforts and 
resources you have provided to law enforcement to attack this growing 
problem. With your help, in 2005, the National Gang Intelligence Center 
(NGIC) was formed to allow State, local and Federal agencies to share 
gang data across jurisdictions and identify trends related to violent 
gang activity and migration.
    This multi-agency center functions from the Washington D.C. area 
and has coordinated information sharing with other investigative and 
intelligence operations of local, State, and Federal criminal justice 
agencies, and has become a national center for case coordination and 
information. The gang information provided by Federal, State and local 
agencies is one of the most vital aspects of this center for the 
successful integration and sharing of data.
    Another area of concern for the FBI's Criminal Investigative 
Division is the escalating level of violence in the Southwest border 
region. The recurring violence on the Southwest border revolves around 
the Gulf Cartel drug trafficking organization, which has traditionally 
dominated the region and commanded smuggling operations along this 
stretch of the border.
    The FBI is taking proactive measures to assess and confront this 
threat to public safety on both sides of the border through 
participation in multiple bi-lateral multi-agency meetings, working 
groups, and enforcement operations. The FBI, along with DHS, the Drug 
Enforcement Administration (DEA), and the Department of State, are 
working with the Mexican Attorney General's Office to identify Gulf 
Cartel members and is using all available techniques to disrupt and 
dismantle this dangerous organization and reduce the violence in the 
Southwest border region.

                               CONCLUSION

    Mr. Chairman, Senator Mikulski, and Members of the subcommittee, 
today's FBI is part of a vast national and international campaign 
dedicated to defeating terrorism. Working hand-in-hand with our 
partners in law enforcement, intelligence, the military and diplomatic 
circles, the FBI's primary responsibility is to neutralize terrorist 
cells and operatives here in the United States and help dismantle 
terrorist networks worldwide. Although protecting the United States 
from terrorist attacks is our first priority, we remain committed to 
the defense of America against foreign intelligence threats as well as 
enforcing federal criminal laws while still respecting and defending 
the Constitution.
    This year will mark the 5-year anniversary of September 11. The FBI 
has changed dramatically since the terrorist attacks and we will 
continue to evolve to meet the emerging threats to our country. We have 
expanded our mission, radically overhauled our intelligence programs 
and capabilities, and have undergone tremendous personnel growth. With 
the fiscal year 2007 budget request, in order to capitalize on these 
changes and our past investments in personnel, we intend to bridge the 
gap between our growth and infrastructure by focusing on updating our 
technology and facilities.
    Once again, I thank you for your continued support of the FBI. I am 
happy to answer any questions you may have.

                    Drug Enforcement Administration

STATEMENT OF KAREN TANDY, ADMINISTRATOR
    Senator Shelby. Administrator Tandy.
    Ms. Tandy. Good afternoon, Chairman Shelby, Ranking Member 
Mikulski, and members of the subcommittee. It is my pleasure to 
appear before you this afternoon to present and discuss the 
President's 2007 budget request for the Drug Enforcement 
Administration (DEA).
    I want to thank this subcommittee for its support and 
guidance to DEA, also for your passage of the supplemental 
yesterday affecting DEA as well. Our enforcement efforts have 
been successful, and they have contributed to the 19 percent 
overall reduction in drug use over the past 5 years. As 
Congress appreciates and certainly this subcommittee, the 
devastation of drugs knows no bounds and takes an enormous toll 
on both human lives and our country's economy. It takes victims 
as young as the 10-month-old baby who died in January from 
ingesting a massive amount of his parents' heroin to 90-year-
old nursing home patients who are hospitalized from exposure to 
methamphetamine that was being cooked in their nursing home.

                            METHAMPHETAMINE

    Meth labs have now been found in every State in this 
country. Last year, about 35 percent of the meth consumed in 
America was homemade. Thanks to congressional leadership and 
new State laws, the number of small toxic labs in America has 
decreased, but meth use still remains high.
    Today, about 20 percent of meth consumed in America is made 
here. The balance is manufactured and distributed by Mexican 
trafficking organizations operating in the United States and 
Mexico. DEA and the government of Mexico have joined together 
to combat that threat by redirecting our resources to 
specifically target Mexican meth manufacturing and trafficking 
both here and in Mexico.

                           GLOBAL DRUG TRADE

    The global drug trade is a continuing and serious national 
security threat to Americans at home and to our interests 
abroad. Colombia produces about 90 percent of the cocaine that 
is smuggled into the United States. DEA is attacking that trade 
at its source and transit zones. Just 2 weeks ago, we charged 
50 leaders of the FARC, a State Department-designated foreign 
terrorist organization. We charged those 50 leaders with 
supplying more than 60 percent of the cocaine in the United 
States that is valued at $25 billion.
    Through our DEA operations in Afghanistan, DEA seeks to 
prevent that country from returning as a major U.S. supplier of 
heroin, as it was in the 1970s and 1980s and to help stabilize 
the Afghanistan government. Last year, DEA-led investigations 
resulted in the first ever extradition from Afghanistan to the 
United States.

                     DRUG FLOW PREVENTION STRATEGY

    DEA's drug flow prevention strategy, which targets 
transportation choke points, focuses on disrupting the flow of 
drugs, money, and chemicals between the source and transit 
countries and America. We are requesting a budget enhancement 
to fund this strategy, which already has resulted in record 
seizures and disrupted trafficking in the western hemisphere, 
actually forcing them to suspend drug operations, change their 
modes of drug transport, and even jettison loads of drugs.
    With this request, we can expand our foreign-deployed 
advisory support teams, the FAST teams that are in Afghanistan, 
to include one of those FAST teams in the western hemisphere 
and solidify as well the base for funding of our five existing 
FAST teams that are operating in Afghanistan.
    DEA's drug flow prevention strategy, as I mentioned, 
included a 65-day interagency operation late last year that 
targeted the transit zones both in the eastern Pacific and in 
the Caribbean, and it was during that 65-day operation that 46 
metric tons of cocaine were seized under our strategy. It 
included among those seizures the largest eastern Pacific 
seizure in the history of the Joint Interagency Task Force-
South for that period. A temporary reduction in the ability of 
cocaine in the United States also appears to have resulted from 
this operation under this strategy.
    DEA continues our assault on drug traffickers' illegal 
proceeds as well, and last year, I am very pleased to say that 
we stripped domestic and foreign drug traffickers of a record 
breaking $1.9 billion in drug proceeds and in the denial of 
drug revenue. This exceeds internal goals in DEA, aggressive 
goals that were set for 2005, where we had a goal of $1 billion 
to be seized in 2005; it exceeded our goal by 90 percent and 
got us one step closer to the point where the risk of seizure 
will begin to outweigh the financial gains for drug 
traffickers.

           DRUG ENFORCEMENT ADMINISTRATION INTELLIGENCE ROLE

    The second, the other budget enhancement, supports DEA's 
recent reentry to the intelligence community in order to 
provide DEA with the infrastructure required to function in the 
community and to increase our contribution to national security 
while at the same time protecting the primacy of the agency's 
law enforcement functions.
    Nearly half of all State Department foreign terrorist 
organizations have ties to the drug trade. DEA is poised to 
make valuable and lasting contributions in the intelligence 
arena, and the President's 2006 supplemental request that you 
passed last night included $5 million to enable DEA to 
jumpstart that initiative this year, while the 2007 budget 
requests for funding remain so that we can continue this 
initiative through 2007.
    The men and women of the Drug Enforcement Administration 
thank you for your support as we continue to score major 
victories and protect America against drugs. Thank you, and I 
look forward to your questions.
    Senator Shelby. Thank you.
    [The statement follows:]

                  Prepared Statement of Karen P. Tandy

    Mr. Chairman and Members of the subcommittee: Good afternoon, and 
thank you for the opportunity to testify on behalf of the President's 
Fiscal Year 2007 Budget request for the Drug Enforcement Administration 
(DEA). I appreciate your strong and continued support for the important 
work of DEA--reducing the availability of illicit drugs in the United 
States. Every single day, DEA's brave men and women combat the world's 
drug trafficking organizations. We wage the battle on every front. It 
begins with the cultivation or manufacturing of drugs, complete with 
the movement of chemicals, carries on through the transit zones and 
final distribution in our Nation's communities, and concludes with the 
laundering of the distribution proceeds. Furthermore, the battle 
extends well beyond our borders into foreign lands and into cyberspace. 
To this end, DEA continues to be an active partner in the war against 
global terrorism and protecting the homeland.
    While we have made great strides over the years and continue to 
adapt to the increasingly complex challenges that face modern-day law 
enforcement, much work remains to be done. The resources that Congress 
provides are critical to our success and all of us at DEA are grateful 
for the chairman's and the subcommittee members' leadership.
    In my statement, I will summarize some of our important successes 
of 2005, summarize the President's request for DEA, and discuss some of 
the challenges that lie ahead. An attachment for the hearing record 
that provides additional mission-related data also is included.

                    FISCAL YEAR 2005 ACCOMPLISHMENTS

    Through continuous strategic thinking and planning, DEA is able to 
meet the ever-changing demands of contemporary drug enforcement. Ours 
is an organization that has had to be agile and resourceful in order to 
combat those whose criminal methods become more and more refined and 
complicated. Our successes in fiscal year 2005 are in those areas that 
are the agency's foremost priorities:
    Financial and Money Laundering Operations.--DEA focuses on the 
dismantlement of the financial infrastructures of drug trafficking 
organizations, and the payoff has more than met expectations. In fiscal 
year 2005, DEA stripped domestic and foreign drug traffickers of nearly 
$1.9 billion in drug proceeds and revenue denied, which included $1.4 
billion in asset seizures and $477 million in drug seizures. This, Mr. 
Chairman, exceeds DEA's fiscal year 2005 $1 billion goal for asset and 
drug seizures by 90 percent. Furthermore, DEA's seizures nearly match 
DEA's fiscal year 2006 enacted appropriation for our Salaries and 
Expenses Account. We have developed a 5-year plan with an ultimate goal 
of taking $3 billion away from all drug trafficking organizations by 
fiscal year 2009, and we are committed to meeting our goal. In fiscal 
year 2006, DEA will transform its current temporary staffing in Dubai, 
United Arab Emirates, into a permanent presence, with a commitment of 
four positions (including two agents). These positions will serve as a 
liaison for all drug enforcement matters, including financial 
investigations. We also are in the process of standing up a financial 
investigations team that will be staffed in Bogota and Cartagena, 
Colombia, and we anticipate establishing a money laundering group in 
Mexico City. It is our goal by adding offices in these regions, that we 
will be able to bolster our efforts to take potentially billions in 
drug profits away from trafficking organizations, and inflict enough 
damage to leave them unable to reconstitute their operations.
    Since the launch of our ``Money Trail Initiative'' in July 2005, 
more than $36.2 million in proceeds that traffickers attempted to 
smuggle from the United States have been seized. An investigation 
during fiscal year 2005 by a DEA-led multi-jurisdictional Organized 
Crime Drug Enforcement Task Force (OCDETF) of a Colombian-based money 
laundering operation resulted in 81 arrests and the seizure of $7.8 
million. During fiscal year 2005, DEA continued to be a key leader in 
the multi-jurisdictional law enforcement effort that targeted the 45 
``Most Wanted'' drug trafficking and money laundering organizations, 
commonly referred to as CPOTs (Consolidated Priority Organization 
Target). As a result of this critical supply reduction strategy, 6 
CPOTs have been dismantled and removed from the list of 45, and the 
operations of another 6 were significantly disrupted. In addition, in 
fiscal year 2005, 121 CPOT-linked drug trafficking organizations were 
dismantled and 204 CPOT-linked organizations were severely disrupted.
    Fighting Methamphetamine.--DEA has redoubled its efforts to fight 
methamphetamine and continues to turn the tide against the use, 
trafficking, and manufacture of the drug. DEA takes a comprehensive 
approach to combating a problem that poses a unique and deadly threat 
to communities across America--enforcement, domestic and international 
precursor chemical control, and the identification and cleanup of the 
large number of small toxic laboratories. As trafficking patterns have 
changed, so has DEA. We have shifted our focus from the super labs in 
the United States, to the small toxic labs that spring up as a result. 
This is in addition to targeting precursor chemical control and 
increasing our focus on the Mexican organizations that conduct the vast 
majority of the methamphetamine trade. In fiscal year 2005, DEA spent 
an estimated $176 million to combat methamphetamine, including $18.8 
million to administer 8,897 clandestine laboratory cleanups.
    In August 2005, DEA wrapped up ``Operation Wildfire''--a nationally 
coordinated law enforcement initiative that was designed to target all 
levels of the methamphetamine manufacturing and distribution chain in 
the country. Two hundred cities took part in the operation and the 
results were unprecedented--427 arrests and the seizure of 95 kilograms 
of methamphetamine, 201,035 tablets of pseudoephedrine, 153 kilograms 
of pseudoephedrine powder, and 224,860 tablets of ephedrine. In 
addition, 56 clandestine laboratories were seized and 30 children were 
rescued. A second operation in August, ``Operation Three Hour Tour'', 
resulted in 170 arrests and the dismantlement of three major drug 
transportation rings with international ties, as well as 27 United 
States distribution groups. We estimate that these groups were capable 
of transporting enough methamphetamine into the United States to 
provide product for over 22,700 methamphetamine users every month. 
1,634 kilograms of cocaine, 159 pounds of methamphetamine, 9 ounces of 
crack, 7 kilograms of heroin, 216 pounds of marijuana, and 22,000 
dosage units of MDMA were seized in the operation.
    In addition to these large scale operations, DEA's Mobile 
Enforcement Teams (METs) continued their methamphetamine focus. Since 
1995, METs have significantly increased the number of methamphetamine 
deployments. At the end of the first quarter of fiscal year 2006, 66 
percent of MET deployments initiated targeted methamphetamine 
trafficking organizations. This compares to 21.8 percent in fiscal year 
2003, 27 percent in fiscal year 2004, and 41 percent in fiscal year 
2005.
    DEA also has continued its work with our global partners including 
Canada, Hong Kong, and Mexico to target international methamphetamine 
traffickers and to increase chemical control efforts abroad. For 
example, the United States and Mexico have obtained a commitment from 
Hong Kong not to ship chemicals to the United States, Mexico, or Panama 
until Hong Kong authorities have received an import permit or 
equivalent documentation. Hong Kong officials also agreed to provide 
advance notice to a receiving country before a shipment is made. On the 
training side, in fiscal year 2005, DEA trained 105 Mexican officials 
in the areas of chemical control and clandestine laboratory cleanup. In 
partnership with Mexican law enforcement, DEA targets Mexican 
methamphetamine manufacturers, distributors and sources of supply based 
in the western United States and Mexico. One operation that culminated 
in March 2006, included the seizure of nearly 200 pounds of 
methamphetamine.
    Internet Drug Trafficking.--In fiscal year 2005, DEA initiated 100 
new internet investigations involving the online sales of 
pharmaceutical controlled substances. Over the course of fiscal year 
2005, DEA arrested 62 individuals and seized $44 million in cash, 
property, computers, and bank accounts from individuals who had been 
selling prescription drugs via the Internet. As a result of one 
internet drug trafficking investigation, Operation Cyberchase, DEA 
identified approximately 200 web sites that illegally sold prescription 
drugs and arrested 25 individuals who had been operating in the United 
States, India, Asia, Europe, and the Caribbean. DEA also led a 21-month 
OCDETF investigation that concluded with criminal charges against the 
principal Mexican steroid manufacturers, whose U.S. sales totaled an 
estimated $56 million annually. DEA has arrested nine individuals, one 
of whom was the owner of three of the world's largest anabolic steroid 
manufacturing operations. Eighty percent of the steroids seized in the 
United States last year originated from Mexican manufacturers.
    War on Terror.--DEA is well-placed to identify those threats posed 
by international terrorism funded by drug proceeds. The case of Afghani 
Bashir Noorzai, who was arrested in the United States in April 2005, 
illustrates the link that exists between drug trafficking and terrorist 
organizations. Noorzai was the leader of the largest Central and 
Southwest Asia-based heroin drug trafficking organization known to DEA. 
Noorzai is charged with providing explosives, weaponry, and personnel 
to the Taliban in exchange for protection for his organization's opium 
poppy crops, heroin laboratories, drug transportation routes, and 
members and associates. Noorzai was also a close associate of a member 
of the Taliban leadership. During fiscal year 2005, DEA operations also 
included the deployment of 5 Foreign-deployed Advisory and Support 
Teams (FAST) to Afghanistan and the disruption of 8 and dismantlement 
of 2 terrorist-linked Priority Target Organizations (PTO).
    Currently, Afghanistan is not a major heroin supplier to the United 
States; only about 8 percent of the United States supply comes from 
that country. However, DEA operations in Afghanistan serve a dual 
purpose--preventing the country from returning as a major supplier of 
heroin to the United States, as it was in the 1970s and 1980's, and 
helping stabilize the Afghanistan government as it battles the powerful 
drug warlords for control of portions of the country.
    Mr. Chairman, I also am very proud to report that the FASTs have 
played a pivotal role in protecting the lives of both our U.S. military 
and our coalition partners in Afghanistan. The teams have identified 
narcotics traffickers involved in targeting U.S. forces with improvised 
explosive devices (IEDs) and have provided critical information 
obtained from DEA Human Intelligence (HUMINT) sources to U.S. Special 
Forces Teams. In fact, on several occasions after DEA shared its source 
information, the Special Forces have successfully intervened and seized 
IEDs, other bomb making materials, and weapons caches.
    Assisting Local Law Enforcement.--This year, we had an additional 
mission in our longstanding support of state and locals--rescue and 
cleanup in the Gulf Region following Katrina. Our office in New Orleans 
sustained some damage and our Gulfport office was uninhabitable. Our 
operational assets had to be temporarily moved to Baton Rouge. With the 
funding DEA was provided in the fiscal year 2006 supplemental 
appropriation, repairs have been made and we have been able to return 
to our New Orleans office. Currently, we are operating in temporary 
space in Gulfport until repairs can be made for safe occupancy at our 
permanent location. In the aftermath of the storm, 251 DEA personnel, 
including Special Agents, Special Agent pilots, Intelligence Analysts, 
and other technical and logistical staff were deployed to provide law 
enforcement and rescue/humanitarian assistance to 13 law enforcement 
agencies in Louisiana, Mississippi, and Alabama. We established and 
manned mobile command posts and communications systems, and assisted 
with the rescue of 3,340 stranded victims using DEA helicopters, which 
included 70 senior citizens from a nursing home that had been flooded. 
DEA also assisted with patrol assignments, transported medicine to law 
enforcement personnel to combat hepatitis, and worked with Texas and 
Arkansas pharmacy boards on emergency refill procedures to serve 
Louisiana, Mississippi, and Alabama residents. I am very proud of the 
many members of the DEA community who gave so selflessly at a time of a 
national tragedy. You may be sure that we will continue to support the 
recovery efforts in the stricken areas in any way we can.
    In addition to Katrina assistance, DEA remained dedicated to our 
critical state and local partners. For example, in fiscal year 2005, 
DEA led 217 State and Local Task Forces, with an on board strength of 
2,096 Task Force Officers and 1,253 DEA Special Agents. We also have 
provided drug enforcement training to 41,000 state and local police 
officers in fiscal year 2005. DEA's Jetway Program, which instructs 
state and local law enforcement officers how to address interdiction 
issues in airports, bus and train stations, and hotel/motel 
environments, conducted nine schools in cities across the country 
during fiscal year 2005. Our Pipeline/Convoy Program, which teaches 
highway patrol officers how to address commercial and passenger vehicle 
interdiction issues, conducted 16 seminars in fiscal year 2005. These 
two important programs trained a total of more than 3,000 officers. DEA 
has trained drug unit commanders, DEA and other federal, state and 
local law enforcement intelligence analysts, and international 
narcotics leaders. Furthermore, we trained 1,100 police officers in the 
enforcement areas of clandestine labs and diversion.
    Outreach and Public Awareness.--9,000 people have received victim, 
witness, and drug-endangered awareness training in fiscal year 2005. We 
also launched a public website (justthinktwice.com) in fiscal year 
2005, designed for young people that provides information on topics 
such as methamphetamine, prescription drugs, drugged driving, 
marijuana, and drug legalization. Since the launch of the site, there 
have been an average of 200,000 hits per month, and many Governors have 
written to the Attorney General to express how useful they have found 
the website to be and have pledged to publicize the website widely in 
their states.

                    FISCAL YEAR 2007 BUDGET REQUEST

    For fiscal year 2007, the President's Budget requests $1.9 billion 
for DEA ($1.7 billion under the Salary and Expenses Account and $212 
million under the Diversion Control Fee Account). A total of 9,310 
positions, of which 4,066 are Special Agent positions, will be funded. 
This request represents an increase of $72 million over fiscal year 
2006. I would like to call attention to a few highlights of the 
President's request.
Salaries and Expenses Account
    The request includes a $24.8 million investment to fund two 
initiatives:
    Drug Flow Prevention Initiative ($12.8 million and 10 positions) 
involves multiple agencies in multiple countries targeting major drug 
trafficking organizations (CPOTS). This initiative is designed to 
disrupt the flow of drugs, money, and chemicals between the source 
zones and the United States. The strategy DEA employs is to attack the 
organizations' vulnerabilities in their supply, transportation systems, 
and financial infrastructures. The program supports the Department of 
Justice's Strategic Goal of preventing terrorism and promoting the 
nation's security and enforcing federal laws and representing the 
rights and interests of the American people.
    As part of this program, $7.5 million is requested for our very 
valuable FAST operations. With this request, DEA has the necessary 
resources, coupled with Department of Defense funds, to permanently 
support the five FAST teams now operating in Afghanistan. In addition, 
one new team will be created whose initial focus will be on Western 
Hemisphere operations. Under the Drug Flow Prevention program, 10 
positions and $5.3 million also are requested to expand a successful 
multi-agency cocaine interdiction program known as ``Operation Panama 
Express.'' Since its inception in February 2000, Operation Panama 
Express has seized 356 metric tons of cocaine, which averages almost 
4\1/2\ tons per month for the past 6 years. The Country Offices in 
Venezuela, Guatemala, Honduras, and Ecuador and the Caribbean Field 
Division would receive additional Special Agent positions. Resources 
will be used to recruit additional HUMINT sources to provide 
information to DEA regarding drug smuggling operations involving the 
transit of drugs through Central America, and the Caribbean and Eastern 
Pacific zones. The information from these sources will provide an early 
warning against narcotics and terrorist threats, which will ensure that 
our southwest border strategy has a defense-in-depth capability.
    I would add, Mr. Chairman, that this initiative follows a 
successful DEA 2005 international Drug Flow Prevention initiative 
(``Operation All Inclusive I-2005'') that targeted the Eastern Pacific 
and Western Caribbean transit zones of Central America and the Central 
America land mass. By concentrating law enforcement efforts in this 
corridor, multi-ton bulk drug shipments were interdicted before 
reaching Mexico. All Inclusive's success with respect to seizures was 
unprecedented. Over 46 metric tons of cocaine was seized in transit 
zones during the 65-day operation, and included the largest EASTPAC 
seizures for the month of August in JIATF South's history, 21.3 metric 
tons. At the same time, DEA's domestic seizures decreased by 29 percent 
compared to the 65-day period prior to the operation. DEA's domestic 
cocaine seizures for the three-month period following the operation 
decreased by 27 percent compared to the three-month period preceding 
the operation, and by 36 percent compared to the same three-month 
period in 2004. Although other explanations are possible, preliminary 
analysis suggests that All Inclusive may have resulted in a temporary 
reduction in the availability of cocaine in the United States. Other 
All Inclusive seizures included: the largest ever cocaine seizure in 
Belize--2,376 kilograms; the largest ever currency seizure in 
Nicaragua--$1.2 million; 3.9 metric tons of cocaine and $5.7 million in 
currency seized in Panama; 21 metric tons of marijuana seized in 
Mexico. Furthermore, as a result of All Inclusive, we found that 
traffickers were forced to delay or suspend their drug operations, 
divert their routes, change their modes of transportation, and even 
jettison loads.
    Intelligence and National Security ($11.9 million and 57 
positions--including one Special Agent and 42 Intelligence Analysts). 
In February of this year, Director of National Intelligence John 
Negroponte and Attorney General Alberto Gonzales signed a joint 
memorandum designating an element of DEA's Intelligence Division to be 
a member of the Intelligence Community (IC). IC membership will allow 
DEA to expand and strengthen its existing relationships with our 
nation's intelligence agencies. With 86 offices in 62 countries--the 
largest law enforcement presence abroad--DEA is poised to make valuable 
and lasting contributions in the intelligence arena. In DEA, 
intelligence drives enforcement strategies and operations. This 
approach has yielded impressive results: since the terrorist attacks of 
September 11, 2001, DEA's Special Operations Division has produced 
26,499 counterterrorism products for United States law enforcement 
agencies with counterterrorism missions; during fiscal year 2005, the 
El Paso Intelligence Center responded to more than 260,000 
counterterrorism inquiries from federal, state, and local law 
enforcement agencies, of which 12 percent were directly related to 
counterterrorism. Moreover, as of December 31, 2005, DEA has identified 
48 percent (21 of 44) of the organizations on the Department of State's 
Foreign Terrorist Organizations list as having possible ties to the 
drug trade.
    This request will fund DEA's entry into the IC. $4 million and 20 
positions (including one Special Agent and 9 Intelligence Analysts) 
will create a National Security Intelligence Section (NN) within DEA's 
Intelligence Division. Through DEA's newly designated element, DEA will 
pass to the IC any counterterrorism or national security information it 
obtains during the course of its Title 21 drug enforcement mission. The 
NN objective will be to maximize DEA's contribution to national 
security, while protecting the primacy of the agency's law enforcement 
functions. $7 million and 37 positions (including 33 Intelligence 
Analysts) will fund the development of a Central Tasking Management 
System (CTMS)\1\ at DEA. The CTMS will track the acquisition of law 
enforcement investigative information and the dissemination of this 
information to other law enforcement and IC elements; establish 
policies and procedures for information acquisition and dissemination; 
produce acquisition plans, and establish an interface with acquisition 
management elements in the law enforcement community. Finally, $1 
million will establish base funding to continue the Reports Officer 
Program, which began as a pilot project in June 2004. The Reports 
Officers have proven beneficial in extracting and passing in a timely 
manner, DEA law enforcement information that is relevant to IC 
requirements. Specifically, the Reports Officers review DEA law 
enforcement intelligence reporting and develop reports based on that 
information which responds to IC taskings.
---------------------------------------------------------------------------
    \1\ The CTMS is formally the Collection Requirement Management 
System (CRMS) as discussed in the fiscal year 2007 President's Budget.
---------------------------------------------------------------------------
Program Offsets
    In order to fund the Drug Flow Prevention and Intelligence and 
National Security initiatives, the President's Budget includes the 
following three offsets:
    Regional Enforcement Teams (RET).--DEA proposes to eliminate the 
RET program, for a reduction of $9 million and 34 positions (23 Special 
Agents). DEA's remaining resources would continue to target the drug 
trafficking organizations having the most significant impact on the 
United States. RET was seen as a program that did not tie as closely to 
DEA's core focus on international drug trafficking organizations.
    Demand Reduction Program.--DEA proposes to eliminate all positions 
dedicated to this program for a reduction of 40 positions (including 31 
Special Agents) and $9.2 million. This proposal would allow DEA to 
focus on its core mission of drug law enforcement. When possible, 
however, Special Agents would participate in demand reduction 
activities on a collateral duty basis.
    Mobile Enforcement Teams (MET).--DEA proposes to reduce by 151 
(including 132 Special Agents) the number of positions dedicated to the 
MET program, for a reduction of $30.2 million. The remaining $20.5 
million and 83 positions (including 80 Special Agents) would continue 
to support the MET program, with priority focus on methamphetamine 
investigations. In addition to MET deployments targeting 
methamphetamine organizations, in the areas of the county where the 
number of clandestine labs has declined but methamphetamine use still 
remains high, I have directed DEA's Clandestine Laboratory Enforcement 
Teams (CLET) to begin investigating United States domestic networks 
that are distributing Mexican produced methamphetamine. At the same 
time, CLETs will continue their investigations of synthetic drug labs 
and will continue to assist state and local law enforcement agencies 
with laboratory, precursor, and distribution investigations. Finally, 
DEA would continue to administer funds from the Community Oriented 
Policing Services (COPS) program for clandestine laboratory cleanups.
Diversion and Control Fee Account (DCFA)
    As I stated earlier, the President's request includes $212 million 
under the DCFA, a $10.4 million increase over fiscal year 2006. Of the 
total requested amount, DEA proposes funding of $3.4 million for DCFA 
program improvements. This funding would allow DEA to boost 
intelligence support (33 Intelligence Analysts) needed for diversion 
investigations. This request is a continuation of the fiscal year 2006 
Diversion Intelligence Initiative, whose goal is to place one 
Intelligence Analyst in every Field Division Diversion group.
Base Transfer
    Since 2002, the Federal Bureau of Investigation (FBI) has annually 
reimbursed DEA approximately $6 million to DEA for providing 
counterterrorism related information to multiple federal agencies. The 
President's Budget proposes that these resources (which fund 45 
positions, including 11 Special Agents) would be permanently 
transferred from the FBI to DEA.

                          OPPORTUNITIES AHEAD

    Mr. Chairman, DEA continues to make steady progress in all facets 
of its mission and has seen some encouraging trends, particularly as it 
relates to drug use among our nation's children. In fact, the Office of 
National Drug Control Policy reports that since 2001, teen drug use is 
down by 19 percent and on track to decline by a total of 25 percent by 
2007 to meet the President's drug use reduction goals. We are a key 
partner in the effort through the DEA mission to reduce the drug supply 
in America. Drug prevention will not take hold and treatment will not 
succeed if Americans are surrounded by cheap and plentiful drugs. DEA 
implements the President's National Drug Control Strategy by disrupting 
the supply of illegal or diverted drugs, through national and 
international attacks to dismantle the entire infrastructure of the 
most significant drug trafficking and money laundering organizations 
that supply our nation's illicit drug market.
    As you know, the devastation of drugs knows no bounds and takes an 
enormous toll on both human lives and our country's economy. Moreover, 
we are seeing that the global drug trade continues to be an evolving 
national security threat to Americans at home and to our interests 
abroad. To address these disturbing facts, DEA takes a proactive and 
aggressive approach. In addition to the fiscal year 2007 initiatives I 
have outlined, we will use our existing resources to focus on the 
following areas during fiscal year 2006:
    Establishing a Methamphetamine Task Force.--The fiscal year 2006 
Department of Justice Appropriations Act directs the Attorney General 
to establish a Methamphetamine Task Force (MTF) within DEA. The purpose 
of the Task Force will be to improve and target the federal 
government's policies related to the production and trafficking of 
methamphetamine. The MTF is comprised of three DEA Special Agents, two 
Diversion Investigators, one Program Analyst, and attorneys from DEA's 
Office of Chief Counsel, and the Justice Department's Office of Legal 
Policy and the Criminal Division's Narcotics and Dangerous Drugs 
Section. These are veteran personnel with extensive experience and 
knowledge in the field, who will acquire and analyze investigative and 
intelligence information from numerous sources. Their analysis will 
focus on trends in: chemical trafficking and manufacturing methods; 
clandestine laboratory cleanup issues; changes in trafficking routes 
and patterns; regional abuse and distribution patterns; chemical and 
equipment sources and methods of procurement; foreign and domestic 
precursor sources, and smuggling and methods of financing. The MTF will 
propose recommendations for addressing issues identified from the 
analysis, and forward them to the National Synthetic Drugs Interagency 
Working Group for review and action.
    Implementing the Combat Methamphetamine Epidemic Act of 2005.--As 
you know, President Bush recently signed the USA PATRIOT Improvement 
and Reauthorization Act of 2005, which includes the provisions of the 
Combat Methamphetamine Epidemic Act. These provisions provide law 
enforcement with the necessary tools to address the spread of 
methamphetamine manufacture and abuse across the country and the 
devastating effects that this drug is having on society. With these 
much needed chemical control measures, clandestine laboratory operators 
will have more difficulty in obtaining large quantities of 
pseudoephedrine and ephedrine products at retail outlets for use in 
methamphetamine manufacture. The Act also closes a loophole that 
allowed importers to sell pseudoephedrine to companies that were not 
identified on the original import notice, and enhance criminal 
penalties for methamphetamine traffickers. These measures are part of a 
comprehensive national approach toward controlling this growing problem 
and protecting our nation's children.
    Increasing Internet investigations and halting the diversion and 
abuse of legal controlled substance pharmaceuticals.--The Internet has 
increased the opportunities for diversion and is the means by which 
many abusers are now purchasing Schedule III and Schedule IV drugs. 
DEA's plan to target and dismantle online pharmacies, builds on the 
successes of our online pharmacy strategy, which combines enforcement, 
regulatory, and technological efforts to detect and prevent diversion. 
The strategy calls for DEA to coordinate its Internet investigations 
with Federal, State, and local agencies, and provide training for 
investigators, prosecutors, the pharmaceutical industry, and DEA 
registrants. We have supported legislative and regulatory initiatives 
aimed at curtailing and preventing online diversion of controlled 
substances. Finally, DEA has taken a leadership role in the development 
and use of new technologies as investigative tools.
    Improving the measures of effectiveness for DEA programs and 
operations.--DEA is developing a management information tool, the Drug 
Enforcement Strategic Target Analysis Review (DrugSTAR), to establish 
links between a Priority Target's disruption or dismantlement and its 
impact on drug availability. It will be a key component of the agency's 
overall strategic management system. Using DrugSTAR, DEA will be able 
to identify our challenges and best practices, focus on performance and 
accountability, and demonstrate results in compliance with the Office 
of Management and Budget's management requirements.
    Under DrugStar, DEA also has been piloting the Significant 
Investigation Impact Measurement System (SIIMS), which collects and 
analyzes enforcement, public health, and social service statistics both 
before an organization is taken down and for the 6 months that follow. 
This analysis will determine whether DEA targeting and enforcement 
operations had real impact and, if not, enable DEA to redirect 
resources and revise operations to achieve great impact. The SIIMS 
system has generated assessments of three takedown operations in 2005. 
For example, a SIIMS assessment of a successful New Orleans operation 
involving pain clinics and pharmacies revealed that the operation had 
significant impact on the availability of diverted drugs in that area, 
lasting for months after the enforcement operation. Specifically, SIIMS 
analysis revealed that, among other things, there were no seizures by 
DEA New Orleans of three illegally prescribed medications in the two 
months following the operation. This type of information can be useful 
when evaluating DEA's performance in reducing drug availability and for 
reporting purposes for the Attorney General, Congress, and the Office 
of National Drug Control Policy.
    Mr. Chairman, this concludes my remarks. I would be pleased to 
answer any questions.
                                 ______
                                 
                               Attachment

                   DRUG THREATS TO THE UNITED STATES

Methamphetamine
    Methamphetamine is the most widely abused and most frequently 
clandestinely produced synthetic drug \1\ in the United States. 
Methamphetamine appeals to people across all genders, ages, and socio-
economic levels. Methamphetamine has a high rate of addiction, a low 
rate of sustained recovery, and is cheap to manufacture. It has become 
a problem of epidemic proportions in the United States, devastating 
users, their families, and local communities. According to the 2004 
National Survey on Drug Use and Health (NSDUH), 583,000 persons 12 and 
older used methamphetamine during the past 30 days (a 4 percent 
decrease from 2003) and 1.4 million have used it in the past year, a 10 
percent increase from 2003. The estimated number of past year 
methamphetamine users is three times the number of estimated past year 
heroin users.
---------------------------------------------------------------------------
    \1\ The term ``synthetic drugs'' refers to controlled substances 
such as methamphetamine, MDMA ``ecstasy'' (and its analogues), GHB (and 
its analogues), ketamine, and other substances, which are not of 
primarily organic origin and are usually associated with clandestine 
manufacture.
---------------------------------------------------------------------------
    By effectively targeting and arresting the main suppliers of bulk 
precursor chemicals, DEA has successfully reduced the number of ``super 
labs'' \2\ in the United States. As a consequence, operators of ``super 
labs'' have shifted their production to Mexico. Current drug and lab 
seizure data suggest that 80 percent of the methamphetamine consumed in 
the United States comes from larger labs, for the most part in Mexico, 
and that approximately 20 percent of the methamphetamine consumed comes 
from the small, toxic laboratories (STLs) in the United States. STLs 
generally are unaffiliated with major drug trafficking organizations, 
but nevertheless present enormous environmental challenges.
---------------------------------------------------------------------------
    \2\ ``Super labs'' are those labs that are capable of producing at 
least 10 pounds of methamphetamine per cycle.
---------------------------------------------------------------------------
    In recent years, the proliferation of STLs has been fueled by the 
ready availability of pseudoephedrine, the key ingredient in 
methamphetamine and by the fact that the manufacturing process is 
simple, inexpensive, and recipes can be found easily on the Internet. 
In 1990, there were 2 States with 20 or more clandestine laboratory 
seizures. In 1996, this number increased to 10 States. In 2004, there 
were over 40 States where 20 or more seizures of clandestine 
laboratories occurred. From 2002 through 2005, more than 55,000 STLs 
were discovered and seized.
    According to the Clandestine Laboratory Seizure System database 
located at the DEA's El Paso Intelligence Center (EPIC), 11,746 labs, 
dumpsites, and chemicals, glass, and equipment were seized in the 
United States in calendar year 2005. Of those seized, 5,308 labs were 
capable of producing only up to one pound of methamphetamine per cycle. 
In fiscal year 2005, DEA domestic seizures of methamphetamine totaled 
3.1 metric tons, which is the equivalent to approximately 367 million 
dosage units. Fiscal year 2005 seizures increased by 24 percent from 
fiscal year 2004, when 2.5 metric tons were seized.
    The most promising means of eliminating STLs is to choke off the 
sources for ephedrine and pseudoephedrine. DEA has removed a number of 
distributors of grey market drug products (those that can be purchased 
at truck stops, party/liquor stores, etc.) from the marketplace. 
Following DEA's success with removing grey market distributors, STLs 
have become heavily reliant on obtaining precursor chemicals from cold 
and asthma drug products (usually packaged in blister packs) from 
traditional retail outlets, such as chain drug stores. Based on 
clandestine lab seizure statistics, those States restricting the 
availability of methamphetamine precursor chemicals, like 
pseudoephedrine, have seen a dramatic decrease in the number of small 
toxic labs. With the enactment of Federal and State legislation 
limiting the sale of products containing pseudoephedrine and ephedrine, 
further reduction in the number of STLs is anticipated.
    Once a STL has been identified, it must be dismantled. DEA assists 
State and local law enforcement by providing hazardous waste contractor 
clean-up services administered through Community Oriented Policing 
Services (COPS) grant funding. In fiscal year 2005, DEA administered 
8,678 State and local clandestine clean ups. This is a decrease from 
fiscal year 2004 when 9,474 clean ups were administered. In addition, 
DEA has trained nearly 12,000 Federal, State, and local law enforcement 
personnel since 1998 to conduct investigations and dismantle seized 
methamphetamine labs to protect the public from methamphetamine lab 
toxic waste.
    At the end of the first quarter of fiscal year 2006, there were 298 
active DEA Priority Target Organization (PTO) investigations with 
methamphetamine as the primary drug type. Seven (7) of the 44 
organizations (16 percent) on the fiscal year 2006 Consolidated 
Priority Organization Target (CPOT) list are engaged in methamphetamine 
trafficking. At the end of the first quarter of fiscal year 2006, there 
were 157 active PTO investigations linked to those seven CPOTs. Since 
the inception of the PTO program, DEA has disrupted or dismantled 427 
methamphetamine PTOs.

          Operational Highlight: Operations Cold Remedy and Aztec 
        Flu.--From March 2003 to March 2005, as part of DEA's 
        Operations Cold Remedy and Aztec Flu, more than 5 metric tons 
        of 60 milligram tablets of pseudoephedrine were seized in the 
        United States, Mexico, and Panama--which could have yielded an 
        excess of 3 metric tons of methamphetamine. The seizures were 
        conducted by DEA with Mexico's Organized Crime Prosecutor's 
        Office and Hong Kong law enforcement authorities. Operations 
        Cold Remedy and Aztec Flu are investigations run under the 
        auspices of Project Prism, an international initiative aimed at 
        assisting governments in developing and implementing 
        cooperating procedures more effectively control and monitor 
        trade in amphetamine-type stimulant precursors to prevent their 
        diversion. Participants of Project Prism include 95 countries 
        and 5 international organizations.
          Operational Highlight: MET Case Against Street Gang ``Satan's 
        Disciples''.--On March 7, 2006, the DEA Dallas Field Division 
        MET concluded a 9 month deployment and OCDETF/PTO investigation 
        that resulted in the dismemberment of seven methamphetamine 
        trafficking organizations and two crack cocaine organizations. 
        The investigation targeted Rocky Salazar who headed a street 
        gang named Satan's Disciples, responsible for distributing 
        methamphetamine in the Gainesville, Texas area. The Satan's 
        Disciples also distributed narcotics and laundered money in 
        three separate casinos located on Indian Reservations in nearby 
        Oklahoma. The investigation culminated with the arrest of 93 
        individuals (81 State and 12 Federal), including priority 
        target Salazar, and the seizure of 0.6 kilograms of crack 
        cocaine, 0.2 kilograms of powder cocaine, 2.5 kilograms of 
        marijuana, 8.8 kilograms of methamphetamine, 0.6 kilograms of 
        GHB, 65 firearms, $167,000 in U.S. currency, $70,000 in real 
        property, and four vehicles. DEA conducted this enforcement 
        operation together with ATF, BIA, the Chickasaw Indian Nation, 
        and State and local officers from Texas and Oklahoma.
Marijuana
    Marijuana continues to be a significant threat because today's 
potent marijuana causes more teens to be dependent on it. This is 
supported by the following data: (1) More teens seek treatment for 
marijuana dependency than for all other drugs combined including 
alcohol. (2) Marijuana was involved in 79,663 emergency department 
visits \3\ in calendar year 2003, second only to cocaine among drug-
related visits.\4\ (3) The 2004 NSDUH found that marijuana was the most 
commonly used illicit drug with 14.6 million users (6.1 percent of the 
population 12 and older) during the past month in calendar year 2004--
the same as in calendar year 2003.\5\ (4) Past year use of marijuana 
remained unchanged statistically between calendar year 2003 and 
calendar year 2004 at 10.6 percent.
---------------------------------------------------------------------------
    \3\ A visit to the emergency room is referred to as an episode, and 
every time a drug is involved in an episode it is counted as a mention.
    \4\ U.S. Department of Health and Human Services, Substance Abuse 
and Mental Health Services Administration. Detailed Emergency 
Department Tables from DAWN: 2003. December 2004.
    \5\ U.S. Department of Health and Human Services, Substance Abuse 
and Mental Health Services Administration. (2005). Overview of Findings 
from the 2004 National Survey on Drug Use and Health.
---------------------------------------------------------------------------
    Marijuana trafficking is prevalent across the Nation, with both 
domestic and foreign sources of supply. The most recent supply 
availability estimates indicate that between 10,000 and 24,000 pure 
metric tons of marijuana are available in the United States \6\ and 
that Americans spend more than $10.4 billion every year on 
marijuana.\7\ Since the demand for marijuana far exceeds that for any 
other illegal drug and the profit potential is so high, some cocaine 
and heroin drug trafficking organizations traffic marijuana to help 
finance their other drug operations.
---------------------------------------------------------------------------
    \6\ Drug Availability Steering Committee, Drug Availability 
Estimates in the United States, December 2002.
    \7\ Executive Office of the President, Office of National Drug 
Control Policy. What Americans Spend on Illegal Drugs 1988-1998. 
December 2000.
---------------------------------------------------------------------------
    Mexican drug trafficking organizations dominate the transportation 
and wholesale distribution of the majority of foreign-based marijuana 
available in the United States and cultivate marijuana on U.S. public 
lands throughout California. High grade marijuana from Canada, commonly 
referred to as ``BC Bud,'' also is available in every region of the 
United States.
    At the end of the first quarter of fiscal year 2006, there were 146 
active PTO investigations with marijuana as the primary drug type. 
Twelve (12) of the 44 organizations on the fiscal year 2006 CPOT list 
(27 percent) are engaged in marijuana trafficking. At the end of the 
first quarter of fiscal year 2006, there were 385 active DEA PTO 
investigations linked to these 12 CPOTs. Since the inception of the PTO 
program, DEA has disrupted or dismantled 208 marijuana PTOs.

          Operational Highlight: Operation Falling Star.--As of the end 
        of 2005, this Organized Crime Drug Enforcement Task Force 
        (OCDETF)/SOD coordinated operation targeting a Detroit and 
        Phoenix-based marijuana drug trafficking organization (DTO), 
        resulted in 63 arrests, and the seizure of $13.7 million in 
        cash, 16.4 metric tons of marijuana, 305 kilograms of cocaine, 
        14 properties, 22 vehicles, and 42 weapons, leading to the 
        dismantlement of the drug trafficking organization. The Detroit 
        target, Quasand Lewis, has been targeted for approximately 10 
        years by State and local law enforcement agencies for his 
        suspected involvement in several homicides and extensive drug 
        trafficking and witness intimidation. The focal point of the 
        investigation, Giovanni Ruanova, coordinated multi-million 
        dollar currency transportation routes and pick-ups from 
        Detroit.
Non-medical use of prescription drugs
    Non-medical use of addictive prescription drugs has been increasing 
throughout the United States at alarming rates. In calendar year 2004, 
an estimated 6.0 million \8\ Americans age 12 and older reported past 
month use of prescription drugs for non-medical purposes compared to 
3.8 million in calendar year 20009 \9\--a 58 percent increase in 4 
years. Nationally, the misuse of prescription drugs was second only to 
marijuana in calendar year 2004.
---------------------------------------------------------------------------
    \8\ U.S. Department of Health and Human Services, Substance Abuse 
and Mental Health Services Administration. (2005). Overview of Findings 
from the 2004 National Survey on Drug Use and Health.
    \9\ U.S. Department of Health and Human Services, Substance Abuse 
and Mental Health Services Administration. (2002). National Household 
Survey on Drug Abuse: Vol 1. Summary of National Findings.
---------------------------------------------------------------------------
    Individual users can easily acquire prescription drugs through a 
variety of means, generally dependent on type of drug. DEA and other 
data sources reveal that OxyContin and other Schedule II drugs are 
most commonly obtained illegally through ``doctor shopping'' or are 
sold illegally by registrants (e.g., doctors/pharmacists). On the other 
hand, Schedule III and Schedule IV drugs (e.g., anti-anxiety 
medications, hydrocodone, and anabolic steroids) are often purchased 
through the Internet. Many of these e-pharmacies are foreign-based and 
expose the purchaser to potentially counterfeit, contaminated, or 
adulterated products.

          Operational Highlight: An Advanced Pain Management Case.--In 
        April 2005, DEA culminated a 5 year OCDETF and Priority Target 
        investigation that resulted in the dismantlement of a major 
        prescription drug trafficking organization and the seizure of 
        $1.6 million in cash, $4.7 million in financial and 
        approximately $4.8 million in real assets. Five individuals, 
        including three physicians, were arrested and charged with the 
        distribution of pharmaceutical controlled substances, 
        distribution of drugs to a minor, conspiracy, and money 
        laundering. The physicians prescribed a cocktail of 
        hydrocodone, Xanax and Soma to approximately 100-300 patients 
        per day under the guise of ``pain management''. To date, this 
        investigation has resulted in Immediate Suspensions of DEA 
        Registrations of the doctors and four pharmacies were also 
        issued.

    DEA, in collaboration with its State and local law enforcement 
counterparts, investigates registrants and non-registrants who 
intentionally divert prescription drugs. DEA has made pharmaceutical 
investigations a priority and continues to focus its drug enforcement 
efforts toward the most important members of the drug supply chain. In 
fiscal year 2005, DEA opened 1,672 investigations focused on the 
diversion of pharmaceutical controlled substances by registrants and 
non-registrants, an approximate increase of 11 percent over fiscal year 
2004 (1,508). DEA's fiscal year 2005 Priority Target pharmaceutical 
investigations of key drug supply organizations (59) represents a 
dramatic increase (168 percent) over fiscal year 2004 (22).
    Combating the diversion of OxyContin remains a priority within 
DEA. Of the 1,668 open investigations in fiscal year 2005, 117 were 
open OxyContin investigations involving 48 doctors. Of those 117 
OxyContin investigations, 25 were Priority Target investigations.
    The illicit sale of controlled pharmaceutical substances, including 
narcotics, anti-anxiety medications, steroids, and amphetamines, is a 
serious global problem and the Internet has become one of the most 
popular sources for these products. DEA targets its investigations on 
domestic Internet pharmacies using data from available data bases (such 
as the Automated Reporting of Completed Orders System--ARCOS) to 
determine which retail pharmacies are most likely involved in 
distribution of large quantities of controlled substances over the 
Internet. In fiscal year 2005, 11.2 percent of investigative work hours 
dedicated to open diversion cases were Internet cases. This is an 
increase of 30 percent from fiscal year 2004 when Internet cases 
represented 8.6 percent of the investigative work hours dedicated to 
open diversion cases. In fiscal year 2005, as a result of online 
pharmacy investigations, DEA seized over $32 million in financial and 
property assets. This is a 184 percent increase from fiscal year 2004 
when asset seizures totaled $11 million.

          Operational Highlight: Operation Cyber Chase.--In April 2005, 
        a 1-year, multi-jurisdictional OCDETF investigation (Operation 
        Cyber Chase) was concluded with the dismantlement of the Bansal 
        drug trafficking organization and the arrest of 20 individuals 
        in New York, Philadelphia, India, Costa Rica, Austria, and 
        Hungary. Those arrested were distributing drugs worldwide using 
        rogue Internet pharmacies to dispense controlled substances 
        directly to customers without a medical evaluation by a 
        physician. The Bansal organization used over 200 websites to 
        distribute 2.5 million dosage units of Schedule II through IV 
        pharmaceutical controlled substances per month. Electronic mail 
        communications among the co-conspirators included: ``It's not 
        easy to get rich. My goal is towards the upper echelon of 
        economic independence. All things considered, it should only 
        take about 800 million. That's um, 3,000 packs of valium sold a 
        day for 5 years. Well, that's actually about 921 mill, but I'm 
        not sure there'll be a few costs in there somewhere.'' As of 
        September 30, 2005, Operation Cyber Chase has resulted in 26 
        arrests, the seizure of 5.8 million dosage units of Schedule 
        II--IV controlled substances, 105 kilograms of Ketamine, and 
        $8.6 million.
Cocaine
    Cocaine remains a major illegal drug of concern throughout the 
United States based upon abuse indicators, violence associated with the 
trade, and trafficking volume. After marijuana and prescription drugs, 
cocaine continues to be the most widely used illicit drug among all age 
categories. The 2004 NSDUH found that 2 million people used cocaine 
within the past 30 days and that over 5.6 million people used it within 
the past year. According to the 2003 DAWN report, cocaine is the most 
frequently reported illegal drug in hospital emergency department 
visits, accounting for 1 in 5 (20 percent) drug related emergency room 
visits in calendar year 2003.\10\
---------------------------------------------------------------------------
    \10\ U.S. Department of Health and Human Services, Substance Abuse 
and Mental Health Services Administration. Detailed Emergency 
Department Tables from DAWN: 2003. December 2004.
---------------------------------------------------------------------------
    Although Columbia is the principal supplier of cocaine to the 
United States, most of the wholesale cocaine distribution in the United 
States is controlled by Mexican drug trafficking organizations and 
criminal enterprises. Even in areas dominated by Colombian and 
Dominican drug trafficking organizations, such as the Northeast and 
Caribbean regions, the influence of Mexican drug trafficking 
organizations is increasing.
    At the end of the first quarter of fiscal year 2006, there were 
1,028 active DEA PTO investigations with cocaine as the primary drug 
type. Thirty-nine (39) of the 44 organizations on the fiscal year 2006 
CPOT list (89 percent) are engaged in cocaine trafficking. At the end 
of the first quarter of fiscal year 2006, there were 514 active PTO 
investigations linked to these 39 CPOTs. Since the inception of the PTO 
program, DEA has disrupted or dismantled 1,208 cocaine PTOs.

          Operational Highlight: Operations Firewall and Panama 
        Express.--DEA's multi-agency cocaine interdiction programs--
        known as Operation Firewall and Operation Panama Express--
        combine investigative and intelligence resources to interdict 
        and disrupt the flow of cocaine from the northern coast of 
        Colombia to the United States. Since the July 2003 commencement 
        of Operation Firewall, 29.2 metric tons of cocaine have been 
        directly seized. In addition, Operation Firewall has provided 
        assistance in Operation Panama Express seizures of 33.2 metric 
        tons of cocaine, and in other foreign countries with the 
        seizure of 25.7 metric tons of cocaine. Since the February 2000 
        implementation of Operation Panama Express to December 31, 
        2005, 356 metric tons of cocaine have been seized, 109.2 metric 
        tons of cocaine have been scuttled, and 1,107 individuals 
        arrested. As of December 31, 2005, these combined operations 
        have resulted in total seizures of 410.9 metric tons of 
        cocaine.
Heroin
    The overall demand for heroin in the United States is lower than 
for other major drugs of abuse such as cocaine, marijuana, 
methamphetamine, and MDMA.\11\ However, one cause for concern is the 
recent increase in heroin use. According to the 2004 NSDUH, 166,000 
people aged 12 and older (0.1 percent) reported using heroin during the 
past 30 days in calendar year 2003 compared to 119,000 (0.1 percent) in 
calendar year 2003.\12\ Heroin remains readily available in major 
metropolitan areas and is the third most frequently mentioned illegal 
drug reported to DAWN by participating emergency departments after 
cocaine and marijuana, accounting for 47,604 mentions in calendar year 
2003.\13\
---------------------------------------------------------------------------
    \11\ U.S. Department of Health and Human Services, Substance Abuse 
and Mental Health Services Administration. (2005). Overview of Findings 
from the 2004 National Survey on Drug Use and Health.
    \12\ Ibid.
    \13\ U.S. Department of Health and Human Services, Substance Abuse 
and Mental Health Services Administration. Detailed Emergency 
Department Tables from DAWN: 2003. December 2004.
---------------------------------------------------------------------------
    Most of the heroin entering the United States is produced in South 
America and Mexico. Although heroin production in these areas has 
decreased in recent years, the production capacity remains sufficient 
to meet U.S. demand for the drug.\14\ In 2004, Afghanistan produced 
more than 90 percent of the worldwide heroin produced.\15\ However, 
Afghanistan is not currently a major heroin supplier to the United 
States; only about 8 percent of the U.S. supply comes from that 
country.
---------------------------------------------------------------------------
    \14\ U.S. Department of Justice, National Drug Intelligence Center. 
(2006). 2006 National Drug Threat Assessment.
    \15\ Ibid.
---------------------------------------------------------------------------
    At the end of the first quarter of fiscal year 2006, there were 240 
active DEA PTO investigations with heroin as the primary drug type. 
Fourteen (14) of the 44 organizations on the fiscal year 2006 CPOT list 
(32 percent) are engaged in heroin trafficking. At the end of the first 
quarter of fiscal year 2006, there were 514 active PTO investigations 
linked to these 14 CPOTs. Since the inception of the PTO program, DEA 
has disrupted or dismantled 357 heroin PTOs.

          Operational Highlight: Operation Containment and FAST.--
        Through Operation Containment, DEA is working with a coalition 
        of 19 countries from Central Asia, the Caucasus, Europe, and 
        Russia, to reduce the flow of Afghan heroin into world markets, 
        prevent Afghanistan from becoming a major heroin supplier to 
        the United States, and disrupt drug related terrorist 
        activities that could hamper the long term stabilization of the 
        Afghanistan government. In fiscal year 2005, Operation 
        Containment resulted in the seizure of 11.5 metric tons of 
        heroin, 1.3 metric tons of morphine base, 43.9 metric tons of 
        opium gum, 14.2 metric tons of precursor chemicals, and 248 
        clandestine opium, morphine, and heroin conversion 
        laboratories. By comparison, just 3 years prior, .47 metric 
        tons of heroin was seized, representing a 2,300 percent 
        increase in fiscal year 2005. Operation Containment also 
        resulted in the initiation of 146 investigations and led to the 
        disruption of two CPOTs, including the Haji Bashir Noorzai and 
        Haji Baz Mohammad organizations in fiscal year 2005. DEA's 
        Foreign-deployed Advisory Support Team (FAST) Program augments 
        Operation Containment. Since being deployed in April 2005, the 
        FAST program has trained over 100 Afghan officers who work bi-
        laterally with DEA's FAST teams. One successful FAST operation 
        occurred on June 18, 2005, when the DEA Kabul Country Office, 
        FAST, United Kingdom forces, and the U.S. trained Afghan 
        officers raided and destroyed four fully operational 
        clandestine heroin laboratories. One of the four opium-to-
        morphine base conversion laboratories destroyed was one of the 
        largest seized in Afghanistan. Approximately 4.4 metric tons of 
        opium, hundreds of gallons of chemicals, four opium presses, 
        six opium vats, and 500 kilograms of soda ash were destroyed.
Transit Zones
    The Southwest Border area is the principal arrival zone for most 
illicit drugs smuggled into the United States. From that area, the 
smuggled drugs are distributed throughout the country.
    Most cocaine is transported from South America, particularly 
Colombia, through the Mexico-Central America Corridor via the Eastern 
Pacific transit zone (50 percent) and the Western Caribbean zone (40 
percent). Most of the cocaine transiting these two areas is ultimately 
smuggled into the country via the Southwest Border. The remaining 10 
percent of cocaine transported from South America mostly transits the 
Caribbean zones to Florida and the Gulf Coast.\16\
---------------------------------------------------------------------------
    \16\ U.S. Department of Justice, National Drug Intelligence Center. 
(2006). 2006 National Drug Threat Assessment.
---------------------------------------------------------------------------
    According to the 2006 National Drug Threat Assessment, 
methamphetamine seizures increased from 1.12 metric tons in calendar 
year 2002, to 1.73 metric tons in calendar year 2003, to 1.98 metric 
tons in calendar year 2004. Most of the foreign-produced marijuana 
available in the United States is smuggled into the country from Mexico 
via the Southwest Border by Mexican drug trafficking organizations and 
criminal groups, as evidenced by calendar year 2004 seizures of 1,103 
metric tons on the Southwest Border versus 9.2 metric tons on the 
Northern Border.
    In calendar year 2004, seizures for Southwest Border points of 
entry included 22.4 metric tons of cocaine, 388 kilograms of heroin, 
1,070 metric tons of marijuana, and 2.3 metric tons of methamphetamine. 
By comparison, seizures in the Florida/Caribbean arrival zone for the 
same time period included 10.5 metric tons of cocaine, 481 kilograms of 
heroin, 4.9 metric tons of marijuana and no methamphetamine.

          Operational Highlight: Discovery of Narcotics Smuggling 
        Tunnel.--Acting on intelligence from a confidential source, in 
        January 2006, a joint investigation between DEA, Immigration 
        and Customs Enforcement, United States Border Patrol, and the 
        Mexican Policia Federal Preventia culminated in the discovery 
        of a narcotics smuggling tunnel. The tunnel spanned the United 
        States/Mexican border just east of the Otay Mesa, California 
        Port of Entry and resulted in the seizure of approximately two 
        tons of marijuana. The discovery of the tunnel followed an 
        extensive investigation resulting from DEA and ICE confidential 
        source information. The tunnel, approximately 86 feet deep and 
        nearly three-quarters of a mile long, originated inside a small 
        warehouse in Otay Mesa, Mexico, and exited inside a vacant 
        warehouse in San Diego, California.

                        FINANCIAL INVESTIGATIONS

    Drug trafficking organizations are motivated by one thing--money. 
According to the 2006 National Drug Threat Assessment, between $13.6 
billion and $48.4 billion is generated annually by wholesale-level drug 
distribution.\17\ To truly dismantle drug enterprises, we must attack 
the drug trafficking organizations' ability to collect proceeds from 
the drug trade.
---------------------------------------------------------------------------
    \17\ U.S. Department of Justice, National Drug Intelligence Center. 
(2006). 2006 National Drug Threat Assessment.
---------------------------------------------------------------------------
    DEA has reenergized and refocused its attack on the financial 
infrastructure of drug cartels. DEA's Office of Financial Operations 
and specialized Money Laundering Groups in DEA's 21 domestic field 
divisions principally target the drug money laundering systems and the 
drug profits that flow back to the sources of drug supply. In fiscal 
year 2005, DEA established a 5-year plan with annual milestones through 
fiscal year 2009. The plan calls for DEA to increase seizures until we 
seize drug profits at a level each year that will actually destroy drug 
networks rather than being viewed by traffickers only as an expected 
cost of doing business. To do this, DEA must seize $3 billion from drug 
trafficking organizations each year. In the first year under this plan, 
DEA denied drug traffickers $1.9 billion in revenue in fiscal year 
2005--including $1.4 billion in seized assets and $477 million in drug 
seizures--exceeding DEA's first year goal of $1 billion in seizures by 
90 percent.
    The smuggling of large sums of cash across our borders continues to 
be the primary method used to expatriate drug proceeds from the United 
States to the source countries. To address this increasing threat, the 
DEA has initiated a bulk currency program to coordinate all U.S. 
highway interdiction money seizures. Bulk currency cash seizures in 
fiscal year 2005 totaled $407 million, a 28 percent increase over the 
$317 million seized in fiscal year 2004.

          Operational Highlight: Arrest of Martin Tremblay.--On January 
        20, 2006, Martin Tremblay, a Canadian national and President 
        and Managing Director of the Bahamas-based investment firm 
        ``Dominion Investments, LTD'' was arrested by the DEA and other 
        Federal and State law enforcement agencies. Tremblay was 
        indicted for conspiracy to launder narcotics proceeds in a 
        long-term money laundering scheme from approximately 1998 
        through December 2005. Tremblay conspired to launder $1 billion 
        in illegal drug proceeds for ``Dominion Investment'' clients in 
        exchange for a substantial commission. Dominion Investment was 
        used by Tremblay to create shell companies and fictitious 
        entities to launder the drug proceeds he received to offshore 
        accounts in the United States, Canada, Switzerland, and 
        elsewhere around the world. Tremblay's activities as a money 
        launderer were first identified in an international DEA drug 
        investigation targeting subjects distributing GHB over the 
        Internet (Operations Webslinger and Black Goblin). Other 
        Federal and State law enforcement agencies involved in this 
        case include the Internal Revenue Service, Criminal 
        Investigations Division (IRS/CID) the New York State Police, 
        and the Organized Crime Drug Enforcement Strike Force in New 
        York, New York.
          Operational Highlight: Operations Dirty Dinero/Common 
        Denominator.--On March 2, 2006, in a joint action between the 
        Colombian National Police and the Drug Enforcement 
        Administration, Financial CPOT Ricardo Mauricio BERNAL-
        Palacios, his brother Juan BERNAL-Palacios and Tier 1 Money 
        Broker Camillo ORTIZ-Echevi were arrested in Bogota, Colombia. 
        These arrests were based on provisional arrest warrants filed 
        against the three in relation to a February 2006 indictment in 
        the Southern District of Florida charging 48 counts of money 
        laundering, 18 USC 1956(h) and one count of conspiracy to 
        distribute cocaine, 21 USC 846.

                                 GANGS

    Gangs have become an increasing threat to our nation's security and 
the safety of our communities. Seventy-five percent of the United 
States Attorneys report that parts of their districts currently have a 
moderate or significant gang problem. Gangs commonly use drug 
trafficking as a means to finance their criminal activities. 
Furthermore, many have evolved from turf-oriented entities to profit-
driven, organized criminal enterprises whose activities include not 
only retail drug distribution but also other aspects of the trade, 
including smuggling, transportation and wholesale distribution.
    Criminal street gangs, outlaw motorcycle gangs, and prison gangs 
are the primary retail distributors of illegal drugs on the streets of 
the United States and the threat of these gangs is magnified by the 
high level of violence associated with their attempts to control and 
expand drug distribution operations. Gangs primarily transport and 
distribute cocaine, heroin, marijuana, and methamphetamine. Authorities 
throughout the country report that gangs are responsible for most of 
the serious violent crime in the major cities of the United States.
    DEA is committed to combating the gang problem within the United 
States. As of February 7, 2006, approximately 12 percent (239) of DEA's 
total active Priority Target investigations target gangs. In addition, 
DEA's Mobile Enforcement Teams (METs) target violent drug trafficking 
organizations in areas where State, local, and Tribal law enforcement 
is challenged by limited resources to counter the threat. Often, these 
MET deployments target violent gangs involved in drug trafficking 
activity, such as the Hell's Angels, Latin Kings, Bloods, Crips, 
Mexican Mafia, and Gangster Disciples. In fiscal year 2004, 
approximately 27 percent (11 of 40) of MET deployments targeted gangs. 
Gang related MET deployments increased to 38 percent in fiscal year 
2005, when 15 of 39 MET deployments initiated targeted gangs. Through 
the second quarter of fiscal year 2006, 5 of 14 deployments (35 
percent) targeted gangs.
    DEA also recognizes the value of an integrated, collaborative and 
comprehensive approach to multi-faceted gang organizations and their 
operations. DEA participates in a number of anti-gang initiatives with 
other law enforcement components, including Violent Crime Impact Teams, 
Project Safe Neighborhoods, Weed and Seed Program, Safe Streets and 
Safe Trails Task Forces and the Attorney General's Anti-Gang 
Coordination Committee.

          Operational Highlight: Operation Motor City Mafia.--Operation 
        Motor City Mafia was a Special Operations Division-supported, 
        OCDETF and PTO investigation of the Black Mafia Family (BMF). 
        DEA and the Internal Revenue Service identified the BMF as a 
        major cocaine and crack cocaine distribution organization with 
        cells in major metropolitan cities including Detroit, Atlanta, 
        Los Angeles, Miami, St. Louis, Orlando, and Louisville. The BMF 
        uses the rap music industry to distribute hundreds of kilograms 
        of cocaine and to launder millions of dollars in drug proceeds. 
        The BMF has used intimidation, violence, and murder to maintain 
        their strong presence among their urban drug trafficking 
        organizations. As of January 27, 2006, Operation Motor City 
        Mafia resulted in the arrest of 53 defendants and the seizure 
        of 385 kilograms of cocaine, 1.2 metric tons of marijuana, $4.6 
        million, and other assets valued at over $16 million.

                       STATE AND LOCAL ASSISTANCE

    DEA provides direct assistance to State and local law enforcement 
agencies through its State and Local Law Enforcement Officer Training 
program, State and Local Task Force program, and Mobile Enforcement 
Team (MET) program. In addition, DEA provides clandestine laboratory 
clean up assistance to State and local law enforcement agencies.
    State and Local Training.--DEA trained 22 percent more State and 
local officers in fiscal year 2005 (41,853) than fiscal year 2004 
(34,183), including training in responding to clandestine laboratories, 
drug diversion, and law enforcement intelligence. Sec. 
    State and Local Task Forces.--DEA's partnerships with Federal, 
State, local, and international law enforcement entities serve as force 
multipliers in our efforts to reduce the availability of illicit drugs 
in America. As of the end of first quarter fiscal year 2006, DEA's 
State and Local Task Forces numbered 214 and included over 2,500 
authorized Task Force Officers with more than 1,100 authorized DEA 
Special Agents.
    Mobile Enforcement Teams.--In April 1995, DEA created the MET 
Program to assist State, local, and Tribal law enforcement in the 
disruption or dismantlement of violent drug trafficking organizations 
and gangs. Since March 2005, METs have prioritized deployments on 
methamphetamine, targeting repeat meth offenders and clandestine 
laboratory operators in areas of the United States that have a limited 
DEA presence. Since the re-direction of MET, 44 percent (20 out of 45) 
of new MET deployments opened in fiscal year 2005 were methamphetamine 
deployments. This is nearly double the methamphetamine deployments by 
METs from fiscal year 2003 to fiscal year 2004. During this period, an 
average of 24 percent of new MET deployments were focused on 
methamphetamine.
    Hazardous Waste Program.--Established in 1990 to address 
environmental concerns from the seizure of clandestine drug 
laboratories, DEA's hazardous waste program promotes the safety of law 
enforcement personnel and the public by using highly qualified 
companies with specialized training and equipment to perform the 
removal of the methamphetamine-related wastes at seized laboratories. 
In fiscal year 2005, DEA administered 8,678 State and local clandestine 
clean ups. In addition, DEA has trained nearly 12,000 Federal, State, 
and local law enforcement personnel since 1998 to conduct 
investigations and dismantle seized methamphetamine labs to protect the 
public from methamphetamine lab toxic waste. To accelerate the clean up 
process and reduce costs borne by State and local governments 
associated with seized sites, DEA has developed a hazardous waste 
container program that will allow for the central collection of waste 
products, reducing the time and expense of lab clean ups. A pilot 
program in Kentucky produced savings of $800,000 in fiscal year 2005 
and approximately $500,000 in fiscal year 2004.

          Bureau of Alcohol, Tobacco, Firearms and Explosives

STATEMENT OF CARL J. TRUSCOTT, DIRECTOR
    Senator Shelby. Mr. Truscott.
    Mr. Truscott. Mr. Chairman, Ranking Member Mikulski, 
distinguished members of the subcommittee, I am pleased to 
appear before you today to discuss the President's fiscal year 
2007 budget for the Bureau of Alcohol, Tobacco, Firearms and 
Explosives. I appreciate very much the support----
    Senator Leahy. Mr. Chairman?
    Senator Shelby. Yes, Senator Leahy.
    Senator Leahy. And I apologize, you know, you are my 
favorite chairman the way you run things. I just got called. I 
have to go back for the immigration bill. Would it be possible 
to ask Administrator Tandy just a couple of short questions? I 
may get stuck on the floor.
    Senator Shelby. Can you just submit them for the record, 
where we can keep it going? If you would submit them for the 
record.
    Senator Leahy. Well----
    Senator Shelby. I would rather you just submit them for the 
record.
    Senator Leahy. Okay, I will try to come back, because I 
find when I submit them, I never get the answers.
    Senator Shelby. We will lose our rhythm otherwise.
    Senator Leahy. All right.
    Senator Shelby. I appreciate it, Senator Leahy, but we've 
got to keep the subcommittee going.
    Mr. Truscott. Mr. Chairman, I appreciate very much the 
support that this subcommittee has given to ATF and the 
interest it has demonstrated in ATF's missions and programs. 
Thanks to the leadership and support of this subcommittee and 
the dedication and diligence of the men and women of ATF, we 
are improving the lives of Americans.
    Your investments in our efforts produce real results, safer 
neighborhoods where all of us can live without fear. The 
statement I provided for the record goes into great detail on 
ATF's programs and accomplishments, so I will use the time I 
have today to briefly highlight our budget request, which 
includes expansion of our violent crime impact team program, 
one of ATF's most effective initiatives. I will also provide a 
brief overview of our response to the recent church fires in 
rural Alabama and our activities in support of the coalition 
forces in Iraq.

               ALCOHOL, TOBACCO, FIREARMS BUDGET REQUEST

    The President's budget for fiscal year 2007 requests $860 
million and 5,030 full-time equivalent positions for ATF. The 
President's request also includes $120 million from a fee on 
explosive industry operations, which would bring our total 
resources to $980 million. I believe these investments will 
provide essential benefits to the American people.

                       VIOLENT CRIME IMPACT TEAMS

    Our fiscal year 2007 request includes new funds for the 
VCIT program. VCIT is a focused and cooperative law enforcement 
component of the President's Project Safe Neighborhoods 
Initiative. Through VCIT, ATF-led teams work with local law 
enforcement to identify and arrest the most violent offenders, 
including gang members in specific geographic locations with 
high crime rates. The program began in 15 selected communities 
and since has expanded to a total of 23, and because VCIT has 
proven so successful, the administration has requested $16 
million and 44 FTEs to support the initiative and offer more 
Americans the opportunity to enjoy safer neighborhoods.

                   ALABAMA CHURCH FIRES INVESTIGATION

    Mr. Chairman, I want to inform you and the subcommittee of 
the steps that we have taken, including my colleagues here at 
the table, to respond to the church fires in rural Alabama in 
early February. We view the intentional burning of a place of 
worship as a violent attack on the community's well being. Upon 
learning of the fires, ATF immediately activated our national 
response teams to investigate the fires. The teams include 
special agents, forensic chemists, fire protection engineers, 
accelerant detection canines, geographic and criminal 
profilers.
    ATF's partnership with Federal, State, and local law 
enforcement was vital to this effort. I am pleased to report 
that through law enforcement's hard work, this investigation 
was brought to a successful conclusion. Three individuals were 
indicted in connection with the church fires and are being 
charged with one count of conspiracy and nine counts of arson.

                  ALCOHOL, TOBACCO, FIREARMS AND IRAQ

    With respect to Iraq, ATF is contributing the expertise of 
our special agents and our explosive enforcement officers to 
the combined explosives exploitation cells. In cooperation with 
the U.S. Army, we are training Army explosive units at our 
National Center for Explosives Training and Research, and we 
are doing that prior to their deployment to Iraq. In addition, 
ATF provides post-blast training for U.S. and coalition forces 
in Iraq and for the Iraqi National Police. ATF-trained 
explosive detection canines are also deployed there. ATF has 
special agents assigned to the Regime Crimes Liaison Office to 
investigate in the investigation and the prosecution of war 
crimes. ATF personnel are also working in support of the newly 
established U.S. Embassy in Iraq.
    I have referenced several of our activities in support of 
our mission to prevent terrorism, reduce violent crime, and 
protect our Nation. We are committed to working directly and 
through partnerships to investigate and reduce crime involving 
firearms and explosives, acts of arson, and illegal trafficking 
of alcohol and tobacco products.
    Once again, Mr. Chairman, ranking member Mikulski, members 
of this subcommittee, on behalf of ATF, I thank you for your 
support of our crucial work. I also thank you for this 
opportunity to testify before you today, and I look forward to 
answering any questions you may have.
    [The statement follows:]

                 Prepared Statement of Carl J. Truscott

    Mr. Chairman, Senator Mikulski, and distinguished members of the 
subcommittee, I am pleased to appear before you today to discuss the 
accomplishments of the Bureau of Alcohol, Tobacco, Firearms and 
Explosives (ATF) and the President's fiscal year 2007 Budget for ATF.
    As you know, ATF is a principal law enforcement agency within the 
United States Department of Justice dedicated to preventing terrorism, 
reducing violent crime, and protecting our Nation. The men and women of 
ATF perform the dual responsibilities of enforcing Federal criminal 
laws and regulating the firearms and explosives industries. We are 
committed to working directly, and through partnerships, to investigate 
and reduce crime involving firearms and explosives, acts of arson, and 
illegal trafficking of alcohol and tobacco products.
    I appreciate very much the support the subcommittee has given to 
ATF and the interest it has demonstrated in ATF's missions and 
programs. Thanks to the leadership and support of this committee, and 
the dedication and diligence of the men and women of ATF, our efforts 
are producing real results: safer neighborhoods, where all of us can 
live without fear.
    With your support during the fiscal year 2006 appropriations 
process, ATF received funding to expand its Violent Crime Impact Teams 
(VCIT), participate in the Terrorist Explosive Device Analytical Center 
(TEDAC), and plan a permanent facility for the National Center for 
Explosives Training and Research (NCETR). These investments are in 
direct support of ATF's core mission.
    The President's budget request for fiscal year 2007 builds on your 
fiscal year 2006 investments with $16 million to further enhance VCIT, 
a focused and cooperative law enforcement component of the President's 
Project Safe Neighborhoods (SN) initiative.

                     RESPONSE TO HURRICANE KATRINA

    Before I give an overview of ATF programs and our fiscal year 2007 
budget request, first I would like to briefly inform the committee of 
the resources we deployed to the Gulf Region and the efforts we 
undertook as part of the Federal response to Hurricane Katrina.
    In the week proceeding Katrina making landfall in New Orleans, we 
prepared by identifying resources and personnel to send to the affected 
areas and held daily meetings and teleconferences of our Emergency 
Management Working Group. On August 30, one day after Katrina made 
landfall, we activated our Continuity of Operations (COOP) site in 
Mandeville, Louisiana, and established an alternative division office 
in Shreveport, Louisiana. At that time, we also began planning forward 
command posts in Mandeville, New Orleans, and Biloxi, Mississippi, and 
decided to establish a Critical Incident Management Response Team 
(CIMRT) in Baton Rouge, Louisiana. ATF field offices from across the 
Nation immediately began moving manpower and equipment to the region, 
while personnel in the affected areas made locating missing ATF 
employees their top priority. In the following days, we deployed two 
Special Response Teams (SRTs) to New Orleans to address, in 
coordination with the New Orleans Police Department, the looting and 
violence in the aftermath of the storm.
    Despite catastrophic damage to our facilities, the onerous 
logistics of re-establishing operations, and the severe personal 
hardships endured by our personnel, I am proud to point out that ATF 
was able, without interruption or a reduction in effectiveness, to 
continue our mission of enforcing Federal law and safeguarding the 
public. By September 22, less than 4 weeks after the levee breaches in 
New Orleans, ATF had assisted with over 600 law enforcement actions. 
Twelve arrests were made by ATF, including the September 5th arrest of 
a suspect who was observed by ATF SRT members firing on a helicopter 
conducting relief efforts. This arrest was the first of many Federal 
arrests, both by ATF and other Federal partners, for firearms 
violations in New Orleans after Hurricane Katrina.
    ATF was given primary jurisdiction in the 1st and 8th Police 
Districts in New Orleans, responded to firearms-related calls, stopped 
looting, assisted in rescue operations, provided surveillance, assisted 
in the establishment of a detention center, and provided security to 
Assistant United States Attorneys. During that time, ATF also 
proactively reached out to all Federal Firearms Licensees (FFLs) and 
Federal Explosives Licensees (FELs) in affected areas. As an extension 
of those efforts, we established a toll-free number for FFLs and FELs 
to contact ATF regarding the status of their premises, records, and 
inventory; and we instituted a plan to systematically inspect all 742 
FFLs and 182 FELs where looting and flooding occurred.

                                  IRAQ

    I would also like to provide the committee with a brief overview of 
our activities in support of the coalition forces in Iraq before I move 
on to a discussion of ATF programs. I would like to thank the committee 
for its support for ATF's fiscal year 2006 Iraq Supplemental request. 
Currently, ATF is contributing the expertise of its special agents and 
Explosives Enforcement Officers to the Iraq Combined Exploitation Cells 
(CEXCs). This participation has been praised by the Department of 
Defense. In cooperation with the U.S. Army, we are training Army 
explosives units at our National Center for Explosives Training and 
Research (NCETR) prior to their deployment to Iraq. In addition, ATF 
provides post-blast training for United States and coalition forces in 
Iraq and for the Iraqi National Police, and ATF-trained explosives 
detection canines are deployed in Iraq. ATF also has special agents 
assigned to the Regime Crimes Liaison Office in Iraq to assist in the 
investigation and prosecution of war crimes.

              FISCAL YEAR 2007 PRESIDENT'S BUDGET REQUEST

    ATF's mission supports the priorities of the administration and the 
Department under the Department's Strategic Goals 1 and 2, to ``Prevent 
Terrorism and Promote the Nation's Security'' and ``Enforce Federal 
Laws and Represent the Rights of the American People.''
    The President's 2007 budget request for ATF is 5,030 FTE and 
$860,128,000 for salaries and expenses and for program enhancements, 
offset by a $20,000,000 reduction in the firearms decision unit and a 
$120,000,000 explosives user fee.
    The fiscal year 2007 request includes funds for the expansion of 
the VCIT program. VCIT is one of ATF's most effectively designed 
initiatives and is an important part of PSN. The President's budget 
requests $16,000,000 and 44 FTE to further enhance the initiative and 
offer more Americans the opportunity to live in safer neighborhoods. 
This initiative would increase the number of VCIT teams from 25 to 40 
in the coming fiscal year.

                                FIREARMS

    ATF enforces Federal firearms laws and provides requested support 
to Federal, State, and local law enforcement officials in their fight 
against crime and violence. Our agents investigate a broad range of 
firearms violations that can be generally divided into three 
categories:
  --investigations of those persons who are prohibited by law from 
        possessing firearms, such as felons, illegal aliens, and drug 
        traffickers;
  --investigations of persons possessing firearms that are generally 
        prohibited, such as machineguns and sawed-off shotguns; and
  --investigations of firearms trafficking.
    From these types of investigations, ATF agents concentrate on 
firearms traffickers diverting firearms out of lawful commerce into the 
hands of criminals. Firearms trafficking investigations can be complex 
and time-consuming. They can involve illegal straw purchases of 
firearms for those unable to legally possess firearms, illegal dealing 
at gun shows or other locations, robberies of gun stores, and thefts 
from interstate shipments.
    We are a major participant in the administration's PSN initiative, 
which began in 2001. This cooperative program builds upon the 
enforcement efforts of the past, and includes the use of advanced 
technology and effective sharing of intelligence and information. Law 
enforcement, prosecutors, and community leaders work together on 
deterrence and prevention. Agencies develop focused enforcement 
strategies to investigate, arrest, and prosecute violent offenders, 
prohibited possessors of firearms, domestic and international firearms 
traffickers, and others who illegally attempt to acquire firearms. ATF, 
local law enforcement, U.S. attorneys, and local prosecutors evaluate 
cases and seek the most appropriate venue for firearms prosecution. The 
Department filed 10,841 federal firearms cases in fiscal year 2005--a 
73 percent increase since PSN's inception. ATF-related firearms 
investigations resulted in over 8,300 convictions in fiscal year 2005.

                       VIOLENT CRIME IMPACT TEAMS

    In June 2004, former Attorney General Ashcroft, former Deputy 
Attorney General Comey, and I announced the VCIT initiative, a new 
program to reduce violent crime in specific geographic locations with 
high crime rates. Through VCIT, ATF-led teams work with local law 
enforcement to identify and arrest the most violent offenders in each 
area. The program began in 15 selected communities and has since 
expanded to a total of 23. VCITs are now in place in: Albuquerque, New 
Mexico; Atlanta, Georgia; Baltimore, Maryland; Baton Rouge and New 
Orleans, Louisiana; Camden, New Jersey; Columbus, Ohio; Fresno and Los 
Angeles, California; Greensboro, North Carolina; Hartford, Connecticut; 
Houston and Laredo, Texas; Las Vegas, Nevada; Miami and Tampa, Florida; 
Minneapolis, Minnesota; Philadelphia and Pittsburgh, Pennsylvania; 
Richmond, Virginia; Tucson, Arizona; Tulsa, Oklahoma; and the 
Washington, DC/Northern Virginia area. We plan to expand to 25 cities 
in this fiscal year and 40 cities in fiscal year 2007.
    ATF-led VCIT teams in these cities bring the targeted area's 
Federal, State, local and Tribal law enforcement officials together. 
The VCIT strategy counsels each team to create an individualized 
strategy, then to work together to remove those responsible for violent 
crime. Civic leaders and law enforcement officials have praised VCIT's 
positive impact on their communities. I am proud to note that, in 
August 2005, six ATF personnel received the Attorney General's 
Outstanding Contributions to Community Partnerships for Public Safety 
Award, honoring them for developing, organizing, and implementing VCIT.

                           ANTI-GANG EFFORTS

    We have developed expertise in working against criminal groups, 
particularly gangs. As such, ATF played an integral role in the 
development of the Department of Justice's Gang Strategy Report for the 
House Appropriations Committee. This reflects our years of experience 
in working against violent gangs, including outlaw motorcycle 
organizations active in firearms and narcotics trafficking. In fact, 
ATF oversees a comprehensive gang strategy, combining education, 
prevention, training, and a variety of criminal enforcement tactics to 
take violent gang members and their organizations off the streets. As 
part of the strategy, ATF shares investigative information with other 
law enforcement agencies on gangs nationally through its case 
management system. This system allows every agent and task force member 
the ability to access information about other cases in order to 
coordinate efforts.
    Our efforts have resulted in ATF referring more than 7,750 gang 
members and their associates to Federal and State prosecutors for 
prosecution during the past 5 years--3,100 of them during fiscal year 
2005 alone--for charges including firearms violations, continuing 
criminal enterprise violations, Racketeer Influenced Corrupt 
Organization Act (RICO) violations, and arson and explosives 
violations. During this same 5-year period, as a result of our 
investigations, more than 3,000 gang members have been convicted of 
firearms offenses. In the past 2 fiscal years, we also traced more than 
12,000 firearms linked to gang activity to assist in developing 
investigative leads for law enforcement.
    The Regional Area Gang Enforcement (RAGE) unit, an ATF led task 
force, was established in June 2003 to contend with the growing Latino 
gang problems in the Maryland portion of the Washington, DC 
Metropolitan region. RAGE has had contact with and identified 
approximately 1,000 members of various Latino gangs in this area. RAGE 
is currently comprised of investigators from ATF, ICE, FBI, Prince 
George's County Police, Maryland National Capital Park Police, Howard 
County Police, Montgomery County Police, Hyattsville City Police, 
Fairfax County (VA) Police and Maryland State Police. RAGE 
investigators have identified three Mara Salvatrucha 13 (MS-13) cliques 
which are the most violent and involved in criminal activity, and 
consequently present the greatest threat to the public and law 
enforcement. MS-13 is an extremely violent street gang with documented 
involvement in homicides, rapes, aggravated assaults, carjacking, 
citizen robberies, prostitution, firearm trafficking, extortion, 
witness intimidation, auto theft, burglaries and other crimes.

                      SOUTHWEST BORDER INITIATIVE

    In October 2005, the Attorney General established an ATF-led VCIT 
in Laredo, Texas, to address increased violent crime along the border 
between the United States and Mexico. The Laredo VCIT serves as the 
focal point for ATF's Southwestern Border Initiative. This Initiative 
coordinates resources from four field divisions and previously 
established VCITs in Tucson, Albuquerque, and Houston. The initiative 
fights regional and cross-border violence and firearms trafficking by 
employing the tools of the VCIT strategy--geographic targeting, 
partnership and technology. ATF is working closely with the Laredo 
Police Department to identify targeted geographical areas and the worst 
offenders. ATF also is working in a reciprocal partnership with 
Immigration and Customs Enforcement [ICE] lending support to Operation 
Community Shield and Operation Blackjack while ICE supports VCIT to 
ensure the full use of the expertise and resources of both agencies. 
Through its International Programs Branch, ATF is working closely with 
the Mexican government to ensure that U.S.-sourced firearms recovered 
in Mexico are properly identified and documentation is submitted to ATF 
for tracing. ATF uses the trace results to identify and investigate 
firearms traffickers who illegally divert firearms to drug traffickers. 
Other technologies being used include crime gun mapping and ballistic 
tracing.

                        NATIONAL TRACING CENTER

    ATF's National Tracing Center (NTC) is the largest operation of its 
kind in the world. This facility conducts traces of firearms recovered 
at crime scenes for any Federal, State, local, or international law 
enforcement agency. In fiscal year 2005, the NTC traced over 260,000 
firearms. The NTC stores information concerning multiple sales of 
firearms, suspect guns, and firearms with obliterated serial numbers, 
and is also the only repository for all records of FFLs that have gone 
out of business. The NTC provides ATF personnel and other law 
enforcement agencies with crime gun data specific to their geographic 
areas, and helps them identify emerging trends and patterns in 
firearms-related criminal activity.
    In the conference report accompanying the Consolidated 
Appropriations Act for fiscal year 2005, Congress expressed support for 
the NTC Program known as Access 2000 and encouraged us to emphasize and 
expand it. I am pleased to inform the committee that we have done so. 
Under the Access 2000 initiative, which benefits both ATF and our 
industry partners, servers supplied by ATF have been installed at 49 
firearms manufacturers and major wholesale distributors, all of them 
FFLs, who have voluntarily partnered with ATF in this effort. FFLs 
enter firearms information into the servers; the NTC connects to these 
servers remotely and can obtain information on a firearm's disposition 
in the course of a crime gun trace. This program substantially reduces 
administrative costs to the FFL and the time it takes ATF to trace a 
firearm.
    In order to reduce violent crime, ATF will continue to develop and 
employ technology that will help law enforcement at all levels. Through 
the National Integrated Ballistic Information Network (NIBIN) Program, 
ATF has installed automated ballistic comparison equipment at 230 sites 
in participating forensic laboratories in the continental United States 
and its territories, giving these State and local law enforcement 
agencies the opportunity to identify ballistic links between crimes not 
otherwise known to be connected.

                               EXPLOSIVES

    In addition to our investigative efforts against firearms 
trafficking and violent firearms crime, ATF agents investigate 
bombings, unlawful distribution of explosives, thefts of explosives, 
and other violations of explosives laws. ATF industry operation 
investigators (IOIs) ensure that the manufacture, importation, and 
commerce in explosives are conducted lawfully. Other programs combine 
advanced technology with ATF's years of expertise, providing critical 
intelligence for Federal, State, and local law enforcement to use in 
investigating explosives incidents in their areas.
    As part of the Department of Justice's efforts to ensure the 
coordination of explosives investigations, explosives information 
sharing, and other related explosives matters amongst its law 
enforcement components, the Department of Justice reviewed the 
explosive programs of ATF, FBI, and others and on August 11, 2004, 
issued a policy memo outlining roles and responsibilities as they 
relate to explosives issues. Former Attorney General Ashcroft's policy 
memorandum regarding coordination of explosives investigation and 
related matters helped to clarify the responsibilities of ATF, and a 
few of the decision points are as follows:
  --Mandated that ATF would control the investigation of all explosives 
        incidents except those related to terrorism and those where the 
        FBI has traditionally exercised jurisdiction [bank robberies, 
        organized crime, etc].
  --Tasked ATF to maintain all DOJ arson and explosives databases 
        currently maintained by other DOJ components.
  --Mandated the consolidation within ATF of all budget, curriculum, 
        teaching, and scheduling functions related to DOJ post-blast 
        explosives training for Federal, State, local, and 
        international entities.
  --Directed ATF to establish standards to certify all explosives 
        detection canines used by DOJ components.
    I am honored by the confidence that the Attorney General placed in 
ATF when he made these decisions. Mr. Chairman, I believe that these 
policies will be responsible for significant financial efficiencies.
    ATF strives to investigate each and every report of theft or loss 
of explosives in the United States in order to ensure that these 
explosives do not fall into the hands of terrorists or criminals. In 
fiscal year 2005 alone, ATF's diligent investigative efforts have led 
to the recovery of more than 15,000 pounds of high explosives, in 
addition to 1,533 pounds of low explosives, 5,280 blasting agents, 
14,356 detonators, and 6,859 grenades. Mr. Chairman, the recovery of 
these items has made our Nation a safer place.
    At the end of last year, the theft of a large quantity of 
explosives and detonators garnered significant public attention. On 
December 18, 2005, ATF, the Albuquerque Police Department, the 
Bernalillo County Sheriff's Department, the New Mexico State Police, 
and the FBI began investigating the theft of approximately 400 pounds 
of explosives from a Federal Explosive Licensee (FEL) located just 
outside Albuquerque, New Mexico. Five subjects have been subsequently 
arrested and charged with Federal explosives- and firearms-related 
violations. All of the stolen explosives have subsequently been 
recovered with the exception of one or two detonators.
    While all ATF special agents receive substantial explosives-related 
training, special agents who qualify as certified explosives 
specialists (CESs) are among the most experienced, best-trained 
explosives experts in the Federal Government. They conduct explosives 
crime scene examinations, lend expertise in support of security 
measures implemented at special events, and assist ATF's law 
enforcement counterparts at the Federal, State, local, and 
international levels in their efforts to investigate explosives-related 
incidents. CESs are highly trained in all aspects of explosives 
handling, instruction, identification, demonstration, and destruction. 
Because of their proficiency in explosives investigation, CESs are used 
regularly as instructors for explosives-related training throughout the 
United States and at the International Law Enforcement Academies in 
Budapest, Hungary; Bangkok, Thailand; and Gaborone, Botswana.
    ATF has other experts in the field of explosives. ATF's explosives 
enforcement officers (EEOs) provide technical assistance and support in 
explosives matters. These bomb technicians have between 12 and 35 years 
of experience in explosives and bomb disposal. EEOs render explosive 
devices safe, disassemble explosive and incendiary devices, prepare 
destructive device determinations, and render expert testimony in 
support of such determinations in State and Federal criminal court 
proceedings. EEOs also provide expert analysis and onsite investigative 
technical assistance at bombing and arson scenes and other scenes where 
explosions of an undetermined nature have occurred. They provide 
assistance and training in all aspects of explosives handling, usage, 
and destruction; threat vulnerability assessments; and all other 
explosives-related matters for ATF and State and local law enforcement 
agencies. EEOs use a full range of bomb disposal equipment including 
such robotic equipment as the All-purpose Remote Transport System 
(ARTS), which is designed to remotely disrupt car and truck bombs that 
are too large to disarm by traditional methods--ATF is one of the few 
Federal agencies with ARTS capability.
    To comply with the Attorney General's 2004 August memorandum, ATF 
has transferred the Arson and Explosives National Repository (AENR) to 
the United States Bomb Data Center (USBDC). The information maintained 
within the USBDC is this country's most comprehensive set of data 
describing fire/explosion incidents. The incidents are divided into 
specific categories such as targets, locations, motives, and victims. 
Trends, patterns, and criminal methodologies, as well as the identities 
of known previous offenders, can be derived from the data set. Most 
importantly, ATF agents or other law enforcement officials can contact 
USBDC to query the construction characteristics of an explosive device, 
and match the device to others with similar characteristics.
    ATF is now using the latest information management technology to 
make case information available to law enforcement nationwide through 
the Bomb Arson Tracking System (BATS). This program facilitates and 
promotes the collection and dissemination of fire, arson, and 
explosives incidents and information among participating agencies. Law 
enforcement agencies are able to enter their case information and query 
information entered by others, both locally and across agencies. BATS 
benefits its users by providing real-time incident-based information, 
records management functions, and there are plans to incorporate a 
feature providing spatial representation of incidents via an integrated 
Geographical Information System--all within a secure law enforcement 
environment. Eventually, the wealth of case information available 
through the USBDC will also be accessible through BATS.
    ATF is sharing its expertise by training Federal, State, local, 
military, and international bomb technicians and investigators in 
explosives disposal and investigation techniques at NCETR, currently 
located at Fort A.P. Hill, Virginia. ATF offers numerous advanced 
courses related to explosives disposal and post-blast investigation 
techniques at NCETR, which was authorized in the Homeland Security Act 
of 2002. As previously noted, we are currently training Army explosives 
units prior to their deployment to Iraq. In addition, ATF provides 
post-blast training to members of the Department of State, the Naval 
Criminal Investigative Service, and the Air Force Office of Special 
Investigations. Since ATF began holding training classes at Fort A.P. 
Hill in 2000, we have provided training to more than 4,000 Federal, 
State, local, and international bomb technicians and investigators. The 
fiscal year 2006 conference agreement (Public Law109-108) provides $5.0 
million in funding for site selection, architectural design, site 
preparation for the construction of a permanent site for NCETR. In 
considering site selection, ATF is directed to consider a site co-
located with other law enforcement and Federal government entities that 
provides similar training and research. The dynamic of these collective 
resources will provide a unique opportunity to leverage assets, 
knowledge, and expertise in the field, providing Federal, State and 
local law enforcement explosives expertise at a single location.

                                 ARSON

    ATF's arson investigative work includes two recent high-profile 
arson cases. In December 2004, fires were set in a new housing 
development in Charles County, Maryland, resulting in damage to over 30 
homes--a number of which were completely destroyed. Our agents 
investigated and our state-of-the-art Forensic Science Laboratory 
analyzed all of the evidenced gathered. The results of our efforts were 
two guilty pleas and a conviction. The second example is the District 
of Columbia (D.C.) serial arsonist investigation. From June 2003 
through April 2005, ATF, with other law enforcement organizations, 
investigated over 50 fires in the District of Columbia and adjoining 
Prince Georges County, Maryland. These fires caused considerable loss 
of property for residents, and in the District of Columbia, were 
responsible for the deaths of two people. We examined more than 1,000 
leads and 1,300 suspects and were ultimately able to identify the 
person responsible using DNA evidence. In June, the defendant pled 
guilty to 50 arsons and two counts of murder. In subsequent interviews, 
he has acknowledged setting as many as 350 additional fires. By 
investigating and solving these crimes with our State and local 
partners, we are also helping to prevent future arsons.
    ATF's arson enforcement efforts are an integral part of ATF's 
overall violent crime reduction strategy, and are directed toward 
preventing the crime of arson, providing effective post-incident 
response, and reducing the community impact of crimes involving fire. 
ATF investigative efforts are generally focused on arsons of Federal 
interest, including those at houses of worship, commercial buildings, 
and reproductive health clinics. In fiscal year 2005, ATF opened nearly 
2,000 fire investigations. I would like to address some of ATF's arson 
program areas and assets, including the certified fire investigator 
(CFI) program, ATF's response to animal-rights and environmental-rights 
extremism, the ATF Church Arson Task Force, and the ATF Fire Research 
Laboratory.
    After fire departments extinguish the flames, the work begins for 
cause and origin investigators who must determine whether the fire was 
intentionally set and whether a crime was committed. The agents 
participating in ATF's CFI program are at the forefront of fire 
investigation. The special agents who participate in this program are 
the only federally trained and federally certified cause and origin 
investigators in the Federal Government. These CFIs are able to qualify 
as expert witnesses, that is, opinion witnesses, in fire cause and 
origin determinations. Each CFI has participated in hundreds of 
investigations and has undergone hundreds of hours of training to 
qualify in giving expert testimony. The CFI program is the only one of 
its type in Federal law enforcement and has received national and 
international acclaim. ATF currently has CFIs who are based in 39 
States and provide support to the entire United States and its 
territories.
    ATF also investigates bombings and crimes of arson by environmental 
and animal rights extremists, such as the Animal Liberation Front (ALF) 
and the Earth Liberation Front (ELF). Because of ATF's expertise in 
these areas, we have made these investigations a priority and will 
continue to do so. In the last several years we have initiated about 
100 explosives and arson investigations believed to be linked to ALF 
and ELF. Most recently, 11 defendants were indicted by a Federal grand 
jury on 65 counts including arson, conspiracy and destruction of an 
energy facility for allegedly participating in a criminal campaign in 
five western states on behalf of ELF and ALF. In the past, many of the 
fires set by these extremists have been set utilizing a particular 
methodology, and the USBDC--which has records and intelligence on these 
acts spanning decades--stands ready to assist fire investigators in 
determining the methodology used in future incidents, linking events, 
and identifying suspects.
    One of the most painful and destructive crimes that ATF 
investigates is arson directed at houses of worship. In fiscal year 
2005, ATF responded to approximately 223 such fires and explosives 
incidents. Out of that number, 108 of the fires were determined to be 
incendiary, that is, set by human hands. Those 108 arsons caused over 
$23 million in damage.
    In addition to the Forensic Science Laboratory, one of ATF's newer 
fire investigation resources is the Fire Research Laboratory (FRL). The 
FRL houses a one-of-a-kind fire test center with the capability of 
replicating initial fire scenarios approaching a quarter acre in size, 
to scale, and under controlled conditions allowing for detailed 
analysis. This facility is the only such facility in the United States 
that is dedicated to providing case support in fire investigations 
using forensic fire science, and the facility will support ATF's 
investigative requirements well into the future.

               CRIMINAL DIVERSION OF ALCOHOL AND TOBACCO

    ATF is engaged in ongoing efforts to reduce the rising trend of the 
illegal diversion of alcohol and tobacco products by criminal gangs, 
organized crime, and terrorist groups. In fiscal year 2002 we had 61 
defendants, 35 arrests, and 18 convictions relating to tobacco 
diversion. In fiscal year 2005, we had 314 defendants, 162 arrests, and 
73 convictions, increases of 515 percent, 463 percent, and 406 percent 
respectively. From the hijacking of tractor trailer loads and cargo 
containers of cigarettes, to the armed robbery of tobacco retailers, 
wholesalers, and distributors, to traditional smuggling conspiracies, 
ATF has successfully investigated and prosecuted the criminals 
involved. Current investigations have identified several instances of 
terrorist groups forming alliances with tobacco traffickers to generate 
funding to support their organizations and activities. We have built 
complex cases against individuals and organizations that have used 
proceeds from the illegal sales of cigarettes to fund organized crime 
and terrorism, and these cases have been successfully prosecuted. ATF 
also works in partnership with other Federal, State, and local agencies 
to enforce the laws under their jurisdiction. Where a terrorism nexus 
is present, ATF works with the local Joint Terrorism Task Force.
    Illegal trafficking of ATF-regulated commodities using the Internet 
is a growing problem, particularly with tobacco products. The illicit 
sale of tobacco products via the Internet is increasing and causing a 
substantial loss of excise tax revenue to Federal and State 
Governments. ATF utilizes laws such as the Contraband Cigarette 
Trafficking Act and Wire Fraud, Mail Fraud, and money laundering 
statutes to interdict illicit interstate cigarette distribution via the 
Internet and the mail.

                  INDUSTRY OPERATIONS: ATF'S DUAL ROLE

    ATF's role in Federal firearms and explosives laws, with both 
regulatory and enforcement responsibilities, is unique. ATF industry 
operations investigators ensure that the manufacture, import, and sale 
of firearms and explosives are conducted lawfully. Through education 
and industry partnerships, we work to keep firearms and explosives out 
of the wrong hands.
    According to the Institute of Makers of Explosives, over 5.6 
billion pounds of commercial explosives are used every year in the 
United States in mining and other applications. ATF ensures compliance 
with explosives laws and regulations through its explosives regulatory 
program. The purpose of this program is to protect interstate and 
foreign commerce against interference and interruption by reducing 
hazards to persons and property arising from the misuse and unsafe or 
unsecured storage of explosive materials. This is accomplished through 
the explosives field inspection effort; through the development, 
implementation, and evaluation of regulatory enforcement procedures and 
policy; through the screening of prospective and current explosive 
licensees/permittees and their employees; and through regular and open 
communication with the explosives industry and its representatives. 
ATF's field inspection program includes the thorough review of records 
and inventory to ensure product accountability, as well as the visual 
inspection of explosives storage facilities to ensure safe and secure 
product storage to prevent theft and misuse of explosives and 
accidents. Investigators verify that explosives storage magazines meet 
Federal construction and location requirements, including the required 
distance from explosives storage areas to roads or residential areas.
    The Safe Explosives Act (SEA) enhanced ATF's unique statutory 
mission of regulating the explosives industry. With the passage of this 
act in 2002, ATF assumed a significant additional workload such as 
continued issuance of renewal licenses/permits for nearly 13,000 
explosives-related businesses; increased inspection efforts and more 
thorough license application processing, including background checks 
for all employees who possess explosives. Further, the SEA decreed that 
ATF physically inspect every new explosives licensee applicant to 
ensure public safety. ATF's proposed explosives user fee will offset 
the explosives industry inspections that are currently carried out by 
ATF in furtherance of its mission.
    ATF's investigators are also responsible for firearms licensee 
inspections. Day in and day out, these investigators ensure that FFLs 
follow appropriate guidelines and procedures. Their work helps to 
prevent the acquisition of firearms by prohibited persons. Further, by 
promoting proper recordkeeping and business practices, they help ensure 
effective firearms tracing in critical investigations by the Nation's 
law enforcement community. Cooperative programs such as ``Don't Lie for 
the Other Guy,'' a joint venture between ATF and the National Shooting 
Sports Foundation, provide essential education for FFLs. In addition, 
our Federal Firearms Licensing Center in Atlanta screens all FFL 
applicants by coordinating background checks on persons responsible for 
firearms operations. I would like to note that, consistent with the 
Consolidated Appropriations Act for fiscal year 2005 (Public Law 108-
447), we are in the process of moving the licensing center to the site 
of our National Tracing Center in Martinsburg, West Virginia. Co-
locating these facilities will result in increased efficiencies and 
improved service to the public.

                        INTELLIGENCE/TECHNOLOGY

    ATF recognized the opportunity to improve intelligence support 
internally and externally, and created an Office of Strategic 
Intelligence and Information (OSII) in 2003. The new directorate, 
headed by an assistant director, provides timely, accurate, and focused 
intelligence through the collection and analysis of information which 
enhances decision-making for all Bureau customers. Thus, it ensures 
that our special agents and investigators receive the necessary 
information to disrupt criminal organizations and individuals that 
threaten public safety. The creation of OSII was a big step toward 
enabling ATF to put its information to the best possible use. The 
dynamic exchange of intelligence information between headquarters and 
field offices allows ATF to leverage data collection and analytical 
expertise to aid in providing accurate and timely intelligence support. 
I would also like to note that ATF has committed resources to all Joint 
Terrorism Task Forces (JTTFs) nationwide. The ultimate outcome of these 
efforts will be better information to investigators, which will, we 
hope, help prevent future incidents.
    ATF's Forensic Science Laboratories are an invaluable resource in 
perfecting ATF cases and in serving as a resource for State and local 
law enforcement. ATF's Forensic Science Laboratory system is composed 
of the National Laboratory Center (NLC) in Ammendale, Maryland, and the 
regional laboratories in Atlanta, Georgia, and San Francisco, 
California. The laboratories are equipped with state of the art 
forensic and scientific technologies. ATF laboratory personnel perform 
fire debris analysis, tool mark comparisons, explosives scene evidence 
examinations, searches for the presence and comparison of identifiable 
latent fingerprints, and examine trace evidence from crime scenes such 
as hair, paint, or fibers.
    ATF is a participant in the Terrorist Explosive Device Analytical 
Center, or TEDAC, operated at the FBI laboratory in Quantico, Virginia. 
At this center, ATF and other partners analyze explosive devices from 
Iraq and Afghanistan in an effort to identify bombers and to prevent 
further attacks. Experts work to evaluate improvised explosive device 
(IED) components to identify similarities and potential bomb makers, 
provide timely intelligence to military and law enforcement, and 
collect latent prints and DNA from terrorist IEDs to link the same 
person to similar devices. Four ATF employees work full-time at the 
center--including an ATF special agent who serves as TEDAC's Deputy 
Director--providing their technical expertise in identifying components 
of IEDs. TEDAC has provided assistance to U.S. military and 
intelligence personnel in preventing fatal detonations of IEDs and in 
tracking down bombing suspects. This is an example of how we are 
working within DOJ to prevent terrorism, and contributing our knowledge 
to a common goal.
    I have worked closely with Federal Bureau of Investigation Director 
Robert Mueller to strengthen interagency collaboration on a number of 
international efforts, including TEDAC. Under Director Mueller's 
leadership, and with the assistance of an ATF special agent serving as 
deputy director, TEDAC's device component analyses has more than 
doubled. ATF is incorporating this information on terrorist IEDs in 
State and local training programs to better equip local investigators 
and bomb technicians in recognition and investigative skills to alert 
on potential criminal and terrorist IEDs.

                            SPECIAL PROGRAMS

    Several of ATF's programs, such as the National Response Team 
(NRT), Special Response Team (SRT), and the canine program, strengthen 
our efforts in firearms, explosives and arson, and alcohol and tobacco 
diversion. They contribute to our missions of preventing terrorism, 
reducing violent crime, and protecting our Nation.
    In the wake of a major fire or explosives incident, law enforcement 
investigators can rely on the expertise and advanced technology of 
ATF's NRT. The NRT augments the investigative expertise of special 
agents in each field office and are capable of responding within 24 
hours to major explosives or fire incidents. NRT members--consisting of 
highly trained special agent CFIs as well as CESs, EEOs, chemists, 
intelligence and audit support, legal advisors, and others--work 
alongside State and local officers in reconstructing the scene, 
identifying the seat of the blast or origin of the fire, conducting 
interviews, sifting through debris to obtain evidence related to the 
explosion and/or fire, assisting with the ensuing investigation, and 
providing expert court testimony. Since the NRT was created in 1978, it 
has been activated 601 times. In fiscal year 2005 alone there were 13 
activations. The effectiveness of this response capability and the 
expertise of the team members were evident in the NRT's responses to 
incidents, such as the 1993 World Trade Center and 1995 Oklahoma City 
Federal Building bombings and the 2001 attack on the Pentagon.
    One of ATF's major assets in the fight against violent criminals is 
our SRTs consisting of some of the bravest, most dedicated, and most 
professional special agents in Federal law enforcement. The special 
agents on these teams conduct high-risk tactical operations such as the 
execution of arrest warrants, search warrants, and buy/bust operations. 
In fiscal year 2005, the SRT planned 150 operations and executed 101 of 
these high risk enforcement actions. In addition, two SRT Teams were 
assigned to New Orleans for 60 days to assist in the law enforcement 
response in the aftermath of Hurricane Katrina.
    In September of last year, ATF had the privilege of providing a 
demonstration of our explosives and accelerant detection canine program 
to the House Homeland Security Subcommittee on Management, Integration 
and Oversight. After the demonstration, the branch chief for the canine 
training program testified before the subcommittee regarding the status 
of ATF's program and progress made on establishing a National Odor 
Recognition Standard for all explosives canines. ATF's unique training 
methodology enables its 35 explosives detection canines to find 
explosives and gunpowder residue, IEDs, post-blast debris, firearms, 
ammunition, bulk explosives, and spent shell casings. By breaking down 
the thousands of known explosive compounds into five recognizable and 
consistent chemicals, the canines can detect explosives used in up to 
19,000 known explosives compounds. It is important to note that ATF is 
the only agency systemically training canines on peroxide explosives 
such as those used in the July 2005 terrorist attacks on the London 
transportation system.
    Our canine program trains and certifies explosives detection 
canines for State, local, and Federal agencies as well as foreign 
countries. To date, we have trained 621 canines for the use of our 
agents and our domestic and international law enforcement partners. In 
compliance with former-Attorney General Ashcroft's mandate, we have 
established standards to certify all canines used by DOJ components 
which will ensure that these components have an efficient tool to 
identify and locate explosives. Because there are so many other 
providers of explosives detection canines that are trained under a 
variety of standards and conditions, the National Bomb Squad Commanders 
Advisory Board, which represents State and local bomb squads, asked ATF 
to implement a National Canine Basic Odor Recognition Standard for all 
explosives canine teams domestically. While ATF shares the concern of 
the advisory board that explosives detection canines used domestically 
should be trained to a national odor recognition standard, this cannot 
currently be accomplished within existing resource levels. ATF is 
evaluating ways to further implementation of the standard within 
existing resource levels. Moreover, our 60-accelerant detection canines 
help to identify potential points of origin at a fire scene. In 
addition to supporting local authorities, the accelerant detection 
canines respond with the NRT and are used by ATF field offices on a 
case-by-case basis.
    Although the original goal of the explosives detection canine 
program was to locate explosive devices, these canines have also proven 
themselves to be a valuable asset in firearms investigations through 
their ability to locate hidden firearms and ammunition. Using this 
existing asset in a new way has been invaluable during search warrants 
and following shootings when other means of locating firearms, 
ammunition, and spent shell casings have failed. On October 20, 2002, 
following a shooting connected to the District of Columbia sniper 
investigation, an ATF canine team searching the woods surrounding the 
crime scene found a .223 shell casing. This ballistics discovery also 
led investigators to a note tacked to a nearby tree which had been 
placed by the suspects in an effort to communicate their demands. The 
shell casing was analyzed by the ATF National Laboratory and was 
eventually matched to the Bushmaster rifle recovered at the arrest 
site.

                             INTERNATIONAL

    Law enforcement agencies worldwide use our firearms tracing 
capabilities to gain additional information about crime guns. In fiscal 
year 2005, Congress provided ATF's National Tracing Center with a $1 
million increase to cover the cost of increased international trace 
requests. In that fiscal year, ATF traced over 12,000 firearms for 
foreign law enforcement representing 56 foreign countries. Our 
international activities enhance public safety in many countries 
worldwide, and in so doing, they protect American interests.
    ATF provides extensive support to America's diplomatic activities. 
Regional Security Officers from the Department of State's Diplomatic 
Security Service (DSS) participate in post-blast training led by ATF. 
The training focuses on explosives crime scene processing, management 
and preservation, and includes explosives identification and effects. 
Other countries have benefited from ATF's expertise in training 
explosives detection canines: through a partnership with the Department 
of State, ATF has trained approximately 375 canines for international 
law enforcement agencies since the program's inception in 1990. Also, 
our International Response Team (IRT) deploys in support of DSS 
investigative responsibilities and foreign government requests. The IRT 
has been deployed 25 times in response to fire and explosives incidents 
since its inception in 1991, most recently to investigate a deadly fire 
in Granada.
    ATF works with agencies worldwide to prevent firearms from reaching 
the hands of organized criminal gangs, drug traffickers, terrorist 
organizations, and other criminals. ATF enforces provisions of the Arms 
Export Control Act (AECA), and has primary jurisdiction over permanent 
firearms and ammunition imports. The Department of State administers 
the temporary import and export provisions of the AECA, and the 
Department of Homeland Security enforces all AECA provisions at U.S. 
ports and borders.

                              PARTNERSHIPS

    At ATF, we believe that working together is not just a good idea--
it is a matter of national security. Our agency has a long history of 
collaborating effectively with other enforcement agencies, industry, 
and the scientific and academic communities. Our successes are directly 
related to our ability to work effectively with our colleagues.
    As part of our robust support for joint efforts to counter the 
grave threat of terrorism, we share our expertise in firearms, 
explosives, and alcohol and tobacco diversion. As noted previously, ATF 
contributes to the Department of Justice's fight against terrorism 
through the JTTF program. ATF personnel assigned to JTTFs function as 
in-house experts on firearms and explosives violations and on tobacco 
diversion act as liaisons between the FBI and ATF at the local level on 
intelligence matters, and are a vital part of the joint investigative 
team. ATF has 43 full-time and 17 part-time personnel assigned to JTTFs 
around the country with an additional 42 personnel designated to 
liaison with the remaining JTTFs not located in proximity to an ATF 
field office--therefore, ATF has committed resources to all JTTFs 
nationwide.
    ATF works closely with other Federal agencies and with the academic 
and scientific communities, to conduct research and monitor 
developments in explosives research, blast mitigation, and explosives 
detection. ATF representatives also serve as a subgroup co-chair and as 
task managers on several research efforts funded through the Technical 
Support Working Group (TSWG). The TSWG, administered by DOD under the 
auspices of the National Security Council, conducts rapid research, 
development, and prototyping of multiple use technologies for law 
enforcement and military purposes. ATF also has collaborative research 
partnerships with the U.S. Army Engineer Research and Development 
Center, and has partnerships with Oak Ridge National Laboratory; 
Lawrence Livermore National Laboratory; University of Missouri, Rolla; 
and University of Massachusetts, Lowell. Also, ATF closely and 
regularly collaborates with representatives of foreign governments, 
including the United Kingdom, Israel, and Canada.
    ATF leverages its resources to better inform, advise, and educate 
its stakeholders and customers. For instance, ATF has partnered with 
The Fertilizer Institute to launch voluntary campaigns to raise the 
awareness of industry, law enforcement, and the public on the sale, 
security, storage, and transportation of ammonium nitrate, the chemical 
that was mixed with fuel oil in the Oklahoma City bombing.
    ATF employees hold key positions in many prestigious professional 
organizations. I am a member of the executive committee of the 
International Association of Chiefs of Police (IACP) and, since 1990, 
an ATF agent has chaired the IACP Arson and Explosives Committee. 
Similarly, ATF has maintained outstanding relationships with the 
International Association of Bomb Technicians and Investigators, the 
International Association of Arson Investigators, the International 
Association of Explosives Engineers, the National Sheriff's 
Association, Major Cities Chiefs Association, Police Research Forum, 
and the National Bomb Squad Commanders. Also, as stated previously, ATF 
has a partnership with the National Shooting Sports Foundation in 
conducting the ``Don't Lie for the Other Guy'' program which provides 
essential education for FFLs.

                               MANAGEMENT

    Mr. Chairman, ATF is a well-managed and effective organization, and 
external evaluations of our abilities confirm this. In the last 2 
years, the Office of Management and Budget has evaluated ATF's 
explosives and arson programs and our firearms programs. In each 
review, we received a rating of ``moderately effective,'' one of the 
higher ratings received by Federal law enforcement programs. Also, as 
part of the President's Management Agenda, the Office of Personnel 
Management sponsored a survey of 115 Federal subcabinet agencies. On 
this survey of employee satisfaction, I am proud to say that ATF ranked 
15th. With the continued support of the Department and this 
subcommittee, we will continue to provide innovative management and 
personnel.
    The ATF Headquarters building is being constructed here in 
Washington, DC. The vision for this high-tech, environmentally friendly 
building is threefold: it fulfills Congress' intention to move ATF 
employees and mission to safer and more secure facilities; it will 
serve as a landmark facility for the Federal government; and it will 
support the revitalization efforts of the city. ATF is scheduled to 
move to its new Headquarters this fiscal year.

                               CONCLUSION

    Chairman Shelby, Senator Mikulski, Members of the subcommittee, on 
behalf of the men and women of ATF, I thank you for your support of our 
crucial work. In the last year, we have worked to stop those whose 
violent and criminal behavior threatens the peace of our communities. 
We have investigated explosives incidents and arsons. We have helped to 
ensure that the firearms and explosives industries operate safely and 
lawfully. And we have shared our knowledge with other law enforcement 
personnel through extensive training programs and effective 
partnerships. Yet I believe that our greatest achievements are still to 
come. We have made much progress--but we know there is much more to do. 
We are determined to succeed in our mission of preventing terrorism, 
reducing violent crime, and protecting our Nation. We look forward to 
working with you to pursue this goal.

                     United States Marshals Service

STATEMENT OF JOHN F. CLARK, DIRECTOR
    Senator Shelby. Director Clark.
    Mr. Clark. Thank you, Chairman Shelby, Senator Mikulski, 
and members of the subcommittee. I appreciate the opportunity 
to appear before you today to discuss the President's fiscal 
year 2007 budget request for the United States Marshals 
Service. I am also honored to appear before the subcommittee 
today as the first career employee of the Marshals Service and 
also with my distinguished colleagues.

             UNITED STATES MARSHALS SERVICE ACCOMPLISHMENTS

    I just want to briefly outline some of our most recent 
accomplishments to set the stage for our 2007 budget request. 
Protecting the American judicial system continues to be a top 
priority for the Marshals Service. Last year, we protected 
2,200 Federal judges, 5,500 U.S. attorneys and their staff, as 
well as numerous juries and other people associated with the 
American judicial system. We provided the safekeeping for 
nearly 55,000 pretrial prisoners, produced prisoners for 
650,000 court proceedings, provided protection for over 200 
individuals who had received threats; we analyzed and 
investigated over 950 threats to those protectees.

                     FUGITIVE REGIONAL TASK FORCES

    In the area of violent crime, we continued to use our 
fugitive regional task forces. Last year, we apprehended over 
77,000 Federal fugitives and 52,000 State and local fugitives. 
We safely handled 673 international extraditions, a record high 
for fiscal year 2005. We increased our fugitive efforts in 
foreign field offices, most notably in Mexico. We conducted 
several major fugitive roundups, such as Operation Falcon, 
which netted an unprecedented 10,000 fugitives in a single 
week. And we continue to manage over $1 billion in seized 
assets.

               SUMMARY OF FISCAL YEAR 2007 BUDGET REQUEST

    For the sake of time, I will move into our 2007 budget 
request. Our fiscal year 2007 budget request addresses the 
Marshals Service highest priority needs. In total, we are 
requesting 66 additional positions and $13.6 million to address 
critical needs related to judicial security, information 
technology, and audited financial statements. We are also 
proposing $9.4 million in program offsets.

                           JUDICIAL SECURITY

    In the area of judicial security, in order to keep pace 
with a growing workload and to improve judicial security, we 
are requesting 37 positions and $4.6 million. The requested 
resources will allow the Marshals Service to hire 28 additional 
deputy marshals and nine administrative support staff for our 
district offices as well as fund the ongoing costs associated 
with the home security monitoring systems.

                         INFORMATION TECHNOLOGY

    In the area of information technology, in order to maximize 
the agency's use of new technologies and strengthen the 
information technology infrastructure, we are requesting 14 
system administrators and $7.2 million. The Marshals Service 
has made significant progress in the information technology 
area, but more is needed to successfully accomplish our mission 
and support the Department's Federal initiatives.

                      AUDITED FINANCIAL STATEMENTS

    In the area of the audited financial statements, we are 
requesting 15 positions and $1.8 million to correct material 
weaknesses and reportable conditions identified in the 2005 
financial audit and to address the increased financial 
oversight and internal control workload associated with the 
Sarbanes-Oxley Act of 2002.
    With regard to the offsets mentioned previously, in 2006, 
the Congress generously provided resources in addition to our 
request. The Marshals Service needs to reduce the levels of 
these programs by $9.4 million in fiscal year 2007 to ensure 
that adequate resources are available for judicial security.
    I appreciate again the opportunity to appear before the 
subcommittee, and I look forward to taking your questions now.
    [The statement follows:]

                  Prepared Statement of John F. Clark

    Chairman Shelby, Senator Mikulski, and Members of the subcommittee, 
I appreciate the opportunity to appear before you today to discuss the 
President's fiscal year 2007 budget request for the United States 
Marshals Service.
    Since September 11, the Marshals Service has had an integral role 
in the Nation's efforts to combat terrorism. We were among the first 
responders at the World Trade Center and the Pentagon on September 11. 
Our primary mission is to protect the judicial process, and in doing 
so, we have taken aggressive measures to protect courthouses and secure 
courtrooms in order to handle the many high threat trials involving 
suspected terrorists, violent gang members, and drug traffickers.
    Most recently, the Marshals Service sent hundreds of deputies to 
Alabama, Mississippi, Louisiana, and Texas to assist in rescue, 
recovery, evacuation, and law enforcement activities in the aftermath 
of Hurricanes Katrina and Rita. I would like to thank this subcommittee 
for its support of the Marshals Service and for the supplemental 
funding we received to repair our courthouses and replace damaged 
equipment.

                    FISCAL YEAR 2005 ACCOMPLISHMENTS

    The legal proceedings of Zacarias Moussaoui have been ongoing 
through all of fiscal year 2005. The USMS has continued to provide 
security for this high-profile trial. Thankfully, we have been 
successful in producing the defendant safely and securing the judicial 
proceedings. On April 22, 2005, Mr. Moussaoui pleaded guilty to all of 
the charges against him. The trial is now in the penalty phase and we 
expect this phase to last 2 to 3 months.
    As the former U.S. Marshal in the Eastern District of Virginia, I 
can speak firsthand about the planning and resource requirements 
necessary to prepare for a high threat trial. The Moussaoui case is 
just one example. Agency-wide, our personnel produced prisoners for 
650,000 court proceedings; all without one escape or injury to a judge, 
witness, or prosecutor. Last year, we investigated over 950 potential 
threats to Federal judges and prosecutors. Our Deputy Marshals provided 
200 personnel protective details and another 300 event protective 
details. All were completed without a single incident of violence.
    The increase in gang-related trials also presents many challenges 
for us. For example, in Santa Ana, California, we are securing the 
largest capital murder case in United States history. Forty defendants 
affiliated with the Aryan Brotherhood are on trial for a variety of 
violent crimes including conspiracy to commit murder and drug 
trafficking. At least 8 gang members face the death penalty. Not only 
are the defendants part of this gang, but so are the witnesses. At 
least 12 former gang members are expected to testify.
    In addition to the Aryan Brotherhood gang, the Mara Salvatrucha 
gang, referred to as MS-13, is expanding its influence internationally. 
Last year in Alexandria, several members of the MS-13 gang were 
successfully convicted of a brutal murder. That trial included 
producing participants from the Witness Security Program which required 
additional security precautions. Providing protection for witnesses who 
testify against a gang known for its viciousness is a daunting task. I 
would like to thank this subcommittee for its continued support of the 
Witness Security Program and for recognizing their role in stopping 
gang violence.
    Outside of the courtroom, the Marshals Service is working 
diligently to achieve the offsite security initiative funded through 
the 2005 Emergency Supplemental Appropriations Act for Defense, the 
Global War on Terror, and Tsunami Relief. We are grateful for the 
support provided by Congress. The funds will allow the Marshals Service 
and the Judiciary to install home intrusion detection systems in the 
homes of federal judges. After planning the implementation of this 
system, we have hired a contractor to provide and install the systems. 
The four pilot sites concluded successfully and systems are being 
ordered and installed throughout the country.
    Over 4 days in August 2005, the Marshals Service conducted a unique 
fugitive apprehension initiative, Operation Fugitive Safe Surrender, in 
the Northern District of Ohio. This operation combined the efforts of 
the Marshals Service, State and local law enforcement, local 
prosecutors, and community leaders in creating an environment where 
fugitives were encouraged to surrender under circumstances that 
guaranteed their safety and the safety of the surrounding community. 
This innovative, faith-based initiative resulted in the peaceful 
surrender of 850 fugitives, of which 350 were fugitive felons. Later 
this year, we will expand this initiative into 6 cities including: 
Albuquerque, New Mexico; Camden, New Jersey; Louisville, Kentucky; 
Phoenix, Arizona; Richmond, Virginia; and Washington, DC.
    The Marshals Service continues to improve strategies used to 
apprehend fugitives. In April of 2005, the Marshals Service conducted 
the largest fugitive roundup undertaken by any law enforcement agency 
in the United States. By working with law enforcement officers from 
Federal, State, county, and city agencies, Operation FALCON (Federal 
and Local Cops Organized Nationally) apprehended over 10,000 violent 
fugitives and cleared 14,000 warrants. Agency-wide, our Deputy Marshals 
apprehended over 77,000 Federal fugitives and another 52,000 State and 
local fugitives.
    We have also made a substantial impact on the fugitive workload in 
Mexico, Jamaica, and the Dominican Republic. The placement of deputy 
marshals in these foreign field offices led to 673 extraditions in 
2005; a record-high number for the Marshals Service. One of these 
extraditions from last February involved deputy marshals working with 
Mexican authorities on the return to the United States of a sex 
offender who had kidnapped a 15-year-old girl and taken her to Mexico. 
Once in Mexico, the offender abused the girl for 2 weeks before she 
managed to escape. Criminal acts of this nature must be investigated 
vigorously and immediately. We thank our Mexican counterparts for their 
diligence and continued cooperation.

                         CHILDREN'S SAFETY ACT

    The protection of the nation's children from those who would prey 
upon them is important to our nation's future. For that reason, I would 
like to thank you, Mr. Chairman, and other members of this subcommittee 
for co-sponsoring the Children's Safety Act of 2005 (H.R. 3132). This 
important piece of legislation would establish a comprehensive national 
system for the registration of sex offenders. Failure to register would 
make it a federal crime which in turn would generate additional federal 
fugitives. We would welcome the opportunity to become involved in this 
vital effort to keep our children and families safe.

                    FISCAL YEAR 2007 BUDGET REQUEST

    Our fiscal year 2007 budget request addresses the Marshals 
Service's highest priority needs. In total, we are requesting 66 
additional positions and $13.6 million to address critical needs 
related to judicial security, information technology, and audited 
financial statements. We are also proposing $9.4 million in program 
offsets.

                           JUDICIAL SECURITY

    Protection of the judicial process--with a heavy emphasis on 
judicial security--remains the primary mission of the United States 
Marshals Service. The workload associated with judicial and courthouse 
security has significantly increased in the last 5 years due to the 
Nation's heightened awareness of possible threats. The murder of Judge 
Lefkow's husband and mother in retaliation for her rulings demonstrates 
why judicial security is vital in maintaining the Federal judicial 
process. To keep pace with a growing workload and to improve judicial 
security, we are requesting 37 positions and $4.6 million. The 
requested resources would allow the Marshals Service to hire 28 
additional deputy marshals and 9 administrative support staff for 
district offices, as well as fund the ongoing costs associated with 
home security system monitoring.

                         INFORMATION TECHNOLOGY

    In order to maximize the agency's use of new technologies and 
strengthen the information technology infrastructure, we are requesting 
14 systems administrators and $7.2 million. The Marshals Service has 
made significant progress in the information technology area but more 
is needed to successfully accomplish our mission and support 
departmental and Federal initiatives. We will use the requested 
resources to enhance the Justice Detainee Information System, purchase 
replacement servers and software, and provide additional systems 
administrators to district offices. JDIS is a critical law enforcement 
tool because it marries our judicial threat data with warrant, criminal 
history, prisoner scheduling, and booking information into a single 
database. Our long term goal is to share this information with other 
agencies, including the Federal courts, so we all can take advantage of 
this law enforcement information. These resources will ensure that the 
Marshals Service is working not only harder but smarter and taking full 
advantage of available technologies.

                      AUDITED FINANCIAL STATEMENTS

    Finally, we are requesting 15 positions and $1.8 million to correct 
material weaknesses and reportable conditions identified in the 2005 
financial audit and to address the increased financial oversight and 
internal control workload associated with the Sarbanes-Oxley Act of 
2002. In the 2005 financial audit of the Marshals Service, auditors 
provided an unqualified opinion on our financial statements; however, 
they also identified three material weaknesses and one reportable 
condition. The requested program increase will ensure that the 
auditors' recommendations are addressed and that we continue to provide 
appropriate financial oversight, policy compliance, and delivery of 
timely, accurate and reliable financial statements.

                                OFFSETS

    In 2006, Congress generously provided resources in addition to our 
request. Though appreciated, the Marshals Service needs to reduce the 
levels of these programs by $9.4 million in fiscal year 2007 to ensure 
that adequate resources are available for judicial security. The 
proposed offsets reduce funding for courthouse renovations and fugitive 
apprehension.
    Thank you for the opportunity to present the Marshals Service 
budget request for fiscal year 2007. We appreciate your ongoing support 
and hope to prove efficient stewards of the resources entrusted to us. 
I would be happy to answer any questions you may have at this time.

    Senator Shelby. Thank you. We will start with the FBI, Mr. 
Director. We will have a number of questions for the record, 
but we will try to move this.

                                SENTINEL

    We are both--we all were interested in Trilogy. We wanted 
it to work. We want the next one, Sentinel, to work. Last week, 
I wrote a letter to you requesting answers to a lot of the 
questions the staff is interested in regarding the procurement 
and the FBI's new $500 million procurement of Sentinel. I have 
a copy of this that we will make part of the record here, but I 
know there are lots of questions here, Mr. Director.
    Can you assure us you will get those answers as soon as 
possible just for our information of the subcommittee?
    Mr. Mueller. Again, Mr. Chairman, we are working. We are 
working. I think there are something like 85 questions.
    Senator Shelby. It is a lot of them.
    Mr. Mueller. And a number of them go back to Trilogy.
    Senator Shelby. They do.
    Mr. Mueller. Which was two-thirds of it was successful, 
one-third not successful.
    Senator Shelby. We know.
    Mr. Mueller. And what we are focusing on is making certain 
that Sentinel is successful. We would be happy to brief your 
staff at any time and in addition to take suggestions from your 
staff or others on the Hill on how we can do it better. We have 
always come up and said we are open to any suggestions that you 
might have in terms of how we can make sure this is successful, 
because I know we both want to make it successful.
    Senator Shelby. I know you do, and I believe that you have 
probably learned things. We have all learned. But we have that 
responsibility on money, even if it is a dollar. But in this 
case, it was a lot of money, and we know the FBI has to have 
the modern technology. You know it better than I know, and 
Senator Mikulski knows it very, very well herself.
    Mr. Mueller. I can use your help in one area, Mr. Chairman.
    Senator Shelby. Yes.
    Mr. Mueller. And that is we have welcomed oversight both 
within Congress but also outside in terms of GAO and the 
inspector general and the like. We have persons who are 
dedicated to Sentinel, and to the extent that we can 
consolidate requests and briefings, it would be helpful in 
terms of freeing up the personnel to work on the project.
    Senator Shelby. I understand.
    Mr. Mueller. And so, we are working on those questions now, 
but we also ask your assistance in helping us to consolidate 
the requests so that our personnel can respond to the 
legitimate requests but also spend time on the project.
    Senator Shelby. Absolutely. We want you to be successful. 
And our interest in oversight is to be constructive. If we are 
being critical, it is because we have a job to do. But we know 
the ultimate goal is to modernize the technology that you have 
at the FBI; is that correct?
    Mr. Mueller. Yes, sir.
    Senator Shelby. And we want to help you do that, want to 
make sure.

    DRUG ENFORCEMENT ADMINISTRATION INVOLVEMENT IN THE INTELLIGENCE 
                               COMMUNITY

    Administrator Tandy, the 2000 budget includes $12 million 
for the DEA to formally become part of the intelligence 
community. How will this funding change DEA's current 
contributions to the intelligence community? Do you have 
sufficient intelligence sources in your foreign offices to help 
with this transition? I know you have good people, but for the 
record, we are interested in this.
    Ms. Tandy. Thank you, Mr. Chairman.
    First of all, DEA is reentering the intelligence community 
with a lapse since 1980.
    Senator Shelby. We know.
    Ms. Tandy. We have the largest law enforcement presence in 
foreign countries around the world, and from that standpoint, 
we are extremely well positioned with our 80-plus offices in 62 
countries to contribute to the community and the flow of 
intelligence to protect our national security. DEA did not 
receive additional authorities, so we continue with our primary 
drug enforcement function. But what you should see as a 
difference with DEA in the community is the flow of 
intelligence. First of all, DEA has rich intelligence and 
sources around the world. We----
    Senator Shelby. Great resources.
    Senator Mikulski. And sources.
    Ms. Tandy. Thank you.
    Senator Shelby. And sources; she is right, Senator 
Mikulski, resources and sources.
    Ms. Tandy. We have tremendous people developing those.
    But as a result of that, we will now know what is important 
to the intelligence community, and as we speak to our sources 
during the course of our normal drug enforcement work, we will 
be able to expand those areas that we are covering with our 
sources to include the areas that are important to this country 
in the intelligence community. I think that is the principal 
benefit, and we hope there will be a two-way street as well.
    Senator Shelby. I think it is something you have got to 
mine. It will be very rich for the intelligence community.
    Director Truscott, I want to welcome you back. You are no 
stranger to the Appropriations Committee.
    Mr. Truscott. Thank you, Mr. Chairman.
    Senator Shelby. You have worked here with us before.
    I appreciate personally the work that you explained a few 
minutes ago, the professionalism of your organization in 
dealing with the church burning in my home State of Alabama.
    Mr. Truscott. Thank you.
    Senator Shelby. You did a good job; so did the Bureau, you 
know, working there. And you are to be commended not only one 
time but many times, especially by we who help fund you.

              ALCOHOL, TOBACCO, FIREARMS USER FEE PROPOSAL

    I commented earlier on my serious concerns with the $120 
million fee proposal included in your budget request. I am 
told, as I said earlier, that it would take nearly 2 years for 
the ATF to implement this proposal if it were enacted into law 
by the Congress. Is the ATF ready to implement this fee? And if 
the fee does not become law, what would be the impact on your 
agency?
    Mr. Truscott. Mr. Chairman, thank you for your comments 
regarding our efforts.
    With regard to the $120 million user fee, ATF has the 
statutory responsibility to regulate the explosives industry. 
And there are approximately 12,000 licensed explosives entities 
throughout the United States. And this user fee would be an 
offsetting receipt for the work that we do.
    There are approximately 6 billion pounds of explosives, 
both imported and domestic, that this user fee would apply to 
at the rate of 2 cents per pound. And so, the intent is that 
this would serve as a mechanism to offset the expenses that we 
have, the regulatory effort that we have to undertake this 
requirement that we have.
    In terms of if it were not able to be funded in some sort 
of way, it would have a very significant impact on the agency; 
$120 million is well over 10 percent of ATF's budget, so it 
certainly would impact our ability to regulate the explosives 
industry, but it also would roll into our ability to enforce 
explosives related statutory authority as well as the Federal 
firearms licensees that we also have the regulatory authority 
for, because it is the same industry operations investigators 
who do the explosives and the firearms regulatory work.
    Senator Shelby. Thank you.

                           JUDICIAL SECURITY

    Director Clark, judicial security, that is a big issue with 
the Marshals. A March 2004 inspector general review showed that 
the Marshals Service assessment of threats against members of 
the Federal judiciary were deficient in several respects. The 
report found that the threat assessments are often untimely and 
of questionable validity. Further, the Marshals Service has 
limited capability to collect and share intelligence on 
potential threats, so its said, the report.
    The inspector general also found that the Marshals Service 
lacks adequate standards for determining the appropriate 
measures that should be applied to protect the judiciary 
against danger.
    Do you agree with the inspector general's finding? Do you 
take issue with it? And second, what is the status of the 
Marshals Service's efforts to protect judicial security in this 
country?
    Mr. Clark. Thank you, Senator, yes; as I said earlier, 
judicial security remains a top priority for me and for the 
Marshals Service. Since serving as the Acting Director and more 
recently being appointed as Director, we have taken several 
steps to improve some of the findings that were brought forward 
by the inspector general's report. Most notably, we have 
established a 24/7 or are in the process, I should say, of 
establishing a 24/7 threat analysis and intelligence center. 
This will help us speed up the process for analyzing threats 
against the judiciary and investigating them.
    We plan on increasing the number of staff at this center 
with analysts and deputy marshals.
    Senator Shelby. Will you be working with the FBI on this?
    Mr. Clark. Most certainly. We in fact use their joint 
terrorism task forces as one of the avenues to collect and 
gather intelligence that we might need to protect the 
judiciary.
    We are also in the process of conducting security awareness 
training for the members of the judiciary as well as retraining 
a number of the members of our staff in the Marshals Service on 
protective operations. We have been working very, very closely 
with the Judicial Conference and the Judicial Security 
Committee as an avenue to solicit their input on how we can 
best serve and protect them.
    Most notably recently, you may be aware that we are working 
diligently to install the home intrusion alarms in many of the 
judges' residences around the country.
    Senator Mikulski. The what?
    Mr. Clark. We have been working to install the home 
intrusion alarms.
    Senator Shelby. Home intrusion.
    Mr. Clark. Yes, within----
    Senator Shelby. No, home intrusion alarms.
    Mr. Clark. That is correct, yes.
    Senator Mikulski. No, it is the arm of the Marshals, but--
--
    Mr. Clark. And using that as an additional security 
enhancement to protect them.
    Senator Shelby. Senator Mikulski.
    Senator Mikulski. Thank you very much, Mr. Chairman. And I 
just have a few questions, but I do want to say something about 
the agencies that are represented before us and truly how much 
they are appreciated, Mr. Chairman, and I know you feel the 
same way from your own State of Alabama, but we in Maryland are 
part of the Capital region. We in Maryland, when we are 
fighting drugs, are an intersect for several States, whether it 
is Virginia or West Virginia, whether it is Pennsylvania or 
Delaware, and we are also a high threat area.
    And it is the people of my State, both its citizens and its 
law enforcement as well as those around the Beltway that turn 
to these people. Whether it is the sniper that is now indicted 
on which the ATF and the FBI were the lead agencies, but we did 
not federalize continuing to rely on local law enforcement. We 
had our fires in a community where African-Americans who had 
worked hard to be able to afford $500,000 saw the American 
dream go up in smoke.
    So we want to thank all of the people who work in these 
agencies. They work 24/7; lots of times, when we are having 
Thanksgiving dinner, or we are off to church to hear the melody 
of ``Silent Night'', they are out there working to protect us. 
And I think everybody who works at these agencies are an agent, 
whether they are people like Agent Perkins, who is now at the 
Budget Office, but over there in the FBI, Mr. Chairman, there 
is a lady who worked for the FBI as a secretary for 50 years 
who went to the same high school Nancy Pelosi and I did. She 
has trained more FBI agents and could run this Sentinel program 
better than anybody else, and we could go down the line.
    Senator Shelby. You might need to find her.
    Senator Mikulski. Yes, I think we do. So I just want to say 
thank you, and I mean that very, very, very sincerely, and we 
are safer because of the work that has been done.

                    DRUG TRADE FUNDING AND TERRORISM

    Let me go on, though, to the questions, first of all, on 
terrorism. Ms. Tandy, you talk about the fact that DEA is now 
coming back into the intel business, and I am delighted to hear 
that, because in your testimony, you talk about nearly half of 
the State Department's listed foreign terrorist organizations 
have ties to the--nearly half of the State Department's listed 
terrorist organizations have ties to the drug trade.
    That is a stunning statement, stunning. Are we saying that 
it is the drug trade that is one of the primary sources of 
revenue for terrorism?
    Ms. Tandy. Senator, I am not sure I could say it is the 
primary revenue for each of them, although it certainly is for 
many of them. For others, it may be part of not just the money 
flow but trading drugs for munitions.
    Senator Mikulski. What do you mean by munitions? Is that 
everything from a handgun to a Stinger?
    Ms. Tandy. Yes, it could be a Stinger missile, an anti-
aircraft missile. It could be weaponry, ammunition, all kinds 
of munitions used by terrorists.
    Senator Mikulski. But what would be the range of its lethal 
character? I mean, do they have it to buy an ICBM? I mean, are 
they talking about weapons that would just be used in small 
areas, in kind of urban guerilla terrorist attacks, or are we 
talking about somebody who could take down an aircraft or 
someone who could have the capability of launching a weapon of 
mass destruction?
    Ms. Tandy. I do not have any information about weapons of 
mass destruction, but certainly, as you have noted, Stinger 
missiles are capable of shooting down aircraft. That is what 
they are there for. There are examples of undercover 
investigations that DEA on the one hand, and the FBI on the 
other, were involved in where there were two different drug 
trafficking organizations, two different locations in the 
United States, San Diego and Houston, where the organizations 
were trading cocaine on the one hand for a Stinger missile, and 
on the other, it was heroin for a Stinger missile, one out of 
Colombia and one out of Pakistan. So you do have some of that 
associated with those foreign terrorist organizations on the 
State Department list.
    Senator Mikulski. Well, I know Senator Leahy will have some 
of his own questions in that area, but I think we would like 
very much to be kept posted on that and also particularly on 
the DEA efforts on Afghanistan.
    We do not have the time to go into this, but in our hearing 
with Secretary Rice, she told us at the State Department 
approps hearing that literally, if we do not get a handle on 
the drug traffic in Afghanistan, it would have a severely 
destabilizing effect on Afghanistan's permanent move to 
democracy. So we think what you are doing is really important 
in that area.

                       NATIONAL SECURITY DIVISION

    Director Mueller, on terrorism, you heard the questions 
that I was asking the Attorney General. Can you tell us, 
though, what is your new national security office, and is this 
the beginning of like what the Brits have, an MI-5 agency 
within the FBI? What will it do, and how is it not bureaucracy 
but an antiterrorist effort?
    Mr. Mueller. Well, for our national security branch, it 
consolidates counterintelligence, counterterrorism, and 
intelligence under one authority so that you eliminate overlap; 
you make certain that we are addressing the same targets.
    And one thing that cannot be lost, I do not think, when you 
raise the specter of an MI-5 is the importance of our criminal 
programs in terms of training, in terms of providing us the 
capabilities to do an effective job in addressing terrorism or 
counterintelligence. We also see that the criminal programs are 
an abundant source of intelligence, because many of those who 
support terrorism are involved in criminal matters in a variety 
of ways and it may not be just supporters of terrorism but may 
be recruiting individuals or the gaining funds that would 
support terrorism through their criminal activities.
    So it is my belief that it is important to establish a 
national security branch so we have recruiting, training and 
executive development in these specialized areas, but it has to 
be part of the FBI.
    Your questions directed to the Attorney General were also 
directed to the establishment of the National Security Division 
in the Department of Justice. And the differentiation I would 
make is between our investigative responsibilities and 
intelligence development and gathering responsibilities through 
our collectors, agents, and analysts to, on the other hand, the 
role of the Department of Justice in taking that information 
and prosecuting those individuals who are found guilty of 
violation of any one of the statutes.
    One of the prime components of the new National Security 
Division at the Department of Justice is the office that 
handles the FISA process. And I do believe it is important to 
focus on the FISA process to eliminate any holdups, glitches, 
giving it the support that it needs so that we have an 
effective, swift FISA response in that area.
    So the development of the National Security Division, I 
believe, replicates what is being done in the FBI but does it 
in a way that focuses on the legal side of the house as opposed 
to the investigative side of the house.
    Senator Mikulski. Well, I think that is a very important 
clarification, and we would like to look at it. They are 
talking about $67 million to, I would hope, do more than the 
legal side. That is a lot of money and a lot of people to 
implement FISA. If FISA needs it, then, we would like to know 
about it, because you, Ms. Tandy, said you have got a 
supplemental here of $5 million to get your agency back in this 
very important antiterrorism, and I think you are going to be 
an important linchpin; exactly what the Director said. You all 
are abroad. You are abroad. You are abroad, Director Truscott. 
You are picking up this information as much as any intel 
collection source.

                 DRUG ENFORCEMENT AGENCY ANTI-TERRORISM

    Is that going to be enough money? I mean, you have got $67 
million over there at Justice to stand up a new agency. You are 
talking about a supplemental--I would hope that what you are 
talking about is more than $5 million.
    Ms. Tandy. It is, Senator. The $5 million in the 
supplemental is just to get us through the rest of 2006.
    Senator Mikulski. What is it that you need, and is it in 
here?
    Ms. Tandy. It is in there in the 2007 budget to get us 
through the 2007 fiscal year. It includes analysts to establish 
the infrastructure at DEA in order to have the collection, the 
intel taskings to go out from headquarters. It expands our 
existing SCIF to accommodate this additional load of intel 
collection and taskings from the community. So between the 
supplemental for the rest of this year and the 2007 budget, 
that will get us started.
    Senator Mikulski. Well, you know, each one of you, we could 
ask several more questions, and Director Mueller, we will be 
following up to just see how this goes as well as the Sentinel 
and this.

                         LOCAL LAW ENFORCEMENT

    I am going to have one last question that really goes down 
the line. You have heard from our colleagues their intense 
feelings about the cut in the COPS and the Byrne program. We 
feel that in addition to the superb work that you all do, it is 
really the cops out there on the beat that you work with. 
Certainly, we saw that in the snipers. You did not federalize 
that. And we could go on.
    My question is how would the cuts proposed by the President 
to State and local law enforcement grant programs do you think 
will affect your respective agencies? Director Clark, why do we 
not start with you and just go down? But please be brief. I 
know Senator Leahy returned, and he has got to return to the 
floor.
    Mr. Clark. Sure, thank you, Senator.
    As you may know, we work very, very closely with our State 
and local partners, particularly in the area of fugitive 
apprehension. And we have been able to work with them and help 
fund, particularly with the regional task force efforts, one of 
which covers suburban Maryland, with some of the resources they 
need.
    Senator Mikulski. But how will the cuts affect your 
operation? How do you think the cuts in local law enforcement 
could impact on you? Will you have more work? Less work? Are 
you going to be less effective? Thank you for your work in 
Maryland.
    Mr. Clark. Yes, thank you, Senator, yes. I do not see it 
having a direct impact on our operations, and the funding that 
we are able to provide them with regard to violent crime 
initiatives I think, right now, is very adequate, as we have 
used it very successfully to do a lot of our fugitive roundups, 
particularly in this Capital region, for example. So I do not 
think it will have a significant impact.
    Senator Mikulski. Thank you.
    Mr. Truscott.
    Mr. Truscott. Senator, like the Attorney General indicated, 
I have heard anecdotally from some of the State and local 
representatives from law enforcement that I speak to from time 
to time about their concerns. But I do not think that 
necessarily, it is going to have a negative impact on their or 
our ability to do our job. I think it forces us to work 
smarter, to leverage our resources; certainly, the DOJ 
component agencies that are represented here today, I think we 
partner and share our expertises to the best extent possible to 
benefit not only the Department of Justice but the American 
people.
    So it will just force us to work a little bit harder in 
that regard.
    Ms. Tandy. Senator, I think the area where it will be felt 
the most is in our mobile enforcement teams with our assistance 
to police chiefs and sheriffs in oftentimes remote areas.
    Senator Mikulski. That is what we are hearing from Prince 
Georges, yes.
    Ms. Tandy. It is about a two-thirds cut to that program. We 
will still have 80 agents, but it will affect the timing of our 
ability to respond to requests for our mobile enforcement 
teams, and we will probably have to move to a regional concept 
of our MET team deployments.
    On the other hand, Senator, I think it is important to add 
to this that DEA shared $176 million with our State and local 
partners last year. We have a very aggressive strategy, policy, 
and priority to go after the money and to turn that back around 
to State and local law enforcement as well as----
    Senator Mikulski. That has been one of the more successful 
efforts then to get money out of hard work, money goes back to 
fight even more crime.
    Ms. Tandy. We are very proud of the success we have had. 
When I came through the door in 2003, our receipts from seized 
assets were below $500 million. As I said in my statement, we 
are at well over $1 billion last year and climbing.
    For our participation in the HIDTA, we lead 54 HIDTA groups 
with State and local law enforcement. That will not change. The 
work that we do in training State and local law enforcement 
will not change. We trained 42,000 State and local law 
enforcement officers last year, and we will continue to do 
that.
    I think it really is going to be in the MET area, which is 
where we serve Indian country, gangs, and methamphetamine.
    Mr. Mueller. And let me reiterate what I think was said by 
many. We are a small agency compared to the 800,000 State and 
local law enforcement around the country. And in order to be 
successful against the threats of the future, there is no one 
agency that can do it alone. We have to leverage our resources 
both on the Federal level as well as with our partners at State 
and local law enforcement.
    That said, the adverse impact for us may be down the road 
if police departments are less willing to participate in task 
forces because of the crunch in terms of persons. I am 
sympathetic and supportive to the argument of the Attorney 
General that we need to focus the funds for State and local law 
enforcement. We have not seen that diminution of interest in 
the joint terrorism task forces or other task forces, but that 
is a possible consequence.
    The only other observation I would make is, as you talk to 
State and local law enforcement, they are concerned about the 
grants, but they are also concerned about the balance between 
funds going to first responders and funds going to law 
enforcement.
    The argument being made that you want to prevent the 
attack, and it is the police officers on the street; it is 
those that know the community that can prevent the attack, and 
when you are looking at the balance between those monies going 
to the first responders and those going to law enforcement, the 
argument is made that perhaps we ought to be focusing more of 
those funds on law enforcement as opposed to more of the 
balance going to the first responders.
    Senator Mikulski. Well, I appreciate all of those answers 
and your candor.
    Just a word about first responders. The Federal program for 
first responders was created by Senator Bond and myself with 
many members here at this table, and it was at $900 million. It 
has now been cut down to $274 million. So it never reached over 
$1 billion when Byrne grants were $2.2 billion.
    But it is not meant to be a zero sum game. Each has what 
they need to be needed for. But we thank you for your candor; 
we thank you for your dedication. We look forward to working 
with you.
    Mr. Chairman.
    Senator Shelby. Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman.
    I would note that as I am sure we all realize, among those 
first responders are a lot of law enforcement, and we 
anticipate that in many cases, they will be. I realize Homeland 
Security is the first responder when we get these unexpected 
emergencies like the hurricane that we expected for 1 week or 
more, and I know that they are going to have their homes down 
there rebuilt any year now. So it is not a zero sum game.

                          COCAINE TRAFFICKING

    Administrator Tandy, I find interesting the successes you 
have had, and all of us want you to be successful. I am just 
curious: has the supply of cocaine, is it any more difficult to 
get cocaine in the United States than it was, say, 3 years ago? 
I am told by local law enforcement that it is not.
    Ms. Tandy. Senator, I think that has varied over time with 
the increase in eradication efforts.
    Senator Leahy. Is it any more difficult, if someone is a 
cocaine user, if they wanted to go, say, a few hundred yards 
from this building or 200 yards from the State house in pick 
whatever State you want, would they have any more difficulty 
getting cocaine today than they would have 3 years ago?
    Ms. Tandy. I have seen impact on the availability of 
cocaine. I cannot tell you that it is sustained. With our drug 
flow prevention strategy, which is part of our request, we saw 
impact there.
    Senator Leahy. I understand that, but I am told that the 
prices have not gone up, and the availability is about the same 
as it was 3 years ago. I realize it is a bit of a 
generalization, but would you disagree with that 
generalization?
    Ms. Tandy. There have been some changes in areas with the 
price of cocaine where----
    Senator Leahy. Significant?
    Ms. Tandy. It has been statistically significant. It is 
measurable, and that is in certain areas of the country which 
would follow from market changes with the eradication, with 
record-breaking----
    Senator Leahy. How about here in the District of Columbia?
    Ms. Tandy. Excuse me?
    Senator Leahy. What about right here in Washington, the 
Nation's Capital?
    Ms. Tandy. I do not know the answer to that. I would have 
to get back to you on that one.
    [The information follows:]

                   Price of Cocaine in Washington, DC
Price
    DEA data reveal that cocaine prices in Washington, DC, have 
remained stable over the past five years, as have cocaine availability 
and abuse patterns. Cocaine price data for 2005 indicate the sale price 
for cocaine powder (cocaine hydrochloride) ranged between $650 and 
$1,250 per ounce in the D.C. metropolitan area. Data for 2005 indicate 
the sale price for crack cocaine ranged between $550 and $1,250 per 
ounce in the D.C. area.
    Price data was derived from undercover buys, confidential source 
information, and defendant information. Much of this information is 
anecdotal, and thus the data cannot be validated by DEA through any 
scientific methodology. Since DEA does not often purchase kilogram 
quantities, price estimates for kilograms are less accurate than 
estimates for smaller quantities. Furthermore, in DEA's experience 
price data is not a completely accurate indicator of supply and demand.
    The following chart provides 2001 to 2005 cocaine prices for 
Washington DC, as well as the national price range for comparison.

                                     POWDER COCAINE (COCAINE HYDROCHLORIDE)
----------------------------------------------------------------------------------------------------------------
                           Year                                 Kilogram            Ounce             Gram
----------------------------------------------------------------------------------------------------------------
                WASHINGTON, DC PRICE RANGE

2001......................................................   $16,500-$35,000       $900-$1,250          $50-$100
2002......................................................   $17,500-$35,000       $600-$2,000           $30-$80
2003......................................................   $17,000-$35,000       $825-$1,300          $50-$100
2004......................................................   $24,000-$25,000       $900-$1,100              $100
2005......................................................   $23,000-$27,000       $650-$1,250           ( \1\ )

                   NATIONAL PRICE RANGE

2001......................................................   $13,000-$35,000       $400-$1,600          $20-$200
2002......................................................   $10,000-$35,000       $400-$3,500          $24-$150
2003......................................................   $10,000-$35,000       $375-$1,800          $25-$150
2004......................................................   $10,000-$35,000       $350-$1,800           $9-$200
2005......................................................           ( \2\ )           ( \2\ )           ( \2\ )
----------------------------------------------------------------------------------------------------------------
\1\ N/A.
\2\ Pending.

Source: Quarterly Trends in the Traffic Report--DEA Washington Division.


                                          CRACK COCAINE (COCAINE BASE)
----------------------------------------------------------------------------------------------------------------
                           Year                                 Kilogram            Ounce             Gram
----------------------------------------------------------------------------------------------------------------
                WASHINGTON, DC PRICE RANGE

2001......................................................   $28,000-$34,000       $900-$1,300          $80-$100
2002......................................................           $30,000       $900-$1,750          $80-$100
2003......................................................   $28,000-$34,000     $1,000-$1,300          $80-$100
2004......................................................   $28,000-$34,000     $1,000-$1,200           ( \1\ )
2005......................................................   $28,000-$34,000       $550-$1,250           ( \1\ )

                   NATIONAL PRICE RANGE

2001......................................................   $13,000-$50,000       $300-$2,800          $10-$200
2002......................................................   $13,000-$35,000       $325-$2,800          $10-$130
2003......................................................    $7,500-$35,000       $325-$2,000          $10-$130
2004......................................................    $7,500-$60,000       $325-$2,000          $18-$200
2005......................................................           ( \2\ )           ( \2\ )           ( \2\ )
----------------------------------------------------------------------------------------------------------------
\1\ N/A.
\2\ Pending.

Source: Quarterly Trends in the Traffic Report--DEA Washington Division.

Availability
    In determining the availability of drugs DEA looks at various 
indicators, such as price and purity, defendant and confidential source 
debriefings, and the professional judgment of colleagues in the law 
enforcement community. Source information, such as the source of 
cocaine supplied to the D.C. area, is gathered as a normal course of 
investigations. For example, whenever drug traffickers are arrested, 
they will be asked for information such as, ``Who hired you to pick up, 
transport, deliver, and sell the drugs?''
    According to the Washington, D.C. Metropolitan Police Department 
(MPD), cocaine availability has remained stable over the past several 
years. The MPD also reports that drug-related violence remains static, 
with the exception of homicides, which have decreased over the past 
four years.
    Kilogram quantities of cocaine hydrochloride (HCl) continue to 
arrive in the Washington, DC area. Powder cocaine sold at the mid- to 
retail level remains widely available. The quantities of cocaine HCl 
available in any given area greatly depend on abuse patterns and the 
level of distribution at which a particular dealer conducts business. 
Cocaine HCl most commonly is found in gram and ounce quantities for 
resale in suburban and rural areas, but in larger quantities (i.e., 
quantities appropriate for redistribution after conversion to crack) in 
urban areas of the D.C. area.
    Crack cocaine is available throughout the D.C. area in quantities 
ranging from small quantities up to one kilogram. Most of the crack 
cocaine distributed within the D.C. area originates as cocaine HCl and 
is subsequently converted to crack. Generally, significant quantities 
of crack cocaine are not stockpiled and are manufactured according to 
demand.
    The main change in cocaine trafficking in the D.C. metropolitan 
area pertains to cocaine sources of supply. Over the past years, 
cocaine smuggling from the Southwest Border (especially Texas and 
Arizona) to the D.C. area has increased. The flow of cocaine through 
North Carolina has also increased. This mainly impacts southern 
Virginia but also affects the northern Virginia area, including 
Washington, DC. However, drug trafficking organizations in New York 
City still appear to be the principal cocaine suppliers for the 
Washington, DC. area.

    Senator Leahy. I think you would be shocked to hear the 
answer that the price, availability is roughly the same, the 
price is roughly the same. I believe if you took a general view 
of the country, you would find that the availability is roughly 
the same, and the price is roughly the same. Of course, there 
are fluctuations in everything. We are paying three times more 
for gasoline now than we were 5 or 6 years ago.
    And now, you said 2 weeks ago you charged 50 leaders of 
FARC, a State Department designated foreign terrorist 
organization, with supplying 60 percent of the cocaine in the 
United States. In the last 5 years, how many FARC members that 
your administration has indicted have actually been extradited 
and brought to trial?
    Ms. Tandy. There actually are two high-ranking members of 
the FARC that are here in the District of Columbia who are 
facing trial this year. One was a financial officer----
    Senator Leahy. That is two out of how many that have been 
indicted over the last 5 years?
    Ms. Tandy. I would have to get you the actual numbers. 
Fifty was an extraordinary number for us. And that was----
    Senator Leahy. Would you agree that most of the kingpins 
that we have indicted, and I certainly would want you to 
indict, but most of the kingpins, we have not been able to 
extradite from Colombia? Would you disagree with that 
statement?
    Ms. Tandy. Actually, I would differ with that statement. We 
have had tremendous success with President Uribe's 
administration and extraditions out of Colombia.
    Senator Leahy. Of kingpins. I am talking about Major----
    Ms. Tandy. Absolutely.
    Senator Leahy. I had a discussion with President Uribe 
about this just 1 month ago, and I want to see if your answer 
in any way relates to what his is. How many of the kingpins, 
some of the major paramilitary, some of the others that we have 
indicted, how many have actually been extradited, have actually 
been sent to the United States?
    Ms. Tandy. I would have to get you the actual numbers, but 
I can give you some examples that are significant. The founders 
of the Cali cartel who were extradited in the time that you are 
talking about are here on U.S. soil facing trial. We have, as I 
recall, about 20 percent of the most wanted drug trafficking 
organizations on the consolidated priority organization target 
list who have been extradited.
    Senator Leahy. So one out of five have been extradited to 
the United States. That would be a large number. Would that not 
be about 50, 60 people?
    Ms. Tandy. The CPOT list, which is the one I just referred 
to, is actually one that varies over the years, but it is about 
44 on the list right now, and so, 20 percent, about 80 percent 
of the targets, the targeted organizations have been indicted 
on that list, and about 20 percent of them, as I recall, I want 
to get you the exact figure.
    [The information follows:]

               Indictments and Extraditions From Colombia

    Since 2002, 360 individuals have been extradited from Colombia to 
the United States. The Department of Justice Criminal Division 
estimates that approximately 94 percent of these extraditions have been 
for drug charges.

                      EXTRADITIONS FROM COLOMBIA TO THE UNITED STATES (AS OF JUNE 2, 2006)
----------------------------------------------------------------------------------------------------------------
                      Extraditions by Year                         2002    2003    2004    2005    2006    Total
----------------------------------------------------------------------------------------------------------------
Total Extradited from Colombia..................................      40      68      91     134      27     360
----------------------------------------------------------------------------------------------------------------

    Because Colombians are indicted by grand juries in various federal 
districts and a single indictment may charge multiple individuals, DOJ 
does not know the exact number of Colombians indicted since 2002.
    Over the past two years, several key traffickers have been 
extradited to the United States from Colombia, including members of the 
Revolutionary Armed Forces of Colombia (FARC), the Norte Valle Cartel, 
and the Cali Cartel. Some of these key extraditions include the 
following:
2006
            Julio Cesar Lopez Pena
    In March 2005, Julio Cesar Lopez Pena was extradited to face 
racketeering and drug charges. According to a May 2004 indictment, 
Lopez Pena operated a cocaine laboratory under the control of the Norte 
Valle Cartel beginning in 1998.
2005
            Jairo Aparicio Lenis
    In October 2005, Jairo Aparicio Lenis was extradited to the United 
States to face racketeering and drug charges. According to an April 
2004 indictment, Aparicio Lenis was a member of the Norte Valle Cartel 
responsible for laundering the cartel's cocaine proceeds.
            Elias Cobos Munoz
    In April 2005, Consolidated Priority Organization Target (CPOT) 
Elias Cobos Munoz was extradited from Colombia to face cocaine 
conspiracy and money laundering conspiracy charges. Cobos Munoz is 
allegedly responsible for importing more than three metric tons of 
cocaine per month from Colombia into the United States since 2000, 
which is approximately 10 percent of the cocaine available in the 
United States. Cobos Munoz was extradited along with two co-defendants, 
Florentino Riviera-Farfan, aka ``Tarzan,'' and Jorge Ivan Lalinde-
Lalinde, aka ``El Mono.''
            Nayibe Rojas Valderama
    In March 2005, FARC Commander Nayibe Rojas Valderama, aka 
``Sonia,'' was extradited from Colombia to the United States to face 
drug trafficking charges in the U.S. District Court for the District of 
Columbia. Prior to her arrest, Rojas Valderama was allegedly the 
finance officer for the FARC's 14th Front. Rojas Valderama is charged 
in an indictment together with the leader of the 14th Front, Jose 
Benito Cabrera Cuevas, aka ``Fabian Ramirez.'' Cabrera Cuevas is 
allegedly a member of the Central General Staff, the second highest 
governing body of the FARC, and he is the second-in-command of the 
Southern Block which is composed of 12 fronts containing approximately 
600-700 FARC members. Rojas Valderama, Cabrera Cuevas, and two 
international drug traffickers were indicted in December 2003.
            Rodriguez Orejuela Brothers
    Colombian CPOT Miguel Rodriguez Orejuela was extradited from 
Bogota, Colombia, to Miami, Florida, in March 2005. His brother, CPOT 
Gilberto Jose Rodriguez Orejuela, was extradited to the United States 
in December 2004. The Rodriguez Orejuela brothers were allegedly the 
heads of one of the largest cocaine and money laundering organizations 
in Colombia and were key figures in the establishment of a 
sophisticated cocaine trafficking consortium known as the Cali Cartel, 
which has operated since the 1980s. They remain two of the most 
significant Colombian drug traffickers extradited to the United States 
to date.

    Senator Leahy. So eight or nine have been extradited?
    Ms. Tandy. That is my recollection, but I will confirm 
that. I was also told, Senator Leahy, that at 1:30 this 
afternoon, Mexico put on the plane 1 of our top 25 fugitives 
who they have extradited to the United States.
    Senator Leahy. As you know, Colombia is one of the largest 
recipients of U.S. aid. Of the 50 leaders that you have 
charged, the most successful, of course, would be if you get 
all 50 up here. What if you got 40? Would that still be a 
success?
    Ms. Tandy. That would be a tremendous success.
    Senator Leahy. What if you got 30?
    Ms. Tandy. It would be a tremendous success, and I will 
tell you why.
    Senator Leahy. What if you got 20?

 FUERZAS ARMADAS REVOLUCIONARIAS DE COLOMBIA--EJERCITO DE PUEBLO--FARC

    Ms. Tandy. The 50 members of the FARC who are indicted 
decimate the entire leadership of the FARC. So how ever many of 
those----
    Senator Leahy. Only if they are in jail. But if they go 
into an amnesty program and are in Colombia and are allowed to 
go right back out, how does that decimate the FARC? I mean, I 
can see it would decimate it if we bring them up here and put 
them in jail, but that is what I am asking: of that 50, I mean, 
we will probably come back to this next year, but of that 50, a 
year from now, how many do you expect to actually see in the 
United States?
    Ms. Tandy. I cannot answer that, Senator. We certainly have 
had success with our partners in Colombia of getting two major 
FARC members arrested and extradited and here now facing trial. 
I have confidence that we will get more, but I could not 
possibly give you a number.
    Senator Leahy. How many would you expect at this time next 
year if you would consider it to be a success? And I will let 
you designate what a success is. Of the 50, how many would you 
want to see here this time next year so that you could consider 
it a success?
    Ms. Tandy. I would like to see all 50 of them, but I would 
not anticipate that we will succeed in getting all 50 arrested 
and extradited to the United States before I see you next year. 
I just could not give you a number, Senator. Any one of these 
50 are leaders.
    Senator Leahy. Suppose we only had three or four. Would 
that be a success?
    Ms. Tandy. We would consider any one of these 50 leaders of 
the FARC being extradited to the United States a success.
    Senator Leahy. Would it be a success if a large number of 
them went into the amnesty program and were returned to society 
in Colombia?
    Ms. Tandy. I know that those are issues that are 
principally related to the other terrorist organization, one of 
the other two remaining in Colombia, the United Self-Defense 
Force of Columbia (AUC). Those are issues that the State 
Department and the government of Colombia are addressing in 
terms of the parameters of that amnesty.
    Senator Leahy. Well, the parameters of amnesty is a nice 
term, but the fact is every time the Appropriations Committee 
tries to put any kinds of controls on our large amount of 
foreign aid that we actually have to get some of these people 
to come here and not just be given amnesty and turned back, 
your administration objects to that.
    And more and more of these people, the members of the drug 
cartels, the members of the terrorist organizations, the 
members involved with human rights violations, are told they 
can turn over some weapons and rejoin society.
    So I am trying to--and it is like Hotspur in Shakespeare. 
You know, I can call them from the vasty depths; well, so can 
I; so can anybody, but will they come when you call? And it is 
a nice statement. It has been my experience many times with all 
administrations that when law enforcement officials come here 
for appropriations hearings there are usually indictments 
shortly before so they can talk about success.
    I want to know how many are going to come here. Now, of 50, 
you indicted 50. But I wonder if only half a dozen of those 50 
actually come here to face justice, because one does not see 
them really facing it down there.
    Ms. Tandy. Senator, I can tell you that this is not an easy 
case to make. It is very complicated to penetrate the FARC and 
to identify the leaders and to amass the evidence that was put 
together against these 50.
    The counterparts of ours in Colombia have been partners for 
us in this effort, and I have a great deal of confidence that 
if these members of the FARC can be located and arrested that 
we will see them here. The demobilization that you are talking 
about has not been extended to the FARC, to the best of my 
knowledge. DEA is very pleased, very proud of this effort, as 
we were with the return of the founding heads of the Cali 
cartel earlier this year, not before this hearing, as well as 
the other two members of the FARC who were returned and facing 
trial, not before this hearing.
    Senator Leahy. Well, will you have your staff keep me 
informed of when they do come here?
    Ms. Tandy. Yes.
    Senator Leahy. I have been supportive of President Uribe. I 
think he has tried very hard. I have a great deal of admiration 
for him. He and I meet several times a year. But I do worry 
that sometimes, the claims we make are not borne out by the 
facts, and certainly, when I watch what is happening with 
cocaine and meth and all, prices do not go up. Availability 
does not go down, which would be the best example that this 
effort is paying off with the billions upon billions of dollars 
we are spending down there.
    Director Mueller, you and I have discussed the case 
management system. You have expressed your concern to me that 
you feel I have been critical when I should not be. I get 
critical of anybody spending the taxpayers dollars if I do not 
see the results I think I would like to see. I have been just 
as critical of a Democratic administration as a Republican 
administration.

                         VIRTUAL CASE FILE COST

    You scrap the Virtual Case File. It is not just the money 
that was lost, and I realize you recaptured some of it, but it 
was the time that was lost. I still think back, and this was 
not your fault; this came from your predecessors, but I 
remember being down there right after 9/11, and people figured 
out how they could fly pictures of the hijackers around the 
country, and everybody is writing down information on pieces of 
paper, putting them in one file, which is written down by 
somebody else and put in another file, and kids in my 
neighborhood would just e-mail those pictures back and forth to 
each other.

                             SENTINEL COST

    Now, we understand your estimate is that Trilogy's 
successor Sentinel is going to cost the American taxpayers $425 
million to complete. It will not be ready until the end of this 
decade. You set aside $97 million for it this year. You are 
asking for another $100 million for fiscal year 2007. Are you 
confident about the final cost estimate of this program?
    Mr. Mueller. Yes, Senator; let me say at the outset that 
nobody is as harshly critical as I am of the mistakes that were 
made in the past. My concern is that we do not focus on the 
successes of Trilogy in terms of the networks and the modern 
computers that were put on the desks.
    Great work has been done since September 11 in putting 
together the investigative data warehouse, where you have in 
excess of 250 million documents searchable by the latest tools. 
Also, my concern exists because we all want to make this work 
in Sentinel and we will need to have an open mind toward what 
we have undertaken to assure not only the success of this but 
visibility into what we are doing every step of the way.
    And when it comes, then, to your question with regard to 
the cost, the cost is $425 million.
    Senator Leahy. Is that the FBI's estimate, or is that 
Lockheed Martin's estimate?
    Mr. Mueller. No, it is not. It is our estimate. But the 
contract with Lockheed Martin is $305 million. Of that, $232 
million is the development contract, which if you ask, if you 
add the $50 million to $170 million, it is comparable to what 
we were going to spend on Virtual Case File.
    The other monies go to exactly what the GAO, the Inspector 
General, and Congress wants us to do. Preaward was $4 million. 
Program management operations, the program management that we 
have to put into place to make this successful is almost $75 
million. The independent validation and verification is $6 
million.
    Senator Leahy. Who does that?
    Mr. Mueller. Risk management.
    Senator Leahy. Who does that?
    Mr. Mueller. Those are independent contractors who are 
doing that aspect of it. That is not Lockheed Martin. We have 
an independent contractor.
    Senator Leahy. Do you know off hand who that is?
    Mr. Mueller. I do not know off hand.
    Senator Leahy. Could somebody give me that?
    Mr. Mueller. Assuredly.
    Senator Leahy. Thank you.
    [The information follows:]

  Independent Verification and Validation of Sentinel's Implementation

    The FBI is establishing a multi-award Independent 
Verification & Validation (IV&V) contract. At the Department of 
Justice's (DOJ) request, this contract will be made available 
DOJ-wide. The FBI's Financial Division is currently managing 
the preacquisition effort and eventual contract award.
    Until this DOJ-wide contract award is in place, the Office 
of Information Technology Program Management's (OIPM) Program 
Oversight Unit will provide interim IV&V services.

    Mr. Mueller. And so, the package will cost down the road 
$425 million, but the pieces of it are that which we have put 
into place to make certain that it will be successful down the 
road.
    Senator Leahy. So will there be additional funding or 
reprogrammed funds that the FBI will need to complete it?
    Mr. Mueller. Yes, down the road, 2008-2009.
    Senator Leahy. If a reprogramming is required, do you have 
any idea which programs you would shift funds out of?
    Mr. Mueller. No, and my problem last year is that you had 
asked what is the cost of the Sentinel going to be? I could not 
tell you until we had the contract, until we had the bids in 
and identified the ultimate cost for that bid. Now that we have 
the bids in, now that we have the monies, we put aside $97 
million for this year that we had to reprogram. We are asking 
for $100 million next year, and we will be asking in 2008 for 
those sums we need to complete this package.
    Now, the other point I make as well is that we are now part 
of the intelligence community. We are not just law enforcement; 
we are part of the intelligence community. That which we are 
putting together, whether it be Sentinel or any number of our 
other programs that are meant to develop the domestic 
intelligence capacity of the Bureau should be treated as part 
of the intelligence community and perhaps looked to for dollars 
in terms of supporting our intelligence side of the house.
    And so, we will be looking for additional funds for 
Sentinel down the road, but we will also be asking for the 
Congress and others to look at us as not just a law enforcement 
entity but also as an intelligence entity.

                              CHOICEPOINT

    Senator Leahy. There has been a great deal of criticism up 
here by both Republicans and Democrats in both bodies about 
ChoicePoint, and you have entered into a multimillion dollar 
contract with them to handle sensitive investigative data about 
criminal enterprise systems. Did you or anyone in the FBI have 
any discussion with any of the Members of Congress who had been 
raising these concerns, the various chairmen and others, about 
ChoicePoint before entering into that contract?
    Mr. Mueller. I do not believe so, but let me, if I could, 
clarify exactly what we have from ChoicePoint.
    At the outset, let me say that I share your concerns about 
any breaches of privacy by ChoicePoint. As you point out in 
your recent press release, ChoicePoint has been fined by the 
FTC. I have no doubt that the fine was appropriate, that to the 
extent that ChoicePoint----
    Senator Leahy. Trust me, they would have fought it like 
hell if they thought it was too much.
    Mr. Mueller. All I have to say is that to the extent that 
ChoicePoint is liable for those fines or breaches privacy, 
then, they should be treated like any other corporation.
    What we have bought from ChoicePoint is a software package 
that will help our analysts do their jobs. It is a software 
package that has been used not by us but by other 
organizations. It is not a data package. It is a software 
package. It helps our analysts do the job. We would be remiss 
if we did not look at this software package, evaluate it along 
with other software packages and use it if it was the best 
software package----
    Senator Leahy. Who services that?
    Mr. Mueller. I will have to get back to you on that.
    [The information follows:]

             Purchase of Software Package From ChoicePoint

    The FBI awarded a 5-year, fixed-price contract with i2, 
Inc., a subsidiary of ChoicePoint, on 12/1/05. The contract is 
serviced by ChoicePoint.

    Senator Leahy. Would it be ChoicePoint?
    Mr. Mueller. I do not know. I would have to get back to you 
on that. But let me give you another aspect----
    Senator Leahy. You understand the reason I am asking that 
question.
    Mr. Mueller. I do not know, and I will have to get back to 
you on that.
    But let me also indicate that we do seek data from 
ChoicePoint because ChoicePoint has public source data that it 
accumulates, and it is one of those entities that we would be 
remiss if we did not use that capability in certain 
circumstances to identify persons whom we need to locate within 
the United States.
    Go back to the 9/11 Commission report. I have this vague 
memory of it. Midhar and Alhamzi were in the United States, and 
if I am not mistaken, when the 9/11 Commission said we should 
have been on them and utilized tools such as ChoicePoint to 
identify those persons in the United States before they 
undertake this attack. So to the extent that we use ChoicePoint 
or other data accumulation companies, we would again, I would 
say, be remiss if we did not utilize those tools when they are 
accumulating public source data, not private data.
    Senator Leahy. Mr. Chairman, both the Administrator and the 
Director are going to get back to me on a number of things, and 
I will have, if you do not mind, I will have follow up 
questions for them once I have heard their answers.
    Senator Shelby. We will leave the record open.
    I think what the Director is saying, and I believe he is 
right on this, ChoicePoint did have a big breach, but they are 
also known for doing some good things in some certain areas. Is 
that not what you are basically saying?
    Mr. Mueller. They along with other companies----
    Senator Shelby. Right, absolutely.
    Mr. Mueller [continuing]. Have consolidated open source 
data----
    Senator Shelby. Absolutely.
    Mr. Mueller [continuing]. That gives us an easy way to 
obtain information that comes from open sources relative to 
particular investigative leads that we have.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Shelby. We appreciate your cooperation from the 
subcommittee today. I know it has been a long afternoon, but we 
will have some other Senators, Senator Leahy and others, who 
will be asking questions for the record, and we hope you could 
respond to them by May 5.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

               Questions Submitted to Alberto R. Gonzales
            Question Submitted by Senator Richard C. Shelby

            NATIONAL MOTOR VEHICLE TITLE INFORMATION SYSTEM

    Question. We know that by congressional direction the Justice 
Department has funded the NMVTIS (National Motor Vehicle Title 
Information System) program in the past but the funding stream stopped 
in 2004 leaving the majority of states unconnected to a system which 
could dramatically assist law enforcement in their efforts to track 
stolen vehicles. This is a mission which again is gaining attention as 
stolen U.S. cars have surfaced in terrorist bombings in Iraq, a 
particular concern when it comes to protecting our troops in the Green 
Zone.
    NMVTIS could also be helpful in tracking more than a half million 
vehicles, including school buses, flooded or damaged by hurricanes 
Katrina and Rita. Some of these have been driven to other states, re-
titled as ``clean vehicles'' and sold to unsuspecting customers.
    Has the Justice Department given any thought or consideration to 
reviving the NMVTIS program in order to connect all the states, so we 
have a better way to stop these vehicles from falling into the wrong 
hands?
    Answer. The Department of Justice (DOJ) shares your concern 
regarding the continuing problem of auto theft. This past March, the 
Department's Bureau of Justice Assistance (BJA) convened a focus group 
to discuss this issue. The group, which was comprised of 
representatives from federal, State, and local law enforcement, 
insurance corporations, and NMVTIS staff, agreed that the NMVTIS 
program is an important asset in reducing auto theft.
    While the Attorney General delegated responsibility to the Federal 
Bureau of Investigation (FBI) to oversee the implementation of the 
NMVTIS system, BJA has provided over $12 million in funding for NMVTIS 
since fiscal year 1997. BJA has been working closely with anti-fraud 
components within DOJ and with the FBI to assess the status and need 
for NMVTIS. Additionally, BJA engaged the Integrated Justice Systems 
Institute (IJIS) to assess NMVTIS' current technological architecture 
and has discussed with States how the system could be improved to 
encourage greater participation. These discussions and reviews are now 
complete and BJA will be working closely with the American Association 
of Motor Vehicle Administration, the FBI, and other law enforcement 
entities to make any necessary changes to the system, to improve the 
administration of the overall title information sharing effort, and to 
increase State and local law enforcement participation. A key aspect of 
any new approach will be to implement the ``self-sustaining'' aspect of 
the original authorizing legislation, which called for the States to 
support the system through user fees.
    BJA will also continue to address the costly problem of auto theft 
through various other efforts. This month, the FBI and BJA are 
convening a meeting of southwestern federal, State, and local law 
enforcement agencies to discuss the problem of vehicles being stolen in 
the United States and taken to Mexico. Intelligence and recent arrests 
indicate that Mexico is a prime location for cloning (replacing vehicle 
identification numbers of stolen vehicles with those of legal vehicles 
for resale), chopping (vehicles dismantled for parts), and foreign 
order fulfillment. We anticipate that this meeting will foster closer 
working relationships among agencies working the Mexico border and 
identify areas where the Department can provide assistance.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici

                JUDICIARY NEEDS ON INTERNATIONAL BORDERS

    Question. Federal Judges serving in districts located on the 
southern international border have caseloads with an increasing number 
of immigration related matters. According to the Administrative Office 
of the Courts, for fiscal year 2004 my home state of New Mexico had 
1,502 immigration filings and 2,497 total criminal filings. Compare 
that to a northern border district--the Western District of Washington 
had 78 immigration filings and 539 total criminal filings.
    As we continue to work to secure our nation, we must be sure that 
we adequately equip all of the agencies involved in this fight, 
including the federal courts that must prosecute immigration related 
charges. I fear that we are not focusing on agencies outside of the 
Department of Homeland Security and their need for funding, as I have 
heard from New Mexico judges that their resources are insufficient to 
meet their increasing immigration-related caseloads.
    Additionally, I am afraid our Southwest border district courts will 
be unable to handle the increased immigration caseload that is sure to 
result from increased enforcement efforts without new judges.
    Can you speak to the crisis southwest border courts like Arizona 
and New Mexico face?
    Answer. The five judicial districts that comprise the Southwest 
border make up a significant percentage of the total workload for 
Department of Justice components such as the U.S. Marshals Service 
(USMS) and the U.S. Attorneys' Offices (USAOs). In the USAOs, 68 
percent of all immigration cases occur on the Southwest border--12,318 
immigration cases were filed in the Southwest border districts out of a 
total of 18,147 immigration cases filed nationwide in 2005.
    In fiscal year 2005, 31 percent of all prisoner productions 
(transporting a prisoner to a judicial proceeding) by the USMS were in 
the five Southwest border districts; there are 94 districts nationwide. 
Ten percent of all USMS prisoner productions were in Arizona and New 
Mexico in fiscal year 2005. In addition to court proceedings, the 
Southwest border districts have an enormous warrant workload. In fiscal 
year 2005, 21 percent of all Class I fugitive warrants (federal felony 
warrants and DEA warrants) were issued by federal judges working in 
Southwest border districts. Six percent of all Class I fugitive 
warrants were issued by federal judges in Arizona and New Mexico in 
fiscal year 2005.
    Question. What resources are being marshaled by the Department of 
Justice to assist federal courts faced with increasing caseloads due to 
our successful efforts to secure our country?
    Answer. Judicial security is one area where the Department of 
Justice can directly assist federal courts. The USMS strives to place 
its personnel in those districts with the greatest amount of workload. 
In fiscal year 2005, the USMS received 94 new Deputy U.S. Marshals for 
judicial security work in the districts. Of this amount, 34 percent (or 
32 Deputy U.S. Marshals) were allocated to the five Southwest border 
districts. The Department of Justice is providing significant 
resources, in the form of judicial security, to assist federal courts 
along the Southwest border. The Department has approved significant 
resource allocations to the United States Attorneys Offices along the 
Southwest border in recognition of increasing workload demands in a 
number of areas, most notably antiterrorism (border security), 
immigration and narcotics enforcement.
    Question. What other needs does the Department of Justice have on 
our international borders--is there a need for more Assistant U.S. 
Attorneys, Deputy U.S. Marshals, and/or Bureau of Prisons personnel?
    Answer. The 2007 President's Budget for the Department of Justice 
requests resources to fund additional Assistant U.S. Attorneys (AUSAs) 
and Deputy U.S. Marshals:

                         [Dollars in thousands]
------------------------------------------------------------------------
   Requested Fiscal Year 2007 Program
               Increases                 Positions     FTE       Amount
------------------------------------------------------------------------
U.S. Attorneys.........................        149         75    $23,205
U.S. Marshals Service..................         66         33     13,619
------------------------------------------------------------------------

    In addition, the budget request for the USAOs and USMS include 
$58.6 million and $57.7 million respectively for adjustments-to-base 
increases to cover rising pay, benefits and overhead costs. These 
additional resources, if fully funded, will be allocated based on 
Departmental priorities, and the latest workload and budgetary data 
available at the time of enactment.
    By way of background, the USAOs in the five districts along the 
Southwest Border are at the forefront of the Department's efforts to 
stem the tide of illegal immigration and drug trafficking. Between 
fiscal year 1998 and fiscal year 2005, a total of 97 new Assistant 
United States Attorneys positions were allocated to the five Southwest 
Border districts. These additional resources have helped to play a part 
in increasing the number of criminal immigration cases filed in the 
five Southwest Border districts by over 55 percent between fiscal year 
2000 and fiscal year 2005--from 7,942 to 12,318 cases filed.
    Question. Besides creating new district judgeships for border 
courts and providing more funding for these courts, what else can 
Congress do to assist the federal border courts that are in a situation 
the Judicial Conference has called a crisis?
    Answer. From time to time, the Department of Justice submits 
legislative proposals to the Congress that address a wide range of 
legal issues including those affecting the courts. Those proposals are 
the most effective avenue for responding to such a question. However, 
it is clear that as the judicial staffing and workload of the courts 
expand, the space, personnel and funding resources needed for 
Department of Justice components such as the USMS, USAOs and Bureau of 
Prisons also expands.

                       MENTAL HEALTH COURT NEEDS

    Question. The Department of Justice has estimated that 16 percent 
of all inmates in local and State jails suffer from a mental illness, 
and the American Jail Association estimates that as many as 700,000 
persons suffering from a mental illness are jailed each year. In New 
Mexico, we know the impact that such persons can have; on August 18, 
2005, a diagnosed schizophrenic shot five people to death in the space 
of 16 hours, including the two police officers who were sent to pick 
him up for a mental evaluation.
    In response to cases like this, America's Law Enforcement and 
Mental Health Project Act created Mental Health Courts with separate 
dockets to handle cases involving individuals with mental illnesses. 
Bernalillo County's Mental Health Court in New Mexico was created in 
2003 and ninety-two percent of its graduates are not arrested again. 
The $500,000 Congress provided for this court in fiscal year 2006 is 
expected to double the number of people the Bernalillo County Mental 
Health Court serves over the next two years.
    With success rates like this for such small sums of money, I 
believe this is an innovative approach to address the needs of those 
individuals suffering from mental illnesses that come into contact with 
the judicial system.
    How much does the Department of Justice propose spending on mental 
health courts in fiscal year 2007?
    Answer. There is not a dedicated funding line for Mental Health 
Courts in the fiscal year 2007 budget. The Office of Justice Programs 
(OJP) is working with federal partners, including the National 
Institute of Corrections, to develop a coordinated strategy for the $5 
million appropriated in fiscal year 2006 for the Mentally Ill Offender 
Act.
    Question. Do you have any suggestions on how we might otherwise 
help individuals who are charged with a non-violent crime and who 
suffer from a mental illness?
    Answer. Partnerships with criminal and juvenile justice agencies 
provide mental health agencies unique opportunities for early 
identification, diversion from prosecution to treatment, enhanced 
supervision and case management. Recent innovations in collaborative 
approaches, the use of assessment tools, targeted approaches, and 
appropriate interventions have shown promise in the areas of law 
enforcement, courts, and corrections. Mental health courts, an example 
of this innovative and collaborative approach, provide the voluntary 
opportunity for non-violent offenders to participate in court-
supervised, community-based treatment. As in Bernalillo County, these 
efforts include continued judicial supervision and the coordinated 
delivery of health and social support services. Initial evaluations of 
mental health courts have shown that they result in fewer jail bookings 
and jail time, a greater number of treatment episodes, an increase in 
the frequency and volume of treatment services, and a reduction in drug 
use and psychological distress in participants, as compared to 
traditional misdemeanor defendants.
    During the last few years, OJP has been engaged in collaboration 
with other federal agencies to coordinate activities related to 
offenders with mental health issues. Many activities have been 
consistent with the recommendations of the President's New Freedom 
Commission and have also been formed in relation to the recommendations 
developed in OJP's Bureau of Justice Assistance's (BJA) Mental Health 
Consensus Project. Current areas of collaboration include coordination 
of Substance Abuse and Mental Health Services Administration's Targeted 
Jail Diversion program and BJA's Mental Health Courts Program. In 
fiscal year 2005, OJP expanded efforts into training law enforcement to 
assess and build partnerships in mental health.
    In fiscal year 2006, BJA received a $5 million appropriation to 
begin implementing the Mentally Ill Offender Treatment and Crime 
Reduction Act (Public Law 108-414). This funding supports critical 
efforts to build State, local and tribal capacity to better understand 
and address individuals with mental illness, who also often face 
substance abuse and other public health issues. This program is 
designed to increase public safety through innovative cross-system 
collaboration for individuals with mental illness who come into contact 
with the criminal and juvenile justice systems. It will encourage early 
intervention for system-involved individuals with mental illness; 
provide new and existing mental health courts with various treatment 
options; maximize diversion opportunities for non-violent offenders 
with mental illness and co-occurring disorders; promote training for 
justice and treatment professionals on court processes and mental 
health and substance abuse issues; and facilitate communication, 
collaboration, and the delivery of support services among justice 
professionals, treatment and related service providers, and 
governmental partners. These efforts will help individuals who are 
charged with a non-violent crime and who suffer from a mental illness.
                                 ______
                                 
          Questions Submitted by Senator Kay Bailey Hutchison

                      INTERGOVERNMENTAL AGREEMENTS

    Question. It is my understanding that some of the local West Texas 
communities, who stand to lose their contracts under the CAR 6 Project, 
issued long term municipal bonds to pay for expansion of their jails 
when the DOJ's sought additional bed-space years ago. It is also my 
understanding that Texas law required these local communities and then 
Texas Attorney General--my Senate colleague Senator John Cornyn--to 
first perform a ``due diligence'' review of the need for the issuance 
of these bonds. Did the DOJ assure these local communities that the 
Federal government's need was long term?
    Answer. Each Intergovernmental Agreement (IGA) is for three years 
only. There has been no contractual commitment by the Bureau of Prisons 
(BOP) beyond the IGA terms.
    Question. Further, it is my understanding that this Subcommittee, 
the CJS Appropriations Subcommittee, directed the Government 
Accountability Office (GAO) in the fiscal year 2006 CJS Appropriations 
Report to conduct a cost benefit study of agreements with local 
governments to house federal inmates. Has that study been completed? If 
not, why is it not more prudent to renew the agreements with these West 
Texas communities pending the results of the GAO cost study? 
Furthermore, the 2006 Appropriations Conference Report encouraged the 
Bureau of Prisons to expand the use of Intergovernmental Agreements. 
Why is DOJ moving to eliminate these large Intergovernmental Agreements 
in Texas, contrary to the directives of Congress and the President?
    Answer. The GAO study has not begun. All four agreements expire in 
early 2007 (January-April), and provide the opportunity to conduct a 
full and open competition for contracts in order to provide for the 
best value for the BOP and taxpayers. The BOP uses IGAs when 
appropriate and when the need exists. As of April 2006, BOP has 68 IGAs 
with State, county, and local governments throughout the country to 
provide about 800 beds. The fiscal year 2006 Conference Report also 
states: ``The BOP is encouraged to solicit proposals in a manner that 
allows for an optimal level of competition so that BOP's [bedspace] 
requirements can be met and the best value achieved.''
    The four agreements with the Texas local governments differ from 
other IGAs in that they are for the entire facility and are all managed 
by private companies; in one case the private company owns the prison 
facility. The private contractors hire and fire staff and are 
responsible for the daily operations of the prison. Each local 
government is like a ``silent partner'' generally removed from the 
daily operations at the facilities.
    Question. It is also my understanding that the CAR 6 Project will 
not result in any new bed-space for the DOJ, is this correct? As a 
follow up, if the CAR 6 Project will not result in new bed-space, why 
is the CAR 6 Project a prudent use of federal tax dollars?
    Answer. The CAR 6 Project will not result in any new BOP bed-space. 
However, by conducting a full and open competition, the BOP 
requirements can be met and the best value achieved including price and 
quality of service. In addition, the contracts will be for up to ten 
years which allows the BOP to ``lock-in'' pricing for the next ten 
years, thus assisting with budget projections and avoiding 
renegotiation of terms every three years. Full and open competition 
provides for a competitive market that assists in controlling prices.
    Question. Finally, has DOJ considered the long-term impact of the 
CAR 6 Project? Other agencies in your Department, including the U.S. 
Marshals Service, as well as the Department of Homeland Security 
utilize local governments agreements for correctional or detention 
purposes. If the CAR 6 Project causes these local Texas communities to 
go bankrupt or suffer significant financial hardship, I imagine other 
local governments will avoid partnering with the Federal Government, 
for fear of suffering the same fate as these West Texas local 
governments.
    Answer. Yes, the DOJ has considered the long-term impact of CAR 6 
and its benefits to both the Bureau and the taxpayers. All current 
providers under the Texas IGAs have the opportunity and have been 
encouraged to submit competitive proposals under the CAR 6 
solicitation. The BOP will consider multiple awards under the CAR 6 
solicitation. The BOP has an outstanding relationship with state and 
local governments throughout the United States using their available 
bed space for short-term needs, and we plan to maintain that working 
relationship.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy

                  COMPETITION AND INTERNATIONAL TRADE

    Question. There is a great deal of concern across the country that 
some of our trading partners don't always play fair, and that the U.S. 
Government needs to do more to protect the interests of U.S. businesses 
and workers. One issue that is of growing concern is the prospect of 
foreign countries using their competition laws to advance industrial 
policy goals in ways that prevent U.S. companies from competing fairly, 
or penalizing U.S. firms for conduct that is entirely legal under U.S. 
law. This problem is only going to grow as countries such as China ramp 
up their antitrust enforcement while looking for new ways to insulate 
local industries from U.S. competition.
    I know the United States has antitrust cooperation agreements with 
a few of our trading partners, but problems persist, and I don't see 
things getting any better without a more active role by your 
Department. Is the Antitrust Division prepared to step up its efforts 
to dissuade foreign governments from pursuing competition policies or 
imposing penalties that create barriers to trade? Do you agree that the 
time has come for the Administration to establish a standing 
interagency committee to address these problems as they arise?
    Answer. The Department, through its Antitrust Division, advocates 
around the world for antitrust enforcement based on rigorous legal and 
economic analysis, with the goal of promoting consumer welfare by 
preserving competition. We oppose any agency misusing antitrust to 
defend a country's own home companies or exclude competitors from other 
nations. The Division aggressively pursues international coordination 
and cooperation and substantive and procedural convergence around these 
principles, and these efforts will continue to be an important 
priority. The Division is working in international fora, including the 
International Competition Network and the Organization for Economic 
Cooperation and Development, as well as on a bilateral level with many 
foreign antitrust authorities, including the European Commission, both 
generally and on specific matters.
    The Department also takes an active role in negotiating free trade 
agreements. Beginning with NAFTA in 1994, the United States has 
negotiated provisions relating to antitrust enforcement and to conduct 
of official monopolies and state enterprises in a number of free trade 
agreements--including those with Chile, Singapore, and Australia--where 
we have taken the lead role in negotiating such provisions. These 
provisions help to ensure that the opportunities created by trade 
liberalization are supported by competitive domestic markets. The 
Department of Justice works with other parts of the Administration, 
including the United States Trade Representative (USTR) and the 
Departments of State and Commerce, on these agreements and other 
competition issues as appropriate, and at this stage I believe that it 
is the most effective way to handle these competition issues.
    Question. I am aware that the Department of Justice has competition 
comity agreements with several of our trading partners, including the 
EU. Nonetheless, it remains the case that EU authorities sometimes 
reach results or impose penalties that conflict with our own--the 
proposed GE/Honeywell merger and the Microsoft case are two recent 
examples. Beyond the immediate impact on U.S. companies operating in 
Europe, I worry that competition authorities in other countries, such 
as China, will view this divergence as a justification to pursue even 
more radical measures against U.S. multinationals, particularly if they 
can give a helping hand to their own industries by doing so.
    Can you assure this Committee that the Department will put more 
effort into promoting U.S. antitrust policies around the globe and 
avoiding situations where U.S. companies are subject to one set of 
rules or remedies here, and an entirely different set elsewhere? Is the 
Department prepared to engage more energetically with the European 
Commission to resolve ongoing disputes and divergence in this area?
    Answer. With the globalization of markets, it is increasingly 
important that antitrust enforcers around the world base their 
enforcement decisions on sound legal and economic analysis. Antitrust 
laws should protect competition, not competitors. Antitrust laws should 
not be used to defend a country's own home companies or to try to 
exclude competitors from other nations. We are working with many 
foreign antitrust agencies in a variety of contexts, including the 
International Competition Network and the Organization for Economic 
Cooperation and Development, to achieve international consensus on 
sound antitrust enforcement. Those efforts are important, and we will 
continue to devote significant resources to those efforts.
    The Department also works closely with foreign antitrust agencies, 
particularly the European Commission, in order to achieve the greatest 
possible coordination with them on particular matters. Divergent 
outcomes can sometimes occur due to different legal regimes or 
different factual circumstances in different countries. When divergent 
outcomes do occur, we work with our foreign counterparts to minimize 
that divergence and to lessen the possibility of divergence in the 
future. The Department will continue to place a high priority on 
pursuing greater coordination and substantive and procedural 
convergence on antitrust issues with foreign antitrust agencies, at 
both the staff and policy levels, to limit the risk of significantly 
divergent outcomes in particular cases.
    Much of the work of minimizing duplication and divergence will 
continue to be done bilaterally, often on a case-specific basis. Cases 
like GE/Honeywell and Microsoft, though rare, understandably attract 
public attention and concern. But in most instances, we are succeeding 
in working very well with dozens of antitrust agencies around the world 
on particular merger and cartel matters with the goal of getting sound 
and consistent results. In the particular case of the European 
Commission, close collaboration has enabled us to achieve consistent 
results in several recent matters on both the determination of a 
violation and, where necessary, the remedy.
    In fact, there has been considerable convergence in recent years in 
both civil and criminal antitrust enforcement around the globe. Many 
jurisdictions are now making increasing efforts to combat cartels, 
which the U.S. Supreme Court has called ``the supreme evil of 
antitrust.'' Many jurisdictions have revised their merger process and 
enforcement policies, reducing complexity and business costs and 
bringing them into closer harmony with the U.S. merger review 
practices. These are good starts, but this is an ongoing effort, and it 
will remain a high priority for the Department.
    Question. U.S. antitrust policy is one of the principal tools used 
to promote free and open markets. Antitrust law should play the same 
role internationally by opening markets and removing barriers to trade. 
In nations where free market principles are not as fully developed as 
in the United States, however, competition law can play a more 
equivocal role--sometimes opening markets, but sometimes protecting 
local firms from U.S. competition. I understand that U.S. industry has 
raised precisely this concern with respect to Korea, where the 
competition authority has been aggressive in pursuing leading U.S. 
firms, even while local Korean conglomerates, or chaebol, continue to 
restrict competition in certain markets. Similar concerns have been 
voiced with respect to China, which is well on its way to adopting an 
anti-monopoly law that many fear will be used as a weapon against U.S. 
exports, technology, and investment.
    American companies and workers need the Department of Justice's 
help to prevent our trading partners from using competition law as a 
trade tool. Is the Department prepared to become more active in 
advancing U.S. interests in this area? Will the Department support 
adopting stronger competition commitments in U.S. free trade 
agreements?
    Answer. Antitrust laws should promote competition; they should not 
be used to defend a country's own home companies, or to try to exclude 
competitors from other nations. That is why it is critical that we work 
to ensure that other enforcers around the world rely on sound economics 
as the basis for antitrust enforcement. This is a priority in building 
our relationship with the South Korean antitrust agency, as in all our 
international competition policy efforts. It is important that burdens 
and inefficiencies that divergences in competition policy and antitrust 
enforcement create for United States companies operating in 
international markets be as low as possible, and the Department is 
working hard to achieve that end. Coordination and substantive and 
procedural convergence on antitrust must continue to be a high priority 
for the Department. The Department has been working with many foreign 
antitrust agencies in a variety of contexts, including the 
International Competition Network, the Organization for Economic 
Cooperation and Development, and bilaterally, both generally and on 
particular matters.
    The Department also supports strong competition commitments in free 
trade agreements. The United States has negotiated provisions relating 
to antitrust enforcement and to conduct of official monopolies and 
state enterprises in a number of free trade agreements, including those 
with Chile, Singapore, and Australia. These provisions help to ensure 
that the opportunities created by trade liberalization are supported by 
competitive domestic markets in foreign countries. The Department of 
Justice works cooperatively with other parts of the Administration, 
including the United States Trade Representative (USTR), the Department 
of State, and the Department of Commerce, on these agreements.
 office of the inspector general cops methamphetamine initiative audit
    Question. In March 2006, the Department of Justice (DOJ) Office of 
the Inspector General (OIG) released its final audit report on the 
Community Oriented Policing Services (COPS) Methamphetamine (Meth) 
Initiative grant program. One of the targets of the audit was the 
Vermont State Police and the Vermont Drug Task Force. I am deeply 
concerned that DOJ is now attempting to contest how the Task Force used 
funds from the grants.
    The COPS Office has consistently approved the Vermont State Police 
grant applications to the COPS Methamphetamine Initiative grant program 
each year since 2001 with explicit knowledge that the money would be 
used primarily for fighting heroin abuse. I therefore object to DOJ now 
contesting how the funds were used and requesting that the contested 
sum be returned. The loss of $1.2 million would have a devastating 
effect on a small state such as Vermont and undo the progress and 
successes that have been accomplished in the last five years.
    I request that the Department of Justice stand behind its grant 
decisions and allow funds that have been used in the way the COPS 
Office approved them to be used to remain in the state. I further 
request your cooperation in resolving this situation.
    What are your suggestions for reaching a satisfactory solution?
    Answer. The COPS Office has been working closely with the Vermont 
State Police to obtain additional documentation surrounding the 
contested costs. The Vermont State Police have not been asked to return 
any grant funding, and COPS currently has no intention of making such a 
request. The COPS Office will continue to work with the Vermont State 
Police to close all audit recommendations as quickly as possible and 
work to ensure that expenditures made by the agency have been 
consistent with guidance issued by the COPS Office. If any expenditures 
are ultimately determined to be unallowable, whenever possible the COPS 
Office remedies such situations by allowing the grantee to use the 
funds in a manner which furthers the purposes of the grant, rather than 
through repayment of grant funds.
    Question. What steps will you take to work with the Vermont State 
Police and my office in achieving this goal?
    Answer. The Vermont State Police is currently in the process of 
compiling information requested by the COPS Office to demonstrate the 
expenditures under their grants. Once documentation has been submitted, 
the COPS Office will work closely with the agency to remedy the current 
situation, and will always remain available to address any questions or 
concerns regarding this audit. The COPS Office will be sure to inform 
your office of any significant developments that may arise during the 
process.

                          JUSTICE FOR ALL ACT

    Question. In the fiscal year 2006 CJS Appropriations conference 
report, Congress appropriated $1 million for improving the quality of 
representation in state capital cases authorized under the Innocence 
Protection Act (IPA), which was including as Title IV of the Justice 
for All Act, Public Law 108-405. The final authorizing language for the 
IPA reflects nearly five years of work--there were multiple hearings in 
both Houses, we studied the problem, we considered the alternatives, we 
agreed on a result. The program is aimed at helping states establish 
effective systems for appointing counsel in death penalty cases, and 
incorporates essential elements of the ABA's guidelines.
    What has the Justice Department done to date to administer this 
program, as authorized?
    Answer. In fiscal year 2006, Congress appropriated $1 million for 
capital litigation-related programs. Given this level of funding, it 
was not possible for OJP to enact the full range of activities outlined 
in the Innocence Protection Act (which provides authorization for up to 
$75 million to carry out the programs outlined in these sections).
    The Office of Justice Programs' Bureau of Justice Assistance (BJA), 
which administers the Capital Litigation Improvement Program, convened 
a multi-disciplinary focus group of national, state, and local 
practitioners in early 2005 to develop a program plan for more 
effective systems for death penalty cases. This group identified a 
substantial need for sound curriculums, training, and technical 
assistance as an important priority for any effort to improve capital 
case litigation at the State and local level.
    Based on these findings, BJA determined that the most effective way 
to advance the goals underlying the Innocence Protection Act in regard 
to capital case litigation was to focus the limited resources available 
on the development of model training programs for capital case 
prosecutors, defense counsel and judges. Accordingly, awards were made 
to three organizations--the National District Attorneys Association 
(NDAA), National Judicial College (NJC), and National Legal Aid and 
Defenders Association (NLADA)--to develop appropriate training programs 
for prosecutors, judges and defense attorneys (respectively).
    Program deliverables completed include: (1) the development and 
implementation of curriculums at the State level, one for each of the 
three disciplines (prosecution, judiciary and defense); (2) sub-grants 
for curriculum delivery; and (3) technical assistance at the national 
level for death penalty inquiries from the states. The curricula--
adaptable to incorporation of state statutes and death penalty 
constitutional law--focus on investigation techniques; pretrial and 
trial procedures, including the use of expert testimony and forensic 
science evidence; advocacy in capital cases; and capital case 
sentencing-phase procedures.
    During fiscal year 2006, the NDAA has provided training to 
approximately 125 prosecutors in Arkansas, Florida and Georgia; an 
upcoming training for 30 prosecutors will be held in Nevada. The NJC 
has trained approximately 150 judges in Arkansas, Virginia, North 
Carolina, Texas and Pennsylvania. The NLADA has sponsored training 
events in California, Texas, South Carolina, and Illinois which have 
reached approximately 140 defense attorneys. NDAA, NJC, and NACDL will 
continue to support the delivery of additional state trainings in 
fiscal year 2006. The program will also help maintain clearinghouses 
and websites offering capital case litigation materials.
    Question. If the Justice Department has not yet acted to administer 
this program, then what is the delay? Is the Department trying to 
reinvent the wheel with a new training program rather than following 
through on the bipartisan program that Congress worked out and 
President Bush signed into law?
    Answer. Implementation of the full capital litigation improvement 
program outlined in the Innocence Protection Act (IPA) is not possible 
without a significant increase in funding or the diversion of 
significant resources from other high-priority OJP programs through 
reprogramming. With only $1 million available, BJA determined that 
development of model training programs was the most realistic and 
practical option for advancing the goals of the IPA.
    Question. Secondly, on several occasions when you have testified 
before both this subcommittee and the Judiciary Committee, you assured 
me that you would work to ensure the successful implementation of the 
Justice For All Act. However, in the President's budget request for 
fiscal year 2006 and again for fiscal year 2007 the President has 
proposed funding a capital litigation program vastly different than 
that authorized by law.
    So once again I must ask the following: Will you pledge to work 
with me and the Appropriations Committees to ensure not only adequate 
funding but also the successful implementation of the Innocence 
Protection Act, as authorized by the Justice For All Act?
    Answer. The President and the Department share the goal of behind 
the Justice For All Act of ensuring that the best possible lawyers are 
available to litigate capital cases, but we believe the President's 
training initiative is more cost-effective, better at building 
capacity, and far less expensive than the authorized program. Under the 
authorized program, before any training could take place, States would 
have to qualify for the program, and to do so most would have to enact 
changes to their laws, delaying the onset of training. In addition, 
because of the burdens imposed by the law on States in order for them 
to receive the funds, we do not believe many States would opt to seek 
the funds, especially given the relatively modest sums that would be 
available to each participating State. While the sums available to each 
State would be relatively modest, the overall authorize level of 
funding under the Justice For All Act is beyond the Department's 
budgetary capacity at this time. Therefore, the Department will 
continue to seek to implement the capital-counsel training program 
announced by the President.
    Question. A report issued by the Government Accountability Office 
on April 4, 2006, found that the Justice Department, which uses private 
information services for law enforcement, counterterrorism and other 
investigations, often does not follow federal rules to protect 
Americans' privacy. According to the report, the Justice Department, 
and three other federal agencies examined by the GAO spent about $30 
million last year on companies--such as Choicepoint--that maintain 
billions of electronic files about adults' current and past addresses, 
family members and associates, buying habits, personal finances, listed 
and unlisted phone numbers, and much more.
    Do you agree with the GAO's findings in this report?
    Answer. The Department of Justice (DOJ) recognizes the important 
issues presented by the Government Accountability Office (GAO) report 
and agrees that additional measures could be taken regarding its use, 
in the form of revised or additional guidance and policy. However, the 
DOJ already places great importance on compliance with existing federal 
rules aimed at protecting Americans' privacy, namely the Privacy Act of 
1974 (5 U.S.C.  552a).
    When Congress enacted the Privacy Act, it recognized the fact that 
government operations are widely varied (including such activities as 
law enforcement and intelligence). Therefore, the Privacy Act 
incorporated some, but not all, of the Fair Information Practices by 
allowing agencies to exempt themselves from certain requirements of the 
Privacy Act. (The Fair Information Practices were first proposed in 
1973 by a U.S. government advisory committee and were widely accepted 
as including collection limitation, data quality, purpose 
specification, use limitation, security safeguards, openness, 
individual participation, and accountability.) For example, pursuant to 
regulations, criminal law enforcement records may be exempted from the 
Privacy Act's requirement that an agency make reasonable efforts to 
assure that a record is accurate, complete, timely, and relevant for 
agency purposes before disseminating that record to someone other than 
an agency or pursuant to FOIA. Therefore, the GAO should not have 
focused on whether agencies were satisfying all of the Fair Information 
Practices, because not all of the Fair Information Practices are 
incorporated into the Privacy Act. The more appropriate metric should 
be whether an agency has met the requirements of the Privacy Act.
    For this reason, DOJ believes that prior to the issuance of any new 
guidance or policy, a careful analysis and assessment of the degree of 
need for any new guidance should be conducted. That assessment should 
take into account agency resources, competing mission priorities, and 
the privacy protections already in place as a result of DOJ's 
compliance with the Privacy Act of 1974 (5 U.S.C.  552a).
    Question. What steps is the Justice Department taking to address 
the privacy concerns raised in this report and to protect the privacy 
interests of law-abiding Americans?
    Answer. As indicated in response to subpart A, above, DOJ complies 
with the requirements of the Privacy Act, which prohibits the 
disclosure of protected information in the absence of a statutorily 
provided exception. In addition, DOJ has appointed its own Chief 
Privacy and Civil Liberties Officer (CPCLO) and the CPCLO has 
established a Privacy and Civil Liberties Board with three 
subcommittees: Outreach; Data Collection, Aggregation, and Maintenance; 
and Law Enforcement and National Security. The Data Collection 
Subcommittee has held its first meeting and established its initial 
task, which is to survey the Department's use of reseller data and then 
to develop a policy for the DOJ that will be informed by the 
Department's use of that information and by existing legal protections. 
Such a policy will include appropriate oversight mechanisms. The CPCLO 
has also mandated DOJ-wide compliance with the Privacy Impact 
Assessment (PIA) process established by the E-Government Act and will 
be the final approving authority for PIAs on all major record systems. 
The CPCLO recently issued guidance to the DOJ regarding PIAs. This 
guidance requires components to consider the privacy concerns of all 
information in identifiable form, including information received on a 
systematic basis from data resellers, in developing and maintaining 
computer systems that collect such information.
    The FBI has also appointed a Privacy and Civil Liberties Officer 
and uses the E-Government PIA process to evaluate privacy in major 
record systems prior to system implementation. The PIA process requires 
that the system sponsor or developer conduct a thorough, written 
analysis of the impact on privacy that will result from the creation of 
a proposed system prior to the system's implementation. The FBI 
assesses both impacts attributable solely to the proposed system and 
the cumulative impacts arising from the proposed system's interface 
with existing systems. The PIA provides senior FBI management officials 
with an assessment of a major new system's impact on privacy before the 
system becomes operational. The FBI PIA process includes a review of 
major systems by the FBI Privacy Council, a group composed of 
representatives from several FBI divisions, as well as the FBI Senior 
Privacy Official.

           CUTS TO STATE AND LOCAL LAW ENFORCEMENT ASSISTANCE

    Question. States, counties and communities nationwide continue to 
be overwhelmed by increasing homeland security mandates from the 
Federal government. The President often says that he wants to ensure 
that our State and local police receive the resources necessary to do 
the job the American public expects them to do, but then he goes and 
proposes a $1.309 billion, or 52 percent, in overall cuts to funds for 
assistance programs that have a proven track record and are primarily 
designed to assist state and local law enforcement agencies carry out 
their day-to-day public safety duties.
    The Administration proposes to slash funding for Community-Oriented 
Policing Services (COPS) by $161.2 million, or 61 percent, leaving it 
at $102.1 million. Programs targeted for elimination included the COPS 
Law Enforcement Technology Program, as well as drastic reductions in 
equipment and support staff grants that State and local police 
departments depend on to carry out their crime-fighting duties. This 
budget would also reduce by $23.3 million, or 37 percent, COPS 
Methamphetamine Enforcement and Clean-Up for state and local law 
enforcement programs to combat methamphetamine production and 
distribution, to target drug ``hot spots,'' and to remove and dispose 
of hazardous materials at clandestine methamphetamine labs.
    The President's proposed budget would eliminate all Byrne JAG 
funding. This grant program, which Congress funded at $327.2 in fiscal 
year 2006, provides vital funding to States to improve the functioning 
of the criminal justice system, with emphasis on violent crimes and 
serious offenders, and to enforce State and local drug laws. In the 
recently enacted Violence Against Women and the Department of Justice 
Reauthorization Act of 2005 (Public Law 109-162), which the President 
signed into law on January 5, 2006, Congress codified the Byrne 
Memorial Justice Assistant Grant Program, and authorized funding for it 
at over $1 billion.
    Given the President's rhetoric expressing support for our State and 
local law enforcement, how does DOJ justify cutting funds to the highly 
successful and effective COPS Program and the Byrne Memorial Justice 
Assistance Grants?
    If the President's budget were followed, how would the Justice 
Department propose to address the needs of State and local police 
departments that are currently met by the COPS Program and the Byrne 
Memorial Justice Assistance Grants?
    Answer. In order to focus departmental resources on 
counterterrorism, which is and must be the Department of Justice's 
(DOJ) overriding priority, the Administration was required to make 
difficult choices in this budget proposal.
    The President's fiscal year 2007 budget proposal recognizes the 
Federal government's responsibilities in regard to supporting effective 
law enforcement and improving the nation's criminal justice system. If 
approved as proposed, the President's fiscal year 2007 budget will 
provide over $1.2 billion to State, local, and tribal law enforcement 
through the U.S. Department of Justice. This includes $66.6 million to 
strengthen communities through programs providing services such as drug 
treatment; $88.2 million to combat violence, including enhancements to 
Project Safe Neighborhoods; and $209 million to support drug 
enforcement, including funding to continue and expand the Southwest 
Border Drug Prosecution Program. The initiatives included in this 
proposal were selected by concentrating scarce resources on the highest 
priority criminal justice issues; promoting effective, evidence-based 
approaches to improving law enforcement and criminal justice system 
capabilities; and eliminating funding for programs that could not 
demonstrate results.
    Drug enforcement continues to be one of the most significant 
criminal justice priorities of both the Administration and the 
Department of Justice. In addition to supporting drug enforcement and 
treatment initiatives, the fiscal year 2007 President's budget includes 
$706 million for the Organized Crime and Drug Enforcement Task Force 
(OCDETF) program and $208 million for the High Intensity Drug 
Trafficking Area (HIDTA) Program. These programs support drug 
enforcement efforts undertaken by task forces made up of Federal, 
State, local, and tribal law enforcement agencies and enhance the 
coordination of efforts against drug trafficking and drug-related crime 
at all levels of government.
    The Administration applied the same principles it used to select 
initiatives for inclusion in the fiscal year 2007 budget to make 
decisions regarding reductions in or elimination of funding for 
existing programs. While these choices are often difficult, they are 
unquestionably necessary. Due to the fiscal pressures resulting from 
the need to fund an effective response to terrorism at home and abroad, 
reduce the Federal deficit and address the growing financial burdens 
created by Social security and health care entitlement programs, 
discretionary spending must be reduced.
    The proposed elimination of the JAG Program in fiscal year 2007 is 
based on this program's inability to clearly demonstrate its 
effectiveness. During the fiscal year 2005 PART assessment of the JAG 
Program and its predecessors (the Byrne Formula Grant Program and the 
Local Law Enforcement Block Grant), OMB concluded that these programs 
have not been able to clearly demonstrate through quantifiable 
performance measures that they had achieved nor were making progress 
toward their goals. Concerns were also raised about the broad range of 
the 29 purpose areas allowed under the JAG Program, making it difficult 
for the program to develop meaningful performance measures or focus its 
efforts on priority concerns. In light of the broad array of assistance 
offered to State, local, and tribal law enforcement agencies through 
OJP, the Administration determined that the funds currently devoted to 
the JAG Program could be used more effectively elsewhere.
    While the COPS grant programs have achieved a number of noteworthy 
successes, the primary mission of the Office of Community Oriented 
Policing Services--to hire 100,000 community policing officers to serve 
in law enforcement agencies throughout the nation--has been achieved. 
COPS has dedicated $12 billion to add 118,000 community policing 
officers to America's streets and schools. The Administration's 
decision to restructure the COPS grant programs and reduce overall COPS 
funding reflect the policy of directing Federal resources to the areas 
of greatest need.
    In fiscal year 2007, the President's budget request redirects COPS 
funding toward training and technical assistance in support of efforts 
to implement community policing strategies and provide increased grant 
assistance to tribal law enforcement agencies to meet the unique needs 
of Native American communities. Funding for interoperable 
communications technology, provided through the COPS Program in past 
years, is now requested in the budget of the Department of Homeland 
Security to ensure efficient coordination throughout the first 
responder community. Training, technical assistance and funding to 
support the clean-up of methamphetamine labs by State, local and tribal 
law enforcement agencies will be administered in partnership with the 
Drug Enforcement Administration (DEA), the recognized leader in this 
area. The President's fiscal year 2007 budget request seeks $40 million 
for methamphetamine lab clean-up efforts, doubling the level of funding 
appropriated for this purpose in fiscal year 2006.
    Consistent with its standing policy of not requesting continued 
funding for earmarked projects, the administration is not requesting 
funding for the Byrne Discretionary Grant Program administered by the 
Office of Justice Programs (OJP) or the Crime Identification Technology 
Act (CITA) and Methamphetamine Enforcement and Clean-up (Meth Hot 
Sports) Grants administered by the COPS Office.
    Communities and law enforcement agencies receiving grants under the 
programs being proposed for elimination will be encouraged to look to 
other OJP and DOJ programs to fund their ongoing efforts. For instance, 
an interagency drug task force receiving funding from a JAG grant may 
be eligible for funding from a number of other OJP and DOJ programs, 
such as Project Safe Neighborhoods or the Organized Crime and Drug 
Enforcement Task Force (OCDETF) Program. The Department will continue 
to work closely with Congress to ensure that State, local, and tribal 
law enforcement and criminal justice agencies receive appropriate 
Federal support for efforts to protect America's citizens from crime 
and terrorism and strengthen the criminal justice system.

                VICTIMS OF CRIME ACT CRIME VICTIMS FUND

    Question. I am greatly troubled by the Administration's proposal to 
raid at the end of fiscal year 2007 all amounts remaining in the Crime 
Victims Fund, projected to be more than $1.25 billion.
    Year after year, the Crime Victims Fund--financed by criminal 
fines, forfeitures and assessments; not the American taxpayers--plays 
an essential role in helping thousands of agencies provide critical 
services annually to nearly four million victims of domestic violence, 
sexual assault, child abuse, drunk driving, elder abuse and all other 
crimes.
    Despite the fact that Congress blocked this same proposal last year 
and has continued to express its intention that all deposits remain in 
the Fund to ensure its future, the Administration has once again 
proposed in its fiscal year 2007 budget proposal to siphon off all 
amounts remaining in the Fund at the end of the coming fiscal year to 
help offset the budget deficit that it has created. Such a move would 
leave the Fund with a balance of zero going into fiscal year 2008, 
jeopardizing the ability of thousands of agencies to staff and operate 
programs vital to victims' well-being.
    Attorney General Gonzales, how can the Administration justify 
expunging amounts from the Crime Victims Fund?
    Answer. The cap enables Congress to determine the appropriate level 
of expenditures required to maintain viable victims' programs. Excess 
balances above the cap remain in the fund and ``roll over'' from year 
to year. Significant rollover balances have existed in the fund since 
2000, creating what has been characterized as a perpetual float in the 
account well in excess of $1 billion. This float is not required to 
fund the enacted level of victims' programs, nor is it money that can 
be made available for other use. These balances have become fodder for 
temporary scoring proposals. This tactic undermines the budget process 
because the same offset is counted each year. As the fiscal year 2007 
President's budget proposes to rescind and permanently cancel the 
excess balance, returning the funds to the general fund of the 
Treasury, as a more straightforward approach to budgeting.
    Question. Just how does the Administration expect victims and 
victims' services to sustain themselves in the interim while the Fund 
is replenished in fiscal year 2008?
    Answer. While we do not believe that the proposal included in the 
President's budget would create an interim funding problem, we would be 
happy to work with you to develop language that both eliminates the 
budget gimmick and ensures uninterrupted funding availability for crime 
victims.
    Question. How long do you estimate it will take for the Fund to be 
replenished in any given year after the remaining monies are drained?
    Answer. Given recent history, our expectation is that the crime 
victims programs will be self-financing based on the fines and 
penalties paid into the Crime Victims Fund in any given year.
    Question. How will the Office for Victims of Crime determine how 
much money would become available in the course of any given fiscal 
year to allocate to each of the 50 states?
    Answer. The Department of Justice has not proposed to modify the 
formulas under which the bulk of the funds are distributed to the 
states each year for victims' compensation and crime victims programs. 
The amount of money distributed would be determined by the amount 
collected in the fund at time of disbursement.
    Question. Additionally, how could local agencies apply for funds 
when each state would have no idea how much money would come to them 
that year?
    Answer. Funding made available in the President's budgets and via 
the appropriations process has remained markedly stable in recent 
years. We are not anticipating at this point any dramatic departures 
from past funding levels. The Administration's fiscal year 2007 
proposal is intended to preserve $625 million in spending for crime 
victims programs while ending the budget gimmick that allows $1.3 
billion in balances to roll forward each year to be used as an offset 
for other spending. We certainly are willing to have some flexibility 
in working with the Congress to meet both of these objectives.
    Question. When faced with times when collections from fines and 
forfeitures are low or if we are faced with a national victims 
emergency, such as we were with the September 11 terrorist attacks or 
Hurricane Katrina, where do you propose to find the funds for victims' 
services and compensation, seeing how the Administration will have 
drained the Fund?
    Answer. If criminal fine collections decline in future years, the 
Administration would request additional appropriations, or in the event 
of a catastrophe, such as 9/11, request emergency supplemental funding 
to help offset those costs and restore the balance to sustainable 
levels.

              BULLETPROOF VESTS PARTNERSHIP GRANT PROGRAM

    Question. The Bulletproof Vest Partnership (BVP) Grant Program has 
been vital to distributing lifesaving bulletproof vests to law 
enforcement officers serving in the front lines across the country. 
However, DOJ's budget for fiscal year 2007 proposes to slash funding 
for this program by almost $20 million, or by 63 percent. On January 5, 
2006, the President signed into law the Violence Against Women and 
Department of Justice Reauthorization Act of 2005 (Public Law 109-162), 
which reauthorized the BVP Grant Program with funding levels at $50 
million per year through fiscal year 2009.
    Compounding the usual funding demand for help to purchase vests, 
concerns from the law enforcement community over the effectiveness of 
body armor surfaced over two years ago when a Pennsylvania police 
officer was shot and critically wounded through his relatively new 
Zylon-based body armor vest. In August 2005, DOJ announced that test 
results indicate that used Zylon-containing body armor vests may not 
provide the intended level of ballistic resistance. Unfortunately, an 
estimated 200,000 Zylon-based vests have been purchased--many with BVP 
funds--and now need to be replaced. The Justice Department has adopted 
new interim requirements for its body armor compliance testing program 
and also provided an additional $10 million at the end of fiscal year 
2005/beginning of fiscal year 2006 to assist agencies in their 
replacement of Zylon-based body armor vests.
    Vests cost between $500 and $1,000 each, depending on the style. 
The extra $10 million released by the Justice Department, while 
appreciated, is only a drop in the bucket when compared to the need.
    Across our nation, law enforcement agencies are struggling over how 
to find the funds necessary to replace defective vests that are less 
than five years old with ones that will actually stop bullets and save 
lives. How does DOJ justify cutting the BVP grant program by 63 percent 
in the face of needing to match costs for new vests, as well as to 
assist in the replacement of defective vests in fiscal year 2007?
    Answer. The Administration continues to support the Bullet Proof 
Vest Partnership (BVP) program administered by the Bureau of Justice 
Assistance (BJA), which utilizes federal funds to assist State and 
local law enforcement to purchase stab- and bullet-resistant vests that 
meet National Institute of Justice (NIJ) standards.
    The Attorney General, recognizing the crisis in the law enforcement 
community, added an additional $10 million to the $24.6 million 
appropriated for BPV in fiscal year 2005. This additional funding was 
made through a special BPV solicitation and resulted in 1,343 awards to 
State and local law enforcement agencies to replace 72,711 vests made 
with Zylon. In addition, through BJA's regular BPV process, in fiscal 
year 2005, BJA made $23.6 million in BPV payments to over 4,000 
agencies. These funds supported the purchase of more than 181,000 vests 
(over the next four years) for law enforcement officers across the 
country. In fiscal year 2006, $29.6 million is appropriated for BPV.
    Currently, there is over $70 million available for the BPV program, 
including the fiscal year 2005 appropriation of $24.6 million; $7.8 
million in reprogrammed funds; $10 million at the request of the 
Attorney General; and the fiscal year 2006 appropriation of $30 
million. The fiscal year 2007 President's budget request of $9.82 
million will sustain the program and should adequately fund the 
anticipated demand for new vests.
    Funding for BVP is also being allocated to support NIJ research on 
ballistic materials and armor performance under the Attorney General 
Body Armor Safety Initiative. The NIJ voluntary compliance testing 
program for bullet-resistant body armor has been revised to take into 
account performance of used armor.
                                 ______
                                 
                Questions Submitted by Senator Herb Kohl

                OFFICE OF INTELLIGENCE POLICY AND REVIEW

    Question. Do you believe this increase is sufficient to meet OIPR's 
needs? What information can you provide us with to demonstrate that 
this number will be sufficient to meet the needs of OIPR? Is this what 
OIPR told you they needed? Is that what they requested?
    Answer. The President's fiscal year 2007 budget includes an 
increase of 30 positions, of which 21 are attorneys, for functions 
performed by OIPR. This increase--20 percent over the 2006 position 
level--will help allow the Department to address the growth in Foreign 
Intelligence Surveillance Act (FISA) applications that are a key 
element in our fight against terrorism. If FISA-related workload 
continues to grow, additional resources for OIPR may be necessary. 
These additional needs would be reflected in future budget requests.
   eliminating the byrne grant program in the face of a meth epidemic
    Question. Local law enforcement officials back in Wisconsin have 
warned us that the meth epidemic could get even worse as the drug moves 
into our urban areas. Instead of being home-made in rural labs, meth is 
increasingly being mass-produced and trafficked by large drug cartels. 
What this all means is more meth will be on the streets and law 
enforcement is very worried that we may experience a meth epidemic even 
worse than the crack epidemic of the 1980s.
    In order to better combat the spread of crack cocaine which 
devastated our cities some 20 years ago and fight drug trafficking in 
general, Congress created the Edward J. Byrne Memorial Grant Program. 
The Byrne Grant Program provided federal funds to State and local 
police agencies to form regional drug task forces which coordinated law 
enforcement's efforts to fight drug crimes. By several accounts, the 
Byrne Grant Program was and remains successful--and it has become the 
backbone of federal aid for local law enforcement.
    We created the Byrne Grant Program twenty years ago to fight the 
rising tide of drugs in this country. Why now--when law enforcement is 
warning us that meth will be the new crack epidemic in our cities--is 
the Administration eliminating this program? We did not eliminate, we 
created, a federal program to help our local police fight drugs when 
crack exploded in the 80s. We should not be eliminating the Byrne Grant 
Program when we face the challenge of meth.
    Answer. Due to the limited resources available to the Department of 
Justice (DOJ), both the Administration and the Department have been 
forced to make many difficult choices while preparing the fiscal year 
2007 President's budget proposal. The decision to eliminate funding for 
the Byrne Justice Assistance Grant program (JAG) was a difficult choice 
necessitated by the Department's need to focus available resources on 
its top priorities, such as antiterrorism efforts, and ensure that 
existing programs make the best possible use of the federal funds 
dedicated to them. We are actively working with Congress and State and 
local officials to help ensure that law enforcement needs are addressed 
nationwide.
    In fact, a number of critical and important investments for state 
and local law enforcement exist in the fiscal year 2007 budget--areas 
where funding is requested to target specific priority problems. In 
recent years, both the President and Congress have tended to focus 
funding on initiatives in key priority areas, where we have the best 
chance of making a difference, in lieu of funding large, broad-based 
programs that are not targeted and have not been able to show the same 
level of results. JAG represents less than one percent of all State and 
local spending in law enforcement.
    If the President's fiscal year 2007 budget request is approved, 
over $1 billion will be available to State, local and tribal law 
enforcement through the U.S. Department of Justice for many of the same 
purposes that JAG funded, such as training and equipment that logically 
cross-cut crime and drug issues. The DOJ fiscal year 2007 President's 
budget request includes $66.6 million to strengthen communities through 
programs providing services such as drug treatment; $88.2 million to 
combat violence, including enhancements to Project Safe Neighborhoods; 
and $209 million to support drug enforcement, including funding to 
continue and expand the Southwest Border Drug Prosecution Program.
    During its fiscal year 2005 PART assessment of the Byrne JAG 
Program and its predecessors (the Byrne Formula Grant Program and the 
Local Law Enforcement Block Grant), OMB concluded that the JAG Program 
has not been able to clearly demonstrate through quantifiable 
performance measures that it is achieving its goals. Concerns were also 
raised about the broad range of purpose areas allowed under the JAG 
Program; JAG funded efforts in a total of 29 different purpose areas, 
making it difficult for the program to develop meaningful performance 
measures or focus its efforts on priority concerns. Much of the 
justification for such assistance has diminished in comparison to other 
priority needs, such as increasing federal counterterrorism efforts.
    The Administration and the Department of Justice are committed to 
supporting interagency drug enforcement efforts. The fiscal year 2007 
President's budget includes $706 million for the Organized Crime and 
Drug Enforcement Task Force (OCDETF) program and $208 million for the 
High Intensity Drug Trafficking Area (HIDTA) Program. These programs 
support drug enforcement efforts undertaken by task forces made up of 
Federal, State, local and tribal law enforcement agencies and enhance 
the coordination of efforts against drug trafficking and drug-related 
crime at all levels of government. The Department will continue to work 
with Congress and State and local officials to address the many threats 
that methamphetamine and other illegal drugs pose to America's 
communities.

                        JUVENILE JUSTICE FUNDING

    Question. Once again, juvenile justice and delinquency programs are 
cut in half in the President's fiscal year 2007 budget proposal. These 
programs, housed at the Office for Juvenile Justice and Delinquency 
Prevention (OJJDP), are allocated $176 million, which is about half of 
what was appropriated last year (nearly $343 million).
    Juvenile justice programs have suffered during the Bush 
Administration. Just four short years ago, these programs received 
approximately $556 million, with more than $94 million for the Title V 
Local Delinquency Prevention Program and nearly $250 million for the 
Juvenile Accountability Block Grant (JABG) program. The 
Administration's proposed level of $176 million for juvenile justice 
programs represents more than a two-thirds cut from fiscal year 2002. 
The downward spiral of juvenile justice funding is a disturbing budget 
trend with ugly real world implications. Juvenile crime is an ongoing 
challenge and it is not a problem that is going to solve itself. 
Boosting funding for successful juvenile justice programs is the first 
step in addressing this challenge.
    Though we were able to increase that funding here in Congress last 
year, we wonder why this Administration targets reductions for juvenile 
justice programs year after year? Can you provide us some idea of 
whether or not this sort of funding will be a priority of yours, as it 
is to many of us here?
    Answer. In fiscal years 2006 and 2007, the Office of Justice 
Programs (OJP) proposes the elimination of the Juvenile Accountability 
Block Grant (JABG) Program, which received a ``results not 
demonstrated'' rating due to the lack of key information required by 
the Office of Management and Budget Program Assessment Rating Tool 
(PART) in fiscal year 2002. In an effort to increase accountability 
without undermining State juvenile justice programming, the OJP budget 
requests $33.5 million for the recently-authorized Part C: Juvenile 
Delinquency Prevention Block Grants Program from which State and local 
governments can fund similar activities.
    Funding for the Title V Incentive Grants Program is proposed for an 
overall reduction due to the elimination of two initiatives whose 
funding is carved out of this program at approximately $25 million 
each--Underage Drinking and Gang Resistance Education and Training. 
However, OJP is requesting an increase of $14.7 million in 
discretionary funding compared to the fiscal year 2006 enacted level 
for the Title V Program. Beginning in fiscal year 1995 (the second year 
of the Program), Congress allocated an increasingly larger portion of 
total Title V funds to earmarked programs which has resulted in fewer 
dollars being allocated to communities to formulate, implement, and 
evaluate comprehensive delinquency prevention plans through the 
Incentive Grants, the original intent of the Program.
    In addition, the fiscal year 2007 budget request includes an 
increase of $14.2 million for the Formula Grants Program which supports 
State and local efforts to develop and implement comprehensive State 
juvenile justice plans. Funds may be used for research, evaluation, 
statistics and other informational activities, and training and 
technical assistance. Funding is also available for training and 
technical assistance to help small, non-profit organizations, including 
faith-based organizations, with the federal grants process.

                        WHIRLPOOL-MAYTAG MERGER

    Question. Last week many of us were surprised when the Antitrust 
Division decided not to challenge Whirlpool's acquisition of Maytag. It 
was widely reported in the press that the Antitrust Division staff had 
recommended that the Justice Department should file suit to block this 
deal, because of the possibility that the deal could lead to injury to 
competition and higher prices for consumers. The merger will result in 
the combined company controlling about 70 percent of the washing 
machine market.
    The Justice Department's decision on this deal was contrary to the 
predictions of many antitrust experts. Diana Moss of the American 
Antitrust Institute argued that the combined company's market power 
would ``substantially lessen competition by impairing the ability of 
rivals to compete effectively.'' Even the Wall Street Journal--usually 
not an advocate of aggressive antitrust enforcement--reported that 
``under traditional antitrust analysis, the deal would probably be 
rejected or reshaped because of the combined companies' majority share 
of the U.S. market for washers and dryers.''
    Why did you ignore the recommendation of the Antitrust Division 
staff in approving this merger?
    Answer. After thoroughly investigating Whirlpool's proposed 
acquisition of Maytag, the Antitrust Division determined that the 
proposed transaction was not likely to reduce competition 
substantially. We came to this conclusion because Whirlpool will likely 
achieve large cost savings and efficiencies, which would allow the 
combination of strong rival suppliers not to harm consumer welfare.
    Based on the evidence obtained during its extensive investigation, 
the Division found that this merger is not likely to give the merged 
entity market power in the sale of any of its products in the United 
States. The Division found that, despite the two companies' relatively 
high share of laundry appliance sales in the United States, any attempt 
to raise prices likely would be unsuccessful. Whirlpool and Maytag 
represent two well-known brands in the industry, but rival appliance 
brands such as Kenmore, General Electric and Frigidaire are also well 
established, and newer brands such as LG and Samsung have quickly 
established themselves in recent years. LG, Samsung, and other foreign 
manufacturers could increase their imports into the United States; 
rival U.S. manufacturers have excess capacity and could increase their 
production. Further, the large retailers through which the majority of 
these appliances are sold--Sears, Lowe's, The Home Depot and Best Buy--
have alternatives available to help them resist any attempt by the 
merged entity to raise prices. Also, the parties substantiated large 
cost savings and other efficiencies that should benefit consumers.

                           TUNNEY ACT REVIEW

    Question. Two years ago I sponsored an amendment to the Tunney Act, 
the law which governs the manner in which the courts review government 
antitrust settlements with the government. My amendment was enacted 
into law. This amendment heightened the scrutiny that courts must give 
to such settlements. We intended to halt the practice of courts merely 
``rubber stamping'' these settlements, but instead to ensure that the 
courts scrutinized these consent decrees to insure that the settlements 
were in the public interest.
    In the Justice Department's recent court filings in the SBC/ATT 
merger Tunney Act proceedings, the Department has asserted that these 
amendments ``did not materially affect the scope or standard of review 
courts are to apply in reviewing antitrust settlements.'' This 
assertion is contrary to the plain words and legislative intent of our 
Tunney Act amendments.
    Why has the Justice Department taken the position that our Tunney 
Act amendments have not changed the standard of review that courts are 
to follow in reviewing antitrust settlements? What basis do you have 
for ignoring the plain language and legislative history of our 
amendments that was intended to strengthen the court's review?
    Answer. The text of the 2004 amendments to the Tunney Act modified 
the list of factors a court is to consider in making its public 
interest determination and made judicial consideration of each factor 
mandatory rather than discretionary. The quotation in the filing you 
cite was in the context of that case, in which it was claimed that the 
2004 Tunney Act amendments somehow gave the court the authority to 
review a consent judgment on the basis of allegations that were not 
included in the underlying complaint. The 2004 Amendments do not in any 
way suggest that they altered the Tunney Act's fundamental purpose or 
standard in that respect.
    Section 221(a) contains a ``finding'' that ``it would misconstrue 
the meaning and Congressional intent in enacting the Tunney Act to 
limit the discretion of district courts to review antitrust consent 
judgments solely to determining whether entry of those consent 
judgments would make a `mockery of the judicial function.' '' Antitrust 
Criminal Penalty Enhancement and Reform Act of 2004, Public Law 108-
237,  221(a)(1)(B), 118 Stat. 661, 668 (2004). Senator DeWine stated 
that ``this bill makes clear that the Tunney Act requires what it has 
always required, and that mere rubber-stamping is not acceptable.'' 150 
Cong. Rec. S3610-02, *S3618 (Apr. 2, 2004) (statement of Sen. DeWine). 
The Department agrees. Both the statute and the case law make clear a 
court's Tunney Act role: far from applying a rubber-stamp, the court is 
to examine the proposed antitrust consent decree and determine whether 
that judgment addresses the harms alleged in the complaint and 
therefore falls within the reaches of the public interest based on the 
factors enumerated in the statute.
                                 ______
                                 
             Questions Submitted by Senator Byron L. Dorgan

                   ANTITRUST MODERNIZATION COMMISSION

    Question. The Antitrust Modernization Commission recently held a 
hearing that discussed the risks that U.S. businesses face as a result 
of the growing number of competition authorities around the world. 
These authorities can impose requirements or remedies on U.S. companies 
that conflict with our own. As one witness testified, this situation 
``has created the potential for a variety of adverse consequences, 
including increased transaction costs and heightened uncertainty for 
businesses, and instances of friction and conflict across 
jurisdictional boundaries.''
    Would the Department support efforts to deal with these issues, so 
that foreign antitrust authorities are more likely to defer to the 
rulings of the Department and FTC where the United States' interests in 
a transaction or conduct are paramount?
    Should the United States also seek to strengthen existing antitrust 
cooperation agreements to address this issue?
    Answer. The potential for foreign competition authorities to impose 
burdensome conflicting requirements and uncertainties on companies from 
other nations, or even to misuse enforcement to bolster a country's own 
home companies, has been an ongoing concern of the Antitrust Division 
for a number of years. The Division has actively worked to promote 
antitrust enforcement around the world based on sound economic and 
legal analysis. In this regard, one of the principles we have urged as 
part of international comity in antitrust enforcement is that, where 
appropriate, deference be given to the enforcement authorities in the 
country with the most significant relationship to the transaction or 
conduct.
    At the same time, the Department recognizes that there are numerous 
instances in which both the United States and a foreign antitrust 
authority have a significant interest in a particular course of conduct 
or a particular transaction. It is therefore critical that the 
Department work closely in a variety of contexts to achieve 
international consensus on sound antitrust enforcement, thereby 
limiting the risk of significantly divergent outcomes in particular 
cases. In recent years the Department has actively engaged antitrust 
enforcers around the world through the International Competition 
Network, the Organization for Economic Cooperation and Development, 
competition working groups, and bilateral and trilateral meetings. Our 
goal is to strengthen international cooperation, minimize unnecessary 
burdens on companies doing business globally, and promote convergence 
on sound antitrust principles. This will continue to be a priority for 
the Department.

                         SEX OFFENDER DATABASE

    Question. Mr. Attorney General, I met with you in February of 2005, 
and urged you to implement a national sex offender database that the 
public could access through the internet, along the lines of what I 
have proposed in Dru's Law. I appreciate the fact that the Justice 
Department has begun implementation of such a database.
    The database currently allows users to search for offenders by 
multiple zip codes, but not by a radius defined by users, as proposed 
by Dru's Law. I think the database would be far more useful if it 
allowed the user to ask for a list of offenders within, say, a 10-mile 
radius--rather than having to sit down with a map and figuring out the 
intricacies of the zip code system. Would you be willing to look into 
that?
    Answer. A zip code radius search has been a sought after function 
of the National Sex Offender Public Registry (NSOPR) since the 
inception of the program. After the initial release of NSOPR, the 
original zip code function was modified from single zip code search 
capability to the current search capability that allows users to search 
multiple known adjacent zip codes. With the final two states scheduled 
to participate in the program this summer, work is underway to develop 
zip code radius style searches.

     EDWARD BYRNE MEMORIAL JUSTICE ASSISTANCE GRANTS (JAG) PROGRAM

    Question. The President's fiscal year 2007 budget would eliminate 
funding for Edward Byrne Memorial Justice Assistance Grants program 
that was developed to help states and local law enforcement control 
violent crime and drug-related crime as well as improve operations and 
coordination.
    The Byrne grant program helps to fund the South Sakakawea Narcotics 
Task Force that services the southwest counties of North Dakota. Prior 
to having this task force, the Dickinson Police Department and Stark 
County Sheriff's Department combined to investigate narcotics. It was 
on a part time basis because it utilized detectives who had to work 
criminal cases as well and it was not effective enough to deter the 
dealers moving into our area.
    According to the Dickinson Chief of Police, the task force this 
past year handled 181 cases and made a total of 233 arrests. They also 
have confiscated about $29,000 in asset forfeitures.
    In eliminating funding, the Administration says the Byrne program 
is ``unable to demonstrate results'' and that there is ``little 
justification for continued funding.'' How can you justify cutting this 
program? What methods did the Department of Justice use to evaluate 
this program? Did you reach out directly to local law enforcement 
officials in North Dakota to gather facts and results?
    Answer. Due to the limited resources available to the Department of 
Justice (DOJ), both the Administration and the Department have been 
forced to make many difficult choices while preparing the fiscal year 
2007 President's budget proposal. The decision to eliminate funding for 
the Byrne Justice Assistance Grant program (JAG) was a difficult choice 
necessitated by the Department's need to focus available resources on 
its top priorities, such as antiterrorism efforts, and ensure that 
existing programs make the best possible use of the federal funds 
dedicated to them. We are actively working with Congress and state and 
local officials to help ensure that law enforcement needs are addressed 
nationwide.
    In fact, a number of critical and important investments exist in 
the fiscal year 2007 budget--areas where funding is requested to target 
specific priority problems. In recent years, both the President and 
Congress have tended to focus funding on initiatives in key priority 
areas, where we have the best chance of making a difference, in lieu of 
funding large, broad-based programs that are not targeted and have not 
been able to show the same level of results. JAG represents less than 
one percent of all state and local spending in law enforcement.
    If the President's fiscal year 2007 budget request is approved, 
over $1 billion will be available to State, local and tribal law 
enforcement through the U.S. Department of Justice for many of the same 
purposes that JAG funded, such as training and equipment that logically 
cross-cut crime and drug issues. The DOJ fiscal year 2007 President's 
budget request includes $66.6 million to strengthen communities through 
programs providing services such as drug treatment; $88.2 million to 
combat violence, including enhancements to Project Safe Neighborhoods; 
and $209 million to support drug enforcement, including funding to 
continue and expand the Southwest Border Drug Prosecution Program.
    During its fiscal year 2005 PART assessment of the Byrne JAG 
Program and its predecessors (the Byrne Formula Grant Program and the 
Local Law Enforcement Block Grant), OMB concluded that the JAG Program 
has not been able to clearly demonstrate through quantifiable 
performance measures that it is achieving its goals. Concerns were also 
raised about the broad range of purpose areas allowed under the JAG 
Program; JAG funded efforts in a total of 29 different purpose areas, 
making it difficult for the program to develop meaningful performance 
measures or focus its efforts on priority concerns. Much of the 
justification for such assistance has diminished in comparison to other 
priority needs, such as increasing federal counterterrorism efforts.
    The Administration and the Department of Justice are committed to 
supporting interagency drug enforcement efforts. The fiscal year 2007 
President's budget includes $706 million for the Organized Crime and 
Drug Enforcement Task Force (OCDETF) program and $208 million for the 
High Intensity Drug Trafficking Area (HIDTA) Program. These programs 
support drug enforcement efforts undertaken by task forces made up of 
Federal, state, local and tribal law enforcement agencies and enhance 
the coordination of efforts against drug trafficking and drug-related 
crime at all levels of government. The Department will continue to work 
with Congress and State and local officials to address the many threats 
that methamphetamine and other illegal drugs pose to America's 
communities.
                                 ______
                                 
              Question Submitted by Senator Robert C. Byrd

NSA'S DOMESTIC SURVEILLANCE PROGRAM AND ITS POSSIBLE UNDERMINING AFFECT 
                      ON COUNTERTERRORISM EFFORTS

    Question. The Administration has been very vocal about its disdain 
for the information leaked concerning domestic wiretapping program. Is 
it possible, that by ignoring FISA, as well as the FISA court, the 
Administration has encouraged intelligence gatherers and analysts to 
engage in constitutionally-suspect activities, and that the leaks that 
have resulted have come about not through any dereliction of duty, but 
from a real concern that individuals have been asked to conduct 
domestic surveillance outside the rule of law?
    If this is in fact true, then not only has the NSA's domestic 
surveillance program been conducted illegally, it has placed 
counterterrorism agents beyond the law, and possibly caused the leaks 
it now condemns. What is the Administration's response to its possibly 
undermining counterterrorism efforts by its brazen indifference to FISA 
and the Constitution?
    Answer. Thank you for the opportunity to address these questions, 
which I believe reflect several misunderstandings. We hope our response 
will allay your concerns.
    First, the care that the Administration has taken in establishing, 
implementing, and overseeing the Terrorist Surveillance Program 
described by the President bears emphasis. The Administration has gone 
to extraordinary lengths to ensure that, even while it protects the 
American people from another catastrophic terrorist attack, it observes 
the constitutional protections that we, as a Nation, cherish. For this 
reason, the Administration sought and received the legal advice of the 
Department of Justice and of the career attorneys who specialize in 
this area of law at the National Security Agency (NSA) before the 
program was first authorized, and it continues to seek such advice when 
appropriate. The Program is narrowly focused, targeting only 
international communications for which a trained intelligence 
professional concludes there is probable cause to believe at least one 
of the parties is a member or agent of al Qaeda or an affiliated 
terrorist organization. The need for the Program is reevaluated 
approximately every 45 days to minimize the risk of any unnecessary 
interception of communications. Finally, from the very beginning, the 
Administration has kept Congress informed through appropriate briefings 
of the Intelligence Committees and leadership.
    Second, the Administration has not ``circumvent[ed] procedures 
required by Foreign Intelligence Surveillance Act (FISA) and the 
Constitution,'' nor has it ``ignored'' FISA. As explained in the 
Department's January 19, 2006 paper, the Terrorist Surveillance Program 
is fully consistent with FISA. FISA expressly recognizes that 
electronic surveillance can be authorized by statutes other than FISA. 
See 50 U.S.C.  1809(a)(1) (providing that electronic surveillance is 
not prohibited if it is ``authorized by statute''). The Authorization 
for the Use of Military Force of September 18, 2001 (``Force 
Resolution'') is just such a statute. The Supreme Court has explained 
that the Force Resolution must be understood to have authorized 
``fundamental and accepted'' incidents of waging war. Hamdi v. 
Rumsfeld, 542 U.S. 507, 518 (2004) (plurality opinion); see id. at 587 
(Thomas, J., dissenting). As explained at length in the January 19th 
paper, the use of signals intelligence is a fundamental incident of the 
use of military force. Consistent with this traditional understanding, 
other Presidents, including Woodrow Wilson and Franklin Roosevelt, have 
interpreted general force authorization resolutions to permit 
warrantless electronic surveillance to intercept suspected enemy 
communications. Cf. generally Curtis A. Bradley & Jack L. Goldsmith, 
Congressional Authorization and the War on Terrorism, 118 Harv. L. Rev. 
2048, 2091 (2005) (explaining that, with the Force Resolution, 
``Congress intended to authorize the President to take at least those 
actions permitted by the laws of war''). The Force Resolution thus 
authorizes the President to conduct the Terrorist Surveillance Program 
against al Qaeda and affiliated terrorist organizations, and does so in 
a way explicitly contemplated by FISA. At the same time, as we have 
explained repeatedly, the Administration understands and appreciates 
FISA's value. It and the Foreign Intelligence Surveillance Court have 
been of enormous assistance in protecting the Nation from terrorist 
attacks and other threats to the national security. The Administration, 
accordingly, makes full use of the FISA.
    Third, we do not agree that concerns about the legality of the 
Terrorist Surveillance Program caused the unauthorized leak that 
publicly revealed the existence of the Program. Even if an employee 
were concerned about the legality of the program, although the program 
has been, from the beginning, subject to legal review at several 
levels, there has long been a mechanism in place--the Intelligence 
Community Whistleblower Protection Act of 1998--that would allow an 
employee to bring such concerns to the attention of the relevant 
Inspector General and, if that did not resolve his concerns, the 
Intelligence Committees of Congress. This act provides a mechanism to 
address concerns while protecting sensitive intelligence sources and 
methods. No concern for the legality of the Program could have impelled 
someone to break the law and cause irreparable harm to the national 
security by leaking highly classified information when this alternative 
was open.
    Finally, the Terrorist Surveillance Program has been critical to 
protecting the Nation from a subsequent al Qaeda attack and is in no 
way ``undermining counterterrorism efforts.'' We hope these 
clarifications allay your concerns.
                                 ______
                                 
              Questions Submitted to Robert S. Mueller III
                Questions Submitted by Senator Herb Kohl

                              FBI ANALYSTS

    Question. Director Mueller, since 9/11, you have tried to transform 
the FBI into an intelligence agency, one that actively prevents 
terrorist attacks instead of just responding to them. Last year, we 
talked about an Inspector General report that criticized the FBI for 
its inability to recruit, train, and retain qualified intelligence 
analysts. Connecting the dots, of course, is crucial to that 
transformation. The FBI fell well short of its analyst hiring goals in 
2004, but you assured me that you would get that back on track in 2005, 
and that you would meet your goals. What goals did the FBI set for 
2005, and were they met? What sorts of people did you hire as analysts? 
Are you fully satisfied with the qualifications of the applicants?
    Answer. The FBI has worked hard to recruit the best possible 
candidates to move us forward during our transformation. This work is 
exemplified by our effort to hire intelligence analysts (IAs); through 
an extremely aggressive recruiting effort, we have increased our total 
on-board IA complement over the 9/11/01 level by 108 percent.
    Throughout this period, we have set very high IA hiring goals, and 
achieving these goals has been quite challenging. The FBI's goal in 
fiscal year 2005 was to hire 780 analysts and, with the benefit of 
streamlined pre-employment procedures and a hiring ``blitz,'' we hired 
678 analysts. (Of these, 170 IAs counted against our fiscal year 2004 
goal, so that the total IAs hired against our fiscal year 2005 goal of 
780 was 508). Both our efforts and our challenges are continuing; in 
the first two quarters of fiscal year 2006, we hired 233 IAs.
    While the hiring of skilled and motivated federal employees in such 
large numbers is always challenging, the hiring of IAs in adequate 
numbers is made more challenging by the fact that the same backgrounds 
and expertise we are seeking are also being sought by other 
intelligence organizations. In order to close the gap created by hiring 
shortfalls, the FBI has established a team that consists of 
representatives from the Directorate of Intelligence, Administrative 
Services Division, Security Division, and Training and Development 
Division, who meet weekly to address hiring and training needs 
throughout the FBI. We will sustain our vigorous hiring effort until we 
meet our hiring goals.
    The FBI has established policies and procedures designed to ensure 
we have the highest quality IAs, and the qualifications of the IAs 
hired in fiscal year 2005-2006 have been outstanding. For example, 48 
percent of the recent hires have advanced degrees and, of those with 
baccalaureate or advanced degrees, 25 percent possess critical skills 
in such areas as Islamic studies, international banking, analytical 
studies, or computer science.

                        SENIORS INVESTMENT FRAUD

    Question. Since 9/11, the FBI has focused on protecting our 
homeland and rightfully so. But the FBI also has other law enforcement 
priorities. Recently, I chaired an Aging Committee hearing that focused 
on the growing issue of securities fraud that seniors are facing. One 
of the messages from that hearing was that law enforcement must focus 
on both prosecuting fraud complaints and investigating potential scams 
before they ensnare seniors' life savings. I understand that the FBI 
has begun working on this, but can you tell us what additional 
resources you need to step up your efforts in this area?
    Answer. Securities fraud is a priority of the FBI's White Collar 
Crime Program. During fiscal year 2005, the FBI had more than 1,500 
pending securities fraud cases. These investigations resulted in 479 
indictments or informations, 479 convictions, over $4.9 billion in 
court-ordered restitution, and approximately $25 million in 
forfeitures. The FBI will work with DOJ and Congress to identify any 
additional resources needed to increase our securities fraud program as 
it relates to senior citizens.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy

                              CHOICEPOINT

    Question. On April 3, 2006, the FBI announced that it was entering 
into a $12 million, 5-year licensing agreement with ChoicePoint to 
expand the use of software that helps the FBI analyze criminal 
organizations. During the Committee's April 5, 2006, hearing, you 
stated that the FBI did not consult with Congress before entering into 
this agreement.
    Given the well-publicized problems that ChoicePoint has had with 
maintaining data security, how can the Justice Department possibly 
justify entering into a multi-million dollar contract with ChoicePoint 
to handle sensitive investigative data about how criminal enterprises 
operate?
    Answer. The FBI awarded a 5-year, fixed-price contract to i2, Inc., 
a subsidiary of ChoicePoint, on 12/1/05. ChoicePoint issued a press 
release announcing this contract on 4/3/06, which created some 
confusion as to whether the contract was for ChoicePoint data services 
or for i2 analytical tools. In fact, this contract is solely for i2's 
software applications and analytical tools, and not for ChoicePoint 
data services. These i2 applications and tools include software 
licenses, software upgrades, technical support for the ``Analyst's 
Notebook'' (i2's primary product), a scaled-down version of i2's 
``Visual Notebook,'' and related tools. The ``Analyst's Notebook'' is a 
link-node analysis tool that has proven highly useful in 
counterintelligence, counterterrorism, and criminal investigations that 
involve large volumes of data.
    Like private investigators, paralegals, and others who subscribe to 
such services, the FBI continues to use commercial databases, such as 
ChoicePoint, that contain public-source information as well as 
proprietary information that is privately owned and commercially 
available at the owner's discretion. This information is available to 
the FBI from the same sources that provide it to the commercial 
databases. What these commercial databases offer their customers, 
including the FBI, by contract is a consolidation of this information 
so that, rather than going to multiple databases for this information, 
it can be obtained through one or two searches.
    The FBI contracts with commercial data providers, such as 
ChoicePoint, in order to access the information they maintain. We do 
not provide FBI information, including FBI investigative data, to these 
organizations, and neither they nor their other clients have any access 
to FBI information as a result of our contract or our access.
    Question. Given the well-publicized problems that ChoicePoint has 
had with maintaining data security, why did the FBI choose to not 
consult Congress before entering into this licensing agreement?
    Answer. As indicated in the response above, the recent contract did 
not concern ChoicePoint's data services, but was instead a contract for 
i2's software applications and analytical tools. Furthermore, the FBI's 
spending with regard to contracts with ChoicePoint and other data 
brokers has always been consistent with resources appropriated for such 
matters.
    Question. Did the FBI conduct a review of ChoicePoint's data 
security procedures and privacy policy before entering into this 
licensing agreement? If so, please describe that review process.
    Answer. Because the recent contract with i2, Inc., was for software 
applications and analytical tools, rather than for data services, it 
did not raise any concerns regarding data security procedures or 
privacy policy. These tools were evaluated as part of the FBI system's 
security certification and accreditation process, in accordance with 
FBI data security procedures and privacy policy.

                       VIRTUAL CASE FILE/SENTINEL

    Question. Director Mueller, you are well aware of my ongoing 
interest in getting a fully functional case management system into the 
hands of agents. Last year, after consultants pronounced it obsolete 
and riddled with problems, the FBI scrapped its $170 million Virtual 
Case File component of the Trilogy program, which was supposed to 
create an instantaneous and paperless way for FBI agents and analysts 
to manage all types of investigations.
    We recently learned that the FBI estimates that Trilogy's 
successor, Sentinel, will cost the American taxpayers $425 million to 
complete. Additionally, Sentinel will not be fully deployed until 2009. 
The FBI has already set aside $97 million for Sentinel this year and 
you are asking for an additional $100 million for this project for 
fiscal year 2007.
    How confident are you about the final cost estimate for the 
Sentinel program?
    Answer. The FBI is confident that the approved contract will meet 
the requirements specified in the statement of work at the contracted 
price. Should modifications be required, we will make the proper 
notifications within the FBI and to the Department of Justice (DOJ), 
OMB, and Congress. The total value of the contract with Lockheed Martin 
is $305 million over 6 years, including both development and Operations 
and Maintenance (O&M). The FBI estimates that the total cost for the 
Sentinel program, including program management, systems development, 
O&M, and independent validation and verification (IV&V), will be $425 
million over 6 years.
    Question. Based on this cost estimate, how much additional funding 
or reprogrammed funds will the FBI require to complete this program? If 
reprogramming is required, what programs do you anticipate will lose 
funds?
    Answer. The funding requested in the President's fiscal year 2007 
budget will fund O&M for Phase 1 and a portion or all of the system 
development, training, and program management costs for Phase 2. Final 
funding requirements for Phase 2 are dependent on the completed 
contract negotiations and other factors. Funding for Phases 3 and 4 and 
for the remainder of O&M for all Phases will be requested in future 
year budget submissions. If additional Phase 2 costs are identified in 
fiscal year 2007 beyond the $100 million in the President's budget, the 
FBI will work with DOJ, OMB, and Congress to redirect existing funds 
where available or request additional funding as needed.
    Question. I am trouble[d] by reports that two of the companies that 
are part of the Sentinel contract team--Computer Sciences Corp. and 
CACI International Inc.--also played roles in the earlier failed 
Trilogy effort. How do you justify entrusting these companies with 
taxpayer funds again?
    Answer. Although it is true that two of the 11 companies partnering 
with Lockheed Martin are common to both Trilogy and Sentinel (Computer 
Science Corporation (CSC) and CACI), these companies were associated 
with the Transportation Network and Information Presentation components 
of the Trilogy contract rather than with the Virtual Case File portion, 
which was led by SAIC.
    The FBI believes both CSC and CACI will make significant 
contributions toward Sentinel's success. CSC will provide subject-
matter expertise regarding legacy systems, system design, commercial 
off-the-shelf software selection, and O&M support. CSC will also 
provide information technology security services, a business line in 
which they have excelled while working with the FBI's information 
assurance program during the past three years. CACI will provide 
subject-matter expertise in support of case management, records 
management, development and testing, and implementation and 
integration.
    The FBI has strengthened its internal controls to avoid a 
repetition of prior problems. For example, we have improved our 
contract oversight in four significant ways. First, this contract has 
clear reporting requirements and clear, defined deliverables at each 
contract phase (each of the four phases delivers capability to the end-
user), and the contract can be terminated at any point should these 
results be unsatisfactory. Second, those responsible for contract 
management have clearly defined roles and responsibilities, and the 
management function is structured so as to ensure that accountable 
personnel review all documentation and expenses. This contract 
management function will be supplemented by internal financial 
management audits. Third, an IV&V specialist who reports directly to 
the Chief Information Officer will independently assess the efficiency 
and progress of the Program Management Office (PMO) and the work of the 
Sentinel contractors. Fourth, to eliminate the likelihood of ``scope 
creep,'' any significant requirements changes must first be approved by 
the Executive Steering Council chaired by the FBI's Deputy Director.
    The FBI has implemented measures to verify the FBI's receipt of the 
contract's deliverables and to validate their costs when invoiced. 
Unlike Trilogy, these measures include the creation of a PMO that 
includes personnel with the expertise to ensure proper contract 
administration. The Sentinel PMO includes a contracting officer and a 
dedicated unit that is specifically assigned to track, monitor, and 
control all program and development costs. This dedicated unit, which 
includes a business manager, budget analyst, Earned Value Metrics 
analyst, cost estimator, and full-time contracting officer's technical 
representative, will used detailed invoicing procedures developed by 
the PMO to validate all internal and external costs. As recognized in 
the recent GAO and IG reports, the FBI has conveyed to Lockheed Martin 
the importance of detailed cost tracking and adherence to established 
policies and protocols. Lockheed Martin has assured the FBI that they 
understand and concur in our requirements and will implement 
appropriate policies and processes to ensure compliance.
    Generally a government entity has no direct relationship with 
subcontractors, who instead work for prime contractor, submitting 
invoices to the prime contractor for approval and payment. While this 
is true of the FBI's relationship with subcontractors in this case, as 
well, the FBI has requested greater transparency of subcontractor 
activities and charges with respect to the Sentinel contract, and 
Lockheed Martin's monthly reports will be required to include 
subcontractor costs in the same manner as their own costs.

                          SUBCOMMITTEE RECESS

    Senator Shelby. We will review the 2007 budget request for 
the National Aeronautics and Space Administration on Wednesday, 
April 26 in this room, and at that time, the NASA 
Administrator, Dr. Michael Griffin, will be here to discuss the 
budget for the programs under his jurisdiction. Until then, the 
subcommittee stands in recess.
    [Whereupon, at 4:38 p.m., Wednesday, April 5, the 
subcommittee was recessed to reconvene at 2 p.m., Wednesday, 
April 26.]


  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2007

                              ----------                              


                       WEDNESDAY, APRIL 26, 2006

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:07 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Richard C. Shelby (chairman) 
presiding.
    Present: Senators Shelby and Mikulski.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

STATEMENT OF HON. MICHAEL D. GRIFFIN, ADMINISTRATOR

                       CHAIRMAN'S OPENING REMARKS

    Senator Shelby. The subcommittee will come to order. Today 
we welcome the NASA Administrator Dr. Michael Griffin, who has 
joined us to testify on the President's fiscal year 2007 budget 
request for the National Aeronautics and Space Administration 
(NASA).
    The proposed budget for NASA is $16.8 billion. After 
accounting for one-time supplemental funds provided for 
Katrina-related expenses, the increase to NASA-based programs 
becomes $519 million, an increase of just over 3 percent. The 
requested increase can be attributed to nearly $900 million to 
fund the Vision and Exploration Program. While this is a 
significant increase, there are a number of programs slated for 
decreases that are troubling. Specifically, funding for 
aeronautics and education have been cut, and science has been 
shortchanged with little hope for funding in future years that 
I see now.
    Dr. Griffin, I feel that fulfilling NASA's goals including 
returning to the Moon are important and will take more than 
just plans for rockets and research missions. It will also take 
a sound financial structure, as we've talked about, a skilled 
workforce, and capable management. One of the greatest 
challenges that I believe NASA faces is building and retaining 
a technical workforce that we have talked about. NASA is one of 
the most publicly recognized agencies within the Federal 
Government. Such high visibility can be a powerful tool for 
aspiring future scientists, engineers, and explorers. The 
success of NASA programs in science and exploration seen by 
students today is the inspiration needed to attract the young 
people of this Nation to the careers of tomorrow.
    Further investment in education is the direct link to 
future generations. I believe we agree that we must continue to 
encourage young people to explore these educational avenues and 
endeavor to carry on the important research and exploration 
capabilities for which NASA is so well known. It is a serious 
issue that must be addressed in order to ensure that future 
exploration in space can occur, and one that I do not believe 
should be sacrificed.
    Dr. Griffin, this budget before us reflects the process of 
implementing the Vision for Space Exploration, and I understand 
that the path was laid out in the exploration systems 
architecture study. I believe that the intent of the study is 
commendable in its aim to reach the goal of returning to the 
Moon in a fiscally prudent, and safe manner. However, it is my 
hope that such implementation can be accomplished while 
maintaining the capabilities that NASA has developed in other 
areas of its mission. I do not believe that we should sacrifice 
important capabilities that will be vital to future missions 
and efforts at NASA in trying to attain this goal. I believe 
that we can and should find a balance, and I believe you will.
    The path laid out for returning to the Moon is contingent 
on several factors. However, we are both keenly aware that any 
unexpected bump in the path could pose significant challenges 
to NASA's long-term plans. Today we can point to the sizable 
funding requirements of the space shuttle, as well as the 
ongoing construction of the International Space Station (ISS) 
as hefty fiscal burdens on NASA's ability to continue down the 
path laid out in the Vision for Space Exploration.
    The evident strain on funding in the science missions and 
aeronautics budgets for NASA are indicators that we are 
traveling down a tenuous path. Return to Flight and the 
implementation of the Exploration Vision are a significant 
financial strain on NASA, and, therefore, require other aspects 
of NASA to remain relatively flat or decline over the next 5 
years. It is all important.
    I also believe that we will have an ongoing dialogue over 
the course of the year about NASA's ability to achieve the 
President's vision for space exploration. I am very interested 
in discussing how NASA will preserve its ongoing programs and 
how it will modernize its institutions and facilities which are 
critical to NASA's success in the coming years. Again, I 
believe that we can, and we have to, strike an appropriate 
balance.
    The Vision laid out by the President in 2004 calls for a 
return to the Moon, and building upon that foundation to 
eventually set foot on another planet. I am excited by the 
opportunities that lay ahead with the Exploration Vision at 
NASA, but I must point out that there are fiscal realities that 
may affect the vision.
    Dr. Griffin, I believe that this subcommittee has made 
every effort to work with you, and we will continue to do that, 
to provide NASA with the appropriate level of funding in an 
effort to ensure that roles and missions are protected and 
preserved. Along with that funding comes a fair amount of 
direction, but the subcommittee has provided NASA with 
reprogramming flexibility to react to those bumps in the path 
that I discussed. However, in return, there is the expectation 
that NASA will be a wise steward of taxpayers' dollars. I am 
concerned that the financial systems for NASA have earned the 
worst rating possible from the administration with little 
progress toward correcting the problem over the past 3 years. I 
realize that you have not been there all that time. Even more 
troubling is a recent report of NASA having violated the anti-
deficiency laws. These reports come at a time when NASA is 
holding an unprecedented amount of unobligated funds while 
claiming to need every additional dollar in order to accomplish 
the missions they have set out before them. Such reports have a 
tendency to erode confidence in NASA's ability to responsibly 
manage the funds that have been appropriated. Dr. Griffin, I 
appreciate, as I said a minute ago, that you have only been in 
your position for about 1 year, and I trust that you are 
working diligently, and I want to work with you to correct 
these problems, and ensure that there will be no further issues 
in complying with anti-deficiency laws. In addition, I expect 
that we will continue to discuss the unobligated balances that 
NASA has accumulated over the years and how those best can be 
utilized toward moving forward.
    I look forward to hearing your insights on how NASA can do 
better, your views, and the challenges ahead.
    Senator Shelby. Senator Mikulski.

            RANKING MINORITY MEMBER MIKULSKI OPENING REMARKS

    Senator Mikulski. Thank you very much, Mr. Chairman, and 
again I, too, wish to welcome Dr. Griffin.
    It has been a very busy and in many ways successful year 
for NASA, and I believe it is today that we celebrate the 25th 
anniversary of the first shuttle flight, in which we thought 
the shuttle was going to do wonderful things, and it did, but 
now the shuttle is getting old and we need to be able to look 
ahead.
    There have also been an amazing set of accomplishments in 
science. Dr. Bennett, of my very own Johns Hopkins, saw the 
first light, and actually almost the beginning, of the Big Bang 
through a gamma ray burst. We are looking at how we can 
successfully launch the mission to Pluto by a team at APL; 
Cassini, the probe that gave us the best pictures on Saturn; 
and of course, the Hubble telescope and many other things.
    Despite what we have been able to do, and despite the 
successes of NASA, it has been a difficult year for NASA. The 
cost of running the space shuttle to flight has run into delays 
which are absolutely crucial to ensure our number one priority, 
the safety of the astronauts, but it has also increased by $2.4 
billion. Hurricane Katrina caused over $600 million of damage 
to two NASA centers, and hats off to how the employees saved so 
much of the facility, and know even slept on floors, but 
nevertheless, will be a tremendous cost to rebuild, and the 
years of flat budgets have put great stress on all of NASA's 
programs.
    In looking at areas ahead, we know that we are facing new 
external challenges; a challenge from China. We know China 
wants to go to the Moon. We know that they want to be the first 
to go back to the Moon. We cannot let China be the first back 
to the Moon. I know we have to go to the Moon and go in a way 
that we can stay there for a variety of reasons.
    At the same time, the President has challenged us and 
worked with us on a bipartisan basis to be competitive, to 
promote innovation and discovery, to focus on education and 
research, innovation-friendly government. But we are concerned 
as we have responded to the call raised in the excellent report 
``Gathering Storm,'' that NASA was left out of that. I felt so 
strongly about that in a bipartisan meeting at the White House, 
to talk with the President about how his bold vision of 
returning to Mars was exactly what could inspire people, 
promote the development of incredible technology and 
breakthroughs that would help inspire the next generation of 
scientists, engineers and technologists, but also the kinds of 
new technologies that end up in the marketplace and help us be 
an economic superpower.
    What we have seen though is a fairly flat budget, a modest 
increase, but we are deeply concerned about the consequences of 
what we see here. NASA's role in promoting science is not 
included in the budget in the way we had hoped. Science is cut 
over $2 billion; Mars; solar system research; aeronautics 
research which is cut by $100 million which is so crucial. We 
need a robust science program, we do need human exploration, we 
do need a crew return vehicle (CRV), but we know that we have 
enormous stresses in our own appropriations.
    I'm going to work with my colleague, Senator Shelby, to 
find a balanced space program, to get that shuttle flying again 
and fix that shuttle, so as to move on to our next generation 
of science, technology, and aeronautics. But I am concerned 
that we are doing too much with too little money, that we have 
an aging workforce, we have aging technology, and that, quite 
frankly, I believe we have to find a way to do more, and we 
cannot continue to do more with less.
    So we look forward to your ideas. We thank you for your 
leadership and we thank you for your candor. I particularly 
want to express my appreciation for the way you have handled 
the question of the ability to speak your scientific views and 
so on, truth through power, and so we look forward to hearing 
your testimony today.
    Senator Shelby. Dr. Griffin, your written testimony will be 
made part of the record without objection, and you may proceed 
as you wish. Welcome to the subcommittee, sir.

                 OPENING REMARKS OF MICHAEL D. GRIFFIN

    Dr. Griffin. Thank you, Senator Shelby and Senator 
Mikulski. I am pleased to be here to discuss our fiscal year 
2007 budget request and how we are carrying out our missions of 
space exploration, scientific discovery, and aeronautics 
research, within the resources provided. With a 3.2 percent 
increase over last year's appropriation, this budget does 
represent the President's commitment to our Nation's civil 
space program, and especially so in view of the many pressures 
in the wake of Hurricane Katrina and the war on terrorism.
    As we begin, I want to thank this subcommittee for its 
leadership over the past year in providing emergency 
supplemental funds for NASA's recovery and repair efforts after 
Hurricane Katrina. We are also very appreciative of the action 
taken by the Committees on Appropriations, and by the Congress 
as a whole, in providing $16.5 billion in fiscal year 2006 
appropriations to the agency, and essentially the level of the 
President's fiscal year 2006 request before the application of 
rescissions, as well as the strong endorsement of the Vision 
for Space Exploration, timely development of the crew 
exploration vehicle (CEV) and the crew launch vehicle (CLV), 
and support for NASA's other core programs. We need the help of 
this subcommittee now, and will continue to need it in the 
future. Senator Shelby, I want specifically to address the 
concerns you raised, because I think they are very fair.

   NATIONAL AERONAUTICS AND SPACE ADMINISTRATION FINANCIAL MANAGEMENT

    With regard to NASA's financial management, we delivered to 
the Congress this past February an integrated cross-NASA 
corrective action plan to address the findings and 
recommendations to which you referred that were made by Ernst & 
Young in the 2005 financial audit. Through this plan we are 
working toward resolution of those audit issues by the third 
quarter of this fiscal year, fiscal year 2006. NASA does not 
control the opinion delivered by its auditors, but we fully 
expect that resolution of the issues they raised by the third 
quarter of this year will allow the auditors to perform a 
complete audit of NASA's 2006 financial statements. We will 
know when their opinion is released on November 15 of this 
year. I could not take your concerns more seriously, nor be 
more personally concerned about them myself.

                     ANTI-DEFICIENCY ACT VIOLATIONS

    You mentioned the ADA violations, Anti-Deficiency Act 
violations. Two of these did occur as a result of the agency's 
failure to file apportionment requests in fiscal 2004. The 
first was of magnitude $1.6 billion that was obligated in 2005, 
and a smaller one, $30.4 million, obligated in 2004. The funds 
were not willfully or knowingly obligated or overly expended, 
but that does not excuse the fact that it was done. We did 
catch it ourselves, and we brought both instances to OMB's 
attention. Again, that does not excuse the behavior, but we 
sought to mitigate it to the maximum extent possible. We 
addressed both of those issues without the need for 
supplemental funds, and we have implemented corrective actions 
in our financial accounting chain of command to see to it that 
they do not happen again. I am certain that our auditors will 
explore those issues as well.

                          UNOBLIGATED BALANCES

    With regard to the point you made about unobligated 
balances, it is true that as we sit here today we have $625 
million presently unobligated. Ninety-six percent of funds have 
been obligated. Of the $625 million, $108 million is for 
construction, and $517 million is for nonconstruction 
activities. We have definite plans for all of these funds. All 
of them will be obligated, and all of the funds are required or 
programs that have been approved by this Congress. I say again, 
I am happy to work with your staff or with you as Members to 
convince you that these statements that I am making today are 
true. I have been here but a year, however, I fully accept and 
in fact require ownership of these problems that you have 
raised. They became my problems on April 14 of last year when 
the Senate confirmed me, I do own them and we are working 
toward a resolution.
    In many ways, Mr. Chairman, NASA is a victim of its own 
success. Our can-do attitude toward the Nation's greatest 
technical challenges has left many people believing that NASA 
can do anything and everything. I hate to say it, but I am here 
to testify before you that NASA cannot do everything that our 
many constituencies would like us to do within our proposed 
$16.8 billion budget. I am truly sorry that this is so, but it 
is a fact. Given this fact, I believe that the President's 
fiscal year 2007 budget request before this Congress strikes a 
careful, disciplined approach to meeting congressional 
priorities and Presidential priorities for the Nation's civil 
space program within the resources we have. NASA must go as we 
can afford to pay across our entire mission portfolio of human 
space flight, science, and aeronautics.
    To gain a sense of perspective, I think it is useful to 
recall that at the peak of the Apollo Program, NASA's budget 
represented 4.4 percent of Federal outlays. Today, NASA's top 
line is six-tenths of 1 percent of the Federal budget. During 
Apollo, NASA funding employed over 400,000 contractors, civil 
servants, technicians, scientists, and engineers across all of 
its programs, and more than that. Today, NASA employs about 
75,000 full-time equivalent employees throughout the aerospace 
industry. NASA cannot and should not in this fiscal environment 
try to do everything. We need to set priorities carefully, and 
we need to execute our programs to match the resources 
available with incredible schedules.

                          NATIONAL PRIORITIES

    The national priorities that we have that have been agreed 
upon by this Congress are, to fly the space shuttle as safely 
as possible while using it to complete the assembly of the 
International Space Station, using the minimum number of 
flights necessary to do that, and to fulfill our commitments to 
international partners. To conduct a space shuttle servicing 
mission if technically possible to the Hubble space telescope, 
pending outcome of the next Return to Flight mission. To retire 
the space shuttle in 2010, and to bring on-line a new crew 
exploration vehicle and crew launch vehicle not later than 
2014, and possibly sooner. To develop a space shuttle derived 
heavy lift launch vehicle to enable lunar missions not later 
than 2020, and later missions to Mars and other destinations. 
To develop a balanced program of space and Earth science, along 
with aeronautics research, that appropriately leverage the new 
direction of NASA's Human Space Flight Program. To pursue 
appropriate commercial and international partnerships, 
especially with the International Space Station.
    These priorities require a careful balance of time, money, 
and energy within the overall agency budget. Thus, our budget 
request shifts resources to the space shuttle and the 
International Space Station from both science and exploration, 
to ensure that our highest priorities have the resources 
necessary to accomplish them between now and 2010. NASA's 
science missions remain one of our Nation's greatest 
achievements, but we must defer some missions that we would 
prefer to do sooner but simply cannot afford at this time. We 
will continue to maintain a robust portfolio of missions and 
research within the $5.33 billion science budget requested for 
fiscal year 2007. NASA is listening to the priorities of the 
science community in this process, and we will keep this 
subcommittee informed if we believe that any adjustments in 
mission or research priorities within that planned total 
funding are necessary.

                          AERONAUTICS RESEARCH

    In aeronautics research, NASA is developing a national 
policy and plan in concert with the White House, Office of 
Science and Technology Policy, and other Federal agencies, 
including the Department of Defense (DOD) and the Federal 
Aviation Administration (FAA), a policy which dedicates us to 
the mastery and intellectual stewardship of the core 
competencies of aeronautics in all of its flight regimes. This 
plan will focus our research efforts on those areas appropriate 
to NASA's unique capabilities. We hope to provide this plan 
which will inform future budget resource decisions to the 
Congress by December as required in our authorization act.

                          BALANCING THE BUDGET

    Mr. Chairman and members of the subcommittee, NASA's fiscal 
year 2007 budget request represents a careful balance, 
conscientiously apportioned. We will need your help to maintain 
that balance. As this subcommittee proceeds to mark up our 
appropriation for fiscal year 2007, I most strongly urge you to 
avoid the temptation to rob Peter to pay Paul by taking funds 
from NASA's replacements for the space shuttle, the CEV and 
CLV, to pay for science missions beyond the $5.33 billion 
requested. Doing so will delay the CEV beyond 2014, and will 
exacerbate problems in safety, workforce, and, frankly, 
perceptions of a loss of U.S. leadership in space during this 
gap in human space flight.
    Likewise, it is important to fly out and retire the space 
shuttle in a safe and orderly manner. The next several years 
are critical as we effect this transition from the space 
shuttle to the crew exploration vehicle. Indeed, this is NASA's 
greatest management challenge, and we will need your help to 
meet it.
    The Space Shuttle Program is dealing with many technical 
issues today, not least of which is fixing the external tank 
foam shedding problems. I believe we have a grasp on those 
issues, and I invite Members and staff of this subcommittee to 
their next launch which will be space shuttle Discovery STS-
121. The launch window opens in July, and we are making 
preparations for it, but we will fly only when we are ready.
    I must also ask your help in considering limits to 
redirection of funds to pay for congressional interest items. 
Back in fiscal 1997, specific direction for NASA constituted 
only $74 million for six specific projects. In fiscal year 
2006, NASA was earmarked at a total of $568.5 million for 198 
projects and programmatic increases. We and I fully acknowledge 
the prerogative of the Congress to direct and appropriate 
funds, but we desperately need your help and that of your staff 
to minimize impact on our proposed programs and activities. We 
simply cannot afford everything that everyone would like us to 
do.

                      EMERGENCY SUPPLEMENTAL FUNDS

    We are also asking for this subcommittee's help in 
providing some flexibility to use as much as $60 million in 
emergency supplemental funds to reimburse our space shuttle and 
space station programs for the funds used last fall to pay for 
immediate Hurricane Katrina damage recovery. We are still 
refining estimates of the total cost for the repair, 
refurbishment, and hardening of our facilities at Michoud 
assembly facility and the Stennis Space Center, but our most 
recent estimate is a little bit less than $500 million. As you 
consider the pending emergency supplemental appropriations 
bill, I ask that you favorably consider this legislative 
provision enabling flexibility for NASA. As we continue to 
refine our total estimates for Katrina recovery, we will keep 
the subcommittee fully informed as to how we would use this 
flexibility. I look forward to working with you to address this 
matter, and I think at this point it is good to thank the 
subcommittee for the help you have provided within the last two 
hurricane seasons which have been especially tough on NASA's 
facilities in Florida, Louisiana, and Mississippi. I regret to 
say that I will probably be counting on your help in the 
future.

                           HUMAN SPACE FLIGHT

    Space flight remains a dangerous endeavor. Following the 
loss of space shuttle Columbia, the Nation's leadership in both 
the White House and the Congress recognized that the broader 
goals of human space flight must be worth the cost and risk 
involved. The Vision for Space Exploration articulates just 
such goals, goals which are worthy of pursuit by a great 
nation. Our purpose is not to impress others, or merely even to 
explore the Moon and Mars, but, rather, to advance U.S. 
scientific, security, and economic interests through leadership 
in the grandest expression of human imagination of which we can 
conceive. Put simply, human space flight is today one of those 
strategic capabilities that define a nation as a superpower. 
Other nations and societies aspire to this capability and have 
achieved it, or will. The United States once surpassing command 
of this arena has vanished, but international cooperation 
leavened with a healthy dose of competition is what makes the 
United States the greatest country in the world. The pursuit of 
this vision requires technical excellence, hard work, 
sacrifice, and the necessary resources, but we also need 
leadership and we need the help of this Congress.

                           PREPARED STATEMENT

    Mr. Chairman and ranking member Mikulski, we have a long 
journey ahead of us. We need your help. I look forward to 
working with you and the members of the committee. Thank you.
    Senator Shelby. Thank you, Dr. Griffin.
    [The statement follows:]

                Prepared Statement of Michael D. Griffin

    Mr. Chairman and Members of the Subcommittee, thank you for this 
opportunity to appear today to discuss NASA's plans as represented in 
the President's fiscal year 2007 budget request for NASA. I will 
outline the highlights of our budget request and discuss the strategic 
direction for NASA in implementing the priorities of the President and 
Congress within the resources provided. The President's fiscal year 
2007 budget request for NASA of $16,792 million demonstrates his 
commitment to the Vision for Space Exploration and our Nation's 
commitment to our partners on the International Space Station. The 
fiscal year 2007 budget request is a 3.2 percent increase above NASA's 
fiscal year 2006 appropriation, not including the $349.8 million 
emergency supplemental for NASA's recovery and restoration efforts 
following Hurricane Katrina. However, let me put NASA's budget into 
perspective. NASA's budget is roughly 0.7 percent of the overall 
Federal budget. This is a prudent investment to extend the frontiers of 
space exploration, scientific discovery, and aeronautics research. With 
it, we enhance American leadership, our safety and security, and our 
global economic competitiveness through the technological innovations 
stemming from our space and aeronautics research programs. Our Nation 
can afford this investment in NASA.
    On January 14, 2004, President George W. Bush announced the Vision 
for Space Exploration to advance U.S. scientific, security, and 
economic interests through a robust space exploration program. NASA is 
very appreciative of the action by the Committees on Appropriations and 
Congress in providing regular fiscal year 2006 appropriations for the 
Agency totaling $16,456.8 million--essentially the level of the 
President's fiscal year 2006 request before application of 
rescissions--including a strong endorsement for the Vision for Space 
Exploration, timely development of the Crew Exploration Vehicle (CEV) 
and Crew Launch Vehicle (CLV) and support for NASA's other core 
programs. NASA is also grateful to the Congress for endorsing this 
Vision last December in the NASA Authorization Act of 2005 (Public Law 
109-155) and providing guidance and expectations for us in carrying out 
the Agency's missions of space exploration, scientific discovery, and 
aeronautics research. To that end, NASA is implementing the priorities 
of the President and Congress within the resources available. NASA 
carries out its missions with a ``go as you can afford to pay'' 
approach where we assume NASA's top line budget will grow at the 
moderate rate laid out in the President's 2007 budget request. NASA's 
Strategic Plan and fiscal year 2007 Congressional Budget Justification, 
provided to the Congress in February, reflect those priorities and 
describe how NASA is implementing those policies into practice by 
describing our programs, projected resources, and workforce needs.
    As part of his fiscal year 2007 budget request to Congress, the 
President proposed the American Competitiveness Initiative, or ACI, to 
encourage American innovation and strengthen our Nation's ability to 
compete in the global economy. Many have asked why NASA is not a part 
of the ACI. My response is that it is the mission of NASA to pioneer 
the future of space exploration, scientific discovery, and aeronautics 
research, while the ACI is focused on bolstering the Nation's economic 
competitiveness in areas such as information technology and 
nanotechnology. NASA contributes to the Nation's competitiveness 
through all of the cutting-edge exploration, science, and aeronautics 
investments accomplished by our Mission Directorates. As part of the 
President's Vision for Space Exploration, NASA expects to spawn entire 
new industries in this Nation. Furthermore, NASA's education and 
training initiatives are designed to enhance math and science 
education, as well as to provide research opportunities at the 
university level. We are currently reviewing our portfolio of education 
programs to assess opportunities for potential collaboration at the 
invitation of the Department of Education, National Science Foundation, 
and other Federal agencies. NASA can offer opportunities and 
inspiration to students as no one else can. For example, a University 
of Colorado-Boulder student-built experiment on the New Horizons 
mission is currently being activated and will be operated by university 
students all the way to Pluto and beyond.

                        IMPLEMENTING THE VISION

    Later this year, NASA will continue the assembly of the 
International Space Station (ISS) with the minimum number of Space 
Shuttle flights necessary to fulfill our commitments to our 
international partners before the Space Shuttle's retirement in 2010. 
The commitment of resources in the President's budget has shown our 
international partners that NASA and the United States are good 
partners through thick and thin and this commitment will encourage them 
to team with us in future endeavors of space exploration and scientific 
discovery. NASA has consulted with our international partners on the 
configuration of the ISS, and is working closely with them to determine 
the crew size and logistics necessary during this assembly period as 
well as the period following the retirement of the Space Shuttle. The 
heads of space agencies from Canada, Europe, Japan, Russia and the 
United States met at Kennedy Space Center on March 2, 2006, to review 
ISS cooperation and endorse a revision to the ISS configuration and 
assembly sequence. The partners reaffirmed their agencies' commitment 
to meet their mutual obligations, to implement six person crew 
operations in 2009, and to conduct an adequate number of Space Shuttle 
flights to complete the assembly of ISS by the end of the decade. The 
partners also affirmed their plans to use a combination of 
transportation systems provided by Europe, Japan, Russia, and the 
United States in order to complete ISS assembly in a timeframe that 
meets the needs of the partners and to ensure full utilization of the 
unique capabilities of the ISS throughout its lifetime. The fiscal year 
2007 budget request provides the necessary resources to purchase Soyuz 
crew transport and rescue for U.S. astronauts as well as needed 
Progress vehicle logistics support for the ISS from the Russian Federal 
Space Agency. Likewise, the fiscal year 2007 budget request provides 
necessary funds for U.S. commercial industry to demonstrate the 
capability to deliver cargo and/or crew to the ISS. If such cost-
effective commercial services are successfully demonstrated, NASA will 
welcome and use them.
    The next return to flight test mission, STS-121 commanded by 
Colonel Steve Lindsey, will confirm that we can safely return the Space 
Shuttle to its primary task of assembling the ISS. We have continued to 
reduce the risk associated with the release of foam debris from the 
external tank by eliminating the liquid hydrogen and the liquid oxygen 
protuberance air load ramps. We are now working toward a July launch, 
which is the next available lighted launch window as mandated for STS-
121. The window is open from July 1 through July 19. NASA will launch 
when ready. Pending the results of this test flight, I plan to convene 
my senior management team for space operations as well as my Chief, 
Safety and Mission Assurance and my Chief Engineer in order to 
determine whether the Space Shuttle can safely conduct a fifth 
servicing mission to the Hubble Space Telescope in 2007-08. NASA's 
fiscal year 2007 budget provides the necessary resources to conduct 
this mission.
    In previous budget requests, NASA reported only placeholder budget 
estimates for the Space Shuttle for fiscal year 2008-2010. The Agency's 
management focus on return to flight efforts of the Space Shuttle 
resulted in NASA deferring this analysis until the fiscal year 2007 
budget. As I testified before Congress last year, NASA's estimates of 
the budget shortfall required to safely fly out the Space Shuttle with 
the minimum number of flights necessary to complete ISS assembly and 
meet our international partner commitments were $3-$5 billion. With the 
fiscal year 2007 budget runout, NASA has added $2.4 billion to the 
Space Shuttle program and almost $1.5 billion to the International 
Space Station in fiscal year 2008-2010 compared to the fiscal year 2006 
budget runout. There is no ``new money'' for NASA's top line budget 
within the budget projections available given our Nation's other 
pressing issues, so, working with the White House, NASA provided 
sufficient funds for the Space Shuttle and ISS programs to carry out 
their missions by redirecting funds from the Science and Exploration 
budgets.
    There are several strategic implications behind this decision. 
Foremost among them is that our Nation will keep its commitment to our 
international partners on the ISS. Thus, with limited resources, we 
made some difficult decisions. Leadership means setting priorities of 
time, energy, and resources, and I have tried to make these decisions 
with the best available facts and analysis. The plain fact is that NASA 
simply cannot afford to do everything that our many constituencies 
would like the Agency to do. We must set priorities, and we must adjust 
our spending to match those priorities. NASA needed to reallocate 
budgeted funds from the Science and Exploration budget projections for 
fiscal year 2007-2011 in order to ensure that enough funds were 
available to properly support the Space Shuttle and the ISS. Thus, NASA 
cannot afford the costs of starting some new science missions at this 
time. It is important to know that NASA is simply delaying missions, 
not abandoning them. With the limited resources available, I believe 
that fulfilling our commitments on the International Space Station and 
bringing the Crew Exploration Vehicle (CEV) online in a timely manner, 
not later than 2014 and possibly much sooner, is a higher priority than 
these science missions during this period.
    There are several reasons not to delay the CEV farther. First and 
foremost is increased risk to the Vision due to an extended gap in our 
Nation's ability to launch humans into space after we retire the Space 
Shuttle in 2010. I experienced first-hand the stagnancy in the 
aerospace industry that existed during the gap in human spaceflight 
between the end of the Apollo program and the first flight of the Space 
Shuttle in 1981, and I know that our Nation's space program suffered 
greatly from the unintended loss of critical expertise. Our Nation's 
space industrial base withered. A longer gap in U.S. human spaceflight 
capabilities will increase risk and overall costs and lead to even more 
delays in pursuing the Nation's vision. Equally important, the United 
States may risk a perceived, if not a real loss of leadership in space 
exploration, if we are unable for an extended period to launch our 
astronauts into space when other nations are establishing or building 
on their own abilities to do so. An extended gap in U.S. human 
spaceflight capabilities also increases our risk posture to adequately 
maintain and utilize the ISS and, unless a commercial capability arises 
to transport our astronauts, NASA would continue to be reliant on the 
Russian Soyuz.
    Thus, further delays in the CEV are strategically more damaging to 
our Nation's space program than delays to these other science missions. 
I stand by my decision regarding how to implement the priorities of the 
President and Congress within the resources provided, and I will work 
closely with our stakeholders in Congress and the scientific community 
to make sure they understand my rationale. Some of our stakeholders 
will not agree with my position, but it is important for everyone to 
understand the rationale. These are difficult decisions, but we must 
balance the competing priorities for our Nation's civil space and 
aeronautics research endeavors with the limited resources available.
    If the funds budgeted for Exploration Systems were to be used to 
provide additional funds for Science missions, additional Aeronautics 
Research, or other Congressionally-directed items, I must advise the 
Congress that such redirection of already-budgeted funds will directly 
impact NASA's ability to effectively and efficiently transition the 
workforce and capabilities from the Space Shuttle to the new CEV 
systems. Funds available to carry out this transition are already lean, 
with little management reserve or margin for error. This transition 
from the Space Shuttle to the CEV is NASA's greatest management 
challenge over the next several years, and we will need everyone's help 
within NASA, industry, and our stakeholders to make the transition 
successful.
    Beyond fulfilling our existing commitment, NASA's fiscal year 2007 
budget provides the necessary resources to carry out the next steps of 
the Vision for Space Exploration. The fiscal year 2007 budget provides 
$3,978 million for Exploration Systems. Last summer, NASA defined the 
architecture for the exploration systems that will be necessary in 
carrying forth that Vision, and we notified the Congress of NASA's need 
to curtail several research and technology activities not directly 
contributing to the near-term priorities of timely development of the 
CEV and Crew Launch Vehicle (CLV) based on the results of that 
exploration architecture study and the limited funds available. I want 
to thank the Congress for its endorsement of the general architecture 
plans in the fiscal year 2006 Appropriations Act for NASA (Public Law 
109-108) as well as the NASA Authorization Act of 2005 (Public Law 109-
155).
    The fiscal year 2007 budget request is sufficient to bring the CEV 
online no later than 2014, and potentially much sooner. Given the 
analysis I have today and the need to balance budgets with proposed 
development work for the CEV and launch vehicles along with the cost 
estimates for that work, I cannot be more specific for our stakeholders 
in the White House and Congress at this time about the specific point 
between 2010 and 2014 when NASA will be able to bring the CEV online. 
NASA requested industry proposals for the CEV, and we have considerable 
incentives for an industry bidder to propose a planned development for 
the CEV as close to 2010 as possible. NASA has begun to evaluate those 
industry proposals, with a planned contract award in late summer/early 
fall 2006. NASA plans to select one industry contractor team for the 
design and development of the CEV. Concurrently, NASA will refine its 
independent cost estimates for the CEV and launch systems as well as 
find cost savings through workforce synergies and contract efficiencies 
between the Space Shuttle and CEV launch systems within the budget 
profile projected in fiscal year 2007. We believe we can find synergies 
and contract efficiencies by sharing or transferring subsystems, 
personnel, resources, and infrastructure between the Space Shuttle 
propulsion elements and the CEV, CLV, and Heavy-Lift Launch Vehicle. I 
believe that with the fiscal year 2007 budget, NASA and industry have a 
real opportunity to make the CEV operational sooner than 2014. I should 
be able to report a more definitive date for bringing the CEV online by 
the time we award the CEV contract. Until then, NASA is in the midst of 
source selection for the CEV procurement, and we are limited in our 
ability to provide information in this competitive environment 
involving a multi-billion dollar procurement.
    For the CLV, NASA has directed two industry teams to begin initial 
development of the vehicle's propulsion systems, and to develop designs 
for the CLV upper stage. The Agency also plans to award design, 
development, test, and evaluation contracts later this year. NASA is 
planning a systems requirements review for this project in the fall 
with a preliminary design review in 2008 in order for this new launch 
vehicle to be ready for when the CEV comes on-line.
    While NASA needed to significantly curtail projected funding for 
biological and physical sciences research on the ISS as well as various 
research and technology projects in order to fund development for the 
CEV, the U.S. segment of the ISS was designated a National Laboratory 
in the NASA Authorization Act. Thus, NASA is seeking partnerships with 
other government agencies like the National Science Foundation, 
Department of Defense, National Institutes of Health (NIH), Department 
of Energy, and the National Institute of Standards and Technology as 
well as the commercial sector to conduct research onboard the ISS. 
However, the research utilization of the ISS is impacted due to limited 
cargo and crew transportation. For this reason, NASA's need for 
investment to spur a commercial cargo and/or crew transportation 
service is even more compelling.

                          SCIENTIFIC DISCOVERY

    In 2005, NASA's science missions enjoyed a year of significant 
achievements. Deep Impact traveled 268 million miles to meet comet 
Tempel 1, sending its impactor to collide with the comet and providing 
researchers with the best-ever comet data and images. The Mars twin 
rovers continue studying the harsh Martian environment, well beyond 
their expected mission life. Cassini may have found evidence of liquid 
water erupting from below the surface of Saturn's moon Enceladus. The 
Mars Reconnaissance Orbiter successfully launched and went into orbit 
around Mars, to help us better understand the history of water on Mars. 
The Voyager 1 spacecraft entered the vast, turbulent expanse of the 
heliosheath, 8.7 billion miles from the Sun, where no human-made object 
has traveled before. The Hubble Space Telescope continues its 
successful mission of discovery and exploration. Among its many 
achievements was the discovery that Pluto may have three moons, 
offering more insights into the nature and evolution of the Pluto 
system and Kuiper Belt. Through coordination of observations from 
several ground-based telescopes and NASA's Swift and other satellites, 
scientists solved the 35-year old mystery of the origin of powerful, 
split-second flashes of light called gamma-ray bursts. The Tropical 
Rainfall Measuring Mission (TRMM) provided data to aid our 
understanding of the changes inside a hurricane, helping scientists re-
create storms on computer forecast models, which can assist in the 
forecasting of future tropical cyclone transformations. On January 19, 
2006, we successfully launched the New Horizons Mission, beginning its 
nine year journey to Pluto for scientific discovery. In the near 
future, we will launch CALIPSO (Cloud-Aerosol Lidar and Infrared 
Pathfinder Satellite Observations) and Cloudsat from Vandenberg Air 
Force Base. Together, they will provide new perspectives on Earth's 
clouds and aerosols, answering questions about how they form, evolve, 
and affect water supply, climate, weather, and air quality. Truly, this 
has been a successful year of science achievements--a trend I expect to 
continue.
    NASA's fiscal year 2007 budget request provides $5,330 million for 
the Agency's Science portfolio to explore the universe, solar system, 
and Earth. My decision to curtail the rate of growth for NASA's Science 
missions is not intended in any way to demonstrate any lack of respect 
for the work done by NASA Science. On the contrary, NASA's science 
missions remain one of the nation's crowning achievements, and NASA is 
a world leader with 54 satellites and payloads currently operating in 
concert with the science community and our international partners. My 
decision to slow the rate of growth for NASA's Science missions is 
simply a matter of how the Agency will use the available resources 
within the overall NASA portfolio. In fact, the Agency's Science budget 
has grown much faster than NASA's total budget since fiscal year 1993. 
In 1992, the Science budget represented only 24 percent of the overall 
NASA budget while it represents 32 percent of the Agency's budget in 
fiscal year 2007. NASA's Science budget is moderated to 1.5 percent 
growth in the fiscal year 2007 budget request compared with the amount 
appropriated for NASA in fiscal year 2006 (in accordance with NASA's 
Initial Operating Plan provided to the Committee) and then 1 percent 
per year thereafter through fiscal year 2011.
    In the fiscal year 2007 budget, there are some additional budget 
shifts within the Science portfolio to rebalance the program to better 
reflect our original science priorities and consistent with the fiscal 
year 2006 Budget Amendment. Within the Science budget, the Solar System 
Exploration budget provides $1,610 million to fund missions to all 
solar system bodies and to maintain the Deep Space Network. Mars 
exploration is kept at roughly its current level of funding which 
allows missions every 26 months when the Earth and Mars are in 
planetary alignment. Mars will be the most thoroughly studied planet 
besides our own Earth. NASA continues a series of openly competed 
missions for Discovery, New Frontiers, and Scout missions to various 
planetary bodies in the solar system. Juno, a competitively-selected 
mission to study Jupiter, is slated to be the next New Frontiers 
mission, following the New Horizons mission on its way to Pluto after 
its successful launch in January.
    After extensive reviews, NASA has extended the mission operating 
life of several Earth Science missions including TRMM and Terra, 
Heliophysics missions such as both Voyager spacecraft, and Astrophysics 
missions including Chandra and the Wilkinson Microwave Anisotropy 
Probe.

                          AERONAUTICS RESEARCH

    NASA's fiscal year 2007 request for the Aeronautics Research 
Mission Directorate is $724 million. Proper stewardship of this funding 
requires a coherent strategic vision for aeronautics research, which we 
are working to develop. While I am concerned that our Nation's aviation 
industry not lose market share to global competitors, NASA's research 
must benefit the American public by supporting a broad base of 
aeronautics research. NASA's aeronautics research cannot and will not 
directly subsidize work to specific corporate interests. There are 
fundamental questions in aeronautics research needing to be answered, 
and NASA will focus its aeronautics research on those issues. NASA will 
take responsibility for the intellectual stewardship of the core 
competencies of aeronautics for the Nation in all flight regimes, from 
subsonic through hypersonic flight. We will also conduct the 
fundamental research that is needed to meet the substantial challenges 
of the Next Generation Air Transportation System (NGATS), and we intend 
to work closely with our agency partners in the Joint Planning and 
Development Office (JPDO).
    Across our aeronautics portfolio, NASA is taking a long-term, 
strategic approach to our research plans to ensure that we pursue the 
cutting-edge across the breadth of aeronautics disciplines that will be 
required to support revolutionary capabilities in both air vehicles and 
the airspace in which they fly. NASA's commitment to technical 
excellence requires a commitment to rigor and discipline and will not 
focus on demonstrations that lack the traceability and scalability 
required for true scientific and engineering advancement. Hence, we are 
turning away from the four-demo approach proposed last year under the 
Vehicle Systems Program. Instead, our Fundamental Aeronautics Program 
will focus on fundamental research that addresses aeronautics 
challenges in areas such as aerothermodynamics, acoustics, propulsion, 
materials and structures, computational fluid dynamics, and 
experimental measurement techniques. The Fundamental Aeronautics 
Program will generate data, knowledge, and design tools that will be 
applicable across a broad range of air vehicles in subsonic (both fixed 
and rotary wing), supersonic, and hypersonic flight.
    In the Aviation Safety Program, NASA is developing strategic 
research plans, ensuring that the research conducted will lead to 
capabilities and technologies for improving safety consistent with the 
revolutionary changes anticipated in air vehicles foreseen in the 
future. The focus will be vehicle-centric, with areas of research that 
include vehicle health management, resilient aircraft control, aging 
and durability challenges, and advanced flight deck technologies.
    In the Airspace Systems Program, NASA will conduct the fundamental 
research required to bring about the revolutionary capabilities 
articulated in the JPDO's vision for the NGATS. Our research will focus 
on the development of future concepts, capabilities, and technologies 
that will enable major measurable increases in air traffic management 
effectiveness, flexibility, and efficiency.
    In addition to the Aeronautics Research Mission Directorate's three 
research programs, NASA is committed to preserving as national assets 
those aeronautics test facilities which are deemed mission critical and 
necessary to meet the needs and requirements of the Agency and the 
Nation. NASA has established the Aeronautics Test Program (ATP), a 
component of the Shared Capability Assets Program (SCAP), as a long-
term, funded commitment by NASA to retain and invest in test 
capabilities that are considered important to the Agency and the 
Nation. ATP's purpose is to ensure the strategic availability of the 
requisite, critical suite of wind tunnel and ground test facilities 
which are necessary to meet immediate and future National requirements.
    As part of our overall portfolio, NASA program managers and 
researchers will work closely and constructively with industry, 
academia, and other Government entities to enhance our Nation's 
aeronautics capability. In this vein, as a principal member of the 
interagency JPDO, NASA has established investment priorities that 
directly address the research and development needs of the NGATS which 
will enable major increases in the capacity and mobility of the U.S. 
Air Transportation System. NASA also plans to collaborate closely with 
industry and academia through the use of competitive research awards 
and Space Act agreements on prospective research work in line with the 
critical thrust areas of the Aeronautics program that will enable 
numerous commercial aviation and scientific applications. Our goal is 
to focus our total research investments on fundamental aeronautics 
questions that need to be answered, and that will benefit the broader 
community of academia, industry, and Government researchers. We will 
transition the achievements from NASA's Aeronautics research and 
technology for use by both Government and industry. Additionally, and 
in line with the refocused program's priorities, NASA will leave to 
others work more appropriately performed or funded by other Agencies or 
the private sectors.
    In accordance with the fiscal year 2006 Science, State, Justice, 
Commerce, and Related Agencies Appropriations Act (Public Law 109-108), 
NASA and the Office of Science and Technology Policy have been jointly 
developing a National Aeronautics Research and Development Policy which 
will establish a long term policy and guidance for future aeronautics 
research and development activities. This policy will establish the 
appropriate role for Federal investment in U.S. aeronautics research: 
near- and far-term, high-priority objectives; roles and 
responsibilities of the multiple agencies involved; and, guidance on 
related infrastructure and workforce challenges.

                     CROSS-AGENCY SUPPORT PROGRAMS

    In the fiscal year 2007 budget, NASA proposes a new direct budget 
category for programs that cut across NASA's portfolio of space 
exploration, scientific discovery, and aeronautics research. These 
Cross-Agency Support Programs include: NASA's Education programs funded 
at $153.3 million; Advanced Business Systems, or more commonly known as 
the Integrated Enterprise Management program, is called out as a 
separate program rather than being budgeted from within Corporate and 
Center General and Administrative accounts and is funded at $108.2 
million; NASA's Innovative Partnership Program, including Small 
Business Innovation Research (SBIR) and Small Business Technology 
Transfer (STTR), has been transferred from Exploration Systems so that 
these partnerships may better address Agency-wide needs and is funded 
at $197.9 million. Also, the Shared Capabilities Assets Program is 
funded at $32.2 million (with additional funding located in the Mission 
Directorates) and will ensure that NASA's unique facilities (e.g., wind 
tunnels, rocket engine test stands, high-end computing, thermal vacuum 
chambers, and other capital assets) are adequately managed with agency-
level decision-making to address NASA's and the Nation's needs.
    NASA's Education budget request sustains our commitment to 
excellence in science, technology, engineering and mathematics (STEM) 
education to ensure that the next generation of Americans can accept 
the full measure of their roles and responsibilities in shaping the 
future and meeting the workforce needs to implement the Vision for 
Space Exploration. NASA will continue to provide innovative programs 
that use STEM resources (NASA content, people and facilities) to 
inspire the next generation of explorers and innovators. I have 
outlined three primary goals for our education investments: (1) 
strengthening NASA and the nation's future workforce; (2) attracting 
and retaining students in the STEM pipeline; and, (3) engaging 
Americans in NASA's mission through partnerships and alliances. The 
greatest contribution that NASA makes in educating the next generation 
of Americans is providing worthy endeavors for which students will be 
inspired to study difficult subjects like math, science, and 
engineering because they too share the dream of exploring the cosmos. 
These students are our future workforce. Our education investment 
portfolio is directly linked to our overall workforce strategy.

                        NASA WORKFORCE STRATEGY

    The Vision for Space Exploration is a unique endeavor that will 
last many generations. The NASA management team has been working to 
build NASA as an institution having ten healthy field Centers known for 
technical excellence. We continue to define program management and 
research roles and responsibilities for each Center in order to carry 
out NASA's missions of space exploration, scientific discovery, and 
aeronautics research. All of our centers must contribute to NASA's 
primary missions. We are beginning the process of assigning specific 
research programs and projects to appropriate NASA Centers. We are not 
done, but we are taking the necessary steps to make it happen.
    We have many challenges in the Agency, but none more important than 
the technical excellence of NASA's workforce. Likewise, we are 
beginning to address the problems posed by the aging of NASA's 
facilities and physical assets. The overall objective is to transform 
the composition of NASA's workforce so that it remains viable for the 
long-term goals of NASA's missions. We have a lot of work cut out for 
us in the coming months and year ahead in assigning these program 
responsibilities and re-building the Agency's technical competence in 
performing cutting-edge work. NASA has been addressing the challenge of 
mitigating the number of civil service employees in the Agency that are 
not currently assigned or supporting NASA programs (the so-called 
``uncovered capacity'') through a number of means, which were addressed 
in a draft report, shared with the Subcommittee in February in 
compliance with the NASA Authorization Act of 2005. The final workforce 
report, reflecting input from our unions, was provided to the 
Subcommittee earlier this month. NASA will conduct a reduction in force 
of our civil servants only as an action of last resort consistent with 
our statutory constraints. Instead, NASA is focusing its efforts to 
solve its uncovered capacity workforce problems through a number of 
other actions, including the assignment of new projects to research 
Centers that will strengthen their base of in-house work, the Shared 
Capability Assets Program that should stabilize the skills base 
necessary for a certain specialized workforce; the movement of certain 
research and technology development projects from certain centers not 
suffering from uncovered capacity problems to centers that are; 
retraining efforts at field centers so that the technical workforce can 
develop new skills; and the pursuit of reimbursable work for projects 
and research to support other government agencies and the private 
sector through Space Act Agreements.

                      NASA'S FINANCIAL MANAGEMENT

    Earlier this month, NASA notified the Committee that it had two 
violations of the Antideficiency Act. The violations resulted from the 
Agency's failure to request from the Office of Management and Budget 
timely reapportionment of Congressionally-approved fiscal year 2004 
funds and timely apportionments of unobligated balances carried over 
from fiscal year 2004 to fiscal year 2005. The Agency has corrected the 
errors without the need for additional appropriations. The Agency has 
also identified the root cause of these errors and has addressed them 
through its aggressive staff training and process improvements.
    NASA has continued to make progress in addressing its other 
financial management and reporting challenges. The Office of Management 
and Budget has recently provided feedback to NASA affirming the 
Agency's progress. The Agency finalized a Corrective Action Plan 
addressing financial weaknesses identified in NASA's 2005 financial 
audit. The plan was delivered to the Congress, specifically at the 
request of the Subcommittee on Space and Aeronautics of the Committee 
on Science and the Subcommittee on Government Management, Finance and 
Accountability of the Committee on Government Reform, on February 15, 
2006. It incorporates the expert advice of NASA's Inspector General. In 
addition, we have reviewed the plan with the Office of Management and 
Budget. This Corrective Action Plan provides an integrated, cross-NASA 
approach to resolving the Agency's outstanding deficiencies. 
Implementation of these corrective actions is reviewed regularly by the 
NASA Deputy Administrator. While these corrective actions will require 
some time to implement, NASA remains committed to improving its 
financial management and reporting.

                  IMPACT OF EARMARKS ON NASA'S MISSION

    NASA pioneers the future in space exploration, scientific discovery 
and aeronautics research. In order to carry out this mission, NASA 
awards peer-reviewed science grants and conducts competitively-selected 
procurements to select research and development projects to benefit the 
public based on the priorities of the Congress, President, and 
scientific community. NASA is implementing these priorities within the 
resources provided. NASA's fiscal year 2006 appropriation totals 
$16.623 billion, including $349.8 million in emergency supplemental 
appropriations for Hurricane Katrina recovery at NASA facilities in 
Louisiana and Mississippi. Within this fiscal year 2006 appropriation 
is a total of $568.5 million in directed funding for 198 discrete site-
specific and programmatic Congressional interest items, a record high 
in both dollar amount and number of individual items. These 
Congressional interest items are offset by reductions within NASA's 
budget, to ongoing and planned NASA programs. Earmarks have increased 
by a factor of more than 30 in number and almost 8 in dollar value 
since fiscal year 1997, when NASA was earmarked $74 million, for 6 
discrete items. The growth of these Congressional directions is eroding 
NASA's ability to carry out its mission of space exploration and peer-
reviewed scientific discovery.
    In formulating our budget, NASA prioritizes activities to achieve 
an integrated package of programs and projects to best achieve the 
priorities that have been provided us by both the President and the 
Congress. The redirection of funding erodes the integrity of our plans, 
has resulted in delays and/or cancellation of planned activities, and 
may conflict with timely development of the CEV. In fiscal year 2006, 
as a result of earmarks, NASA had to redirect a significant portion of 
many planned budgets. Fully 50 percent of the planned Education program 
required redirection, 16 percent of the Innovative Partnerships 
Program, 5 percent of the Exploration Systems budget, and 4 percent of 
the Science budget. Further, the scientific community bases its 
research priorities on a peer-review process. Congressional site-
specific earmarks circumvent this process for setting research 
priorities within the science community and erode the integrity of that 
process. Site specific earmarks to institutions outside of NASA 
exacerbate the problems of NASA's ``uncovered capacity'' workforce, 
where NASA civil servant scientists and engineers do not have funds for 
their own research and development projects. As stated in the 
President's ACI, ``The rapidly growing level of legislatively directed 
research funds undermines America's research productivity.'' NASA seeks 
the assistance of this Committee and Congress in reducing earmarks in 
the fiscal year 2007 budget process.

                           NASA'S NEXT STEPS

    For the last three decades, NASA and the Nation's human spaceflight 
program have been focused on the development and operation of the Space 
Shuttle and the ISS. In its final report, the Columbia Accident 
Investigation Board (CAIB) was very forthright in its judgment that 
these goals are too limited to justify the expense, difficulty, and 
danger inherent to manned spaceflight, given the limitations of today's 
technology. The CAIB was equally forthright in calling for a national 
consensus in the establishment of a program having broader strategic 
goals. The Vision for Space Exploration is that endeavor. The Congress 
has endorsed it, and NASA is working to implement it. But to effect 
these changes, NASA must engage in a major transformation--taking the 
capabilities we have throughout the Agency and restructuring them to 
achieve a set of goals for the 21st Century that we have outlined 
earlier this month in our 2006 NASA Strategic Plan. This is an enormous 
challenge, but we have begun to transform our entire organization to 
foster these changes and to enhance a positive, mission-driven culture.
    The CAIB was also clear in its assessment that the lack of open 
communication on technical and programmatic matters was a direct cause 
of the loss of Columbia. We have understood and embraced this 
assessment, and are absolutely and completely committed to creating an 
environment of openness and free-flowing communication. However, NASA 
still has to make a number of improvements in its internal 
communications as well as how we communicate externally to our 
stakeholders, the scientific community, and the public. NASA is making 
a concerted effort to address all problems in this area.
    For America to continue to be preeminent among nations, it is 
necessary for us also to lead in space exploration, scientific 
discovery, and aeronautics research. It is equally true that great 
nations need allies and partners. The spirit of innovation and the 
muscle of government and industry are needed to turn the Nation's 
Vision for Space Exploration into reality. These journeys to the ISS, 
the Moon, Mars, or even Pluto are the most difficult things our nation 
does. June Scobee Rodgers, the widow of Dick Scobee, Commander of the 
Space Shuttle Challenger on that ill-fated day twenty years ago, 
recently noted, ``Without risk there's no discovery, there's no new 
knowledge, there's no bold adventure . . . the greatest risk is to take 
no risk.'' We must continue our journey. America, through NASA, leads 
the way.

                INTERNAL WEAKNESSES IN INTERNAL CONTROLS

    Senator Shelby. Can you be a little more specific on 
addressing the material weaknesses in internal controls that 
have been reported for several years?
    Dr. Griffin. I can be.
    Senator Shelby. Could you do that for the record?
    Dr. Griffin. I will do that for the record.
    [The information follows:]

                Internal Weaknesses in Internal Controls

    NASA's independent financial auditors identified three 
material weaknesses and one reportable condition through its 
fiscal year 2005 financial audit. The weaknesses are repeat 
findings from prior financial audits. NASA submitted a 
Corrective Action Plan in February 2006 to Congress, OMB and 
NASA's Office of Inspector General that addresses each of the 
recommendations made by the independent financial auditors. 
NASA has been executing this plan throughout fiscal year 2006.
    For your convenience, we have attached NASA's Financial 
Management Corrective Action Plan, which provides a complete 
list of in-process actions to address each material weakness.

            ANTI-DEFICIENCY ACT VIOLATIONS PREVENTIVE STEPS

    Senator Shelby. And the next question, what steps have you 
taken to prevent this type of ADA violation from occurring 
again? Do you want to do that for the record?
    Dr. Griffin. We will do it for the record to get the 
details right and proper.
    Senator Shelby. That will be fine.
    [The information follows:]
                    ADA Violations Preventive Steps
    NASA agrees with each of the OIG's specific recommendations:
  --OIG Recommendation #1.--We recommend that the Administrator report 
        the ADA violations for the funds carried over from fiscal year 
        2004 to fiscal year 2005 for each affected account and for the 
        $30,413,590 to the President of the United Statues through the 
        OMB Director, the Speaker of the House of Representatives, the 
        President of the Senate, and the Comptroller General of the 
        Government Accountability Office, as required by the ADA and by 
        OMB Circular A-11, section 145.7
  --OIG Recommendation #2.--We recommend that the Administrator request 
        a comprehensive demonstration by the OCFO that the 
        appropriations available to be spent in fiscal year 2006 can be 
        traced from appropriation to apportionments to allotments to 
        commitments and to obligations to help ensure that NASA is not 
        violating the ADA for fiscal year 2006
    In addition to accepting and acting upon NASA's OIG two specific 
recommendations, NASA has implemented specific correction actions in 
the OCFO. These corrective actions include:
  --Certification of reconciliations by responsible financial 
        management personnel. Both the Directors of Accounting and 
        Budgeting reconcile NASA appropriations to OMB apportionments. 
        They jointly certify apportionment requests to OMB. This 
        ensures that the operations of each organization, the budget 
        and execution of the budget, are appropriately reflected in 
        NASA financial systems. In addition, a manual of all related 
        apportionment transactions is maintained;
  --Met with the NASA OIG to demonstrate that the core financial system 
        has effective system controls that prevent obligations from 
        exceeding apportionment control totals;
  --Conducted Appropriations Law training for 30 staff in January 2006, 
        and 8 in March 2006;
  --Conducted OMB Circular A-11 training for 24 staff in February 2006. 
        An additional course is currently being scheduled;
  --Increased the staff size in the Funds Distribution branch from 7 to 
        14; and
  --Documenting enhanced internal controls, to include: Logging and 
        tracking of all OMB apportionment requests and approvals; and 
        reconciliation of OMB apportionments to Congressionally 
        approved Operating Plans to the funds loaded into the Agency's 
        centralized financial system.

    Dr. Griffin. But, basically, we have put additional cross-
checks in. We are working on training staff, and we have put 
additional cross-checks into the system so that it, frankly, 
does not happen again.
    Senator Shelby. We think that that is important, but I want 
to say again, Dr. Griffin, you may have inherited a lot of 
this, and you are strong to say it is your deal now, and it was 
not always your deal, but it does have to be addressed, as you 
know.
    Dr. Griffin. I thank you for that observation, Senator. You 
hired me to fix the problems, and we will fix them.

                INTEGRATED ENTERPRISE MANAGEMENT PROGRAM

    Senator Shelby. What is NASA's current estimated cost to 
develop, implement, and maintain the Integrated Enterprise 
Management Program including those costs incurred to resolve 
data integrity issues resulting from the initial implementation 
of the core financial system?
    Dr. Griffin. Sir, again, I do not have those figures.
    Senator Shelby. Will you do that for the record?
    Dr. Griffin. I will be happy to provide that for the 
record. We do have that data. I just don't have it right here.
    [The information follows:]

                Integrated Enterprise Management Program

    The development and implementation costs for NASA's 
Integrated Enterprise Management Program, including all the 
hardware, software, civil service labor, contractor labor, 
travel, and overhead costs associated with re-engineering 
business processes and implementing business systems for human 
capital management, financial management, asset management, and 
procurement and contract management are estimated at $842 
million for the development years 2000 through 2011, consistent 
with the fiscal year 2007 President's budget request.
    Of this total development estimate, $82.6 million is being 
expended to update NASA's financial system, which, among other 
benefits, helps resolve data integrity issues identified with 
the initial core financial system implementation. Approximately 
$50 million per year is expended operating and maintaining this 
business systems environment.

                ROBOTIC LUNAR EXPLORATION PROGRAM (RLEP)

    Senator Shelby. I know it is a complicated question. The 
Robotic Lunar Exploration Program?
    Dr. Griffin. Yes, sir.
    Senator Shelby. Let's get into that. Last December, NASA 
announced that the Marshall Space Flight Center would be the 
project lead for the second mission under the Robotic Lunar 
Exploration Program (RLEP-2). The intent of the announced 
mission is to land on the lunar surface and search for deposits 
of water and ice as a precursor to later human missions. 
Unfortunately, no funding for this mission was included in the 
President's budget request for fiscal year 2007, and there are 
concerns that RLEP-2 is no longer a priority for NASA. Could 
you provide us an update on the overall RLEP program and the 
current projects under the program, and is the RLEP-2 mission 
still proceeding as announced, and so forth?
    Dr. Griffin. Yes, sir. The concern that you cite that the 
RLEP Program is not a priority is not a well-founded concern. 
Indeed, it is a priority. As you know, sir, in order to meet 
our unfunded obligations for the space shuttle and space 
station, we had to remove from the Science Program $2.2 billion 
over the 5-year run-out, and $1.6 billion from exploration, the 
crew launch vehicle and crew exploration vehicle, and those 
budget hits to the tune of almost $4 billion have resulted in 
deferring some missions. We probably will not start RLEP-2 in 
fiscal year 2007. We will do that mission. Marshall Space 
Flight Center will continue to retain the project lead for that 
mission.
    Senator Shelby. You are committed to the mission?
    Dr. Griffin. I have committed to the mission. In the wake 
of difficult funding decisions, I cannot commit to the date, 
but I have committed to the mission, and to the leadership of 
the mission and to do so in a timely way to provide precursor 
information for returning humans to the Moon, but it probably 
will not start in fiscal year 2007.
    Senator Shelby. Would you give us a status of each of the 
elements for the next manned spacecraft, specifically focusing 
on the crew exploration vehicle, the crew launch vehicle, and 
the launch operations aspect of the program? I know it is early 
in the program.
    Dr. Griffin. It is, but I can give you a top-level status. 
If you want more when I am done, I will be happy to provide it 
for the record.
    Senator Shelby. Sure.
    Dr. Griffin. At the top level, since I last met with you in 
this formal setting, we have refined and issued the request for 
proposals for the crew exploration vehicle. There are two 
bidders on that. They have completed and submitted their 
proposals. The Source Evaluation Board is considering those 
proposals as we sit here at this moment. Later this spring we 
will enter into negotiations and oral presentations by those 
bidders, and this summer we will make a selection for the crew 
exploration vehicle which will represent a real milestone. It 
will be the first new development of a piloted space vehicle by 
this Nation in 35 years.
    The crew launch vehicle is the launch side of that. In 
fact, Marshall Space Flight Center has the lead for that. The 
crew launch vehicle is coming along slightly behind the crew 
exploration vehicle. The folks down there are actually led by 
Program Manager Steve Cook under the management of Center 
Director Dave King, and are doing a great job pulling together 
the concept design for that vehicle. We expect to have a 
request for information out on the street shortly. It will be 
followed by a request for proposals to industry. That program 
is on track.
    Launch operations modifications down at the Cape are at 
this point I can only say under study. We have asked for bids 
from construction contractors to begin work on those systems. 
Of course, the launch operations infrastructure has to follow 
from the nature of the launch vehicle and the crew vehicle that 
it serves, and so it necessarily follows a bit behind. But I 
am, frankly, real pleased with where we are on that.
    Senator Shelby. I understand progress has been made in the 
overall Constellation architecture by establishing project 
offices for the various elements involved. What is the time 
line for establishing the project offices for the remaining 
elements of the architecture such as the lunar lander?
    Dr. Griffin. The lunar lander is not the current first 
thing on our plate. We don't need that until starting out 
around 2012. As I think I just mentioned, Johnson Space Center 
has the crew exploration vehicle, Marshall Space Flight Center 
has got the launch vehicles, both the crew launch vehicle and 
the heavy lift launch vehicle. Kennedy Space Center, of course, 
will be the site for launch operations. Within those broad 
assignments of responsibility are our other seven centers. Each 
will have pieces because the effort overall must occupy all of 
NASA. By mid-May we will be I think prepared to say at the next 
level of detail down which elements of the system are going 
where.

                      VISION FOR SPACE EXPLORATION

    Senator Shelby. The Vision for Space Exploration is an 
initiative that will last a long time. While a lot of interest 
is paid on how much the exploration initiative will cost, an 
area that must also be addressed is the current state of NASA 
facilities. Many of the centers that will play significant 
roles in the Vision have aging infrastructures, we have talked 
about this before, and in many cases, buildings that were 
inherited from other agencies when we last went to the Moon. 
How does NASA address the need for facilities in this budget? 
What are the actual funding requirements to truly address the 
shortfalls in facilities? And do you believe that a worthwhile 
use of the billions in unobligated balances would provide the 
agency with the facilities? How do we attack this, I guess is 
what I'm saying.
    Dr. Griffin. Yes, sir, I understand the intent of the 
question. I must lead by saying that whatever the problem, the 
source of those funds cannot and should not be the unobligated 
balances, because although those are unobligated, in the sense 
that the fiscal accounting people go off in a corner and talk 
about unobligated funds, yes, they are unobligated.
    Senator Shelby. You have specific plans for them?
    Dr. Griffin. Precisely, sir. They are not unspoken for.
    Senator Shelby. That is a good phase, unspoken.
    Dr. Griffin. They are not unspoken for. You raise a very 
important point. NASA's physical infrastructure like many of 
the other bridges, roads, and buildings that are important to 
this country's public life, is an aging infrastructure, much of 
it in our newest buildings in our overall NASA infrastructure, 
all 10 centers. The newest buildings, the newest centers, by 
and large are approaching 50 years old, and many go back to 
World War II, and some are pre-World War II. They are aging, 
they are expensive to heat, and expensive to maintain. In a 
perfect world, we would have plenty of money to fix all those 
buildings. We do not. We have to set priorities.
    If I must be made to choose between executing missions, 
being run out of old buildings, or having new buildings and not 
being able to execute missions, then I'm going to choose the 
former. We replace buildings or modify or upgrade them in ones 
and twos as the need expresses itself, but we simply do not 
have the funding to embark on a substantial building campaign. 
I wish that we did.
    With regard to the buildings, infrastructure, and 
facilities needed for the Vision for Space Exploration, just 
exactly as the launch operations infrastructure at the Cape 
must follow the definition of the launch vehicle and the crew 
vehicle, so, too, must the buildings to support the mission 
follow the definition of all these things. I do not today have 
a plan for you regarding which of our NASA infrastructure we 
need for the future and which should be mothballed or 
demolished. I do not have that plan today.
    Senator Shelby. I agree with you to some extent that the 
mission must go on and just brick and mortar will not do it, it 
has to be beyond that, but sometimes you have to have a little 
brick and mortar to cover the roof.
    Dr. Griffin. You do, indeed. We try in our construction of 
facilities as compared with our mission priorities to set a 
reasonable balance and to make sure that this subcommittee and 
your staff knows where we are on that balance.

                          PROPULSION RESEARCH

    Senator Shelby. On propulsion, the Vision for Space 
Exploration will require many new technologies and systems to 
be developed in order to maximize our investment in returning 
to the Moon. One of these areas that will require ongoing 
research and development is in the area of, as you have told me 
before, propulsion. The Marshall Space Flight Center has 
expertise in this area and has worked on propulsion systems 
from the time of the last missions to the Moon and to the 
present. As research and development on Vision-related vehicles 
and systems begins, what do you anticipate we will need for 
propulsion research and development this year and in the 
future? In other words, where are we going and what do we need 
to get there?
    Dr. Griffin. That is an excellent question, and with all 
respect, the propulsion research needs to implement the Vision 
for Exploration are at this point rather minimal, and likely to 
remain so for a little while. One of the things that I tried 
very hard to do in crafting our exploration architecture was to 
utilize the technology and infrastructure for which the Nation 
had already paid in past years and decades. We have available 
or can restore to production the rocket engines that are needed 
for the Vision for Space Exploration. We have those today, by 
and large. That is not the most critical need. In some cases, 
we may need to resume or restore production on certain units, 
we may need to make modifications, but it is not in the nature 
of propulsion research.
    If we look much further out to when we are really ready to 
go to Mars in another 20 years, I would like to believe that 
the Nation will allocate funding for new propulsion research. I 
would like to believe that the decisionmakers of those later 
times will be able to restore research in, for example, nuclear 
thermal propulsion, one of my highest interest items. We do not 
need that technology for the Moon which means we do not need it 
anytime in the next 15 years, and certainly we do not in the 
next 15 years have the money for it. So what we need to do is 
we need to restore in this Nation's space program basic 
capabilities and basic infrastructure that we once owned and we 
have allowed to atrophy.
    Senator Shelby. When would that research you are talking 
about begin?
    Dr. Griffin. Sometime in the next decade. The research 
levels would begin sometime in the next decade.

     NATIONAL AERONAUTICS AND SPACE ADMINISTRATION'S SCIENCE BUDGET

    Senator Shelby. Dr. Griffin, in order to address the budget 
needs for the exploration program, NASA has reduced the rate of 
growth of the agency's science budget from about 6 percent to 
about 1 percent. I understand that the science budget at NASA 
is on a growth path, although at a reduced rate than previously 
projected. I also understand that the science activities at 
Marshall are actually taking a 10-percent cut over the next 
fiscal years. Would you provide us some insight into that 
reduction?
    Dr. Griffin. I can provide the specifics of that 10-percent 
reduction at Marshall Space Flight Center for the record.
    Senator Shelby. That would be fine.
    [The information follows:]
         Science Reductions at the Marshall Space Flight Center
    In the fiscal year 2007 budget request, there is a reduction of 
approximately 10 percent for Marshall Space Flight Center (MSFC) 
Science activities compared with fiscal year 2006. This is due, in 
part, to the fact that some projects are ending as planned. However, 
since release of the fiscal year 2007 budget, additional work for MSFC 
has been defined in several Science projects, and additional funding is 
likely, particularly in projects with pending competitive selections. 
Additional funding is likely in New Frontiers, James Webb Space 
Telescope, Chandra, Solar Terrestrial Probes, and other areas. When 
this new work (actual and likely) is factored in, fiscal year 2007 
Science funding to MSFC is expected to be equal to or higher than 
fiscal year 2006.
    At the same time, it should be noted that, as one of NASA's premier 
space flight centers, MSFC has been given project management 
responsibility for the new Crew Launch Vehicle (CLV) and Cargo Launch 
Vehicle (CaLV), both critical elements to our Nation's plans for humans 
to explore the frontiers of space. These responsibilities are supported 
by the President's fiscal year 2007 request from Exploration Systems.
    Specifically, Marshall's responsibilities include:
  --Responsible for achieving all CLV and CaLV objectives for the 
        agency.
  --Lead associated systems engineering and integration activities, all 
        CLV and CaLV safety and mission assurance activities.
  --First stage design and upper stage engine development contracts 
        management, as well as leading or otherwise overseeing CLV 
        associated demonstration testing.
  --Responsibility for advanced development flight test-0 and other 
        flight demonstrations.
  --Support responsibilities for the Crew Exploration Vehicle.
  --Support for launch abort systems, service module, and abort test 
        booster.
    Level II or project tasks include:
  --Safety, Reliability & Quality assurance (SR&QA)--Support integrated 
        hazards analysis and probabilistic risk assessment; represent 
        SR&QA at assigned systems integration groups; support quality 
        assurance, risk management, and safety software system 
        development; support Constellation SR&QA panels.
  --System engineering and integration: Co-Lead for several system 
        integration groups including thermal and environmental control 
        and life support, environments, human factors/human rating, 
        loads and structures.
  --Test and verification lead for loads/structures and environments 
        system integration group.
    In support of lunar exploration, Marshall will:
  --Establish a Lunar Precursor and Robotic Program Office, which 
        includes the Lunar Reconnaissance Orbiter and the Lunar Crater 
        Observation and Sensing Satellite.
  --Establish a Lunar Lander Project Office, under the Constellation 
        Program, responsible for performing early trade studies and 
        developing requirements for the Lunar descent stage.
  --Plan to use the Michoud Assembly for CLV and CaLV tank 
        construction.

    Dr. Griffin. But do understand, please, that Marshall Space 
Flight Center is receiving, and will receive substantial 
increases as we embark on the Crew Launch Vehicle Program. So 
although the skill mix of those employed at Marshall Space 
Flight Center may change, the overall employment base at 
Marshall Space Flight Center is and will continue to be quite 
healthy. Yes, it is true, prior to my tenure the science 
community had been promised growth rates of 5, 6, or 7 percent 
in science, but NASA's growth rate as a whole is only 2.4 
percent, averaged over the next several years.
    Senator Shelby. I agree with you that we need more money.
    Dr. Griffin. I did not say that.
    Senator Shelby. I can say it.
    Dr. Griffin. Yes, sir. Within the amount of money that the 
administration has chosen to allocate to the program, I cannot 
have science growing at 6 percent while the agency is growing 
at 2.4 percent and the science program at NASA is a full one-
third of our overall program, and in my judgement, sir, it is a 
very robust program.

                   SPACE SHUTTLE FLIGHT RATE SCHEDULE

    Senator Shelby. Dr. Griffin, assuming a successful shuttle 
launch this summer, NASA will begin a very aggressive flight 
schedule for construction of the International Space Station 
and the Hubble space telescope servicing mission. We pray you 
will be successful there. In order to accomplish the 16 to 18 
flights necessary for these missions and to retire the shuttle 
by 2010, as you mentioned earlier, would require a flight rate 
that has not been achieved for many years. How much 
flexibility, Dr. Griffin, is there in the schedule for the 
remainder of the flights of the space shuttle? Is there any 
room for unexpected delays that will not compromise both the 
retirement date of the shuttle and the completion of our 
agreements on the ISS? And how does NASA intend to balance the 
need for such a sizable workforce to maintain the shuttle 
program until it is retired and at the same time to build up 
Moon missions and so forth? I know it is a tough question.
    Dr. Griffin. But it is a good one, and I understand the 
question, so let me try to answer. First of all, I must simply 
say it is not correct that the fight rate required of the 
shuttle to complete the International Space Station by the 
shuttle's retirement date is something that we have not seen. 
In fact, the required flight rate is nothing more than our 
average flight rate over 25 years of history, and that 
includes, as I know you recall because you have been here, that 
includes basically 6 years of down time due to shuttle 
accidents and other technical problems. So even factoring in 
all of that down time, our average flight rate for the shuttle 
program over 25 years has been 4\1/2\ flights per year. If we 
fly successfully in July or if we fly successfully in September 
and then merely execute our average flight rate for the balance 
of the program, we will finish with margin to spare. So I 
believe we can do it.

                        WORKFORCE TRANSITIONING

    Now with regard to your question about transitioning the 
workforce, you are correct, and I have said this in many 
forums, our biggest challenge over the next 5 years is to 
develop a plan that allows us to fly the last shuttle mission 
as safely as the next one. At the same time, to be able to have 
the appropriately skilled workforce involved with the design 
and development of the replacement vehicle, the CEV, and to not 
damage either program in the process of doing so. We are 
working on that. We spend time on that at every Management 
Council meeting I have in NASA. We care about that problem a 
lot. I have top-level plans that I can share with your staff, 
and are those plans in their detail, we will be happy to share 
those plans with your staff as well.
    Senator Shelby. Thank you very much. I am going to go vote. 
Senator Mikulski has voted, and she is recognized.
    Dr. Griffin. Thank you, sir.

                      AGING AND DAMAGED FACILITIES

    Senator Mikulski. Thank you very much, Mr. Chairman, and I 
know Administrator Griffin, you probably have covered some of 
these issues. We know that you and the NASA budget is under a 
lot of stress.
    Let me go to the question about aging facilities and 
damaged facilities. I know that Senator Shelby talked about the 
aging facility issue. You talked about some of these go back to 
Apollo.
    Dr. Griffin. Or before.
    Senator Mikulski. Yes, sir. But let's go to what was 
damaged because of Katrina, again, acknowledging the 
magnificent efforts of the NASA staff and local responders, et 
cetera. The subcommittee provided $300 and some million last 
year toward this. The President's supplemental request had 
nothing in it. We had $35 million which is just a chunk of 
change. You estimate that it is going to be $500 million to 
really restore these facilities properly. Where are we, and 
where is this money going to come from?
    Dr. Griffin. Yes, ma'am. Yes, Senator Mikulski.
    Senator Mikulski. You need to know I was very disappointed 
that there was not money in the President's budget to do this, 
and it's beyond the scope of an individual Member, for example 
like myself, to find a $500 million offset, and we could not 
take it from the troops.
    Dr. Griffin. Of course not. I'm sorry, the damage estimate 
that we have is just under $500 million, $484 million to be 
specific. As we have continued to refine our estimates, we have 
kept you and your staff current on what those are. And you are 
right, last year the subcommittee, of course, appropriated 
roughly $330 million in supplemental funding to repair the 
damage. The balance of the money must come out of program funds 
which is shuttle and station unless we move money across 
accounts, and that would require special permission from our 
oversight committees.
    Senator Mikulski. How much would you need this year?
    Dr. Griffin. Pardon me?
    Senator Mikulski. No construction occurs at once.
    Dr. Griffin. At once, right.
    Senator Mikulski. What do you think for both Stennis and 
Louisiana would be required for this year?
    Dr. Griffin. I will answer for the record on the phasing of 
the money. The total that we know we need is $484 million at 
this point.
    Senator Mikulski. And that would take care of both?
    Dr. Griffin. That would take care of all years.
    Senator Mikulski. But it would take care of both Stennis 
and Louisiana?
    Dr. Griffin. Yes, Senator.
    [The information follows:]
                      Aging and Damaged Facilities
    After a detailed review by the Katrina Headquarters Recovery Team, 
as of April 25, 2006, the Agency reduced its total estimate of all 
costs for responding to Katrina and for catastrophic risk mitigation 
projects that would protect against future hurricanes to $483.8 
million. This estimate includes the following:
  --Michoud Assembly Facility--$220.2 million;
  --Stennis Space Center--$208.7 million;
  --NASA Shared Services Center--$7.7 million;
  --Other NASA Centers/HQ Support--$8.1 million; and
  --Program Contingency/Reserves--$39.2 million.
    Review of the content of this estimate is ongoing and will continue 
to be revised; NASA will keep the Committee informed of future 
adjustments to the estimate.
    As has been discussed during hearings and in briefings with 
Committee staff, NASA borrowed $100 million in fiscal year 2005 funds 
from the Space Shuttle and International Space Station (ISS) crew/cargo 
programs to provide immediate support of hurricane recovery efforts in 
the Gulf region before any supplemental funds were provided. The intent 
was to eventually repay these programs for this initial outlay of 
funds, and NASA repaid $20 million of the amount borrowed in the May 
update to the fiscal year 2006 Operating Plan.
    NASA currently has available $384.8 million in fiscal year 2006 
funding from two emergency supplemental appropriations and $80 million 
in fiscal year 2005 funding that was borrowed from the Shuttle and ISS 
crew/cargo programs. NASA may repay approximately $20 million in 
additional borrowed fiscal year 2005 funds that are not yet spent in a 
future Operating Plan update. The Agency continues to require transfer 
authority to use up to $60 million in available fiscal year 2006 
supplemental funding to repay the balance of funds borrowed and 
expended in fiscal year 2005 to allow the Agency to adequately fund the 
requirements of the Space Shuttle and ISS programs.
    Hurricane-related Center recovery and operations costs, along with 
real property repairs and programmatic recovery requirements are 
accommodated within the current funding availability. Catastrophic loss 
mitigation projects will be addressed on a priority basis depending on 
the availability of funding.
    The following Center recovery operations, real property repairs, 
and programmatic recovery activities are likely covered within 
available funding:

                        [In millions of dollars]
------------------------------------------------------------------------
                                                          Estimated Cost
------------------------------------------------------------------------
                  STENNIS SPACE CENTER

Center Recovery Operations Support......................           17.0
IT/Communications/Environmental/Other...................            6.0
Programmatic Recovery...................................            3.0
                                                         ===============
Real Property Repairs...................................       \1\ 82.61
    Repair Site wide Electrical Distribution System.....            7.79
    Repair/Replace Roofing Various Administration                   7.95
     Buildings..........................................
    Replace Bldg 2204 Roof..............................            7.91
    Repair Administration Building 1100.................            7.65
    Repair and Replace Perimeter Fencing................            7.95
    Replace Bldg 1100 North Wing & Bldg 1105 Roof.......            1.03
    Repair Bldg 2205 High Bay Roof (complete)...........             .73
    Repair Building 1100 North Wing--Interior...........            2.70
    Site wide Mold Remediation and Asbestos Abatement...            2.44
    Replace Bldg 2201 Roof..............................            3.50
    Repair/Replace Roofing Various Industrial Complex               1.74
     Buildings..........................................
    Repair/Replace Roofing Various Test Complex                     1.99
     Buildings..........................................
    Site wide Debris Cleanup............................            1.59
    Replace Bldg 8100/8110 Roofs........................            3.04
    Site wide Lightning Protection Repairs (Multiple                 .80
     Projects)..........................................
    Relocate Roads and Grounds Building.................             .87
    Repair and Pave Roads for Heavy Vehicles............            2.88
    Education Center (Replacement for Bldg 1200)........            1.93
    Site wide Electrical Panel Enhancements and Database            1.06
    Local Projects (<$500,000) and Maintenance Items....            7.06

                MICHOUD ASSEMBLY FACILITY

Center Recovery Operations Support......................           20.9
IT/Communications/Environmental/Other...................            2.4
Programmatic Recovery...................................           42.5
                                                         ===============
Real Property Repairs...................................       \2\ 69.00
    Hazardous Materials Investigation...................             .05
    Repairs of B103, Phase 1............................            2.50
    Repairs of B451, Phase 1............................             .75
    Repairs of B114.....................................             .60
    Repairs to Damaged Elevator B110....................             .10
    B303 Temporary Roof Repair..........................             .09
    TBD Projects during test and checkout...............             .50
    MSFC--COSS Contractor Support for damage assessment.             .04
    MSFC--M1 Yard Roof Repairs..........................             .01
    MSFC--Remove Damaged Trees and Repair B4707 Tower                .02
     Roof...............................................
    Work Plans for B420, 110, 114, 103, 303, 451, 220,               .94
     101, 102, 173, 175, 320, 404.......................
    Local Projects (<$500,000) and Maintenance Items....            5.21
    Repairs of B110, Phase 2............................            6.40
    Repairs of B173.....................................            2.02
    Repairs of B175.....................................             .68
    Repairs of B220.....................................            1.37
    Repairs of B303.....................................            6.60
    Repairs of B320A....................................            1.54
    Repairs of B320B....................................             .94
    Repairs of B404.....................................            1.49
    Repairs of B420.....................................            5.63
    Repairs of B103, Phase 2............................            4.77
    Repairs of B451, Phase 2............................            1.50
    Repairs of B101.....................................            5.04
    Repairs of B102.....................................            8.22
    Repairs B75, 105, 106, 107, 109, 113, 119, 127, 130,           12.00
     131, 135, 140, 171, 176, 177, 178, 179, 201, 203,
     206, 207, 221, 232, 239, 301, 302, 304, 305, 307,
     308, 318, 321, 327, 329, 359, 351, 360, 361, 406,
     409, 421, 423, 424, 419, 450, 480, 485.............

               NASA SHARED SERVICES CENTER

Recovery/Workarounds....................................            7.7

          OTHER NASA CENTERS/HQ SUPPORT/RESERVE

Center Recovery Operations Support......................            2.2
Other General Support...................................            4.0
FEMA Volunteers.........................................            1.9
Program contingency/Reserves............................           39.2
------------------------------------------------------------------------
\1\ Does not include $13.7 million in program manager reserve.
\2\ Does not include $10 million in program manager reserve.

    The following potential catastrophic loss risk mitigation projects 
been identified. Unless noted, the majority of these projects have not 
yet been approved for funding. Projects for each Center are listed in 
order of priority.

                        [In millions of dollars]
------------------------------------------------------------------------
                                                          Estimated Cost
------------------------------------------------------------------------
                  STENNIS SPACE CENTER

Hurricane Proof Emergency Operations Center.............       \1\ 14.90
Replace and Enhance Backup Generator Capability Site-               3.00
 wide...................................................
Enhance Site-Wide Electrical Distribution System                   18.65
 Hardening..............................................
Add Additional Bulk Diesel Storage......................             .50
Enhancement to Potable Water Pump Houses................             .10
Emergency Communications and EMCS Enhancements..........             .90
Hurricane Proof Record Retention Facility...............            2.50
Relocate Electrical Equipment Building 1200.............            1.00
Expand and Enhance Communication Ductbank...............            3.00
Inspect Bridge and Locks................................            1.00
Dredge Canal............................................            3.00
Enhance Administration Building 1100....................            3.00
Test Complex High Pressure System Uninterruptible Power.           30.00
Design Cost (6 percent).................................            4.89
                                                         ---------------
      Total.............................................           86.44
                                                         ===============
                MICHOUD ASSEMBLY FACILITY

Upgrades to Pump House..................................       \2\ 11.00
Install levee floodgate at barge dock...................             .70
Upgrades to Emergency Operations Building...............        \2\ 3.30
Rewire security cameras to operate on emergency power...         \2\ .70
Replace electrical feeders on poles below ground........            5.00
Reconfigure computer servers to provide critical ops                5.00
 during severe weather..................................
Replace main manufacturing building exterior siding.....            7.00
Levee improvements (requires Corp of Engineers                      5.00
 coordination and app)..................................
100 percent increased labor, materials, and                        37.7
 transportation costs...................................
                                                         ---------------
      Total.............................................           75.4
------------------------------------------------------------------------
\1\ Project is approved for funding. The total project cost is $21.4
  million; the remaining $6.5 million will be funded with fiscal year
  2005 Institutional CofF funds.
\2\ $1.7 million in funding has been approved for MAF projects as
  follows: $300,000 for designs and studies, $600,000 for remote
  controls for the existing Pump House, $500,000 for relocating the MAF
  Emergency Operations Building, and $300,000 for security cameras. The
  ``Install levee floodgate at barge dock'' project will be approved for
  funding as soon as design is complete.

                            CUTS IN SCIENCE

    Senator Mikulski. As we look ahead to our own mark up, I 
have not had a chance really to confer with Senator Shelby in-
depth until we complete all of our hearings. We have heard from 
Justice, the Byrne grants and COPS Programs have been cut. This 
is not to lay this on you. In just looking at NASA and know 
that it was flat-lined now and it has been flat-lined under 
this administration and the previous one, President Clinton, I 
feel we need more money. One of the things that I am going to 
suggest to Senator Shelby is that we look at the repair related 
to the Katrina damage in some kind of an emergency way so that 
it does not add further stress to the NASA budget. I don't even 
know if it is possible, but I am looking for legitimate ways to 
bring other revenue into our subcommittee, so just know that. 
That is why the sequencing of how much, so that we do ask for 
or even ponder appropriate amounts. You need to have your 
facilities, dedicated people have to work somewhere, and we 
have to be dedicated in restoring it as they did to protecting 
it.
    Your comments were don't rob Peter to pay Paul, don't go 
after the science budget, to some back to the other priorities, 
but in some ways I feel that is what we are doing. We are 
juggling and rearranging, and that you robbed Paul to give it 
to Peter, and you are telling us don't rob Peter to give it 
back to Paul. We don't see it as robbing, we see it as a give-
back.
    Could you tell us about the consequences of this deferral 
in science? I know you are committed to science programs, but 
we are troubled about the cuts in science. Could you tell us 
what you think the consequences are in this deferral? We are 
particularly concerned about all science. We are concerned 
about the impact on big science as people talk about it, the 
Webb telescope mission, like Earth science and some of the 
others? Could you share with us?
    Dr. Griffin. At the top level I can, and, again, as always 
I am happy to coordinate details with your staff at your 
discretion.
    Yes, I did propose and I am proposing taking money from 
both exploration and science in order to pay our bills for our 
nearer-term priorities to finish out the station and fly out 
the shuttle. The shuttle and station accounts as we both know 
when I took this job in the out-years had placeholder amounts 
in them. We did not have realistic amounts. Those were in the 
out-years at the time. The out-years have arrived, and if we 
are going to fly the shuttle and finish the station, then those 
bills had to be paid, and the only other source of money was 
exploration and science. So that is why I did what I did.
    As to the impact of deferrals, first of all, James Webb 
telescope mission as I think everyone knows is the National 
Academy's highest priority in their decade-old survey plan for 
astronomy, and that priority continues to be respected. James 
Webb telescope mission may be delayed a bit, but only because, 
I exaggerate to make a point, about 15 minutes after I was 
confirmed, the folks on the James Webb Program brought to me a 
$1 billion plus overrun on the program which is presently in 
its formulation stages. So we are currently in the middle of 
re-baselining that program not, to alter its priority within 
the queue. But I do not have over that time period an extra 
billion dollars laying around to fix it. So it will slip a 
little bit in schedule, not because of anything going on with 
the shuttle and station, but just because it is overrun.
    With regard to Earth science, before I took office, Earth 
science had been I would say damaged in the budgetary planning, 
and I have acted to restore that. It is not all the way back, 
but I know that you know, and that your staff will tell you, 
that I have acted to restore that as I have with heliophysics, 
but I cannot do it instantaneously.
    Senator Mikulski. They have shared that with me, and I 
appreciate it.
    Dr. Griffin. Other missions that we believe are very 
important to do like the space interferometry mission will be 
delayed for a couple of years.
    Senator Mikulski. So could I say what you are saying is 
though that they have not been eliminated, they have been 
deferred?
    Dr. Griffin. Correct.
    Senator Mikulski. But given where we are, do you think is 
deferral going to become a de facto elimination in some 
categories? I am not going to ask you to enumerate.
    Dr. Griffin. There may be smaller missions which just will 
not make the cut, but the major mission priorities that had 
been established and were on the table when I took office will 
continue to be respected. We must defer something. We will 
either defer the CEV, the Nation's replacement for the shuttle, 
or we will defer some of these science missions. In truth, I 
have delayed both of them a bit and I would be very 
uncomfortable delaying the CEV any more.

                             SPACE SHUTTLE

    Senator Mikulski. This brings me back to, first of all, 
Senator Shelby and me, and the whole committee, we are 
absolutely committed to the shuttle mission. The safety of the 
astronauts is a committee obsession that we share with you, so 
we know that is the priority. Second, I appreciate your 
willingness to consider a Hubble rejuvenation mission.
    Dr. Griffin. If we can possibly do Hubble, we will do 
Hubble.
    Senator Mikulski. And I understand now that it is up to the 
technical matters, but I appreciate your commitment to analyze 
as we progress, so we know what that is going to take, but we 
do not know how much more it is going to take. Am I correct? 
And it has cost $2 billion more to do the shuttle and return to 
flight than we had originally anticipated. And that is not a 
fault-finding. It is just a fact-finding.
    Dr. Griffin. Of course. I understand. I just want to answer 
accurately. We needed $3.8 billion more to fly out the shuttle 
and finish the station; $3.8 billion more was needed for those 
accounts than was bookkept in those accounts in the fiscal year 
2006 run-out. So as we prepared the fiscal year 2007 run-out, 
we had to fix that problem, so the total was $3.8 billion.
    Senator Mikulski. I am glad we are getting this out in the 
sunshine, quite frankly, because the only way we can truly get 
the proper national priorities, and the framework is there, but 
in other words, you inherited something that you have had to 
straighten out and get real life-cycle costs and accounting 
into it. Am I correct?
    Dr. Griffin. Yes, Senator. The way that I would phrase it 
is to say that, in having decided a couple of years ago that we 
would retire the shuttle, there was considerable uncertainty as 
to how much the run-out costs would be in retirement. As we 
have analyzed it as carefully as we can, we have concluded that 
the run-out costs to retire it do not drop off as rapidly as--
--
    Senator Mikulski. We are committed to this, and, again, I 
think I feel secure in saying this, I liked what you said when 
you said the next shuttle flight is going to be as safe as it 
possibly can be made, but that the last shuttle flight will be 
as safe. So we have a big kind of shaking-hands commitment that 
we need to make with you to ensure that safety of the next 
astronauts or the last astronauts to fly that shuttle, so we 
are in agreement with that. Then that is like a fixed cost that 
we have to almost be neurotic about. Am I correct?
    Dr. Griffin. Exactly, Senator. Exactly, and I have been 
neurotic about it, and the amount was $3.8 billion.

                      INTERNATIONAL SPACE STATION

    Senator Mikulski. I say that, because, again, it is the 
safety of our people.
    That takes me then to the station itself. Having done that, 
completed it, do all those things along the questions that 
Senator Shelby has raised, the 16 flights, et cetera, are we 
going to use the station? And how are we going to get to the 
station to use the station? Soyuz has been a lifesaver, but it 
is little, it cannot do cargo.
    Dr. Griffin. You are right, Senator.
    Senator Mikulski. We have this fantastic machinery at 
tremendous cost to build and maintain.
    Dr. Griffin. Let me try to answer.
    Senator Shelby. Is this going to be a techno-whoops? Then 
what will that take if we are talking about science and Webb 
and going to the Moon and so on? Or is this going to be one of 
those, well, now we have it, but we cannot afford to use it?
    Dr. Griffin. I certainly hope not. For the station for the 
next few years, the choices which confronted us were, given the 
available shuttle flights, that we could use the station 
approximately as it exists today, which is fairly stable but 
does not have much power and does not have a lot of research 
facilities, we could use it to a very limited extent. Or we 
could finish assembling it but not use it. I do not have enough 
shuttle flights to assemble it and utilize it at the same time. 
We have talked about this, we have committed to finishing the 
assembly.
    As the assembly is finished, it will be the full-up station 
that you have come to know and love with substantial research 
capability and a crew of six. In the period between retirement 
of the shuttle and deployment of the CEV, we will have no 
choice but to depend on international partner logistics and 
resupply. Or if our COTS initiative, our commercial initiative, 
works well, we hope that we may be able to bring some U.S. 
commercial capability on-line with seed funding from NASA. But 
the CEV, which is, of course, intended to service the station 
as well as go to the Moon, will not be available for 
operational use until, at this point, 2013-2014.
    Senator Mikulski. Then my question is, why should we do 
this now if we are not going to use it? We thought we are going 
to build it and they will come, but we are going to be building 
it but we cannot get there. I have not been harsh or sarcastic, 
and yet we are making a tremendous investment for the shuttle 
to go up there, for the safety of our astronauts, only then to 
complete an assembly of something.
    Dr. Griffin. We can use the station in concert with our 
international partners, and we can use it as soon as the CEV 
becomes available, and this, of course, addresses the gap that 
you have been so forceful about, and we can use it if we can 
get some commercial capability in space flight.
    Senator Mikulski. There are a lot of ifs.
    Dr. Griffin. But with our existing budgetary resources, 
there will be a gap between retirement of the shuttle and 
deployment of the CEV.
    Senator Mikulski. I think this is a dilemma.
    Dr. Griffin. Yes, Senator, it is.

                         INTERNATIONAL PARTNERS

    Senator Mikulski. Within the scope of the hearing it is 
difficult to discuss, and I am not advocating what we should 
do, but I am advocating that we need to come to grips with this 
dilemma, and a tremendous cost to finish our commitment. What 
do our international partners say about this, Dr. Griffin? 
Would they be able to use it? They have been very patient and 
steadfast, I think, in their ongoing commitment, and the 
Russians have proved to be a fairly reliable partner.
    Dr. Griffin. All of that is true. You, I believe, 
understand the situation perfectly. The international partners 
are appreciative of the renewed United States commitment to 
finish the station, because unless it is finished, the 
laboratory modules that they have worked on for many years will 
not fly. So they are appreciative of that. They, we, and I are 
concerned about what we will do in the period following 
retirement of the shuttle and prior to deployment of the CEV. 
We, as you say, are very grateful to our Russian partners for 
the reliability with which the Soyuz and Progress systems have 
worked, but they have, frankly, very minimal capability to 
really utilize the assets of the station and other partner 
capabilities.
    Senator Mikulski. So it will be hard for our international 
partners to get up there to use it.
    Dr. Griffin. Until we have the CEV deployed, right.
    Senator Mikulski. Let me try to get a timeframe. If 
everything works the way we hope and anticipate, when will the 
completion of the assembly of the station be done?
    Dr. Griffin. 2010.
    Senator Mikulski. Then at the same time, that is when you 
hope to retire the shuttle upon the completion?
    Dr. Griffin. Correct.

                        CREW VEHICLE DEVELOPMENT

    Senator Mikulski. Then with hopefully the new crew vehicle, 
with your time table, that would be 2013?
    Dr. Griffin. The first test flight, which is not the same 
as an operational flight, of course, of the CEV, at this point 
with the resources we believe we have to bring to bear on it, 
we project for 2012, and then operational use would be in the 
2013-2014 timeframe.
    Senator Mikulski. So there will be 4 years in which the 
United States of America will, number one, have a space gap? 
And, number two, 4 years where the station will be up there but 
will not be utilized, and I presume could even begin to 
deteriorate. Space, as you would share with me, is a harsh and 
demanding environment. I wonder where we are going here with 
the station.
    Dr. Griffin. That is, on the face of it, correct. I remind 
you again that we have the ISS Crew Cargo Program, our 
commercial orbital transportation or COTS initiative, where we 
are making available as seed funding to industry $500 million 
over the next few years to bring on-line, hopefully, a 
capability to ferry cargo and later crew to and from the 
station. If that works and industry invests, they stand to make 
a good profit, and we stand to be able to buy services.
    Senator Mikulski. First of all, we have been through the X-
Plane, and X-Planes have not come out too well. I would hope 
that the private sector could develop a cargo vehicle.
    Dr. Griffin. I hope they can. I hope they can. I consider 
it be a good gamble. It is well past time for NASA to do 
everything it can to stimulate commercial space transportation 
capability, and I am trying to do that. But you raise an 
excellent point, we cannot count on it.
    Senator Mikulski. And we will not know until 2012 whether 
it is going to happen. Is there any way you can accelerate in a 
prudent way, prudent, again, meaning always the safety factors, 
and prudent in fiscal reality, the development of a crew 
vehicle?
    Dr. Griffin. Again, Senator, not without moving money from 
other things which we all also like.
    Senator Mikulski. What do you think from a technological 
and engineering standpoint, and you are the expert in this?
    Dr. Griffin. From a technical and engineering standpoint, I 
could have a crew vehicle deployed in 2011, following right on 
the heels of the shuttle, from a technical and engineering 
standpoint.
    Senator Mikulski. What would it take to do that?
    Dr. Griffin. Fiscally I will have to take that for the 
record. I do not have that in my head because that is not a 
program we have been studying. We know we do not have that 
money, and so we are funding limited, as you have said.
    Senator Mikulski. Again, I do not know if we could even 
contemplate that. I know our colleague, Senator Hutchison has 
raised that with you yesterday at the Commerce hearing in which 
you testified.
    Dr. Griffin. She did.
    Senator Mikulski. I know we are troubled by the gap, and 
yet we do not want to take from Peter to pay Paul, and we do 
not want to take from Paul to pay Peter.
    Senator Shelby. Senator Mikulski, if you would yield, it is 
obvious that we need more money to fund NASA.
    Senator Mikulski. I think that that is it, Mr. Chairman, 
and that is where I was trying to ponder as we went through 
this.
    Senator Shelby. Absolutely. You are absolutely right.
    Dr. Griffin. From a technical point of view, the crew 
vehicle could be delivered to you in 2011. Anything after that 
is controlled by the funding.
    Senator Mikulski. Why don't you share with us what you 
think would be a realistic option?

                          AERONAUTICS RESEARCH

    One last point which goes to the aeronautics issue when we 
talk about commercial cargo in space. I really do not want us 
to lose ground aeronautically in the international marketplace, 
and I know we have declined an aeronautic research at 18 
percent. What do you think we can do about this? Again, I am 
concerned about the consequences, not only in futuristic sonic, 
hypersonic flight, but even aviation safety. We have a 
consortium in Maryland that is working on cockpit safety. One 
is at our historically black college, Morgan, the largest 
producer of African-American engineers in the State, and maybe 
even in the country. They are so enthusiastic. They feel they 
are working on things that are going to spur our economy, and 
working on cockpit safety. That is the next generation. They 
will be sitting there 20 years from now. So what can we do?
    Dr. Griffin. I am ready to give it to them sooner if you 
would like. With regard to aeronautics research, I share your 
concern. I think when you look at the loss of competitiveness 
in aeronautics to which you refer and that you see about you 
today, I believe that in actuality that is a consequence not of 
funding decisions, but of strategic decisions, what the money 
is spent on, that go back a decade or two.
    We have not in my opinion been doing in some areas the 
right things with our aeronautics funding. We are recrafting 
our Aeronautics Program to focus on basic aeronautical science 
which underlies the entire discipline of all flight regimes to 
learn new things and to be out at the frontiers of the state of 
knowledge in aeronautics. That, I believe, is in past decades 
what provided the kind of capability that allowed American air 
frame manufacturers to be second to none.
    When we started focusing on demonstrations and point 
designs and things that were off the beaten track for NASA's 
research skills, I believe that is when we started to lose 
ground. So I am trying to recraft and put into place----
    Senator Mikulski. Is that what we will get in the December 
report?
    Dr. Griffin. Yes, ma'am, that is what you will get.
    Senator Mikulski. What I would hope we could try to do, 
Senator Shelby, is stay the course or do a bit better, but that 
we really join hands and focus on this, because I think we are 
going to win the international markets not because we are going 
to be the most subsidized like other countries, but because we 
are going to be the smartest and the best, and we want to help 
you get there.
    Dr. Griffin. We have to be the best.
    Senator Mikulski. Mr. Chairman, I think I have gone over my 
questions.

                    AMERICAN COMPETITIVE INITIATIVE

    Senator Shelby. No, you have asked some good questions. Dr. 
Griffin, I will get into the American competitiveness 
initiative. I was surprised to see that NASA was not included 
as part of the American competitiveness initiative, ACI. The 
goal of ACI, as I understand it, is to ensure that the United 
States prominence in technology and our continued 
competitiveness in an ever-evolving global economy and ensure 
that we are there. Your stated goals for the education 
component of NASA's budget are to strengthen the Nation's 
future workforce, attract and retain students in science and 
engineering, as in your own background, and to engage Americans 
in NASA's missions, coupled with high public visibility and 
recognition that NASA enjoys. It seems that NASA would be a 
natural fit for such an initiative. Why was not NASA not 
included in this initiative in your judgment? I was surprised.
    Dr. Griffin. Senator, I have spoken with Dr. Marburger on 
precisely that issue, and the point that I would make is that 
the ACI was designed to target those agencies or portions of 
agencies such as physical science within the Department of 
Energy, which have not received good support in the recent past 
and which need significant help to get back to even. NASA 
received a 3.2 percent increase even without being part of the 
ACI in an environment where overall domestic nondefense 
discretionary funding is down by one-half of 1 percent. So NASA 
was treated by the President 3.7 percent better than the 
average domestic discretionary nondefense agency.
    It is hard to do better than that. I believe that we were 
well treated within the context of the overall administration, 
and to be part of the American competitiveness initiative was 
not really on point.
    Senator Shelby. I think it was not either.
    Senator Mikulski.
    Senator Mikulski. Senator Shelby, I just want to comment 
and share this with Dr. Griffin. I was part of a group at the 
White House with Senators Alexander and others talking about 
this, and I asked the President the same thing in a very 
cordial way because I thought his Mars statement was to inspire 
the next generation, and they said that they were going to give 
it more consideration. I wanted to follow-up with some of the 
staff.
    Senator Shelby. I think you are absolutely right.
    Senator Mikulski. Perhaps that is something that you and I 
could follow-up with.

                       CHAIRMAN'S CLOSING REMARKS

    Senator Shelby. We could work together because we think it 
is important, and Dr. Griffin is a product of it himself of 
many years.
    If I could, Dr. Griffin, I want to thank you on behalf of 
the subcommittee for your appearance here. We both are 
committed to NASA and we want to continue to work with you. I 
personally believe that NASA is still underfunded, as Senator 
Mikulski does.
    Senator Mikulski. Yes.
    Senator Shelby. We know that it is a tough environment, but 
we have some, I think, lofty goals out there and we want you to 
implement them, and you have the capability to do that.

                     ADDITIONAL COMMITTEE QUESTIONS

    We appreciate your appearance before the subcommittee 
today. There are a number of Senators, and we have been voting, 
and I keep the record open where they can submit questions for 
the record. I am going to ask you to, if you could, respond to 
them no later than June 9, which is a month or so.
    Dr. Griffin. We absolutely will do that, sir.
    [The following questions were not asked at the hearing, but 
were submitted to the agency for response subsequent to the 
hearing:]
            Questions Submitted by Senator Richard C. Shelby
                          financial management
    Question. NASA was recently cited for violation of the 
Antideficiency Act (ADA). According to the Inspector General, a lack of 
internal controls within the Office of the Chief Financial Officer 
(OCFO) was a major cause of the violations. It is also troubling that 
the Inspector General was unable to determine the exact size or number 
of ADA violations due to the unreliability of the agency's financial 
management system.
    What are the Agency's plans for addressing the material weaknesses 
in internal controls that have been reported for several years?
    Answer. NASA's independent financial auditors identified three 
material weaknesses and one reportable condition through its fiscal 
year 2005 financial audit. The weaknesses are repeat findings from 
prior financial audits. NASA submitted a Corrective Action Plan in 
February 2006 to Congress, OMB and NASA's Office of Inspector General 
(OIG) that addresses each of the recommendations made by the 
independent financial auditors. NASA has been executing this plan 
throughout fiscal year 2006.
    For your convenience, we have attached NASA's Financial Management 
Corrective Action Plan, which provides a complete list of in-process 
actions to address each material weakness.

 Corrective Action Plan Fiscal Year 2005 Financial Audit--February 15, 
                                  2006

                   CHIEF FINANCIAL OFFICER'S MESSAGE

    I am pleased to present the National Aeronautics and Space 
Administration's (NASA) financial audit corrective action plan. 
Achieving financial management excellence is essential to achieving 
NASA's Vision for Space Exploration. Efficiently managing all of our 
precious resources will maximize the opportunities for creative and 
safe programs and projects. In the Office of the Chief Financial 
Officer, from Headquarters to Field Centers, we are working hard to 
improve the financial management of our Agency.
    Reviewed by NASA's Office of Inspector General, the plan represents 
the collaborative efforts of the Office of the Chief Financial Officer, 
the Integrated Enterprise Management Program (IEMP), and the Office of 
Infrastructure and Administration. The plan articulates NASA's strategy 
for eliminating the root cause(s) of the four reportable conditions 
(three of which are material) identified in the 2005 financial audit:
  --1. Financial Systems, Analyses and Oversight (material weakness)
  --2. Fund Balance with Treasury (material weakness)
  --3. Property, Plant and Equipment (material weakness)
  --4. Environmental Liabilities
    For each of the four reportable conditions and related 
recommendations, the plan defines NASA's goals, objectives, strategies, 
activities, due dates and responsibilities for execution. Progress will 
be monitored throughout the execution of this plan.
    Our ability to improve the quality of the Agency's financial 
information, to better manage our assets, and to achieve business 
efficiencies is dependent on the successful execution of this plan with 
the support of the entire NASA community. NASA has always had a well-
deserved reputation for successfully meeting challenges head on, and 
this effort will be no different.
                                           Gwendolyn Sykes,
                                           Chief Financial Officer.
    introduction to the financial audit corrective action plan (cap)
    This corrective action plan addresses the material and significant 
weaknesses identified through NASA's 2005 financial audit. Those 
weaknesses reflect process, system and internal control issues that 
cross NASA functional areas, including procurement, infrastructure and 
administration, systems management, and financial management. 
Accordingly, this plan was developed through a coordinated effort with 
all NASA organizations that have a critical role and primary 
responsibility in the execution of it. In addition, the NASA Office of 
the Inspector General (OIG) reviewed and provided comments to this 
plan. The OIG's comments were considered in the final product.
    For each noted weakness, this plan documents the goals, objectives, 
strategies and planned corrective actions determined to be the most 
effective and efficient means for mitigating or eliminating those 
weaknesses. Through the course of implementation, changes to strategies 
or corrective actions may be either required or advisable given new 
information or events. The implementation approach and progress toward 
plan goals and objectives will be monitored, and plan adjustments made, 
by the Office of the Chief Financial Officer on a regular and ongoing 
basis until the those goals and objectives have been met. Status 
reviews will be conducted with NASA's Deputy Administrator.
    The weaknesses addressed in this plan are not new to NASA's 2005 
financial audit. They have, in fact, been noted in previous NASA 
financial audits. Significant work has already been performed to 
address them. The repetition of the recommendations is an indication of 
the technical complexity and organizational breadth of the issues. This 
corrective action plan reflects the work planned by NASA organizations 
over the next year, and highlights the work performed in previous years 
to address the audit recommendations. The integration of strategies and 
plans from multiple NASA organizations is an important success factor 
and reduces the risk of potentially disjointed, non-complementary 
solutions to common issues. Several other challenges to the successful 
accomplishment of plan goals have been identified and will be managed 
throughout plan implementation. These include:
  --Resource constraints. Sufficient resources to appropriately staff 
        the corrective action implementation teams have not yet been 
        fully secured. Authority for additional Office of the Chief 
        Financial Officer staff at both Headquarters and Field Center 
        locations was provided by NASA's Administrator in 2005. The 
        OCFO is in the process of hiring additional staff to support 
        NASA's financial management improvement initiative efforts. 
        While additional resources are being secured, there is a 
        familiarization and training lag before these resources are 
        fully able to contribute. Other areas of NASA, such as asset 
        management, which are critical to the success of this plan, 
        have identified additional staffing needs for which staffing 
        plans will be developed. These plans will identify staffing 
        shortfalls and associated options.
  --Change management. The anticipated process changes necessary to 
        resolve NASA's identified weaknesses, particularly in the area 
        of Property, Plant & Equipment (PP&E), will impact the way 
        business is conducted at NASA. These changes will require a 
        significant portion of NASA's workforce, both institutional and 
        programmatic, to change the way they currently perform their 
        daily activities. Communicating the need for change, 
        documenting new procedures and delivering training are key 
        elements embedded in each of the corrective action initiatives. 
        Additionally, initiative owners will work with NASA leadership 
        to build buy-in and support at the most senior levels of the 
        organizations for the changes that must take place. The strong 
        commitment provided by NASA's Executive leadership will be a 
        major factor in overcoming this challenge.
  --External support. Some of the proposed strategies--such as those 
        for PP&E and Environmental Liabilities--include changes to 
        policy or procedures that will require support from NASA 
        vendors and contractors. Just as process changes will impact 
        employees' daily activities and procedures, so will they impact 
        the activities and reporting requirements of NASA's vendors and 
        contractors. Contract changes, procedural changes, reporting 
        changes; all will take time and money to implement. Through the 
        course of executing the improvement initiatives, the OCFO will 
        be evaluating the risk, cost, benefit and trade-offs of each of 
        the changes that may be required to ensure the actions taken 
        are the most cost effective.
    While the challenges and risks are considerable, the strategies and 
plans presented in this corrective action plan are designed to achieve 
NASA's goals and objectives within the targeted timeframes.

                 CHAPTER 1: FINANCIAL AUDIT IMPROVEMENT
                WHY NASA NEEDS A CORRECTIVE ACTION PLAN

    NASA's vision for Space Exploration is an ambitious and bold 
journey into areas of space that man has never visited and into areas 
of science and research that man has yet to fully comprehend or master. 
Complex research and development projects, like those at NASA, require 
effective project planning and management to meet quality, schedule and 
budget requirements. Having ready access to accurate and reliable 
financial information is critical for NASA's program and project 
managers to achieve their own technical goals. Budget constraints 
combined with the uncertainties inherent in primary research and 
development further highlight the need for effective program and 
project financial management information.
    While NASA's program and project managers are the ultimate users of 
financial information, NASA management and external stakeholders have 
an important need for information that helps them to prioritize the 
allocation of scarce Federal dollars. Congress and the White House must 
be assured that NASA is using its resources in the most effective 
manner to achieve the goals they have set for the Agency. Only through 
well designed and implemented processes and systems, effective internal 
controls and well trained and disciplined staff will the Agency be able 
to deliver the fidelity of financial information that is required.
    Today it is clear from audit reports and the OCFO's own analysis of 
its processes, systems and data that improvement is necessary before 
the required fidelity is achieved. This comprehensive and integrated 
financial audit corrective action plan is an important tool for 
organizing and efficiently managing NASA's financial audit 
improvements. The problems cited in IG audit reports did not appear 
overnight; nor will they disappear quickly, either. This plan is a 
realistic reflection of the time and effort required to make the 
necessary improvements.
    This plan takes a holistic view of the financial management 
challenges at NASA. It recognizes the interrelatedness of process 
across the organization; how problems in an operations process can 
ultimately contribute to problems with how costs are captured and 
reported in financial management processes. With that perspective, this 
plan identifies and resolves the root causes of NASA's financial audit 
weaknesses.

                    WHAT THE CAP IS AND WHAT IT DOES

    NASA's financial audit corrective action plan (CAP) is NASA's 
response to the financial audit recommendations made by IG auditors in 
the 2005 financial audit. The CAP is organized around the reportable 
conditions contained in the auditor's Report on Internal Control (NASA 
Fiscal Year 2005 Performance and Accountability Report, pages 190-212). 
For each reportable condition, the plan is further organized by the 
specific recommendations contained in the Report on Internal Control. 
For each recommendation, NASA has developed, and has begun 
implementation of, logical, interdependent sets of specific actions 
that directly address that recommendation. The CAP lays out how NASA 
will address each recommendation made by the IG auditors. The 
graphicdepicts the layout of the plan for one sample reportable 
condition.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The CAP is designed to provide NASA's framework for resolving the 
internal control and management weaknesses identified by the IG 
auditors. These extend beyond financial accounting into the operations 
of the agency. Effectively resolving the identified weaknesses will 
take a coordinated and integrated effort involving the support, buy-in 
and ownership of many NASA offices and directorates. Affected 
organizations have been involved in the creation of this plan, and, in 
many cases, have been assigned the primary responsibility for taking 
the necessary actions to resolve the identified weaknesses.
    The financial audit CAP is a living document. Performance against 
the plan will be monitored on a regular basis and initiatives will be 
adjusted as needed to ensure that results continue to meet the goals 
and objectives of the plan. The plan projects actions and target dates 
for resolving the issues. All projections are based on currently known 
information and may change over time.
        linking the cap to nasa's financial leadership plan (rp)
    In 2004, NASA's Office of the Chief Financial Officer published a 
four-year Financial Leadership Plan. This plan lays out the vision for 
financial management at NASA through three comprehensive goals:
  --1. Provide the Agency's Mission Directorates and Mission Support 
        Areas with the financial knowledge, information and tools 
        required to effectively manage programs, projects, institutions 
        and overall NASA resources.
  --2. Ensure that all stakeholders have a clear understanding and 
        accurate assessment of how NASA resources effectively and 
        efficiently support NASA's vision.
  --3. Enable the OCFO workforce to provide world-class management and 
        processes in support of the Agency's Mission Directorates and 
        Mission Support Areas.
    Each of these four-year goals is supported by a set of one to two-
year objectives. Each objective, or set of objectives, has associated 
with it initiatives intended to help NASA achieve that objective. 
Financial Leadership Plan initiatives are solution sets to known issues 
or improvements to current operations that contain specific activities 
scheduled, sequenced, and assigned in documented project plans. These 
initiatives are led by staff members from headquarters or one of the 
NASA Field Centers, and staffed by appropriate subject matter experts 
from across NASA. The graphic depicts the relationships throughout the 
planning process.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    This corrective action plan represents one set of initiatives that 
specifically addresses NASA's ability to provide accurate, reliable and 
timely financial information to decision-makers and external 
stakeholders. The Financial Leadership Plan includes other financial 
management improvement initiatives not directly linked to NASA audit 
recommendations.

                          MANAGEMENT OVERSIGHT

    NASA's commitment to making financial management improvements is 
evident at all levels of the organization, not just in the Office of 
the Chief Financial Officer. This plan was developed through a combined 
effort of the owners and operators of both the financial and those non-
financial processes that are contributing to the identified weaknesses. 
Through the sponsorship of NASA's Administrator and Deputy 
Administrator, the Agency is clear about the importance of resolving 
these outstanding management and internal control weaknesses. Several 
infrastructure elements are in place to help ensure the plan's success.
OCFO Governance Structure
    The Office of the Chief Financial Officer has developed a 
governance structure that will help to guide and speed information flow 
during the implementation of the corrective action plan. 
Recommendations for change that result from implementation of the plan 
will be presented to either the OCFO Financial Steering Group or the 
Financial Executive Roundtable, depending on the scope and magnitude of 
the anticipated changes, for approval and disposition. These groups are 
made up of OCFO headquarters and Field Center leadership who will have 
the ultimate responsibility for implementing changes in NASA financial 
processes and systems. The use of the governance structure will add 
discipline to the corrective action process, and speed communications 
and implementation.
Monthly and Quarterly Oversight
    Measuring progress against the corrective action plan begins with 
regular status reports from the initiative owners. The OCFO's program 
management function will asses progress, make project management 
recommendations, and suggest changes to specific initiatives, as 
necessary. Progress is measured both in terms of completed activities 
and assessments of work products.
    The OCFO will report on overall corrective action plan progress 
monthly to the Agency's Deputy Administrator. The Deputy Administrator 
has the authority to determine Agency improvement priorities and to 
address resource needs.
    The OCFO will provide regular updates to NASA's Inspector General 
and, as needed, with IG auditors.
Enhanced Human Resources
    Having the necessary resources to implement the plan is a 
recognized challenge. The Office of the Chief Financial Officer has 
received the authority to hire the staff and engage the contractors it 
needs to execute its responsibilities against the plan. The challenge 
lies in finding the right people at the right time, quickly 
familiarizing those people with the current issues, processes and 
systems, and doing all of this while managing the day-to-day operations 
of the office.

      CHAPTER 2: THE ELEMENTS OF THE CORRECTIVE ACTION PLAN (CAP)
          CHALLENGES IDENTIFIED BY THE NASA INSPECTOR GENERAL

    Each year the Inspector General (IG) conducts financial audits 
assessing NASA's operations and facilities as required by the Chief 
Financial Officers' Act of 1990 (Public Law 101-576) as amended. In 
2005, as in 2004 and 2003, the IG's independent public auditors 
determined that the scope of their work was not sufficient to enable 
them to express an opinion on NASA's financial statements.
    From the work that the independent public auditors were able to 
perform, they identified four reportable conditions, three of which 
they considered to be material. Each of these reportable conditions is 
a repeat condition from the fiscal year 2004 financial audit. A 
material weakness is an identified problem that may impact the accuracy 
and reliability of financial information. NASA is committed to 
implementing solutions that best resolve these weaknesses.
    The reportable conditions and NASA's goals, objectives and 
strategies for resolving them are contained in this section of the 
plan.
Initiative Overviews
    Financial Systems, Analyses, and Oversight
    Fund Balance With Treasury
    Property, Plant & Equipment
    Environmental Liabilities
1. Financial Systems, Analyses, and Oversight. (Material Weakness)
    ``Although progress was made [since the 2004 audit], significant 
financial management issues continue to impair NASA's ability to 
accumulate, analyze, and distribute reliable financial information.'' 
(Reference: NASA Fiscal Year 2005 Performance and Accountability Report 
(PAR), Part 3, page 193)
            Background
    The implementation of NASA's Core Financial system in fiscal year 
2003 represented a major transformation in NASA's financial management 
systems and processes. Immediately following the completion of the 
system's implementation, challenges were identified in system 
processing, configuration and capabilities. While challenges from this 
major change were anticipated, it has taken longer than expected to 
stabilize the financial environment. The current version of NASA's 
automated financial system has capability limitations which have 
required the definition and implementation of compensating controls. 
Examples of these limitations include:
  --Audit trails within the system do not distinguish between source 
        documents of original entry and correction transactions
  --Lack of fully automated support for adjustments to prior year 
        obligations
    The independent public auditors specifically noted that 
documentation regarding significant accounting events, recording of 
non-standard transactions, and post closing adjustments, as well as 
corrections and other adjustments made in connection with data 
conversion issues must be strengthened. (Fiscal Year 2005 PAR, page 
211)
    Future versions of the Core Financial system promise to provide 
capabilities to improve the integrity of budgetary ledger postings and 
to further automate accounting processes. NASA has scheduled a system 
update early in fiscal year 2007 that is intended to address many of 
these issues through enhanced system capabilities and process 
improvements.
    Implementation of a Commercial Off-the-Shelf Software (COTS) 
package in the federal government has presented its own set of 
challenges. The alignment of NASA processes and its enterprise resource 
planning (ERP) system is an ongoing activity.
            Goal
    NASA's goal for resolving this material weakness is to improve 
NASA's financial management system and processes to achieve accurate, 
reliable and timely financial information.
            Objective
    Supporting that goal is the objective of developing core standard 
agency-wide procedures and tools to review and validate that financial 
data and processes are consistent with authoritative guidance issued by 
FASAB, Treasury and OMB.
            Strategy
    The strategy for achieving that objective is to develop and 
implement procedures to identify and validate financial data and 
processes in IEMP, to strengthen internal controls to ensure 
consistency with authoritative guidance, and to implement automated 
financial system enhancements to complement process changes.
            Accomplishments in Fiscal Year 2005
    NASA made progress in 2005 towards resolving this material 
weakness, which was also identified in 2004. Highlights of these 
accomplishments are provided below, grouped by categories identified in 
the 2004 financial audit.
    ``Lack of Integrated Financial Management System'' (2004 Audit 
Finding Category)
  --NASA eliminated noted weaknesses in its Integrated Enterprise 
        Management (IEM) information technology control environment 
        (NASA's financial system is one component of IEM). The 
        weaknesses were identified in three control areas: access 
        controls; systems software; and, segregation of duties.
  --NASA implemented compensating controls and improved system 
        capabilities to improve its ability to identify and document 
        correction activities within the Core Financial system. With 
        these improvements, audit trails have been established by 
        identifying and linking certain system transactions between 
        original, reversal and re-post transactions.
  --Through systems configuration analysis and modification, and 
        through the reconciliation of remaining data anomalies from 
        conversion in 2003, NASA generated fully supported year-end 
        financial statements directly from the Agency's Core Financial 
        system. Year-end balances are now supported by the Core 
        Financial system.
    ``Financial Statement Preparation and Analysis'' (2004 Audit 
Finding Category)
  --Through policies and procedures established in NASA's Financial 
        Management Requirements (FMR), Volume 19, Periodic Monitoring 
        Controls Activities, all NASA Field Centers are performing 23 
        financial reconciliations or verifications on a scheduled 
        basis. Field Center CFOs are providing certifications for each 
        reconciliation or verification to Headquarters, where they are 
        tracked and reviewed.
  --NASA Field Center CFOs and Deputy CFOs reviewed and certified the 
        year-end financial management data from their Centers, and 
        included a statement that all corrections were fully 
        documented, for audit trail purposes, in NASA's official audit 
        tracking system.
  --NASA developed and adopted enhanced financial statement validation 
        procedures and checklists for use at all Field Centers and 
        Headquarters. Through the preparation of extensive crosswalks 
        between NASA and Treasury financial data, the Agency has 
        validated that both the data and the business rules for posting 
        data into specific accounts are accurate. Also, checklists are 
        now in place for the preparation of financial statements. These 
        checklists are reviewed and certified by Field Center 
        management.
    ``Additional Controls Need to be Strengthened'' (2004 Audit Finding 
Category)
  --NASA's Office of the Chief Financial Officer (OCFO) increased 
        staffing to support financial management activities. In May 
        2005, NASA's OCFO received relief from a NASA-wide hiring 
        freeze and approval to increase its headcount in fiscal year 
        2006 at Headquarters by 34 positions (including 2 Senior 
        Executive Service leadership positions) and at Field Centers by 
        50 positions. As of February 1, 2006, 90 percent of these 
        positions have been filled.
  --NASA published the first volumes of the NASA Financial Management 
        Requirements (FMR) to ensure complete and consistent 
        application of NASA financial management policy. The FMR has 
        been distributed to appropriate Headquarters and Center staff.
  --NASA established a financial quality assurance function to provide 
        direction and focus for NASA Internal Control activities. This 
        function has developed an agency-wide Policy Compliance Review 
        Plan, a corporate quality assurance strategy, and a 
        comprehensive internal control strategy to ensure that the 
        agency is positioned to successfully meet OMB A-123 
        requirements. In addition, all Centers have received internal 
        control training in conjunction with quality assurance visits.
  --Other noted weaknesses have been addressed through compensating 
        controls for subsidiary ledgers and systems, including 
        property, to ensure the quality of data entered into the 
        official accounting system. A new system was created for 
        Contractor held assets, Contractor-Held Asset Tracking System 
        (CHATS). CHATS implementation has provided additional 
        validation and checks and balances for property data input.
            Approach for Fiscal Year 2006
    NASA has developed a comprehensive set of planned corrective 
actions to further address each of the financial audit recommendations. 
Following is a set of tables that track each planned corrective action 
to the recommendations in the financial audit report.

--------------------------------------------------------------------------------------------------------------------------------------------------------
 Material Weakness or Reportable
  Condition with Recommendation      Number                        Planned Corrective Action (PCA)                       Target Date for PCA Completion
--------------------------------------------------------------------------------------------------------------------------------------------------------
#1 Financial Systems, Analyses,                Perform a review and verification to ensure that information presented   11/15/06
 and Oversight (1a-g)                           in the Performance and Accountability Report (PAR) is accurate and
Recommendation 1a: Continue to                  consistent with OMB Circular A-136, Financial Reporting Requirements.
 improve its financial reporting       PCA 1   Submitted fiscal year 2005 PAR to AGA for feedback on the construction,  Complete
 and internal quality review                    content, and applicability of the report, as part of the CEAR Award
 procedures to reasonably assure       PCA 2    process.                                                                3/31/06
 that information presented in         PCA 3   Review results of CEAR review process..................................  3/31/06
 the Performance and                   PCA 4   Gather feedback on PAR from OMB and Mercatus...........................  2nd Quarter
 Accountability Report is                      Review latest revision of OMB Circular A-136 and incorporate required
 accurate and consistent with the      PCA 5    updates for fiscal year 2006 PAR.                                       3/31/06
 requirements of OMB Circular A-               Review PAR's from other Federal Agencies to identify potential areas of
 136, Financial Reporting              PCA 6    improvement for NASA.                                                   Draft by 7/31/06. Final by 11/15/
 Requirements.                                 Incorporate improvements in the Management Discussion and Analysis        06
                                       PCA 7    (MD&A) section of the PAR as appropriate based on feedback received.    Volume to accompany Draft MD&A
                                               Verify accuracy of the MD&A portion of the PAR and compile supporting     by 7/31/06. Volume to accompany
                                                documentation.                                                           Final by 11/15/06
--------------------------------------------------------------------------------------------------------------------------------------------------------
#1 Financial Systems, Analyses,                Modify the statement of net cost (SONC) to provide a breakdown of net    To coincide with 2nd quarter
 and Oversight (1a-g)                           costs consistent with strategic plan and in the Management Discussion    financial statements
Recommendation 1b: Configure the                and Analysis (MD&A) section by major line of business.                  ................................
 Core Financial Module to provide      PCA 1   Defined the requirements and breakdown for the SONC; submitted a         Complete
 a breakdown of net costs                       Service Request (SR) to initiate the development of the report in SAP;
 consistent with programs                       and reviewed the requirements with IEMP Competency Center (CC).
 identified in NASA's strategic
 plan and in the Management's
 Discussion and Analysis (MD&A)
 section of the financial
 statements.
                                       PCA 2   Developed the report in SAP based on the requirements submitted by OCFO  Complete
                                                and coordinate with OCFO as needed.
                                       PCA 3   Test (jointly) the report to ensure the report meets the requirements,   2/21/06
                                                with OCFO approval required for production client.
--------------------------------------------------------------------------------------------------------------------------------------------------------
#1 Financial Systems, Analyses,        PCA 1   Generate monthly financial statements and review prior to interim and    Monthly
 and Oversight (1a-g)                           year-end reporting dates to ensure completeness. Produce monthly
Recommendation 1c1: Ensure that                 financial statements from SAP.
 systems used to prepare the           PCA 2   Establish a cross-Agency task team to develop monthly schedule with due  3/1/06
 financial statements are                       dates for data processing, reconciliations, verifications, feedback,
 complete and have been                         and reports.
 sufficiently tested prior to
 interim and year-end reporting
 dates.
                                       PCA 3   Distribute monthly schedule to Centers.................................  3/3/06
                                       PCA 4   Implement monthly schedule.............................................  3/31/06
                                       PCA 5   Established procedures to ensure that all system configuration changes   Complete
                                                are subject to regression tests and year-end test procedures which
                                                validate that changes made to the Core Financial System are valid,
                                                appropriate, and do not adversely impact end-to-end business
                                                processes, including external reporting.
--------------------------------------------------------------------------------------------------------------------------------------------------------
#1 Financial Systems, Analyses,        PCA 1   Update Center workplans to capture remaining data anomalies from fiscal  2/10/06
 and Oversight (1a-g)                           year 2003.                                                              ................................
Recommendation 1c2: NASA should        PCA 2   Coordinate corrective actions with Centers and IEMP Competency Center    3/31/06
 continue to validate its data                  to determine necessary steps.                                           ................................
 within the Core Financial Module      PCA 3   Monitor progress until remaining data anomalies are resolved...........  6/30/06
 to resolve issues with data
 integrity that date back to the
 system conversion in fiscal year
 2003 to ensure that date is
 accurate and complete.
                                       PCA 4   Perform monthly reconciliation of financial data residing in the core    Monthly
                                                financial system.
                                       PCA 5   Verify that Centers and IEMP Competency Center are executing standard    Monthly
                                                reconciliation procedures.
                                       PCA 6   Review results of Center and IEMP Competency Center reconciliation       Monthly
                                                procedures.
--------------------------------------------------------------------------------------------------------------------------------------------------------
#1 Financial Systems, Analyses,        PCA 1   Establish and implement an error correction and prior period adjustment  2/28/06
 and Oversight (1a-g)                           procedure consistent with the FASAB (SFFAS #7) standards that allows
Recommendation 1c3: In addition,                for the tracking of these items within SAP.
 NASA should continue to develop
 a long-term solution within IEMP
 to identify, support, and track
 adjustments made to general
 ledger accounts.
--------------------------------------------------------------------------------------------------------------------------------------------------------
#1 Financial Systems, Analyses,        PCA 1   Established safeguards to ensure that system does not pay cost in        Complete
 and Oversight (1a-g)                           excess of obligation.                                                   ................................
Recommendation 1d: Continue to         PCA 2   Develop compensating procedures to analyze Business Warehouse on a       3/31/06
 devise short-term and long-term                quarterly basis to ensure that liabilities are appropriately recorded.  ................................
 resolutions to IEMP systematic        PCA 3   Formed cross-functional task team to review current process and          Complete
 and integration issues. Lack of                identify opportunities for reengineering.
 internal controls surrounding
 costs in excess of obligations
 and downward adjustments.
                                       PCA 4   Conducted benchmarking sessions with Dept. of Education, Dept. of        Complete
                                                Agriculture, and others to identify best practices and lessons learned
                                                for funds control, cost collection, and accrual processing.
                                       PCA 5   Drafted proposed process design and high level requirements............  Complete
                                       PCA 6   Obtained OCFO and Center CFO approval of SAP Version Update Project      Complete
                                                Scope Document which incorporated requirements from task team efforts.
                                       PCA 7   Incorporate process design into Core Financial System Update Version     3rd Quarter Fiscal Year 2006
                                                proj-  ect.
                                       PCA 8   Implement Core Financial System Version Update project, including        10/1/06
                                                improved process designs.
--------------------------------------------------------------------------------------------------------------------------------------------------------
#1 Financial Systems, Analyses,        PCA 1   Developed an Operational Level Agreement (OLA) for the IEMP Competency   Complete
 and Oversight (1a-g)                           Center and Agency CFO to operate under that prescribes their            ................................
Recommendation 1e1: Formally                    respective responsibilities pertaining to master data management and    ................................
 document roles and                             periodic closing processes.                                             ................................
 responsibilities of                   PCA 2   Finalized the OCFO Governance Structure, which encompasses the decision  Complete
 Headquarters, IEMP Competency                  making process within the financial management community and its        ................................
 Center, and center financial                   communications with IEMP.                                               ................................
 management personnel across all       PCA 3   Developed performance metrics for Center CFOs to monitor compliance      Complete
 levels to ensure that                          with OCFO priorities, strategies, and objectives, as documented in the
 appropriate responsibilities are               Financial Leadership Plan.
 aligned with job functions and
 that accountability is achieved
 at each level.
                                       PCA 4   Shared performance metrics with Center CFO's...........................  2/1/06
                                       PCA 5   Begin capturing metric information.....................................  2/28/06, utilizing 1st Quarter
                                                                                                                         data
                                       PCA 6   Conduct quarterly evaluations or progress with Center CFO's............  Quarterly beginning 4/26/06
--------------------------------------------------------------------------------------------------------------------------------------------------------
#1 Financial Systems, Analyses,        PCA 1   Continue to hire as expeditiously as possible up to allocated ceiling..  On-going
 and Oversight (1a-g)
Recommendation 1e2: Additionally,
 we recognize that resource
 limitations may constrain NASA's
 ability to execute its mission.
 Management should continue to
 focus on filling key vacancies
 within the financial management
 organization.
--------------------------------------------------------------------------------------------------------------------------------------------------------
#1 Financial Systems, Analyses,        PCA 1   Issued quarterly report documenting all training conducted during the    Complete
 and Oversight (1a-g)                           1st quarter of fiscal year 2006.                                        ................................
Recommendation 1f: Provide             PCA 2   Utilize a needs assessment and develop a training plan for providing     3/31/2006
 additional ``hands-on'' training               the following training: Processing transactions, Performing account
 for financial personnel--at                    analyses and reconciliations, Maintenance of supporting documentation,
 headquarter and center levels--                and Financial reporting requirements.
 to ensure that they understand
 their roles in processing
 transactions, performing account
 analyses and reconciliations,
 maintaining supporting
 documentation, and updating
 their knowledge of financial
 reporting requirements.
                                       PCA 3   Execute and monitor the plan on a quarterly basis......................  9/30/2006
--------------------------------------------------------------------------------------------------------------------------------------------------------
#1 Financial Systems, Analyses,        PCA 1   Produce a series of management reports to facilitate financial           Monthly 15th working day
 and Oversight (1a-g)                           management oversight and analysis; e.g. aging, delinquencies, prompt
Recommendation 1g: Develop                      payment, etc. Suite of reports will be continually enhanced based on
 reports from the Core Financial                management requests.
 Module to facilitate reviews and
 ensure that aging of
 transactions and open items, un-
 liquidated obligations, grants,
 and other key areas are
 periodically assessed,
 researched, and resolved.
--------------------------------------------------------------------------------------------------------------------------------------------------------

2. Further Research Required to Resolve Fund Balance With Treasury 
        Differences. (Material Weakness)
    ``Although we were informed that many errors from fiscal year 2003 
were resolved, significant errors within the accounting system were 
still being identified by NASA in fiscal year 2005. Fund balance with 
Treasury reconciliation processes were ineffective in fiscal year 2004 
and much of fiscal year 2005, through the date of our visits to 
centers, but it is our understanding that steps taken by NASA in the 
last quarter of the year are believed by NASA management to have 
substantially improved the effectiveness of such reconciliations.'' 
(Reference: NASA Fiscal Year 2005 Performance and Accountability Report 
(PAR), Part page 201)
            Background
    NASA's Fund Balance with Treasury represents monies the agency can 
spend for authorized transactions. Each month, NASA is required to 
reconcile the difference between the amount of money it reports to be 
in its Fund Balance with Treasury with the amount that Treasury reports 
to be in the account. The 2005 audit identified FBWT as a material 
weakness due to unreconciled discrepancies between Treasury's balance 
and the balance represented in NASA's Core Financial system.
    IG auditors indicated that documentation to support the application 
of rigorous reconciliation processes was not available for their 
review. (Fiscal Year 2005 PAR, page 211)
            Goal
    NASA's goal for resolving this material weakness is to fully 
reconcile the agency's Fund Balance with Treasury and to process any 
future corrections in a timely manner.
            Objective
    Supporting that goal is the objective of monitoring Fund Balance 
With Treasury on a regular basis to ensure compliance with NASA and 
Treasury policies, procedures and practices.
            Strategy
    The strategy for achieving that objective is three-fold:
  --1. Center CFOs will perform monthly reconciliations and certify 
        their completion with Agency OCFO.
  --2. Agency OCFO will perform monthly reviews of Center 
        reconciliations to ensure compliance with reconciliation 
        policies and procedures.
  --3. OCFO will institute management reviews and monitor compliance 
        with the following metrics:
    --a. Reconciliations performed every 30 days
    --b. Corrections processed within 120 days of discovery
            Accomplishments in Fiscal Year 2005
    In fiscal year 2005, NASA enhanced its funds distribution process 
through policy and procedural changes to minimize manual and repetitive 
process steps. The Agency will continue to refine and implement 
enhancements.
    In addressing previous year differences in NASA's Fund Balance with 
Treasury, the OCFO reduced the out of balance condition through the 
following actions:
  --Developed and implemented a standard process that requires a review 
        and approval process be followed to correct errors, supported 
        with appropriate documentation.
  --Implemented across all Field Centers standard reconciliation 
        procedures and associated templates to monitor FBWT status on a 
        monthly basis. These procedures will help to ensure timely 
        resolution of variances. The procedures make up the Periodic 
        Monitoring Controls Activities handbook, Volume 19 of NASA's 
        Financial Management Requirements (FMR). Policy was also 
        implemented requiring each Field Center CFO to review and 
        certify to Headquarters monthly that the reviews and 
        reconciliations were performed, and are complete and accurate.
  --Developed and implemented a standard process to review and approve 
        the write-off of unsupportable differences.
  --Established teams to resolve identified FBWT issues at targeted 
        NASA Field Centers.
  --Implemented monthly Agency cash monitoring procedures and 
        guidelines to track reconciliations and the timely resolution 
        of differences.
  --Implemented across all Field Centers an automated cash 
        reconciliation tool to identify differences and augment timely 
        processing of transactions.
            Approach for Fiscal Year 2006
    NASA has developed a comprehensive set of planned corrective 
actions to address each of the financial audit recommendations. 
Following is a set of tables that track each planned corrective action 
to the recommendations from the financial audit report.

--------------------------------------------------------------------------------------------------------------------------------------------------------
 Material Weakness or Reportable
  Condition with Recommendation      Number                        Planned Corrective Action (PCA)                       Target Date for PCA Completion
--------------------------------------------------------------------------------------------------------------------------------------------------------
#2 Further Research Required to        PCA 1   Status Center CFOs to ensure monthly reconciliations are performed.....  Monthly
 Resolve Fund Balance with             PCA 2   Review and monitor compliance with Fund Balance with Treasury policies,  Monthly
 Treasury Differences (2a).                     procedures, and practices.                                              ................................
Recommendation 2a: We recommend        PCA 3   Perform a CRCS to SAP reconciliation and resolve differences...........  6/30/06
 that NASA continue to improve         PCA 4   Established Fund Balance with Treasury metrics.........................  Complete
 its current procedures to ensure      PCA 5   Assess compliance with Fund Balance with Treasury policies, procedures,  3/31/06
 that all reconciling items are                 and practices.
 thoroughly researched, timely
 resolved, and reviewed by
 appropriate center and
 headquarters OCFO personnel. In
 addition, NASA should retain all
 reports and documentation used
 in performing its fund balance
 with Treasury reconciliations to
 ensure that detailed, documented
 explanations and resolution
 actions are maintained for a
 sufficient audit trail.
--------------------------------------------------------------------------------------------------------------------------------------------------------

3. Enhancements needed for controls over Property, Plant and Equipment 
        (PP&E) and materials. (Material Weakness)
    ``Consistent with prior year audit reports, our review of property, 
plant, and equipment (PP&E), totaling approximately $35.0 billion, 
identified serious weaknesses in internal control that, if not 
corrected, could prevent material misstatements from being detected and 
corrected in a timely manner.'' (Reference: NASA Fiscal Year 2005 
Performance and Accountability Report (PAR), Part 3, page 203)
            Background
    NASA Mission-related products are designed, built and deployed to 
carry-out the agency's exploration and research objectives. Given the 
unique scientific nature of the agency's work, these programs, such as 
Hubble and the International Space Station, are highly specialized, and 
to develop and maintain them, NASA contracts with industry. Often 
multiple contractors participate in the design and creation of these 
products in a cycle that, in some cases, has taken as long as forty 
years from concept through deployment.
    The primary issues related to NASA property, plant and equipment 
are threefold:
  --1. the accuracy and completeness of the financial records--meaning 
        the classification (expense or asset) and valuation--of project 
        property, plant and equipment, as well as the coding of 
        documents at obligation that carry through expenditure
  --2. the accountability for the materials and equipment used in the 
        construction of physical products
  --3. the accuracy and timeliness of contractor provided financial 
        information--including the classification (expense or asset) 
        and valuation--related to the status of contractor-held 
        property, plant and equipment and materials
    First, given the complex and unique nature of its research and 
development work, NASA and its respective auditors and GAO 
representatives, have struggled over the years to define and agree upon 
an approach, and related policies, for reporting program and product 
costs in a manner consistent with FASAB guidelines. This impacts the 
classification of PP&E costs (asset or expense), the valuation of 
interim and finished products, and, ultimately NASA's financial 
statements.
    Second, as contractors develop parts and components of an overall 
product, they ship them from the manufacturing location to various NASA 
Centers across the country in preparation for assembly into a finished 
product. NASA has been working to ensure proper control over these 
components.
    Finally, preparation of NASA's financial statements is dependent 
upon contractors and their NASA program counterparts reporting costs 
associated with developing these parts. The accuracy, completeness and 
timeliness of this reporting must be improved.
    IG auditors specifically noted that controls relating principally 
to contractor-held PP&E and materials and NASA-held assets in space 
(Theme Assets) need improvement, and that headquarters oversight needs 
improvement. (Fiscal Year 2005 PAR, page 211)
            Goal
    NASA's goal for resolving this material weakness is to improve the 
agency's internal controls over its property, plant and equipment 
(PP&E).
            Objective
    Supporting that goal are the objectives to:
  --1. Develop core standard agency-wide procedures and tools to review 
        and validate that financial data and processes are consistent 
        with generally accepted accounting principles (GAAP) for 
        Federal reporting entities.
  --2. Provide relevant, accurate, reliable, and timely financial 
        property information to stakeholders.
            Strategy
    The strategy for achieving that objective has six elements:
  --1. Define Asset Categories (NASA-Held vs. Contractor-Held and 
        Program Related vs. Non-Program Related), based on published 
        accounting guidance (e.g. SFFAS #'s 6, 8, & 11 and SFAS #2)
  --2. Define appropriate accounting treatment of an asset based upon 
        its use (Alternative vs. No Alternative Future Use), based on 
        published accounting guidance (e.g. SFFAS #'s 6, 8, & 11 and 
        SFAS #2);
  --3. Review NASA's revised capitalization policy with OMB, OIG, GAO, 
        FASAB, and E&Y;
  --4. Review and revise, as necessary, the PP&E policy regarding the 
        accounting treatment;
  --5. Engage the entire NASA community (OCFO, Project/Program 
        Managers, Procurement, Logistics and Facilities) in improving 
        PP&E financial management and internal controls;
  --6. Define, Communicate, Train and Implement procedures for 
        effective Property, Plant & Equipment Lifecycle Management, to 
        include valuation of Assets.
            Accomplishments in Fiscal Year 2005
    NASA has made great strides toward enhancing its internal controls 
and addressing the weaknesses in NASA's accounting for its Property, 
Plant and Equipment and Materials.
    NASA successfully implemented a system to account for assets held 
by contractors, Contractor Held Asset Tracking System (CHATS) to 
address the potential concern of inadequate supervisory reviews of the 
Contractor submitted data and have a data base for the costs of these 
fixed assets. The system is currently being used and was in place when 
DCAA conducted its audit of agreed upon procedures on NASA's largest 
contractors. As a part of the audit, DCAA reviewed whether Contractor 
policies and procedures provide for detecting and correcting errors 
reported on the Monthly CHATS reports.
    The DCAA reviews were conducted closer to the end of the fiscal 
year than had previously been the case in order to support the asset 
balance on NASA's Balance Sheet at year-end. DCAA was also tasked with 
reviewing contractor compliance in resolving prior year reported 
deficiencies. Preliminary feedback from the draft reports indicates 
that progress has been made during fiscal year 2005 toward resolving 
these deficiencies.
    NASA now performs the following activities to ensure 
reconciliations of asset transfers between contractors:
  --Completion of a monthly validation checklist requiring that all 
        transfers of $1 million or more be supportable with appropriate 
        documentation.
  --Preparation monthly of a Transfer Matrix report by the NASA Center 
        property accountants. This report, using the data in CHATS, 
        lists all transfers made between and among contractors or with 
        NASA Field Centers. This reporting will assist NASA 
        Headquarters with readily identifying inter-contract transfers.
    In keeping with the auditors' recommendation to fundamentally 
revisit its approach to capitalizing property, NASA developed a 
proposed change in accounting policy for the capitalization of Theme 
Assets--the largest portion of NASA's PP&E. This policy would require 
NASA to expense all costs as incurred for projects that are exploratory 
in nature, that have no alternative future uses and are not reusable or 
repairable (i.e. research and development type costs). The change would 
more accurately reflect the nature of program and project expenditures.
    NASA also implemented the Project Management Information 
Improvement (PMI\2\) initiative in 2005. PMI\2\ is a project work 
breakdown coding structure that tracks a project from obligation 
through expenditure. PMI\2\ benefits include:
  --Alignment of the Agency's technical WBS with the financial coding 
        structure
  --Data standardization and configuration management
  --Consistent and standardized tool for project management reporting
  --Timely, consistent and reliable information for management 
        decisions
  --Program and Project managers gain the ability to view detailed 
        costs and obligations at the project level
            Approach for Fiscal Year 2006
    NASA has developed a comprehensive set of planned corrective 
actions to address each of the financial audit recommendations. 
Following is a set of tables that track each planned corrective action 
to the recommendations from the financial audit report.

--------------------------------------------------------------------------------------------------------------------------------------------------------
 Material Weakness or Reportable
  Condition with Recommendation      Number                        Planned Corrective Action (PCA)                       Target Date for PCA Completion
--------------------------------------------------------------------------------------------------------------------------------------------------------
#3. Enhancements Needed for            PCA 1   Defined Asset Categories based on published accounting guidance and      Complete
 Controls Over Property, Plant,                 NASA's business environment--Finalized how property will be classified
 and Equipment and Materials.                   (e.g., NASA Held and Contractor Held Program Related vs. Non-Program
Recommendation 3a1: We recommend       PCA 2    Related, etc.).                                                         Draft Complete
 that NASA continue to focus on                Completed draft defining appropriate accounting treatment per Asset      Final Complete
 resolving prior year issues and                category and use (based on published accounting guidance and NASA's
 completing its implementation of      PCA 3    business environment).                                                  2/28/06
 suggested recommendations and         PCA 4   Provide OMB, GAO, FASAB, and OIG NASA's revised capitalization policy..  3/15/06
 developing detailed corrective        PCA 5   Adjust capitalization policy as necessary..............................  3/31/06
 action plans.                                 Flowchart and document desired business processes and procedures, and
Recommendation 3a2a: In addition,               define roles and responsibilities for effective PP&E lifecycle
 we once again place further                    management, to include valuation of Assets.                             ................................
 emphasis on recommending that                    Incorporate OIG comments in the flow charts as appropriate and        ................................
 NASA fundamentally revisit its        PCA 6       disposition.                                                         3/31/06
 approach to capitalizing                      Identify and coordinate changes that must be made to existing policies
 property.                                      Agency-wide.
Recommendation 3a2b: Documenting,                 Meet with HQ Mission Support Offices (Procurement, Office of Chief
 analyzing, and implementing                       Engineer, Institutions & Management, etc.).
 robust control changes from end                  Develop a list of potential associated policy impacts
 to end to all categories of PP&E.                Coordinate with HQ Mission Support Offices to obtain draft policy
Recommendation 3a3: We also                        updates.
 recommend that all NASA
 obligation documents and
 expenditures be coded to
 identify whether they relate to
 a property acquisition to create
 a control for comparison to
 recorded property transactions
 and subsidiary ledgers, be they
 NASA activities or contractors.
                                       PCA 7   Assign cross-functional teams to participate in Working Groups to re-    4/3/06
                                                engineer, as necessary, NASA's current processes and procedures.
                                       PCA 8   Engage working groups to:                                                5/31/06
                                                  Identify process and system(s) gaps between current processes and
                                                   desired processes, as well as, identifying solutions. Specifically,
                                                   teams will focus on the following areas of PP&E Lifecycle
                                                   management:
                                                    Planning
                                                    Acquisition
                                                    Management Control and Accountability
                                                    Disposition
                                                  Ensure that OIG comments regarding specific corrective actions are
                                                   incorporated in the flow charts as appropriate and dispositioned.
                                                  Review Compensating Control Team recommendations and other relevant
                                                   material.
                                                  Establish single points of accountability within the PP&E Lifecycle.
                                                  Establish a certification requirement (Center Director for Real and
                                                   Personal Property/Chief Engineer or Mission Director for Program
                                                   Assets).
                                                  Establish format for new RSSI disclosure reporting requirements.
                                       PCA 9   Develop Process Implementation Plan for Changes Agency-wide............  6/16/06
                                      PCA 10   Complete interim policy and process changes, as necessary, to include    9/29/06
                                                the following:
                                                  Program/Project Management policies
                                                  Procurement policies
                                                  Financial policies
                                                  Logistics policies
                                                  Facilities policies
                                               Conduct focused communication forums with accountable parties to
                                                discuss their roles and responsibilities within the PP&E lifecycle.
                                               Prepare analysis and record changes to reported fixed assets and
                                                expenses based upon revised policies.
--------------------------------------------------------------------------------------------------------------------------------------------------------

4. Internal controls in estimating NASA's Environmental Liabilities 
        require enhancement.
    ``During our review of NASA's environmental liability estimates 
totaling $825 million as of September 30, 2005, and related disclosures 
to the financial statements, we continued to note weaknesses in NASA's 
ability to generate an auditable estimate of its unfunded environmental 
liabilities (UEL) and to identify potential financial statement 
disclosure items because of a lack of sufficient, auditable evidence.'' 
(Reference: NASA Fiscal Year 2005 Performance and Accountability Report 
(PAR), Part 3, page 207)
            Background
    Due to the highly complex scientific and technical nature of NASA's 
work, the Agency's scientific and engineering community develops the 
actual estimates for environmental liabilities. The OCFO provides 
accounting expertise in the form of policy and guidance to the 
Environmental Liabilities staff responsible for developing these 
estimates. Once estimates have been developed, they are then delivered 
to the OCFO accounting staff, who records them in NASA's Core Financial 
system.
    IG auditors specifically noted weaknesses in NASA's ability to 
generate auditable unfunded environmental liability estimates and to 
identify disclosure items. (Fiscal Year 2005 PAR, page 211)
            Goal
    NASA's goal for resolving this material weakness is to validate the 
tools and methodology used to prepare the unfunded environmental 
liability estimates.
            Objective
    Supporting that goal are the objectives to:
  --1. Develop standard agency-wide procedures to be applied by all 
        Environmental Liability staff on the preparation, reviewing, 
        validation, and processing of environmental liabilities, in 
        agreement with guidance from statutory agencies (OMB, FASAB, 
        Treasury, and State and local Governments).
  --2. Ensure that all staff involved in the development of the 
        environmental liability estimates and in the review, analysis, 
        and processing of those estimates in the financial system are 
        properly trained.
            Strategy
    The strategy for achieving that objective is to improve existing 
environmental liability procedures and implement needed internal 
controls to assure the improved procedures are adhered to and followed. 
NASA will also provide proper training to all staff involved in the 
development of the environmental liability estimates and the review, 
analysis, and processing in the financial system.
            Accomplishments in Fiscal Year 2005
    The OCFO and the Environmental Management Division (EMD) developed 
a close working partnership to coordinate policies, processes and 
controls for estimating NASA's environmental liabilities. Members from 
both offices met weekly to identify and resolve issues, and determine 
the most appropriate steps toward improved estimates.
    NASA has developed and conducted training in conjunction with the 
EMD for staff that provides guidance and policy for estimating 
environmental liabilities. The training outlines the process for 
estimating environmental liabilities, explains Federal accounting 
standards and guidance, defines quality review processes, and addresses 
existing audit findings.
    NASA has developed and published documented procedures for 
estimating environmental liabilities. These procedures have been 
distributed to all Centers.
            Approach for Fiscal Year 2006
    NASA has developed a comprehensive set of planned corrective 
actions to address each of the financial audit recommendations. 
Following is a set of tables that track each planned corrective action 
to the recommendation from the financial audit report.

--------------------------------------------------------------------------------------------------------------------------------------------------------
 Material Weakness or Reportable
  Condition with Recommendation      Number                        Planned Corrective Action (PCA)                       Target Date for PCA Completion
--------------------------------------------------------------------------------------------------------------------------------------------------------
#4 Internal Controls in                PCA 1   Update the plan developed in response to the 2004 management letter      2/28/06
 Estimating NASA's Environmental                comments.
 Liability Require Enhancement.        PCA 2   Host the second joint, OCFO and Environmental Management Division        3/31/06
Recommendation 4a1: We recommend                (EMD), training course to expedite the overall resolution of the
 that NASA expedite the progress                action plan.
 on the action plan it developed
 in response to our fiscal year
 2004 audit.
                                       PCA 3   Develop and have available for auditor review, the Environmental         5/31/06
                                                Liability estimates based on 2nd quarter data.
                                       PCA 4   Conduct review of Environmental Liability estimation process...........  7/15/06
                                       PCA 5   Complete final liability adjustments based on current information......  9/15/06
--------------------------------------------------------------------------------------------------------------------------------------------------------
#4 Internal Controls in                PCA 1   Update 2004 plan to include action and timeframes for addressing and     2/28/06
 Estimating NASA's Environmental                resolving center and facility specific findings.
 Liability Require Enhancement.
Recommendation 4a2: In addition,
 we recommend that NASA include
 in the action plan the center
 and facility specific findings
 that were identified during the
 fiscal year 2004 audit as
 opposed to the current work plan
 steps which address only those
 fiscal year 2004 observations
 that were thought to be common
 across all centers or apply to
 headquarters.
--------------------------------------------------------------------------------------------------------------------------------------------------------
#4 Internal Controls in                        Jointly assess the effectiveness of UEL internal controls, cost
 Estimating NASA's Environmental                estimation process and data gathering procedures.                       ................................
 Liability Require Enhancement.        PCA 2   Develop review/internal control checklist..............................  3/1/06
Recommendation 4a3: We also            PCA 3   Conduct site visits utilizing checklist................................  7/15/06
 recommend that NASA's OCFO            PCA 4   Generate report for management review and disposition..................  8/30/06
 perform a self-assessment of the      PCA 5   Incorporate changes as necessary based on joint assessment.............  9/15/06
 Unfunded Environmental Liability
 (UEL) estimation and aggregation
 process. This assessment should
 focus on identifying additional
 weaknesses in NASA's UEL system
 that went undetected because no
 final estimates were available
 for our review at the time of
 our audit.
--------------------------------------------------------------------------------------------------------------------------------------------------------
#4 Internal Controls in                PCA 1   Assess utilization of IDEAL parametric model...........................  8/30/06
 Estimating NASA's Environmental       PCA 2   Incorporate changes as necessary.......................................  9/15/06
 Liability Require Enhancement.
Recommendation 4b: NASA should
 also continue to validate the
 tools (including IDEAL) and
 methodology used at the center
 and facility level to prepare
 the UEL estimates.
--------------------------------------------------------------------------------------------------------------------------------------------------------

                    chapter 3: initiative workplans
    Initiative Workplans
  --Financial Systems, Analyses, and Oversight
  --Fund Balance With Treasury
  --Property, Plant & Equipment
  --Environmental Liabilities

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                APPENDIX
                                ACRONYMS

    CAP--Corrective Action Plan
    CC--Competency Center
    CEAR--Certificate of Excellence in Accountability Reporting
    CFO--Chief Financial Officer
    COTS--Commercial off-the-shelf
    CRCS--Central Resources Control System
    DCFO--Deputy Chief Financial Officer
    EMD--Environmental Management Division
    E&Y--Ernst and Young
    FASAB--Federal Accounting Standards Advisory Board
    FBWT--Fund Balance With Treasury
    GAO--General Accounting Office
    HQs--NASA Headquarters
    IDEAL--Integrated Data Evaluation and Analysis Library
    IEMP--Integrated Enterprise Management Program
    MD&A--Management Discussion and Analysis
    NASA--National Aeronautics and Space Administration
    OCFO--Office of the Chief Financial Officer
    OIG--Office of the Inspector General
    OLA--Operational Level Agreements
    OMB--Office of Management and Budget
    PAR--Performance and Accountability Report
    PCA--Planned Corrective Action
    PP&E--Plant, Property and Equipment
    RSSI--Required Supplementary Stewardship Information
    SAP--Systems, Applications, and Products
    SFAS--Statement of Financial Accounting Standards
    SFFAS--Statement of Federal Financial Accounting Standards
    SONC--Statement of Net Cost
    SR--Service Request
    UEL--Unfunded Environmental Liability

    Question. Given this state of affairs, how can the Agency oversee 
the expenditure of its appropriated resources and ensure that its 
programs and operations are efficient and effective?
    Answer. NASA relies upon an integrated system of management 
controls to oversee the expenditure of its appropriated resources. 
These controls span multiple phases of resource management from the 
planning, programming and distribution of appropriations through to the 
application and use of those resources across the entire program and 
project lifecycle.
    With respect to oversight of appropriated funds, as appropriations 
are received and distributed, the Agency tracks them from appropriation 
to apportionments to allotments to commitments and to obligations to 
help ensure that NASA is tracking resource allocation through the 
program lifecycle.
    Efficient and effective programs and operations begin with planning 
and budgeting. NASA's Planning, Programming, Budgeting, and Execution 
(PPBE) is NASA's four-phased methodology for aligning resources in a 
comprehensive, disciplined approach that supports NASA's Mission and 
directs Agency resources toward the priorities set forth by Congress 
and the President. PPBE also enhances financial management quality and 
accountability by linking the Agency's financial, programmatic, and 
institutional communities for mission success. PPBE provides Agency 
leaders with timely, accurate, and useful information about where 
initiatives are and are not succeeding. This process helps to ensure a 
budget that supports the Agency's strategic priorities and that is 
traceable to outcomes.
    As NASA's Mission Directorates use these funds to accomplish their 
goals, NASA's three-Council governance structure helps to ensure that 
they are doing so efficiently and effectively. The Strategic Management 
Council serves as NASA's senior decision-making body for strategic 
direction and planning by determining NASA's strategic direction and 
assessing Agency progress in achieving NASA's Mission and the Vision 
for Space Exploration. The Operations Management Council oversees 
Center, or institutional, operations and performance while the Program 
Management Council (PMC) serves as NASA's senior decision-making body 
for base-lining and assessing program/project performance to ensure 
successful achievement of NASA Strategic Goals and outcomes.
    Below the PMC-level, NASA enforces the Agency's governance 
principles of ``Checks and Balances'' and ``Balance of Power'' by 
balancing and integrating the activities and authorities of the Chief 
Engineer, the Independent Technical Authority, Program Managers, and 
the Office of Safety and Mission Assurance.
    Funding requirements are set by law for government programs. The 
Independent Technical Authority not under program direction sets 
technical requirements. And, schedule requirements are set by a variety 
of factors, usually external and outside the Program Manager's control.
    In NASA, the Chief Financial Officer ensures funding compliance. 
Appropriate third parties monitor funding and schedule compliance. The 
Office of Safety and Mission Assurance (OSMA) ensures compliance with 
the established critical technical requirements. Schedule compliance is 
assured by third parties depending on the source of the schedule 
requirements. For these reasons, the Chief Financial Officer, the IG, 
the Independent Technical Authority, and OSMA are not in the Program 
Manager's chain of command.
    Three independent inputs give the NASA Administrator the confidence 
that the Agency has exercised appropriate checks and balances of 
Authorities, Responsibilities, and Accountabilities.
    Below these governing structures, NASA employs financial management 
and programmatic staff at each of its centers. These individuals have a 
thorough knowledge of each of the Agency's programs and projects, 
including the resources budgeted and expended to support those programs 
and projects. The processes and procedures employed to monitor program 
and project spending and performance were in place before the 
implementation of NASA's new financial management system in fiscal year 
2003. As the Agency continues to stabilize its centralized financial 
management system, our center financial management staff, as well as 
programmatic staff, continue to monitor and analyze the financial 
health of the Agency's programs and operations.
    Question. What steps has NASA taken to prevent this type of ADA 
violation from occurring again?
    Answer. NASA agrees with each of the OIG's specific 
recommendations:
  --OIG Recommendation #1.--We recommend that the Administrator report 
        the ADA violations for the funds carried over from fiscal year 
        2004 to fiscal year 2005 for each affected account and for the 
        $30,413,590 to the President of the United States through the 
        OMB Director, the Speaker of the House of Representatives, the 
        President of the Senate, and the Comptroller General of the 
        Government Accountability Office, as required by the ADA and by 
        OMB Circular A-11, section 145.7.
  --OIG Recommendation #2.--We recommend that the Administrator request 
        a comprehensive demonstration by the OCFO that the 
        appropriations available to be spent in fiscal year 2006 can be 
        traced from appropriation to apportionments to allotments to 
        commitments and to obligations to help ensure that NASA is not 
        violating the ADA for fiscal year 2006.
    In addition to accepting and acting upon NASA's OIG two specific 
recommendations, NASA has implemented specific correction actions in 
the OCFO. These corrective actions include:
  --Certification of reconciliations by responsible financial 
        management personnel.
  --Demonstrated effective system controls that prevent obligations 
        from exceeding apportionment control totals.
  --Conducted Appropriations Law training for 30 staff in January 2006 
        and 8 in March 2006.
  --Conducted OMB Circular A-11 training for 24 staff in February 2006. 
        An additional course is currently being scheduled.
  --Increased the staff size in the Funds Distribution branch.
  --Documenting enhanced internal controls, to include:
    --Logging and tracking of all OMB apportionment requests and 
            approvals; and
    --Reconciliation of OMB apportionments to Congressionally approved 
            Operating Plans to the funds loaded into the Agency's 
            centralized financial system.
    Question. What is NASA's current total estimated cost to develop, 
implement, and maintain the Integrated Enterprise Management Program, 
including those costs incurred to resolve data integrity issues 
resulting from the initial implementation of the Core Financial system?
    Answer. The development and implementation costs for NASA's 
Integrated Enterprise Management Program, including all the hardware, 
software, civil service labor, contractor labor, travel, and overhead 
costs associated with re-engineering business processes and 
implementing business systems for human capital management, financial 
management, asset management, and procurement and contract management 
are estimated at $842 million for the development years 2000 through 
2011, consistent with the fiscal year 2007 President's budget request.
    Of this total development estimate, $82.6 million is being expended 
to update NASA's financial system, which, among other benefits, helps 
resolve data integrity issues identified with the initial core 
financial system implementation. Approximately, $50 million per year is 
expended operating and maintaining this business systems environment.

                             ADA VIOLATION

    Question. The NASA Office of Inspector General reported that NASA, 
as a result of actions by officials in the Office of the Chief 
Financial Officer violated the Antideficiency Act (ADA). According to 
the IG report, the ADA violations occurred because of the lack of 
internal controls within the OCFO and OCFO personnel's misunderstanding 
of OMB apportionment requirements.
    The NASA Administrator agreed to report the ADA violations to the 
President of the United States through the OMB Director, the Speaker of 
the House of Representatives, the President of the Senate, and the 
Comptroller General of the Government Accountability Office, as 
required by the ADA.
    Question. When will NASA provide its report on the ADA violations?
    Answer. By letter dated June 23, 2006, the Administrator informed 
the Committee of activities initiated regarding recommendations 
concerning two ADA violations identified by the NASA Office of 
Inspector General (0IG) in a report dated April 10, 2006. The 
Administrator outlined his commitment to ensuring that the root causes 
of the violations are addressed and that effective remedies are 
instituted for all of NASA's financial management processes and 
systems. As part of those efforts, and in conformance with the 
requirements of OMB Circular No. A-11 and NASA Policy Directive 
9050.3E, Administrative Control of Appropriations and Funds, the 
Administrator received a determination from NASA's Office of the Chief 
Financial Officer regarding the identification of the alleged 
responsible party for the violations. That individual, no longer 
employed with the Agency, in response to notification and the 
opportunity to comment, has raised matters that the Administrator 
determined require further investigation.
    Accordingly, the Administrator directed an intra-Agency team, to 
include representatives from the NASA Offices of Program Analysis and 
Evaluation, Human Resources, and General Counsel, to conduct a de novo 
review of the situation. That review is now expected to be completed by 
July 31, 2006, and is expected to provide the requisite information for 
the Administrator to accurately and comprehensively meet reporting 
obligations per OMB Circular No. A-11 and complete formal 
notifications.
    Question. Who was responsible for the ADA violations?
    Answer. As indicated above, the Administrator has directed an 
intra-Agency team to conduct a de novo review that is expected to 
provide the requisite information to enable him to accurately and 
comprehensively meet reporting obligations per OMB Circular No. A-11 
and complete formal notification, including identification of 
responsible party/parties.
    Question. Has disciplinary action been considered as required by 
OMB Circular No. A-11?
    Answer. This determination will be an outcome of the review 
currently underway.
    Question. The IG's report noted that the OCFO was unable to 
determine the exact amount of the ADA violations because of the 
unreliability of NASA's financial management system. Given this state 
of affairs, how can the Agency oversee the expenditure of its 
appropriated resources and ensure that its programs and operations are 
efficient and effective?
    Answer. The ADA violations occurred because of NASA's failure to 
file timely reapportionment requests with the Office of Management and 
Budget and not as a result of NASA's financial management system.
    NASA has implemented corrective actions to ensure that 
reapportionment requests are filed in a timely manner and that internal 
controls are in place. These actions include:
  --Certification of reconciliations by responsible financial 
        management personnel.
  --Demonstrated effective system controls that prevent obligations 
        from exceeding apportionment control totals.
  --Conducted Appropriations Law training for 30 staff in January 2006 
        and 8 in March 2006.
  --Conducted OMB Circular A-11 training for 24 staff in February 2006. 
        An additional course is currently being scheduled.
  --Increased the staff size in the Funds Distribution branch.
  --Developing and documenting enhanced internal controls, to include:
    --Logging and tracking of all OMB apportionment requests and 
            approvals; and
    --Reconciliation of OMB apportionments to Congressionally approved 
            Operating Plans to the funds loaded into the Agency's 
            financial system.
    Question. In committing the ADA violations, did NASA expend any 
funds beyond those appropriated by Congress or, in a way that was 
inconsistent with Congressional direction?
    Answer. NASA did not expend funds beyond those appropriated by 
Congress or in a way inconsistent with Congressional direction. NASA's 
violations were the result of its failure to file timely 
reapportionment requests with the Office of Management and Budget. The 
first violation occurred during fiscal year 2005 when NASA authorized 
and obligated in fiscal year 2005 the unobligated balance of 
congressionally appropriated two-year funds from fiscal year 2004 
without requesting an fiscal year 2005 reapportionment as required by 
OMB Circular A-11. The second violation occurred when NASA failed to 
submit a timely reapportionment request to OMB in August 2004 to match 
congressionally approved Operating Plan changes.
    Question. Were any NASA programs or operations adversely impacted 
financially or operationally as a result of the ADA violations?
    Answer. No programs were impacted as a result of the first 
violation and no funding adjustments were necessary. To correct the 
second violation, NASA de-obligated $30 million of fiscal year 2004 
funds and used fiscal year 2005 funds to correct the overobligation. 
These de-obligated funds remain available to the impacted Mission 
Directorate to make any future upward adjustments to contracts awarded 
in fiscal year 2004.
    Question. What has NASA done to assure itself that it has not 
committed any additional ADA violations?
    Answer. NASA's Office of the Inspector General has recommended, and 
NASA has agreed, that NASA's Office of the Chief Financial Officer 
demonstrate to the NASA Administrator that the appropriations available 
to be spent in fiscal year 2006 can be traced from appropriation to 
apportionments to allotments to commitments and to obligations to help 
ensure that NASA is not violating the ADA for fiscal year 2006.
    Question. What steps has NASA taken to prevent this type of ADA 
violation from occurring again? Will there be any independent analysis 
to affirm that the measures implemented by NASA will prevent future ADA 
violations, in any form?
    Answer. NASA has implemented corrective actions to ensure that the 
weaknesses that led to the violations have been addressed. These 
actions include:
  --Certification of reconciliations by responsible financial 
        management personnel.
  --Demonstrated effective system controls that prevent obligations 
        from exceeding apportionment control totals.
  --Conducted Appropriations Law training for 30 staff in January 2006 
        and 8 in March 2006.
  --Conducted OMB Circular A-11 training for 24 staff in February 2006. 
        An additional course is currently being scheduled.
  --Increased the staff size in the Funds Distribution branch.
  --Developing and documenting enhanced internal controls, to include:
    --Logging and tracking of all OMB apportionment requests and 
            approvals; and
    --Reconciliation of OMB apportionments to Congressionally approved 
            Operating Plans to the funds loaded into the Agency's 
            financial system.
    NASA's Office of the Inspector General has recommended, and NASA 
has agreed, that NASA's Office of the Chief Financial Officer 
demonstrate to the NASA Administrator that the appropriations available 
to be spent in fiscal year 2006 can be traced from appropriation to 
apportionments to allotments to commitments and to obligations to help 
ensure that NASA is not violating the ADA for fiscal year 2006.

                              NASA CENTERS

    Question. One of the dilemmas that NASA faces is that some centers 
are better positioned to have future work on missions than others at 
NASA. It has been mentioned that an option NASA would entertain is to 
move the work to centers that will be having difficulty in the next few 
years in order to keep skilled workers at NASA. While NASA should do 
all it can to keep the skilled employees at NASA, I am concerned that 
this option could marginalize all of the centers.
    How do we ensure this does not occur? Could you please provide this 
Committee with an update on how NASA has eliminated, or is eliminating, 
the uncovered capacity related to facilities? Could you please explain 
how moving research projects from a Center with low uncovered capacity 
to a Center with high uncovered capacity reduces NASA's total uncovered 
capacity?
    Answer. As the NASA Administrator testified to both the House and 
Senate, ``NASA is focusing its efforts to solve its uncovered capacity 
workforce problems through a number of other actions, including the 
assignment of new projects to research Centers that will strengthen 
their base of in-house work, the Shared Capability Assets Program that 
should stabilize the skills base necessary for a certain specialized 
workforce; the movement of certain research and technology development 
projects from certain centers not suffering from uncovered capacity 
problems to centers that are; retraining efforts at field centers so 
that the technical workforce can develop new skills; and the pursuit of 
reimbursable work for projects and research to support other government 
agencies and the private sector through Space Act Agreements.''
    None of the above actions marginalizes any one Center. NASA's goal 
is not to make all Centers equally unhealthy, nor to transfer work 
packages so that all Centers end up with equal or near-equal amounts of 
future work on NASA missions. Such an expectation is not realistic. 
Rather the goal is to increase the future work at Centers currently 
having difficulty sustaining workforce skills, while not damaging the 
ability of the other Centers to maintain their workforce skills that 
are critical to NASA's future. NASA Centers cannot grow in size, but 
must effectively use other field Centers to get programs done. Work 
moving between Centers will be done with assurances that it does not 
aggravate an existing or potentially problematic situation. The 
decisions associated with work transfers, however, will not be based 
solely on numbers, but also on skills' availability and mismatches. For 
example, NASA may seek to place additional scientific work at a Center 
with uncovered scientists, but may move a limited number of engineering 
tasks (where its engineering workforce is saturated with work) to 
another Center that has uncovered engineers with the necessary skills 
to complete those tasks. Such transfers allow the Agency, ``to do all 
it can to keep skilled employees at NASA.''
    Regarding facilities and related workforce, NASA continues to pare 
the infrastructure wherever we can do so without compromising our 
mission. This is an ongoing process. To date, the workforce has been 
reduced by over 900 people through buyouts. Eligible employees for 
buyouts included those associated with excess infrastructure.

                              PROCUREMENT

    Question. This Committee has consistently noted their concern about 
NASA's lack of transparency in contracting practices as well as 
significant cost overruns. These issues have also been recognized by 
the GAO and the NASA IG.
    What is the Agency doing to improve its management of these 
programs in order to reduce its vulnerability to additional cost 
overruns?
    Answer. Over the past three years since the GAO and IG reports were 
issued, NASA has implemented a number of initiatives aimed at improving 
its cost estimating performance. These include an overarching 
initiative called Continuous Cost Risk Management, which requires the 
NASA project management, and cost estimating community to identify 
elements in projects, which have the potential to induce high cost and/
or schedule risk. CCRM goes on to include methods for tracking these 
risks throughout the life cycle and methods for applying cost risk 
dollars toward risk mitigation. The proper use of cost risk analysis 
itself has been greatly emphasized by the Agency as a new tool in its 
programmatic planning process. All major projects are now required to 
perform a cost risk analysis to identify the range of cost that is 
indicative of the risk of projects. Based on the cost risk analysis, 
the Administrator is requiring projects to budget to an independent 
cost estimate (ICE) that generally achieves a 70 percent level of cost 
confidence.
    Other improvements in NASA cost estimating includes the 
institutionalization of a new cost data collection system, the Cost 
Analysis Data Requirement (CADRe) which takes ``snapshots'' of each 
project's technical, programmatic and cost status at 5 key milestones 
across the project life cycle. The CADRe forms the basis of estimate 
for ICEs, which are being performed by the Independent Program 
Assessment Office within the Program Analysis and Evaluation 
organization at NASA Headquarters. All CADRe submissions are being 
maintained in a new NASA cost estimating data base, ONCE (One NASA Cost 
Engineering Data Base) for the use of the NASA cost estimating 
community.
    All of the above efforts should lead to a vastly improved ability 
to estimate projects more accurately at their outset and at the time 
the Agency makes a formal commitment to OMB and Congress, which is at 
Preliminary Design Review (PDR). After PDR, Earned Value Management 
(EVM) systems are being set up and used by ongoing projects to manage 
cost throughout the balance of the life cycle.
    It must be remembered that NASA projects often include cutting edge 
technology, which makes accurate cost estimation much more difficult. 
But better initial cost estimating and the use of EVM to manage the 
fiscal health of projects once underway, should significantly reduce 
the Agency's vulnerability to cost overruns.

                   NASA'S UNOBLIGATED BALANCE GROWTH

    Question. The Committee recognizes that NASA is authorized to 
obligate funds over a 2-year period, and that a research and 
development agency like NASA is expected to carry over some unobligated 
funds at the end of each fiscal year. While the Committee recognizes 
that NASA can use unobligated funds to help transition from one fiscal 
to the next, there is no firm guidance on how much NASA should carry 
over from year to year. NASA's balance of unobligated funds has more 
than tripled from $616 million at the end of fiscal year 2000 to $2.1 
billion at the end of fiscal year 2005.
    Please explain to the Committee why these balances have built up at 
NASA?
    Answer. First and foremost, let us assure you that all of these 
funds will be obligated within the assigned Mission Directorate or 
Office and all of these funds are needed to carry out NASA's missions. 
These are not ``extra'' funds that can be used to offset potential 
reductions to NASA's fiscal year 2007 budget request or to support 
unrequested activities. All of NASA's unobligated funds are needed to 
carry out the Agency's planned activities, and our multi-year resource 
planning strategy requires all of these funds. Unobligated funds are 
simply not yet committed under a binding agreement (e.g., grant or 
contract). Thus, the Agency has plans in place and needs all of its 
appropriated funds.
    There are several reasons why the unobligated balances have been 
increasing over the last few years. There has been a tremendous amount 
of change at NASA over the last several years, and many factors 
associated with those changes have contributed to an increasing 
unobligated balance. Effective in fiscal year 2004, we began 
implementation of a new financial system, and also implemented full 
cost management, budgeting, and accounting. As a result of these 
changes, unobligated balances increased for several reasons. Labor 
dollars embedded in the programs initially caused the slowing of 
funding allocation and distribution throughout the Agency. Providing 
the Mission Directorates (MDs) with full cost funding resulted in 
increased funding being held at Headquarters. The new funds 
distribution process slowed down the release of funding to the Centers, 
which led the centers to seek more forward funding at the beginning of 
the fiscal year in order to cover labor and other expenses.
    In addition, there were several programmatic changes that 
contributed to this instability. The Columbia accident required a major 
shift in resources, curtailing many planned activities. The Vision for 
U.S. Space Exploration announced January 2004, required redirection of 
about $11 billion over five years. The Exploration Systems Architecture 
Study identified some major shifts in budgetary resources, curtailing 
many technology activities to provide more funding for major 
development projects. Increasing levels of earmarks for NASA have had 
the effect of slowing program definition and the release of funding. 
Overall, through all these major changes over the last few years, there 
has been less program definition at the start of the fiscal year for 
guidance to be distributed down to the NASA Centers, and Centers have 
been slower to obligate given the rate of change and the uncertainty 
surrounding all these changes, and maturing definition of major 
programs such as Constellation.
    NASA recognizes this increasing trend over the last several years, 
and is working to reverse the trend. As of May 19, 2006, NASA had 
obligated 97 percent of our fiscal year 2005 appropriations ($535 
million is not yet obligated), and approximately 50 percent of our 
fiscal year 2006 appropriations ($8.1 billion is not yet obligated). 
NASA has definite plans for all of these unobligated funds. The funds 
include a total of $304 million for construction of facilities.
    While NASA does not consider the levels of fiscal year 2005 and 
fiscal year 2006 unobligated funds to be unreasonable, we are working 
to expedite the obligation process where possible, and, as required in 
the fiscal year 2006 Science, State, Justice, Commerce and Related 
Agencies Appropriations Act (Public Law 109-108), have begun reporting 
prior year, unobligated balances to the Committees on Appropriations on 
a quarterly basis.
    Question. What is the minimum amount of unobligated funds that NASA 
needs to transition from one fiscal year to the next? How much in 
unobligated funds does NASA believe it needs for other reasons?
    Answer. There is no general minimum amount of unobligated funds 
that can be applied generically. Over the past 2 months, NASA has 
performed its standard midyear ``phasing plan review'' that has 
consisted of an in-depth review of its expenditures down to the project 
and Center levels at all NASA installations. Both the current status of 
obligations and forecasts for expenditures has been scrutinized and 
monthly spending plans throughout the remainder of fiscal year 2006 
have been developed. Note that our 61 programs involve thousands of 
contractual actions for obligating funds across the Agency and at all 
Centers. In developing our spending plans, these procurements were 
viewed for each of the 555 projects within their respective program. 
The purpose of this standard in-house review was to ensure that we are 
allocating and spending our resources in the most efficient manner, and 
to ensure that we have the correct level of apportioned funding at the 
appropriate points in time for our programs. Projections for 
unobligated balances are about 9 percent at the Agency level, and range 
from a low of 2 percent for the Aeronautics Research Mission 
Directorate, to a high of 16 percent for the Science Mission 
Directorate. Program management at all levels at both NASA Headquarters 
and the Centers have participated in this expenditure review, and agree 
that these levels of unobligated balances are appropriate in order to 
ensure a smooth transition from one fiscal year to the next without a 
lapse in funding that could prompt potential work stoppages.
    Question. Has NASA ever submitted a request for more new budget 
authority than it can realistically use?
    Answer. No. NASA has never submitted a request for more new budget 
authority than it can realistically use.

            BANKING FUNDS FOR CREW EXPLORATION VEHICLE (CEV)

    Question. At a House Science Committee hearing in February, Dr. 
Griffin acknowledged that NASA is ``banking'' funds to smooth the 
funding profile for the CEV.
    Is NASA using a portion of past unobligated balances to bank 
funding for CEV? For how many additional fiscal years will NASA 
continue this practice? Is NASA banking funds to smooth the funding 
profiles of other major development efforts?
    Answer: The development profile for the Constellation program 
requires a funding curve that peaks in fiscal years 2008, 2009, and 
2010.
    This is the normal profile for hardware development efforts that 
maximizes the chances of Program success and provides the basis for any 
cost confidence evaluation.
    Confronted with a flat Agency budget, Constellation's management 
strategy is to carry unobligated fiscal year 2006 funds into fiscal 
year 2007 and use uncosted funds from fiscal year 2007 and fiscal year 
2008 to cover the peak requirements in fiscal year 2009 and fiscal year 
2010 (the years that the funds will be costed).
    These carry-in funds will be used to smooth the overall 
constellation development funding curve for all the Constellation 
development projects, including Crew Exploration Vehicle (CEV), Crew 
Launch Vehicle (CLV), Launch and Mission Systems (LMS), and Exploration 
Communication and Navigation Systems (ECANS).
    Current plans are to obligate money on the CEV contract that will 
be signed early this fall and on the CLV and LMS contracts that will be 
signed in 2007. As much as 90 percent of these funds will be obligated 
by the end of the fiscal year.
    NASA's strategy of using carry-in to smooth out the peak funding 
requirements is prudent use of multi-year funding to maintain schedule 
and reduce total costs.

                      LUNAR ROBOTIC ORBITER (LRO)

    Question. NASA recently announced that a small secondary payload 
has been selected to accompany the Lunar Robotic Orbiter mission in 
2008. NASA noted that the secondary mission should cost no more than 
$80 million.
    What is the current cost estimate for this secondary LRO mission?
    Answer. NASA has decided on the Lunar Crater Observation and 
Sensing Satellite (LCROSS) as its secondary payload on the Lunar 
Reconnaissance Orbiter (LRO) mission. Per NASA's original request for 
information requirements, the LCROSS vehicle should cost no more than 
$80 million. Integration for flight will cost an estimated $15 million. 
The total cost of LCROSS is therefore estimated to be $95 million.
    Question. Where is the funding coming from to pay for this 
secondary mission?
    Answer. The Lunar Precursor and Robotic Program (LPRP, formerly 
Robotics Lunar Exploration Program) has an existing funding line for 
``Future Missions'', specifically designed to accommodate missions like 
LCROSS.
    Question. Did NASA's fiscal year 2006 budget or Initial Operating 
Plan specifically include the requirement or justification for this 
secondary mission?
    Answer. The LRO mission is still in formulation, and as a result, 
did not have an established life-cycle cost and program content at the 
time of either the fiscal year 2006 or the fiscal year 2007 budget 
submission. Critical Design Review (CDR) is scheduled for this fall.
    In NASA's fiscal year 2007 budget submission, NASA rebaselined LRO 
for launch on an EELV (from a Delta II). This change decreased risk to 
the LRO development by reducing pressure to retain large design 
contingencies and by eliminating a spacecraft spin stability issue 
related to its original Delta II launcher.
    As a result of the rebaselining to an EELV, NASA issued a request 
for information, in January 2006, to industry to provide secondary 
payload concepts to take advantage of the additional capacity afforded 
by the launch vehicle. NASA's requirements for the secondary payload 
were that it benefit the robotic lander program, cost no more than $80 
million for development, and not exceed 2,205 pounds (1,000 kilograms). 
After a competition involving NASA centers and industry, LCROSS was 
selected as a secondary payload in April 2006.
    The secondary payload is a cost-effective component of the overall 
LRO mission. It will provide an important capability to help determine 
whether water-ice is present in the Moon's polar cold traps. Total cost 
of the secondary payload is estimated at $80 million, to be funded 
within LPRP through fiscal year 2009. The secondary payload supports 
LPRP LRO Level-1 Requirements (RLEP-LRO-M70), which state that, ``The 
LRO shall identify putative deposits of water-ice in the Moon's polar 
cold traps at a spatial resolution of better than 500m on the surface 
and 10km subsurface (up to 2m deep).''
                                 ______
                                 
             Questions Submitted by Senator Byron L. Dorgan

               UPPER MIDWEST AEROSPACE CONSORTIUM (UMAC)

    Question. The Upper Midwest Aerospace Consortium (UMAC) is a 
collaboration of eight universities in a five state region that 
partners with the National Aeronautics and Space Administration (NASA) 
to take data gathered from NASA satellites and makes it available in 
everyday applications to educators, farmers, ranchers and residents in 
the Upper Great Plains.
    The group is headquartered at the University of North Dakota in my 
state. I was proud to help connect the University to NASA in the 1990s 
and have worked with NASA and my colleagues in Congress to support 
funding to continue this important work.
    Do you agree that UMAC and other groups like it play an important 
role in connecting more Americans to the work and breakthroughs at 
NASA?
    Answer. Groups that connect Americans to NASA's research increase 
the return the public receives on its investment in NASA. Features 
common among such groups are: use of data provided by NASA satellites, 
ties to the NASA-sponsored research community in academia and industry, 
and direct connection to providers of goods and services to the public 
and the organizations that serve the public. To the extent that UMAC 
and other groups exhibit these features, they can perform a valuable 
function.
    Question. What role do you see for groups like UMAC in the future, 
especially as it relates to new space and exploration missions?
    Answer. NASA is dependent on the university community for the 
successful implementation of its new space and exploration missions. 
Opportunities to participate in NASA's missions will be openly 
competed, and peer review will be used to identify the most outstanding 
opportunities for participation by the university community. 
Opportunities to participate will span the entire array of mission 
activities including development of flight hardware (instruments and 
full missions), development of data processing and data archiving 
systems, participation in science teams including science operations, 
and analysis of data returned from NASA missions.

             WINDOW OBSERVATIONAL RESEARCH FACILITY (WORF)

    Question. NASA once intended to install a facility, Window 
Observational Research Facility (WORF), on the International Space 
Station (ISS) within which various earth-observing instruments could be 
operated. The University of North Dakota has been developing AgCam, a 
sensor intended to operate on the WORF.
    Is the Window Observational Research Facility (WORF) scheduled to 
be installed on the International Space Station? If so, when?
    Answer. NASA has assessed its plans for the utilization of the ISS, 
and focused its research and technology development goals toward those 
activities that most closely support the Vision for Space Exploration. 
In this environment of limited opportunities for the launch of 
facility-class payloads, it is critical that utilization planning align 
as closely as possible with the needs of the human exploration planning 
effort. The only missions for which specific payloads have been 
manifested on the Space Shuttle are the first two Return to Flight 
missions. Consistent with the Vision, the Space Shuttle will be retired 
by 2010. Prior to its retirement, it will be utilized primarily for the 
assembly of the ISS. Our top priority will be to make each flight safer 
than the last. As we noted in our November 2004, correspondence to you 
on this topic, in the event that an appropriate future flight 
opportunity does become available, the WORF facility will be considered 
for delivery to the ISS.
    Question. If not, will it be possible to install small instruments, 
such as AgCam, on the ISS that make use of the optical quality window 
but do not use the WORF rack?
    Answer. The AgCam hardware has been designed and built to be 
operated in the WORF. The WORF would provide resources such as power, 
thermal control, data and mounting positions for operations of the 
AgCam. The hardware as designed could not operate independently of the 
WORF. It might be possible to redesign the AgCam hardware and its 
operations concepts, but it would require additional funding, testing, 
and development time. Even with such a redesign, it is unclear whether 
the redesigned hardware could achieve the expected scientific value 
without the WORF.

                                  DC-8

    Question. The University of North Dakota (UND) recently signed a 5-
year agreement to operate the NASA DC-8 research flying lab. The 
transfer of the DC-8 from an in-house NASA operation to a UND operation 
has set a new precedent. To date, UND, on behalf of scientists 
everywhere has operated two missions, Stardust and INTEX-B with total 
success. I believe this approach has benefited education and public 
outreach.
    Does NASA see benefit in transferring some of its activities from 
NASA centers to universities and other research organizations?
    Answer. The success of the NASA program relies on partnerships with 
universities and other research organizations. It also relies on NASA 
maintaining core capabilities within the NASA Centers. In addition to 
the operations of the DC-8, NASA also relies on universities and other 
research organizations for activities such as the operation of the 
Hubble Space Telescope, operation of the Earth Science Distributed 
Active Archive Centers, and operation of the NASA Infrared Telescope 
Facility. NASA will consider proposals that offer benefits to both the 
science community and NASA.
    The NASA Centers have unique capabilities that are critical to the 
nation's preeminence in space science as well as to the successfully 
carrying out the NASA mission. In order to maintain ten healthy 
Centers, and in order to maintain critical core capabilities at the 
NASA Centers, it is necessary that certain activities remain at NASA 
Centers.

           GLOBAL EARTH OBSERVATION SYSTEM OF SYSTEMS (GEOSS)

    Question. Global Earth Observation System of Systems (GEOSS) is an 
international program in earth-observing designed to inform decisions 
that benefit all humanity.
    What will be NASA's role in providing societal benefits in the 
Global Earth Observation System of Systems (GEOSS)?
    Answer. NASA's Earth science activity is closely coordinated 
through interagency and international activities such as the Climate 
Change Science Program, US Group on Earth Observations, and Joint 
Subcommittee on Ocean Science and Technology, as well as their 
international counterparts. The majority of NASA's space-based 
observations of Earth involve such international partnerships on the 
instruments and flight missions that comprise the space-based 
contribution to the Global Earth Observation System of Systems (GEOSS).
    NASA Earth system science results in research and development of 
space-based observations and improved modeling capability are 
recognized as contributing nearly 46 instruments on 16 spacecraft for 
the international Global Earth Observation System of Systems (GEOSS). 
NASA Earth science applications are recognized for collaborating with 
partners to benchmark integrated system solutions to each of the nine 
societal benefit areas highlighted in the Strategic Plan for a U.S. 
Integrated Earth Observation System (IEOS) and the 10-Year Plan for a 
Global Earth Observation System of Systems.
    NASA develops and uses innovative remote sensing approaches to 
provide new views of the Earth to improve predictive capabilities for 
weather, climate and natural hazards and benchmarks the capacity to 
contribute to societal benefits through decision support. As an 
example, NASA collaborations with EPA, USDA, and the FAA have resulted 
in benchmarks for integrated solutions for air quality Nowcasting, 
global crop assessments, and de-icing assessments for aviation safety.
    The observation and Earth system modeling techniques NASA develops 
and tests are a basis for future operational systems carried out by 
other organizations (most notably NOAA and USGS). Through 
collaborations, NASA observations are tested to determine their 
capacity to contribute to policy formulation and resource management 
through decision support systems.
    Question. Will there be a role for universities to develop and 
deliver benefits to the residents of their regions?
    Answer. In implementing its Earth science program, the NASA Applied 
Sciences Program conducts solicitations for ``Decision support through 
Earth Science Research Results'' to provide universities, private 
sector and others an opportunity to participate in extending the 
benefits of NASA sponsored observations and predictive capabilities 
through decision support tools. NASA involves the broad research 
community through solicitation of principal investigator-led satellite 
missions, technology and applications development, and a basic research 
program as well as focused research efforts tied more specifically to 
the results of our satellite programs. In particular, the university 
community is very strongly represented in these areas, and the research 
carried out at universities is critical to the education and training 
of the next generation of Earth and environmental scientists.
    Question. How seriously do the reductions in Earth Science limit 
the U.S.'s role in the international program?
    Answer. The International GEOSS and the U.S. IEOS include framework 
architectures that can accommodate and benefit from the observations 
and predictions/forecasts resulting from NASA research and development 
of space-based Earth observation systems; including the ground 
segments, data handling capacity, modeling, computing, knowledge, and 
applied sciences and system engineering.
    NASA's Earth Science budget contributes to GEOSS and fluctuations 
in NASA Earth Science funding have a corresponding effect on 
contributions to GEOSS. NASA's plans for research and development of 
Earth observation systems include support for national and 
international priorities and goals, including the U.S. IEOS and 
international GEOSS. The GEOSS is architected to benefit from the full 
scope of the results of NASA research and development programs, flight 
missions and applied sciences partnerships on benchmarking enhancements 
to integrated system solutions for the nine societal benefit areas. 
Reductions in NASA's Earth Science flight program budget in recent 
years directly impact the U.S. Earth Observing space-based capabilities 
and therefore the U.S. contributions to that aspect of GEOSS. An 
example is the delay of the Global Precipitation Measurement mission 
(GPM) that is based on an international collaboration and has been 
viewed as a prototype satellite constellation for GEOSS. Reductions in 
the R&A budget have an indirect and non-immediate impact on system 
contributions to GEOSS, by effectively delaying the utilization of 
Earth observations in research and, further on, the development of 
products and services.
                                 ______
                                 
               Questions Submitted by Senator Tom Harkin

    Question. There has been significant publicity about the ``muzzling 
of scientists'' by the Administration when their conclusions do not 
match the policies of the Administration. Because science requires 
freedom of thought and discussion, we are concerned that this muzzling 
could have a chilling effect on the critical work that scientists 
pursue, as they will be afraid to undertake work that may lead to 
conclusions that clash with Administration policy. Since it is in the 
national interest to ensure that scientific discovery is free and 
unconstrained by political ideology, we would like you to explain the 
efforts you are making to ensure that NASA scientists are free to 
present their findings both publicly and to the media, without any fear 
of public affairs oversight that could limit their speech.
    Answer. Earlier this year, NASA's Administrator assembled a policy 
development team comprised of NASA employees with science, legal, and 
public affairs backgrounds to review existing policies, identify ways 
to improve them, and develop Agency practices to maintain our 
commitment for full and open discourse on scientific, technical and 
safety issues. The team recently concluded their review of the existing 
NASA policies and has produced a substantially revised document: http:/
/www.nasa.gov/pdf/145687main_information_policy.pdf
    In addition, the NASA Administrator issued an agency-wide statement 
on his views of Scientific Openness last February: http://www.nasa.gov/
about/highlights/griffin_science.html
    The revised policy and the personal commitment by the NASA 
Administrator reaffirm the Agency's commitment to open scientific and 
technical inquiry and dialogue with the public.
    Question. Around the world, governments are taking aim at our 
aeronautics industry--increasing their investment and making 
aeronautics R&D a top priority. Meanwhile the United States continues 
to deemphasize aeronautic research. For example, while NASA continues 
to downsize and internalize its aeronautics program, implementation of 
the European Union's Vision 2020 is accelerating. This trend will have 
a serious impact on the nation's competitiveness, national security, 
and our position as the world's leader in aeronautics research. How 
does the fiscal year 2007 budget request address this trend?
    Answer. To address this question, one must first ask, what is 
NASA's role in helping to ensure that the United States maintains its 
``edge'' in aeronautics? The answer is simply this: NASA's most 
important role in aeronautics is to provide technical leadership. And 
that is true regardless of budget.
    Over the past several years, many independent reviews by the 
National Research Council (NRC), the Aerospace Commission, and the 
National Institute of Aerospace (NIA) have all raised the concern that 
NASA needs to get back to the pursuit of long-term, cutting-edge 
research. Historically, that is what NASA aeronautics has been known 
for and that is what the Nation has relied upon NASA to provide. These 
concerns were raised independent of the budget, and the concerns were 
valid.
    The Aerospace Commission Report of 2002, commonly referred to as 
the ``Walker Report,'' stated that Government investment in long-term 
research will be essential for the United States to maintain its global 
leadership in aerospace. The report concluded that long-term research 
enables breakthroughs in new capabilities and concepts and provides new 
knowledge and understanding, often resulting in unexpected 
applications, and the creation of new markets. It also noted that 
industry has the responsibility for leveraging Government research and 
for transforming it into new products and services.
    NASA's Aeronautics program is currently undergoing a comprehensive 
restructuring to ensure that we have a strategic plan in place that 
enables us to pursue long-term, cutting-edge research for the benefit 
of the broad aeronautics community. A commitment to the pursuit of the 
cutting-edge, coupled with an unwavering commitment to technical 
excellence, will ensure a strong, positive impact on the U.S. aviation 
community.
    Question. Though I am concerned with the level of NASA funding for 
aeronautic research and development, I am equally concerned that a 
national aeronautics policy be created that is consistent with the 
government's historic role, to promote continued United States' 
leadership of civil and military aeronautics research. How will these 
cuts influence the national aeronautic policy? What progress has NASA 
made on the policy? When will a draft be released for comment? What 
input has NASA received from industry, academics and/or user groups on 
the national aeronautics policy?
    Answer. Work is currently underway on the creation of a National 
Aeronautics Science and Technology Policy. In anticipation of the call 
for a policy, the National Science and Technology Council (NSTC) 
Committee on Technology chartered an Aeronautics Science and Technology 
(AS&T) Subcommittee in September 2005. The AS&T Subcommittee is co-
chaired by NASA's Associate Administrator for Aeronautics Research and 
OSTP's Transportation and Aeronautics Representative. The AS&T 
Subcommittee is comprised of members from NASA, DOD (OSD, Air Force, 
Navy, Army), DOT (FAA), JPDO, DOE, DHS, DOC, EPA, NSF, NSC, and the EOP 
(OSTP, OMB, OVP, DPC and CEA). The development, publication, and, to 
some extent, execution through governance of the policy called for by 
statute, have been tasked to the AS&T Subcommittee. Round-table 
outreach discussions with industry and academia occurred in April 2006 
to ensure input from the stakeholder community. The policy is planned 
for completion by December 2006. A detailed implementation plan will 
follow completion of the National policy.

                          SUBCOMMITTEE RECESS

    Senator Shelby. For the information of the Senators and 
people in the audience on the subcommittee, we will review the 
fiscal year 2007 budget request for the Department of Commerce 
on Wednesday, May 3, in room S-146 of the Capitol. At that 
time, the Secretary of Commerce will be with us to discuss the 
budget for the programs under his jurisdiction. Until then, the 
subcommittee stands in recess.
    [Whereupon, at 3:20 p.m., Wednesday, April 26, the 
subcommittee was recessed, to reconvene at 2 p.m., Wednesday, 
May 3.]


  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2007

                              ----------                              


                         WEDNESDAY, MAY 3, 2006

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:04 p.m., in room S-146, the 
Capitol, Hon. Richard C. Shelby (chairman) presiding.
    Present: Senators Shelby and Mikulski.

                         DEPARTMENT OF COMMERCE

                        Office of the Secretary

STATEMENT OF HON. CARLOS GUTIERREZ, SECRETARY

             OPENING STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. The subcommittee will come to order.
    I want to welcome all of you to the third hearing of the 
Commerce, Justice, Science, and Related Agencies Appropriations 
Subcommittee.
    We are pleased to have with us today the Secretary of the 
Department of Commerce. Mr. Secretary, the subcommittee 
appreciates your willingness to appear as a witness and discuss 
the needs of your Department.
    Overall, the Department of Commerce budget request for the 
2007 fiscal year is $6.1 billion. This is a decrease of nearly 
$300 million from the Department's fiscal year 2006 
discretionary funding level. The Commerce Department contains 
some of our Nation's most important economic development, 
economic analysis, and science and research agencies, including 
the Economic Development Administration (EDA), the National 
Institute of Standards and Technology (NIST), and the National 
Oceanic and Atmospheric Administration (NOAA).
    The Department is staffed by some of the most dedicated and 
distinguished experts in their fields, including three Nobel 
Prize winners. These scientists, engineers, and economists are 
in high demand inside and outside of the Government, and I hope 
we can hold onto them, Mr. Secretary.
    The subcommittee is concerned, Mr. Secretary, about your 
Department's ability to maintain the level of qualified 
personnel required to provide such needed services to the 
Nation. I hope that you can provide us some assurances today 
that this budget request will not require reorganizations or 
restructuring that will put your ability to support these 
important personnel at risk.
    The National Oceanic and Atmospheric Administration--or 
NOAA--remains one of our Nation's preeminent science agencies 
and represents nearly two-thirds of the Department's budget at 
$3.7 billion. NOAA provides important support for our Nation's 
fisheries, severe weather prediction, and navigation of the 
waters surrounding our country.
    Up-to-date and accurate maps of our navigable waters are 
critical to the shipping industry as well as the fishing 
industry, and I am hopeful that the budget before us today will 
allow NOAA to continue their work in this area.
    Some here today may be surprised to learn that nearly 90 
percent of our world's oceans remain unexplored. In fact, we 
have higher resolution maps of the entire surface of Mars than 
we do of the ocean floor. I am concerned about the lack of 
leadership and direction on ocean policy.
    Recent reports from the Pew Oceans Commission and the U.S. 
Commission on Ocean Policy indicate that we are not doing 
enough to manage and preserve our ocean resources. As a Senator 
from a coastal State whose economy is strongly linked to our 
commercial ports, the fishing industry, and tourism, I am 
concerned about the health of our oceans, our fisheries, and 
the future of marine research.
    I would like to commend the Department for their efforts 
surrounding the recent hurricanes. Particularly, I would like 
to thank the men and women of the National Weather Service 
(NWS) and the NOAA corps.
    In an upcoming hearing, we will talk with Admiral 
Lautenbacher and Max Mayfield in more detail about hurricane 
preparedness and response. But I wanted you, Mr. Secretary, to 
know how much the entire gulf coast appreciates your 
Department's efforts. They have been on time in their 
predictions and accurate.
    We look forward to your testimony today. Your written 
testimony will be made part of the hearing record, and I hope 
you summarize whatever you care to.
    Secretary Gutierrez. Thank you.
    Senator Shelby. Senator Mikulski.

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Thank you very much, Mr. Chairman.
    And I, too, would welcome Secretary Gutierrez for his 
second hearing before the subcommittee. And just want to echo 
your statements in terms of concerns about NOAA and the 
outstanding contribution that it does in oceans and some of the 
others.
    When we think about the Department of Commerce budget, we 
really think about what it needs to keep America competitive 
and what we need to do to be able to innovate. We know that the 
President has outlined an innovation strategy, as well as our 
own colleagues, with the famous report now called ``Gathering 
Storm.''
    But when I think about the Commerce Department, we do think 
about innovation, where there will be new technologies 
developed that will lead to new products. The National 
Institute of Standards and Technology will create jobs and also 
set the standards so that the private sector can create jobs, 
manufacture or develop products or processes that then can go 
around the world.
    Our own Patent and Trademark Office, which is under your 
administration, also is the key first step to protecting an 
inventor's intellectual property.
    So, as we look at this year's budget, I want to look at 
what is it we are going to do to sponsor innovation and also to 
have an innovation-friendly government that protects patents 
and promotes free enterprise and the American know-how around 
the world.
    We have fantastic agencies within the Commerce Department. 
Several are located in Maryland. NOAA is headquartered in 
Silver Spring. And we have talked about how they focus on 
saving lives and saving property through their weather 
declarations, and also the very important role that they play 
in oceans management and fisheries management.
    The National Institute of Standards and Technology is in 
Gaithersburg and, again, sets those standards for reliability, 
security, doing important research, and then our census.
    So, but what we are concerned about, and I will discuss 
this, is the cuts. When we look at NOAA, the National Ocean 
Service is cut by 30 percent. Marine fisheries by 8 percent. 
NOAA research by 8 percent. We are grateful that the NOAA 
satellites are getting an increase because that is the bread 
and butter of forecasts. But we are afraid that we could get 
out of kilter there.
    In terms of NIST, we are very grateful to the fact that the 
President wanted to increase the National Institute of 
Standards and Technology budget, but it seems to be robbing 
Peter to pay Paul, taking out of the advanced technology 
program and manufacturing extension partnership. And we will 
talk about that.
    And last, but not at all least, among the many things we 
could talk about, I and, I know, my colleagues are concerned 
about the backlog of patents and what we can do in partnership 
to make sure that they are standing in line to buy American 
products. They are not standing in line to patent those 
products that are going to keep us a global force.
    So we look forward to your testimony and working with you.
    Senator Shelby. Mr. Secretary, we welcome you again. You 
may proceed as you wish.

                 SUMMARY STATEMENT OF CARLOS GUTIERREZ

    Secretary Gutierrez. Thank you, Mr. Chairman and Senator 
Mikulski.
    If I may, Mr. Chairman, before I get started on my written 
statement, I would like to let you know that all tsunami 
warnings and watches have been cancelled. There was an 
earthquake this morning in Tonga, and we just got word that all 
the warnings and watches have been cancelled.
    So it looks like it wasn't a tsunami in the making. That is 
good news.
    Senator Shelby. Earthquake?
    Secretary Gutierrez. Yes.
    Senator Shelby. Was the magnitude as high as----
    Secretary Gutierrez. Well, they took it from 8.1 to 7.8, 
which is still very high. But----
    Senator Shelby. So you think things are going to be okay?
    Secretary Gutierrez. That is what we are hearing.
    Senator Shelby. What you are hearing.
    Senator Mikulski. Praise the Lord.
    Secretary Gutierrez. I will probably give you the----
    Senator Mikulski. Praise the Lord and our sensors.
    Senator Shelby. That takes care of my first question.
    Secretary Gutierrez. Again, Mr. Chairman and Senator 
Mikulski, I am pleased to present President Bush's fiscal year 
2007 budget request for the Commerce Department. It is a tight 
and targeted budget. It reflects the President's commitment to 
reducing the deficit while maintaining America's economic and 
competitive leadership.
    At the Commerce Department through each of our agencies, we 
promote economic opportunity for the American people. To 
support this vital mission, the President's total budget 
request for our Department is $6.1 billion, and I will briefly 
highlight some of the key components.
    For our NIST laboratories, which, as you rightly mentioned, 
Mr. Chairman, have produced three Nobel Prize winners, we are 
requesting $581 million. This includes an increase of $104 
million for research and development (R&D) in the physical 
sciences to begin to implement the President's 10-year American 
competitiveness initiative (ACI).
    The ACI funding will help advance innovative NIST research. 
It will also be used to start renovation at our NIST campuses. 
The Boulder facility especially is in desperate need of repair.
    For the International Trade Administration, the request is 
$409 million. These funds will support programs to ensure that 
U.S. companies and workers have access to international 
markets, can compete on a level playing field, and have their 
intellectual property rights protected.
    For NOAA, which did an outstanding job in providing 
warnings during the busiest hurricane season on record, the 
request is $3.7 billion. This includes $19.7 million to support 
robust fisheries in the Gulf of Mexico and part of the 
administration's rebuilding effort in the gulf region.
    The budget proposal for the Economic Development 
Administration is $327 million, including $297 million for 
grants to economically distressed areas.
    We are requesting $878 million in discretionary funds for 
the Census Bureau, which is ramping up their 2010 census. In 
order to meet new fiscal priorities, no new funds are requested 
for the Advanced Technology Program.
    We are requesting $46 million for the Hollings 
Manufacturing Extension Partnership (MEP). This will maintain 
an effective network of MEP centers around the country.
    To ensure the security, health, and safety of our 
employees, we are requesting $5.9 million to begin installation 
of blast mitigation windows and $18 million to correct basic 
code deficiencies and modernize the 73-year-old Hoover 
Building.
    Mr. Chairman, we want to thank you and the subcommittee for 
your support of Commerce programs. We look forward to working 
with you to provide the best and most efficient services to the 
American people.

                           PREPARED STATEMENT

    And I welcome, as always, your comments and questions and 
would like to submit my written testimony for the record.
    Senator Shelby. Your written testimony will be made part of 
the record in its entirety, Mr. Secretary.
    Secretary Gutierrez. Thank you.
    [The statement follows:]

                 Prepared Statement of Carlos Gutierrez

    Mr. Chairman and Members of the Subcommittee, I am pleased to 
appear before you today to present the President's Budget request for 
economic, scientific, technological, and environmental programs of the 
Department of Commerce. Our request of $6.1 billion in discretionary 
funds reflects both the Administration's commitment to promote and 
sustain economic growth and opportunity, and the need to restrain 
discretionary Federal spending. Enactment of this budget will enable 
the Department to effectively support its diverse mission, including 
programs that promote strong and equitable trade relationships; improve 
our scientific and technological capabilities; protect intellectual 
property rights; upgrade our capabilities for weather observations and 
forecasting; and, ensure the long-term economic and ecological 
sustainability of our natural resources.
    I would like to highlight some of the work our bureaus have planned 
in the fiscal year 2007 President's Budget. Each bureau within the 
Department supports one of three strategic goals; I will address each 
bureau within its relevant goal.
Foster science and technological leadership by protecting intellectual 
        property, enhancing technical standards, and advancing 
        measurement science.
    The National Institute of Standards and Technology is a high-
leverage Federal research agency that performs high-impact basic 
research and contributes to the development of economically significant 
innovations in areas such as new materials and processes, electronics, 
information technology and advanced computing processes, advanced 
manufacturing integration, biotechnology, nanotechnology, and new 
energy sources such as hydrogen. In his State of the Union Address, 
President Bush announced the American Competitiveness Initiative (ACI), 
which provides an agenda for maintaining our leadership in intellectual 
and human capital, two areas that significantly contribute to our 
nation's innovation capacity. A centerpiece of the ACI is the 
President's strong commitment to double investment over ten years in 
the key Federal agencies that support basic research in the physical 
sciences--the National Science Foundation, the Department of Energy's 
Office of Science, and the Department of Commerce's National Institute 
of Standards and Technology (NIST). The President's fiscal year 2007 
Budget requests $581 million for NIST. To start implementation of the 
ACI, the request includes an increase of $104 million for NIST core 
activities (laboratory programs and facilities, less congressionally-
directed projects).
    NIST accomplishments in high-impact basic research are evidenced by 
the three Nobel Prizes that have been awarded to its scientists in the 
last decade. NIST research has led to innovations that we can see 
today, from the high-density magnetic storage technology that makes 
devices such as computer hard drives and mp3 players so compact, to 
protective body armor for law enforcement officers and diagnostic 
screening for cancer patients.
    NIST also plays a critical role in developing standards that are 
used by the private and public sectors. In fiscal year 2007, NIST will 
seek to focus 3,900 scientists and engineers from government, industry, 
and universities--an increase of 600 researchers over fiscal year 
2006--on meeting the Nation's most urgent measurement science and 
standards needs to speed innovation and improve U.S. competitiveness.
    Also in the NIST budget, the President is requesting $46.3 million 
to fund the Hollings Manufacturing Extension Partnership (MEP) program. 
This is a reduction from the fiscal year 2006 enacted level that would 
be made in order to address the Nation's most pressing funding needs in 
this austere fiscal environment. NIST will focus the fiscal year 2007 
MEP funding to maintain an effective network of centers with an 
emphasis on activities that promote innovation and competitiveness in 
small manufacturers.
    No fiscal year 2007 funds, however, are requested for the Advanced 
Technology Program (ATP). The fiscal year 2006 appropriations for ATP 
and estimated recoveries will be sufficient to meet all existing 
obligations and to phase out the program.
    The Technology Administration (TA), which includes the National 
Institute of Standards and Technology (NIST) and the National Technical 
Information Service (NTIS), seeks to maximize technology's contribution 
to economic growth, high-wage job creation, and the social well-being 
of the United States. In fiscal year 2007, the key administrative and 
policy operations within the Office of the Under Secretary will be 
streamlined. TA will remain an effective advocate for technology within 
the Department of Commerce. TA, for instance, was the lead office at 
the Commerce Department responsible for working on the recent 
competitiveness summit hosted at the Department.
    The U.S. Patent and Trademark Office (PTO) promotes the research, 
development, and application of new technologies by protecting 
inventors' rights to their intellectual property through the issuance 
of patents. The PTO also enables businesses and consumers to clearly 
identify specific products through the issuance of trademarks. In the 
United States, intellectual property-intensive industries--the 
biotechnology and information technology sectors, for example--account 
for over half of all U.S. exports, represent 40 percent of our economic 
growth, and employ 18 million Americans whose wages are 40 percent 
higher than the U.S. average. PTO has launched a vigorous reform effort 
aimed at enabling the Office to examine patent and trademark 
applications in a more timely manner, without compromising quality. The 
President's fiscal year 2007 Budget request of $1.84 billion in 
spending authority for the PTO includes increases for both patent and 
trademark processes. By hiring additional examiners, refining the 
electronic patent application filing and processing system, improving 
quality assurance programs, and implementing higher standards for 
examiner certification and recertification now, the PTO will 
significantly reduce application processing time and increase the 
quality of its products and services in the out-years. Consistent with 
recent years, the Department proposes to fund the PTO budget 
exclusively through offsetting fee collections.
    The National Telecommunications and Information Agency (NTIA) 
develops telecommunications and information policy, manages the Federal 
radio spectrum, and performs telecommunications research, engineering, 
and planning. The Department's request for NTIA supports its core 
activities and eliminates all new funding for Public Telecommunications 
Facilities, Planning & Construction, as funds for those activities are 
available from other sources.
    The Digital Television Transition and Public Safety Fund, created 
by the Deficit Reduction Act of 2005, funds a number of programs with 
the auction proceeds of electromagnetic spectrum recovered from 
discontinued analog television signals. Programs supported by this Fund 
in fiscal year 2007 will provide consumers with vouchers to aid in 
their purchase of digital-to-analog television converter boxes, assist 
public safety agencies in acquiring interoperable communications 
systems, and support an interim digital television broadcast system for 
New York City. In 2007, most activity will be related to planning for 
these programs, with actual grant making expected to begin in 2008.
Observe, protect and manage the earth's resources to promote 
        environmental stewardship.
    The 2005 Atlantic hurricane season was the busiest on record and 
extended the current period of increased hurricane activity which began 
in 1995--a trend likely to continue for years to come. This season 
shattered records that have stood for decades--the most named storms, 
most hurricanes, and most category five storms. Arguably, it was the 
most devastating hurricane season the country has experienced in modern 
times. The devastation along the Gulf Coast from Hurricanes Katrina, 
Rita, and Wilma is like nothing I have witnessed before. It is 
catastrophic. Words cannot convey the physical destruction and personal 
suffering in that part of our nation.
    The Department, including the National Oceanic and Atmospheric 
Administration (NOAA), Minority Business Development Agency (MBDA), 
NTIA, and Census, has served a critical role in the repair and recovery 
of the region. I am committed to utilizing the tools and expertise of 
the Department to facilitate the resurgence of the Gulf Coast region. I 
would also like to recognize the efforts of the professionals at NOAA 
for their timely and accurate predictions, which prevented further loss 
of life. Hurricane forecasts for Katrina and Rita were more accurate 
than ever for storm track, size, intensity, surge, and warning lead 
time, allowing for evacuation of 80 percent of New Orleans and 90 
percent of Galveston. This is a key component of NOAA's mission to 
understand and predict changes in the Earth's environment, as well as 
to conserve and manage coastal and marine resources to meet our 
Nation's economic, social, and environmental needs. NOAA continues to 
apply its scientific and technological expertise to a wide range of 
issues that serve to expand our knowledge of the world around us and 
strengthen our economic prosperity.
    Data from NOAA's satellites are essential to public safety and the 
economy. Weather and climate-sensitive industries, both directly and 
indirectly, account for approximately $3 trillion of the U.S. Gross 
Domestic Product. Average annual damage from tornadoes, hurricanes, and 
floods is $11.4 billion. The Geostationary Operational Environmental 
Satellites (GOES) serve as some of the key sentinels that observe 
hurricanes and other severe weather. The President's fiscal year 2007 
Budget request includes an increase of $113 million to continue the 
GOES-R series system acquisition, which will have key enhancements over 
the GOES-N platform.
    In addition to the geostationary satellites, NOAA is also a 
participant in the National Polar-Orbiting Environmental Satellite 
System (NPOESS), which will replace the current Polar-Orbiting 
Environmental Satellite (POES) program. The Department requests an 
increase of $20 million for NOAA's share of this tri-party system (Air 
Force, NOAA, NASA), which will deliver more accurate atmospheric and 
oceanographic data to support medium- to long-range weather forecasts 
and severe storm warnings, further reducing loss of life and property.
    The NPOESS request is based on the funding profile from last year's 
Budget. As you know, the NPOESS program has experienced schedule 
slippage and higher costs than we expected. We are currently 
participating in the Nunn-McCurdy review being conducted by the 
Department of Defense, which will be completed in June. In addition, 
the Government Accountability Office and our Office of Inspector 
General are reviewing the program. We will keep the Committee informed 
of the results of these reviews and our plans going forward, including 
any impact on our fiscal year 2007 request or out-year estimates. Our 
goal will be to ensure the best possible approach for meeting the 
Nation's civilian and military meteorological needs and protecting the 
taxpayer.
    As part of the National Weather Service's overall plan to improve 
the timeliness and accuracy for all weather-related hazards, the 
Department requests $12.4 million to sustain our commitment to the U.S. 
Tsunami Warning System. This funding level will be used to operate and 
maintain the equipment and networks created following the 2004 Indian 
Ocean Tsunami. I wish to thank this Committee for its support of the 
Administration's tsunami warning initiative in the fiscal year 2005 
supplemental and the fiscal year 2006 appropriation.
    Construction will continue in fiscal year 2007 on the NOAA Center 
for Weather and Climate Prediction, which just had its groundbreaking. 
With the requested increase of $11 million, the facility will be ready 
to start operations in 2008. This project is a key component of the 
NWS' effort to improve its weather and climate modeling performance, to 
accelerate the transfer of newly developed scientific information into 
operations, and to improve the use of global environmental satellite 
data.
    NOAA also serves as the lead coordinating agency for the U.S. 
Climate Change Science Program (CCSP), which integrates a broad range 
of climate-related observations, field studies and computer model 
projections sponsored by 13 federal agencies. CCSP has a goal of 
substantially improved understanding of both the causes and the 
potential effects of climate variability and change, on time scales 
extending from weeks to decades. NOAA's mission also includes the 
implementation of climate predictive and interpretive services for a 
wide range of applications, thereby providing significant benefits to 
users in several sectors of the economy.
    Through the National Marine Fisheries Service (NMFS), the 
Department proposes an increase of $19.7 million for activities in the 
Gulf of Mexico. As the Gulf region rebuilds, these programs will ensure 
that adequate science and management resources are available to promote 
and support sustainable and robust fisheries. Also within NMFS, the 
Department requests $6 million for the Open Rivers Initiative (ORI). 
ORI will remove obsolete river barriers in coastal states, thus 
enhancing populations of key NOAA trust species and supporting the 
President's Cooperative Conservation Initiative.
Provide the information and tools to maximize U.S. competitiveness and 
        enable economic growth for American industries, workers, and 
        consumers.
    The Economic Development Administration (EDA) supports the federal 
economic development agenda by promoting innovation and competitiveness 
and preparing American regions for growth and success in the worldwide 
economy. The President's fiscal year 2007 Budget expands EDA's Economic 
Development Assistance Programs by $47 million to $297 million and 
streamlines the program to reflect the Administration's emphasis on 
regional development strategies, innovation, and entrepreneurship. 
Regions and communities can achieve significant competitive advantage 
by identifying and then aligning research, educational infrastructure, 
and private activities around fields in which they have unique 
strengths. Four of EDA's programs, representing the majority of EDA's 
funding, will be merged into a new Regional Development Account that 
will administer their competitive grant component, including support 
for University Centers.
    The Economics and Statistics Administration (ESA) promotes the 
understanding of the U.S. economy and its competitive position. ESA's 
Bureau of Economic Analysis (BEA) provides key objective data on the 
Nation's economic condition, including the Gross Domestic Product 
(GDP), in a timely and cost-effective manner. The Department requests 
$80.5 million to maintain the level of funding ESA Headquarters and BEA 
need to efficiently and accurately provide these statistics, as well as 
research and policy analysis, that are critical to public and private 
sector decision-making.
    The Census Bureau serves as the leading source of quality data 
about the Nation's people and economy. The President's fiscal year 2007 
Budget requests $878 million in discretionary funds for the Census 
Bureau, of which the largest component is the 2010 Decennial Census 
Program. The re-engineering of the decennial census has made great 
strides: the annual American Community Survey has been fully 
implemented to replace the once-a-decade long form, the modernization 
of the geographic database of all U.S. counties is over halfway 
complete, and the technological developments for the short-form-only 
decennial census are progressing on schedule.
    In 2007, only three years out from Census Day 2010, the extensive 
planning, testing, and development activities related to the short form 
consume the majority of the decennial budget--a trend that will 
continue through 2010. In addition to continued preparation for the 
2010 Decennial Census, fiscal year 2007 will see increased activity for 
the Economic Census and the Census of Governments, the five-year 
snapshots of our economy that provide critical data.
    The rapid world-wide development and transfer of technology present 
great opportunities and risk to the United States' economic and 
national security. The Bureau of Industry and Security (BIS) regulates 
the export of sensitive goods and technologies, striking a balance 
between those economic opportunities and the security of the United 
States. The President's fiscal year 2007 Budget requests $78.6 million 
to enable BIS to effectively carry out this mission. The proposed 
budget includes a $0.3 million increase for modernization of the Export 
Control Automated Support System, which is the tool used to process 
export licenses.
    The International Trade Administration (ITA) supports U.S. 
commercial interests at home and abroad by strengthening the 
competitiveness of American industries and workers, promoting 
international trade, opening foreign markets to U.S. businesses, and 
ensuring compliance with domestic and international trade laws and 
agreements. ITA conducts domestic and international analyses to ensure 
that the U.S. manufacturing and service sectors can compete effectively 
and meet the demands of global supply chains, and to understand the 
competitive impact of regulatory and economic changes. ITA directly 
supports U.S. businesses via a Trade Information Center that provides 
customers a single point of access to ITA's programs and services. The 
President's fiscal year 2007 Budget requests $409 million for ITA, 
which includes an increase of $2 million to support the President's 
Asia-Pacific Partnership on Clean Development and Climate. This 
partnership will accelerate the development and deployment of clean 
technologies among partner countries. Commerce's role will be to 
promote the use of American products and technologies in Australia, 
China, India, Japan, and South Korea by providing U.S. firms with 
market research on those countries and coordinating trade missions to 
those countries.
    The Minority Business Development Agency (MBDA) focuses on 
accelerating the competitiveness and growth of minority-owned 
businesses by helping to close the gaps in economic opportunities and 
capital access. The President's fiscal year 2007 Budget requests $29.6 
million to enable MBDA to continue pursuing additional avenues to 
leverage resources and expand the availability of services to minority 
business enterprises.
Achieve organizational and management excellence.
    The Department's headquarters building, the Herbert C. Hoover 
Building (HCHB), is in critical need of major renovation and 
modernization. The 73-year-old HCHB is one of the last historic 
buildings in the Federal Triangle to be scheduled for renovation and 
modernization. The Department is requesting $18 million to correct 
basic health and safety code deficiencies, replace failing mechanical, 
electrical, and plumbing systems, and incorporate major security 
upgrades. In addition to the renovation, the Department also requests 
$5.9 million for the installation of blast resistant windows for one-
third of the HCHB.
    Departmental Management (DM), in addition to funding the Offices of 
the Secretary and the Deputy Secretary, develops and implements policy, 
administers internal operations, and serves as the primary liaison to 
other executive branch agencies, Congress, and private sector entities. 
The Office of the Inspector General (OIG) is charged with promoting 
economy and efficiency, and detecting and preventing fraud, waste, and 
abuse. The President's fiscal year 2007 Budget request continues to 
support these objectives.
Conclusion
    The President has submitted a budget that implements the 
Department's mission in a manner that maximizes benefits to our public. 
The Department of Commerce is home to a diverse collection of agencies, 
each with a unique area of expertise and a wide array of needs, tied 
together in a common commitment to ensure an environment exists that 
allows us to lead the world in competitiveness and innovation. The 
President's fiscal year 2007 Budget successfully addresses those needs 
in an efficient manner, mindful of the fiscal restraint required to 
sustain our economic prosperity. I look forward to working with the 
Committee to ensure that together we are providing the best services to 
the American people.

                      HURRICANE SUPPLEMENTAL FUNDS

    Senator Shelby. Mr. Secretary, I have a number of questions 
and I will go through them one by one.
    In December, Mr. Secretary, the President signed the third 
supplemental bill into law. In mid-March, our subcommittee was 
informed that $55 million in supplemental funds that were 
appropriated for NOAA had not yet been distributed to the 
intended recipients. This is May now.
    The Senate soon will pass another supplemental bill 
providing additional funds necessary for ongoing activities in 
relation to the war in Iraq and the recovery from Hurricane 
Katrina and other hurricanes in the 2005 season, which proposes 
additional funds for NOAA.
    Mr. Secretary, have all the December supplemental funds 
been distributed by NOAA as of now, and if not, why not?
    Secretary Gutierrez. Mr. Chairman, my understanding is they 
have been distributed to all of the line offices.
    Senator Shelby. Okay. How will the Department handle the 
distribution of additional supplemental funds?
    Secretary Gutierrez. We will ensure, given the dimension of 
this, that we do everything to get the money out there as soon 
as possible.
    Senator Shelby. Where it is needed?
    Secretary Gutierrez. Yes, sir.
    Senator Shelby. Okay. Could you provide the subcommittee 
with a timeline of events for getting supplemental funds to the 
intended recipients? You can do that for the record, if you 
want.
    Secretary Gutierrez. Yes, sir. If I may?
    Senator Shelby. You can do that.
    [The information follows:]

   Timeline of Events for Getting Supplemental Funds to the Intended 
                               Recipients

    Public Law Signed--December 30, 2005
    Apportionment Submitted to Department of Commerce--January 
21, 2006
    Apportionment Submitted to OMB--February 01, 2006
    OMB Approval of Apportionment--February 09, 2006
    Signed Apportionment received in NOAA--February 10, 2006
    Final transfer to NOAA Line Offices--February 15, 2006

                  ECONOMIC DEVELOPMENT ADMINISTRATION

    Senator Shelby. While the subcommittee is pleased that the 
2007 budget request proposes an overall increase of more than 
$46 million for the economic development assistance programs, I 
remain concerned that the proposal favors the creation of a new 
regional development account while zeroing out four other 
accounts--public works, technical assistance, research and 
evaluation, and economic adjustment.
    How would this restructuring of accounts be more beneficial 
to our communities that rely on these grants for economic 
improvement? And should the subcommittee agree to the changes 
in the accounts as proposed in the budget request, what 
assurances, Mr. Secretary, can you provide this subcommittee 
that the restructuring will not lead to gaps in assistance, 
considering there were four of those programs?
    Secretary Gutierrez. Yes, sir, Mr. Chairman. We have tried 
to simplify the procedure in that we had four different types 
of grants, which led to four different types of processes and 
ways of looking at public works versus infrastructure. And we 
believe that there is a common way of looking at these funds. 
Do they create jobs? Do they attract private sector grants? Do 
they improve the community?
    Senator Shelby. Those are good questions.
    Secretary Gutierrez. And so, we simplified the process and 
just have a common way of looking at all grants as opposed to 
four different buckets, which have a lot of overlapping 
criteria.
    Senator Shelby. Will you give us some more detail on this 
for the subcommittee? I think that Senator Mikulski would also 
like that.
    Secretary Gutierrez. Yes, of course.
    [The information follows:]
   Economic Development Administration--Regional Development Account
    The Regional Development Account (RDA) simply consolidates funding 
for EDA's four primary competitive investment (grant) programs into a 
single, more flexible account. This will allow EDA to strengthen its 
long-standing focus on regional economic development investments.

                             EDA TODAY FISCAL YEAR 2006: MULTIPLE PROGRAM ``SILOS''
----------------------------------------------------------------------------------------------------------------
                                       Economic       Research and Tech.      Partnership
   Public Works $158.3 million     Adjustment $44.2     Assistance $8.7     Planning $26.7       TAA for Firms
       (fiscal year 2006)           million (fiscal     million (fiscal     million (fiscal      $12.8 million
                                      year 2006)          year 2006)          year 2006)      (fiscal year 2006)
----------------------------------------------------------------------------------------------------------------
Development and upgrade of        Strategy            Research on         Supports Economic   Supports network
 physical infrastructure in        development,        leading edge        Development         of Trade
 areas of chronic economic         technical           economic            Districts to        Adjustment
 distress.                         assistance, and     development         develop and         Assistance
                                   physical            practices as well   execute regional    Centers to help
                                   infrastructure to   as information      Comprehensive       manufacturers and
                                   respond to sudden   dissemination and   Economic            producers respond
                                   and severe          efforts to          Development         to the world-wide
                                   economic distress.  provide targeted    Strategies (CEDS).  marketplace.
                                                       technical
                                                       assistance
                                                       including
                                                       University
                                                       Centers.
----------------------------------------------------------------------------------------------------------------


   EDA PROPOSED FISCAL YEAR 2007: CONSOLIDATION OF PRIMARY INVESTMENT
                                ACCOUNTS
------------------------------------------------------------------------
                                      Partnership
  Proposed Regional Development      Planning $27        TAA for Firms
  Account (RDA) $257.6 million      million (fiscal      $12.9 million
       (fiscal year 2007)             year 2007)      (fiscal year 2007)
------------------------------------------------------------------------
Activities as funded under        Supports Economic   Supports network
 current Public Works, Economic    Development         of Trade
 Adjustment, Research and          Districts to        Adjustment
 Technical Assistance programs,    develop and         Assistance
 for both chronic and sudden and   execute regional    Centers to help
 severe economic distress:         Comprehensive       U.S.
                                   Economic            manufacturers
                                   Development         respond to the
                                   Strategies (CEDS).  world-wide
                                                       marketplace.
    Physical infrastructure
     development.
    Strategy development.
    Technical assistance.
    Research and information
     dissemination.
    University Centers.
------------------------------------------------------------------------

    The Regional Development Account (RDA) will:
  --Allow investment partners (grantees) to engage simultaneously in 
        multiple activities in support of a common initiative through 
        just one EDA grant (e.g., infrastructure and technical 
        assistance).
  --Provide EDA additional flexibility to respond to sudden and severe 
        economic dislocations (e.g., a significant plant closure, 
        natural disaster covered by the Stafford Act, or a military 
        base closure).
  --Mirror the flexibility of EDA's popular and proven Economic 
        Adjustment account.
  --Build on EDA's existing regional development work through Economic 
        Development Districts and University Centers.

                  EDA'S FOCUS ON REGIONAL DEVELOPMENT

    Since its inception, EDA has emphasized regional economic 
development approaches. The creation of Economic Development Districts 
(EDDs) (which are primarily multi-county areas charged with supporting 
a coordinated economic development strategy across an economic region) 
simultaneously with EDA's original authorization in 1965 was a 
meaningful force for regional development approaches.
    For fiscal year 2007, EDA will continue its long-standing emphasis 
on regional economic development strategies. EDA will work with 
communities on economic development strategies and implementation that 
support the development plan of an entire economic region. This will 
help ensure that EDA-supported investments are compatible with and can 
better leverage other economic development initiatives in an economic 
region.
    The RDA helps support the principle of regional economic 
development by allowing EDA investment partners (grantees) to engage in 
multiple EDA-supported activities through a single grant. For example, 
an infrastructure grant to a city to help develop an inter-modal 
transportation facility can be coupled with technical assistance 
support to help the city build strategic linkages with neighboring 
cities and counties--in the same grant.
    It is important to note that the RDA:
  --Benefits investment partners (grantees) by allowing multiple EDA 
        programs to be executed toward a common goal with just one 
        grant--eliminates redundant application and reporting 
        requirements.
  --Increases EDA's efficiency by providing a single, flexible program 
        account and avoids the accounting and management challenge of 
        managing four separate ``buckets'' of funding across the six 
        EDA regions.
  --Has no impact on EDA's: investment selection criteria, balance 
        between rural and urban investments, or focus on economic 
        distress.
  --Utilizes existing EDA legislative authorities.
  --Bolsters the President's request for a $47 million increase in EDA 
        program funds (total Economic Development Assistance program 
        budget: $297.5 million).

       INTELLECTUAL PROPERTY, EDUCATION, OUTREACH AND ENFORCEMENT

    Senator Shelby. I want to get to the Patent and Trademark 
Office. I am just going down the line because you have a lot of 
jurisdiction.
    The U.S. Patent and Trademark Office has initiated a number 
of programs to assist with the intellectual property 
enforcement, such as the help hotline and the www.stopfakes.gov 
and the Global Intellectual Property Academy and training 
around the globe, which provides curriculum and training for 
foreign government officials in intellectual property rights 
protection and enforcement.
    I know these are only a few examples of the work being done 
to enforce intellectual property rights at home and abroad. Can 
you give us an update, if you would, Mr. Secretary, on the U.S. 
Patent and Trademark Office's intellectual property education 
outreach and enforcement effort? Because this is a real problem 
in the world as we expand our global trade.
    Secretary Gutierrez. Yes, Mr. Chairman.
    We have, as you mentioned, done several outreach efforts to 
small businesses. We have provided free legal services to small 
businesses. We have a hotline. We now have people on the ground 
in China, and we are focused on four countries--Brazil, Russia, 
India, and China--given that this is really where the illicit 
world economy takes place.
    We have a working group with the European Union, which is 
the first time that they have agreed to work with us to have a 
clear message to the rest of the world about Europe and the 
United States. Up until now, we have sort of been in different 
camps. And I think the illicit world would use that to their 
benefit. We are now together. We are talking with one voice, 
and we have an IPR working group.
    We have just agreed with Japan that we are going to do the 
same thing. So now they can't isolate us as well. Japan, the 
European Union, and the United States will continue to speak as 
one voice when it comes to illicit trafficking of intellectual 
property.
    The other thing that I will mention, which we believe is 
very important through the National Intellectual Property Law 
Enforcement Coordination Council (NIPLECC), is enforcement. 
Because, ultimately, it is going to be our ability to enforce 
and our ability to stop some of these factories that are 
producing these products.
    Our prosecutions have grown by 97 percent in 2005. 
Internationally, we have been able to collaborate with other 
countries to seize about $50 million of merchandise. And very 
importantly, at our border, in 2005, we seized $232 million, up 
from $190 million a couple of years earlier.
    So everything indicates that not only are we training 
people, we are providing service for foreign officials, helping 
them understand the philosophy of intellectual property. We are 
working with foreign governments, and we are ensuring that we 
are enforcing IPR and that people know there is a price to pay 
for this.
    I knew you were going to ask about this, Mr. Chairman and 
Senator Mikulski. We have been putting a lot of pressure on 
China, and they came back with their action plan on IPR 
protection 2006. We think the significance of this is that this 
is a plan developed by them. So it tells us that they should 
have more ownership for it, that they should want to make it a 
success because it was their idea.
    And I thought you would be interested. This is one of the 
areas, one of the things that they agreed to here is to require 
that all PCs have pre-installed software.
    Senator Shelby. But this is a challenge for your 
Department?
    Secretary Gutierrez. Yes, Mr. Chairman. And we are going to 
follow up on that and ensure that it is not just on paper, but 
that they are executing. And I look forward to updating you in 
the future on any progress.

   NATIONAL POLAR-ORBITING OPERATIONAL ENVIRONMENTAL SATELLITE SYSTEM

    Senator Shelby. Absolutely. The National Polar-Orbiting 
Operational Environmental Satellite System (NPOESS) program has 
experienced significant schedule delays and cost overruns for 
the 2006 budget, and yet the 2007 budget request includes an 
increase of $20 million for a total request of $337.8 million 
for this program. That is a good bit of money.
    The more than 25 percent cost overruns in this program 
triggered the Nunn-McCurdy process within the Department of 
Defense (DOD). And I understand there is an ongoing 
investigation at DOD that may lead to a total reevaluation of 
the entire program.
    In your opening statement for the record here, you say that 
your Department's goal will be--I quote you--``to ensure the 
best possible approach for meeting the Nation's civilian and 
military meteorological needs and protecting the taxpayer.'' 
That is what we want you to do.
    What exactly are the options being considered within NOAA 
in response to the increased costs and schedule delays for 
NPOESS? And for the record, could you tell the subcommittee how 
your Department is addressing additional or potential gaps in 
satellite coverage, given the delays that have already been 
experienced and the possibility of even more delays due to the 
Nunn-McCurdy process?
    Is that too much?
    Secretary Gutierrez. No, Mr. Chairman. It is very good.
    When we heard about the overruns and we had knowledge of 
this, we called in the chief executive officers (CEOs) of both 
Raytheon and Northrop Grumman, which are the two companies that 
are on this and----
    Senator Shelby. You are used to that from your business 
background?
    Secretary Gutierrez. Yes, I was. And we just let them know 
that this is not the way we like to do business. This is not 
something that we like to see, and they are going to do 
everything possible to do what they can to keep the overruns at 
a minimum.
    We know that this triggers the Nunn-McCurdy Act, and we 
will have a better understanding of how much we are talking 
about here in June.
    Senator Shelby. What is the rationalization for the 
overruns? Do you know offhand?
    Secretary Gutierrez. Their basic argument was that they 
believe that the initial estimate was too low.
    Senator Shelby. Okay.
    Secretary Gutierrez. But it is an overrun, and for us, that 
is the bottom line. And as a result, we thought it was 
appropriate to call them in and let them know that we are 
disappointed.
    So we are working very closely with them. And I am going to 
have another meeting with them. Deputy Secretary Sampson has 
met with them again. He is going to go out and visit their 
factories. So----
    Senator Shelby. See what is----
    Secretary Gutierrez. Yes. We are not going to let up on 
them.
    Senator Shelby. Well, your business background could 
certainly come in handy, Mr. Secretary, here.
    Secretary Gutierrez. I am not used to these overruns.
    Senator Shelby. Don't get used to them.
    Secretary Gutierrez. I used to have to go to my board for a 
10 percent overrun, and it would be a very tough week every 
time I did that. So we want to make it tough on them.
    Senator Shelby. I have more questions, but I am going to 
rest and let Senator Mikulski be recognized for questions.

            NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

    Senator Mikulski. Well, thank you, Mr. Chairman. ``Rest'' 
isn't usually part of your vocabulary.
    First of all, I am very pleased at the exchange between you 
and Senator Shelby on the NOAA satellite issue. This is a 
source of great concern. We need to have the most modern 
satellites, and they are the key to our weather prediction. But 
if we get into the overruns, well, you know the consequences.
    In looking at the NOAA budget, I was puzzled by what seems 
like a 6 percent cut in NOAA, but really, it is 
disproportionate. The 30 percent cut in ocean services, 8 
percent in marine fisheries, and 8 percent in NOAA research.
    Could you share with us the rationale of cutting 30 percent 
in oceans, particularly after the rather firm reports that came 
from the Joint Ocean Commission and the Pew Foundation, as well 
as marine fisheries and NOAA research, which, of course, is so 
important to climatic change and others?
    Could you tell us the rationale, and what are the 
consequences of these cuts? Will there be layoffs? Do they 
agree, sir? What is the deal?
    Secretary Gutierrez. Senator, we believe that we can carry 
on the mission and many of the initiatives that we have 
started. Of our $3.7 billion budget, about $1.8 billion is 
related to oceans and fisheries. So a big bulk of NOAA is 
really oceans and fisheries.
    And we have a lot of activities going. We just submitted 
for reauthorization our Organic Act. We submitted the Magnuson-
Stevens Act for reauthorization, as well as the Marine Mammal 
Protection Act. We have the Proposed National Offshore 
Aquaculture Act. We have extramural grants in place for 
research. We have four different scholarship programs.
    So while we are working within a tight budget, we believe 
that we have our focus on the right things, and we have got 
plenty going to be very active throughout 2007.
    Senator Mikulski. But a 30 percent cut in National Ocean 
Service is a big cut. That is not at the margin. What will be 
the consequences?
    Secretary Gutierrez. I believe, if we were to go back and 
look at it, that some of the difference you cite would be 
versus the fiscal year 2006 enacted budget. So we are, rightly 
or wrongly, comparing the President's budget requested amount 
to the base budget. So they may have been these one-time 
projects for fisheries.
    But our big projects, and especially coming off the ocean 
policy, our big projects, our big commitments are being funded, 
and we are not looking at the major layoffs or anything that 
would be distracting and that would take us off our fundamental 
mission and the big projects that we have going.
    Magnuson-Stevens, aquaculture, marine mammals, our 
scholarships--those are funded and very well----
    Senator Mikulski. Sea grants----
    Secretary Gutierrez. Sea grants, yes.
    Senator Mikulski. Well, Mr. Secretary, a little bipartisan 
group--Senator Dodd and myself, Senator Sununu, Senator Gregg--
went to both Admiral Watkins and Leon Panetta and asked them to 
do a report for us on their reports, if you will--like 
Alexander and Bingaman went to the national academies--and said 
give us the 10 ideas now to really make sure that we save our 
oceans or enhance our oceans.
    They are going to, Mr. Chairman, have this report ready 
sometime this summer, and which I would like to share. But 
then, you know, because there is endless reports. There is 
endless five points this and three-point programs for that. And 
I agree with you that we need to have at least a core basic set 
of programs we are going to support, and then at the end of the 
year or the end of a 3- to 5-year period we can honestly say 
what we have accomplished.
    And I know from, again, private sector background, you are 
a benchmark guy. And I think we would like to share the same, 
which is to say what are some of our national goals in terms of 
these and then really make a commitment on a bipartisan basis 
to work on these.
    Secretary Gutierrez. That would be great.

                        NATIONAL WEATHER SERVICE

    Senator Mikulski. So we are going to keep you posted on it.
    In terms of NOAA weather, we know that the budget includes 
a $3 million increase for the National Weather Service, which 
we think is important and much needed. But we are concerned 
that some smaller programs were eliminated like the Susquehanna 
basin, which essentially goes from New York down through 
Maryland and are the sensors along those rivers that kind of 
give the river almost like a ``river watch.''
    Well, it is. It is the Susquehanna River watch that alerts 
communities to flooding. A couple of years ago, when we had the 
big snow and the big meltdown, the Susquehanna alerts really 
saved a great deal of lives in Maryland because we had the 
early warning.
    It is one of those earmarks that everybody gets cranky 
about. But we want to be sure that when we are looking at 
weather, we are looking at the big picture on this. And I am 
going to alert you to some of these.
    But we are concerned that there is now a move to privatize 
the National Weather Service in the National Weather Service 
Duties Act. Are you familiar with that?
    Secretary Gutierrez. I have heard, just not officially, not 
formally. But I have been made aware.
    Senator Mikulski. Does the administration have a position 
on that bill yet?
    Secretary Gutierrez. I don't believe there has been a 
statement of administration policy (SAP) issued for that. As I 
think about it, the National Weather Service is a public 
service. Everyone has access to it. So I haven't thought much 
about it as a private service.

                        PATENT EXAMINERS HIRING

    Senator Mikulski. Well, we just want to alert you to that. 
I, too, think that the National Weather Service is a public 
service that should be in the public domain and operated as 
such. And the old saying is, ``If it ain't broke, don't fix 
it?''
    We know very few that the private sector value-adds to the 
National Weather Service and even develops either niche 
products or something like that for which we are appreciative.
    Let me go to the patents. Five hundred thousand backlog, 
and we know we have increased the new hires. Is that correct?
    Secretary Gutierrez. Yes.
    Senator Mikulski. One thousand new examiners?
    Secretary Gutierrez. Yes.
    Senator Mikulski. And we also know that there were fees 
charged for that. But isn't the fee authority going to expire? 
Not for the overall collection of the patents.
    The patent, PTO is funded through, is paid by inventors. 
The authority to get current fee levels were expired. I think 
we raised fee levels. Am I correct in that?
    Secretary Gutierrez. Yes.
    Senator Mikulski. So that we could add more people. I think 
it is going to expire this year.
    Secretary Gutierrez. I think it is renewed----
    Senator Mikulski. Can you kind of tell us where you are 
with this?
    Secretary Gutierrez. My understanding is that----
    Senator Mikulski. And whether we need to continue to hire 
and use this as a tool or mechanism?
    Secretary Gutierrez. It is an annual renewal in the 
appropriations bill. So we get a 1-year extension, essentially, 
every year. We collected about $1.5 billion of fees. So this 
is----
    Senator Mikulski. B? Like in ``Barb?''
    Secretary Gutierrez. Yes. I hope that is right.
    Senator Mikulski. Yes, that sounds about right.
    Senator Shelby. That is a lot of money.
    Secretary Gutierrez. And we have 4,000 examiners. We are 
hiring 1,000 over the next 5 years. And unfortunately, you are 
right. The pendency is growing from about 29 months to 32 
months. So it is not going in the direction we want.
    We are hiring more examiners. We are trying to make the 
process a lot smoother at the beginning, trying to avoid 
patents that we don't need to put through the process, getting 
more quality in the beginning.
    We have a conflict here between the quality of the patent 
and the pendency. So we want to lower pendency, but not at the 
expense of quality, especially technology.
    Senator Mikulski. We don't want to have other BlackBerry 
cases and so on.
    Secretary Gutierrez. Exactly. So technology folks are very 
concerned about the quality aspect. Everyone is concerned about 
the quality aspect.
    So we are working on that. We are hiring more people. We 
have just gone online for the first time. We have what we think 
is the most efficient patent application system, where people 
can apply online.
    Senator Mikulski. They couldn't do that before?
    Secretary Gutierrez. Not to the extent that they can today. 
And we launched just about 1 month ago. That should help our 
pendency. We have monthly reports on productivity, monthly 
reports on production. People are rewarded for that. They are 
measured on that. These metrics are cascaded throughout the PTO 
offices.
    So, more and more, it is being managed by the numbers and 
quality of the patents. We agree with your challenge that as we 
improve quality, we also have to take down pendency. We just 
can't afford to have our pendency continue to increase.
    Senator Mikulski. See, this is part of the innovation-
friendly government. And people in Maryland who are inventors 
and then someone in the bio fields, which is another dynamic, 
is they have to stand in two lines. One to get their patent, 
the other to get their FDA approval. So that, in and of itself, 
is time.
    What they have shared with me is that, say, if they are 
waiting for their patent, some of their intellectual property 
has already been stolen. And so, that is an issue. It is a big 
issue.
    Do you feel that the 1,000 examiners that you hired will be 
enough, or do you think you need to have more?
    Secretary Gutierrez. We believe that, for now, it should be 
enough. But if we see that it isn't, we will be coming back to 
you.

             PATENT EXAMINERS QUALIFICATIONS AND RETENTION

    Senator Mikulski. Well, what are the tools then for 
retention? First of all, share, as you did with me, with 
Senator Shelby what are the basic qualifications to be a patent 
examiner?
    Secretary Gutierrez. We have actually gone back and looked 
at this. We hire mostly engineers and lawyers. About 19 percent 
of the engineers we hire also have a law degree.
    Senator Mikulski. See, so this is a big bucket of talent 
here?
    Secretary Gutierrez. Oh, this is----
    Senator Shelby. Important talent.
    Secretary Gutierrez. Yes, very important. And we actually 
retain people for about 6\1/2\ years. So they come, an average 
of tenure with PTO is about 6\1/2\ years. So they know they are 
getting the best training you can get, working with very smart 
people. They are at the leading edge of seeing what 
technologies are happening and who is innovating.
    If they don't have a law degree, we provide them with 
financial help to get a law degree. We give them training to 
help them manage people. We are constantly trying to upgrade 
their skills. So it is a way of keeping them there.
    Our starting salaries average about $56,000. And that 
ranges anywhere from $35,000 to $70,000, depending on their 
GPA, depending on their skills. That is about 10 percent below 
the private sector.
    So we know that we have to fill that gap with other ways--
--
    Senator Mikulski. You mean for a young associate in a law 
firm----
    Secretary Gutierrez. For a young associate coming in, that 
is right.
    Senator Mikulski. That would be focused on intellectual 
property?
    Secretary Gutierrez. About 10 percent. They make about 10 
percent more in the private sector.
    So we have to fill that 10 percent through other ways--by 
training, by giving them a great work environment, by giving 
them a sense that they are in the right place at the right 
time.
    Senator Shelby. Well, that is very important.
    Secretary Gutierrez. And we pay them for performance, a 10 
percent bonus. We would like to see that go up to about 17----
    Senator Shelby. For good people?
    Secretary Gutierrez. That is right, for the people who are 
performing.
    Senator Mikulski. Six and a half, are you satisfied with 
that, or would you hope that they would stay longer? And don't 
you need a career service to be able to mentor----
    Secretary Gutierrez. Yes. That is right.
    Senator Mikulski [continuing]. These talented, young, 
bright people? Or mid-career people that are changing? There 
might have been somebody who is a whiz in electrical 
engineering, maybe one of our leading defense contractors gets 
their law degree and wants to move over and do something like 
this?
    Secretary Gutierrez. I agree. The 6\1/2\ years is higher 
than I would have expected. I would like to see more. And I 
think it is a good----
    Senator Shelby. Six and a half years is average, right?
    Secretary Gutierrez. Yes, that is the average tenure.
    Senator Shelby. So some stay a long time.
    Secretary Gutierrez. Some stay longer. Some leave, 
unfortunately, sooner. But we would like to see more.
    Continuity is always a good thing, and things are changing 
so quickly. Yes, we have gone from 300,000 patents several 
years ago to about 412,000 patent applications.
    Senator Mikulski. That is a lot of ideas.
    Secretary Gutierrez. So people are innovating. There is 
more innovation. The applications are getting more complex. So 
it requires better skill sets to just understand the 
technology.
    Senator Mikulski. So what can we do to retain now? We have 
got these 1,000 people. And of that 1,000, we would want, you 
know, as you would say, staying longer for the public 
investment we are about to make in their training.
    Secretary Gutierrez. Right.
    Senator Mikulski. What do you see as the key retention 
tools, and are there ways that we could be helpful to you?
    Secretary Gutierrez. I think we have to continue to make it 
a great working environment, where they feel like they are 
learning. If they want to go on to get their law degree, we 
will help them do that financially.
    They are constantly getting seminars to upgrade their 
skills, whether it be people management if they are engineers, 
getting legal seminars if they are lawyers. Getting engineering 
seminars, marketing seminars that they really become experts at 
what they do.
    And I would like to do everything possible from the 
standpoint of the working environment. And if we need to, to 
come back and look at the bonuses.
    We have a 10 percent performance bonus. To keep up with the 
private sector, we may have to take that up higher. And I would 
like just a little bit more time to go back and see where the 
discussions are in order to talk about it with the union and 
then come back to you on that.
    Senator Mikulski. Well, this issue of adequacy of personnel 
and recruitment and retention is, I believe, a real high 
priority. Our colleagues in the Judiciary Committee create them 
all, but your idea of the working environment, I would like to 
just bring to your attention, one, the GAO report that was 
commissioned last June for Congressman Sensenbrenner and 
Congressman Wolf, our counterpart----
    Secretary Gutierrez. Right.
    Senator Mikulski [continuing]. On progress made in hiring, 
the challenges to return. And one of their number one issues 
that they raise, Mr. Secretary, is communication. And they 
state that there seems to be a culture of poor to uneven 
communication between management and the examiners. And they 
cite that as really affecting morale, productivity, and 
retention.
    We bring this report to your attention, and we think it is 
a very good guidepost for us to follow. And when I read it, I 
saw that, yes, money, recruitment, and so on is there. And then 
the employee organizations also had their newsletter, and 
replete through the newsletter is the need for more 
communication between management and the examiners.
    So I am going to bring these to your attention and know 
that this is a lot of hard work going into it. The other side 
of the Capitol is also interested in this, and I think it 
really focuses on the human capital, Mr. Chairman.
    Senator Shelby. Very much so.
    Senator Mikulski. And my questions in the future and, even 
more importantly, this year will be how are we doing on this 
report and implementing it, and whether you think maybe the 
report was off the mark, nevertheless?
    Because as I travel my State and talk to those Nobel Prize 
winners, not only in this and other places, they say that one 
of the most important tools to an innovation-friendly 
government, in addition to the pipeline issue of talented 
people, is the Patent Office. Everybody talks about the Patent 
Office. So we let it at that.
    My last question in this round--the chairman wants to go 
another--is NIST. Isn't that a spectacular agency? That is 
where those three Nobel Prize winners are. But I am concerned 
that as we cut ATP and shrink the manufacturing extension 
partnership and so on, that is why I said are we robbing Peter 
to pay Paul here?
    Secretary Gutierrez. If I may just step back a little, 
Senator, on this?

  ADVANCED TECHNOLOGY PROGRAM AND MANUFACTURING EXTENSION PARTNERSHIP

    Senator Mikulski. Because we eliminate the ATP----
    Secretary Gutierrez. Yes.
    Senator Mikulski. And we shrink the manufacturing 
extension, the legacy of our colleague, Senator Hollings. So--
--
    Secretary Gutierrez. The President mentioned this in the 
State of the Union that NIST is one of the three agencies that 
is getting an increase in funding because NIST does basic 
research. We have an iPod today, thanks to what NIST did many 
years ago. We have many of our security systems on automobiles 
came out of research that NIST has done.
    So what they do is basic research for technologies that 
will be applied across many industries. And we think that is 
the role of the Federal Government. Long-term basic research, 
10, 15 years down the road, the types of projects that private 
sector typically does not have the patience for or the money, 
the competitive environment. They typically do product 
development, a lot shorter period of time.
    Senator Mikulski. They value-add to our basic research.
    Secretary Gutierrez. Exactly. So one-third of the country's 
R&D is Federal Government. Two-thirds is private sector. That 
one-third, we would like to keep it on basic research and let 
the private sector use what we produce to develop products.
    ATP was almost like a venture capital fund. It was trying 
to pick winning companies, and we felt that the role of the 
public sector wasn't necessarily picking winners or losers, but 
providing technologies.
    MEP, we are keeping at a smaller rate because that also 
tends to be product development, operational. It does demand 
for us to pick who gets the money and who doesn't. But we have 
a network in place that we don't want to let go of because it 
can still be used.
    But to the extent that we can, we would like to stay on 
basic research, things that only we can do. We now have 1,800 
guest scientists and engineers at NIST, who are there trying to 
pick up any experiences, any learning to take back to be able 
to use.
    And as we look around the world, there isn't another 
country--we asked the European Union the other day, how do you 
do it? Do you have your NIST? Do you have a private sector 
linkage? They don't.
    I think we have an advantage in the linkage between our 
basic research agencies, such as NIST, Department of Energy, 
the National Science Foundation (NSF), our private sector 
companies, and our universities. And we are seeing more and 
more of that partnership taking place.
    That is why we have shifted money to basic research from 
what we would call picking winners and losers and----
    Senator Mikulski. What about the manufacturing extension 
partnership?
    Secretary Gutierrez. The $46 million that we put in the 
budget is to keep the network in place. That is about one-third 
of the funding because State governments and private sector 
usually put in another third and one-third is from fees.
    But the important thing is the network will be there, and 
the private sector can access the network. The funding will not 
necessarily come from the Federal Government as much as it did 
before, but it will still be there. The network will still be 
there, and the funding, to some extent, will be there.
    But most of our money is going into basic research that 
will give us a country-wide competitive advantage against the 
rest of the world. Nanotechnology, quantum research, 
biometrics--the types of things that the private sector just 
doesn't have the time or the patience or the competitive 
environment to be able to do.
    Senator Mikulski. Thank you, Mr. Chairman.

                        OCEAN-RELATED ACTIVITIES

    Senator Shelby. Thank you, Senator Mikulski.
    I have a few more questions. In what way does the 2007 
budget request provide sufficient funding to address NOAA's 
ocean-related activities and responsibilities with respect to 
the Joint Ocean Commission's report?
    Secretary Gutierrez. No, that is great. Thank you.
    Out of NOAA's $3.7 billion request we allocated about 50 
percent to oceans and fisheries. We are working on many of the 
Ocean Policy Commission's recommendations. We have resubmitted 
for reauthorization the Organic Act for NOAA, the Magnuson-
Stevens Act Reauthorization, and the Marine Mammal Protection 
Act Reauthorization.
    We are now hoping to work with Congress to get 
authorization for offshore aquaculture, which is also very 
important----
    Senator Shelby. That is a whole lot of promise there.
    Secretary Gutierrez. We actually are a net importer of 
fish.
    Senator Shelby. I know.
    Senator Mikulski. And growing.
    Secretary Gutierrez. Some of the fish we import is farmed 
fish. So we think we should be doing a lot more.
    Senator Mikulski. And some of it is a little----
    Secretary Gutierrez. Yes, well. So it is an area of 
opportunity for us. So we believe that we have the right 
priorities and the big projects that we need to continue funded 
in the area of oceans, Mr. Chairman.
    Senator Shelby. And we have got the coast and the bays, 
too.
    Secretary Gutierrez. Yes.
    Senator Shelby. Mr. Secretary, what progress are you making 
in addressing some of the recommendations put forward by the 
Joint Ocean Commission, like the report card's low marks for 
international leadership, research, science, and education? I 
know you weren't there all this time.
    Secretary Gutierrez. We just had our Asia-Pacific economic 
cooperation (APEC) forum's marine resource conservation working 
group meeting, which includes other agencies, but NOAA is a big 
part of it. We are leading the whole effort toward tsunami 
detection with the rest of the world. It goes beyond oceans.
    So I believe that we and our people are constantly taking a 
leadership role in coordination meetings and seminars. The rest 
of the world looks to us for oceans leadership, technology, 
knowledge. Of the 50 recommendations within the 
administration's ocean action plan where NOAA is the lead or a 
partner, we have implemented 37 to date. So we are very focused 
on it.

                        DEPARTMENTAL MANAGEMENT

    Senator Shelby. The 2007 budget request includes $18 
million for the renovation and modernization of the Herbert C. 
Hoover Building, headquarters to the Department of Commerce.
    The subcommittee notes the funding was requested in 2006, 
but not appropriated. What would the level of funding here 
provide for you, and how many years of follow-on funding would 
be needed to complete the renovation?
    Secretary Gutierrez. Yes. And this is the last one, Mr. 
Chairman, of the Federal Triangle Historic buildings that has 
not been renovated.
    Senator Shelby. Well, they have got to be renovated.
    Secretary Gutierrez. The plan actually takes us out to 
2017. So we are spreading it out so that we don't have the 
burden of a big cost in 1 year.
    Senator Shelby. It is still a lot of money, though.
    Secretary Gutierrez. Yes, it is about $700 million total, 
of which about $200 million will be picked up by Commerce.
    Senator Shelby. It would cost a lot of money--we wouldn't 
want you to move. But if you built a new building somewhere, it 
would cost a lot of money, too.
    Secretary Gutierrez. That is absolutely right. And it is--
--
    Senator Shelby. Plus, you would lose the history.
    Secretary Gutierrez. That is absolutely right. So we have 
$18 million, which gets us going, and we have it spread out to 
2017.

             NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY

    Senator Shelby. The President announced the American 
competitive initiative as a new program that would continue to 
build the Nation's science and technology base. Senator 
Mikulski has already talked about this.
    This will be done through investments in federally funded 
research and investments to ensure the country has a 
technologically skilled workforce. We have got to do it on our 
own.
    To accomplish this, several agencies were tasked with 
leading this initiative. One of those falls under you, the 
Department of Commerce--the National Institute of Standards and 
Technology.
    What is your basic role with regard to the American 
competitiveness initiative? And how much of your budget and 
time is dedicated to this? We think it is important.
    Secretary Gutierrez. Yes. Yes, Mr. Chairman. I agree. And 
this is one area where we have actually tasked every department 
inside of Commerce to play a role. I think we all play a role 
in helping our country become more competitive.
    Directly, we have the $104 million that we have added to 
NIST for projects, and those are, as I mentioned before, 
nanotechnology, quantum research, biometrics. Things that the 
private sector can take and apply across many industries.
    We are also sort of out of our lane. We are working with 
the private sector to motivate them to get volunteer teachers 
into K through 12. Part of the ACI----
    Senator Shelby. How do we do that? How do you do that?
    Secretary Gutierrez. Well, we go out and talk to companies. 
We were with Intel the other day, in an auditorium of maybe 500 
engineers. We said please go out and be part of the ACI. We 
want----
    Senator Shelby. They could be tremendous role models, can't 
they?
    Secretary Gutierrez. Yes. Because students are not really 
sure where a math or a science career will take them.
    Senator Mikulski. They don't know.
    Senator Shelby. They don't know.
    Senator Mikulski. They don't know what is going on.
    Secretary Gutierrez. So this would be an opportunity to do 
that--working with Congress to make the R&D tax credit 
permanent. We have renewed that, I think, a dozen times over 
the last 10 or 12 years. We believe the private sector needs 
more predictability.
    Senator Shelby. So they can plan.
    Secretary Gutierrez. So that they know if they are starting 
a 5-year project, they will have a tax credit in 5 years. So--
--
    Senator Shelby. But we have to do that, don't we, Mr. 
Secretary, to compete in the world of tomorrow that we see on 
the horizon?
    Secretary Gutierrez. Absolutely.
    Senator Shelby. In China and India and everywhere else?
    Secretary Gutierrez. Absolutely.
    Senator Shelby. If we don't, we are going to lag behind.
    Secretary Gutierrez. Absolutely. We are competing today. 
Our economy is doing very well in the face of intense 
competition. But it is 5 years from now, 10 years from now, 20 
years from now----
    Senator Shelby. We have got to worry about.
    Secretary Gutierrez. Absolutely.

                  ECONOMIC DEVELOPMENT ADMINISTRATION

    Senator Shelby. In 2007, the budget request for EDA 
salaries and expenses is only $9,000 more than 2006.
    The subcommittee recently approved a reprogramming request 
of $700,000 that we were told was necessary to provide 
sufficient salaries and expenses for the balance of 2006, which 
means the 2007 request is now $691,000 below the 2006 number.
    Given this reprogramming of funds, how can the funding 
level requested for 2007 be sufficient? I know that we are 
appropriators, and you think, well, gosh, why are we asking you 
to ask for more money? But we think you need to have the 
requisite money to do your job here. And can you do that?
    Secretary Gutierrez. Yes, of course, Mr. Chairman.
    Senator Shelby. In other words, what funding level is 
necessary to maintain the current EDA operations in 2007? Can 
you do it like that? And why and how?
    Secretary Gutierrez. Yes, Mr. Chairman. With the current 
budget, we can keep our office network in place.
    Senator Shelby. Okay.
    Secretary Gutierrez. Our salaries and expenses, as a 
percent of the total budget, is about 9 percent, which we think 
is right up there. We wouldn't like to see it go higher because 
then we have got more money tied up in expenses than we would 
like to have. So we think we have the right balance, and we 
think we can make it work.

                        DEPARTMENTAL MANAGEMENT

    Senator Shelby. Going back to the Herbert C. Hoover 
Building, the Commerce Building. You are seeking $5.9 million 
for blast mitigation windows, which you certainly need. Is that 
the total funding level? Or will there be additional funds in 
this area, too?
    Secretary Gutierrez. That is actually additional for the 
windows.
    Senator Shelby. In other words, how many years is that? We 
have been told there is a request of a $5.9 million increase 
for blast mitigation windows.
    Secretary Gutierrez. Yes, yes.
    Senator Shelby. Is that the total level of funding, or will 
there be additional?
    Secretary Gutierrez. It is for blast mitigation windows for 
one-third of the building.
    Senator Shelby. Okay. So that is one-third, and there will 
be additional funding?
    Secretary Gutierrez. Yes, Mr. Chairman. And this came out 
of the ``Window Blast Hazard Mitigation Study'' for the Herbert 
C. Hoover Building issued by the General Services 
Administration in February 2003.

                          BUREAU OF THE CENSUS

    Senator Shelby. Oh, yes. I know you need it. You don't want 
to put your people at risk.
    The Bureau of the Census. The budget request for the 2010 
census is starting to grow, of course, in anticipation of the 
2010 census, which is just a few years away. The increases are 
quite significant while, at the same time, the census is 
proposing to reduce or to eliminate work that it has done 
previously.
    What efforts are being made, Mr. Secretary, to ensure that 
the 2010 census is as cost effective and accurate as possible 
while maintaining other capabilities that the bureau provides? 
Because they do a lot of other ancillary things.
    Secretary Gutierrez. Absolutely. And this is an area, Mr. 
Chairman, where I believe we have made quite a bit of progress 
for the 2010 census, and I brought a little exhibit. This is 
something we used to use in our sales force in the 
supermarkets. I didn't have anything to do with it. It was 
already in place here. But----
    Senator Shelby. It worked, didn't it?
    Secretary Gutierrez. It works. So, instead of carrying a 
pad and having to jot down, they will have these small 
computers and hand-helds. And they will be putting the 
information, as they get it, into this hand-held computer, 
which will be consolidated and tabulated in a central location.
    So we are miles ahead from where we were, say, 10 years ago 
for our census, and we have already started now to train 
people, to get people in place. We are now doing the American 
community survey on a monthly basis, which is a long----
    Senator Mikulski. Guess who just got her survey 
questionnaire.
    Secretary Gutierrez. That is right.
    Senator Mikulski. I got mine.
    Secretary Gutierrez. And that allows us to make the 10-year 
questionnaire shorter, easier, quicker. So we get more accurate 
information. That will be extremely important.
    So we are getting geared up, and I believe that the folks 
at Census have done a great job, and this is a major innovation 
that will just put us ahead in terms of----
    Senator Shelby. Senator Mikulski, do you have any other 
questions?

               PUBLIC SAFETY INTEROPERABLE COMMUNICATIONS

    Senator Mikulski. First of all, the chairman's questions on 
economic development and the census paralleled my own. And also 
his remarks on competitiveness.
    I think where there is a true opportunity for partnership 
between the executive and legislative branch on a bipartisan 
basis is in this area to make us more innovative. Because our 
goal is to be able to create what we hope will be the economic 
infrastructure, if you will, for there to be jobs in this 
country. And that is kind of where we are.
    My question, though, that didn't come up goes with another 
national security issue. And that goes with interoperability of 
communications with our first responders. And for we in the 
capital region this is a very intense need and, as you know, is 
a national need. And after 5 years, almost 4\1/2\ now since 9/
11, we are still not interoperable.
    The National Telecommunications Information Administration 
(NTIA), we understand, is about to give out a lot of money for 
grants. They will award with interoperability grants. The money 
will come from spectrum auction. But we are concerned that the 
standards haven't been developed.
    There was supposed to be this voluntary effort between the 
telecommunications industry, association, something called 
``Project 25'' to develop this. But as of this January, little 
progress has been made. And when NIST tests the equipment that 
is coming down the pike, it doesn't seem to meet the standards.
    So here is my question. What are we doing really to develop 
interoperable standards? So no matter if you are a local 
volunteer fire department, funding yourself with fish fries, or 
you are a big government like New York and New Jersey, or we in 
the capital region can talk to each other.
    What has been developed in standards? And what are we going 
to do with this billion dollars? I am afraid that this could be 
another techno-boondoggle where people go out and buy gear that 
can't communicate. And we are already concerned in the capital 
region that there are significant gaps here.
    Senator Shelby. We want it to work. You know that.
    Senator Mikulski. So we want to know what will the money 
buy? Who is going to be eligible? And are the standards ready? 
And if they are not ready, shouldn't we make sure that the 
standard is in place before we start giving out the money?
    Secretary Gutierrez. Yes. We have the $1 billion, and we 
are actually doing a test in Washington, DC. This is the first 
time we have done a Federal/non-Federal test in the D.C. area 
to see what we can make interoperable, how much we can push 
this.
    And based on that test, which we need to push hard, we will 
come up with the framework, the standards that we can provide 
to business, get businesses' input and get to work on the 
national program. So we would roll out our D.C. test and it is 
just very fortunate that we are able to do it in the District.
    Senator Mikulski. When are you going to do that?
    Secretary Gutierrez. We are doing it as we speak. We are 
doing a test now. This is obviously interagency. It is 
Commerce. It is the Department of Homeland Security. It is 
Department of Justice. We can provide you that for the record.
    Senator Shelby. That would be good.
    [The information follows:]

    Public Safety Interoperable Communications Standards and Testing

    A report on this topic will be transmitted by letter from 
Secretary Gutierrez.

    Secretary Gutierrez. And a longer document on what is 
involved in the test.

          PUBLIC SAFETY INTEROPERABLE COMMUNICATIONS SCENARIOS

    Senator Mikulski. But is the test to establish the 
standards?
    Secretary Gutierrez. Yes. The test will give us guidelines 
for the development of standards that we will develop in 
conjunction with the private sector.
    We believe the private sector needs some direction from us, 
and they need a little bit of help. And this test will give us 
the knowledge we need to tell the private sector how we should 
move forward because the private sector hasn't been as 
aggressive as we would like them to be.
    Senator Mikulski. Have you started to give the grants out 
yet?
    Secretary Gutierrez. No.
    Senator Mikulski. Well, I would encourage you, let us not 
give out the money.
    Secretary Gutierrez. We haven't.
    Senator Mikulski. Because my observation, at least in the 
capital region, again, is there are a million salesmen out 
there with a lot of gizmos. Some are quite good. Some are 
questionable. And they go to everything from county governments 
to small towns in the counties, and they say, ``Buy this. Buy 
this. It will be okay.''
    And you know, we believe in competition, so not a single 
product. Again, not winners and losers, but that it all be 
interoperable, depending on what you buy. And that for national 
security reasons, in other words, homeland security reasons, 
that each gizmo, the more gadgets it has on it, the more 
expensive.
    But that there be a core element that whatever you buy for 
first responders and local government, that it be a core 
element that enables us to transmit voice and data so they know 
what to do.
    Secretary Gutierrez. I think the test will enable us to be 
more certain about what to buy and what not to buy.
    Senator Mikulski. Are you personally----
    Secretary Gutierrez. Yes.
    Senator Mikulski. Is this thing operated out of your 
office?
    Secretary Gutierrez. It is being operated out of John 
Kneuer's office, NTIA. But I am very close to this and----
    Senator Mikulski. Well, Mr. Secretary, I know you have a 
lot on your plate, and I know you are traveling the world in 
the many issues we have talked about, protecting intellectual 
property, doing very important things for the good of our 
economic security. But this is a big one.
    Secretary Gutierrez. I would agree with that.
    Senator Mikulski. It is 4\1/2\ years since 9/11, and you 
would think that, number one, we can accelerate putting it in 
place. But working with NTIA, if you could personally keep an 
eye on it, so that it doesn't get bogged down. But at the same 
time, we really do achieve this goal. I think it is one of the 
most important things that you could accomplish, if I might be 
so bold.
    Secretary Gutierrez. I will stay very close to it. And if I 
may, I will send you a summary for the record of the test.
    Senator Shelby. That would be good.
    Senator Mikulski. Yes. Well, you know the importance of 
communication.
    Senator Shelby. That is right. Got to have it.
    Senator Mikulski. You know all about it, what you guys went 
through with Katrina. It could be a predatory attack, or it 
could be a natural disaster.
    Senator Shelby. We certainly need interoperability, don't 
we, Senator?
    Senator Mikulski. Yes, we certainly do.
    That concludes my questions.
    Senator Shelby. Mr. Secretary, we thank you for your 
appearance today.

                     ADDITIONAL COMMITTEE QUESTIONS

    We are going to keep the record open because we have some 
other Senators that couldn't be here who would like to submit 
some questions for the record, and we will hope that when we 
get them to you that you could respond to them no later than 
June 16, as we are working on the fiscal year 2007 
appropriations.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Richard C. Shelby

    FISCAL YEAR 2006 SUPPLEMENTAL--NATIONAL OCEANIC AND ATMOSPHERIC 
                             ADMINISTRATION

    Question. What financial mechanisms did the Department of Commerce 
use to create this almost three month delay in allocating December 
supplemental funds to the appropriate NOAA folks on the Gulf Coast?
    Answer. The Department of Commerce employed the standard financial 
and procedural mechanisms to approve, apportion and distribute the 
funds provided by Congress in Public Law 109-148. This enactment took 
just over six weeks, from the date of the signed appropriation to final 
distribution (please see timeline below).
    Question. Have all of the December supplemental funds been 
distributed? If not, why not?
    Answer. Yes. The funding was distributed to NOAA Line Offices on 
February 15, 2006. NOAA began conducting activities using those funds 
immediately.
    Question. How will the Department handle the distribution of 
additional supplemental funds?
    Answer. NOAA has formed an internal working team to expedite the 
distribution of funds. The Team has developed procedures to track the 
expenditures and ensure all internal control processes are set up to 
handle any additional funding.
    Question. Please provide the Committee with a timeline of events 
for getting supplemental funds to the intended recipients.
    Answer. The final transfer of funding to the intended recipient 
depends on the individual items listed in the supplemental. NOAA is 
working hard to award all contracts and transfer funding as soon as 
possible. The timeline for the enactment of funds from the December 
supplemental is as follows:
  --Public Law 109-148 signed--December 30, 2005
  --Apportionment Submitted to Department of Commerce--January 21, 2006
  --Apportionment Submitted to OMB--February 1, 2006
  --OMB Approval of Apportionment--February 9, 2006
  --Signed Apportionment received in NOAA--February 10, 2006
  --Final transfer to NOAA Line Offices--February 15, 2006

                  ECONOMIC DEVELOPMENT ADMINISTRATION

    Question. How would this restructuring of accounts be more 
beneficial to our communities that rely on these grants for economic 
improvement?
    Answer. Under the RDA, EDA will simplify its application process 
for communities while maintaining its current selection criteria and 
traditional balance between rural and urban projects. The restructuring 
of accounts into the RDA will provide additional benefits to 
communities because it will:
  --Allow grantees to engage simultaneously in multiple activities in 
        support of a common initiative with just one EDA grant (e.g., 
        infrastructure and technical assistance).
  --Provide EDA additional flexibility to respond to sudden and severe 
        economic dislocations (e.g., a significant plant closure, 
        natural disaster covered by the Stafford Act, or a military 
        base closure), especially when those economic dislocations 
        occur near the end of the fiscal year.
  --Mirror the flexibility of EDA's popular and proven Economic 
        Adjustment account.
  --Eliminate redundant application and reporting requirements for 
        grantees.
  --Increase EDA's efficiency by providing a single, flexible program 
        account and avoid the accounting and management challenge of 
        managing four separate ``buckets'' of funding across the six 
        EDA regions.
    Question. Should this Committee agree to the change in accounts as 
proposed in the budget request, what assurances can you provide that 
this restructuring won't leave gaps in assistance?
    Answer. EDA is a discretionary program for which there will always 
be a greater demand than supply when it comes to funding. It is 
important to note that if the RDA were enacted, it would have no impact 
on EDA's investment selection criteria, balance between rural and urban 
investments, or focus on economic distress. Additionally, the RDA would 
not affect the general level of funding per project.
    Additionally, the RDA would better ensure that small jurisdictions 
and rural areas have a ``seat at the table'' within the larger regional 
economic development framework. The RDA would increase the focus on 
regional approaches, allowing rural areas to better build on shared 
strengths and link up with regional economic hubs. This focus would in 
turn enhance the economic prospects of rural and distressed areas as 
they attempt to integrate into the larger economic region and 
participate in the growing national economy.
    Please see also the attached document, ``Economic Development 
Administration--Regional Development Account''.
    Question. Given this recent reprogramming of funds, how can the 
funding level requested for fiscal year 2007 be sufficient to continue 
current operations without a reorganization or restructuring, when it 
is less than what we have been told is necessary for fiscal year 2006?
    Answer. For fiscal year 2007, EDA will defer or cancel planned 
projects, including automation and training initiatives, defer staff 
hires until later in the year or to the following year, recruit interns 
in lieu of higher-graded staff, identify every available resource and 
potential operational efficiency, and, if absolutely necessary, reduce 
staff in order to maintain a six regional office footprint and operate 
within the parameters of the President's fiscal year 2007 budget 
request.
    Question. What funding level is necessary to maintain current EDA 
operations in fiscal year 2007?
    Answer. EDA continues to support the President's budget request for 
fiscal year 2007. The Salaries and Expenses request is $29.7 million. 
The request level would necessitate programmatic and organizational 
changes. To maintain the current regional office structure and level of 
service provided without changes may require additional resources.

               UNITED STATES PATENT AND TRADEMARK OFFICE

    Question. Can you give us a status update on the U.S. Patent and 
Trademark Office's intellectual property education, outreach, and 
enforcement efforts?
    Answer. The USPTO is diligently working to help curb intellectual 
property theft and strengthen intellectual property (IP) protection and 
enforcement in every corner of the globe. As the largest IP office in 
the world, the USPTO is leading efforts to develop and strengthen 
domestic and international intellectual property protection.
    Under the American Inventors Protection Act (AIPA) of 1999 (Public 
Law 106-113), the USPTO is directed to advise the President, through 
the Secretary of Commerce, and all federal agencies on national and 
international intellectual property policy issues, including 
intellectual property protection in other nations. The USPTO is also 
authorized by the AIPA to provide guidance, conduct programs and 
studies, and otherwise interact with foreign intellectual property 
offices and international intergovernmental organizations on matters 
involving the protection of intellectual property.
    Through its Offices of International Relations, Enforcement, and 
Congressional Relations, the USPTO: (1) helps negotiate and works with 
Congress to implement international intellectual property treaties and 
develop domestic intellectual property related legislation; (2) 
provides technical assistance to foreign governments that are looking 
to develop or improve their intellectual property laws and systems; (3) 
provides capacity-building training programs to foreign intellectual 
property officials on intellectual property enforcement; (4) advises 
the Department of State and the U.S. Trade Representative (USTR) on 
drafting and reviewing intellectual property sections in bilateral and 
multilateral investment treaties and trade agreements; (5) advises the 
USTR and the Department of State on intellectual property issues in the 
World Trade Organization (WTO); (6) works with USTR, the Department of 
State, and American industry on the annual review of intellectual 
property protection and enforcement under the Special 301 provisions of 
the Trade Act of 1974; and (7) consults with the Department of Justice 
and other federal law enforcement entities who are responsible for 
intellectual property enforcement.
    The Strategy Targeting Organized Piracy (STOP!) Initiative.--The 
USPTO is actively involved in the Administration's STOP! initiative, 
the most comprehensive U.S. Government-wide initiative created to 
combat trade in pirated and counterfeit goods. The initiative is a 
collaboration of the Departments of Commerce, Justice, Homeland 
Security, and the Office of the USTR. The goal of the STOP! program is 
to prevent international piracy and counterfeiting and protect U.S. 
businesses, especially small and medium-sized enterprises, overseas. 
The STOP! initiative has brought together all the major players at the 
highest levels--the federal government, private sector, and trade 
partners--and this increased level of coordination has produced some of 
the initiatives described below and real results in our worldwide 
efforts to promote and protect IP.
    Help Hotline.--As part of STOP!, the USPTO manages a hotline (1-
866-999-HALT) that helps small- and medium-sized businesses leverage 
the resources of the U.S. Government to protect their intellectual 
property rights in the United States and abroad. Callers receive 
information from IP attorneys at the USPTO with regional expertise on 
how to secure patents, trademarks and copyrights, and on the 
enforcement of these rights.
    Stopfakes.gov.--The USPTO has established a link on its website to 
www.stopfakes.gov which provides in-depth detail of the STOP! 
initiative. One key feature of the website is the country specific 
``Toolkits'' that have been created by our embassies overseas to assist 
small- and medium-sized businesses with intellectual property rights 
issues in China, Korea, Mexico, Taiwan, and Russia, with additional 
toolkits to be posted soon. STOP! also seeks to increase global 
awareness of the risks and consequences of intellectual property crimes 
through a section of its website, www.stopfakes.com/smallbusiness, that 
is specifically designed and operated by the USPTO to answer common 
questions of small businesses so they can better identify and address 
their intellectual property protection needs.
    No-trade-in-fakes.--The no-trade-in-fakes program is being 
developed in cooperation with the private sector. This is a voluntary, 
industry driven set of guidelines and a corporate compliance program 
that participating companies will use to ensure their supply chains and 
retail networks are free of counterfeit or pirated goods. In addition, 
Customs and Border Protection (CBP) maintains a trademark recordation 
system for marks registered at the USPTO to assist the CBP in its 
efforts to prevent the importation of goods that infringe registered 
marks. The USPTO has begun mailing notices to new trademark registrants 
directing them to the services that CBP offers, and has established a 
website link on the USPTO homepage which contains the CBP form for 
recordation.
    Public Awareness Campaign.--While counterfeiting and piracy pose a 
serious threat to all American businesses, small businesses are 
particularly at risk since they often lack the knowledge and expertise 
to effectively combat them. Because small businesses typically do not 
have personnel or maintain large operations in other countries, theft 
of their intellectual property overseas can go undetected. As part of 
the STOP! initiative, the USPTO has launched an intensive national 
public awareness campaign to help educate small businesses on 
protecting their intellectual property both here and abroad.
    The USPTO began a conference series targeting small- and medium-
sized businesses where participants learn what intellectual property 
rights are, why they are important, and how to protect and enforce 
these rights. Several workshops have been conducted throughout the 
country and the USPTO will continue to hold small-business outreach 
seminars to give American businesses face-to-face contact with 
intellectual property experts. This effort is expected to reach 
hundreds of American entrepreneurs in fiscal year 2006.
    The USPTO has also participated in a China road show in several 
U.S. cities for companies ranging from small businesses contemplating 
entering the China market to large corporations with established 
presence in China. Topics have included a review of recent laws and 
regulations promulgated by the Chinese government that affect 
protection and enforcement of intellectual property, what the U.S. 
Government is doing to improve intellectual property protection and 
enforcement in China, how to best protect business assets to avoid 
intellectual property problems, how to recognize product infringement, 
and steps to take if infringement occurs.
    Posting of IP Experts.--In partnership with the Department of 
Commerce's U.S. and Foreign Commercial Service and the Department of 
State, the USPTO is working to post additional IP experts in selected, 
high-profile countries where U.S. IP challenges are greatest. These 
countries include China, Brazil, India, Thailand, Russia and Egypt. The 
experts will advocate U.S. IP policy and interests, conduct training on 
IP rights matters, assist U.S. businesses and otherwise support the 
Embassy or Consulate action plan on IP rights.
    Global Intellectual Property Academy.--In the fall of 2005, USPTO 
created the Global Intellectual Property Academy (GIPA), which 
consolidates and greatly expands USPTO's curriculum of training and 
capacity building programs on intellectual property rights protection 
and enforcement. Through the GIPA, USPTO will bring foreign government 
officials including judges, prosecutors, police, Customs officers, 
patent, trademark and copyright officials and policy makers to the 
United States to learn, discuss and strategize about global IPR 
protection and enforcement. In fiscal year 2006, the USPTO expects this 
effort to reach several hundred foreign IPR officials. GIPA programs 
cover the gamut of patent, trademark, copyright and IPR enforcement 
issues facing the global economy, and are offered by USPTO acting in 
close cooperation with other U.S. federal government agencies.
    Training, Workshop and Seminar Events.--Various completed and 
planned training, workshops, seminars and other IP-related events are 
ongoing.

  NATIONAL POLAR-ORBITING OPERATIONAL ENVIRONMENTAL SATELLITE SYSTEM 
                                (NPOESS)

    Question. In your opening statement, you say that your Department's 
goal will be to ``ensure the best possible approach for meeting the 
Nation's civilian and military meteorological needs and protecting the 
taxpayer.'' What exactly are the options being considered within NOAA 
in response to the increased cost and schedule delays for NPOESS?
    Answer. In addition to the program of record, a range of options 
were considered in the Nunn-McCurdy certification process. The options 
(over 40 were considered) are best characterized as: reducing the 
number of satellites on orbit; changing the capabilities of the 
instruments on the satellite; and delaying launch dates. After five 
months of careful and extensive deliberations, the Tri-Agency group 
participating in the Nunn-McCurdy certification process chose an option 
that reduces the number of orbits from three to two; continues 
cooperation with the European Organisation for the Exploitation of 
Meteorological Satellites (EUMETSAT) for the mid-morning orbit; 
minimizes any potential gaps in coverage; and reduces requirements for 
the Conical-scanning Microwave Imager/Sounder (CMIS) resulting in a 
recompete of a less complex system. The cost to procure several 
secondary sensors is not included in the certified program; however, 
the program will plan for and fund the integration of these sensors on 
the spacecraft. Further, any additional funding gained through contract 
renegotiation or in unutilized management reserve would be used to 
procure these secondary sensors.
    Question. Would NOAA be better off going it alone on the NPOESS 
program, rather than continuing the partnership with the U.S. Air Force 
and NASA? What would be the cost for NOAA to take on a satellite 
program of this magnitude on its own?
    Answer. As a precaution during the Nunn-McCurdy certification 
process, NOAA (with the assistance of NASA) looked at the ways to 
maintain continuity of polar satellite data other than the converged 
NPOESS program. Any scenario where NOAA would go it alone would be 
costly and yield less capability than the partnership program. The 
restructured program maintains the Tri-Agency partnership of the 
original program. NOAA continues to support the Tri-Agency program and 
benefits by the 50:50 funding partnership between the Air Force and 
NOAA.
    Question. How are we addressing potential gaps in satellite 
coverage given the delays that have already been experienced, and the 
possibility of even more delays due to the Nunn-McCurdy process?
    Answer. The number one priority in all of the Nunn-McCurdy 
certification analysis and deliberations was to avoid a gap in 
operational data delivery. The restructured program provides high 
confidence that no gap will exist. A 90 percent confidence level 
schedule for avoiding an operational data gap has been laid out for the 
restructured program. Before the launch of the first NPOESS, NOAA seeks 
to delay the launch of its last polar satellite, NOAA N Prime; rely on 
the NPOESS Preparatory Project (NPP); and through a partnership with 
EUMETSAT, will receive data from METOP. An updated NPOESS satellite 
schedule is attached.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                         U.S. OCEAN ACTION PLAN

    Question. Why is the gap so consistently great between the 
administration's annual requests to support our oceans with that of the 
true needs of our ocean community?
    Answer. NOAA has a diverse mission ranging from managing fisheries 
to predicting the severe weather. The Administration's requests provide 
a balanced set of priorities to sustain core mission services and 
address our highest priority program needs. However, even with a 
restrained fiscal environment, the fiscal year 2007 President's budget 
includes over $184.9 million in increases for ocean and coastal needs.
    NOAA will continue to work within the Administration and with 
Congress to ensure the ocean community's highest needs are addressed.
    Question. In what way does the fiscal year 2007 budget request 
provide sufficient funding to address NOAA's responsibilities in 
relation to the Joint Ocean Commission's Reports, or does the current 
request follow the same trend as 2005 and 2006 as identified by the 
recent report?
    Answer. Both the fiscal year 2007 President's budget and NOAA's 
activities support the President's U.S. Ocean Action Plan, which 
responded to the recommendations of the U.S. Commission on Ocean 
Policy. NOAA has requested $1.7 billion in ocean and coastal related 
programs and activities in the fiscal year 2007 President's budget 
request in support of the U.S. Ocean Action Plan (OAP); this is an 
increase of $184.9 million over the fiscal year 2007 base. The OAP 
reflects the Administration's focus on achieving meaningful results--
making our oceans, coasts, and Great Lakes cleaner, healthier, and more 
productive. The Plan itself is a budget-neutral document, and does not 
commit any new investments to fulfilling its objectives.
    Question. What progress has NOAA made in addressing the 
recommendations put forward by the U.S. Commission on Ocean Policy, 
specifically the Report Card's low marks for ``International 
Leadership'' and ``Research, Science and Education?''
    Answer. As you know, the Administration responded to the 
Commission's report with the U.S. Ocean Action Plan. The OAP reflects 
the Administration's focus on achieving meaningful results--making our 
oceans, coasts, and Great Lakes cleaner, healthier, and more 
productive. It recognizes the challenges in developing management 
strategies that ensure continued conservation of coastal and marine 
habitats and living resources while at the same time ensuring that the 
American public enjoys and benefits from those same resources.
    Not all of our work towards implementing the OAP is budgetary in 
nature. A key achievement has been to address the Ocean Commission's 
call to improve coordination of Federal agencies with ocean-related 
missions through the creation of the interagency Committee on Ocean 
Policy and its subsidiary groups. NOAA is lead or co-lead, for roughly 
half the assigned items from the President's plan, and has made 
significant strides on several OAP actions:
  --The NOAA Organic Act establishing NOAA within the Department of 
        Commerce was transmitted to Congress in April 2005.
  --Magnuson-Stevens Fishery Conservation and Management Act 
        reauthorization and legislation to establish a national 
        offshore aquaculture program was introduced.
  --An Administration bill for the reauthorization of the Marine Mammal 
        Protection Act was submitted in June 2005.
  --NOAA is playing a key role in the Gulf of Mexico Alliance and the 
        planning for the formation of a Northeast Regional Oceans 
        Council.
  --NOAA Fleet: NOAA received $34 million in fiscal year 2005 to build 
        the third Fisheries Survey Vessel, which is expected to be 
        delivered in late 2007. NOAA also exercised an option for about 
        $30 million to build the fourth planned vessel under an 
        existing contract. Construction will begin in 2006 with 
        delivery planned during the second half of 2008.
    Many of the remaining action items--including improving 
International Leadership and Research, Science and Education--are long-
term projects which are more about changing the way the world manages 
our ocean resources:
  --Ocean Education.--The Ocean Hall exhibition--developed in concert 
        with NOAA--has opened at the Smithsonian, and is slated to be 
        open for 30 years, with a web portal that provides virtual 
        access to the museum's marine collections.
  --Regional Partnership in the Gulf of Mexico.--The Gulf Governors' 
        Action Plan has been developed by the five Gulf States as part 
        of the Gulf of Mexico Partnership. The Action Plan was unveiled 
        on March 28, 2006, at the State of the Gulf Summit in Corpus 
        Christi, Texas.
  --Partnership Creation.--State Department funding of $320,000 for a 
        White Water to Blue Water Initiative small grants program will 
        allow ongoing partnerships to continue and new partnerships to 
        be developed among international and multi-sectoral partners 
        which will promote integrated watershed and marine ecosystem-
        based management.
  --Link the Global Marine Assessment (GMA) and Global Earth 
        Observation System of Systems.--Through international 
        cooperation, the GEOSS will collect and disperse data 
        information from terrestrial, atmospheric, climate, and ocean 
        observations. The GMA, under development since the World Summit 
        on Sustainable Development, will seek to establish a regular, 
        comprehensive process of reporting and assessment of the state 
        of the global marine environment.

                         CONGRESSIONAL EARMARKS

    Question. What can Congress do to fully fund the needs of the 
agency, including those activities that have been eliminated or under-
funded by the administration, in a manner that would not cause the 
administration to view those activities as Congressional ``add-ons?''
    Answer. The first priority is to fully fund the fiscal year 2007 
President's budget request. The request level of $3,684 million 
contains modest investments in core programs and ocean-related 
activities. The President's budget is focused on meeting National needs 
for NOAA services. In many cases, the Congressional ``earmarks'' and 
``add-ons'' address a single purpose in a defined geographic area. 
While some have merit and support NOAA's mission, the fiscal year 2007 
request focused on the highest priority programs to meet National 
needs.

                        DEPARTMENTAL MANAGEMENT

    Question. Within the Departmental Management Salaries and Expenses 
account, there is a $3.6 million increase for E-Government Initiatives. 
Is this funding level for the E-Government Initiatives of the 
Department of Commerce only? Are any of these funds a ``tax'' to be 
paid to the Office of Management and Budget?
    Answer. The Department of Commerce has included a funding request 
for e-government initiatives and lines of business (LoB) for fiscal 
year 2007. The breakdown is as follows:

------------------------------------------------------------------------
 Agency                    Initiative/LoB                       Amount
------------------------------------------------------------------------
    EPA E-Rulemaking                                          $855,000
DOC/ITA International Trade Process Streamlining               740,000
    SBA Business Gateway                                       329,000
    HHS Grants.gov                                             521,000
    GSA Integrated Acquisition                                 174,000
    GSA E-Authentication                                       749,000
    GSA Financial Management LoB                                83,000
    OPM Human Resources LoB                                    130,000
    HHS Grants Management LoB                                   60,000
                                                          --------------
              Total Commerce                                 3,641,000
------------------------------------------------------------------------

    These funds represent the total Commerce funding contribution to 
the managing partner agencies, which develop the initiatives and lines 
of business. Funding amounts are based on initiative and line of 
business costs and were jointly determined by the managing partner 
agency and the agencies making use of the services provided by the 
initiative and lines of business. The funds are used by the managing 
partner agencies to support operations and implementation of the 
initiatives and lines of business. As a user of services provided by 
these initiatives and lines of business, Commerce benefits through 
economies of scale, avoidance of duplication of effort, and improved 
services to its citizen constituents.
    These funds will be sent through memoranda of understanding to the 
managing partner agencies. The Office of Management and Budget does not 
receive any of the Commerce funds.
    Question. The fiscal year 2007 budget request includes $18 million 
for the renovation and modernization of the Herbert C. Hoover Building, 
headquarters for the Department of Commerce. The Committee notes that 
funding was requested in fiscal year 2006, but not appropriated. What 
would this level of funding provide?
    Answer. This funding level would allow DOC to fund its share of 
costs related to the first phase of construction (primarily build out 
and furnishing of a consolidated data center and internal swing space); 
fund the fiscal year 2007 portion of the DOC share of costs for the GSA 
Lease Prospectus approved by Congress (moving one-third of the HCHB 
employees to leased swing space, providing unoccupied areas for 
renovation of one-third of the HCHB at a time); and to fund a Project 
Management Office (PMO) that will manage DOC responsibilities 
throughout the life of the renovation. The fiscal year 2007 funding 
request consists of three major components listed below.

------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Build-out and furnish the courtyard 6 space.............      $5,900,000
Lease space costs.......................................      10,400,000
Contract support for PMO................................       1,700,000
                                                         ---------------
      TOTAL.............................................      18,000,000
------------------------------------------------------------------------

    Question. How many years of follow-on funding would be needed to 
complete the renovation of the Herbert C. Hoover Building?
    Answer. The renovation project is expected to continue through 
2017.
    Question. Within the Departmental Management Salaries and Expenses 
account, there is a $5.9 million increase for blast mitigation windows 
for the Herbert C. Hoover Building. Is this the total funding level 
necessary, or will there be an additional request in fiscal year 2008? 
How many years of funding and at what level may we expect to see in 
this account?
    Answer. Approximately one-third of the facility will be protected 
with the start-up funding requested in fiscal year 2007. Additional 
funding requirements and timing of installation of additional windows 
will need to be determined in the context of the overall Hoover 
Building renovation.
    Question. Why are blast mitigation windows necessary for the 
Department, when other D.C. offices--even the U.S. Capitol--use more 
cost effective alternatives?
    Answer. Blast mitigation windows are required to protect the lives 
of our employees and other occupants. It is the most cost-effective 
protection for this unique facility. All other Federal buildings in the 
Federal Triangle area have upgraded windows.
    The HCHB requires this level of countermeasure to mitigate the risk 
to our employees. Vulnerability factors include:
  --Location immediately adjacent to two intersection HAZMAT routes 
        (14th Street and Constitution Avenue) and nearby rail line that 
        transports HAZMAT cargo.
  --No available standoff, dedicated police officers or permanent/
        temporary street closures (available at U.S. Capitol).
  --Proximity to known terrorism targets.
    Independent studies on the HCHB by GSA and the Federal Protective 
Service (now DHS) recognized the vulnerability to hazardous window 
failure and documented the requirement for blast windows to provide 
cost-effective security.
  --Federal Protective Service (now DHS): Security Survey/Risk 
        Assessment Report, 2001. ``Window protection is inadequate.''
  --GSA: Window Blast Hazard Mitigation Study, 2003. The HCHB ``is 
        vulnerable to hazardous window failure . . . windows, 
        therefore, require an upgrade.''
  --GSA: Modification of HCHB HVAC to Obtain Positive Building 
        Pressurization and Air Filtration, 2003. ``Existing windows are 
        in `poor condition' and need to be replaced to improve the 
        pressurization that will mitigate chemical, biological, and 
        radiological contaminants.''

                  ECONOMIC DEVELOPMENT ADMINISTRATION

    Question. You have stated that EDA can operate within the 
parameters of the President's fiscal year 2007 budget request and 
maintain a six office regional footprint. What impact, if any, will 
there be, on service delivery, operations and human resource levels by 
maintaining six offices with this level of resources for this number of 
offices?
    Answer. EDA is committed to honoring congressional intent by 
maintaining a six-office regional footprint while at the same time 
supporting the President's budget request. EDA will do this by 
dedicating available resources to essential activities such as proposal 
review and approval, grant award, grant administration and required 
reporting, achieving efficiencies and process improvements throughout 
its operations. EDA will ensure adequate funding of these essential 
services through reductions to non-essential and lower priority 
activities. This could include reductions to one-on-one customer 
assistance before and during the application process, process 
automation, training, post-award customer support and oversight. As a 
last resort, EDA may be required to consider staff reductions.

                         CONCLUSION OF HEARINGS

    Senator Shelby. For the information of Senators and others, 
this subcommittee's next hearing is scheduled for June 7 in the 
Dirksen Senate Office Building, room 192 at 10 a.m. on overview 
of the 2006 hurrance season.
    Until then, the subcommittee stands in recess.
    [Whereupon, at 3:09 p.m., Wednesday, May 3, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2007

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [The following testimonies were received by the 
Subcommittee on Commerce, Justice, Science, and Related 
Agencies for inclusion in the record. The submitted materials 
relate to the fiscal year 2007 budget request for programs 
within the subcommittee's jurisdiction.]

 Prepared Statement of the National Association of Marine Laboratories

    Mr. Chairman and members of the subcommittee, on behalf of the 
National Association of Marine Laboratories I am pleased to submit this 
statement in strong support of the President's American Competitiveness 
Initiative, as well as the research and education programs under the 
subcommittee's jurisdiction that are vitally important for a vibrant 
oceans, coastal, and Great Lakes research and education enterprise. My 
name is Tony Michaels and I am the director of the Wrigley Institute 
for Environmental Studies at the University of Southern California. I 
am submitting this statement as the President of National Association 
of Marine Laboratories (NAML).
    NAML is a nonprofit organization of over 120 member institutions 
employing more than 10,000 scientists, engineers, and professionals and 
representing ocean, coastal and Great Lakes laboratories stretching 
from Maine to the Gulf of Mexico to the west coast, from Guam to 
Bermuda and from Alaska to Puerto Rico. NAML labs support the conduct 
of high quality ocean, coastal and Great Lakes research and education 
in the natural and social sciences and the effective use of that 
science for decision-making on the important issues that face our 
country. Through national and regional networks, NAML labs--
  --Promote and support basic and applied research of the highest 
        quality from the unique perspective of coastal laboratories;
  --Assist local, regional and State entities with information related 
        to the use and conservation of marine and coastal resources 
        using ecosystem-based management approaches;
  --Recognize, encourage and support the unique and significant role 
        that coastal laboratories play in workforce development, 
        enhancing science/ocean literacy, and in conducting education, 
        outreach, and public service programs for K-gray audiences; and
  --Facilitate the exchange of information and relevant expertise 
        between NAML member institutions, government agencies, and the 
        private sector.

                  AMERICAN COMPETITIVENESS INITIATIVE

    NAML strongly supports the President's fiscal year 2007 American 
Competitiveness Initiative (ACI) for research and education along with 
the accompanying Presidential budget request which includes a doubling 
of the Federal commitment to basic research programs in the physical 
sciences over the next 10 years. NAML expressly supports the 
President's fiscal year 2007 request of $6.02 billion for the NSF.
    While not officially part of the President's ACI, NAML also urges 
the subcommittee to recognize and support the vital research programs 
of the National Oceanic and Atmospheric Administration (NOAA) and calls 
on the subcommittee to fund NOAA at a level of $4.5 billion which would 
enable NOAA to carry out its multiple missions on behalf of the 
American people.

                OCEAN, COASTAL AND GREAT LAKES RESEARCH

    NAML strongly supports enhanced support for cutting edge ocean, 
coastal, and Great Lakes research in the natural and social sciences, 
education, outreach, and related infrastructure. The marine sciences 
have much to offer the Nation as it seeks to strengthen its ability to 
innovate and compete in today's global economy. They are inherently 
interdisciplinary, push the envelope in terms of technology 
development, test the boundaries of our data collection and analysis 
systems, and offer an effective training ground for future scientists 
and engineers. As the Nation seeks to augment its investment in the 
physical sciences to increase its international competitiveness, NAML 
calls on policy makers to recognize the integrated nature of the marine 
sciences and to support an enhanced investment in these as well as 
other science and engineering disciplines as part of any long term 
economic competitiveness policy.
    NAML supports increased federal funding for the National Science 
Foundation (NSF) consistent with the President's budget for fiscal year 
2007. Basic research and the transfer and use of the knowledge 
developed through research are vital for the long term economic 
competitiveness and national security of this Nation. It is 
increasingly important for the Nation to maintain--and enhance--its 
scientific edge in a global community with emerging new capacities for 
scientific research. NSF provides vital support for basic research and 
education which enhances public understanding of the Nation's oceans, 
coastal areas, and the Great Lakes. NSF also provides important support 
for basic laboratory facilities, instrumentation, support systems, 
computing and related cyberinfrastructure, and ship access. The final 
report of the U.S. Commission on Ocean Policy makes several 
recommendations on the need to develop and enhance ocean, coastal and 
Great Lakes research infrastructure. That infrastructure includes 
research vessels, ocean observing systems, and the shore-based 
instrumentation and equipment needed to collect and analyze the data 
and observations made by research vessels and the observing systems. 
For that reason, NAML strongly supports the NSF proposal to initiate 
support for the development of the Ocean Observatories Initiative in 
the fiscal year 2007 budget request. NAML also urges the Congress to 
provide $5 million for the expansion of the NSF's Field Stations and 
Marine Laboratories program. This modest program provides researchers 
with access to state of the art instrumentation for research and 
education and necessary cyberinfrastructure and data management systems 
that complement the Ocean Observatories Initiative.
    NOAA is one of the premier science agencies in the Federal 
Government, providing decision makers with important data, products and 
services that promote and enhance the Nation's economy, security, 
environment, and quality of life. It was NOAA--and its underlying 
science enterprise--that enabled the delivery of accurate and timely 
information regarding the impending landfall of Hurricane Katrina in 
2005, a forecast that saved tens of thousands of lives.
    The $4.5 billion recommended for NOAA would fully fund the 
President's fiscal year 2007 budget request, restore funding for core 
programs, and address all the areas of concern and priority that have 
traditionally been supported by Congress. It would allow enhancements 
in the development of an integrated ocean and atmospheric observing 
system; increased research and education activities and expanded ocean 
conservation and management programs; and provide critical improvements 
in infrastructure (satellites, ships, high performance computers, 
facilities), and data management.
    In August 2004, a congressionally requested study of NOAA's 
research programs, entitled, Review of the Organization and Management 
of Research in NOAA concluded that extramural research is critical to 
accomplishing NOAA's mission. The access to such enhanced research 
capacities provides NOAA with world class expertise not found in NOAA 
laboratories; connectivity with planning and conduct of global science; 
means to leverage external funding sources; facilitation of multi-
institution cooperation; access to vast and unique research facilities; 
and access to graduate and undergraduate students. Academic scientists 
also benefit from working with NOAA, in part, by learning to make their 
research more directly relevant to management and policy. It is an 
important two-way interaction and exchange of information and value.
    NAML strongly supports a robust NOAA extramural research activity 
and calls on the subcommittee to support the National Sea Grant 
program, the National Undersea Research program, the Ocean Exploration 
Initiative, as well as research related to aquaculture, invasive 
species, harmful algal blooms and the various joint and cooperative 
institutes at levels envisioned in last year's Senate version of the 
Commerce-Justice-State appropriations bill. These partnership programs 
are not only consistent with the findings of the August 2004 review of 
NOAA research, but are also consistent with the NOAA strategic plan and 
enable NOAA to carry out its mission at the State and local level.

         OCEAN, COASTAL AND GREAT LAKES EDUCATION AND OUTREACH

    A strong national ocean policy can only be sustained through the 
development of high-quality coastal, ocean, and Great Lakes education 
programs that support learning at all age levels and by all 
disciplines. Through such efforts, NAML can highlight the relevance and 
utility of coastal, ocean and Great Lakes resources and demonstrate and 
increase the value of incorporating science-based decisions in a public 
policy process designed to protect and enhance these resources. For 
that reason, NAML strongly supports the NSF Centers for Ocean Science 
Education Excellence program (COSEE), NSF education and human resources 
generally, and NOAA's Office of Education. Such programs provide a rich 
environment within which partnerships flourish. A greater understanding 
of the oceans and coastal ecosystems will instill a sense of 
stewardship for these important environments. These programs also yield 
a more diverse workforce that includes a significant participation by 
underrepresented groups. Preparing these cultural bridges would allow 
us to capitalize upon diverse national strengths, ensuring the flow of 
intellectual talent into ocean, coastal, and Great Lakes-related 
fields.

               OCEAN COMMISSION AND INTERAGENCY RESPONSE

    NAML strongly supports implementation of the recommendations from 
the U.S. Commission on Ocean Policy and the initial efforts of the 
administration's Interagency Committee on Ocean Policy to develop a 
response to the commission's recommendations. The commission's analysis 
of policies governing oceans, coasts, and Great Lakes has resulted in a 
collection of bold and broad-reaching recommendations for reform. 
Implementation of these recommendations by the Federal Government will 
enable the United States to maintain and strengthen its role as a world 
leader in protecting and sustaining the planet's oceans, coasts, and 
Great Lakes. NAML is particularly supportive of the commission's 
recommendation to re-align NOAA's functions to support ecosystem-based 
management approaches. In addition, we fully endorse the commission's 
recommendations to double the federal investment in ocean, coastal, and 
Great Lakes research as well as its recommendation to promote a strong 
federal investment in ocean, coastal, and Great Lakes education, 
outreach, and stewardship. The commission's recommendations are 
important first steps in addressing the Nation's ocean, coastal, and 
Great Lakes needs.
    NAML is supportive of the initial steps taken by the administration 
in response to the commission's report--including the creation of 
Committee on Ocean Policy established in December 2004 by Executive 
Order. NAML is committed to working with the interagency Joint 
Subcommittee on Ocean Science and Technology and to commenting on the 
forthcoming Ocean Research Priorities Plan and Implementation Strategy.

      INTEGRATED OCEAN, COASTAL AND GREAT LAKES OBSERVING SYSTEMS

    Integrated observations offer critical information on coastal 
processes necessary for addressing issues, such as the health of humans 
and marine life, weather and climate nowcasts and forecasts, homeland 
security, and resource management. Coastal and marine laboratories have 
been addressing this need. However, funding for existing subsystems is 
difficult to sustain, and significant additional funding is required to 
implement the national integrated system. Although efforts have been 
made in the past to coordinate federal agencies involved in ocean and 
coastal research and national and international programs regarding 
coastal, ocean, and Great Lakes observing systems, further investment 
and strengthened cooperation at all levels is still needed to ensure 
that these systems are sustained and that they incorporate the long-
term monitoring efforts of the Nation's coastal and marine 
laboratories. NAML enthusiastically supports the development of a 
sustained integrated ocean observing system to be managed by NOAA.

                               CONCLUSION

    NAML recognizes the extraordinary fiscal constraints and difficult 
choices the subcommittee must make. Nevertheless, the research and 
education programs under the subcommittee's jurisdiction are vital 
investments in the future of this Nation and deserve the maximum 
support possible. Thank you for the opportunity to submit these 
recommendations.
                                 ______
                                 

    Prepared Statement of the Federation of American Societies for 
                          Experimental Biology

    The Federation of American Societies for Experimental Biology 
(FASEB) is a coalition of 22 independent scientific societies who 
together represent more than 84,000 biomedical research scientists. The 
mission of FASEB is to enhance the ability of biomedical and life 
scientists to improve, through their research, the health, well-being 
and productivity of all people. As your committee begins deliberations 
on appropriations for agencies under its jurisdiction, FASEB would like 
to offer its views on funding for the National Science Foundation 
(NSF). FASEB recommends an appropriation of $6.4 billion for the 
National Science Foundation in fiscal year 2007. This appropriation 
should be the start of a long-term, steadily increasing national 
investment in the agency, which was the goal of the NSF Doubling Act of 
2002.
    For more than 50 years, NSF has served as our Nation's premier 
sponsor of fundamental research and science education. NSF invests in 
talent, ideas, and tools that cross all boundaries of scientific 
inquiry to produce new discoveries and technologies. These innovations 
save lives, enhance our economic productivity, protect our country, and 
increase our knowledge and understanding of the world.
    As other countries make research and development (R&D) spending a 
top priority, U.S. investment in basic research achieves heightened 
importance for maintaining America's global competitiveness. According 
to the recent National Academies' report, Rising Above The Gathering 
Storm: Energizing and Employing America For A Brighter Future, the U.S. 
risks falling behind other nations in its number of highly trained 
scientists and engineers. In China, 57 percent of undergraduates 
receive their degrees in science and engineering, compared to just 33 
percent in the United States.\1\ A large fraction of the U.S. students 
lack the fundamental knowledge necessary to succeed in these fields. 
Less than one-third of U.S. 4th grade and 8th grade students performed 
at or above a level of ``proficient'' in mathematics; proficiency was 
considered the ability to exhibit competence with challenging subject 
matter.\2\ In 2001, the Hart-Rudman Commission on American National 
Security--a bipartisan panel set up to address the national security 
challenges of the new century--stated, ``second only to a weapon of 
mass destruction detonating in an American city, we can think of 
nothing more dangerous than a failure to manage properly science, 
technology, and education for the common good over the next quarter 
century.'' \3\
---------------------------------------------------------------------------
    \1\ Data are from National Science Board. 2006 Science and 
Engineering Indicators (NSB 06-02). Arlington, VA: National Science 
Foundation, http://www.nsf.gov/statistics/seind06/c2/c2s4.htm. accessed 
March 8, 2006.
    \2\ National Center for Education Statistics, Trends in 
International Mathematics and Science Study, 2003. http://nces.edu.gov/
timss accessed November 16, 2005.
    \3\ U.S. Commission on National Security for the 21st Century. 
Recommendations of Hart-Rudman National Security Report: R&D. FYI: The 
AIP Bulletin of Science Policy News. FYI # 22: February 28, 2001. 
www.aip.org/fyi/2001/022.html. accessed November 16, 2005.
---------------------------------------------------------------------------
    NSF receives less than 5 percent of the federal R&D budget but 
takes a leading role in promoting progress in science and technology. 
Each year, NSF awards grants to more than 200,000 scientists, teachers, 
and student researchers for cutting-edge projects in science, 
engineering, and mathematics at thousands of educational institutions 
across the country. NSF educational programs develop the talent needed 
to maintain our science and technology (S&T) leadership.
    Through its core programs, NSF subsidizes the highest quality, 
fundamental research in all major S&T fields. This broad approach makes 
the agency unique among federal sponsors of research, enabling NSF to 
play a critical role in fostering interdisciplinary collaboration, 
stimulating the flow of ideas across scientific boundaries. The ability 
of scientists to share insights and perspectives across disciplines has 
produced impressive breakthroughs and solutions for perplexing 
problems. For example, NSF-funded research at the intersection of 
material science and medicine has developed a modified form of collagen 
that could be used to block the formation of scar tissue, control the 
growth of tiny blood vessels in tissues destined for transplant, and 
even lead to better infection-fighting bandages.
    Research funded by the National Science Foundation is providing 
knowledge and information on a host of America's most vexing problems. 
With breakthroughs in public safety and natural disaster mitigation, 
alternative energy sources, and medicine, NSF support is leading the 
way toward new discoveries that have significant economic and societal 
benefits. Recent advances by NSF-funded scientists include:
    The recent natural disasters are a stark reminder that much is 
needed in the way of understanding how these unique phenomena happen 
and what can be done to anticipate and respond to such occurrences. 
Research funded by NSF is exploring ways to reduce the impacts of 
catastrophic events.
  --Epidemic containment.--An NSF-supported computer network 
        contributed to the containment of the SARS outbreak last year 
        by connecting quarantined doctors in Taiwan to a world-wide 
        network of medical researchers. This network has a potential 
        application in the event of a pandemic flu outbreak.
  --New Orleans levee work.--NSF-funded engineers discovered that the 
        flooding of New Orleans following Hurricane Katrina was caused 
        not by water flowing over the top of the levees, but was the 
        result of faulty soil composition supporting the levee walls.
  --Hurricane and fire forecasting.--Computer models, created via NSF 
        funding, have been used to predict the path and intensity of 
        both hurricanes and fires, providing valuable information to 
        reduce the loss of lives and property.
  --Unmanned aircraft search and rescue.--Unmanned aircraft, developed 
        through NSF support, were used to search for survivors 
        immediately following Hurricane Katrina.
    As our population grows and our dependence on oil and natural gas 
increases, research into alternative fuels will help conserve energy, 
reduce the need for petroleum, and provide environmentally sustainable 
solutions to our energy needs. NSF research is working towards making 
alternative fuel technology a reality.
  --Ocean-powered buoys.--NSF has supported development of 
        electromagnetic buoys that efficiently collect the power of 
        ocean waves.
  --Extended-life batteries.--Researchers have developed a porous 
        silicone chip that can be used in low-energy batteries to power 
        remote sensors for decades.
  --Hydrogen leak sensor.--With the current emphasis on hydrogen fuel 
        cells as an energy source, these miniature sensors will be 
        crucial to prevent leaks of this combustible gas.
    NSF is ideally positioned to sponsor new research efforts that 
combine the best researchers from biology, chemistry, computer science, 
economics, engineering, environmental sciences, geology, mathematics, 
and physics to help alleviate human suffering and increase the health 
of all Americans.
  --New antibiotics.--By investigating exotic plant species in Central 
        America, investigators have identified what could be the next 
        generation of antibiotics, helping to slow the growing presence 
        of antibiotic-resistant infections.
  --Heart valve testing.--As a way to test the effectiveness of 
        replacement heart valves, researchers supported by NSF have 
        determined that curdled milk best mimics the characteristics of 
        blood as it passes through the valve.
  --Freeze-tolerant tissue.--NSF awards are being used to explore the 
        unique properties of animals such as frogs and fish, which 
        survive freezing temperatures, in an effort to preserve tissues 
        for transplantation over extended periods of time.
    Nanotechnology is an innovation in which objects are designed and 
built at the level of individual atoms or molecules. This new field is 
revolutionizing everything from computers to health care and NSF is 
leading the charge.
  --Nanopowders.--Chemically manufactured nanopowders have been 
        designed to absorb toxic chemicals, including nerve gas and 
        acid spills, with rapid action to prevent hazardous situations.
  --Bio-Nanotube.--Small chemical sensors have the potential to rapidly 
        monitor the bodily functions of patients, such as blood sugar 
        levels in diabetics or hormone levels after drug treatment, 
        without invasive procedures. They can also be used to deliver 
        drugs or genes to specific cellular targets.
  --Nanowires.--Miniature-scale wires are able to traverse the blood 
        vessels of the brain to monitor and stimulate specific brain 
        regions, with potential use in Parkinson's and trauma patients.
    One of the most important roles that NSF plays in support of the 
Nation's S&T infrastructure is its major contribution to science 
education. NSF helps create the next generation of scientists and 
engineers through its active support of primary and secondary school 
science curriculum development and graduate and postdoctoral student 
training in all scientific disciplines. NSF funding is necessary to 
ensure an adequately prepared workforce for addressing the challenges 
of the 21st century. Through NSF, our Nation supports each stage in the 
science education pipeline to encourage and retain the best and 
brightest talents in S&T.
  --Science mentoring for young women.--Researchers have determined 
        that pairing high school girls interested in science with 
        elementary school girls encourages both groups to pursue a 
        science education.
  --Engaging young scientists.--Through NSF-funded training grants in 
        science and math, researchers in North Carolina have developed 
        new activity-based curriculums to encourage young students to 
        pursue science and math careers.
    NSF supports nearly 50 percent of the non-medical basic research at 
U.S. colleges and universities. It funds research in new frontiers of 
scientific inquiry and contributes to creating a highly skilled, 
competitive science and engineering workforce. In addition, NSF 
programs have been cited by the Office of Management and Budget and the 
Government Accountability Office for their creativity, efficiency and 
innovativeness. Despite this record of accomplishment, NSF funding has 
lagged, resulting in a steady reduction in the percentage of quality 
applications that receive funding, a failure to increase the size of 
NSF awards to support the increased costs of research, and the loss of 
training support for the next generation of scientists and engineers. 
Congress recognized this agency's critical importance when it 
authorized the doubling of the NSF's budget by 2007.\4\ To date, 
however, Congress and the administration have failed to fulfill the 
vision of this legislation.
---------------------------------------------------------------------------
    \4\ National Science Foundation Act of 2002. P.L. No. 107-368. 
December 19, 2002.
---------------------------------------------------------------------------
    If we are going to continue leading the world in innovation and 
prepare for the future, NSF is crucial to this goal. As NSF Director 
Dr. Arden Bement, Jr., has said, ``America's sustained economic 
prosperity is based on technological innovation made possible, in large 
part, by fundamental science and engineering research. Innovation and 
technology are the engines of the American economy, and advances in 
science and engineering provide the fuel.'' \5\ Without a greater 
commitment to NSF, our country faces the grave possibility of losing 
its global dominance in science and technology.
---------------------------------------------------------------------------
    \5\ Dr. Arden Bement Jr. Testimony before the United States Senate 
Appropriations Subcommittee on VA-HUD and Independent Agencies. 
February 17, 2005, available online at: http://
appropriations.senate.gov/hearmarkups/record.cfm?id=232167, accessed on 
November 1, 2005.
---------------------------------------------------------------------------
    President Bush recognized the importance of research funded by the 
National Science Foundation when he unveiled his American 
Competitiveness Initiative last month. The President has said 
``Groundbreaking ideas generated by innovative minds have paid enormous 
dividends--improving the lives and livelihoods of generations of 
Americans. With more research in both the public and private sectors, 
we will improve our quality of life--and ensure that America will lead 
the world in opportunity and innovation for decades to come.'' We urge 
you appropriate $6.4 billion for the National Science Foundation in 
fiscal year 2007.
                                 ______
                                 

            Prepared Statement of the Sea Grant Association

           SEA GRANT FISCAL YEAR 2007 APPROPRIATIONS REQUEST

    Mr. Chairman and members of the subcommittee. I am Jonathan Kramer, 
President of the Sea Grant Association and Director of the Maryland Sea 
Grant program. The Sea Grant Association (SGA) is a non-profit 
organization dedicated to furthering the Sea Grant program concept. The 
SGA's regular members are the academic institutions that participate in 
the National Sea Grant College program. SGA provides the mechanism for 
these institutions to coordinate their activities, to set program 
priorities at both the regional and national level, and to provide a 
unified voice for these institutions on issues of importance to the 
oceans and coasts. The SGA advocates for greater understanding, use, 
and conservation of marine, coastal and Great Lakes resources.
    The SGA joins with many other NOAA stakeholders to urge the 
subcommittee to recognize and support the vital research and outreach 
programs of the National Oceanic and Atmospheric Administration (NOAA). 
SGA requests the subcommittee to fund NOAA at a level of $4.5 billion 
in fiscal year 2007 which would enable the agency to carry out its 
mission: To understand and predict changes in the Earth's environment 
and conserve and manage coastal and marine resources to meet our 
Nation's economic, social, and environmental needs.
    As part of the overall fiscal year 2007 NOAA appropriation, the SGA 
requests the subcommittee to appropriate $72 million for the National 
Sea Grant College program. This amount is well within the $100.5 
million level authorized in Public Law 107-299, National Sea Grant 
College Program Act Amendments of 2002 for fiscal year 2007. Further, 
this recommended amount is the same as the amount provided in last 
year's Senate passed Commerce-Justice-State appropriations bill. 
Appropriating this request would reverse the significant reduction 
taken by the program in fiscal year 2006 and more importantly, would 
allow the Sea Grant program to provide the research support, 
information, education, and outreach needed to assist NOAA in carrying 
out its mission throughout the United States.

             SEA GRANT--SCIENCE SERVING THE NATION'S COASTS

    Sea Grant is an investment in America's economic future. Attempts 
to balance our booming coastal economy with its associated impacts on 
the coastal and marine environment have raised the stakes for effective 
government action. America's coastal and ocean resources encompass an 
immense area with more than 95,000 miles of coastline and more than 3.4 
million square miles of ocean within the U.S. territorial sea. Over 
half the Nation's 280 million people live in coastal counties that 
comprise less than one-fifth of the total land area of the United 
States. The economy of these coastal counties is critical to the 
economic well being of the entire Nation, providing a wide array of 
goods and services that account for at least 50 percent of the gross 
national product of the United States. By 2010, U.S. foreign trade in 
goods is expected to double to $5 trillion, with ocean-going cargo 
increasing by 30 percent. Coastal tourism and recreation account for 85 
percent of all U.S. tourism revenues. The oceans, in one way or 
another, account for one out of every six jobs. Tax revenues in coastal 
areas are among the fastest growing revenue sources for State and local 
governments. In fact, the collective economic impact of the coastal 
economy far exceeds U.S. agriculture, and yet federal investments in 
Sea Grant colleges and universities are much smaller than investments 
in the Land Grant college and university system funded by the U.S. 
Department of Agriculture for agriculture and land-based natural 
resource activities, the program on which Sea Grant was modeled.
    Research supported by Sea Grant is based on competition, undergoes 
rigorous peer-review, and is geared to address the many marine and 
coastal challenges and opportunities that face our citizens. The 
federal investment in Sea Grant enables a nationally coordinated 
network embedded in the best research universities to apply 
unparalleled intellectual capital to address these problems and 
opportunities. Cost-effectiveness is enhanced by access to university 
management infrastructure.
    Sea Grant serves the Nation in many ways. Sea Grant's unmatched 
access to local constituencies through its extension and outreach 
programs ensures that federal investment is targeted at relevant issues 
for the benefit of NOAA and other Federal agencies, State and local 
governments, coastal environmental managers, local fishermen, other 
marine resource users, and the general public. This contact also 
provides an important conduit for recommendations back to Sea Grant and 
NOAA for needed research and improved policies and services. Sea 
Grant's non-regulatory and science-based focus has established the 
program as an honest broker among a wide range of constituencies. In 
addition, marine education programs supported by federal funds reach 
from kindergarten to marine-related business people to elder hostels. 
The matched federal investment also fills the enormous demand for 
expertise to tackle rapid growth, change, and pressure on coastal 
resources.
    Sea Grant is a national program addressing national needs. It is a 
partnership of and depends on partnerships among government, academia, 
business, industry, scientists, and private citizens to help Americans 
understand and wisely use our precious coastal waters and Great Lakes 
for enjoyment and long-term economic growth. This network unites 30 
State Sea Grant programs, over 300 universities, and millions of 
people. Sea Grant is an agent for scientific discovery, technology 
transfer, economic growth, resource conservation, and public education. 
Study after study has shown that Sea Grant returns to the taxpayers 
many times its annual budget in goods and services. It is government as 
our citizens want it--visible, tangible, relevant, efficient, and 
effective.

              SEA GRANT--INITIATIVES FOR FISCAL YEAR 2007

    When adequately funded, Sea Grant can serve as the gateway to 
relevant and reliable scientific information used to address local, 
regional and Statewide resource management issues. Funding Sea Grant at 
the requested level will enable it to strategically invest in research 
and outreach programs targeted at important practical problems facing 
the Nation and address those problems with science-based solutions. Two 
initiatives for fiscal year 2007 demonstrate this objective.
    Building Resilient Coastal Communities.--Coastal areas of the 
United States comprise only 10 percent of our Nation's land mass, yet 
they are home to more than 54 percent of Americans. As witnessed by the 
aftermath of Hurricanes Katrina, Rita, and Wilma, coastal communities 
and the natural resources and infrastructure on which they depend are 
at increasing risk from hurricanes, tsunamis, coastal storms, shoreline 
change, and sea level rise. Sea Grant research and outreach provide 
coastal communities with the best available science-based information 
for sustainable community decision-making, coupled with the knowledge, 
experience and tools needed to bring diverse coastal interests 
together. The knowledge, programs and approaches developed by Sea Grant 
in one State or region can be applied broadly throughout the national 
network. The Sea Grant network will expand its efforts to improve 
coastal community leadership and planning capacities to jointly address 
economic, environmental and social issues. Our aim is to encourage and 
equip coastal communities to utilize long-term, integrated approaches 
to developing sustainable communities. This initiative would engage the 
research, education and outreach capabilities of Sea Grant's 
universities and partners to enhance mitigation, preparedness, 
planning, education, response, and recovery in coastal communities 
throughout the Nation.
    Ensuring Safe and Sustainable Seafood for Americans.--The U.S. 
seafood industry faces many challenges and opportunities as it enters 
the 21st century. These include an increasingly competitive global 
marketplace, complex trade policies, stricter safety regulations, 
rising energy costs, food security concerns and an increasingly limited 
seafood supply. Change also brings new opportunities to expand markets, 
form strategic alliances and encourage innovations to lower production 
costs, create new products, add value to existing ones, increase safety 
and reduce waste. In this new seafood era, science and education are 
cornerstones for maintaining the vitality of the Nation's $27 billion 
seafood industry ($55 billion including consumer expenditures) and its 
250,000-member workforce. To remain competitive, the industry must 
control the costs of catching, transporting, processing, storing, and 
distributing seafood. The U.S. seafood industry recognizes the benefits 
of innovation, but it is comprised of mostly small and medium-sized, 
independent enterprises that simply cannot afford research and 
development programs. Through its unique capabilities in research and 
technology transfer, the national Sea Grant network is poised to help 
the industry increase quality and safety, add value, lower costs and 
expand seafood supplies and markets.

                  SEA GRANT--SELECTED ACCOMPLISHMENTS

    Aquaculture.--Sea Grant research and extension results have created 
the growth and development of fish farming in the United States. As a 
result, the growing of hybrid striped bass in ponds has expanded in 
just 10 years from a small demonstration project to an industry that 
produces 10 million pounds of fish valued at $25 million annually. Sea 
Grant also developed a sterile oyster that can be grown year-round and 
that now comprises one-third of the $86 million U.S. oyster market.
    Coastal Hazards.--Based on Sea Grant recommendations, in 1986 the 
State of North Carolina implemented revisions in the State's hurricane 
resistant building code which increased the required minimum depth of 
foundation pilings for erosion prone coastal buildings. In 1996, 
Hurricane Fran was the first test of those standards. As a result, on 
Topsail Island, 200 of the 205 newer oceanfront houses built to the 
``Sea Grant'' standards survived the hurricane with minimal foundation 
damage. In comparison, over 500 older oceanfront houses were destroyed 
in the same area.
    Coastal Communities and Economies.--Much of the 32-mile river front 
along the Detroit River is bulkheaded and in disrepair thus requiring 
major revitalization investment. ``Soft'' engineering offered 
developers cost, maintenance and environmental advantages over 
traditional hard structures and promoting these advantages was 
necessary to meet river front renewal goals. Sea Grant has been 
extensively involved in this effort and chairs the Steering Committee 
for the Greater Detroit American Rivers Heritage initiative. As a 
result, Sea Grant sponsored conferences and workshops and published 
best management practice manuals which led General Motors to utilize 
less expensive ``soft'' engineering techniques in the development of 
its multi-million dollar, 32 mile long urban river promenade in the 
heart of Detroit, thus providing substantial savings to the project 
while simultaneously helping the environment.
    Fisheries.--Sea Grant research has shown that visually modifying 
salmon gillnets and adjusting fishing schedules can reduce 
entanglements of seabirds. As a result, these findings, coupled with an 
observer program coordinated by Sea Grant, prevented the closure of the 
Puget Sound sockeye salmon fishery, saving hundreds of jobs and 
millions of dollars in the region's economy.
    Ocean/Coastal Technology and Marine Biotechnology.--Sea Grant 
organized the first systematic research effort in the United States to 
develop new drugs from marine organisms. As a result, Sea Grant 
researchers have discovered and described more than 1,000 compounds 
that may be vitally important as new anticancer, anti-inflammatory, and 
antibiotic agents.
    Seafood Science and Safety.--To aid the seafood industry in meeting 
educational and training needs called for by new FDA regulations, Sea 
Grant spearheaded the formation of the ``Seafood HACCP Alliance,'' an 
intergovernmental agency partnership with industry and academia. As a 
result, the Alliance's programs reached over 5,000 U.S. processing 
plants, and 6,000 importers and international suppliers with training 
on new seafood handling and processing techniques. In addition, it has 
been estimated that the program has prevented 20,000 to 60,000 seafood-
related illnesses a year, thereby saving as much as $115 million 
annually.
    The SGA recognizes the subcommittee is facing an extremely 
constrained funding environment and must make difficult choices among 
many competing priorities. We urge you to consider Sea Grant has an 
investment in the future health and well being of our coastal 
communities and to support the program in line with this request.
    Thank you for the opportunity to present these views.

------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                        Fiscal Year Funds
          Actual Start Date                 Received            Amount           Match                Award No.                   Grantor                      Project Sub-Subtype
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
01/01/03............................  2003................        $706,474        $282,308  NA03OAR4170020...............  ....................  Ballast Water Demonstration
01/01/03............................  2004................         344,006  ..............  NA96RG0501...................  ....................  CERP
02/01/03............................  2003................          38,000  ..............  NA03OAR4170022...............  NOAA................  Knauss
02/01/03............................  2003................          38,000  ..............  NA03OAR4170024...............  NOAA................  Knauss
02/01/03............................  2003................       2,621,762       1,469,954  NA16RG2207...................  NOAA................  OMNIBUS
06/01/03............................  2003................          31,667           6,333  NA17RG1375...................  NOAA................  NMFS FELLOWSHIP
                                                           --------------------------------
    Total...........................  ....................       3,779,909  ..............  .............................  ....................  ...............................................
                                                           ================================
10/01/03............................  2004................          70,774  ..............  NSF-Seagrant-1...............  USM/NSF.............  Vertically Integrated Partnership K-12
02/01/04............................  2005................          38,000  ..............  NA04OAR4170008...............  NOAA................  Knauss
02/01/04............................  2005................          38,000  ..............  NA04OAR4170009...............  NOAA................  Knauss
02/01/04............................  2004................          38,000  ..............  NA04OAR4170010...............  NOAA................  Knauss
02/01/04............................  2004................       2,616,108       1,439,890  NA16RG2207...................  NOAA................  OMNIBUS
05/01/04............................  2003................          94,130          31,748  NA03NMF4570228...............  NOAA................  Chesapeake Research Fellowship
09/01/04............................  2005................         378,300  ..............  NA04OAR4170152...............  NOAA................  Ballast Water Demonstration
                                                           --------------------------------
    Total...........................  ....................       3,273,312  ..............  .............................  ....................  ...............................................
                                                           ================================
10/01/04............................  2005................          74,313  ..............  NSF-Seagrant-1...............  USM/NSF.............  Vertically Integrated Partnership K-12
02/01/05............................  2005................          40,000          20,000  NA05OAR4171035...............  NOAA................  Knauss
02/01/05............................  2006................       1,412,265         892,902  NA05OAR4171042...............  NOAA................  OMNIBUS
03/25/05............................  2003................          10,000  ..............  NA16RG2207...................  NOAA................  OMNIBUS
05/01/05............................  2005................         108,000          28,252  NA03NMF4570228...............  NOAA................  Chesapeake Research Fellowship
06/01/05............................  2006................          15,678           7,839  NA05OAR4171042...............  NOAA................  Fisheries
06/01/05............................  2006................         107,472          56,468  NA05OAR4171071...............  NOAA................  AISR
06/01/05............................  2006................         146,247          73,123  NA05OAR4171107...............  NOAA................  AISR
                                                           --------------------------------
    Total...........................  ....................       1,929,653  ..............  .............................  ....................  ...............................................
                                                           ================================
02/01/06............................  2006................       1,407,800         942,098  NA05OAR4171042...............  NOAA................  OMNIBUS
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

      Prepared Statement of the American Society for Microbiology

    The American Society for Microbiology (ASM) is pleased to submit 
the following testimony on the fiscal year 2007 appropriation for the 
National Science Foundation (NSF). The ASM is the largest single life 
science organization with more than 43,000 members. The ASM mission is 
to enhance the science of microbiology, to gain a better understanding 
of life processes, and to promote the application of this knowledge for 
improved health and for economic and environmental well-being.
    The NSF plays a critical role in ensuring the health of the 
Nation's research and education system, the principal source of new 
ideas and human resources in science and engineering. The NSF is the 
funding source for approximately 20 percent of all federally supported 
basic research conducted by U.S. colleges and universities. The NSF's 
broad support to U.S. academic institutions provides not only a key 
source of funds for basic discoveries across disciplinary fields, but 
also prepares students for the science and engineering workforce. The 
NSF is the primary federal agency charged with promoting science and 
engineering education at all levels and in all settings, from pre-
kindergarten through career development. This educational effort helps 
to ensure that the United States has world-class scientists, 
mathematicians, and engineers.
    The ASM strongly supports the administration's request of $6.02 
billion in fiscal year 2007 for the NSF, an increase of 7.9 percent 
over fiscal year 2006. The NSF is one of the three key agencies in the 
President's American Competitiveness Initiative (ACI), which plans to 
double investment over a 10-year period in key federal agencies that 
support basic research programs emphasizing physical sciences and 
engineering. The NSF funding request of $6.02 billion is expected to 
support about 500 more research grants in 2007 and an estimated 6,400 
additional scientists, students, and postdoctoral fellows.
    The ASM would like to provide the following comments and 
recommendations on specific programs of interest and concern within the 
NSF budget.

                    BIOLOGICAL SCIENCES DIRECTORATE

    The NSF Directorate for Biological Sciences (BIO) provides critical 
support for a broad array of biological sciences, particularly in areas 
such as environmental biology and plant sciences. BIO provides 66 
percent of all federal support for non-medical biological research at 
academic institutions. Research programs range from the study of the 
structure and dynamics of biological molecules, such as proteins and 
nucleic acids, through cells, organs, and intact organisms to studies 
of populations and ecosystems. It encompasses processes that are 
internal to particular organisms as well as those that are external, 
and includes temporal frameworks ranging from immediate measurements 
through life spans of mere minutes for some microorganisms to the full 
scope of evolutionary time.
    Basic research in the biosciences is key to understanding the 
living world from molecules to organisms to ecosystems, providing 
discoveries applicable to meeting health, environmental, agricultural, 
and energy needs. The fiscal year 2007 budget request for the BIO 
directorate is $607.9 million, an increase of $31.6 million, or 5.4 
percent, over the fiscal year 2006 level. This increase will allow BIO 
to award about 95 more research grants in fiscal year 2007 with an 
estimated funding rate of approximately 18 percent.

   BIO MOLECULAR AND CELLULAR BIOSCIENCES: MICROBIAL BIOLOGY RESEARCH

    The Molecular and Cellular Biosciences (MCB) Division within the 
Biological Sciences Directorate of the NSF includes research activities 
in microbiology that were transferred to the Emerging Frontiers 
subactivity for a new emphasis in Microbial Biology in fiscal year 
2006. The Microbial Observatories/Microbial Interactions and Processes 
program (MO/MIP) has been returned to MCB for fiscal year 2007. The ASM 
has received unsolicited comments about the transfer of the MO/MIP and 
its budgetary consequences from more than 100 individuals representing 
more than 40 institutions. The ASM would like to express its strong 
support for the MO/MIP program, and recommends Congress fund the 
program at $10 million, to allow for important research initiatives.
    The MO/MIP was recently housed in Emerging Frontiers in recognition 
of the need for a distinct emphasis on microbial biology research that 
cannot be supported adequately in other programs. Transfer of the MO/
MIP from Emerging Frontiers to the Division of Molecular and Cellular 
Biosciences (MCB) raises questions about the NSF's intentions regarding 
the future of this program.
    The ASM is concerned about the MO/MIP, since the pace of astounding 
discoveries in microbial biology has been increasing through 
applications of genomics and metagenomics. The MO/MIP program has been 
exemplary in achieving its goals. It supports research, training and 
outreach that are helping to define the future of microbiology and 
interdisciplinary efforts involving microbes. The MO/MIP is thriving 
and deserves expanded support and long-term commitments from NSF. Such 
commitments should be reflected in the 7.9 percent increase in the 
NSF's budget request to Congress, which includes a 5.4 percent increase 
for the Biological Sciences Directorate.

                    BIO EMERGING FRONTIERS PROGRAMS

    The budget request for the Emerging Frontiers (EF) subactivity for 
fiscal year 2007 is for $99.16 million, an increase of about 23 percent 
over fiscal year 2006. This increase is partly the result of the 
transfer of support for all BIO centers for centralization at the EF, 
including the two current centers, and two new centers expected to 
start in fiscal year 2007. With the proposed transfer of the MO/MIP 
program to the MCB, just two microbial related programs are left within 
the EF, the Microbial Genome Sequencing Program and Ecology of 
Infectious Diseases.
    The Microbial Genome Sequencing program is to be conducted jointly 
with a competitive grants program in the U.S. Department of 
Agriculture, while the Ecology of Infectious Diseases is an interagency 
partnership with the National Institutes of Health (NIH) to support the 
development of predictive models and discovery of principles for 
relationships between environmental factors and transmission of 
infectious agents. Potential benefits include the development of 
disease transmission models, understanding the unintended health 
effects of environmental change, and improved prediction of disease 
outbreaks, including the emergence or reemergence of disease agents. 
Examples of environmental factors include habitat transformation, 
biological invasion, biodiversity loss, and contamination. The ASM is 
concerned that these programs are being transferred out of an EF 
priority area and have level funding proposed for fiscal year 2007.

                 BIO DIVISION OF ENVIRONMENTAL BIOLOGY

    The Division of Environmental Biology (DEB) priorities for fiscal 
year 2007 are represented by four clusters focused on studies to 
accelerate the rate of discovery of new species, address the 
genealogical relationships of plants, animals, fungi, and microbes; 
illuminate the spatial and temporal dynamics of species interactions; 
discover the principles or rules by which species are assembled into 
functional communities and change through time; and determine the flux 
of energy and materials through ecosystems. The core research within 
the DEB will increase by $6.32 million due to the transfer of 
responsibility for funding the National Center for Ecological Analysis 
and Synthesis to Emerging Frontiers.
    The DEB also supports the Long-Term Ecological Research (LTER) 
program, a network of 26 comprehensive research sites located in areas 
that broadly represent the global range of natural, agricultural, and 
urban ecosystems. Support for the LTER program is requested to increase 
by $1.12 million in fiscal year 2007, for a total of $19.6 million.
    The ASM supports the fiscal year 2007 budget request for the DEB of 
$109.6 million, an increase of 2.7 percent over fiscal year 2006.

                 BIO NATIONAL NANOTECHNOLOGY INITIATIVE

    The National Nanotechnology Initiative (NNI) encompasses the 
systematic organization, manipulation, and control of matter at the 
atomic, molecular, and supramolecular levels. With the capacity to 
manipulate matter at the nanometer scale (one-billionth of a meter), 
science, engineering, and technology are realizing revolutionary 
advances in areas, such as, individualized pharmaceuticals, new drug 
delivery systems, more resilient materials and fabrics, catalysts for 
industry, and computer chips. The NSF has been a pioneer among federal 
agencies in fostering the development of nanoscale science. The ASM 
supports the administration's fiscal year 2007 request of $52.55 
million for the NNI within BIO, a 7.2 percent increase over fiscal year 
2006.

                NATIONAL ECOLOGICAL OBSERVATORY NETWORK

    The fiscal year 2007 budget request for the National Ecological 
Observatory Network (NEON) throughout NSF is $24 million, an increase 
of $18 million over fiscal year 2006. NEON has the potential to 
transform ecological research. The NEON program calls for developing a 
continental-scale research instrument consisting of geographically 
distributed infrastructure that will be networked via state-of-the-art 
communications to obtain a predictive understanding of the Nation's 
environment. A very large number of scientists, students, resource 
managers, and decision makers could make use of NEON data, both 
directly and indirectly, through the network capabilities and the 
internet. The ASM supports the administration's fiscal year 2007 
request of $24 million for NEON.
    The $24 million includes: $6 million within the Biological 
Infrastructure division of BIO to continue implementation planning; $6 
million within the Emerging Frontiers division for sensor array 
research and development; and $12 million within the Major Research 
Equipment and Facilities Construction (MRE&FC) account at the NSF to 
assemble and evaluate the NEON fundamental technology unit (BioMesoNet, 
sensor micronets, and enabling cyberinfrastructure) that will be 
deployed.

                        GEOSCIENCES DIRECTORATE

    The fiscal year 2007 request proposes restructuring the Geosciences 
Directorate (GEO) to include a new subactivity, Innovative and 
Collaborative Education and Research (ICER), which will support 
multidisciplinary research and education activities that were 
previously done through the Atmospheric Sciences (ATM), Earth Sciences 
(EAR), and Ocean Sciences (OCE). The new ICER subactivity priorities 
include Ecology of Infectious Diseases, in partnership with the BIO 
directorate and the NIH. Additionally, the EAR and the OCE support 
other important microbiological research related to the Earth's diverse 
ecological systems and climate change. The ASM urges Congress to 
support the administrations' request of $744.9 million for GEO in 
fiscal year 2007, a 6 percent increase over fiscal year 2006.

                        ENGINEERING DIRECTORATE

    The fiscal year 2007 request proposes restructuring the Engineering 
Directorate. The ASM has traditionally supported research conducted 
through the Bioengineering and Environmental Systems (BES) division. 
The proposed restructuring would combine the BES division with the 
Chemical and Transport Systems (CTS) division to become the Chemical, 
Bioengineering, Environmental and Transport Systems (CBET) division. In 
fiscal year 2006, BES was funded at $52 million and CTS at $70.8 
million, for a total of $122.8 million. The fiscal year 2007 request 
proposes increasing funding for CBET to $124.44.
    The CBET will play a vital role in supporting research, innovation, 
and education in the rapidly evolving fields of bioengineering and 
environmental engineering. Including research on microbial fuel cells, 
liquid biofuels, and biohydrogen, as well as exploratory research in 
nanobiotechnology. The ASM recommends Congress support the increased 
funding for the CBET to foster technological innovations that will 
advance the global competitiveness of our industries and the health of 
our environment.

                               CONCLUSION

    The NSF plays a key role in supporting basic science in the United 
States. Knowledge gained from the NSF studies directly benefits 
industry and contributes to the economy and U.S. international 
competitiveness. There is a growing synergy among the biological, 
physical and social sciences, and U.S. investment in science and 
technology should support all science.
    The NSF is in a singular position among all the federal research 
and development agencies to support fundamental research in a wide 
range of important areas, including microbiology and molecular biology. 
The ASM urges Congress to support the administration's request of $6.02 
billion for the NSF in fiscal year 2007. The ASM believes the NSF 
should continue to emphasize fundamental, investigator-initiated 
research, research training, and science education as its highest 
priorities.
    The ASM appreciates the opportunity to provide written testimony 
and would be pleased to assist the subcommittee as it considers its 
appropriation for the NSF for fiscal year 2007.
                                 ______
                                 

       Prepared Statement of the Coalition of EPSCoR/IDeA States

    Mr. Chairman: My name is Royce Engstrom. I am a Provost and Vice 
President for Academic Affairs at the University of South Dakota and a 
member of the South Dakota EPSCoR Statewide Committee, the governing 
body that oversees EPSCoR activities in South Dakota. I submit this 
testimony on behalf of the 25 States,\1\ the U.S. Virgin Islands, and 
the Commonwealth of Puerto Rico that participate in the federal EPSCoR 
program and the Coalition of EPSCoR/IDeA States. I have the honor of 
serving as the chair of the Board of the Coalition of EPSCoR/IDeA 
States.
---------------------------------------------------------------------------
    \1\ Alabama, Alaska, Arkansas, Delaware, Hawaii, Idaho, Kansas, 
Kentucky, Louisiana, Maine, Mississippi, Montana, Nebraska, Nevada, New 
Hampshire, New Mexico, North Dakota, Oklahoma, Rhode Island, South 
Carolina, South Dakota, Tennessee, Vermont, West Virginia, and Wyoming.
---------------------------------------------------------------------------
    As most of you know, the Experimental Program to Stimulate 
Competitive Research (EPSCoR) was established at the National Science 
Foundation (NSF) in 1979 to assist those States that historically had 
not fully participated in the federal research and development (R&D) 
enterprise. Historically, these States were less competitive than 
others throughout the Nation for a variety of reasons--some tended to 
be rural and geographically isolated; others tended to be among the 
States with large numbers of students who were under-represented 
minorities or disadvantaged economically; and some were States that 
traditionally invested more heavily in an agriculture and natural 
resource research base than technological endeavors. For these reasons, 
EPSCoR States did not benefit from the large federal institutional 
development investments made to universities and colleges as part of a 
national effort to broaden and strengthen the U.S. public university 
system and its R&D capability. Consequently, today, all the 
institutions in these States--half of the States--receive less than 10 
percent of all NSF and all federal R&D funding. Otherwise, we are 
ignoring a large reservoir of talent and expertise that are necessary 
for our country to remain competitive in the world.
    Helping these 25 States grow to be more competitive has become more 
important in recent years in order to overcome the concentration of 
federal R&D funding in a few States and institutions, and to create a 
broader research community throughout the Nation. Today, all States 
should be full participants in federal R&D efforts and federal R&D 
support should be available to qualified students and researchers 
wherever they are.
    The EPSCoR program started at NSF with five States. It grew to its 
current number of 25 States and two territories as more States, the 
Congress, and the research field came to realize the need to raise the 
science and technology (S&T) research capabilities to new levels, and 
as new States realized the value of a program that emphasized research 
infrastructure and capacity building.
    The EPSCoR program remained a very small program for the first half 
of its life. Its budget, federal-wide, was only $8 million in 1990 for 
all the States. It has only been since the mid-1990's that we have seen 
real increases in funding and the extension of the program to agencies 
outside of the NSF. For those of us in the EPSCoR States, these have 
been welcome advances but we also understand that they have been 
extremely modest in comparison to the overall increases in total 
federal R&D funding and to increases currently being contemplated for 
NSF and DOE's Office of Science. We also know that, as in other States, 
much of the recent increase has been focused on the life sciences, as 
opposed to the physical sciences and engineering. This is true, despite 
the fact that many EPSCoR institutions have strong engineering 
programs. During the 1990's, EPSCoR grew rapidly, expanding from 5 
States to 25 States and 2 territories as Congress recognized that 
EPSCoR funding was successfully building S&T research infrastructure in 
higher education institutions in a fashion that contributed to the 
wealth creation process in the initial group of EPSCoR jurisdictions. 
Congress also expanded the program into six new agencies; the 
Departments of: Agriculture, Defense, Energy, the National Institutes 
of Health (NIH), the Environmental Protection Agency (EPA), and the 
National Aeronautics and Space Administration (NASA). These seven 
Federal departments and agencies now have EPSCoR-like programs that 
focus on building academic research infrastructure that will ultimately 
contribute to the economies of EPSCoR jurisdictions in the 21st century 
in similar ways to how agriculture, mining, and forestry contributed to 
the economies in the 19th and early 20th centuries.
    Let me provide an example of how the federal agencies are able to 
accomplish the mission of building research infrastructure and 
improving the competitiveness of our university researchers. At the 
National Science Foundation, the ``center piece'' of the EPSCoR effort 
is the Research Infrastructure Improvement (RII) awards. The awards 
establish a Federal-State partnership, which is most clearly seen in 
the composition of the State Steering Committees, or EPSCoR State 
committees. Typically, senior university officials, representatives of 
State government (both legislative and executive branches), and local 
business officials come together and develop a S&T plan for their State 
that focuses on a few selected areas where researchers can become 
competitive for funding in federal, non-profit, or industrial 
competitions. The focus areas are selected because of inherent 
scientific quality, able faculty, and because of the likelihood of 
potential benefit to the States' citizenry. As a result, EPSCoR States 
have entered into high-tech computing, bio-medical research, and 
nanotechnology. The State EPSCoR ``team'' then submits a RII proposal 
to NSF for funding support in these areas.
    The RII's are not an end unto themselves. Every researcher who is 
supported under the NSF RII's is expected to apply to one of the 
regular S&T programs at NSF or one of the other federal R&D funding 
agencies before the RII award is completed. The track record of these 
researchers over time has been remarkable. Recently, NSF released 
statistics showing that since 1998 (which was the first year that NSF 
issued RII awards) EPSCoR States accounted for 9 of the 10 U.S. States 
with the greatest increase in science and engineering funding. This 
success has occurred in areas where EPSCoR institutions had not 
previously been competitive. For example, for the first time, EPSCoR 
institutions have used RII funding as a base to successfully compete 
for large-scale awards like the Engineering Research Centers and 
Materials Research Science and Engineering, Integrative Graduate 
Education and Research Traineeship Program.
    At NIH and other agencies with EPSCoR-like programs, EPSCoR 
researchers are building on research infrastructure grants to compete 
for funding that not only advances academic science and technology, but 
serves the mission of these agencies in the areas of defense, 
environment, health, and agriculture. EPSCoR researchers are becoming 
increasingly adept at spinning off academic research into small 
companies. EPSCoR States are becoming more competitive for Small 
Business Innovative Research (SBIR) awards. SBIR awards have great 
potential to produce not just companies but high paying jobs for our 
States' youth.
    Many EPSCoR institutions are now actively engaged in issues related 
to homeland security. For example, some of our institutions are 
carrying out research that improves the safety of food products as they 
move from the field to grocery store. Other institutions are engaged in 
defense issues that relate to improving communication for troops in the 
field during combat. Still others are addressing issues related to 
transportation. All of these examples are intended to demonstrate that 
the initial federal investment in building the research capabilities of 
our universities through EPSCoR and EPSCoR-like programs has had a 
profound impact beyond our campuses.
    I will now provide some specific cases, which emphasize the 
importance of this program to South Dakota and other EPSCoR States. The 
South Dakota EPSCoR REACH Committee manages the development and 
implementation of Statewide science, engineering and mathematics 
research, education, and related programs. It enhances the research and 
intellectual capacity of South Dakota universities and colleges by 
building and coordinating strategic investments in human capital and 
physical infrastructures necessary for South Dakota to develop the 
capacity to make the State more competitive in research and economic 
development, nationally and internationally.
    South Dakota has benefited tremendously from the EPSCoR program. 
For example, using EPSCoR as a catalyst, we have developed four major 
research centers that form the core of Governor Mike Rounds ``2010 
Initiative.'' The centers are in the areas of nanotechnology, light-
activated materials, biomedical signal transduction, and vaccinology. 
The progress made by investigators in these areas, supported in 
significant ways by EPSCoR, has resulted in an additional $20 million 
investment on the part of the State. In addition, in the last 2 years, 
we have initiated seven new Ph.D. programs to help educate future 
scientists for South Dakota. The clear recognition of the connection 
between research and economic development has been made in South 
Dakota, and the sustained support by EPSCoR has been absolutely key to 
that connection.
    EPSCoR-funded science and technology dividends to South Dakota 
reflect an understanding that investments in infrastructure are needed 
for South Dakota to compete in a knowledge-based economy. Without State 
support, South Dakota EPSCoR would not be able to participate in most 
federal EPSCoR initiatives. Several of the federal programs have 
required a ``State match''.
    The South Dakota EPSCoR program has many unique features to enhance 
cooperation between our universities. In addition to supporting 
individual research projects, the program funds faculty and student 
exchange programs, provides interdisciplinary planning grants for 
cooperative scientific ventures among our universities; and offers 
undergraduate summer research fellowships.
    We are delighted to stress that EPSCoR has had a positive influence 
on State economic development well beyond what was initially conceived 
for the program. As a focal point for technological and scientific 
improvement across the State, EPSCoR identified areas of priority for 
funding and helped to draft South Dakota's strategic plan for 
scientific and technological development. In addition to the growth in 
basic research, we have seen a substantial increase in SBIR activity, 
to the point that the State has established two new offices: a system-
wide Vice President for Research, and a State Commercialization 
Director, whose job it is to help transfer ideas from the universities 
to the private sector.
    Within each States' EPSCoR program, efforts continue to identify: 
(1) high potential research areas in which to concentrate limited State 
resources and (2) barriers that must be removed to attain nationally 
competitive science and engineering research and education programs. A 
critical need for EPSCoR States is to overcome a lack of critical mass 
(i.e. too few faculty in a given area of research) by collaborating 
inside the State and with outside partners.
    NSF EPSCoR is helping us ensure, through its Research 
Infrastructure Improvement (RII) awards and co-funding, that our States 
have an opportunity to develop these new fields. This is vitally 
important to the economy of each of our States and especially to our 
young people who live therein. Despite increased mobility, the vast 
majority of students still attend college within 100 miles of home. 
EPSCoR helps to guarantee that students and residents of all States 
have the access to high-quality education, front-line research, and the 
quality of life and jobs that comes with an active and competitive R&D 
base.
    Again, the cornerstone of the NSF EPSCoR program are the Research 
Infrastructure Improvement awards (RIIs). These awards focus on South 
Dakota's competitive academic science and technology base. The RIIs 
strengthen South Dakota's ability to compete favorably for mainstream 
program funds at the NSF, other agencies and for private sector 
dollars.
    Consequently, we urge the subcommittee to continue support for 
EPSCoR by appropriating $125 million in fiscal year 2007 funding for 
the NSF EPSCoR core program in the NSF Education and Human Resources 
Directorate. This funding will: (1) allow the NSF EPSCoR program to 
implement its expanded core RII program to continue building our 
infrastructure and expertise in areas of scientific importance to the 
States and Nation; and (2) increase co-funding and assistance to our 
States so that the number of scientists and engineers in the EPSCoR 
States and universities that receive competitive federal R&D support 
continues to grow.
    For the NASA EPSCoR program, we are requesting $15 million. There 
are currently two components to the NASA EPSCoR program: core grants 
and research cluster awards. A core-funding award is made to each 
eligible State to develop a program, secure collaborations with NASA 
centers and programs and cover related administrative expenses. The 
remaining funds have been granted to the eligible States to support 
specific, competitively selected research clusters. The intent is for 
these clusters to develop an infrastructure in key NASA related 
research areas within the State, which will then be competitive for 
other NASA funding. NASA is currently planning its next round of awards 
and will be allowing all 27 NSF ESPCoR jurisdictions (as opposed to 23 
currently eligible NASA EPSCoR States) to submit. We know that NASA had 
more meritorious proposals than it could fund during the last 
competition and we believe that there are even more qualified proposals 
to be submitted pursuant to the next solicitation, even without the 
addition of new States.
    On behalf of the Coalition of EPSCoR/IDeA States, please know that 
the relatively modest NSF investment in EPSCoR plays a unique role in 
developing a truly nationwide science and technology capability. A 
strong EPSCoR is a sound investment for our Nation's future.

 DISCLOSURE OF AMOUNT AND SOURCE OF FEDERAL GRANTS (FISCAL YEAR 2003, 
   FISCAL YEAR 2004 AND FISCAL YEAR 2005) OF DR. ROYCE C. ENGSTROM, 
                       UNIVERSITY OF SOUTH DAKOTA

    Dr. Engstrom has participated in the following federally-funded 
projects during the fiscal years 2003-2005:
    REU Site: Excavation and Reconstruction of a Northern Plains Bison 
Kill Site, National Science Foundation, 2002-2005, $155,778. This 
project was an interdisciplinary undergraduate research project 
focusing on anthropology. (Co-Principal Investigator)
    Statewide Partnership to Support Technology Innovation and 
Entrepreneurship in South Dakota, National Science Foundation, 2002-
2005, $598,247. (Co-Principal Investigator)
    EPSCoR Centers Development Initiative (CDI), National Science 
Foundation, 2001-2004, $1,713,836. This project was aimed at providing 
technical assistance to EPSCoR States in their efforts at building 
nationally competitive research centers.
    South Dakota EPSCoR Rushmore Initiative for Excellence in Research, 
National Science Foundation EPSCoR, 2001-2004, $2,293,628 (USD 
portion). This project was the Research Infrastructure Initiative for 
South Dakota's EPSCoR program. (Co-Project Director)
    REU Site: Tracing the Lewis and Clark Expedition, National Science 
Foundation, 2001-2004, $173,605. This was an interdisciplinary 
undergraduate research program at the University of South Dakota. (Co-
Principal Investigator)
                                 ______
                                 

        Prepared Statement of the National Space Grant Alliance

                              INTRODUCTION

    Mr. Chairman and distinguished members of the subcommittee, thank 
you for allowing me to provide testimony on behalf of the National 
Space Grant Alliance (NSGA) as you consider funding priorities relevant 
to the fiscal year 2007 Commerce, Justice and Science Related Agencies 
appropriations bill. I am Mary Sandy, Virginia Space Grant Director.
    Today, I speak to you in support of NASA's National Space Grant 
College and Fellowship Program (Space Grant). In an effort to bring 
national coherence to our efforts, the Space Grant Directors formed the 
National Space Grant Alliance (NSGA). NSGA is a non-profit national 
organization that is working to: (a) galvanize support and enthusiasm 
for aerospace research and education; (b) ensure that Space Grant has 
an appropriate level of financial and programmatic support; and (c) 
align Space Grant's education, research, and workforce development 
activities with NASA's mission to ``inspire the next generation of 
explorers--as only NASA can.'' Comprised of 52 Space Grant consortia 
including 867 affiliates--located in every State of the country, the 
District of Columbia, and the Commonwealth of Puerto Rico--the NSGA 
requests that you approve the President's fiscal year 2007 request of 
$28.76 million for Space Grant with the following language: The 
committee has included the budget request of $28,760,000 for the 
National Space Grant College and Fellowship program. The amount 
provided will fund 35 States at $615,250 each and 17 States at 
$425,000. We believe that funding the Space Grant program at $28.76 
million and including the requested language will allow the Space Grant 
program to move forward and will encourage the rapid allocation of 
funds to the individual Space Grant consortia so that they can 
efficiently plan and implement their State programs.

                               BACKGROUND

    Congress established the National Space Grant College and 
Fellowship program under Title II of the NASA Authorization Act of 
1988. Through a national network of colleges, universities, and 
affiliates, Space Grant supports and enhances science and engineering 
education, research and outreach programs through three major 
components: (1) Education and Workforce Development; (2) Public 
Understanding and Participation in NASA-related Science and Technology 
Programs; and (3) Research Enhancement Programs.
  --Education and Workforce Development.--Space Grant programs 
        substantially contribute to creating a diverse, scientifically 
        literate and prepared workforce. Its programs encourage and 
        help prepare students to enter science, mathematics and 
        engineering careers, by offering ``hands-on'' learning with 
        aerospace technology. Space Grant has been particularly 
        successful in recruiting and training students from 
        underrepresented groups and women.
  --Public Understanding and Participation in Aerospace-Related Science 
        and Technology Programs.--Space Grant consortia provide a wide 
        array of public outreach programs that reach citizens of all 
        ages: Space Grant supports more than 400 public outreach 
        programs reaching over 3 million people each year.
  --Research Enhancement Programs.--The development of a strong 
        research base and infrastructure is critical to securing U.S. 
        world leadership in science and technology. In addition to 
        improving the quality of education, Space Grant is dedicated to 
        strengthening research capability, and integrating this 
        research with education and human resource development.

                SPACE GRANT AND ITS VALUE TO THE NATION

    The 52 university-based Space Grant consortia:
  --Support over 1,915 undergraduate and 632 graduate students in 
        practical education and research experiences in aerospace 
        science and engineering, and related fields. In fiscal year 
        2003, we awarded $9.5 million in scholarships and fellowships 
        to students--22 percent of whom are minority, and 44 percent 
        are women.
  --Infuse NASA space exploration and technology goals, knowledge, and 
        materials into the education experiences of over 1.3 million K-
        12 students and teachers.
  --Reach over 3.5 million people annually through public outreach and 
        awareness campaigns emphasizing the importance of aerospace 
        science, the excitement of space exploration and discovery and 
        its contribution to the Nation's scientific knowledge base and 
        our economy.
    To give you a better picture of Space Grant, I'd like to tell you a 
little about the Virginia Space Grant Consortium, where I am the 
director, and cite a few of our accomplishments.

                    VIRGINIA SPACE GRANT CONSORTIUM

    The Virginia Space Grant Consortium (VSGC) is a coalition of five 
Virginia colleges and universities, two NASA centers, State education 
agencies, Virginia's Center for Innovative Technology, and other 
institutions and informal science centers, representing diverse 
aerospace education and research interests. The Consortium acts as an 
umbrella organization, coordinating and developing quality aerospace-
related, high technology, educational applications and research efforts 
throughout the Commonwealth as well as regionally and nationally for 
some efforts. We are committed to promoting and achieving excellence in 
education and research in science, mathematics, technology and 
engineering at all levels in Virginia. The Consortium also seeks to 
encourage student and faculty diversity in these fields and to foster 
scientifically and technologically literate citizens. The Consortium 
received its Space Grant designation in 1989. It is a mature 
organization that is well established in the State with strong programs 
in all of the Space Grant program areas.
    The VSGC is a highly leveraged program. In recent years, each Space 
Grant dollar has been leveraged by about $6 in cash and in-kind 
contributions from other sources. Programs and interactions with NASA 
centers have grown to include all NASA centers. State networks have 
vastly expanded.
    In the program's recent 5-year evaluation period, VSGC Higher 
Education programs impacted 1,494 individuals, primarily undergraduate 
students, but graduate students and faculty as well. Implementation of 
two industry internship programs involved 52 undergraduate students and 
more than 36 industries and garnered strong State and industry funding. 
The VSGC-managed NASA Undergraduate Student Research program placed 622 
students in summer or fall internships at all NASA centers, Los Alamos 
National Laboratory and National Renewable Energy Lab.
    In the Research and Technology Applications arena, VSGC has 
generated sufficient funding to develop and maintain a full-time 
Research Programs Manager. Research missions, applications and 
infrastructure programs have grown exponentially from $28,871 in 1998 
to $429,766 in 2002. The additional funding secured from grants and 
contracts for new projects with members and partners permitted a total 
of 41 programs involving 3,359 participants in this time frame. 
Participation of NASA Langley Research Center and NASA's Goddard/
Wallops Flight Facility Consortium members has opened doors to new 
collaborative ventures that are mutually beneficial. The VSGC is one of 
14 Space Grant programs which have developed a partnership with 
Cooperative Extension and established a geospatial extension 
specialist. The Virginia Space Grant Geospatial Extension program is 
serving as a hub for terrific synergy among Cooperative Extension, 
universities, community colleges, Sea Grant, State natural resource 
agencies and other partners. Virginia Tech, VSGC, Cooperative Extension 
and Virginia Access-Mid-Atlantic Geographic Information Consortium, a 
NASA-Stennis funded partnership, are contributing resources to extend 
the reach of this program in ways that are already making a difference 
in the Commonwealth for Extension Agent training, workforce development 
programs with community colleges, networking and sharing of 
information, data tools, and other resources.
    Pre-college programs engaging over 75,000 educators over the past 7 
years. All are carefully aligned with State standards of learning in 
math, science and technology. The Virginia Department of Education is a 
VSGC member and key partner that has helped us to reach out to all 
Virginia school divisions with our professional development programs, 
including OVERspace, our professional development program for teachers 
in how to use GPS and GIS as teaching and learning tools, and our Space 
Science workshops and materials dissemination for teachers of learning 
disabled as well as blind and low vision students. We are particularly 
pleased with the six-series Journey Into Cyberspace distance-learning 
program for middle school career exploration produced in partnership 
with Old Dominion University and NASA. Nearly 3,000 students nationwide 
participated in six grade-related challenges in the 2005 competition in 
the NASA Student Involvement program which we co-managed on behalf of 
the National Space Grant Foundation prior to NASA's ending the program 
and which engages every state Space Grant program.
    Public and informal educational programming, often undertaken with 
museum members, included StarDate sponsorships at six Virginia radio 
stations throughout the Commonwealth, co-sponsorship of a Native 
American Sky Legends planetarium program for national distribution, and 
a range of museum programming. Over the latest 5-year evaluation 
period, 47 programs in this arena reached 373,829 participants.
    Impact/Results: The VSGC's extensive networks into member 
institutions at all levels, as well as extended State, Federal, 
industry and non-profit networks, are crucial to the Consortium's 
success. The Consortium's openness to collaborative partnerships 
together with its willingness to serve as the facilitating element and 
often to provide the administrative component has helped to engineer 
projects for success. The flexibility offered by our organizational and 
fiscal structure helps us to create and take advantage of opportunities 
that arise. Success in securing grants, contracts and other external 
funding, together with strong leveraging of financial, human and 
material resources is also an element in the successful accomplishment 
of our goals.

        FISCAL YEAR 2007 REQUEST FOR SPACE GRANT--$28.76 MILLION

    Clearly, we are very busy in our Space Grant consortia and very 
proud of what we are able to do but we know that there is much more 
that we can do that is very important to science education in this 
country and to maintaining the pipeline of highly qualified scientists 
and engineers for our high technology industries to ensure U.S. global 
competitiveness.
    How $28.76 million will be utilized:
  --Strengthen the national network structure by raising the level of 
        annual funding at 35 States to $615,250 and 17 States to 
        $425,000.
  --Maintain existing network of S&Es--located in 50 States, Puerto 
        Rico and the Virgin Islands and comprised of 800 universities, 
        colleges, and private industries.
  --Continue and strengthen the undergraduate and graduate STEM 
        education programs for talented American youth to pursue 
        careers in NASA related disciplines by:
  --Attract and retain students in STEM disciplines through a 
        progression of educational opportunities for students, 
        teachers, and faculty.
  --Build the NASA and aerospace industry workforce in order to meet 
        NASA's strategic goals.
  --Build strategic partnerships and linkages between STEM formal and 
        informal education providers.
    Results of increased funding in fiscal year 2006:
  --Dramatic increase and linkage of undergraduate and graduate 
        students to NASA research and exploration initiatives at NASA 
        field centers.
  --Increased research experiences for undergraduates by maintaining 
        and expanding the Student Satellite Initiative and young 
        faculty research development.
  --Sustained K-12 programs and links to new Code N Initiatives by 
        providing training workshops and after-school programs to 
        assist faculty and teachers and to attract and motivate 
        students into relevant career tracks.
    Taken together, these activities help to promote workforce 
development and help support NASA and Congress' goal to address the 
national ``brain drain'' in the aerospace science and engineering 
workforce. NASA, through its National Space Grant consortia/network and 
affiliate programs, can effectively encourage and improve the 
possibility for students to pursue careers in aerospace science and 
technology fields.

                                SUMMARY

    In summary, Space Grant has achieved what most other science 
agencies have not.
  --Created a national network that fosters strong partnerships among 
        university faculty, colleges of education, K-12 and business 
        communities in the States.
  --Mobilized and immersed Science and Technology faculty in education 
        initiatives.
  --Highly utilized and highly leveraged NASA resources to inspire and 
        motivate the next generation of explorers.
    Space Grant is delivering a remarkable number of high quality 
educational experiences for a very small NASA investment. Space Grant 
is a sound investment in America's future and should be expanded.
                                 ______
                                 

 Prepared Statement of Assemblyman Sam Blakeslee, Assemblymember, 33rd 
                    District, California Legislature

    Mr. Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of an 
appropriation of $1.5 million from NOAA's Coastal and Estuarine Land 
Conservation Program for Piedras Blancas in California.
    Nestled among lush rolling hills shadowed by ancient volcanic 
peaks, San Luis Obispo County offers residents and visitors a welcome 
respite from crowded urban areas. The northwestern part of the county 
is often referred to as the ``Southern Gateway to Big Sur,'' and it is 
here that the famous Hearst Ranch is located adjacent to Los Padres 
National Forest. Covering 128 square miles, including 18 miles of 
coastline, the ranch was originally known as Rancho Piedra Blanca, 
named for an offshore white rock outcropping. In 1865, Senator George 
Hearst purchased the property, and in 1919 his son, William Randolph 
Hearst, started construction of Hearst Castle. The ranch offers 
outstanding scenic vistas, including 19 beaches, and contains numerous 
creeks flowing into the Pacific Ocean. It is home to a wide variety of 
wildlife--including eagles, hawks, deer, coyote and steelhead trout--
and plant life including grasslands, chaparral, oak woodlands and 
California poppies.
    The Hearst Ranch Conservation Project, completed in early 2005, 
protects the entire historic ranch through voluntary conservation 
agreements and included the donation of 1,500 acres of land on the west 
side of Highway 1 to the State of California. Although this 
conservation agreement protects the scenic and rural character of this 
18-mile stretch of coast, there remains one privately held parcel along 
the coast west of Highway 1, known as Piedras Blancas.
    Located 1 mile north of the Piedras Blancas Lighthouse, this 20-
acre parcel is available for acquisition in fiscal year 2007. Formerly 
the site of a 14-unit motel, coffee shop, gas station, and private 
residence, the property will be restored in large part to its natural 
state and made ready for State park acquisition. Funds from the Coastal 
and Estuarine Land Conservation program (CELCP) will be used to 
purchase 18 acres of the land for the coastal resources, and funding 
will be secured from other sources to potentially develop an 
interpretive center and low-cost accommodations, such as a hostel or 
campground, on the remaining 2 acres.
    Public acquisition of the Piedras Blancas parcel offers a unique 
opportunity to enhance the Hearst Ranch Conservation Project by 
providing: (1) a permanent safe place for visitors to pull off the 
highway, park in the existing lot and access the coastal bluffs and 
beaches of the Hearst Coast; (2) the possibility of developing visitor 
serving facilities such as an interpretive center for the Hearst Coast 
and elephant seal, cafe, public restrooms and low-cost overnight 
accommodations due to its rare recreational zoning; and (3) these 
urgently needed public access and visitor serving benefits in an area 
of high demand due to its location just 7 miles north of the popular 
Hearst Castle, which receives over 1 million visitors per year. 
Additionally, the site offers the potential to develop guided hiking 
tours to the nearby Piedras Blancas Lighthouse and elephant seal 
rookery, as well as a second staging area for vehicular tours to the 
lighthouse.
    The southern beach of the property is also home to dozens of 
elephant seals during the winter each year. The steep bluffs 
overlooking the beach offer a safe viewing area for visitors watching 
the elephant seals. Arroyo del Corral Creek drains into the ocean at 
this beach attracting birds and other wildlife to the freshwater 
resources.
    While the shoreline along Hearst Ranch is mostly under State 
protection, much of it is still inaccessible. It may take as long as 5 
years by State Parks to implement a public access plan for these 
coastal areas. In the meantime, Piedras Blancas will be a critically 
needed safe access point for the public to access trails along the 
bluffs and down to the beaches. Safe and easy public access and the 
potential for visitor facilities make Piedras Blancas a key acquisition 
for the California Department of Parks and Recreation. This project is 
the missing half-mile of coast for the California Coastal Trail on a 
13-mile stretch of land that was recently made public as part of the 
Hearst Project. Piedras Blancas will provide a welcome respite to the 
hikers and bicyclists on the California Coastal Trail as well as to 
visitors who come by car on Highway 1.
    Without permanent public protection, there is high risk that the 
property could be sold and developed privately as an exclusive resort 
given its hotel zoning, making the bluffs and beaches off-limits to the 
public and forever leaving a missing link in the Coastal Trail. The 
northern portion of the property is under natural heavy erosion 
pressure accelerated by piecemeal shoreline armoring of Highway 1 just 
north of the property. There is the further risk that a future buyer 
would seek to build a seawall on site to protect structures from 
erosion. A seawall would negatively impact the property's coastal 
habitat in a designated area of the Monterey Bay National Marine 
Sanctuary.
    In fiscal year 2006, Congress appropriated $500,000 towards this 
conservation effort. A fiscal year 2007 appropriation of $1.5 million 
from the Coastal and Estuarine Land Conservation program is the final 
funding needed for the California Department of Parks and Recreation to 
acquire and conserve this unique and vital property on the Pacific 
Coast. The California Coastal Conservancy has already pledged matching 
funds and ranked Piedras Blancas as the top CELCP priority in the 
State.
    Thank you, Mr. Chairman, for your consideration of the 
appropriations request for this critical project in my district.
                                 ______
                                 

  Prepared Statement of the American Institute of Biological Sciences

    The American Institute of Biological Sciences encourages Congress 
to support the President's fiscal year 2007 budget request of $6.02 
billion for the National Science Foundation.
    The administration's request reflects the recognition of the 
important role that fundamental, peer-reviewed scientific research 
plays in driving innovation, creating new economic opportunities, and 
addressing important societal challenges. The National Science 
Foundation Biological Sciences Directorate (BIO) is particularly 
important to basic biological research, the fields of study concerned 
with understanding how the natural world works. These research 
disciplines include botany, zoology, microbiology, ecology, basic 
molecular and cellular biology, systematics and taxonomy. Indeed, 
according to National Science Foundation data, more than 65 percent of 
fundamental biological research is funded by the foundation. 
Additionally, the National Science Foundation provides essential 
support for the development of research infrastructure (for example, 
natural science collections, cyber-infrastructure, field and marine 
stations, and the National Ecological Observatory Network) that is 
required to advance our understanding of biological and ecological 
systems.
    We strongly support the President's fiscal year 2007 budget 
request, which would provide the BIO directorate with roughly $607.8 
million (a 5.4 percent increase). This funding would support important 
new research efforts in the areas of Molecular and Cellular Biosciences 
($111.2 million), Integrative Organismal Biology ($100.7 million), 
Environmental Biology ($109.6 million), Biological Infrastructure 
($85.9 million), and Plant Genome Research ($101.2 million). The budget 
also reflects the need for synthesizing biological information from 
different fields. Thus, $99.2 million is allocated for the cross 
discipline Emerging Frontiers program area.
    The President's request includes $24 million in funding for the 
National Ecological Observatory Network (NEON). Of the requested 
funding for NEON, $12 million would come from the Major Research 
Equipment and Facilities Construction account and $12 million would 
come from the BIO directorate. NEON will be the first national 
ecological measurement and observation system designed both to answer 
regional to continental scale scientific questions and to have the 
interdisciplinary participation necessary to achieve credible 
ecological forecasting and prediction. NEON is expected to transform 
the way we conduct science by enabling the integration of research and 
education from natural to human systems, and from genomes to the 
biosphere. Social scientists and educators have worked with ecologists 
and physical scientists to plan and design NEON. These research 
communities will all be able to participate in research only possible 
because of the construction of NEON.
    The National Science Foundation plays an important role in science 
education, in both formal and informal environments. Whether through 
programs such as Research Experience for Undergraduates, GK-12 
fellowships, or fellowships for graduate students and post-doctoral 
researchers, the National Science Foundation provides the resources 
needed to educate, recruit, and retain our next generation of 
scientists. National Science Foundation programs provide the support 
that makes it possible for practicing research scientists and college 
faculty to mentor and train budding researchers. National Science 
Foundation science education initiatives are unique and stimulate 
innovation in teaching and learning about science. The lessons learned 
and models developed through this research inform Department of 
Education and local school system programs.
    Informal science, technology, engineering, and mathematics programs 
supported by the Education and Human Resources Directorate also warrant 
increased funding. Economic growth in the 21st century demands a 
scientifically aware and technically skilled workforce. Moreover, we 
live in a time when people are increasingly called upon to make 
informed decisions about technology and public policy grounded in 
science. To make informed decisions, citizens must continue to learn 
about science throughout their lives. Informal science education 
programs, whether through a local natural history museum, marine 
laboratory or other venue, play a central role in educating the public 
about science. We encourage you to do all you can to support National 
Science Foundation formal and informal science education initiatives.
    Thank you for your past efforts on behalf of the National Science 
Foundation and for your thoughtful consideration of this request. If 
you require additional information, please contact Robert Gropp at 202-
628-1500.
                                 ______
                                 

                      Prepared Statement of Oceana

    Dear Chairman Shelby, ranking member Mikulski, and other 
subcommittee members: On behalf of the more than 250,000 supporters of 
Oceana, an international, non-profit conservation organization devoted 
to protecting ocean waters and wildlife, I submit the following 
testimony on the fiscal year 2007 budget for the National Oceanic and 
Atmospheric Administration (NOAA) within the Department of Commerce. 
Oceana urges the subcommittee to provide $4.5 billion for NOAA in the 
fiscal year 2007 Commerce, Justice, Science, and Related Agencies 
appropriations bill. More specifically, we urge the subcommittee to 
fund the following critical ocean research and conservation programs at 
these recommended levels:
  --$52.0 million for fishery observer programs;
  --$5.0 million for the reducing bycatch initiative;
  --$12.3 million for the national undersea research program (NURP);
  --$82.0 million for marine mammal research and management;
  --$20.0 million for sea turtle research and management; and
  --$8.0 million for National Environmental Policy Act (NEPA) 
        activities in fishery management.
    NOAA is the Federal agency with primary responsibility for managing 
our Nation's coasts and oceans. It has a critical role in promoting 
sustainable coastal communities and a healthy economy. An investment of 
$4.5 billion averages out to $15 per person annually--a bargain for the 
fishery management, coral reef protection, undersea research, weather 
forecasting, nautical mapping, coastal zone management, and ocean 
education NOAA provides to the Nation.
    We are greatly concerned about the impact of the administration's 
request for a $227 million cut (-5.8 percent) to NOAA below existing 
funding levels. The National Marine Fisheries Service is targeted for 
an $18 million cut (-2.6 percent) and the National Ocean Service is 
targeted for a $99 million cut (-20.1 percent). These steep reductions 
do not match the recommendations of the Presidentially-appointed United 
States Commission on Ocean Policy's 2004 final report or the 
independent Pew Oceans Commission's 2003 report. The commissions 
emphasized the importance of taking immediate action to conserve ocean 
and coastal waters, wildlife, and habitats and called for substantial 
increases in our Nation's investments for ocean research, conservation, 
and management. We hope you will follow the commissions' advice and 
strengthen our Nation's commitment to sustainable oceans and coasts. As 
a significant first step, we urge you to increase funding for the 
important NOAA programs and activities described below.
    Fishery Observer Programs--$52.0 million.--Oceana recommends that 
the fiscal year 2007 budget provide $52.0 million for more effective 
national and regional observer programs. The information gathered by 
observers helps track how many fish, marine mammals, sea turtles, sea 
birds, and other ocean wildlife are caught directly and as bycatch, 
thereby improving management of our fish populations. According to 
NMFS, observers are currently deployed to collect fishery dependent 
data in less than 40 of the Nation's 300 fisheries. Existing coverage 
levels for many of the fisheries with observers are inadequate. In its 
final report, the U.S. Commission on Ocean Policy concluded that 
``accurate, reliable science is critical to the successful management 
of fisheries'' and endorsed the use of observers as key to bycatch 
reduction efforts.
    In recent weeks, the National Marine Fisheries Service announced 
crippling cuts to the Northeast Fishery Observer program. The number of 
observers will be reduced from 120 to 25. The number of observer ``days 
at sea'' will be slashed from 10,000 in 2005 to approximately 5,000 in 
2006. Secretary of Commerce Carlos Gutierrez proposed an emergency rule 
on March 3 to further restrict New England's groundfish fishery due to 
last year's stock assessments showing several overfished groundfish 
populations are continuing to decline. It is obvious more science is 
needed to monitor New England's fisheries and help spur recovery of 
fisheries and coastal communities; therefore more observers are 
required, not less.
    Specifically, Oceana recommends $9.0 million for the national 
observer program; $20.0 million for the Northeast observer program; 
$7.5 million for the Atlantic Coast observer program; $5.0 million to 
establish a Gulf of Mexico/South Atlantic reef fish observer program 
and monitor the shark fisheries. We recommend funding other regional 
fishery observer programs at the administration's request.
    Bycatch Reduction--$5.0 million.--One of the primary issues 
threatening the future of our fisheries is the catch and subsequent 
death or injury of unwanted fish and ocean life. Prominent fishery 
scientists recently completed a thorough examination of fish data and 
concluded that more than 1 million metric tons of fish and invertebrate 
bycatch are caught by U.S. commercial fishermen; this bycatch is 28 
percent of the total catch. In past years, Congress has provided 
additional resources to help address bycatch by researching technical 
solutions, improving outreach, and promoting international improvements 
in fishing practices. We strongly encourage the subcommittee fund this 
initiative at $5.0 million to accelerate bycatch reduction efforts.
    National Undersea Research Program--$12.3 million.--NOAA's Undersea 
Research program serves the Nation by providing marine scientists with 
the tools, such as submersibles, remotely operated or autonomous 
underwater vehicles, mixed gas diving gear, underwater laboratories and 
observatories, to conduct important research that can help other ocean 
managers and users. The program helps locate and map areas of deep sea 
corals that are important for many fish and wildlife populations. 
Funding in fiscal year 2006 was cut more than 40 percent, halting 
important marine research. We support the fiscal year 2005 enacted 
level in help restore the program's vital work.
    Marine Mammal Protection--$82.0 million.--Oceana recommends 
sustaining the level of funding provided to support marine mammal 
research and management activities in the fiscal year 2005 budget 
($82.0 million). These funds will help the National Marine Fisheries 
Service more fully assess and adopt measures to recover depleted and 
strategic marine mammal species, such as Northern right whales, 
bottlenose dolphins, pilot whales, and common dolphins. It will also 
help the agency improve the knowledge of marine mammal populations; 
currently, the status of more than 200 protected and at-risk marine 
species is unknown. Activities that will be supported by these funds 
include funding top priority studies identified by the take reduction 
teams; designing and implementing take reduction plans for certain 
depleted marine mammal populations; conducting research on population 
trends; working on recovery plans; and conducting critical research on 
marine mammal health and responding to marine mammal die-offs.
    Sea Turtle Conservation--$20.0 million.--Oceana urges the 
subcommittee to sustain work currently underway on sea turtle research 
and conservation by providing $20.0 million to NMFS programs dedicated 
to protecting sea turtles. All sea turtles found in U.S. waters are 
officially protected as endangered or threatened. Additional funding 
will enhance research, recovery, and protection activities for 
imperiled sea turtle species, including the agency's Atlantic sea 
turtle bycatch reduction strategy that will examine needed gear 
modifications for the conservation and recovery of sea turtles.
    National Environmental Policy Act (NEPA) Implementation--$8.0 
million.--Oceana supports the administration's request of $8.0 million 
to enhance NMFS work in satisfying NEPA requirements. These funds will 
support NEPA specialists within the agency and in the eight regional 
fishery management councils and will help build the analytical 
capability needed to move toward ecosystem-based approaches to 
management.
    I request that this testimony be submitted for the official record. 
Also, I wish to be considered for any hearing of outside witnesses the 
committee may call. Thank you for your consideration of these 
recommendations.
                                 ______
                                 

   Prepared Statement of the Animal Protection Institute; Blue Ocean 
Institute; Endangered Species Coalition; Environmental Defense; Friends 
    of the Earth; HEART (Help Endangered Animals--Ridley Turtles); 
  HerpDigest; The Humane Society of the U.S.; International Fund for 
  Animal Welfare; International Wildlife Coalition; Inwater Research 
  Group, Inc.; The Leatherback Trust; Local Ocean Trust/Watamu Turtle 
   Watch; Marine Conservation Biology Institute; Marine Conservation 
Society; Marine Research Foundation; National Environmental Trust; The 
National Marine Life Center; Natural Resources Defense Council; Oceana; 
 Osa Sea Turtle Conservation Project; The Pegasus Foundation; PRETOMA; 
   Pro Peninsula; Proyecto Tortugas Marinas; Seaflow; Sea Sense; Sea 
 Turtles at Risk; Sea Turtle Restoration Project--Texas; Sierra Club; 
   South Carolina Aquarium; Whale and Dolphin Conservation Society; 
  WIDECAST: Wider Caribbean Sea Turtle Conservation Network; The Wild 
     Animal Rescue Foundation of Thailand; and Wildlife Rescue and 
                    Conservation Association (ARCAS)

    On behalf of the millions of supporters we represent, we urge you 
to provide $4.5 billion for the National Oceanic and Atmospheric 
Administration (NOAA) in the fiscal year 2007 Science, State, Justice 
and Commerce appropriations bill. Specifically, we encourage the 
subcommittee to provide $52.0 million for Fishery Observer programs; 
$30.0 million for Fish Stock Assessments; $82.0 million for Marine 
Mammal Research and Protection; $20.0 million for Sea Turtle 
Conservation: $60.0 million for the National Marine Sanctuary Program; 
$46.2 million for Coral Conservation; $3.3 million for the Marine 
Protected Area Center; and $12.3 million for the National Undersea 
Research Program. We ask that this letter be included in the official 
committee record for the fiscal year 2007 appropriations bill.
    NOAA is the Federal agency with primary responsibility for managing 
our Nation's coasts and oceans. It has a critical role in promoting 
sustainable coastal communities and a healthy economy. An investment of 
$4.5 billion averages out to $15 per person annually--a bargain for the 
fishery management, coral reef protection, undersea research, weather 
forecasting, nautical mapping, coastal zone management, and ocean 
education NOAA provides to the Nation.
    In recent years, the presidentially-appointed U.S. Commission on 
Ocean Policy and the independent Pew Oceans Commission identified major 
challenges to ensure a future with healthy and abundant oceans. Both 
commissions called for significant and immediate increased investments 
in ocean, coastal and Great Lakes research, management, and 
conservation in order to ensure these vital ecosystems recover and can 
fully contribute to our Nation's economy and well-being. Now, it is 
time for Congress to demonstrate its commitment to NOAA programs and 
provide sufficient funding to fully confront the challenges ahead.
    Last month, a number of national groups produced a report, Green 
Budget: Fiscal Year 2007 National Funding Priorities for the 
Environment. The full report, which included several NOAA programs in 
addition to the ones highlighted in this letter, can be found at 
www.saveourenvironment.org. We call upon your leadership to increase 
funding for these following priority research and conservation 
activities and programs at the recommended levels.

                   NATIONAL MARINE FISHERIES SERVICE

    Fishery Research--Fishery Observer Program--$52.0 million. Fish 
Stock Assessments--$30.0 million.--The information gathered by 
observers helps track how many fish, marine mammals, sea turtles, sea 
birds and other ocean wildlife are caught directly and as bycatch, 
thereby providing data to improve management of our fish populations. 
In its final report, the U.S. Commission on Ocean Policy concluded that 
``accurate, reliable science is critical to successful management of 
fisheries'' and endorsed the use of observers as key to bycatch 
reduction efforts. According to the National Marine Fisheries Service, 
observers are currently deployed to collect fishery data in 
approximately 40 of the Nation's 300 fisheries.
    In addition to the need for more data about what is caught, fishery 
managers would benefit from more complete information about the fish 
populations they oversee. Almost two-thirds of the Nation's fish 
populations lack basic information to determine their status; there are 
56 ``major'' stocks where the information about their status is 
classified as ``unknown.'' Additional resources would allow the 
National Marine Fisheries Service to hire additional biologists to 
produce annual stock assessments, fund necessary charter days at sea to 
collect data, and significantly reduce the number of fish stocks with 
unknown status.
    Protected Species Research and Conservation--Marine Mammal Research 
and Protection--$82.0 million. Sea Turtle Conservation--$20.0 
million.--The National Marine Fisheries Service needs resources to more 
fully assess and adopt measures to recover depleted marine mammal 
species, such as North Atlantic right whales (whose population is 
estimated to be less than 300), bottlenose dolphins, pilot whales, and 
common dolphins. In addition, the status of more than 200 protected and 
at-risk marine species is unknown. Increased funds will help NOAA 
complete top priority studies identified by the take reduction teams; 
consult with other agencies and ocean users on activities that may 
affect endangered marine mammals; design and implement take reduction 
plans for certain depleted marine mammal populations; conduct research 
on population trends; and respond to marine mammal die offs.
    All sea turtles in U.S. waters are officially listed as endangered 
or threatened species by the Endangered Species Act. Increased 
investments will help fund sea turtle research, recovery, and 
protection activities for imperiled sea turtles, including NMFS' 
Atlantic sea turtle bycatch reduction strategy that examines needed 
fishing gear modifications for enhanced conservation.

                         NATIONAL OCEAN SERVICE

    National Marine Sanctuary Program--$60.0 million.--The National 
Marine Sanctuary program manages 13 sanctuaries that encompass more 
than 18,000 square miles of our Nation's most diverse marine 
ecosystems. A 14th sanctuary for the Northwestern Hawaiian Islands is 
now in the process of designation. The program helps protects resources 
such as the coral reefs and mangrove forests off the Florida Keys, the 
tide pools and kelp forests along the Olympic Coast, and habitat for 
endangered humpback and northern right whales. The proposed 
Northwestern Hawaiian Islands sanctuary, expected to be designated in 
2007, will require new financial commitments. Meanwhile, Congress has 
indicated its desire to see better resource inventories and management 
of existing sanctuaries before it will approve any further 
designations. This requirement can only be solved by enhanced 
appropriations.
    Coral Conservation--$46.2 million ($31.2 million for tropical 
corals and $15.0 million for deep sea corals).--Tropical reefs are 
often called the rainforests of the ocean because of the amount of rich 
biodiversity that these living reefs provide. Sensitive to human and 
environmental factors, these slow-growing reef systems need to be 
conserved for the health of our oceans. Corals reef systems are also 
found on the deep sea floor. These corals provide shelter for marine 
animals, protection from predators, nurseries for young fish, feeding 
areas, and spawning areas. Tropical and cold-water corals are subject 
to many threats, including damaging fishing practices, land-based 
pollution, and vessel strikes. Additional resources to improve coral 
management are needed to halt further coral destruction.
    Marine Protected Area Center--$3.3 million.--The National Marine 
Protected Area Center was created to develop the framework for a 
national system of marine protected areas (MPAs), support cooperative 
efforts, and provide technical and scientific support to improve MPA 
stewardship and effectiveness. Cuts in previous budgets have 
significantly reduced the center's work. This spring, the national MPA 
System Framework document should be published. Increased investments 
are needed to ensure that regional coordinators in Massachusetts and 
California and additional scientific and outreach staff are retained to 
continue the substantial collaborative work necessary to properly shape 
a proposed national system of MPAs.

                                RESEARCH

    National Undersea Research Program--$12.3 million.--NOAA's Undersea 
Research program serves the Nation by providing marine scientists with 
the tools, such as submersibles, remotely operated or autonomous 
underwater vehicles, mixed gas diving gear, underwater laboratories and 
observatories, to conduct important research that can help other ocean 
managers and users. Funding in fiscal year 2006 was cut more than 40 
percent, halting important marine research. We support the fiscal year 
2005 enacted level in order to ensure that vital undersea research 
continues.
    Finally, we urge you to reject adding anti-environmental riders in 
this and other bills. If you have any questions, please contact Ted 
Morton, Oceana's Federal Policy Director at 202-833-3900. Thank you for 
considering our views.
                                 ______
                                 

   Prepared Statement of the University Corporation for Atmospheric 
                                Research

    On behalf of the University Corporation for Atmospheric Research 
(UCAR) and the university community involved in weather and climate 
research and related education, training and support activities, I 
submit this written testimony for the record of the Senate Committee on 
Appropriations, Subcommittee on Commerce, Justice and Science. UCAR is 
a 69-university member consortium that manages and operates the 
National Center for Atmospheric Research (NCAR) and additional programs 
that support and extend the country's scientific research and education 
capabilities. UCAR is supported principally by the National Science 
Foundation (NSF) and by other Federal agencies including the National 
Aeronautics and Space Administration (NASA), and the National Oceanic 
and Atmospheric Administration (NOAA).
    The atmospheric sciences community strongly supports the 
President's American Competitiveness Initiative (ACI), an investment 
that we believe will pay great dividends for this country if it is 
sustained as planned over the next 10 years. In the President's budget 
request for fiscal year 2007, NSF is one of the critical agencies in 
line for ACI increases intended to double the physical sciences 
research budget by 2016. This is a necessary first step in any 
initiative that seeks to strengthen this Nation's economic 
competitiveness. However, the strength of the country's R&D investment 
is a result of multiple agencies playing multiple, complementary and 
interlocking roles. We believe that the science missions of NASA and 
NOAA, in addition to NSF, are critical to the health and well-being of 
this country. We look forward to the ACI developing rapidly to shore up 
and strengthen the physical sciences supported by all three of the 
major science mission agencies within your jurisdiction.
National Science Foundation (NSF)
    NSF plays a unique role among all Federal agencies. In achieving 
its goal to develop new knowledge to meet societal needs and improve 
quality of life, NSF strengthens the ability of the country to create 
new ideas; develop new technologies; create a diverse, knowledgeable 
workforce; and set new standards that challenge any boundaries of 
invention and intellect. These are all key components of our capacity 
to compete globally in the 21st Century and are fundamental drivers of 
wealth-producing growth and job creation. The NSF budget request states 
that the ACI investment in NSF--a commitment to double the NSF research 
budget over 10 years--is being made ``in order to sustain a robust, 
competitive, and productive America.'' The UCAR community takes great 
pride in this national priority and supports to the fullest extent 
possible the ACI focus on NSF. I urge the committee to support the 
President's overall request of $6.02 billion for the National Science 
Foundation and, within NSF, the request of $4.66 billion for Research 
and Related Activities (R&RA), the heart of NSF's scientific 
enterprise. In addition, I urge the committee to support the 
administration's goal of doubling the research budget of NSF over the 
course of a decade, finally realizing the promise of the National 
Science Foundation Authorization Act of 2002.
    Geosciences Directorate (GEO).--Within R&RA, GEO is the principal 
source of federal funding for university-based basic research in the 
geosciences, providing about 68 percent of the total federal support in 
these areas. The fiscal year 2007 increase for GEO includes aggressive 
investment in cyberinfrastructure, without which discoveries in the 
geosciences simply will not be able to advance at a competitive rate; 
and additional investment in the interagency Climate Change Science 
program in activities focused on understanding past climate 
variability, the advancement of knowledge about the carbon and nitrogen 
cycles, and the continued development of computational models of Earth 
system processes. I urge the committee to support the President's 
request of $744.85 million for the Geosciences Directorate and, within 
GEO, to provide the President's request of $226.85 million for the 
Atmospheric Sciences Division which provides resources for the 
atmospheric sciences community that are critical to the physical safety 
of our citizens, our economic health, and global issues of national 
security relevance such as severe weather, climate change, the security 
of our communications infrastructure, and the environmental health of 
the planet.
    Office of Cyberinfrastructure.--Given the requirements of modern 
research, leading-edge progress that results in societal benefits 
cannot be realized without the acquisition, development and operation 
of state-of-the-art cyberinfrastructure services including ever-
improving supercomputers, high-capacity mass-storage systems, and an 
ever-expanding suite of software tools. NSF promises to accomplish much 
in this area with the creation of the Office of Cyberinsfrastructure. I 
urge the committee to support the President's fiscal year 2007 request 
of $182.42 million for the Office of Cyberinfrastructure which includes 
$50.0 million for the all-important achievement of petascale 
performance for application to important science and engineering 
problems.
    Education and Human Resources (EHR) Directorate.--Key to the 
success of the administration's ACI efforts is the improvement of math 
and science education in this country. It is therefore disappointing to 
see the EHR funding request for fiscal year 2007 decline in certain 
areas and not keep pace with inflation overall. We believe that the 
strengthening of science education, so critical to the Nation's future, 
must be intimately connected with the best scientific practices and 
results being produced via the NSF scientific directorates. While we 
realize that the EHR request strengthens collaborations that aid in 
addressing workforce needs, we hope that other areas of the budget do 
not indicate a shrinking NSF influence in the classroom. Of some 
encouragement is the recognition in the request of the value of digital 
libraries to teachers and students. Within the Division of 
Undergraduate Education (DUE), the National Science Digital Library 
(NSDL) receives a small increase. The value of this program continues 
to rise as its capacity to bring first-rate education tools into the 
classroom is broadened and enhanced. I urge the committee to provide as 
healthy an increase as possible for the Education and Human Resources 
Directorate so that it may play its rightful, critical role in 
achieving ACI goals.
National Aeronautics and Space Administration (NASA)
    NASA's Science Mission Directorate (SMD) plays a unique and central 
role in our Nation's ability to attract students into science and 
engineering fields, and to understand the universe, our own planet's 
environmental complexities and its relationship to the Sun, and major 
factors contributing to climate change. Despite this essential role, 
NASA's fiscal year 2007 Federal budget request would curtail long-term 
growth in the science portfolio, defer or eliminate many of the 
Nation's most successful and promising missions, and fund only a 
relatively small number of scientific missions (albeit promising ones) 
in the next 5 to 10 years. While the manned program is incredibly 
important, it cannot come at the complete expense of this critical 
investment.
    Within SMD, NASA plays a unique and central role in the study of 
the complexities of the Earth system and the equally complex 
relationship of the Sun to Earth through the Earth-Sun System. NASA's 
investment in Earth Science Research and Analysis (R&A) and the 
missions and tools associated with this research makes possible the 
study of Earth from space providing data that simply are not available 
from any other Federal agencies. These observations, used in research 
and in the construction of computer models to predict weather, climate, 
and natural hazards, provide a critical basis from which our 
understanding of our planet evolves and on which informed policy 
decisions, both long term and emergency response, can be made. Given 
the tremendous importance of this underlying activity, the R&A analysis 
programs should continue to receive robust funding levels at least 
commensurate with fiscal year 2006 levels.
    In addition to investments in Earth-Sun System, NASA must preserve 
the essential PI-led programs that serve as a primary conduit through 
which the Nation's best scientists can engage NASA in cutting-edge 
problems. NASA should support the Explorer, Discovery, and New Frontier 
programs and fully commit to missions unless there are technical or 
cost related issues. When NASA promotes premature termination of those 
missions for non-technical or cost reasons, it is in danger of sending 
the message to the community that it is an unreliable partner and that 
this is not a field that future scientists and engineers should pursue. 
Moreover, balanced, highly skilled teams of talent are lost, as are 
discoveries on the immediate horizon.
    While the exploration initiative and International Space Station 
are of great human interest and of scientific value, we are far from 
unlocking all the mysteries of our own planet. NASA programs that are 
in progress and others that are yet to be implemented will enable us to 
protect space vehicles, astronauts, and satellites from the devastating 
radiation of solar storms; mitigate some of the property damage and 
prevent some of the deaths caused by severe weather; and help us to 
mitigate, understand, and cope with the inevitable effects of natural 
and human-induced climate change. These programs are critical to the 
health of our economy, to the health of the Earth, and to our national 
security. As the administration's new vision for U.S. space exploration 
unfolds, I urge the committee to protect the vibrant NASA science 
accounts and missions, current and planned, that make possible the 
study of our own planet and the environment that sustains life on 
Earth.
National Oceanic and Atmospheric Administration (NOAA)
    NOAA's importance to the Nation was made glaringly evident to the 
world as Hurricane Katrina bore down on the Gulf Coast last fall. 
Without the R&D and operations behind the accurate forecasts and 
warnings that moved tens of thousands of people out of the region, the 
number of deaths caused directly by the storm would have been 
catastrophic. This is just one example of the manner in which NOAA 
data, research, and services contribute to the Nation's security, 
economy, environment, and quality of life, yet NOAA hurricane forecast 
R&D is also just one example of areas severely under funded in the 
request for fiscal year 2007. NOAA provides a critical link for this 
Nation between research results, research applications, technology 
development, and operations, yet NOAA's overall budget request is 5.8 
percent below the fiscal year 2006 Enacted Budget. For NOAA to address 
all areas of concern and priority that have been identified by 
Congress, and to restore core funding that has decreased in recent 
years, I urge the committee to fund NOAA at $4.5 billion for fiscal 
year 2007 and to do so while maintaining vital, enhanced support for 
other portion's of the subcommittee's research and development 
portfolio.
    National Weather Service (NWS).--The fiscal year 2007 NWS request 
eases some of the extremely difficult pay raise pressures that were 
squeezing NWS operations to the breaking point. In recent years, NWS 
has assumed responsibility for several programs such as the Space 
Environment Center (SEC), the U.S. Weather Research Program (USWRP), 
and the Wind Profilers. None has fared particularly well. SEC, the 
Nation's official source of space weather alerts and solar radiation 
warnings, was cut in fiscal year 2006 from just over $7 million to less 
than $4 million. USWRP has not been able to adequately keep up with our 
international obligation to fund THORPEX, and has not yet implemented 
planned national activities for this international research program 
designed to accelerate improvements in the accuracy of 1-to-14 day 
weather forecasts with deliverables such as improving disaster 
mitigation/response and increasing economic efficiency. The staff of 
the NOAA Profiler Network, 35 Doppler Radar sites that provide vital 
vertical wind profile data, has been cut back to the point that 
reliability and urgently required upgrades are severely compromised. 
The fiscal year 2007 NWS request will allow these and other critical 
programs such as AWIPS and Local Warnings and Forecasts to barely meet 
minimum requirements. I urge the committee to do everything possible to 
fund the President's entire request of $881.86 million for the National 
Weather Service, a line office that provides the most critical of 
activities for policy makers, stakeholders, and citizens.
    Office of Oceanic and Atmospheric Research (OAR).--OAR conducts 
research and technology development that are the underpinnings for NOAA 
operations. If the requested amount is appropriated, OAR would receive 
a small increase to its base funding for fiscal year 2007, some of 
which will keep the Nation on track with its contribution to the 
international commitment of completing the ocean climate observing 
system by 2010. This is a high priority component within this country's 
obligation to the construction of the international Global Earth 
Observation System of Systems (GEOSS). In addition, the increase will 
support drought impact research through the National Integrated Drought 
Information System (NIDIS) and develop new data sets that will enhance 
operational climate prediction. Also within OAR, the Hurricane Research 
Division (HRD) works to improve the Nation's hurricane forecasts for 
both path and intensity. This is an activity the importance of which is 
obvious, post-Katrina, yet HRD funding, modest to begin with, is cut by 
over $1.0 million in the fiscal year 2007 request. I urge the committee 
to support the foundational research, technology development, and 
international commitments represented by the fiscal year 2007 request 
of $348.6 million for the Office of Oceanic and Atmospheric Research 
and to shore up funding for obviously critical research areas such as 
hurricane forecasts.
    National Environmental Satellite, Data and Information Service 
(NESDIS).-- NESDIS is responsible for managing all aspects of the 
remotely gathered environmental data that form the basis for 
environmental research meeting the needs of policy makers and users. 
The fiscal year 2007 request provides a badly needed increase to cover 
basic operations and to provide additional funding for data archiving, 
and access and assessment activities at the NOAA National Data Centers 
which serve over 50,000 users annually. I urge the committee to support 
the President's fiscal year 2007 request of $1,033.8 million for 
NESDIS.
    On behalf of the UCAR community, I want to thank the committee for 
your stewardship of the Nation's scientific enterprise and your 
understanding that the future strength of the Nation depends on the 
investments we make in science and technology today.
                                 ______
                                 

           Prepared Statement of the Town of Brunswick, Maine

    On behalf on the Town of Brunswick, I appreciate the opportunity to 
present this testimony in support of an appropriation of $1.45 million 
from NOAA's Coastal and Estuarine Land Conservation Program for the 
Maquoit Bay project in southern Maine.
    Located in coastal Cumberland County, Brunswick is the sixth 
largest community in the State and the largest in the mid-coast region. 
The popularity of our downtown, the presence of Bowdoin College, and 
excellent public educational and recreational opportunities all 
contribute to the attractiveness of Brunswick. Over the past 15 years 
our town has experienced rapid residential growth resulting in the 
construction of approximately 1,200 new homes. This growth underscores 
the need to conserve key, ecologically significant, properties while 
the opportunity still exists. Successful completion of the Maquoit Bay 
project will forever preserve our community's traditional ties to Casco 
Bay by maintaining public access and forever reminding our citizens of 
their place in the watershed.
    While the Casco Bay watershed represents only 3 percent of Maine's 
total landmass, it holds nearly 25 percent of the State's population. 
The bay supports many industries such as shipping, commercial fishing, 
and shellfishing, as well as tourism and other recreational activities 
all of which are critical to the economic vitality of Maine. The Casco 
Bay Plan, developed to prevent further degradation of the bay and 
restore its health, focuses on five key issues of importance to the 
health of the bay: stormwater management, clam flats and swimming 
areas, habitat protection, toxic pollution, and stewardship.
    Maquoit Bay, which is at the northwestern end of Casco Bay, is a 
shallow 5-square-mile embayment and includes the best commercial 
clamming flats in southern Maine. The Town of Brunswick, in which the 
entire bay is located, has adopted a Coastal Protection District zoning 
ordinance to limit development within the Maquoit watershed in an 
attempt to slow deterioration of the bay. The U.S. Fish and Wildlife 
Service has identified the northern end of Maquoit Bay as the most 
important habitat area in Casco Bay for all species studied, including 
the eider, brant, Canada goose, eelgrass, common loon, horseshoe crab, 
and the black duck.
    Available for immediate protection is the 170-acre Maquoit Bay 
property, which constitutes fully one-quarter of the northern end of 
the bay and is one of the last undeveloped sites on Brunswick's entire 
coastline. Very little of the town's 66 miles of coastline is open to 
public access, and the town has made improving water access one of its 
top priorities. This property has almost a mile of salt water frontage 
on the bay and if protected will nearly double the town's current 
public access to the water.
    The property available for conservation this year comprises a 
substantial portion of a larger 222-acre forest block, identified as a 
priority for conservation by the Rural Brunswick Smart Growth Plan. 
There are also three freshwater streams on the tract and a unique rocky 
promontory that provides spectacular views of Casco Bay and its islands 
and great swimming access to the warm shallow bay. With nearly a mile 
of trails for walking and cross-country skiing, and canoe and kayak 
access to Maquoit Bay and Casco Bay, this property has great 
recreational value to the townspeople as well as other Maine residents 
and visitors seeking access to coastal waters.
    Conservation of this relatively large unfragmented forested habitat 
on Maquoit Bay will help achieve the goals of the larger Casco Bay 
protection effort, enhance existing conserved properties up the 
watershed, and assist Brunswick in providing additional public access 
to the waterfront for its residents and many visitors.
    The landowners are offering the property for conservation but only 
for a very limited time. In fiscal year 2006, Congress appropriated 
$550,000 towards this project, which is strongly supported by the 
Brunswick Town Council and has been endorsed by the Maine Coastal 
Program, a division of the State Planning Office. An appropriation of 
$1.45 million from NOAA's Coastal and Estuarine Land Conservation 
Program (CELCP) in fiscal year 2007 is needed to complete this critical 
coastal protection effort in the Casco Bay watershed. These federal 
funds will be matched by a State grant, land value donation and the 
value of other conserved lands within the Maquoit Bay watershed.
    Thank you, Mr. Chairman, for the opportunity to present this 
testimony and for your consideration of this important request.
                                 ______
                                 

            Prepared Statement of the St. Simons Land Trust

    Mr. Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of an 
appropriation of $3 million from NOAA's Coastal and Estuarine Land 
Conservation Program for a conservation easement on Little St. Simons 
Island in Brunswick, Georgia.
    The St. Simons Land Trust is a non-profit organization dedicated to 
protecting St. Simons natural and scenic character so that residents, 
visitors, and generations to come can share and enjoy this precious 
jewel of nature. The trust has worked to protect lands since its 
formation in 2000 by working with caring landowners, county government, 
and our dedicated membership of over 2,000 families.
    The 100 miles of Georgia coastline from Savannah to St. Marys is a 
diverse ecosystem of estuaries, salt marshes, wetlands, barrier 
islands, and beaches. The Georgia coast is also home to a number of 
historic forts and sites from colonial, antebellum, and Civil War 
periods. In recognition of the ecological and historical significance 
of the State's coast, Congress, Georgia, and private organizations have 
created a number of parks, monuments, wildlife refuges, historic sites, 
and reserves that conserve these special coastal resources.
    Of the dozen or so larger barrier islands along the Georgia coast, 
Little St. Simons Island is one of the last that remains substantially 
undeveloped and unprotected. This year there is an opportunity to 
acquire a conservation easement on the entirety of Little St. Simons 
Island in Glynn County. The island consists of 12,500 acres of land 
along 7 miles of Atlantic Ocean beachfront. Of the total acreage, 
approximately 2,500 acres are high ground; the rest is tidal salt 
marsh. Little St. Simons Island is about 10 miles northeast of the town 
of Brunswick.
    Little St. Simons Island contains a variety of pristine ecosystems 
that provide habitat for migratory birds unique to the Atlantic 
coastline. Little St. Simons Island and parts of three other islands in 
the area were designated the Altamaha River Delta Reserve under the 
Western Hemisphere Shorebird Reserve Network, an international 
voluntary conservation system. This barrier island was also recognized 
by the American Bird Conservancy as one of the top 500 important bird 
areas in the United States. The marshlands provide habitat for 
waterfowl, migratory birds, and American alligators. The island is also 
a habitat for several endangered and threatened species, including the 
loggerhead sea turtle, the piping plover, and the wood stork.
    Little St. Simons Island contains significant historical and 
cultural resources. Of the several historic structures still remaining 
on the island, one of the most important is an eighteenth-century house 
built by Samuel Augspourger, a surveyor and engineer to General James 
Oglethorpe, the founder of the Georgia colony. Augspourger also 
supervised the design and construction of Fort Frederica on St. Simons 
Island, which has been preserved as a national monument since 1936. 
Little St. Simons is thought to have potentially rich archaeological 
and cultural resources relating to Native Americans and European 
settlers.
    Under the proposed conservation easement, the island will remain 
privately owned. The easement will be held by the City of Brunswick and 
will be monitored by the St. Simons Land Trust. Public access to the 
island will be available through overnight and day-trip guest programs, 
with ecological study programs for university scholars and naturalists. 
The owners intend to establish an education and research foundation to 
be endowed by a portion of the proceeds from the sale of the easement. 
In addition to researchers, school groups will be able to visit the 
island on a limited basis.
    Unless the island is permanently protected, Little St. Simons 
Islands' pristine natural resources will be at risk, as the island is 
currently zoned for development. As nearby communities and developed 
barrier islands grow, the conservation of Little St. Simons Island will 
not only preserve open space and beachfront, but will also reduce the 
potential damage and costs from storms and hurricanes.
    The community in Brunswick and St. Simons Island supports the 
conservation easement. The state of Georgia has submitted this project 
to NOAA as its top CELCP priority for fiscal year 2007. The $3 million 
appropriation from the Coastal and Estuarine Land Conservation program 
will be matched by $27.75 million in other public and privately raised 
funds.
    Acquisition of this conservation easement is critical to protecting 
thousands of acres of marshlands and one of the last stretches of 
undeveloped and unspoiled beachfront on Georgia's Atlantic coastline.
    Thank you, Mr. Chairman for the opportunity to present this 
testimony in support of the $3 million CELCP appropriation for Little 
St. Simons Island, and for your consideration of the request.
                                 ______
                                 

         Prepared Statement of the Protectors of Pine Oak Woods

    Protectors of Pine Oak Woods, a conservation organization 
representing 2,300 environmentally conscious Staten Islanders, 
appreciates this opportunity to testify in support of appropriating $3 
million from NOAA's Coastal and Estuarine Land Conservation program for 
the preservation of Long Pond/Butler Woods in New York.
    The southern coast of Staten Island, facing the open waters of the 
Atlantic Ocean and Sandy Hook in New Jersey southeast over the Raritan 
Bay, is an important natural and recreational resource for the 
residents of the metropolitan New York City Area. To conserve this 
shoreland, hundreds of acres have been protected as Federal, State, and 
local government parks such as Gateway National Recreational Area in 
New York and New Jersey, Mount Loretto Unique Area, Wolfe's Pond Park, 
and Conference House Park. These parks lie on the northern shore of 
Raritan Bay, a significant estuary between New York and New Jersey.
    New York/New Jersey's Raritan Bay, with Staten Island to the north 
and Middlesex and Monmouth counties to the south, is the largest 
component of the Hudson River-Raritan Estuary system. It is part of the 
New York-New Jersey Harbor Estuary program, one of 28 federally 
recognized estuaries of national importance. Raritan Bay was 
historically one of the richest fisheries in the Nation prior to over-
fishing and a reduction of water quality due to silt and other 
pollution which have impacted fish stocks in recent decades. The 
harbor, where commerce, industry, and nature confront one another, has, 
considering its overlying urban/industrial matrix, large amounts of 
upland and wetland open space and an unexpectedly high degree of 
biological diversity. The wetlands, marshes, flats, and costal and 
riparian corridors in both New York and New Jersey serve as prime 
habitats for fish, terrapin, amphibians, and shorebirds, while 
migratory birds use these same areas for habitat and stopovers to 
replenish the energies needed to continue their journeys. In this part 
of Raritan Bay land conservation has been used as a primary tool for 
wildlife protection and to improve water control and quality; it is the 
site of extensive habitat and storm water management Bluebelts 
established by The New York City Department of Environmental 
Protection.
    Two parcels totaling 80 acres near the Princes Bay section of 
Staten Island are available for acquisition in fiscal year 2007. These 
are collectively referred to as Long Pond/Butler Woods. The largest 
parcel, known as the North Mount Loretto Woods, comprises 75 acres of 
forest and wetlands lying between Hylan Boulevard and the Pleasant 
Plains Station of the Staten Island Railway. This property contains 
wetlands that provide flood protection, stormwater control, wildlife 
habitat, and open space for residents. More than half of the property 
contains wetlands within the Mill Creek watershed and provides 
watershed protection. The smaller parcel, known as the Camp St. Edward 
property, is a 5-acre triangular property on the shore of Raritan Bay. 
Currently undeveloped, it extends south of Hylan Boulevard along 800 
feet of shoreland, and is adjacent to the only natural red clay bluffs 
in the New York City area.
    Both of these properties have been identified as high priority 
conservation projects in the New York State Open Space Conservation 
Plan of 2005, a plan which includes the New York-New Jersey Harbor 
Estuary program and the State plans for the Coastal and Estuarine Land 
Conservation program. Together the properties offer opportunities to 
conserve important recreation and open space for residents and other 
users. Enhancing their value are several existing conserved properties 
that surround the parcels, including the Mill Creek Bluebelt site 
immediately to the north of the North Mount Loretto Woods parcel; Long 
Pond Park Natural Area which contains forest, swamp, and freshwater 
ponds; Lemon Creek on the bay itself; Bloesser's Pond; Arden Heights 
Woods; and the Mount Loretto Unique area, an adjacent 145-acre tract of 
grasslands and bluff fronting the bay that was conserved in 1998.
    In order to conserve the Long Pond/Butler Woods parcels, an 
appropriation of $3 million from the Coastal and Estuarine Land 
Conservation program is needed in fiscal year 2007. A federal 
contribution would be matched by $11.5 million in non-federal funds, 
very nearly a one-to-four ratio. Once conserved, the properties would 
be managed by the New York State Department of Environmental 
Conservation. Both properties are highly vulnerable for development 
given their location in the metropolitan area, and other parcels in the 
immediate area are have been purchased and developed for residential 
use within the past year. Conservation of these two properties will 
ensure the protection of important coastal wetlands and the 
availability of open space, recreational opportunity, and public access 
to the shore of Raritan Bay. Therefore protectors of Pine Oak Woods 
urges the inclusion of funding for this project in the fiscal year 2007 
Commerce, Justice, and Science appropriations bill. We thank the 
subcommittee for this opportunity to present testimony, and for 
consideration of this important request.
                                 ______
                                 

      Prepared Statement of the American Public Power Association

    The American Public Power Association (APPA) is the national 
service organization representing the interests of over 2,000 municipal 
and other State and locally owned utilities in 49 of the 50 States (all 
but Hawaii). Collectively, public power utilities deliver electricity 
to one of every seven electric consumers (approximately 43 million 
people), serving some of the Nation's largest cities. However, the vast 
majority of APPA's members serve communities with populations of 10,000 
people or less.
    The Department of Justice's (DOJ) Antitrust Division and the 
Federal Trade Commission (FTC) play critical roles in monitoring and 
enforcing antitrust laws affecting the electric utility industry. With 
the repeal of the Public Utility Holding Company Act (PUHCA) included 
in the Energy Policy Act of 2005, the electric utility industry is 
experiencing an increase in mergers that, if approved, could result in 
increased market power in certain regions. This development coupled 
with the volatility and uncertainty continuing to occur in wholesale 
electricity markets, make the oversight provided by DOJ and the FTC 
more critical than ever.
    APPA supports adequate funding for staffing antitrust enforcement 
and oversight at the FTC and DOJ. Specifically, we support the 
administration's request of $223 million for fiscal year 2007 for the 
FTC. We are heartened that the downward trend in funding for the DOJ's 
Antitrust Division over several years has been reversed, and are 
pleased with the administration's request of $147.7 million for fiscal 
year 2007.
    We appreciate the opportunity to submit this statement outlining 
our fiscal year 2007 funding priorities within the Commerce, Justice 
and Science subcommittee's jurisdiction.
                                 ______
                                 

     Prepared Statement of the California State Coastal Conservancy

                                SUMMARY

    The following testimony is in support of the California State 
Coastal Conservancy's fiscal year 2007 Science, Justice, Commerce, and 
Related Agencies appropriations request. The Conservancy respectfully 
requests needed funding for the following critical projects: $5.5 
million for the acquisition of Piedras Blancas, the Santa Clara River 
Parkway and the Jenner Headlands under the National Oceanic and 
Atmospheric Administration's (NOAA) Coastal and Estuarine Land 
Conservation Program.

                         CONSERVANCY BACKGROUND

    The California Coastal Conservancy, established in 1976, is a State 
agency that uses entrepreneurial techniques to purchase, protect, 
restore, and enhance coastal resources, and to provide access to the 
shore. We work in partnership with local governments, other public 
agencies, nonprofit organizations, and private landowners.
    To date, the Conservancy has undertaken more than 950 projects 
along the 1,100 mile California coastline and around San Francisco Bay. 
Through such projects, the Conservancy protects and improves coastal 
wetlands, streams, and watersheds; works with local communities to 
revitalize urban waterfronts; assists local communities in solving 
complex land-use problems and protects agricultural lands and supports 
coastal agriculture to list a few of our activities.
    Since its establishment in 1976, the Coastal Conservancy has helped 
build more than 300 access ways and trails, thus opening more than 80 
miles of coastal and bay lands for public use; assisted in the 
completion of over 100 urban waterfront projects; joined in partnership 
endeavors with more than 100 local land trusts and other nonprofit 
groups, making local community involvement an integral part of the 
Coastal Conservancy's work and completed projects in every coastal 
county and all nine San Francisco Bay Area counties. In addition, we 
currently have over 300 active projects that are benefiting the 
citizens of California.
Fiscal Year 2007 Coastal and Estuarine Land Conservation Projects
    The Coastal and Estuarine Land Conservation program is the only 
federal program directly supporting public land acquisitions necessary 
to implement the State's federally-mandated Coastal Management program. 
California has coastal land acquisition needs for public recreation and 
habitat conservation much greater than available State and local funds, 
and the public strongly supports preservation of coastal resource 
lands. The CELCP is strongly supported by nonprofit conservation 
organizations and by the Coastal States Organization.
    In fiscal year 2007, we are seeking $1,500,000 for the acquisition 
of the Piedras Blancas property. The Piedras Blancas project will 
purchase 18 acres of coastal property in San Luis Obispo County. It is 
nestled within the Hearst Ranch, which covers 128 square miles and 
includes 18 miles of coastline. In early 2005, the State of California 
protected 82,000 acres of the Hearst Ranch through a conservation 
easement and fee title acquisition. This conservation endeavor 
transferred fee title of 13 miles of rugged, undeveloped coastline to 
California State Parks. The Piedras Blancas property is the last 
remaining privately held parcel west of Highway 1 within the 18-mile 
stretch of Hearst Ranch. This project will allow the California 
Department of Parks and Recreation to complete acquisition of this 
missing half mile of coast and will offer immediate safe public access 
to the coastal bluffs, trails, and beaches that exist on the property.
    We also respectfully request $1,000,000 in funding for the 
acquisition of land to complete the Santa Clara River Estuary Project. 
The project will protect disappearing riparian and wetland habitats 
through acquisitions of fee title and/or conservation easement in and 
around the river's estuary. This project complements a 5-year ongoing 
effort by the California State Coastal Conservancy (SCC) and The Nature 
Conservancy (TNC) to create the Santa Clara River Parkway by acquiring 
and protecting properties along the river. To date, the Coastal 
Conservancy and The Nature Conservancy have acquired 14 riverside 
properties totaling more than 2,300 acres. The project will also expand 
McGrath Beach State Park and the Santa Clara River Estuary Natural 
Preserve.
    The $1 million requested from the Coastal and Estuarine Land 
Conservation Program (CELCP) will be matched by the McGrath State Beach 
Trustee Council (Trustee Council), the SCC, and TNC. The Trustee 
Council will contribute up to $500,000 from a $1,315,000 State trust 
account resulting from mitigation of the 1993 Berry Petroleum Company 
oil spill in the vicinity of McGrath Lake. The trustees are the 
California Department of Fish and Game (CDFG), California Department of 
Parks and Recreation (State Parks), and U.S. Fish and Wildlife Service 
(USFWS). SCC will contribute at least $500,000 toward land protection 
in the project area. Needs in excess of the projected $2 million will 
be met by SCC and The Nature Conservancy.
    This project is part of a larger ecological conservation project 
that includes the entire Santa Clara River, its estuary, and beach and 
marsh habitat along the Ventura County coastline. A number of local, 
State, and federal agencies as well as non-profit organizations and 
local citizens' groups are cooperating to make this work successful.
    Finally, we respectfully request the inclusion of $3,000,000 in 
funding for the acquisition of the Jenner Headlands. Acquisition of the 
Jenner Headlands represents the most significant opportunity along the 
Sonoma Coast to protect an important area with unique and diverse 
conservation, recreation, ecological and aesthetic values. This 5,630-
acre property is threatened by conversion to rural residential 
development, placing its extraordinary resources in peril. This 
acquisition is a critical link in completing a 30-mile long 
conservation corridor from Bodega Head to Fort Ross.
    Much of the property is designated as Significant Natural Area by 
the California Department of Fish and Game (CDFG), and contains 
numerous and diverse habitat types, including riparian corridors 
suitable for Coho rearing. Jenner Gulch, Russian Gulch, Austin Creek 
and Sheephouse Creek, whose watersheds are within this property, are 
anadromous fish streams, the latter being one of three locations of 
CDFG's Coho salmon re-introduction program. Jenner Gulch is also the 
water source for the 170 residents of Jenner. The complex mosaic of 
habitats that exist in this site provides a vast, contiguous region for 
resident and nonresident fish and wildlife species. In addition to the 
abundant common animal species, identified species of special concern 
located on the property include northern spotted owl, red tree vole, 
bank swallow, steelhead, and Coho salmon.
    This property also offers exceptional new recreational 
opportunities as well as opportunities to improve existing access to 
the shore. As part of Sonoma Coast State Beach, California Department 
of Parks and Recreation (CDPR) owns the land adjacent to Jenner 
Headlands and west of Highway 1 from Russian Gulch almost to Jenner. 
Access to this narrow coastal terrace with bluffs surrounding unnamed 
coves is limited. Many of the trails are hazardous and the existing use 
is eroding the bluffs. The acquisition of Jenner Headlands will provide 
a safer and more scenic coastal trail route along the approximate 2.5 
miles between Russian Gulch and Jenner.
    The property owners are currently processing certificates of 
compliance, which, when approved, will allow them to fragment the 
property into 44 separate parcels without any further local subdivision 
approval requirements. The intense demand for home sites on the 
California coast practically guarantees that this property will be 
developed unless it is acquired for the benefit of the public.
                                 ______
                                 

  Prepared Statement of the Association of Small Business Development 
                                Centers

    The Association of Small Business Development Centers (ASBDC) urges 
the subcommittee on Commerce, Justice, Science and Related Agencies to 
provide an appropriation of $110 million for the Small Business 
Administration's Small Business Development Center (SBDC) grant program 
in the fiscal year 2007 appropriations bill. A fiscal year 2007 Federal 
funding level of $110 million for the nationwide SBDC network will 
restore Federal funding lost to most State and regional SBDC networks 
across the Nation as a result of inflation in recent years.
    A Federal funding level of $110 million for the nationwide SBDC 
network is the level of funding provided for in the bi-partisan Snowe-
Kerry-Vitter-Landrieu-Talent amendment that passed the Senate on 
September 15, 2005, by a vote of 96-0, during consideration of the 
fiscal year 2006 S-S-J-C appropriations bill. This is also the funding 
level provided for in the bi-partisan Snowe-Kerry-Vitter-Coleman-Nelson 
(of Florida)-Landrieu-Lieberman-Levin amendment to the fiscal year 2007 
Budget Resolution adopted by the Senate on March 16 of this year; and 
it is the funding level requested by every member of the Senate 
Committee on Small Business and Entrepreneurship in a letter to the 
chairman and ranking member of the C-J-S Appropriations subcommittee on 
April 7.
    The table below shows how much each State and regional SBDC network 
has lost in the value of its annual Federal SBDC funding in recent 
years as a result of inflation. Without an increase in Federal funding 
for the nationwide SBDC network, Federal SBDC funding for the average 
Statess SBDC network will be approximately $250,000 (19 percent) less 
in fiscal year 2007 than it was in the year of the last Federal funding 
increase, in inflation-adjusted dollars. For many State and regional 
SBDC networks, the loss of Federal funding due to inflation will be 
even more severe. For example, SBDC networks in small-population 
States, which have not had an increase in their Federal SBDC funding 
since 1998, will receive approximately 25 percent less Federal funding 
in fiscal year 2007 than in fiscal year 1998, after adjusting for 
inflation. And now the proposed SBA Budget calls for cutting Federal 
funding for the nationwide SBDC network even further--by $743,00 (from 
$87,863,000 in fiscal year 2006 to $87,120,000 in fiscal year 2007).
    The immediate result of declining real Federal funding for the 
Nation's SBDC network has been a decline in the number of hours that 
SBDC business counselors can spend with small businesses and aspiring 
entrepreneurs. Between 2003 and 2005 (the most recent year for which 
statistics are available), the number of hours that SBDC business 
counselors could spend with small businesses and aspiring entrepreneurs 
declined by 224,844 (from 1,566,243 in fiscal year 2003 to 1,341,399 in 
fiscal year 2005). The tragedy is that, as fewer small business owners 
and aspiring entrepreneurs have access to SBDC business counselors, and 
as SBDC business counselors spend less time with their small business 
clients, the impact of the SBDCs will be diminished. Fewer businesses 
will be created and saved, and fewer jobs will be created and saved.
    The nationwide SBDC network has a proven record of helping 
America's small businesses grow and create jobs. In 2004, for example, 
nationwide SBDC in-depth clients (those who received five or more hours 
of business counseling) created 74,253 new full time jobs; saved an 
additional 80,907 jobs; generated $6.1 billion in new sales; and saved 
an additional $5.8 billion in sales.
    In addition, the Federal SBDC appropriation of $88 million in 
fiscal year 2004 resulted in SBDC in-depth clients generating an 
estimated $233,674,930 in new Federal revenue as a result of increased 
economic activity--a return of $2.66 in new Federal tax revenues for 
every Federal dollar spent on the SBDC program. Simply put, Federal 
SBDC funding actually generates more revenues than it costs the 
taxpayer. And every dollar appropriated by the Federal government for 
the SBDC national program--to assist small businesses to survive, grow 
and create jobs--leverages at least one additional, non-Federal dollar 
in small business assistance. That is so because, to secure a Federal 
dollar, SBDCs must raise a non-Federal matching dollar.
    If we are to generate jobs for our Nation's young people coming out 
of colleges and universities and high schools, we must stimulate job 
growth. The cost per job created by SBDC in-depth counseling clients, 
including Federal dollars and non-Federal dollars, is $2,439 per job. 
Few federal jobs programs can approximate that cost-per-job created. 
Most State economic development agencies consider $10,000 per job to be 
a successful program.
    It makes no sense to cut funding for a program that teaches small 
business owners and aspiring entrepreneurs to become more competitive, 
effectively manage their small businesses, start new businesses, 
increase sales and create new jobs--especially when the SBDCs help 
generate more Federal revenue through economic growth than it costs the 
federal taxpayer to fund the SBDCs. As the United States Chamber of 
Commerce states, in its letter to the Appropriations Committee 
expressing the Chamber's support for an appropriation of $110 million 
for the SBDC grant program, ``It is vital to have a well-funded SBDC 
infrastructure in place to provide a cost-effective way to help these 
small business owners develop the skills they need to manage cash flow, 
restore markets, bolster revenue streams and increase sales--while 
creating new jobs and additional State and federal revenues.''
    Based on survey data analyzed by Professor James Chrisman of 
Mississippi State University, the ASBDC estimates that, with an 
appropriation of $110 million the nationwide SBDC network could help 
in-depth SBDC clients to:
  --Create 92,752 new jobs;
  --Save an additional 101,064 jobs;
  --Make $7.6 billion in new sales;
  --Save an additional $7.2 billion in sales;
  --Obtain $3.2 billion in financing to grow their businesses; and
  --Generate $291,891,163 in additional Federal revenues as a result of 
        economic growth.
    Again, a federal funding level of $110 million for the nationwide 
SBDC network in fiscal year 2007 will restore federal funding lost to 
most State and regional SBDC networks across the Nation as a result of 
inflation in recent years. The ASBDC urges the subcommittee to provide 
this much needed funding and help ensure that America's small 
businesses and aspiring entrepreneurs, and the SBDCs that serve them, 
have the resources they need.
    Below is a spreadsheet showing how much each State and regional 
SBDC network has lost in the value of its Federal SBDC funding in 
recent years as a result of inflation.

                                      HOW INFLATION HAS ERODED SBDC FUNDING
----------------------------------------------------------------------------------------------------------------
                                                                      Federal                       Percent of
                                                                      Funding         Federal         Federal
                                   Year of Last       Federal     Dollars During   Dollars Lost    Dollars Lost
                                   Federal SBDC   Funding During   Year of Last    to Inflation    to Inflation
             State                   Funding       Year of Last    Increase (in    (between Year   (between Year
                                     Increase        Increase       inflation-        of Last         of Last
                                                                     adjusted,     Increase and    Increase and
                                                                       2007)           2007)           2007)
----------------------------------------------------------------------------------------------------------------
Alabama........................  2001...........      $1,276,425      $1,488,822        $212,397              17
Alaska.........................  1998...........         500,000         626,150         126,150              25
America Samoa..................  2001...........         200,000         233,280          33,280              17
Arizona........................  2002...........       1,433,189       1,626,096         192,907              13
Arkansas.......................  2000...........         784,618         946,328         161,710              21
California.....................  2004...........       9,461,506      10,329,126         867,620               9
Colorado.......................  2002...........       1,201,512       1,363,236         161,724              13
Connecticut....................  2000...........       1,045,447       1,260,914         215,467              21
Delaware.......................  1998...........         500,000         626,150         126,150              25
District of Columbia...........  1998...........         500,000         626,150         126,150              25
Florida........................  2002...........       4,464,511       5,065,434         600,923              13
Georgia........................  2002...........       2,286,800       2,594,603         307,803              13
Guam...........................  1998...........         500,000         626,150         126,150              25
Hawaii.........................  1998...........         500,000         626,150         126,150              25
Idaho..........................  1998...........         500,000         626,150         126,150              25
Illinois.......................  2001...........       3,602,452       4,201,900         599,448              17
Indiana........................  2001...........       1,747,976       2,038,839         290,863              17
Iowa...........................  2000...........         903,302       1,089,473         186,171              21
Kansas.........................  2000...........         819,243         988,089         168,846              21
Kentucky.......................  2001...........       1,162,071       1,355,440         193,369              17
Louisiana......................  2001...........       1,331,402       1,552,947         221,545              17
Maine..........................  1998...........         500,000         626,150         126,150              25
Maryland.......................  2001...........       1,507,645       1,758,517         250,872              17
Massachusetts..................  2001...........       1,894,060       2,209,232         315,172              17
Michigan.......................  2001...........       2,930,782       3,418,464         487,682              17
Minnesota......................  2001...........       1,378,212       1,607,546         229,334              17
Mississippi....................  2000...........         847,168       1,021,769         174,601              21
Missouri.......................  2001...........       1,614,145       1,882,739         268,594              17
Montana........................  1998...........         500,000         626,150         126,150              25
Nebraska.......................  2000...........         567,629         684,617         116,988              21
Nevada.........................  1998...........         500,000         626,150         126,150              25
New Hampshire..................  1998...........         500,000         626,150         126,150              25
New Jersey.....................  2001...........       2,434,412       2,839,498         405,086              17
New Mexico.....................  2000...........         550,034         663,396         113,362              21
New York.......................  2001...........       5,668,984       6,612,303         943,319              17
North Carolina.................  2002...........       2,248,492       2,551,139         302,647              13
North Dakota...................  1999...........         500,000         616,300         116,300              23
Ohio...........................  2001...........       3,420,240       3,989,368         569,128              17
Oklahoma.......................  2000...........       1,006,907       1,214,431         207,524              21
Oregon.........................  2002...........         955,732       1,084,374         128,642              13
Pennsylvania...................  2001...........       3,746,336       4,369,726         623,390              17
Puerto Rico....................  2002...........       1,063,895       1,207,095         143,200              13
Rhode Island...................  1998...........         500,000         626,150         126,150              25
South Carolina.................  2002...........       1,120,714       1,271,562         150,848              13
South Dakota...................  1998...........         500,000         626,150         126,150              25
Tennessee......................  2002...........       1,589,242       1,803,154         213,912              13
Texas..........................  2001-02........       5,898,568       6,711,872         813,304              14
Utah...........................  2002...........         623,812         707,777          83,965              13
Vermont........................  1998...........         500,000         626,150         126,150              25
Virgin Islands.................  1998...........         500,000         626,150         126,150              25
Virginia.......................  2002...........       1,977,309       2,243,455         266,146              13
Washington.....................  2003...........       1,656,015       1,849,438         193,423              12
West Virginia..................  2000...........         628,228         757,706         129,478              21
Wisconsin......................  2001...........       1,541,574       1,798,092         256,518              17
Wyoming........................  1998...........         500,000         626,150         126,150              25
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 

        Prepared Statement of the American Physiological Society

    The American Physiological Society (APS) thanks the Subcommittee 
for its sustained financial support of scientific research at the 
National Science Foundation (NSF) and the National Aeronautics and 
Space Administration (NASA). Scientific research plays an important 
role in technological innovation and economic development and therefore 
is vitally important to the future of our Nation. The APS applauds the 
proposed budget increase for NSF, and recommends implementation of the 
plan to provide the agency with $6.02 billion in fiscal year 2007 and 
double its budget in the coming years. In contrast, while the proposed 
overall budget increase for NASA is 3.2 percent, the Human Systems 
Research and Technology (HSR&T) theme would be cut by 56 percent. The 
APS recommends the restoration of funds to basic life sciences and 
countermeasures research at NASA to ensure the safety of humans both on 
the International Space Station and in any future space endeavors.
    The APS is a professional society dedicated to fostering research 
and education as well as the dissemination of scientific knowledge 
concerning how the organs and systems of the body work. The Society was 
founded in 1887 and now has more than 11,000 members who do research 
and teach at public and private research institutions across the 
country, including colleges, universities, medical and veterinary 
schools.
    The APS recognizes both the enormous financial challenges facing 
our Nation and the significant opportunities for scientific progress. 
In this testimony, the APS offers its recommendations for fiscal year 
2007 funding for the NSF and NASA.

                                  NSF

    The basic science initiatives funded by the NSF are driven by the 
most fundamental principles of scientific inquiry. Although at times 
NSF-funded research may seem to be exploring questions that lack 
immediate practical application, we have learned again and again that 
the relevance of the knowledge gained becomes apparent over time. The 
NSF provides support for approximately 20 percent of federally funded 
basic science and is the major source of support for non-medical 
biology research, including integrative, comparative, and evolutionary 
biology, as well as interdisciplinary biological research. The majority 
of the funding NSF provides is awarded through competitive, merit-based 
peer review, which ensures that the best possible projects are 
supported. NSF has an excellent record of accomplishment in terms of 
funding research endeavors that have produced results with far-reaching 
potential.
    One example of innovative NSF-funded research that crosses 
scientific disciplines is the effort by scientists in the Department of 
Mathematics at Duke University to develop mathematical models of kidney 
function. The kidney rids the body of waste and regulates fluid volume 
and balance. By developing mathematically based computer models of 
kidney function at the cellular level, researchers hope to gain a 
better understanding of this complex organ and the causes of kidney 
disease.\1\ This type of cutting-edge, interdisciplinary research 
program is essential for the progress of science, which is becoming 
increasingly interdisciplinary as new technologies emerge.
---------------------------------------------------------------------------
    \1\ A.T. Layton, H.E. Layton, Am J Physiol Renal Physiol 289, 
F1346-66 (Dec, 2005).
---------------------------------------------------------------------------
    In another example of NSF-funded research, scientists studying 
land-dwelling wood frogs at Miami University in Ohio have made some 
important discoveries about how they survive harsh winter weather. 
According to their studies, the frogs alter the amount of sugar and 
other molecules in their bodies in response to cold temperatures, 
ultimately allowing them to freeze solid in the winter and then thaw 
again in spring.\2\ Because frogs share many biological similarities 
with humans and other mammals, the researchers hope that studying the 
precise series of physiological events in the frog will allow them to 
achieve better and longer-term preservation of human organs for 
transplantation. If human organs could be stored for longer periods, 
more organs might be available for transplantation and better 
immunological matches could be achieved. This has the potential to 
result in longer and healthier lives for transplant patients. In 
addition, because the frogs undergo cardiac arrest when they freeze, a 
better understanding of their natural cold tolerance may also shed 
light on medical problems in humans resulting from hypothermia and 
oxygen deprivation.\3\
---------------------------------------------------------------------------
    \2\ J.P. Costanzo, R.E. Lee, Jr., J Exp Biol 208, 4079-89 (Nov, 
2005).
    \3\ J. P. Costanzo, R.E. Lee, Jr., A.L. DeVries, T. Wang, J.R. 
Layne, Jr., Faseb J 9, 351-8 (Mar, 1995).
---------------------------------------------------------------------------
    In addition to such innovative research, NSF also supports 
outstanding science and math education programs, which was one of the 
themes in the President's State of the Union address. NSF programs 
enhance education at every level from elementary school through 
graduate school and therefore should have merited funding increases for 
fiscal year 2007. Nevertheless, education programs at the NSF have 
suffered from recent budget cuts, and fiscal year 2007 budget proposal 
similarly fails to give them the priority they deserve. The President's 
budget recommends shifting funding for some NSF educational programs to 
the Department of Education. We believe that the NSF is uniquely 
qualified to foster excellence in science and math education and urge 
that funding for these programs remain at the NSF.
    The APS urges Congress to support the important work being carried 
out at NSF by funding the agency at its requested level of $6.02 
billion. In addition, the APS recommends restoration of funding for 
education programs at NSF.

                                  NASA

    The Human Systems Research and Technology (HSR&T) Theme within NASA 
was created to focus on the health and safety of humans involved in 
space exploration. During prolonged space flight, the physiological 
changes that occur due to microgravity, increased exposure to 
radiation, confined living quarters, and alterations in eating and 
sleeping patterns can lead to health problems and reduced ability to 
perform tasks. Given NASA's current focus on manned space exploration, 
it is critical that resources be devoted now to research into the 
health effects of prolonged space flight. NASA is the only agency whose 
mission includes addressing the biomedical challenges of manned space 
exploration. Moreover, this research has already produced findings with 
potential application to medical problems that occur in other 
connections. A few examples of outstanding NASA funded science are 
described below.
    A common problem associated with prolonged exposure to reduced 
gravity is muscle atrophy, including in the muscles of the legs. In an 
environment with normal gravity, muscle mass is maintained because 
walking provides both exercise and nerve stimulation in the leg 
muscles. The kind of muscle atrophy observed in humans following 
spaceflight can be simulated in laboratory rats, which has permitted 
researchers opportunities to study ways to counteract its negative 
effects. Last year several NASA-funded researchers published a study 
using showing that by artificially stimulating the bottom of the foot 
using an inflatable boot they could markedly reduce the atrophy that 
would otherwise occur in the leg muscles.\4\ If these results can be 
confirmed in humans, this type of countermeasure may be useful not only 
in conditions of reduced gravity, but also in patients who are bed-
ridden for prolonged periods.
---------------------------------------------------------------------------
    \4\ A. Kyparos, D.L. Feeback, C.S. Layne, D.A. Martinez, M.S. 
Clarke, J Appl Physiol 99, 739-46 (Aug, 2005).
---------------------------------------------------------------------------
    Muscles that have atrophied also show resistance to insulin, a 
molecule that affects how sugar is absorbed by the body's tissues. 
NASA-funded researchers at the University of North Carolina, Chapel 
Hill, used the same kind of animal model to study insulin resistance in 
conditions that simulate microgravity. They were able to identify 
events that occur at the molecular level that lead to insulin 
resistance, as well as ways the body compensates to allow the muscles 
to utilize sugar in a way that does not require insulin.\5\ These 
studies may have significant implications for keeping astronauts 
healthy during and after spaceflight. At the same time, they may 
contribute to our understanding of biological pathways that are 
important in diabetes, which is a growing health problem in the United 
States.
---------------------------------------------------------------------------
    \5\ T.L. Hilder et al., J Appl Physiol 99, 2181-8 (Dec, 2005).
---------------------------------------------------------------------------
    The APS is concerned about the proposed 56 percent decrease in the 
allocation for fiscal year 2007, which is inconsistent with NASA's 
increased focus on manned space exploration. The APS joins the 
Federation of American Societies for Experimental Biology (FASEB) in 
urging both a restoration of the cut and an increase in support for 
peer-reviewed research into the health risks of long-term space flight 
and development of appropriate countermeasures.
    Investment in the basic sciences is critical to our Nation's 
technological and economic future. The APS strongly supports federal 
funding for biological and biomedical research at the NSF and NASA, as 
it does for funding at the National Institutes of Health, another 
agency whose budget is in need of congressional attention to counter 
the real decline in its ability to fund medical research. The APS urges 
you to make every effort to provide these agencies with increased 
funding for fiscal year 2007.
                                 ______
                                 

       Prepared Statement of ASME Aerospace Division's Task Force

            INTRODUCTION TO ASME AND THE AEROSPACE DIVISION

    ASME is a nonprofit, worldwide engineering society serving a 
membership of 120,000. It conducts one of the world's largest technical 
publishing operations, holds more than 30 technical conferences and 200 
professional development courses each year, and sets many industrial 
and manufacturing standards. The work of the society is performed by 
its member-elected board of governors through five councils, 44 boards, 
and hundreds of committees operating in 13 regions throughout the 
world.
    The ASME Aerospace Division has approximately 15,000 members from 
industry, academia and government. ASME members are involved in all 
aspects of aeronautical and aerospace engineering at all levels of 
responsibility. They have a long-standing interest and expertise in the 
Nation's federally funded aerospace research and development activities 
at the National Aeronautics and Space Administration (NASA) and NASA's 
efforts to create a pipeline of young engineers interested in aerospace 
and aeronautics. In this statement, the ASME Aerospace Division's Task 
Force (herein referred to as ``the Task Force'') will address programs 
that are critical to the long-term health of the Nation's aerospace 
enterprise and its global economic competitiveness.
           overview of nasa's fiscal year 2007 budget request
    The Task Force applauds the administration for its firm commitment 
to space exploration. Space exploration is one of the United States' 
greatest achievements and maintaining this mission is critical to U.S. 
leadership in space. However, at a time when America faces 
unprecedented challenges to its economic leadership, NASA must continue 
to play a lead role in funding engineering-related research, 
particularly for aeronautics programs.
    While we are pleased with the administration's support for the 
space program and NASA's efforts to revitalize its mission, we remain 
concerned about proposed reductions in funding for the aeronautics 
research and technology (R&T) programs contained within NASA's 
Aeronautics Research Mission Directorate. This is the portion of the 
NASA budget that has an immediate and practical benefit to the Nation, 
and yet the administration proposes to reduce those programs by $160 
million to $724 million in fiscal year 2007, reducing the budget by 
almost half over the past decade.
    Strong investment in fundamental engineering research in 
aeronautics will ensure that the United States will retain its long-
term leadership in this field. Therefore, the Task Force recommends 
that the aeronautics portion of the NASA budget be increased to $2 
billion over the next 8 years, with a long-term target of attaining a 
level of 10 percent of the total NASA budget. Achieving this target 
would re-establish aeronautics funding, as a percentage of the NASA 
budget, at its pre-1990 level and put U.S. R&D funding at levels 
commensurate with its competitors abroad.

                  AERONAUTICS RESEARCH AND TECHNOLOGY

    Several interrelated critical challenges confront the U.S. 
aeronautics enterprise--a sharp decrease in the number of new 
commercial and military aircraft programs, a decline in the quality of 
the research infrastructure, and erosion in the technologically 
literate workforce needed to ensure pre-eminence in an increasingly 
competitive marketplace. Low investment by NASA in aeronautics research 
contributes to all these problems.
    Infrastructure.--There is a need to refocus on the infrastructure 
required to develop a new generation of advanced flight vehicles. In an 
era of budget cuts and fewer defense contracts, the Nation has embarked 
on a path where key wind tunnel and other ground test facilities are 
being retired. Our Task Force recommends a team of experts from 
industry, government and academia be chartered to identify the 
infrastructure requirements for a robust national aeronautical R&D 
program aimed at developing a new generation of advanced aeronautical 
vehicles. R&D adequate to sustain or build this infrastructure should 
be identified. The Nation should guard against a loss of technical 
expertise in the critical field of wind tunnel testing, a very real 
possibility in the current climate of attrition.
    Workforce.--Aeronautics faces the same pressures being felt by the 
space industries: fewer research dollars over time has resulted in 
fewer companies with skilled workers capable of designing and building 
complex aeronautical systems. An investment in aeronautics is a matter 
of strategic importance, as it creates highly skilled manufacturing 
jobs and helps create a foundation for a strong national defense.
    Aerospace companies have an aging workforce, with an estimated 26-
27 percent reaching retirement age by 2008. Aerospace suffers from a 
lack of available young workers with advanced technology degrees who 
can step in to replace retiring, experienced workers. The aerospace 
industry looks to NASA to create a demand for long-term R&D to 
encourage students to go to graduate school and on to companies who are 
doing aeronautical research. There is a clear correlation between 
research dollars and the number of graduate students in a particular 
field--the students follow the money. Therefore, as the funding for 
aeronautics has decreased by more than half over the last decade, so 
have the number of graduate student decreased.
    Aeronautical Technologies Critical to U.S. Leadership.--Contrary to 
perception, aeronautics is not a mature industry. Exciting new 
opportunities exist for major advances in many areas of aeronautical 
technology, including automated flight vehicles, ``fail-safe'' 
avionics, new platforms/configurations, efficient propulsion, ``quiet'' 
aircraft, enhanced safety, and ``zero'' emissions aircraft. The Task 
Force identified numerous technologies that are critical to the long-
term health of the Nation's civil and military aviation and aeronautics 
technology enterprise including:
  --Quieter, more environmentally friendly aircraft engines are not 
        only possible, but highly desirable over the near- and longer-
        term. More distant, but intriguing, are the possibilities for 
        engines using alternative fuels, including hydrogen. A vigorous 
        pursuit of these technologies is likely to pay rich dividends 
        to the United States air transportation system, the national 
        economy, and in our efforts to reduce the use of fossil fuels.
  --Flight demonstrations (jointly funded by DOD and NASA) should be 
        sustained at an annual budget level sufficient to determine the 
        integrated performance of promising and dramatic new emerging 
        technology opportunities.
  --Research into avionics systems and their applications should be 
        aggressively pursued because their use is pervasive and is 
        often critical to the success of advanced aircraft 
        developments.
  --Research and development into Uninhabited Air Vehicles (UAVs) 
        should be given sustained support addressing issues of 
        reliability, maintainability and cost, so that the full 
        potential of these promising aircraft can be realized.
  --Research on new and more effective prediction methodologies are 
        sorely needed to meet the challenge of addressing the increased 
        complexity of design decisions. Computational Fluid Dynamics 
        (CFD) methods, for example, have evolved to the point of 
        achieving good correlation with test results, but are so 
        computer-time intensive as to be currently impractical for the 
        multiplicity of calculations needed for design of optimum 
        configurations.
  --Methodologies that facilitate the development of cost-effective, 
        extraordinarily reliable software and systems for safety 
        critical operations should receive the strongest possible 
        support.
  --Materials development and design to transition high trust 
        propulsion technology to aerospace systems to boost trust-to-
        weight ratio of propulsion systems. This will require 
        development of hybrid materials systems, durable coatings, and 
        microvascular active thermal management.
  --Composite-Structures research is a critical enabling technology for 
        advanced aeronautical development, and should be vigorously 
        supported. New advances in manufacturing techniques for large-
        scale composite structures are required to promote the 
        development of a new generation of aeronautical vehicles. 
        Nanotechnology research is also needed to develop high strength 
        and environmentally durable materials that perform well in 
        hostile atmospheric and space environments.
  --Significant new aerodynamics research is required in support of 
        innovative and promising applications ranging from micro UAVs, 
        to Vertical Takeoff and Landing (VTOL) regional transports to 
        Single Stage to Orbit (SSTO) launch vehicles and hypersonic 
        missiles.
  --Essential simulation, ground, and flight-testing capabilities must 
        be preserved and new, more productive capabilities should be 
        developed--including physical infrastructure and personnel--so 
        that new generations of advanced aircraft can be designed 
        safely to be competitive in the world market.
  --There is a continuing need for R&D into flight mechanics and 
        control for new, innovative configurations including un-piloted 
        aircraft. Research to minimize if not entirely eliminate the 
        impact of pilot and operator errors on flight safety should be 
        a primary focus.
    We urge you to read our more detailed report on ``Persistent and 
Critical Issues in the Nation's Aviation and Aeronautics Enterprise,'' 
prioritizing technologies critical to the long-term health of the 
Nation's civil and military aviation and aeronautics technology 
enterprise which is located on our website at http://www.asme.org/gric/
ps/2003/ASMEPolicyPaper.pdf.

                               CONCLUSION

    In conclusion, we applaud the proposed fiscal year 2007 NASA budget 
for its efforts to revitalize U.S. space exploration. There is a strong 
rationale, however, for Congress to consider real increases in the NASA 
Aeronautics budget. The President has challenged us to make the 
investments in the physical sciences necessary to maintain our high 
standard of living and unprecedented economic prowess. Aeronautics is a 
vital industry that produces tangible economic and security benefits 
for the Nation. As other nations seek to expand their efforts in 
aeronautics and space exploration, Congress should also consider funds 
for NASA R&D measures that will help the U.S. economy remain 
competitive and innovative.
                                 ______
                                 

    Prepared Statement of the National Aquarium, Baltimore, Maryland

    Mr. Chairman, and members of the subcommittee, thank you for the 
opportunity to submit testimony in support of federal appropriations 
for the National Oceanic and Atmospheric Administration (NOAA).
    As a stakeholder and partner of NOAA, the National Aquarium in 
Baltimore strongly encourages you to provide the agency with an 
appropriation of $4.5 billion in fiscal year 2007. NOAA's protection of 
our oceans and coastal communities is crucial to the U.S. economy. 
Coastal communities, our national fisheries, and the services provided 
by shorelines and wetlands depend on the science and management offered 
by NOAA.
    Funding from NOAA supports many of the conservation and education 
activities conducted by the National Aquarium in Baltimore, its 
affiliates, and other nonprofit and educational organizations on the 
Chesapeake Bay. In partnership with NOAA, the National Aquarium in 
Baltimore has helped citizens and communities restore tidal wetlands on 
Chesapeake Bay's Barren Island, Blackwater National Wildlife Refuge, 
Eastern Neck National Wildlife Refuge, and Fort McHenry in Baltimore. 
This partnership leverages support from other Federal and State 
agencies and private foundations, enabling community-based restoration 
activities that publicly demonstrate habitat enhancement and beneficial 
use of dredged material for restoring tidal wetlands. NOAA investments 
have leveraged more than $1.6 million over the past 5 years for 
restoration of Chesapeake Bay tidal wetlands.
    NOAA helps support the conservation of marine life through the 
Aquarium's Marine Animal Rescue Program (MARP), which rescues and 
rehabilitates seals, sea turtles, dolphins and porpoises, and even the 
occasional whale, that become stranded on Atlantic Coast shorelines. 
Many animals are released back into the wild after rehabilitation. 
Those that cannot be released are cared for, studied, and placed in 
educational facilities throughout the United States. MARP could not 
conduct rescue and rehabilitation without help from NOAA's Prescott 
Marine Mammal Assistance Grants. NOAA-funded conservation education 
messages presented by MARP reach tens of thousands of visitors to Ocean 
City, Baltimore, and the surrounding region. NOAA investments have 
leveraged more than $500,000 for MARP activities over the past 5 years.
    The Bay Wide Education and Training (BWET) grants from NOAA support 
the National Aquarium in Baltimore's school-based Wetland Nursery 
Program for middle and high school students in Maryland and Washington, 
DC. This program builds demonstration wetland plant nurseries at urban 
schools. Students grow wetland grasses and monitor water quality, 
growth, and other scientific parameters. A new component of the program 
integrates native fish aquaculture into the wetland nursery system. At 
the end of the growing season, students plant grasses and release fish 
in restored tidal wetlands on Chesapeake Bay. Additional teacher 
training programs enable local educators to utilize curricular 
materials on the Chesapeake Bay watershed in their classrooms 
throughout the school year. NOAA investments have leveraged more than 
$300,000 for these and other environmental education programs at the 
Aquarium over the past 5 years.
    NOAA is also significantly supporting the restoration of the 
historic National Aquarium in Washington, DC, which is located in the 
basement of the Commerce Building. The DC aquarium is an affiliate of 
the National Aquarium in Baltimore. The two aquariums share resources, 
providing top quality animal care, exhibit expertise, and materials. 
Recent funding from NOAA has allowed the DC aquarium to upgrade water 
quality and life support systems; improve worker safety and visitor 
access; and refurbish exhibits. A NOAA-supported educational assessment 
is under way and will help enhance conservation education activities 
for schoolchildren in Washington, DC and the surrounding region. 
Visitors to the DC aquarium come from around the world and learn about 
our National Marine Sanctuaries through educational displays and the 
new exhibits. In just 2 years, NOAA investments have leveraged more 
than $100,000 in in-kind support for the National Aquarium in 
Washington, DC.
    The National Aquariums in Baltimore and Washington, DC are 
appreciative of NOAA support over past years. We encourage the 
subcommittee to continue significant funding for NOAA in future years, 
as we work together to protect our oceans, shorelines, fisheries, 
coastal communities and their economies.
                                 ______
                                 

 Prepared Statement of the United States Tennis Association Tennis and 
                          Education Foundation

    Mr. Chairman and members of the subcommittee, on behalf of the 
Foundation of the United States Tennis Association (USTA), we extend 
our sincere appreciation to the committee for the past consideration 
and support extended to our national youth development initiative, 
``Aces for Kids''--community based, nonprofit after-school and out-of-
school programs that encourage healthy lifestyles, tennis, and life 
skills in a safe, nurturing environment for at-risk children between 
the ages of 5-18, particularly those in lower income communities. The 
specific problems addressed by this grant are: school truancy and 
performance, gang activity, underage drinking and drug abuse. A U.S. 
Department of Justice report, Juvenile Justice Bulletin, concluded that 
after-school recreation programs are a promising approach to preventing 
delinquency and crime.
    ``America's Promise'' and the ``No Child Left Behind'' Act state 
that nearly 8 in 10 middle/high school youth who participate in 
supportive after-school programs are high achieving students. Children 
who regularly attend high-quality after-school programs have:
  --Better grades and conduct in school,
  --More academic and personal growth opportunities,
  --Better peer relations and emotional adjustment,
  --A stronger sense of responsibility to themselves and the community, 
        and
  --Lower incidences of drug-use, violence and teen pregnancy.
    Research cites that the problems to be addressed by ``Aces for 
Kids'' are consistent across the country. Specifically that: (1) the 
majority of children have both parents or their only parent/caregiver 
in the workforce; (2) the majority of children under the age of 16 are 
left alone at home each week; (3) many children, especially those from 
low-income households, lose ground in reading skills if they are not 
engaged in organized learning over the summer months; (4) school-age 
children who are unsupervised during out-of-school hours are more 
likely to receive poor grades and drop out of school than those who are 
involved in supervised, constructive activities; and, (5) most juvenile 
crime takes place between the hours of 2 p.m. and 8 p.m., and that 
children are also at much greater risk of being the victims of crime 
during these hours.
    The USTA/USTA Tennis & Education Foundation recognized the 
importance of ``Aces for Kids'' prior to receiving government support 
and began funding programs that followed the ``Aces'' model in 2004. 
These organizations include: Arthur Ashe Youth Tennis & Education, 
Community Education & Tennis Association, and National Kidney 
Foundation-Delaware Valley, all located in Philadelphia, Pennsylvania; 
Abundant Waters, City Parks Foundation, New York Junior Tennis League, 
and Harlem Junior Tennis Program, all located in New York City; Boys & 
Girls Clubs of San Francisco, San Francisco, California; East Palo Alto 
Tennis & Tutoring, Stanford, California; Youth Tennis Advantage, 
Oakland, California; Net Results Junior Tennis, Denver, Colorado; 
Recreation Wish List Committee and Joy of Sports, both in Washington, 
DC; Love to Serve and Tennis Opportunity Program, both in Chicago; 
Baltimore Tennis Patrons, Baltimore, Maryland; Tenacity, Inc., Boston, 
Massachusetts; Fort Snelling Tennis & Education and Inner City Tennis, 
both in Minneapolis, Minnesota; First Serve-New Mexico, Santa Fe, New 
Mexico; NJTL of Charleston, Charlestown, South Carolina; Coldstream 
Junior Tennis Academy, Columbia, South Carolina; Public Tennis, Inc., 
Hilton Head, South Carolina; Wilson Tennis Foundation-NJTL, Wilson, 
South Carolina; and several dozen other programs across the country.
    In October, 2005 (due date of January 13, 2006), the USTA/USTA 
Tennis & Education Foundation issued a first-round of requests for 
proposals. In Round I of ``Aces for Kids,'' 10 programs were selected 
in a competitive application and review process based upon criteria 
that rely on meeting the physical, social and emotional needs of 
children:

------------------------------------------------------------------------
                                                                Funded
   Aces for Kids program/location       Purpose of grant        amount
------------------------------------------------------------------------
Apple Ridge Farm, Roanoke, Virginia  To sponsor 50               $15,000
                                      underserved students
                                      from low income
                                      families who are
                                      living in government
                                      housing at their 9-
                                      week Summer Academic
                                      Camp.
MACH Academy, Aiken, South Carolina  To increase outreach        $15,000
 and Martinez, Georgia.               efforts to provide
                                      academic, nutrition,
                                      technology, and
                                      tennis/fitness
                                      activities 2 days per
                                      week after school, 4
                                      hours per day, and 5
                                      days per week--4
                                      hours per day during
                                      a 2 week summer camp
                                      session and target
                                      children ages 5-18
                                      from families that
                                      have limited parental
                                      involvement and are
                                      of a transient nature.
Middlesex County Grandparents        For ``Success Pathways      $25,000
 Raising Grandchildren Coalition,     Summer Camp-Tennis
 Rahway, New Jersey.                  Program'' which is
                                      designed to assist
                                      disabled and
                                      extremely low to low-
                                      income working
                                      grandparents and
                                      kinship caregivers in
                                      resolving their
                                      dilemma of finding
                                      affordable and
                                      nurturing summer
                                      child care.
National Junior Tennis League of     For the start-up of         $25,000
 Trenton, Pennington, New Jersey.     the ``Mobile
                                      Information
                                      Technology
                                      Educational Support
                                      Program,'' which will
                                      enhance and expand
                                      the academic, tennis,
                                      and nutritional
                                      education components
                                      by adding a traveling
                                      computer literacy
                                      program that will
                                      reach 1,000 children
                                      by Summer, 2006.
Prince George's Tennis & Education   To continue the work        $25,000
 Foundation, Upper Marlboro,          and achievements of
 Maryland.                            its five core
                                      programs which target
                                      approximately 400+ at-
                                      risk youth: Junior
                                      Outreach, College
                                      Preparation &
                                      Personal Development,
                                      Out of School, and
                                      Tennis Camp.
Rodney Street Tennis Association,    To implement two Aces       $13,750
 Wilmington, Delaware.                for Kids components:
                                      nutrition and
                                      citizenship. A part-
                                      time nutritionist
                                      will be hired to
                                      improve the nutrition
                                      of at-risk minority
                                      youth during a 10-
                                      week summer tennis
                                      program. The
                                      citizenship component
                                      will support student
                                      trips to their
                                      representatives at
                                      the city, Sate and
                                      Federal Government
                                      levels.
Southern Alabama Tennis              To improve the lives        $11,400
 Association, Mobile, Alabama.        of the youth in
                                      Mobile and Baldwin
                                      Counties. Tutoring is
                                      already done on a
                                      small scale with many
                                      staff members
                                      volunteering, and
                                      this grant will allow
                                      the program to reach
                                      25 children, 2 days
                                      per week.
Sportsmen's Tennis Club,             General support for         $25,000
 Dorchester, Massachusetts.           their programs which
                                      serve approximately
                                      300 disadvantaged
                                      children from low-
                                      income, working
                                      families.
Washington Tennis & Education        For their Arthur Ashe       $25,000
 Foundation, Washington, DC.          Children's Program
                                      and WTEF Academy.
                                      Combined the programs
                                      serve over 500
                                      students, ages 8-18,
                                      with tennis, academic
                                      and life-skills
                                      instruction. The
                                      programs are
                                      intensive, operating
                                      2-to-3 hours a day, 4
                                      days each week,
                                      nearly year-round for
                                      a total of
                                      approximately 6,500
                                      hours of programming
                                      each year.
Youth & Tennis, Inc., Jamaica, New   To help them increase       $25,000
 York.                                the number of
                                      students in the
                                      program by 10 percent
                                      in addition to
                                      expanding their
                                      academic and social
                                      support services.
                                      They currently serve
                                      1,000 children.
------------------------------------------------------------------------

    The USTA/USTA Tennis & Education Foundation is grateful for your 
support and is confident that our ``Aces for Kids'' model is a positive 
step in preventing crime and delinquency and encouraging healthy 
lifestyles and academic achievement for underserved children. In fiscal 
year 2007, we hope the subcommittee will support our request for $1.5 
million in funding, so that we can continue to be successful in our 
efforts.
                                 ______
                                 

 Prepared Statement of the National Association of State Universities 
                   and Land-Grant Colleges (NASULGC)

    On behalf of the National Association of State Universities and 
Land-Grant Colleges (NASULGC), thank you for the opportunity to provide 
recommendations for the fiscal year 2007 budgets for the National 
Oceanic and Atmospheric Administration (NOAA), the National Aeronautic 
and Space Administration (NASA) and the National Science Foundation 
(NSF). We thank you for the support you have continually demonstrated 
for these agencies over the past several years, and know that the 
Senate recognizes the unique roles that NOAA, NASA and NSF each play in 
a number of high-priority U.S. and international initiatives. All three 
agencies also support research at our member institutions that provides 
critical information to policymakers and communities across the 
country. That is why we strongly recommend $4.5 billion for NOAA; 
restoration of the President's proposed cuts to NASA's Earth Science 
R&A Account; and the President's budget request for NSF.
NOAA
    In order to maintain our country's homeland security, scientific 
leadership, and economic competitive edge we must have a diverse 
portfolio of federally supported science research and programs. 
Consequently, we are concerned about the significant cuts made to NOAA 
in fiscal year 2006. The science-based work of NOAA protects and 
impacts every American citizen, everyday. NOAA is the third largest 
source of funds for academic marine research in the Federal Government.
    In 2004, the U.S. Commission on Ocean Policy (USCOP) report ``An 
Ocean Blueprint'' recommended an integrated national ocean policy be 
developed, incorporating ecosystem-based management and end-to-end 
watershed monitoring. USCOP also recommended doubling the federal ocean 
research budget and a significant enhancement and expansion of NOAA's 
coastal, oceanic and atmospheric real-time observing network that will 
lead to better forecasts of weather events, climate conditions and 
impending natural hazards. Yet, even following a year with the most 
devastating ocean and climate-based natural disaster in recent memory, 
Hurricane Katrina, and in which the importance of science to American's 
competitiveness was noted in a number of reports such as the National 
Academies' ``Rising Above the Gathering Storm,'' NOAA is still 
significantly under-funded. As a member of the Friends of NOAA 
Coalition, NASULGC strongly recommends $4.5 billion for NOAA in fiscal 
year 2007.
    We thank the Senate for appropriating this same amount last year, 
and believe it is a reasonable recommendation when one considers that 
the coastal watershed counties contribute $4.5 trillion to the U.S. 
economy--half of the Nation's Gross Domestic Product--and over 60 
million jobs. For that relatively small amount, each American receives 
weather forecasting, hurricane tracking, tornado warnings, tsunami 
warnings, navigational information, land and building boundary 
specifications, fisheries management, hazard mitigation, scientific 
research, and local community assistance. On behalf of all of us, NOAA 
oversees the Nation's environmental observing networks and satellites, 
and provides science-based management of many valuable marine 
resources. The bottom line is that NOAA affects and provides important 
services to all Americans, so it is time for Congress to demonstrate 
its commitment to the NOAA programs that are vital to our economy and 
to the health and well being.
    As members of the oceanic and atmospheric academic community we 
further recommend that a portion of the additional funding, that $4.5 
billion would provide, be used to support the following programs and 
activities:
  --$471 million for Oceanic and Atmospheric Research (OAR), a $100 
        million increase over fiscal year 2006 enacted levels, and the 
        same amount approved by the Senate in fiscal year 2006. The 
        basic research conducted through the OAR line office and its 
        partnerships with universities helps us understand climate 
        variability, provide better protection for coastal resources, 
        contributes to our Nation's commerce, and supports our 
        transportation systems. OAR supports such important programs as 
        the National Sea Grant College Program, Ocean Exploration, the 
        National Undersea Research Program, the U.S. Weather Research 
        Program, and Climate Operations. Despite this, the President's 
        budget request for OAR represents a $65.8 million decrease 
        since fiscal year 2005. Within the OAR line office, NASULGC 
        specifically recommends:
  --$72 million for the National Sea Grant College Program, $17.3 
        million increase over fiscal year 2006 enacted levels, and the 
        same amount approved by the Senate in fiscal year 2006. Last 
        year, Sea Grant was surprisingly cut by $7.1 million, or 11 
        percent, from fiscal year 2005 enacted levels. The fiscal year 
        2006 enacted level of $54.7 million was also significantly 
        below the President's request, the House passed level, and the 
        Senate passed level for the same year. While our fiscal year 
        2007 request represents a modest increase, it restores the 
        significant reductions taken in fiscal year 2006 and is still 
        $28 million below the authorization for the Sea Grant program. 
        Sea Grant is the flagship program between NOAA and the academic 
        community that supports the work of 31 colleges located in 
        coastal and Great Lakes States and serves as the core of a 
        national network of more than 300 participating institutions 
        involving more than 3,000 scientists, engineers, educators, 
        students, and outreach experts.
  --$29.5 million in fiscal year 2007 for the extramural portions of 
        both the NOS Ocean and Coastal Research program and the Oceans 
        and Human Health Initiative (OHHI). Within the National Ocean 
        Service (NOS), NASULGC supports restoration of last year's 
        drastic cuts in competitive extramural research, bringing 
        funding back to the more sustainable and effective level 
        provided in fiscal year 2005. In addition, we support the 
        appropriation of sufficient funds for full NOAA participation 
        in collaborative NOS science programs, particularly OHHI. NOS 
        support for extramural research conducted in cooperation with 
        NOAA scientists is leading to improved knowledge and forecasts 
        to address complex problems such as harmful algal blooms, 
        hypoxia, coastal stressors and ecosystem-based management of 
        fisheries. We ask that a minimum of $20.5 million be provided 
        in fiscal year 2007 to provide support for academic 
        participation in such efforts. In addition, OHHI offers real 
        promise for understanding the role of the oceans in human 
        health. The initiative was funded at $18 million in fiscal year 
        2005 of which $9 million was made available to academic 
        partners, and we ask that this support be restored.
    As recipients of many of NOAA's extramural research grants, we 
would also appreciate bill language that asks NOAA to provide greater 
transparency in their budget justification of available funding for 
extramural research purposes. Extramural research is available 
throughout various programs within OAR and NOS, but the current system 
makes it difficult to track where the money is going.
NASA
    Another area of great concern is the future prospect for Earth 
science activities at NASA, which now falls under the agency's Science 
Mission Directorate. We feel that Earth science activities are being 
cut because of space exploration missions. While we appreciate the 
President's ambitious space exploration agenda, we agree with Science 
Committee Chairman Boehlert's statement that ``There simply is no 
planet more important to human beings than our own, and we're 
remarkably ignorant about it. NASA's Earth science mission is 
essential.'' NASA's traditional robust research and development funding 
has been very important for our member universities and NASULGC 
supports a balance between NASA's science and the human space programs 
at NASA.
    NASA's investments in the Earth sciences fund university research 
that has resulted in valuable advances in weather forecasting, improved 
climate projections, and understanding of Earth ecosystems. Without the 
tools provided by NASA, oceanographers and the Nation would have a much 
less complete picture of the planet's oceans and coasts.
    There are suggestions that NASA's Earth Science R&A funding will be 
cut by almost 20 percent this year, and estimated to cut $350-$400 
million over the next 5 years. The Research and Analysis program at 
NASA is the primary mechanism for funding to the academic community. 
Through its support for young scientists and graduate students, the R&A 
program supports innovation in Earth science and technology using 
NASA's satellite missions. New sensor concepts, new data processing 
algorithms, and new approaches to global-scale Earth science are the 
legacy of the research funded by the R&A program. It is essential that 
NASA maintain a balance between R&A funding and its space missions in 
order to derive maximum benefit from today's missions as well as to 
support the innovation needed to drive the missions of tomorrow. 
NASULGC is opposed to proposed cuts to the NASA Earth Science R&A 
Program.
NSF
    The Nation's state universities and land-grant colleges that we 
represent welcome, and are excited by, the renewed national focus on 
scientific research and education as illustrated in the President's 
proposed American Competitiveness Initiative (ACI). We are extremely 
pleased with his proposal to double funding in the physical sciences at 
NSF over the next 10 years. NASULGC supports the President's NSF fiscal 
year 2007 budget request of $6 billion, and specifically his proposed 
increases in the Geoscience Directorate.
    Thank you for taking time to review our recommendations. We look 
forward to continue working with you towards promoting and sustaining 
the important NOAA, NASA, and NSF programs that enable the United 
States to maintain a leadership position in marine and climate science.
About NASULGC
    NASULGC is the Nation's oldest higher education association. 
Currently the association has over 200 member institutions--including 
the historically black land-grant institutions--located in all 50 
States. The association's overriding mission is to support high quality 
public education through efforts that enhance the capacity of member 
institutions to perform their traditional teaching, research, and 
public service roles.
About the Board on Oceans and Atmosphere
    The Board on Oceans and Atmosphere's primary responsibility is to 
develop a federal relations program to advance research and education 
in the marine and atmospheric sciences. The board currently has 
approximately 200 regionally distributed members, including some of the 
Nation's most eminent research scientists, chief executive officers of 
universities, marine and atmospheric scientists, academic deans, and 
directors of Sea Grant programs.
                                 ______
                                 

             Prepared Statement of the Surfrider Foundation

    On behalf of the Surfrider Foundation, I appreciate the opportunity 
to present this testimony in support of an appropriation of $3 million 
from NOAA's Coastal and Estuarine Land Conservation program for the San 
Miguel project in Puerto Rico.
    The Surfrider Foundation is a non-profit environmental organization 
dedicated to the protection and enjoyment of the world's oceans, waves 
and beaches for all people, through conservation, activism, research 
and education. The Surfrider Foundation, is a grassroots organization 
with 64 chapters and over 50,000 members. We have a local chapter in 
Rincon, Puerto Rico and have been actively involved in coastal and 
ocean protection in Puerto Rico for over a decade, including the 
preservation of the NEC.
    The Northeastern Ecological Corridor (NEC), comprising 
approximately 3,200 acres, is one of the Caribbean's last, great, 
unprotected areas. Located on the eastern corner of the main island of 
Puerto Rico within the municipalities of Luquillo and Fajardo, the NEC 
contains an extraordinary array of tropical habitats seldom found in 
other parts of the world. In addition to coral communities, mangroves, 
and pre-Columbian forests, all the different varieties of coastal 
wetlands found throughout Puerto Rico are represented within the NEC. 
The wetlands in this area are essential to the existence of a seasonal 
bioluminescent lagoon known as Laguna Aguas Prietas, an extremely rare 
biological phenomenon. The NEC is also home to several world-class 
surfing areas that represent some of the best surfing in the Carribean.
    The NEC's location within the foothills of the El Yunque Caribbean 
National Rain Forest adds to its great natural value and uniqueness. 
Originally set aside in 1876 by the Spanish Crown, the forest 
represents one of the oldest reserves in the Western Hemisphere and is 
the only tropical forest in the United States national forest system. 
The forest contains rare wildlife and is home to over 50 species of 
birds, including the Puerto Rican parrot--one of the ten most 
endangered species of birds in the world. The ecological diversity 
observed within these two related sites, varying from a coastal dry 
forest to a rain forest, lies within a corridor just 13 miles in 
length. Such diversity can only be enhanced by the conservation of NEC 
lands.
    Available for acquisition in fiscal year 2007 is the 1,277-acre San 
Miguel property, consisting of three parcels within the NEC. These 
parcels contain extensive wetland areas contiguous to the Pitahaya, 
Juan Martin and Sabana rivers, and harbor an array of unique upland and 
wetland ecosystems. The project site includes some of the last 
remaining virgin forests on the island, as well as one of the last 
remaining unspoiled dune systems and a significant coral community 
immediately off shore. The property falls within the range of over 40 
rare species of flora and fauna, including 16 federally threatened or 
endangered listed species, such as the hawksbill sea turtle, Virgin 
Island boa, Puerto Rican boa, brown pelican, Puerto Rican plain pigeon, 
West Indian manatee, and Cobana negra (a flowering plant). The area is 
best known, however, as one of the most important nesting grounds for 
leatherback sea turtles in the Unites States and the Caribbean. The 
project site also contains a variety of archeological resources, such 
as historical tools and structures.
    At the present time, several multinational lodging corporations 
have proposed various mega luxury tourist-residential resorts within 
the NEC. One of the largest proposed developments would be built on the 
San Miguel tracts at the boundary of the municipalities of Luquillo and 
Fajardo. The San Miguel Resort would include 1,025 residential units, a 
250-room resort/casino, a 175-unit hotel/casino, and two golf courses. 
The development would involve the filling of wetlands, channelization 
of rivers, and clearance of coastal vegetation, thus destroying the 
natural integrity of the NEC. If the San Miguel resort were to be 
constructed as planned, it would further deplete the limited water 
supplies needed by local communities, resulting in a deficit of over 
4,000,000 gallons of water per day, a deficit which accounts for the 
water requirements of nearly 25,000 people. There is widespread concern 
as well about other negative impacts the development would have on this 
sensitive area, including destruction of wetlands and the degradation 
of key endangered species habitats.
    Given the ongoing controversy over development of the property, 
including years of lawsuits, strong public opposition, and permitting 
difficulties, the owners have decided to make the land available for 
conservation. Federal agencies, the Commonwealth of Puerto Rico, and 
private parties have come together in an effort to preserve this 
remarkable coastal property. Public ownership will preserve the coastal 
resources, protect the rivers and wetlands, buffer El Yunque National 
Forest, and provide public beach access and recreational opportunities.
    Approximately $25 million will eventually be needed to complete the 
San Miguel acquisition. If this effort should fail, some form of 
development would likely occur on this highly sensitive property. A 
fiscal year 2007 appropriation of $3 million from NOAA's Coastal and 
Estuarine Land Conservation program is needed to further the protection 
of the San Miguel tracts. These funds will be matched by $2.27 million 
in settlement funds from the Barge Berman Oil Spill (specifically for 
land acquisition), up to $5.7 million of other oil spill settlement 
funds (for restoration categories), $3 million committed by the 
Conservation Trust of Puerto Rico, and additional funds being raised by 
a local land trust and other interested private parties. I urge you to 
include this project in the fiscal year 2007 Commerce, Justice, and 
Science appropriations bill.
    Thank you, Mr. Chairman, for the opportunity to present this 
testimony and for your consideration of this important request.
                                 ______
                                 

          Prepared Statement of the Pacific Salmon Commission

    Mr. Chairman, my name is Roland Rousseau and I serve as an 
alternate commissioner on the Pacific Salmon Commission (PSC) and the 
chair of the Budget Committee for the U.S. Section of the Commission. 
The Pacific Salmon Treaty (Treaty) between the United States and Canada 
was entered into in 1985. A subsequent agreement was concluded in June 
of 1999 (1999 Agreement) that established new abundance-based fishing 
regimes under the treaty and made other improvements in the treaty's 
structure. During fiscal year 2007, the PSC will begin discussions on 
treaty provisions that conclude at the end of 2008. The U.S. Section 
recommends:
  --Funding the Pacific Salmon Treaty Line Item of the National Marine 
        Fisheries Service at $8,000,000 for fiscal year 2007, restoring 
        $1,000,000 previously provided by Congress. This funding 
        provides the technical support for the States of Alaska, 
        Washington, Oregon and Idaho and the National Marine Fisheries 
        Service to implement the salmon stock assessment and fishery 
        management programs required to implement the treaty fishing 
        regimes. Included within the total amount of $8,000,000 is 
        $400,000 to continue a joint Transboundary River Enhancement 
        program required by the treaty.
  --Funding the Pacific Salmon Treaty Chinook Salmon Agreement account 
        at $1,844,000, level funding from that was provided by Congress 
        for fiscal year 2006. This funding continues to be necessary to 
        acquire the technical information to implement abundance based 
        Chinook salmon management provided for under the 1999 
        Agreement.
    The base treaty implementation projects include a wide range of 
stock assessment, fishery monitoring, and technical support activities 
for all five species of Pacific salmon in the fisheries and rivers from 
Southeast Alaska to those of Washington, Oregon, and Idaho. The States 
of Alaska, Washington, Oregon, and Idaho, and the National Marine 
Fisheries Service (NMFS), are charged with carrying out a major portion 
of the salmon fishery stock assessment and harvest management actions 
required under the treaty. Federal funding for these activities is 
provided through NMFS on an annual basis. The agency projects carried 
out under PSC funding are directed toward acquiring, analyzing, and 
sharing the information required to implement the salmon conservation 
and sharing principles of the treaty. A wide range of programs for 
salmon stock size assessments, escapement enumeration, stock 
distribution, and catch and effort information from fisheries, are 
represented. The information from many of these programs is used 
directly to establish fishing seasons and harvest levels. Congress 
increased this funding by $2,000,000 in fiscal year 2005 to a total of 
$8,000,000 to provide for programs needed to implement the new 
abundance based fishing regimes established under the 1999 Agreement. 
The 1999 Agreement updated provisions of the Pacific Salmon Treaty 
including fishing arrangements and abundance based management 
approaches for Chinook, southern Coho, Northern Boundary and 
Transboundary River fisheries. The $400,000 that has been provided 
since 1988 for a joint Transboundary River enhancement program with 
Canada is included in this amount.
    In 1996, the United States adopted an abundance-based approach to 
managing Chinook salmon fisheries in Southeast Alaska. Under this 
approach, Chinook harvest levels are based on annual estimates of 
Chinook abundance. This system replaced fixed harvest ceilings agreed 
to in 1985, which did not respond to annual fluctuations in Chinook 
salmon populations. Under the 1999 Agreement, this abundance based 
management approach was expanded to all Chinook fisheries subject to 
the treaty. Beginning in 1998, Congress provided $1,844,000 to allow 
for the collection of necessary stock assessment and fishery management 
information to implement the new approach. Through a rigorous 
competitive technical review process, the States of Alaska, Washington, 
Oregon, and Idaho, and the 24 treaty tribes are using the funding to 
implement abundance-based Chinook salmon management coast-wide under 
the new agreement. The U.S. Section recommends level funding of 
$1,844,000 for fiscal year 2007 to support the implementation of 
abundance-based Chinook salmon management.
    The United States and Canada agreed to a joint salmon enhancement 
program on the Transboundary Rivers flowing between Canada and 
Southeast Alaska in 1988. Since 1989, Congress has provided $400,000 
annually for this effort through the National Marine Fisheries Service 
International Fisheries Commission line item under the Conservation and 
Management Operations activity. Canada provides an equal amount of 
funding and support for this bilateral program. This funding is 
included in the $8,000,000 the U.S. Section is recommending for the 
fiscal year 2007 Pacific Salmon Treaty line item.
    This concludes the statement of the U.S. Section of the PSC 
submitted for consideration by your committee. We wish to thank the 
committee for the support that it has given us in the past.
                                 ______
                                 

    Prepared Statement of the Washington State Department of Ecology

    On behalf of the Washington State Department of Ecology, I 
appreciate the opportunity to present this testimony in support of an 
appropriation of $2 million from NOAA's Coastal and Estuarine Land 
Conservation program for the Turner's Bay project in Washington State.
    The mission of the Washington State Department of Ecology is to 
protect, preserve, and enhance Washington's environment, and promote 
wise management of our air, land, and water for the benefit of current 
and future generations. The Washington State Department of Ecology 
manages a wide variety of programs, including the Coastal and Estuarine 
Land Conservation program.
    Made up of a series of underwater valleys and ridges, Washington's 
Puget Sound is an estuary where salt water from the ocean mixes with 
fresh water from the many rivers and streams of the surrounding land. 
The 2,500-mile of shoreline is a mosaic of beaches, bluffs, deltas, 
mudflats, and wetlands. While much of the sound is healthy, recent 
growth and development in the region are stressing its ecosystem. Water 
pollution and sediments laden with toxic pollutants threaten the water 
quality of Puget Sound, which has seen sharp declines in populations of 
salmon, orcas, marine birds and rockfish. Nearly 85 percent of the 
basin's annual surface water runoff comes from 10 rivers, one of which 
is the Skagit River. The Skagit River delta is a biologically rich and 
complex area characterized by tidal marshes and flats, shrub/scrub 
wetlands, and prolific agricultural areas. The delta's river system 
sustains viable runs of all five species of Pacific salmon. In all, the 
delta provides habitat for more than 300 species of fish and wildlife, 
including eight federally endangered or threatened species.
    Available for acquisition in fiscal year 2007 is the 456-acre 
Turner's Bay project, which lies within the Skagit delta. This property 
includes approximately 38 acres of tidelands and estuarine wetlands, 27 
acres of tidal influenced shorelands (including a 4.2-acre spit) and an 
adjacent 391 acres of mixed deciduous/conifer forested uplands and 
wetlands, all located at the northern boundary of the Swinomish 
Reservation. Small forested wetlands border the southern end of the 
subject property. The length of shoreline to be acquired, including the 
spit, is approximately 7,180 feet.
    Turner's Bay provides critical habitat for waterfowl, blue herons, 
juvenile salmon, shellfish and other aquatic life. Bald eagles are 
commonly seen foraging in the bay. The property contains the largest 
stretch of undeveloped estuarine habitat on the reservation and one of 
the largest of such areas remaining in the Skagit Bay system.
    The Skagit delta is a popular recreation area for kayakers, 
shellfish harvesters, beachcombers, and birdwatchers. The public access 
provided by the Turner's Bay project would increase the availability of 
coast-dependent and nature-based recreation. The spit and undeveloped 
shoreline along the bay provide a unique natural environment--sandy 
shores, prolific tidelands, and rich wetlands--for the public to 
explore and enjoy. Turner's Bay is located along the Cascadia Marine 
Trail, a water trail that stretches from Olympia in south Puget Sound 
to Canada. The Cascadia Trail is a well-traveled route of many boaters 
exploring Puget Sound or heading farther north to the San Juan Islands.
    The project area is also located just south of Highway 20, a State-
designated scenic byway that runs the length of Whidbey Island to the 
west and provides a scenic east-west route across the Skagit Valley. 
The Washington State Department of Ecology manages the nearby 11,000-
acre Padilla Bay National Estuarine Research Reserve which is funded by 
the National Oceanic and Atmospheric Administration. The area 
surrounding Turner's Bay and the greater Skagit Valley is under 
increasing development pressure as population in the Puget Sound basin 
continues to grow and spread from urban centers. Undeveloped, 
undisturbed waterfront property is an increasingly threatened commodity 
in Puget Sound, as retirees and owners of vacation homes discover the 
beauty of the Puget Sound shoreline. Acquisition of this parcel is a 
unique opportunity to preserve an enclave of pleasing and natural views 
amid a growing sea of suburban development.
    Turner's Bay is of significant cultural importance to the Swinomish 
Tribe. Three archaeological sites have been identified along the 
shoreline in previous surveys. More significantly, Turner's Bay is a 
traditional subsistence shellfish harvest area for tribal members. The 
harvest and consumption of shellfish from tribal homelands is also an 
important cultural practice of tribal members and is central to 
Swinomish cultural identity. For this reason, the tribe would like to 
work with the State to acquire these tidelands, shorelands, and 
forested uplands that shelter and protect the quality of Turner's Bay. 
The tribe wishes to ensure appropriate stewardship of the abundant 
resources in the subject area. Additionally, some historians consider 
the spit in Turner's Bay to be a possible landing site of Captain 
George Vancouver's Puget Sound exploration party, as it fits the 
description and approximate location of one of their reported survey 
sites as they explored the area.
    A fiscal year 2007 appropriation of $2 million from the Coastal and 
Estuarine Land Conservation program will ensure the protection of this 
ecologically and culturally significant site on Turner's Bay, and I 
respectfully request that you to include this project in the Fiscal 
Year 2007 Commerce, Justice, and Science appropriations bill.
    Thank you, Mr. Chairman, for the opportunity to present this 
testimony and for your consideration of this important request.
                                 ______
                                 

 Prepared Statement of the California Industry and Government Central 
                California Ozone Study (CCOS) Coalition

    Mr. Chairman and members of the subcommittee: On behalf of the 
California Industry and Government Central California Ozone Study 
(CCOS) Coalition, we are pleased to submit this statement for the 
record in support of our fiscal year 2007 funding request of $150,000 
from the Department of Commerce/NOAA account for CCOS. These funds are 
necessary for the State of California to address the very significant 
challenges it faces to comply with new national ambient air quality 
standards for ozone and fine particulate matter. The study design 
incorporates recent technical recommendations from the National Academy 
of Sciences (NAS) on how to most effectively comply with Federal Clean 
Air Act requirements.
    First, we want to thank you for your past assistance in obtaining 
federal funding for the Central California Ozone Study (CCOS) and 
California Regional PM<INF>10</INF>/PM<INF>2.5</INF> Air Quality Study 
(CRPAQS). Your support of these studies has been instrumental in 
improving the scientific understanding of the nature and cause of ozone 
and particulate matter air pollution in Central California and the 
Nation. Information gained from these two studies is forming the basis 
for the 8-hour ozone, PM<INF>2.5</INF>, and regional haze State 
Implementation Plans (SIPs) that are due in 2007 (ozone) and 2008 
(particulate matter/haze). As with California's previous SIPs, the 
2007-2008 SIPs will need to be updated and refined due to the 
scientific complexity of our air pollution problem. Our request this 
year would fund the completion of CCOS to address important questions 
that won't be answered with results from previously funded research 
projects.
    To date, our understanding of air pollution and the technical basis 
for SIPs has largely been founded on pollutant-specific studies, like 
CCOS. These studies are conducted over a single season or single year 
and have relied on modeling and analysis of selected days with high 
concentrations. Future SIPs will be more complex than they were in the 
past. The National Academy of Sciences (NAS) is now recommending a 
weight-of-evidence approach that will involve utilizing more broad-
based, integrated methods, such as data analysis in combination with 
seasonal and annual photochemical modeling, to assess compliance with 
Federal Clean Air Act requirements. This will involve the analysis of a 
larger number of days and possibly an entire season. In addition, 
because ozone and particulate matter are formed from some of the same 
emissions precursors, there is a need to address both pollutants in 
combination, which CCOS will do.
    Consistent with the new NAS recommendations, the CCOS study 
includes corroborative analyses with the extensive data provided by 
past studies, advances the state-of-science in air quality modeling, 
and addresses the integration of ozone and particulate pollution 
studies. In addition, the study will incorporate further refinements to 
emission inventories, address the development of observation-based 
analyses with sound theoretical bases, and includes the following four 
general components:
  --Performing SIP modeling analyses, 2005-2011
  --Conducting weight-of-evidence data analyses, 2006-2008
  --Making emission inventory improvements, 2006-2010
  --Performing seasonal and annual modeling, 2008-2011
    CCOS is directed by Policy and Technical Committees consisting of 
representatives from Federal, State, and local governments, as well as 
private industry. These committees, which managed the San Joaquin 
Valley Ozone Study and are currently managing the California Regional 
Particulate Air Quality Study, are landmark examples of collaborative 
environmental management. The proven methods and established teamwork 
provide a solid foundation for CCOS.
    For fiscal year 2007, our coalition is seeking funding of $150,000 
from the Department of Commerce/NOAA account in support of CCOS. 
California has a very complex terrain that includes mountain ranges, 
flat valleys, and long coastal regions. Some meteorological models are 
known to have difficulty in simulating high-resolution airflow over 
such complex terrain. NOAA has a vast amount of experience in applying 
meteorology models in several different areas of the country and their 
scientific know-how is a valuable asset to CCOS. This request will be 
used to continue NOAA's involvement in developing meteorological 
simulations for Central California, specifically longer-term 
simulations of seasonal and annual meteorology. The long-term record of 
meteorological data in the CCOS database can be used to improve NOAA's 
meteorological forecasting abilities and in the evaluation of U.S. 
western boundary conditions for weather forecasting models.
    As you know, NOAA is at the scientific forefront of the development 
of meteorological models including the Weather Research and Forecasting 
(WRF) model that is viewed as a replacement for the Mesoscale 
Meteorology Model, Version 5 (MM5). Thus, NOAA's involvement would 
facilitate the use of CCOS measurements in the development and 
refinement of WRF. In addition, NOAA has conducted prior research in 
the CCOS region on atmospheric airflows, sea breeze circulation 
patterns, nocturnal jets and eddies, airflow bifurcation, convergence 
and divergence zones, up-slope and down-slope flows, and up-valley and 
down-valley airflow. Thus, CCOS provides the opportunity to draw from 
or extend this research for a longer, multi-year time period. This 
research provides fundamental data needed to understand airflow over 
complex terrain, and has national applicability.
    Thank you very much for your consideration of our request.
                                 ______
                                 

        Prepared Statement of the American Geological Institute

    To the chairman and members of the subcommittee: The American 
Geological Institute (AGI) supports fundamental Earth science research 
sustained by the National Science Foundation (NSF), the National 
Oceanic and Atmospheric Administration (NOAA), the National Institute 
of Standards and Technology (NIST) and the National Aeronautics and 
Space Administration (NASA). This frontier research has fueled economic 
growth, mitigated losses and sustained our quality of life. The 
subcommittee's leadership in expanding the federal investment in basic 
research is even more critical as our Nation competes with rapidly 
developing countries, such as China and India, for energy, mineral, air 
and water resources. Our Nation needs skilled geoscientists to help 
explore, assess and develop Earth's resources in a strategic, 
sustainable and environmentally-sound manner and to help understand, 
assess and reduce our risks to natural hazards. AGI supports full 
funding as authorized for NSF's EarthScope project and Research and 
Related Activities; full funding for NOAA's and NASA's Earth observing 
campaigns; and authorized support for NIST's and NSF's responsibilities 
in the National Earthquake Hazards Reduction Program (NEHRP).
    The President's American Competitiveness Initiative calls for a 
doubling of physical science research funding in key federal agencies, 
while Bush's Advanced Energy Initiative calls for significant increases 
in energy research support. Both initiatives also include much needed 
support for education in the physical sciences and some specific 
incentives for education in the energy resources sector. Such 
initiatives are strongly supported by AGI.
    AGI is a nonprofit federation of 44 geoscientific and professional 
societies representing more than 100,000 geologists, geophysicists, and 
other Earth scientists. Founded in 1948, AGI provides information 
services to geoscientists, serves as a voice for shared interests in 
our profession, plays a major role in strengthening geoscience 
education, and strives to increase public awareness of the vital role 
the geosciences play in society's use of resources and interaction with 
the environment.
    NSF.--We applaud the President's request for an 8 percent increase 
in the overall budget for NSF and a 6 percent increase for the 
Geosciences Directorate. We hope that the subcommittee shares this 
commitment and can continue to strengthen our physical science research 
and education foundation through annual budget increases. Congress 
wisely authorized increased funding for NSF in Public Law 107-368, such 
that the total NSF budget would increase to $9.84 billion in fiscal 
year 2007, however, NSF only received about $5.6 billion in fiscal year 
2006 and remains well short of this effective science policy objective. 
Although NSF remains under funded, Congress and the administration are 
proposing annual increases to NSF's budget over the next 7 to 10 years.
    AGI believes that such a forward-looking investment in tight fiscal 
times will pay important dividends in future development and innovation 
that drives economic growth, especially in critical areas of 
sustainable and economic natural resources and reduced risks from 
natural hazards.
    NSF Geosciences Directorate.--The Geosciences Directorate is the 
principal source of federal support for academic Earth scientists and 
their students who are seeking to understand the processes that 
ultimately sustain and transform life on this planet. The President's 
budget proposal requests an increase of 6 percent ($42 million) for a 
total budget of about $745 million, which AGI strongly supports. We 
would encourage increases in funding to allow NSF to strengthen core 
research by increasing the number and duration of grants. Now is the 
time to boost Earth science research and education to fill the draining 
pipeline of skilled geoscientists and geo-engineers working in the 
energy industry; the construction industry, particularly on levees and 
dams; the environmental industry; the academic community, particularly 
on understanding natural hazards and the sustainability of our natural 
resources; the primary federal Earth science agencies, such as the 
United States Geological Survey; and in all areas of education.
    NSF Major Research Equipment Account.--AGI urges the subcommittee 
to support the Major Research Equipment, Facilities and Construction 
budget request of $27.4 million for EarthScope. We also support funding 
of $42.88 million to complete construction of the Scientific Ocean 
Drilling Vessel, $13.5 million to begin construction of the Ocean 
Observatories Initiative (OOI) and $56 million to begin construction of 
the Alaska Region Research Vessel.
    EarthScope--begun thanks to the previous subcommittee's support in 
fiscal year 2003--will systematically survey the structure of Earth's 
crust beneath North America, imaging faults at depth, hidden faults and 
other structures that range from hazardous to economically-valuable. 
The fiscal year 2007 request includes continued support for deployment 
of three components: a dense array of digital seismometers across the 
country; a 4-km deep borehole through the San Andreas Fault, housing a 
variety of instruments that can continuously monitor the conditions 
within the fault zone; and a network of state-of-the-art Global 
Positioning System (GPS) stations and sensitive strain meters to 
measure the deformation of the constantly shifting boundary between the 
Pacific and North American tectonic plates in an area susceptible to 
large earthquakes and tsunamis.
    EarthScope has very broad support from the Earth science community 
and received a very favorable review from the National Research 
Council's 2001 report entitled ``Review of EarthScope Integrated 
Science''. All data from this project will be available in real time to 
scientists, students and the public, providing a tremendous opportunity 
for research and learning about Earth. Involving the public in Earth 
science research will increase appreciation of how such research can 
lead to improvements in understanding the environment, utilizing 
natural resources and mitigating natural hazards. EarthScope can also 
provide a mechanism to integrate a broad array of Earth science 
research data in a unified system to promote cross-disciplinary 
research and avoid duplication of effort.
    NSF Support for Earth Science Education.--Congress can improve the 
Nation's scientific literacy by supporting the full integration of 
Earth science information into mainstream science education at the K-12 
and college levels. AGI strongly supports a new grant program in the 
Geosciences Directorate called GEO-TEACH, which will support projects 
to improve the quality of geosciences instruction, primarily at middle 
to high school levels. We also support the Math and Science Partnership 
(MSP) program, a competitive peer-reviewed grant program that funds 
only the highest quality proposals at NSF. The NSF's MSP program 
focuses on modeling, testing and identification of high-quality math 
and science activities whereas the Department of Education MSP program 
does not. The NSF and Department of Education MSP programs are 
complementary and are both necessary to continue to reach the common 
goal of providing world-class science and mathematics education to 
elementary and secondary school students. AGI opposes the transfer of 
the MSP from NSF to the Department of Education.
    Improving geoscience education to levels of recognition similar to 
other scientific disciplines is important because:
  --Geoscience offers students subject matter that has direct 
        application to their lives and the world around them, including 
        energy, minerals, water and environmental stewardship.
  --Geoscience exposes students to a diverse range of interrelated 
        scientific disciplines. It is an excellent vehicle for 
        integrating the theories and methods of chemistry, physics, 
        biology, and mathematics.
  --Geoscience awareness is a key element in reducing the impact of 
        natural hazards on citizens--hazards that include earthquakes, 
        volcanic eruptions, hurricanes, tornadoes, and floods. For 
        example, lives were saved in the tragic Indian Ocean tsunami by 
        a 12-year-old girl who understood the warning signs of an 
        approaching tsunami and warned others to seek higher ground 
        after completing an Earth science class.
  --Geoscience provides the foundation for tomorrow's leaders in 
        research, education, utilization and policy making for Earth's 
        resources and our Nation's strategic, economic, sustainable and 
        environmentally-sound natural resources development.
    NOAA.--AGI applauds the President's request for increased funding 
for the National Weather Service and the National Environmental 
Satellite, Data and Information Service (NESDI) within NOAA. The 
National Weather Service budget includes support for weather data 
buoys, strengthening the U.S. tsunami warning program, support of the 
Air Quality Forecasting Program, support for the Space Environment 
Center, support for the U.S. Weather Research Program, and continued 
implementation of the Advanced Hydrological Prediction Services. AGI 
also supports the proposed increased funding for NESDI for the 
development of the geostationary operational environmental satellite 
(GOES-R) and the National Polar-Orbiting Operational Environmental 
Satellite System (NPOESS). Both satellite systems will maintain a 
global view of the planet to continuously watch for atmospheric 
triggers of severe weather conditions such as tornadoes, flash floods, 
hailstorms, and hurricanes. The Office of Oceanic and Atmospheric 
Research and the Office of National Ocean Service have large proposed 
budget cuts to their overall budgets that would decimate vital programs 
related to the health and sustainability of the ocean, protecting 
coastlines and atmospheric research. AGI asks that these large 
reductions be minimized through congressional consideration of oceanic 
and coastal priorities in this post-Katrina fiscal year.
    NIST.--For fiscal year 2007, the President's request calls for $2 
million for earthquakes, wind hazards, wildfires at the urban interface 
and complex systems-multihazards analysis at NIST. About 70 percent of 
these funds will be directed toward the National Earthquake Hazards 
Reduction Program (NEHRP) and wind hazards. AGI strongly supports 
funding for NEHRP within NIST. NIST is the lead agency for NEHRP 
(authorized to receive $6 to $13 million over 5 years), but has never 
received any funding in the past. AGI strongly supports NEHRP funds for 
NIST and we further support the proposed increases in funding for core 
laboratory functions at NIST to ensure that NEHRP funds are protected.
    NASA.--AGI supports the vital Earth observing programs within NASA. 
Currently the topography of Mars has been measured at a more 
comprehensive and higher resolution than Earth's surface. While AGI is 
excited about space exploration and the President's Vision for 
Exploration, we firmly believe that NASA's Earth observing program is 
effective and vital to solving global to regional puzzles about Earth 
systems, such as how much and at what rate is the climate changing. The 
Earth-Sun System within the Science Mission Directorate funds the 
agency's Earth science programs. AGI strongly supports the requested 
increase in funding for the Landsat Data Continuity Mission, which will 
ensure support for the launch of a new Landsat satellite and the 
transfer of the data to the United States Geological Survey. 
Unfortunately other vital Earth science programs will be cut and 
missions will be delayed because of proposed budget reductions within 
the Earth-Sun System. AGI hopes these small reductions can be restored 
to ensure NASA's unique Earth observations.
    I appreciate this opportunity to provide testimony to the 
subcommittee and would be pleased to answer any questions or to provide 
additional information for the record. I can be reached at 703-379-2480 
ext. 228 (voice), 703-379-7563 (fax), <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9deff2eafcf3ddfcfaf4eaf8ffb3f2effa">[email&#160;protected]</a>, or 4220 King 
Street, Alexandria VA 22302-1502.
                                 ______
                                 

     Prepared Statement of the American Society of Plant Biologists

    Thank you, Mr. Chairman, for the opportunity for the American 
Society of Plant Biologists (ASPB) to present this testimony in support 
of the President's fiscal year 2007 budget request for the National 
Science Foundation. We urge the committee to support the President's 
American Competitiveness Initiative and its request for an increase of 
$439 million for the National Science Foundation. The proposed budget 
for NSF represents a 7.9 percent increase to $6 billion. The 
President's proposed increase for the Biological Sciences Directorate 
is $31 million, or 5.4 percent.
    This level of funding will enable NSF to continue to play its key 
role in establishing a leadership position for the United States in 
science and technology. U.S. leadership in a wide range of science 
disciplines is needed to compete and survive in the increasingly 
challenging global market.
    The ACI will double investment in research over 10 years sponsored 
by the National Science Foundation, Department of Energy Office of 
Science and National Institute of Standards and Technology (NIST).
    The ACI provides increased investment in research needed for 
continued growth of the Nation's economy. The Nation's ability to 
generate job-creating industries, remain competitive in the global 
market and improve the quality of life of consumers would be enhanced 
through committee approval of The President's fiscal year 2007 budget 
request implementing ACI.
    Shifts are occurring in the world with regard to ability to attract 
science talent and in relation to government and private investment in 
research. Indicators such as number of scientists entering the 
workforce and increased success in publishing research findings in 
peer-reviewed science journals show that the United States may 
encounter increased difficulties in competing with what are now 
considered developing nations.
    China, India, South Korea and other developing nations are 
following national policies that are increasing their capacity and 
strength in science and technology.
    China is an excellent example for further consideration of what 
world neighbors/global competitors are doing in science and science-
related industries. A huge workforce of qualified and inexpensive 
talent in science, combined with a market of 1.3 billion consumers is 
making China particularly attractive to multinational companies.
    Four years ago, there were 200 foreign-invested research and 
development centers in China. Today there are some 750. As the Wall 
Street Journal reported March 13, 2006, Procter & Gamble Co. opened a 
research arm in China in 1988 with just two dozen employees. Back in 
1988, P&G employees in China mainly studied Chinese consumer laundry 
habits and oral hygiene. Today, P&G runs five R&D facilities in China 
with approximately 300 researchers. They work ``on everything from 
Crest toothpaste to Oil of Olay face cream.'' New formulations of Tide 
laundry detergent developed in the China-based facilities now sell in 
markets beyond China, including other parts of Asia, Eastern Europe and 
Latin America.
    ``We are developing capabilities in China that we can use 
globally,'' P&G Technology Director in Beijing Dick Carpenter 
explained.
    In addition to a huge talent pool, including about 1 million 
university graduates each year in science or engineering, China is 
offering its students in the United States and other nations incentives 
to return once they graduate. These incentives include generous 
research grants and chances to run their own R&D projects. Science 
graduates returning to China can secure enough backing to build up 
their own lab and even extend their research in one direction for about 
10 years, the Wall Street Journal article noted.
    In the United States, that same science graduate would face 
extraordinary competition to win a federally sponsored research grant 
award. In some areas of study in the United States, the chances of a 
scientist succeeding with a competitive grant application is no better 
than one in ten. Failure to win research grant awards translates into 
an abbreviated science career in academic research.
    China's central government plans to increase spending on science 
and technology by nearly 20 percent this year. ``China has entered a 
stage in its history where it must increase its reliance on scientific 
and technological advances and innovation to drive social and economic 
development,'' commented Chinese Premier Wen Jiabao.
    The United States continues to rely heavily on science students 
from China and other nations to remain in the United States after 
graduation to build their careers and new job-creating technologies. 
However, more graduates are expected to return home to China and other 
countries where opportunities in science careers are now perceived to 
be brighter. With the United States already conceding far lower labor, 
land and building costs to global competitors such as China and other 
nations, how long will our Nation be able to compete if we also concede 
preeminence in science and technology?
    If science and technology research and development follow textile, 
steel, U.S. company-based auto production, and other manufacturing 
industries moving beyond our borders, the United States, already 
laboring under record trade deficits, will be weaker on a relative 
scale to the new ``producer nations.''
    More record trade deficits and higher interest rates for our 
increasingly debtor Nation could be expected to result--significantly 
driving up the costs to the federal budget for debt service. It is 
possible that the cost of the total federal science budget in future 
years would be just a fraction of the cost of the increase in federal 
debt service if the United States loses science and technology 
preeminence.
    NSF is the leading supporter of university-based research in many 
key areas, including plant science. Contributions by universities 
conducting NSF-supported research to the local economy also contribute 
to a stronger national economy. With the higher labor, housing, 
transportation, commercial and industrial property and related costs 
found in the United States compared to a number of world nation 
competitors, federal investment in science and education through 
support of NSF is desperately needed to help keep the Nation's 
businesses capable of competing.
    NSF support for basic plant research contributes to the local 
economies nationwide, including rural areas, while helping to secure 
the food supply of all Americans. As the first step of every food 
chain, plants and research on plants plays an essential role in meeting 
the nutritional needs of people here and abroad. The NSF Directorate 
for Biological Sciences sponsors examination of basic research 
questions on plants and other organisms. A number of plant research 
discoveries were cited by NSF among its most significant advances in 
science over the first 50 years of the agency's existence.
    NSF supports world leading plant genomic research as part of the 
Plant Genome Research Program. The National Plant Genome Initiative 
Progress Report was published January 2005 by the National Science and 
Technology Council Committee on Science Interagency Working Group on 
Plant Genomes. The report noted, ``Plant genome research holds enormous 
promise for solving global problems in agriculture, health, energy and 
environmental protection. Much still remains to realize this potential 
and the U.S. scientific community is clearly working toward that 
goal.''
    The report cited the importance of research on economically 
important crops and on the model plant, Arabidopsis thaliana--a plant 
with a small and simple genome. Knowledge gained from the Arabidopsis 
genome facilitates understanding of other economically important plants 
through use of comparative genomics. The Arabidopsis 2010 Project 
within NSF will provide scientists with knowledge of the function of 
each gene in Arabidopsis. This will lead to similar discoveries in 
crops grown by America's farmers. This knowledge will help scientists 
to develop superior crops that are domestic sources of food, fuel, 
industrial chemicals, fiber and pharmaceutical products. These advances 
will significantly benefit America's farmers and consumers.
    Again, we urge you to support The President's American 
Competitiveness Initiative, including the NSF Budget Request for 2007.
    ASPB is a non-profit society representing nearly 6,000 scientists 
conducting research primarily at universities. ASPB's membership also 
includes scientists in federal service and in private commerce. We 
publish the two most widely cited journals in plant science, The Plant 
Cell and Plant Physiology. Please let us know if we could provide any 
additional information.
    Thank you for your continued strong support of science research and 
education.
                                 ______
                                 

    Prepared Statement of the Great Lakes Indian Fish and Wildlife 
                               Commission

    Agency involved: Department of Justice.
    Program involved: COPS Tribal Resources Grant Program (TRGP).
Summary of GLIFWC's Fiscal Year 2007 Testimony
    GLIFWC requests that Congress: (1) specifically authorize 
eligibility for tribes' special law enforcement agencies, including 
fish and wildlife departments and game wardens, to participate in the 
COPS Tribal Resources Grant Program,\1\ and (2) support the 
administration's proposal to fund this program at $31,650,000 in fiscal 
year 2007, an increase of $16,650,000 above last year's congressional 
appropriation.
---------------------------------------------------------------------------
    \1\ Unlike previous years and without notice or explanation, the 
Fiscal Year 2006 Application Guide for the TRGP provides: Special law 
enforcement agencies such as fish and wildlife departments, game 
wardens, park and recreation departments, and environmental protection 
agencies are not eligible to apply under this program at this time.
---------------------------------------------------------------------------
Disclosure of DOJ Grants Contracted
    GLIFWC is an intertribal organization which, under the direction of 
its member tribes, implements federal court orders governing tribal 
harvests of off-reservation natural resources and the formation of 
conservation partnerships to protect and enhance natural resources 
within the 1836, 1837, and 1842 ceded territories. Under COPS Tribal 
Resources Grant Program, GLIFWC contracted:
  --$108,034 in fiscal year 2004 for the purpose of purchasing patrol 
        vehicles (three patrol trucks, an ATV and a snowmobile), 
        digital cameras, and providing instructor development and basic 
        recruit training; and
  --$98,444 in fiscal year 2005 for the purpose of purchasing thermal 
        imaging and digital cameras, continuing instructor 
        certification and providing basic recruit re-certification 
        training, and supplying standard issue items.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Ceded Territory Treaty Rights and GLIFWC'S Role
    GLIFWC was established in 1984 as a ``tribal organization'' within 
the meaning of the Indian Self-Determination Act (P.L. 93-638). It 
exercises authority delegated by its member tribes to implement federal 
court orders and various interjurisdictional agreements related to 
their treaty rights. GLIFWC assists its member tribes in:
  --securing and implementing treaty guaranteed rights to hunt, fish, 
        and gather in Chippewa treaty ceded territories; and
  --cooperatively managing and protecting ceded territory natural 
        resources and their habitats.
    For the past 22 years, Congress and administrations have funded 
GLIFWC through the BIA, Department of Justice and other agencies to 
meet specific federal obligations under: (a) a number of US/Chippewa 
treaties; (b) the federal trust responsibility; (c) the Indian Self-
Determination Act, the Clean Water Act, and other legislation; and (d) 
various court decisions, including a 1999 United States Supreme Court 
case, affirming the treaty rights of GLIFWC's member tribes. GLIFWC 
serves as a cost efficient agency to conserve natural resources, to 
effectively regulate harvests of natural resources shared among treaty 
signatory tribes, to develop cooperative partnerships with other 
government agencies, educational institutions, and non-governmental 
organizations, and to work with its member tribes to protect and 
conserve ceded territory natural resources.
    Under the direction of its member tribes, GLIFWC operates a ceded 
territory hunting, fishing, and gathering rights protection/
implementation program through its staff of biologists, scientists, 
technicians, conservation enforcement officers, and public information 
specialists.
Community-Based Policing
    GLIFWC's officers carry out their duties through a community-based 
policing program. The underlying premise is that effective detection 
and deterrence of illegal activities, as well as education of the 
regulated constituents, are best accomplished if the officers live and 
work within tribal communities that they primarily serve. The officers 
are based in 10 satellite offices located on the reservations of the 
following member tribes: In Wisconsin--Bad River, Lac Courte Oreilles, 
Lac du Flambeau, Red Cliff, Sokaogon Chippewa (Mole Lake) and St. 
Croix; in Minnesota--Mille Lacs; and in Michigan--Bay Mills, Keweenaw 
Bay and Lac Vieux Desert.
Interaction With Law Enforcement Agencies
    GLIFWC's officers are integral members of regional emergency 
services networks in Minnesota, Michigan and Wisconsin. They not only 
enforce the tribes' conservation codes, but are fully certified 
officers who work cooperatively with surrounding authorities when they 
detect violations of State or federal criminal and conservation laws. 
These partnerships evolved from the inter-governmental cooperation 
required to combat the violence experienced during the early 
implementation of treaty rights in Wisconsin. As time passed, GLIFWC's 
professional officers continued to provide a bridge between local law 
enforcement and many rural Indian communities. GLIFWC remains at this 
forefront, using DOJ funding to develop inter-jurisdictional legal 
training attended by GLIFWC officers, tribal police and conservation 
officers, tribal judges, tribal and county prosecutors, and State and 
federal agency law enforcement staff. DOJ funding has also enabled 
GLIFWC to certify its officers as medical emergency first responders 
trained in the use of defibrillators, and to train them in search and 
rescue, particularly in cold water rescue techniques. When a crime is 
in progress or emergencies occur, local, State, and federal law 
enforcement agencies look to GLIFWC's officers as part of the mutual 
assistance networks of the ceded territories. These networks include 
the Wisconsin Department of Natural Resources, Minnesota Department of 
Natural Resources, Michigan Department of Natural Resources, U.S. Coast 
Guard, USDA-Forest Service, State Patrol and Police, county sheriffs 
departments, municipal police forces, fire departments and emergency 
medical services.
GLIFWC Programs Funded By DOJ
    GLIFWC recognizes that adequate communications, training, and 
equipment are essential both for the safety of its officers and for the 
role that GLIFWC's officers play in the proper functioning of 
interjurisdictional emergency mutual assistance networks in the ceded 
territories. GLIFWC's COPS grants for the past 6 years have provided a 
critical foundation for achieving these goals. Significant 
accomplishments with Tribal Resources Grant Program funds include:
    Improved Radio Communications and Increased Officer Safety.--GLIFWC 
replaced obsolete radio equipment to improve the capacity of officers 
to provide emergency services throughout the Chippewa ceded 
territories. GLIFWC also used COPS funding to provide each officer a 
bullet-proof vest, night vision equipment, and in-car video cameras to 
increase officer safety.
    Emergency Response Equipment and Training.--Each GLIFWC officer has 
completed and maintains certification as a first responder and in the 
use of life saving portable defibrillators. Since 2003, GLIFWC officers 
carried first responder kits and portable defibrillators during their 
patrol of 275,257 miles throughout the ceded territories. In remote, 
rural areas the ability of GLIFWC officers to respond to emergencies 
provides critical support of mutual aid agreements with Federal, State, 
and local law enforcement agencies.
    Ice Rescue Capabilities.--Each GLIFWC officer maintains 
certification in ice rescue techniques and was provided a Coast Guard 
approved ice rescue suit. In addition, each of GLIFWC's 10 reservation 
satellite offices was provided a snowmobile and an ice rescue sled to 
participate in interagency ice rescue operations with county sheriffs 
departments and local fire departments.
    Wilderness Search and Rescue Capabilities.--Each GLIFWC officer 
completed wilderness search and rescue training. The COPS Tribal 
Resources Grant Program also enabled GLIFWC to replace a number of 
vehicles that were purchased over a decade ago, including 10 ATV's and 
16 patrol boats and the GPS navigation system on its 31 foot Lake 
Superior patrol boat. These vehicles are used for field patrol, 
cooperative law enforcement activities, and emergency response in the 
1837 and 1842 ceded territories. GLIFWC officers also utilize these 
vehicles for boater, ATV, and snowmobile safety classes taught on 
Reservations as part of the Commission's Community Policing Strategy.
    Hire, Train and Equip Three Additional Officers.--Funding has been 
contracted to provide three additional officers to ensure tribes are 
able to meet obligations to both enforce off-reservation conservation 
codes and effectively participate in the myriad of mutual assistance 
networks located throughout a vast region covering 60,000 square miles.
    Consistent with numerous other federal court rulings on the 
Chippewa treaties, the United States Supreme Court re-affirmed the 
existence of the Chippewa's treaty-guaranteed usufructuary rights in 
Minnesota v. Mille Lacs Band, 526 U.S. 172 (1999). As tribes have re-
affirmed rights to harvest resources in the 1837 ceded territory of 
Minnesota, workloads have increased. But for GLIFWC's COPS grants, this 
expanded workload, combined with staff shortages would have limited 
GLIFWC's effective participation in regional emergency services 
networks in Minnesota, Michigan and Wisconsin. The effectiveness of 
these mutual assistance networks is more critical than ever given: (1) 
national homeland security concerns, (2) State and local governmental 
fiscal shortfalls, (3) staffing shortages experienced by local police, 
fire, and ambulance departments due to the call up of National Guard 
and military reserve units, and (4) the need to cooperatively combat 
the spread of methamphetamine production in rural areas patrolled by 
GLIFWC conservation officers.
    Examples of the types of assistance provided by GLIFWC officers are 
provided below:
  --As trained first responders, GLIFWC officers routinely respond to, 
        and often are the first to arrive at, snowmobile accidents, 
        heart attacks, hunting accidents, and automobile accidents 
        (throughout the ceded territories) and provide sheriffs 
        departments valuable assistance with natural disasters (e.g. 
        floods in Ashland County and a tornado in Siren, Wisconsin).
  --Search and rescue for lost hunters, fishermen, hikers, children, 
        and the elderly (Sawyer, Ashland, Bayfield, Burnett, and Forest 
        Counties in Wisconsin and Baraga, Chippewa, and Gogebic 
        Counties in Michigan).
  --Being among the first to arrive on the scene where officers from 
        other agencies have been shot (Bayfield, Burnett, and Polk 
        Counties in Wisconsin) and responding to weapons incidents 
        (Ashland, Bayfield, Burnett, Sawyer, and Vilas Counties in 
        Wisconsin).
  --Use of a thermal imaging camera (purchased through the COPS 
        program) to track an individual fleeing the scene of an 
        accident (Sawyer County, Wisconsin).
  --Organize and participate in search and rescues of ice fishermen on 
        Lake Superior (Ashland and Bayfield Counties in Wisconsin), 
        Lake Superior boats (Baraga County in Michigan and with the 
        U.S. Coast Guard in other parts of western Lake Superior), and 
        kayakers (Bayfield County in Wisconsin).
    GLIFWC is proposing to utilize DOJ TRGP funding for training and 
equipment to: (1) recognize, secure and respond appropriately to 
potential methamphetamine production sites, (2) identify addicts while 
on patrol, and (3) improve community awareness through hunter safety 
classes. Simply put, supporting GLIFWC's officers will not only assist 
GLIFWC in meeting its obligations to enforce tribal off-reservation 
codes, but it will enhance intergovernmental efforts to protect public 
safety and welfare throughout the region in the States of Wisconsin, 
Minnesota, and Michigan. The COPS Tribal Resources Grant Program 
provides essential funding for equipment and training to support 
GLIFWC's cooperative conservation, law enforcement, and emergency 
response activities. We ask Congress to support increased funding for 
this program.
                                 ______
                                 

             Prepared Statement of Florida State University

    Mr. Chairman, I would like to thank you and the members of the 
subcommittee for this opportunity to present testimony before this 
committee. I would like to take a moment to briefly acquaint you with 
Florida State University.
    Located in Tallahassee, Florida's capitol, Florida State University 
is a comprehensive Research I university with a rapidly growing 
research base. The university serves as a center for advanced graduate 
and professional studies, exemplary research, and top-quality 
undergraduate programs. Faculty members at FSU maintain a strong 
commitment to quality in teaching, to performance of research and 
creative activities, and have a strong commitment to public service. 
Among the current or former faculty are numerous recipients of national 
and international honors including Nobel laureates, Pulitzer Prize 
winners, and several members of the National Academy of Sciences. Our 
scientists and engineers do excellent research, have strong 
interdisciplinary interests, and often work closely with industrial 
partners in the commercialization of the results of their research. 
Florida State University had over $182 million this past year in 
research awards.
    Florida State University attracts students from every State in the 
Nation and more than 100 foreign countries. The university is committed 
to high admission standards that ensure quality in its student body, 
which currently includes National Merit and National Achievement 
Scholars, as well as students with superior creative talent. We 
consistently rank in the top 25 among U.S. colleges and universities in 
attracting National Merit Scholars to our campus.
    At Florida State University, we are very proud of our successes as 
well as our emerging reputation as one of the Nation's top public 
research universities.
    Mr. Chairman, let me summarize our primary interests today.
    In 2004, Congress funded a project for Florida to share its 
exemplary juvenile justice education program model with other States in 
order to assist them in their respective implementation of No Child 
Left Behind (NCLB). In fiscal year 2005, Phase I, the project's staff 
initiated a series of activities to establish collaborative working 
partnerships with each State. The activities included: conducting a 
national survey of each State's juvenile justice education practices; 
holding a national meeting involving key constituents from each State 
to review the project's purposes, discussing the national survey 
findings; reviewing the NCLB requirements and Florida's program 
components and practices; and agreeing upon a grouping of States with 
similar systems and NCLB challenges. From this agreed upon grouping of 
States, preliminary plans for each State's implementation of the NCLB 
requirements for juvenile justice education systems were drafted for 
follow-up review by each State.
    In fiscal year 2007, Phase II, the project will extend this effort 
by holding a series of meetings with different State groups to review, 
discuss and reach consensus upon each State's final plan for 
implementation of the NCLB requirements. The final implementation plans 
will be informed by the implementation experiences and impediments that 
Florida confronted and overcame. Additionally, the thoughts, concerns 
and potential solutions that the key State constituents provide will be 
incorporated into each State's implementation plan to ensure consensus 
between individual States and the project staff. Following these 
meetings and the development of each State's final NCLB juvenile 
justice education implementation plan, the project staff will make 
periodic follow-up State visits to assess their implementation efforts 
and effectively deal with any encountered problems by providing 
training and technical assistance. Further, the project staff, in 
collaboration with key State constituents, will develop and implement a 
national evaluation design to report each State's NCLB implementation 
progress and student learning outcomes. A quarterly report will be sent 
to each State, the U.S. Department of Justice, and the U.S. Department 
of Education describing the project's activities and progress, and 
individual State outcomes. Additionally, the project will design a 
national longitudinal study on how improved quality in juvenile justice 
education impacts the incidence of delinquency nationwide. The study 
will provide data on the role of NCLB implementation in successfully 
reducing delinquency in individual States as well as across the Nation.
    Mr. Chairman, we believe this research is vitally important to our 
country and would appreciate your support.
                                 ______
                                 

     Prepared Statement of the American Society of Civil Engineers

    The American Society of Civil Engineers (ASCE) is pleased to offer 
this testimony on the proposed budgets for the National Science 
Foundation (NSF) and the National Institutes of Standards and 
Technology (NIST) for fiscal year 2007. The President's American 
Competitive Initiative (ACI) with its focus on research and development 
at NIST and NSF will pay dividends for the country in many areas. ASCE 
is encouraged by and supports ACI and with it, the administration's 
request for $6.02 billion request for NSF and $581.3 million for NIST.
    ASCE believes that technological innovation has been the engine 
that drove the Nation's economy expansion of the last 50 years. ASCE 
firmly believes that by maintaining strong continuing and steadily 
increasing support for the research and education we will continue to 
enjoy the rewards of economic expansion. If we do not continue to 
invest in research and technology, we will loose our position in an 
ever more integrated and competitive world. The basic research funded 
by NSF, in engineering and all other areas of science, is the 
foundation of that investment in the future. Global competition 
increasingly requires the United States to make the necessary 
investments in science and engineering research and education.
    ASCE, founded in 1852, is the country's oldest national civil 
engineering organization representing 139,000 civil engineers in 
private practice, government, industry and academia dedicated to the 
advancement of the science and profession of civil engineering. ASCE is 
a 501(c)(3) non-profit educational and professional society.

                   NATIONAL SCIENCE FOUNDATION (NSF)

    ASCE supports the administration's fiscal year 2007 budget request 
of $6.02 billion for the National Science Foundation (NSF).
    Math and Science Partnerships.--We encourage you to continue the 
federal commitment to math and science education by maintaining the 
peer-reviewed Math and Science Partnerships (MSP's) at the NSF and 
supporting robust funding for both the U.S. Department of Education 
(ED) and the NSF Math and Science Partnership programs. We urge you to 
oppose the administration's budget proposal that would phase-out the 
NSF MSP program in favor of the new federal grant administered by the 
Secretary of Education that would, in effect, limit individual States 
discretion to target much-needed funds for local science and 
mathematics education reforms.
    National Earthquake Hazards Reduction Program.--For the past 25 
years NEHRP has provided the resources and leadership that have led to 
significant advances in understanding the risk earthquakes pose and the 
best ways to counter them. Under NEHRP, there has been a constant 
source of funding for seismic monitoring, mapping, research, testing, 
code development, mitigation and emergency preparedness. A recent study 
and report by the Multihazard Mitigation Council entitled ``Natural 
Hazard Mitigation Saves: An Independent Study to Assess the Future 
Savings from Mitigation Activities,'' has concluded the money spent on 
reducing the risk of natural hazards is a sound investment. On average, 
a dollar spent by FEMA on hazard mitigation provides the Nation about 
$4 in future benefits. The type of research to be conducted under this 
program has the potential to greatly increase the benefit.
    The NSF strives to advance fundamental knowledge in earthquake 
engineering, Earth science processes, and societal preparedness and 
response to earthquakes. Additionally, the George E. Brown, Jr. Network 
for Earthquake Engineering Simulation (NEES), operated by NSF, will 
expand knowledge through new methods for experimental and computational 
simulation.
    ASCE requests that Congress direct NSF to acknowledge the $40.3 
million funding level for NEHRP responsibilities at NSF and to urge NSF 
to fulfill that obligation. We further support the administration 
request of $21.27 million for the operation of the Network for 
Earthquake Engineering Simulation at NSF and ask that Congress urge NSF 
to maximize the potential of Network Earthquake Engineering Simulation 
(NEES) through research grants.

             NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY

    ASCE supports the President's requested budget for NIST of $581.3 
million for fiscal year 2007 and would strongly urge Congress to fully 
appropriate the request as presented. ASCE is concerned that money 
requested for NIST's core laboratory and standards activities may moved 
to fund other programs, as has happened in the past.
    Scientific and Technical Research and Services (STRS).--These are 
NIST's core programs that provide the measurements and standards on 
which the Nation's industry stands and grows. The NIST laboratories 
provide industry and the science and engineering community with the 
measurement capabilities, standards, evaluated reference data, and test 
methods that provide a common language needed at every stage of 
technical activity. U.S. scientists rely on NIST's evaluated data 
services and measurement expertise for a host of basic and applied 
research activities.
    ASCE supports the administration's request of $467 million to fund 
the core programs at NIST. If fully appropriated, the funding would 
permit NIST to carryout its core responsibilities and greatly enhance 
U.S. competitiveness.
    Building and Fire Research Laboratory.--ASCE believes that the 
services provided by the Building and Fire Research Laboratory (BFRL) 
are invaluable to the building industry. BFRL works to improve the 
productivity of U.S. construction industries and serves as the premier 
fire research laboratory in the United States. It develops technologies 
to predict measure and test the performance of construction materials, 
components and practices. BFRL is the Nation's central laboratory for 
providing the tools (i.e. research and measurements) needed to rebuild 
the Nation's infrastructure.
    Laboratory activities include: fire science and fire safety 
engineering; building materials; computer-integrated construction 
practices; structural, mechanical and environmental engineering; and 
building economics. The laboratory conducts investigations at the scene 
of major fires and structural failures due to earthquake, hurricanes or 
other causes. The knowledge gained from these investigations guides 
research and is applied to recommendations for design and construction 
practices to reduce future hazards.
    Construction is one of the Nation's largest industries, comparable 
in size to the health care and agricultural industries. Like those 
vital areas of the Nation's economy, the construction industry needs 
research and development to enhance international competitiveness and 
increase public health and safety. Funding for construction related 
research, from all sources, is a fraction of that available to the 
healthcare and agricultural industries. Due to the fragmented nature of 
the construction industry, the private sector does not have the 
resources to conduct the needed research and development on its own.
    National Construction Safety Team Act.--Public Law 107-231 created 
the National Construction Safety Team at NIST with the mandate to 
investigate major building failures within the United States. The 
investigations are to establish the technical causes of building 
failures and evaluate the technical aspects of emergency response. The 
goal is to recommend improvements to the way in which buildings are 
designed, constructed, maintained and used. ASCE supported this act; 
however ASCE believes that NIST must be provided with the necessary 
resources. The National Construction Safety Team (NCST) Advisory 
Committee, established by the act, recently released it first annual 
report to Congress which included a number of recommendations including 
the creation of a NCST office and funding.
    ASCE supports these recommendations and urges Congress to 
appropriate an additional $2 million in fiscal year 2006 to create a 
NCST office within the Building and Fire Research Laboratory at NIST.
    National Earthquake Hazards Reduction Program (NEHRP).--The 2004 
reauthorization of NEHRP has given the National Institute of Standards 
and Technology (NIST) new responsibility as the lead agency for NEHRP 
and an expanded role in problem-focused research and development in 
earthquake engineering. However, in order for NIST to fully carry out 
its responsibilities, the NEHRP Coalition supports the full funding 
levels contained in the reauthorization for fiscal year 2007 of $12.1 
million for NEHRP responsibilities at NIST.
    In addition to its leadership role, NIST is now specifically tasked 
to carry out problem-focused research and development in earthquake 
engineering aimed at improving building codes and standards for both 
new and existing construction and advancing seismic practices for 
structures and lifelines.
    ASCE applauds NIST's commitment to NEHRP by making money available 
and moving ahead with its responsibilities as the NEHPR lead agency in 
fiscal year 2006. The President's commitment for fiscal year 2007 by 
adding $2 million for structural safety in hurricanes, fires and 
earthquake in fiscal year 2007 will enable NIST to increase and expand 
its efforts.
    The NEHRP supports the President's request for $2 million for 
structural safety at NIST. In order for NIST to fully realize the 
potential benefits of NEHRP, the NEHRP Coalition urges Congress to 
build on the proposal of the administration by appropriating the full 
funding levels contained in the reauthorization for fiscal year 2007 of 
$12.1 million for NEHRP responsibilities at NIST.

      NATIONAL WINDSTORM IMPACT REDUCTION PROGRAM AT NIST AND NSF

    In October 2004 the President signed Public Law 108-360 authorizing 
the creation of the National Windstorm Impact Reduction Program. As 
recent events on the Nation's Gulf coast have so vividly illustrated, 
the Nation remains highly vulnerable to major windstorms. We have not 
yet fully calculated the full the damage inflected by Hurricanes 
Katrina, Rita and Wilma, but it will well exceed $150 billion.
    This vulnerability was recognized by Congress in 2004 when it 
created the National Windstorm Impact Reduction Program. However, while 
the program has been authorized for fiscal year 2006 through fiscal 
year 2008, there has been no appropriation of funds or specific budget 
request.
    ASCE urges full funding for the National Windstorm Impact Reduction 
Program. For fiscal year 2007 the law authorizes $25 million in 
spending, spread between federal four agencies. The Coalition urges the 
Congress to support full funding levels. Specifically, for the agencies 
under the jurisdiction of this subcommittee, the law authorizes:
  --$9.4 million for the National Science Foundation (NSF);
  --$4 million for the National Institute of Standards and Technology 
        (NIST); and
  --$2.2 million for the National Oceanic and Atmospheric 
        Administration (NOAA).
    Once again, thank you for the opportunity for ASCE to express its 
views. If you need more information, contact Martin Hight, ASCE Senior 
Manager of Government Relations at (202) 326-5125 or by e-mail at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="97fafffef0ffe3d7f6e4f4f2b9f8e5f0b9">[email&#160;protected]</a>
                                 ______
                                 

          Prepared Statement of the Gaviota Coast Conservancy

    Mr. Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of an 
appropriation of $1 million from NOAA's Coastal and Estuarine Land 
Conservation Program for Gaviota State Park.
    Gaviota State Park is located 125 miles north of Los Angeles, on a 
remote section of Santa Barbara County's Gaviota Coast, a 76 mile 
stretch of California's coastline straddling two distinct bioregions in 
the transition between Southern and Central California. The Gaviota 
Coast is situated between the Channel Islands National Marine Sanctuary 
and the Los Padres National Forest where there is a wide variety of 
biological, recreational and agricultural resources.
    As the largest portion (50 percent) of Southern California's 
remaining undeveloped coastline, the Gaviota Coast is a high priority 
area for conservation. According to the Nature Conservancy, coastal 
Southern California has the highest density of imperiled species of 
anywhere in the United States. As part of the only coastal 
Mediterranean biome in America, the Gaviota Coast is the last, best, 
safe-harbor for the numerous imperiled species displaced by human 
settlement further south. Expansion of Gaviota State Park offers an 
excellent opportunity for the conservation of several habitat types.
    The Santa Ynez Mountains crowd in close to the coastline at 
Gaviota, producing a complex topography. Rocky, narrow beaches with 
sandy coves are backed by high sea cliffs. Coastal marine terraces, 
incised by stream carved canyons, lie below chaparral covered mountain 
slopes. This produces a diverse assemblage of habitat types in close 
proximity to one another. Perhaps most important are the many riparian 
corridors joining the mountains to the sea, which harbor the highest 
degree of biodiversity. Gaviota Creek watershed, one of the two largest 
watersheds on the south-facing Gaviota Coast, flows through Gaviota 
State Park. In addition there is a variety of shrub-land, and woodland 
habitat, with scattered vernal pool communities, estuaries, and native 
grasslands.
    With this array of habitat, and a linkage to vast interior 
wildlands, the Gaviota Coast is home to a full assemblage of wildlife, 
both terrestrial and marine. Marine animals found along the coast 
include dolphin, a variety of whales, northern elephant seals, and 
numerous bird species. Terrestrial wildlife includes mountain lions, 
mule deer, badgers, black bears and golden eagles, to name a few. 
Resident endangered species include the southern sea otter, southern 
steelhead trout, the tide-water goby, brown pelican, and an occasional 
California condor.
    Immediately adjacent to Highway 101, this property is zoned for 
commercial use. Commercial land uses in these coastal foothills are 
incompatible with county and State efforts to prevent inappropriate 
development and protect critical natural, scenic, and recreational 
resources. Acquiring lands adjacent to the park will protect its 
streams from the degradation that would result from development-related 
pollution.
    Because of its location among other protected properties and 
agricultural lands, this project is part of a larger effort to piece 
together up to 10,000 contiguous acres of protected coastal wildlands 
and open space from the mountains to the sea, including the Los Padres 
National Forest and lands owned and managed by the local land trust for 
Santa Barbara County. The subject property is the linchpin for this 
larger assemblage, as it is the only property with commercial zoning on 
a 35-mile stretch of the Gaviota Coast. The total cost of the project 
is $2.5 million, with State and local sources providing the matching 
funds.
    Available for acquisition in fiscal year 2007, the Gaviota State 
Park Addition project is a 43-acre site adjoining Gaviota State Park. 
The park serves 86,000 visitors annually and the addition of the 
subject property would enable California State Parks to expand the 
existing trail system, and provide new trailhead facilities. For all 
the reasons stated above, the expansion of Gaviota State Park is a top 
priority for State Parks and for Santa Barbara County.
    An appropriation of $1 million from NOAA's Coastal and Estuarine 
Land Conservation Program for fiscal year 2007 is needed to acquire and 
protect this 43-acre property. If added to Gaviota State Park, it will 
expand recreational opportunities, provide much needed visitor 
facilities, protect scenic viewshed and conserve important wildlife 
habitat.
    Thank you, Mr. Chairman for the opportunity to present this 
testimony and for your consideration of the request for an 
appropriation of $1 million for Gaviota State Park.
                                 ______
                                 

        Letter From the Simi Batra of the Trust for Public Land

                                                    April 27, 2006.
The Honorable Richard Shelby, Chairman,
Commerce, Justice and Science Subcommittee, Committee on 
        Appropriations, S-146A Capitol, Washington, DC 20510.
The Honorable Barbara Mikulski, Ranking Member,
Commerce, Justice and Science Subcommittee, Committee on 
        Appropriations, 144 Dirksen Senate Office Building, Washington, 
        DC 20510.
    Dear Chairman Shelby/Ranking Member Mikulski: On behalf of the 
organizations listed below, we would like to thank you for your long-
standing support of coastal zone management and coastal land 
conservation. We are writing today in support of the Coastal and 
Estuarine Land Conservation Program. This subcommittee created CELCP in 
fiscal year 2002 in order to ``protect those coastal and estuarine 
areas with significant conservation, recreation, ecological, historical 
or aesthetic values, or that are threatened by conversion from their 
natural or recreational states to other uses.'' Thus far, this program 
has invested over $177 million towards 119 conservation projects in 25 
of the Nation's 35 coastal States. All federal funding has been 
leveraged by at least an equal amount by State, local and private 
funds. We hope to continue this Federal-State partnership and encourage 
you to fund CELCP at $60 million for fiscal year 2007.
    Our Nation's coastal zone is under significant pressures from 
unplanned development. In fact, it is estimated that by 2025, nearly 75 
percent of the Nation's population will live within 50 miles of the 
coast, in addition to millions more who enjoy America's storied 
coastlines. From Maine to Washington State, beaches and waterfronts 
have always been the destination of choice for Americans. Billions of 
dollars of the Nation's GDP are generated by coast-based economic 
activities, inexorably linking our coastal zone with the economic 
health of the Nation.
    As a result of this economic boom, rapid, unplanned development has 
marred the once-pristine viewsheds and substantially reduced public 
access to the coast. The resulting increase in impervious surfaces has 
correspondingly increased non-point source pollution and seriously 
degraded coastal and estuarine waters. The loss of coastal wetlands has 
drastically impaired estuaries, some of the most productive habitat on 
earth. The U.S. Commission on Ocean Policy has also stressed the 
importance of land conservation as part of its broader recommendations 
to Congress and the Nation.
    From our work at the local level, we know from first-hand 
experience that this program will significantly leverage ongoing 
community-based conservation, and will provide a much needed boost to 
local efforts. Given the importance of healthy, productive and 
accessible coastal areas, a federal commitment to State and local 
coastal protection is a sound investment.
    We urge you to fund the Coastal and Estuarine Land Conservation 
Program at $60 million in fiscal year 2007. We look forward to working 
with you as this program continues to grow, and stand ready to assist 
you.
            Sincerely,
                                   Alan Front,
                  Senior Vice President, The Trust for Public Land.
                                   Katherine ``Kacky'' Andrews,
                   Executive Director, Coastal States Organization.
                                   David Hoskins,
Vice President of Government Affairs and General Counsel, The Ocean 
                                                       Conservancy.
                                   Gary J. Taylor,
       Legislative Director, International Association of Fish and 
                                                 Wildlife Agencies.
                                   Angela Corridore,
           Executive Director, National Estuarine Research Reserve 
                                                       Association.
                                   Russ Shay,
                    Director of Public Policy, Land Trust Alliance.
                                   Jimmie Powell,
          Director of Government Relations, The Nature Conservancy.
                                   Rich Innes,
      Executive Director, Association of National Estuary Programs.
                                    Lawrence A. Selzer,
                                  President, The Conservation Fund.
                                    Gordon C. Robertson,
                 Vice President, American Sportfishing Association.
                                   Mark Wolf-Armstrong,
                    President and CEO, Restore America's Estuaries.
                                 ______
                                 

 Prepared Statement of the Columbia River Inter-Tribal Fish Commission

    Mr. Chairman and honorable members of the subcommittee, on behalf 
of the Columbia River Inter-Tribal Fish Commission (CRITFC), I want to 
thank you for the opportunity to present our views on the fiscal year 
2007 budget for NOAA Fisheries. We encourage this subcommittee to note 
the on-going collaborative effort ordered by the federal judge within 
the region concerning the biological opinion on the Federal Columbia 
River Power System and to also please note the administration's call 
for hatchery reform efforts. CRITFC supports funding the following 
programs as part of a coordinated, comprehensive effort to restore the 
shared salmon resource of the Columbia and Snake River Basins to 
healthy sustainable populations:
  --$200,000 to support the States and tribes in dispersing sea lions 
        from areas where severe salmon depredation is occurring on the 
        Columbia River;
  --$36 million for the Columbia River (Mitchell Act) hatchery program 
        in order to implement reforms called for in the ``Conservation 
        of Columbia Basin Fish'' (Federal Caucus ``All H'' Paper) and 
        the Federal Columbia River Power System Biological Opinion, of 
        which $9 million (or 25 percent of the actual enacted amount) 
        directed to the tribes for new or expanded supplementation 
        programs;
  --No additional funding for the implementation of mass-marking 
        programs of hatchery fish at federally funded hatcheries for 
        the purpose of implementing a selective fisheries program;
  --$20.6 million for Columbia River facilities screening and passage 
        program;
  --$110 million for the Pacific Coastal Salmon Recovery Fund to 
        support on-the-ground salmon restoration activities, of which 
        $5 million should be provided to the intertribal commission of 
        the Columbia River treaty tribes in the form of a direct grant;
  --$9,844,000 for the Pacific Salmon Treaty program, of which 
        $8,000,000 is or the implementation of the 1999 Agreement and 
        previous base programs, and $1,844,000 is for the Chinook 
        Salmon Agreement.
    Background.--In 1977, the Columbia River Treaty Tribes (Nez Perce, 
Umatilla, Warm Springs and Yakama Tribes) formed the Commission to 
provide coordination and technical assistance to the member tribes.
    In 1855, the United States entered into treaties with the four 
tribes to ensure the mutual peace and security of our peoples. In the 
treaties the U.S. promised to protect and honor the rights and 
resources the tribes reserved to themselves. Our rights and our 
religious beliefs are tied to the salmon whose populations have 
dramatically declined to levels that are even causing alarm to non-
Indian commercial fishing-dependent communities. We must vigorously 
pursue the necessary recovery and restoration actions consistent with 
the Endangered Species Act and federal trust obligations.
    CRITFC's principles for fisheries protection and restoration are 
outlined in a restoration plan titled Wy-Kan-Ush-Mi Wa-Kish-Wit (Spirit 
of the Salmon) that can be viewed at www.critfc.org. The plan's 
objectives are to halt the decline of salmon, lamprey and sturgeon 
populations and rebuild salmon runs to levels that support tribal 
ceremonial, subsistence and commercial harvests. The plan emphasizes 
strategies and principles that relies on natural production and healthy 
river systems and utilizes a collaborative conservation approach that 
the White House has encouraged parties to use to address natural 
resource issues. The tribes can point to several successes in 
watershed-based restoration of salmon working with State, Federal and 
private entities.
    Endangered Species Act (ESA)--Pacific Salmon Recovery.--NOAA 
Fisheries is making an ambitious effort to complete salmon recovery 
plans in the Pacific Northwest. Not all of the measures outlined in the 
recovery plans will be funded by the Bonneville Power Administration 
(BPA) which means that additional funding is needed to meet statutory 
and trust obligations to the salmon resource and tribes. For example, 
in coordination with Federal, State and tribal managers, NOAA Fisheries 
has developed necessary monitoring and evaluation programs to measure 
salmon recovery efforts, but funding for these critical efforts are in 
doubt due to the expected fish and wildlife funding levels set by BPA 
for fiscal year 2007-09.
    Sea Lions.--For the second consecutive year sea lion depredation is 
occurring below Bonneville Dam on the Columbia River during a 
drastically low adult spring Chinook salmon return. The States and 
tribes have collaborated to disperse sea lions below Bonneville Dam. 
Sea lion control efforts are subject to a lengthy process in the Marine 
Mammals Protection Act (MMPA). Therefore, $200,000 is requested to 
support State and tribal efforts to disperse problem animals until a 
long term solution is developed under the MMPA.
    Columbia River (Mitchell Act) Hatchery Program.--Restoring Pacific 
salmon and providing for sustainable fisheries requires using the 
Columbia River (Mitchell Act) hatchery program to supplement naturally 
spawning stocks and populations. To accomplish this goal, $36 million 
is requested for the tribal and State co-managers to jointly reform the 
Mitchell Act hatchery program. Of this amount, $9 million, or 25 
percent of enacted funding, will be made available to the tribes for 
supplementation projects.
    Since 1982, CRITFC has called for hatchery reform to meet recovery 
needs and meet mitigation obligations. We welcome the administration's 
objective calling for transforming hatchery systems to aid in salmon 
recovery (Chairman James Connaughton, Council on Environmental Quality, 
Salmon 2100 Conference, January 25, 2006, Portland, Oregon). The tribes 
are leaders in designing and managing supplementation hatchery 
facilities at Yakama, Umatilla and Nez Perce. We believe similar 
practices need to be implemented throughout the basin to reform current 
hatchery production efforts. The tribe's facilities are biologically 
credible and can be used to supplement rather than supplant natural 
spawning salmon populations.
    Mitchell Act hatchery production should be used to assist the 
rebuilding of naturally spawning salmon, the stocks which have 
constrained both Indian and non-Indian fisheries on the West Coast. 
With the adoption of abundance based management for all ocean fisheries 
under the U.S.-Canada Pacific Salmon Treaty in 1999, an aggressive 
effort needs to be undertaken to reform hatchery production to be 
consistent with that new management approach and to aid in the de-
listing of several salmon populations listed under the ESA. The tribes 
can provide leadership for this necessary reform, while still 
mitigating for the damage caused to the salmon resource by the Federal 
Columbia River Power System.
    Mass marking and Selective Fisheries.--No additional Federal 
funding should be provided for the mass marking of hatchery-reared fish 
and the implementation of selective fisheries unless and until the 
tribes and States have agreed upon such programs. The true total 
financial, management, and technical costs of pursuing an aggressive 
mass marking and selective fisheries program have never been 
identified. In addition, there is no technical basis yet in place to 
ensure that this program does not undermine the ability of the U.S. and 
Canada to monitor and evaluate harvest management actions recently 
adopted under the Pacific Salmon Treaty.
    Columbia River Facilities.--To carry out activities identified as 
necessary in the Federal Caucus All-H Paper and the BiOp, $20.6 million 
is requested for the Columbia River facilities screens and fish passage 
programs.
    Pacific Coastal Salmon Recovery Program (PCSRF)/Watershed 
Restoration.--Beginning in 1996, additional funding has been sought by 
the State of Alaska, the Pacific Northwest States, and the treaty 
tribes to serve critical unmet needs for the conservation and 
restoration of salmon stocks shared in these tribal, State, and 
international fisheries (See Record of Discussion, May 20, 1996). The 
PCSRF program provides a significant role in accomplishing the goals of 
this shared effort. For fiscal year 2007, we recommend restoring the 
funding to the fiscal year 2002 appropriated level of $110 million. Of 
this amount, $5 million should be directed to the intertribal 
commission of the Columbia River treaty tribes to support ongoing 
efforts.
    CRITFC acknowledges the economic hardships of western salmon-
dependent communities caused by the current low salmon returns. While 
financial disaster relief meets a short-term economic need for these 
communities, we encourage this committee to not redirect any PCSRF 
funds to offset immediate economic hardship. Long-term economic 
benefits can be achieved by making PCSRF investments on the ground to 
rebuild sustainable, harvestable salmon populations into the future.
    The State and tribal co-managers have responded to concerns raised 
by Congress regarding accountability and performance standards to 
evaluate and monitor the success of this coastwide program. In an 
effort coordinated and facilitated by NOAA Fisheries, the co-managers 
have developed an extensive matrix of performance standards to address 
these concerns. We will continue to ensure that tribally sponsored 
watershed projects are based on the best science, are competently 
implemented and adequately monitored, and address the limiting factors 
affecting salmon restoration. This will include the use of monitoring 
protocols to systematically track current and future projects basin-
wide. Projects undertaken by the tribes last year are consistent with 
Wy-Kan-Ush-Mi Wa-Kish-Wit and the programmatic areas identified by 
Congress.
    Pacific Salmon Treaty Program.--CRITFC supports the U.S. section 
recommendation of $9,844,000 for the Pacific Salmon Treaty. Of this 
amount, $8,000,000 is for the Pacific Salmon Treaty base program with 
Alaska, Oregon, Idaho, Washington, and NOAA to share as described in 
the U.S. section of the Pacific Salmon Commission's Budget 
Justification for fiscal year 2007. In addition, we support $1,884,000 
as first provided in 1997 to implement the abundance based management 
approach (adopted by the U.S. section in 1996) of the Chinook Salmon 
Agreement to carry out necessary research and management activities. 
The overall total amount includes restoration of $2 million for the 
Pacific Salmon Treaty program for the States to implement the 
provisions and management and technical changes adopted by the United 
States and Canada in 1999, particularly to implement the abundance 
based approach for coho management. These funds are subjected annually 
to a strict technical review process.
    In summary, Mr. Chairman, the CRITFC and its four member tribes 
have developed the capacity and infrastructure to be models of 
leadership and stewardship in rebuilding the fisheries in the Columbia 
Basin. Our collective efforts protect our treaty reserved fishing 
rights and we also partner with the non-Indian community to provide 
healthy, harvestable salmon populations for all citizens to enjoy. This 
is a time when increased effort and participation are demanded of all 
of us and we ask for your continued support of our efforts. We will be 
pleased to provide any additional information that this subcommittee 
may require.
                                 ______
                                 

      Prepared Statement of the American Museum of Natural History

About the American Museum of Natural History
    The American Museum of Natural History (AMNH) is one of the 
Nation's preeminent institutions for scientific research and public 
education. Since its founding in 1869, the Museum has pursued its joint 
mission of science and public education. It is renowned for its 
exhibitions and collections of more than 32 million natural specimens 
and cultural artifacts. With approximately 4 million annual visitors--
approximately half of them children--it is one of the largest, fastest 
growing, and most diverse museums in the country. Museum scientists 
conduct groundbreaking research in fields ranging from all branches of 
zoology, comparative genomics, and informatics to earth sciences, 
biodiversity conservation, and astrophysics. Their work forms the basis 
for all the Museum's activities that seek to explain complex issues and 
help people to understand the events and processes that created and 
continue to shape the Earth, life and civilization on this planet, and 
the universe beyond.
The American Museum--NASA Partnership
    In December 1997, NASA and AMNH embarked on a unique partnership, 
founded on a joint commitment to cutting-edge research and to 
integrating that research into educational vehicles that will improve 
science literacy and inspire the next generation. Over this time, we 
have worked with the agency to develop innovative technologies and 
resources that provide an unparalleled platform for interpreting, 
displaying, and distributing NASA content to audiences nationwide. 
Since 2004 the Museum has been incorporated by NASA into its longer-
term science education and public outreach base, with the Museum and 
NASA now in an unprecedented position to leverage our shared 
investments, maximize our accomplishments, and harness our unique 
resources, capacity, and platform to help NASA achieve its goals.
  --The Museum has built a set of singular national resources that 
        bring cutting-edge science and integrated NASA content to total 
        audiences of more than 10 million in New York City, across the 
        country, and around the world. In the New York area alone, the 
        Museum reaches nearly four million annual visitors, including 
        more than 450,000 children in school groups and more than 5,000 
        teachers, with millions visiting online.
  --We have launched a successful program to disseminate project 
        resources to informal learning venues nationally and 
        internationally, with science bulletins already on view in 26 
        locations and space shows at 14, with more being added.
  --We have created science bulletins--technologically innovative, 
        immersive multimedia science encounters, presenting space, 
        Earth, and life science news and discoveries in visually 
        stunning feature documentaries, data visualizations, and weekly 
        updates.
  --The Museum has made numerous technological breakthroughs--it has 
        established leadership in science visualization and high 
        resolution renderings of massive data sets; it has converted 
        its space shows to digital format, making the AMNH the only 
        full planetarium dome content provider that crosses all major 
        platforms; it has pioneered a unique online distribution 
        network that each week streams new science content in HD MPEG2 
        encodes to partners across North America.
  --AMNH routinely hosts major events celebrating NASA's mission 
        highlights and milestones. Recent events have included public 
        interaction with AMNH scientists and NASA astronauts during the 
        Mars MER, Cassini-Huygens, and Return to Flight launches and 
        landings.
  --The Museum's educational mission is fueled by and reflects cutting-
        edge science, including the work of our scientists in 
        collaboration with NASA centers and researchers.
    Building on this remarkable foundation, the Museum seeks to 
continue its institutional collaboration with NASA in fiscal year 2007 
so as to contribute its unique science, education, and exhibition 
capacity, its expertise in innovative and emerging technologies, and 
its national reach to helping the agency meet its goals. The Museum 
proposes activities over a 1-year period to include: R&D on new 
techniques for visualizing massive space and earth science data sets, 
creating visualization tools for presenting NASA missions and other 
dynamic science stories, and for advancing innovative solutions to 
technical challenges in presenting digital planetarium shows; and 
developing current NASA science education resources and continuing to 
scale up their national distribution for presentation in public spaces 
and for classroom use.
    Throughout the course of its NASA partnership, the Museum has very 
successfully leveraged the NASA investment with funds from other 
government and private sources, and it will continue, with renewed 
partnership funding, to support the project with funds from nonfederal 
as well as federal sources.
    Recognizing its potential to support NASA in its goals to pioneer 
the future in space exploration, scientific discovery, and aeronautics 
research; to develop a balanced overall program of science, 
exploration, and aeronautics; and to establish new and innovative 
programs to enhance understanding of our Earth, other planets, 
asteroids, and comets in our solar system, as well as the search for 
life around other stars, the Museum looks forward to continuing its 
institutionalized collaboration with NASA and to contributing its 
unique science, education, and technological capacity to helping the 
agency to meet these goals.
                                 ______
                                 

      Prepared Statement of the American Museum of Natural History

About the American Museum of Natural History
    The American Museum of Natural History (AMNH) is one of the 
Nation's preeminent institutions for scientific research and public 
education. Since its founding in 1869, the Museum has pursued its 
mission to ``discover, interpret, and disseminate--through scientific 
research and education--knowledge about human cultures, the natural 
world, and the universe.'' It is renowned for its exhibitions and 
collections of more than 32 million natural specimens and cultural 
artifacts. With nearly 4 million annual visitors, its audience is one 
of the largest, fastest growing, and most diverse of any museum in the 
country. Museum scientists conduct groundbreaking research in fields 
ranging from zoology, comparative genomics, and informatics to Earth, 
space, and environmental sciences and biodiversity conservation. Their 
work forms the basis for all the Museum's activities that seek to 
explain complex issues and help people to understand the events and 
processes that created and continue to shape the Earth, life and 
civilization on this planet, and the universe beyond.
    The Museum's Center for Biodiversity and Conservation, founded in 
1993, is dedicated to enhancing the use of scientific data to mitigate 
threats to global biodiversity, and integrating this information into 
the conservation process and to disseminate it widely. It conducts 
conservation-related field projects around the world, trains 
scientists, organizes scientific symposia, presents public programs, 
and produces publications geared toward scientists, policy makers, and 
the lay public. Each spring, the CBC hosts symposia that focus on 
conservation issues. The 2005 symposium, New Currents in Conserving 
Freshwater Ecosystems will highlight initiatives from around the world 
that inform our ability to understand and protect the biota, processes, 
and habitats of aquatic ecosystems. The 2006 symposium, Conserving 
Birds in Human-Dominated Landscapes, will focus on unique challenges to 
and key opportunities for invigorating bird diversity in the areas most 
heavily impacted by human activities.
    The Museum's renovated Hall of Ocean Life, reopened in Spring 2003, 
is a major focal point for public education on marine science issues. 
Drawing on the Museum's world-renowned expertise in Ichthyology as well 
as other areas of vertebrate as well as invertebrate zoology, the Hall 
is pivotal in educating visitors about the oceans' key role in 
sustaining life on our planet. The renovated Hall of Ocean Life, 
together with the new Halls of Biodiversity, Planet Earth, and the 
Universe and the rebuilt Hayden Planetarium (part of the new Rose 
Center for Earth and Space) provide visitors a seamless educational 
journey from the universe's beginnings to the formation and processes 
of Earth to the extraordinary diversity of life on our planet.
Common Goals of NOAA and AMNH
    The National Oceanic and Atmospheric Administration (NOAA) is 
committed to understanding and predicting changes in the Earth's 
environment and to conserving and managing coastal and marine resources 
to meet the Nation's economic, social, and environmental needs. NOAA's 
education plan outlines a broad vision for reaching various audiences 
to build awareness and knowledge of issues related to the world's 
atmosphere, climate, oceans, and coastal ecosystems. Addressing the 
needs of teachers, students, and policy makers as well as the general 
public, the agency's goals include enhancing environmental literacy and 
knowledge, application of NOAA science, and development of a capable 
and diverse workforce for environmental science. The American Museum of 
Natural History, one of the Nation's premier research and public 
education institutions, shares NOAA's commitment to these environmental 
goals and to the scientific research and public education that support 
them.
    Since its founding in 1869, the American Museum has pursued its 
mission of scientific investigation and public education. Its 
exhibitions and collections serve as a field guide to the entire planet 
and present a panorama of the world's cultures. Museum collections of 
some 32 million specimens and cultural artifacts provide an 
irreplaceable record of life. More than 200 museum scientists conduct 
groundbreaking research in fields as diverse as systematic and 
conservation biology and astrophysics, Earth and biodiversity sciences. 
The work of scientific staff fuels exhibitions and educational 
programming that reach annually an onsite audience of nearly 4 million 
visitors--nearly half of them children.
Marine Sciences Initiative
    In fiscal year 2004, as a result of congressional leadership, the 
Museum entered into a partnership with NOAA that launched a multi-year 
marine education and research initiative. Support for this initiative, 
which encompasses a broad range of education, outreach, training, and 
research activities closely aligned with NOAA goals and purposes, was 
continued in fiscal year 2005 and further leveraged by museum 
scientists who successfully secured competitive NOAA funding. Building 
upon this successful foundation, and in concert with the strategic 
priorities of NOAA and the Museum, we seek in fiscal year 2007 to join 
with NOAA in aquatic research and education activities that promote 
ocean literacy. Activities will include: ecosystem based research, 
training, and research tools development concerning oceans and aquatic 
environments; special programs on New York waterways for New York City 
schoolchildren; professional development for teachers; and public 
education that will build understanding of the importance of healthy 
oceans and atmosphere.
    The Museum seeks in fiscal year 2007 to partner with NOAA to build 
this marine sciences education and outreach initiative. Support will be 
used, over a 1-year period, for marine research projects, the remote 
sensing/GIS laboratory, and public education and outreach. Together 
with NOAA, and leveraging its participatory share with funds from 
nonfederal as well as other federal sources, the Museum will be 
positioned to advance the environmental education, outreach, and 
research so pivotal to the health of our Nation and our planet.
    Recognizing its potential to support NOAA in its goals to 
understand and predict changes in the Earth's environment; conserve and 
manage coastal and marine resources; and to protect, restore, and 
manage the use of coastal and ocean resources to meet our Nation's 
economic, social, and environmental needs, the Museum looks forward to 
advancing a partnership with the agency in an education, outreach, and 
research initiative to promote public understanding and stewardship of 
marine environments.
                                 ______
                                 

                 Prepared Statement of American Rivers

    American Rivers, on behalf of more than 500 national, regional and 
local organizations representing more than 5 million constituents 
concerned with river conservation,\1\ urges the Committee to provide 
the National Oceanic and Atmospheric Administration with an overall 
appropriation of $4.5 billion in the Commerce, Justice, Science 
Appropriations bill for fiscal year 2007. Within that amount 
$252,000,000 should be allocated for the following priority programs in 
fiscal year 2007. I request that this testimony be included in the 
official record.
---------------------------------------------------------------------------
    \1\ These groups and individuals have endorsed the Citizen's Agenda 
for Rivers which includes the ``River Budget'' for fiscal year 2007, a 
report of national funding priorities for local river conservation. For 
more information on the Citizen's Agenda for Rivers go to 
www.healthyrivers.org.
---------------------------------------------------------------------------

                  PACIFIC COASTAL SALMON RECOVERY FUND

    Pacific salmon are a national treasure with enormous economic, 
cultural, and environmental significance in the States of Washington, 
Oregon, California, Idaho, and Alaska. A century ago, salmon were an 
anchor of the region's economy. Unfortunately, past and present 
mismanagement of our rivers, lands, and salmon fisheries have caused 
populations of salmon to decline dramatically over the past century, 
and 26 runs of Pacific salmon and steelhead are now listed under the 
Endangered Species Act.
    One important program aimed at restoring imperiled runs of chinook, 
coho, sockeye, and chum salmon, as well as steelhead trout, is the 
Pacific Coastal Salmon Recovery Fund, funded through the National 
Oceanic and Atmospheric Administration. For the past several years, 
this program has provided much-needed assistance to State, local, and 
tribal governments in Washington, Oregon, California, Alaska and Idaho 
for salmon recovery projects.
    By increasing funding for the Pacific Coastal Salmon Recovery Fund 
in fiscal year 2007, Congress can help restore this economically, 
culturally, and ecologically valuable resource and help the Northwest 
States and local communities to adopt and embrace the measures needed 
to restore Pacific salmon and steelhead. Restoring salmon will also 
allow the United States to satisfy treaty obligations with Northwest 
Indian tribes and Canada.
    American Rivers appreciates the Committee's past support for this 
program and urges the funding be increased to $200 million in fiscal 
year 2007.

   FISHERIES HABITAT RESTORATION CENTER (COMMUNITY-BASE RESTORATION 
                                PROGRAM)

    Estuaries and coastal wetlands serve many essential functions for 
communities across the Nation. Coastal industries supply 28 million 
jobs and generate billions of dollars annually. Eighty to 90 percent of 
all recreational fish catch and 75 percent of all commercial harvest 
depends upon healthy coastal and estuarine habitats. More than half of 
the coastal wetlands in the lower 48 States have been lost, and almost 
40 percent of estuarine habitat is impaired.
    The Fisheries Habitat Restoration Center and the Community-based 
Restoration Program, reaches out to local constituencies to accomplish 
on-the-ground, community-based projects to restore estuaries and 
coastal habitats. Partnerships and local involvement are fundamental to 
the success of this program. Partners typically match federal dollars 
1:1 and leverage those dollars up to 10 times more through State and 
local participation. To date, the program has funded more than 900 
projects in 25 States, promoting fishery habitat restoration in coastal 
areas with a grassroots, bottom-up approach.
    American Rivers urges the Committee to provide the Fisheries 
Habitat Restoration Program with $24 million in fiscal year 2007 to 
help more communities restore and protect and restore the health of 
their estuaries and coastal habitats.

                THE PENOBSCOT RIVER RESTORATION PROJECT

    The Penobscot River Restoration Project is an unprecedented 
approach to river restoration that will reconfigure hydropower 
facilities and maintain energy production while opening up more than 
500 miles of habitat to 10 native species of anadromous fish, improve 
water quality, boost wildlife and create new opportunities in 
communities along New England's second largest river. The two lowermost 
Penobscot dams, Veazie and Great Works, will be removed and a state-of-
the-art fish bypass will be installed at Howland Dam. This restoration 
project will reestablish the river's historic connection to the ocean, 
and help feed fisheries and wildlife in the river and the Gulf of 
Maine. The project's reconfiguration of dams will have a wide range of 
benefits to fish and wildlife populations, water quality and 
communities along the river. The restoration of the Penobscot River is 
the best last chance for the dwindling Atlantic Salmon populations in 
the country.
    American Rivers urges the Committee to provide $15 million to the 
Penobscot River Restoration Project in fiscal year 2007 to assist in 
the purchase of the three dams on the Penobscot River.

                         OPEN RIVERS INITIATIVE

    Our Nation's rivers are plugged with millions of dams, most still 
functional and benefiting society. Many others are either dilapidated 
having outlived their 50 year life expectancy or are no longer 
providing the benefits for which they were built. These dams are 
unnecessarily degrading the riverine ecosystem and holding up economic 
development. The Open Rivers Initiative (ORI), a new Presidential 
initiative announced by the Secretary of Commerce in 2005, will provide 
grants to communities and local dam owners to remove their dams that no 
longer make sense. These restoration projects provide significant 
environmental improvements and offer noteworthy economic and societal 
benefits. They create new opportunities for recreational fishing, river 
rafting, and kayaking; provide cost savings by eliminating the need for 
dam repairs; and remove safety and liability risks associated with 
outdated structures.
    American Rivers urges the Committee to provide $10 million to the 
Open Rivers Initiative in fiscal year 2007.

                         HYDROPOWER RELICENSING

    The National Marine Fisheries Service (NMFS) would greatly benefit 
from additional funding to address the growing number of hydropower 
dams that need renewal of their operating licenses from the Federal 
Energy Regulatory Commission (FERC). Under the Federal Power Act, the 
NMFS has a responsibility to set license conditions for hydropower dams 
that protect and conserve anadromous (sea-run) fisheries such as 
Pacific and Atlantic salmon, steelhead and sea-run cutthroat trout, and 
shad. FERC approved licenses are nearing expiration at hundreds of dams 
around the country, and workloads are increasing for NMFS and other 
resource agencies. Increasing NMFS's limited hydropower relicensing 
budget is essential to ensure a more efficient licensing process and 
that NMFS can carry out its responsibilities to protect and restore our 
Nation's anadromous fisheries.
    American Rivers urges the Committee to provide the National Marine 
Fisheries Service with $3 million to specifically fund the agencies 
work on hydropower relicensing in fiscal year 2007.
                                 ______
                                 

  Prepared Statement of Claflin University, Orangeburg, South Carolina

    Mr. Chairman, and members of the subcommittee, I thank you for the 
opportunity to submit testimony to the hearing record regarding the 
forensic science laboratory at Claflin University in Orangeburg, South 
Carolina. Claflin University is the oldest historically black college 
or university in the State of South Carolina and has a solid reputation 
for producing science students who are an asset to the Nation's 
scientific workforce.
    In the past fiscal year, as I am sure you are aware, funds with 
which to initiate the establishment of a certified forensics laboratory 
at Claflin University were included in the conference report on the 
Science, State Justice and Commerce Appropriations bill. We wish to 
thank the subcommittee for its support and report on the use to which 
we have put the provided funds. In collaboration with local law 
enforcement agencies, we have used those funds to identify and secure a 
site for the DNA forensic portion of the laboratory, initiated 
renovations to the site as needed, and completed the purchase of some 
of the needed equipment. We are also finalizing the recruitment of the 
initial supervising scientist for the facility. In addition, we have 
developed an initial course in forensics that we will beta test this 
summer with students in our biotechnology degree program.
    The purpose of the forensics laboratory is to allow Claflin 
University to create research and service capacity in DNA, drug and 
ballistics forensic technologies for the Orangeburg community, the 
First Judicial District and other agencies in South Carolina and the 
Nation. A Memorandum of Understanding has been developed with the 
Orangeburg Department of Public Safety, and others are being finalized 
with the Orangeburg County Sheriff's Department and other law 
enforcement agencies within the First Judicial District. The faculty 
within the forensics laboratory will offer courses to students from 
Orangeburg Calhoun Technical College, undergraduates and graduate 
biotechnology students from Claflin and will offer short-course 
continuing education courses approved by the State's Law Enforcement 
Training Academy to local and State law enforcement officials. The 
resulting benefits will include but are not limited to:
  --Reduction in the case evidence backlog;
  --workforce training (for both forensic scientists and law 
        enforcement personnel);
  --crime rate reduction through timely processing of evidence;
  --increased research capacity in DNA forensics technique development; 
        and
  --increased capacity to process back-logged samples for the 
        Department of Justice and the Department of Defense.
    Claflin University will staff a forensics laboratory that will be 
certified for DNA fingerprinting. The laboratory will also provide 
staff and equipment for drug analysis. In addition, the institution 
will collaborate with the Orangeburg Department of Public Safety to 
apply to the National Integrated Ballistic Information Network (NIBIN) 
program at the Department of Justice's Bureau of Alcohol, Tobacco, 
Firearms and Explosives to become a participant in that network in 
order to provide ballistics analysis capacity for the forensics 
laboratory.
    All law enforcement agencies within the First Judicial Circuit 
could greatly benefit in having a regional forensic laboratory with 
these capabilities. This would also reduce the number of cases 
submitted to SLED and other specialized laboratories alleviating some 
of the current backlog seen in these labs and speed time to trial for 
alleged offenders.
    I would also like to point out that this year Claflin University, 
in partnership with Orangeburg Calhoun Technical College received a 
grant from the Department of Labor to establish a joint program in 
biotechnology with a forensics emphasis. This would allow a student to 
earn an associates degree, a bachelor's degree or a master's degree in 
biotechnology, with a forensics specialization, or to stop at any point 
of their choosing in that training continuum. We are certain that the 
collaboration with the local law enforcement agencies to operate a 
forensics laboratory will be a valuable additional asset for our 
overall programmatic goals and will increase the number of qualified 
individuals entering the workforce with expertise in forensic analyses.
    In fiscal year 2007 we are again requesting support of $2.2 million 
to complete the work that we have begun in establishing the forensics 
laboratory. These funds will be used to hire additional personnel for 
the laboratory; purchase the remaining major laboratory 
instrumentation; acquire and restructure space for the ballistics 
facility; purchase consumables and reagents for analytical processes; 
and offer the forensics short course to local law enforcement 
personnel.
    Mr. Chairman, we are sure that the forensics laboratory that we are 
establishing will provide for infrastructure for crime reduction in our 
State as well as allowing us to produce forensic scientists for the 
State and Nation. We hope that the subcommittee will provide the $2.2 
million necessary to continue the progress toward full establishment of 
this vital service asset. Your support will reduce crime, save lives, 
and strengthen the Nation's scientific workforce.
                                 ______
                                 

         Prepared Statement of the National Wildlife Federation

    On behalf on the National Wildlife Federation (NWF) I appreciate 
the opportunity to present this testimony in support of an 
appropriation of $3 million from NOAA's Coastal and Estuarine Land 
Conservation Program for the San Miguel Project in the Commonwealth of 
Puerto Rico.
    NWF is the U.S. largest member-supported conservation education and 
advocacy group. It unites people from all walks of life to protect 
nature, wildlife, and the world we all share. NWF's mission is to 
educate, inspire and assist individuals and organizations of diverse 
cultures to conserve wildlife and other natural resources and to 
protect the Earth's environment in order to achieve a peaceful, 
equitable and sustainable future.
    The Northeastern Ecological Corridor (NEC) comprising approximately 
3,200 acres, is one of the Caribbean's last, great, unprotected areas. 
Located on the eastern corner of the main island of Puerto Rico within 
the municipalities of Luquillo and Fajardo, the NEC contains an 
extraordinary array of tropical habitats seldom found in other parts of 
the world. In addition to coral communities, mangroves, and pre-
Columbian forests, all the different varieties of coastal wetlands 
found throughout Puerto Rico are represented within the NEC. The 
wetlands in this area are essential to the existence of a seasonal 
bioluminiscent lagoon known as Laguna Aguas Prietas, an extremely rare 
biological phenomenon.
    The NEC's location within the foothills of the El Yunque Caribbean 
National Forest adds to its great natural value and uniqueness. 
Originally set aside in 1876 by the Spanish Crown, this United Nations 
Biosphere Reserve is one of the oldest forest protected areas in the 
Western Hemisphere, and is the only tropical rain forest in the United 
States national forest system. The forest contains rare wildlife and is 
home to over 50 species of birds, including the Puerto Rican parrot--
one of the ten most endangered species of birds in the world. The 
ecological diversity observed within the NEC and the Caribbean National 
Rain Forest, varying from a coastal dry forest to a rain forest, lies 
within a corridor just 13 miles in length. Such an occurrence, in an 
amazing limited area, is extremely rare in any location around the 
world and, can only be enhanced or protected by the conservation of the 
NEC.
    In recognition of the NEC's extraordinary natural value, the NWF 
has supported its protection since 1999. During NWF's annual meeting 
held on March 2006 at New Orleans, a resolution presented by two of our 
affiliates, the Puerto Rican Ornithological Society and the Virgin 
Islands Conservation Society, was approved, supporting the protection 
of coastal and wetland habitats of concern such as those found on the 
Corridor. Furthermore, NWF endorsed the Commonwealth of Puerto Rico 
House of Representatives Bill 2105, designating the NEC as a nature 
reserve, as well as its sustainable development based on ecotourism and 
nature tourism activities.
    Available for acquisition in fiscal year 2007 is the 1,277-acre San 
Miguel property, consisting of three parcels within the NEC. These 
parcels contain extensive wetland areas contiguous to the Pitahaya, 
Juan Martin and Sabana rivers, and harbor an array of unique upland and 
wetland ecosystems. The project site includes some of the last 
remaining unspoiled dune systems and a significant coral community 
immediately off shore. Its bird fauna is remarkable and according to 
the Puerto Rico Department of Natural and Environmental Resources 
(DNER), it has the one of the highest diversity of birds of any natural 
protected area in the north region of the Island. The property falls 
within the range of over 40 rare species of flora and fauna, some even 
unique to Puerto Rico, including 16 federally threatened or endangered 
listed species, such as the hawksbill sea turtle, Virgin Island boa, 
Puerto Rican boa, brown pelican, Puerto Rican plain pigeon, West Indian 
manatee, and Cobana negra (a flowering tree). The area is best known, 
however, as one of the most important nesting grounds for leatherback 
sea turtles in the Unites States and the Caribbean. Over 420 
leatherback sea turtle nests were recorded during the 2005 nesting 
season. Due to its ecological value, the NEC has been identified by the 
DNER, the USDA Forest Service's International Institute of Tropical 
Forestry and the U.S. Fish and Wildlife Service, as a critical wildlife 
area of primary importance in Puerto Rico. The NEC also contains a 
variety of archeological resources, such as historical tools and 
structures.
    At the present time, several multinational lodging corporations 
have proposed various mega luxury residential-tourist resorts within 
the NEC. One of the largest proposed developments would be built on the 
San Miguel tracts at the boundary of the municipalities of Luquillo and 
Fajardo. The San Miguel Resort would include 1,025 residential units, a 
250-room hotel/casino, 175 timeshare units, and two golf courses. The 
development would involve the filling of wetlands, channelization of 
rivers, and clearance of coastal vegetation, thus destroying the 
natural integrity of the NEC. If the San Miguel resort were to be 
constructed as planned, it would further deplete the limited water 
supplies needed by local communities, resulting in a deficit of over 
4,000,000 gallons of water per day, a deficit which accounts for the 
water requirements of nearly 25,000 people. There is widespread concern 
as well about other negative impacts the development would have on this 
sensitive area, including limited public access to beaches and other 
coastal resources, and unnecessary exposure of life and property on 
lands affected by floods and other natural hazards present at the NEC.
    Given the ongoing controversy over development of the property, 
including years of lawsuits, strong public opposition, and permitting 
difficulties, the owners have decided to make the land available for 
conservation. Federal agencies, the Commonwealth of Puerto Rico, and 
private parties have come together in an effort to preserve this 
remarkable coastal property. Public ownership will preserve the coastal 
resources, protect the rivers and wetlands, buffer El Yunque Caribbean 
National Forest, and provide public beach access and recreational 
opportunities.
    Approximately $25 million will eventually be needed to complete the 
San Miguel acquisition. If this effort should fail, some form of 
development would likely occur on this highly sensitive property. The 
construction of the proposed resort would undermine past and current 
conservation efforts in an area that has been widely recognized by the 
Federal and Commonwealth agencies, and private conservation 
organizations for its unique expression of biological diversity.
    A fiscal year 2007 appropriation of $3 million from NOAA's Coastal 
and Estuarine Land Conservation Program is needed to further the 
protection of the San Miguel tracts. These funds will be matched by 
$2.27 million in settlement funds from the Barge Berman Oil Spill 
(specifically for land acquisition), up to $5.7 million of other oil 
spill settlement funds (for restoration categories), $3 million 
committed by the Conservation Trust of Puerto Rico, and additional 
funds being raised by a local land trust and other interested private 
parties. I urge you to include this project in the fiscal year 2007 
Commerce, Justice, and Science Appropriations bill.
    Thank you, Mr. Chairman, for the opportunity to present this 
testimony and for your consideration of this important request.
                                 ______
                                 

              Prepared Statement of The Nature Conservancy

    Mr. Chairman, thank you for the opportunity to offer the 
recommendations of The Nature Conservancy on the fiscal year 2007 
budget for the National Oceanic and Atmospheric Administration (NOAA).
    The Nature Conservancy is an international, nonprofit organization 
dedicated to the conservation of biological diversity. Our mission is 
to preserve the plants, animals and natural communities that represent 
the diversity of life on Earth by protecting the lands and waters they 
need to survive. Our on-the-ground and in-the-water conservation work 
is carried out in all 50 States and in 27 foreign countries and is 
supported by approximately 1 million individual members. We have helped 
conserve nearly 15 million acres of land in the United States and 
Canada and more than 102 million acres with local partner organizations 
globally.
    The conservancy owns and manages approximately 1,400 preserves 
throughout the United States--the largest private system of nature 
sanctuaries in the world. We recognize, however, that our mission 
cannot be achieved by core protected areas alone. Therefore, our 
projects increasingly seek to accommodate compatible human uses to 
address sustained human well-being.
    The conservancy works to identify priorities for coastal and marine 
conservation through marine ecoregional plans. We identify present and 
likely future threats to marine biological diversity before attempting 
to identify appropriate strategies for conservation. At more than 100 
marine sites around the world, the Nature Conservancy has used a 
variety of strategies for marine conservation including habitat 
restoration of important nursery and spawning areas, removal of 
invasive species, coastal land acquisition, private conservation of 
submerged lands, elimination of destructive practices, establishment of 
protected areas, management of extractive marine resources activities, 
and reduction of nutrient and toxic inputs to coastal systems. No 
single strategy works everywhere and at every site, multiple 
conservation approaches are needed. The selection of appropriate 
approaches depends on the biological, socioeconomic, and political 
circumstances at each site.
    The National Oceanic and Atmospheric Administration (NOAA) is an 
important partner to the conservancy in many aspects of our 
conservation work:
  --We rely upon NOAA's data, research, and monitoring of coastal and 
        marine systems, and have several shared priorities on which we 
        collaborate. For example, NOAA's Coastal Services Center 
        maintains a strong customer-service, partnership-oriented 
        approach to providing needed information and technical 
        assistance to States, local governments, other federal 
        agencies, and the private sector to inform decision-making.
  --We rely on NOAA's programs that support site-based conservation--
        those that fund conservation and restoration activities, and 
        those that provide for management of coastal and marine 
        systems. NOAA's ability to meet its requirements under various 
        resource management statutes could be significantly improved by 
        enhancing the agency's ability to fund on-the-ground 
        conservation needs. Programs such as Coastal and Estuarine Land 
        Conservation, Community-based Restoration, Open Rivers 
        Initiative are excellent examples of NOAA taking a practical, 
        community-oriented approach to conservation and management of 
        coastal and marine resources. These programs should be 
        expanded.
  --NOAA's contributions to State and local implementation and 
        educational programs help to ensure that the human capacity 
        exists to address environmental management issues at the 
        necessary scale. We are concerned that NOAA's support for human 
        capacity to implement programs within the agency and at the 
        State and local levels is often the first to go in tight budget 
        environments. The committee should provide funding for staff 
        capacity to provide technical assistance, efficiently manage 
        grants and programs, and help to measure effectiveness. For 
        example, funding for Cooperation with the States in NMFS Office 
        of Protected Resources is an opportunity to better engage 
        States in addressing the needs of federally-listed species. A 
        similar program in the U.S. Fish and Wildlife Service has been 
        very successful in helping to solve problems and improve the 
        status of declining species.
    Additionally, we are concerned that funding for oceans in general 
and NOAA specifically is declining. The conservancy urges the committee 
to provide appropriations for NOAA at or approaching $4.5 billion. This 
funding level for NOAA would allow enhancements in the development of 
an integrated ocean and atmospheric observing system; increased 
research and education activities, expanded ocean conservation and 
management programs; and provide critical improvements in 
infrastructure (satellites, ships, high performance computers, 
facilities), and data management. Such an increase would represent 
significant progress toward addressing recommendations contained in the 
reports of the U.S. Commission on Ocean Policy and the Pew Oceans 
Commission.
    Finally, we would like to work with the committee on guidance to 
NOAA regarding implementation of a number of key programs.
    Coastal and Estuarine Land Conservation Program (CELCP).--The 
Nature Conservancy supports funding CELCP at $60 million for fiscal 
year 2007 and looks forward to working with the committee to guide 
selection of high priority projects. We appreciate the committee's 
inclusion of report language in the fiscal year 2006 conference report 
directing NOAA to develop a list of eligible CELCP projects for fiscal 
year 2007. We look forward to delivery of that list, and hope that it 
will be useful to the committee as you make decisions regarding this 
important program.
    We hope that the committee will once again include this language in 
your report for fiscal year 2008 project selection. The project review 
process for fiscal year 2007 has been illuminating in showing what is 
working and what is less successful. Our review of this process draws 
attention to three additional issues.
  --First, we have found that, while some States engaged in a truly 
        outstanding collaborative and public process to select 
        projects, others took a more narrow approach to outreach. One 
        of the key elements of success of the Forest Legacy program is 
        the emphasis the Forest Services places on public and partner 
        involvement. NOAA should be directed to provide similar 
        involvement.
  --Second, a $3 million project cap was included in the guidance for 
        the call for proposals. We are concerned that this cap may be 
        either unnecessarily constraining or may lead to inflated 
        project proposals. States should be encouraged to request what 
        is needed to complete a given project within an appropriate 
        timeframe, and should work with NOAA and the Congress to ensure 
        funding is available within budget constraints.
  --Finally, we are increasingly concerned about the lack of dedicated 
        staff capacity for CELCP at NOAA. Current practice is to assess 
        a percentage of the project appropriation to cover NOAA staff 
        costs. However, our practice is to request funding only for 
        direct project costs, and we are very concerned about the 
        impact such a tax is going to have on the ground. NOAA needs a 
        dedicated line of funding to support program administration and 
        management, and should be prohibited from assessing a 
        percentage of project allocations to cover administrative 
        costs.
    NOAA Habitat Restoration.--The Nature Conservancy requests 
increased funding for habitat conservation and restoration to support 
fisheries management objectives, protected species recovery, and other 
coastal and marine management requirements. NOAA needs to invest more 
in constructive, on-the-ground and in-the-water habitat conservation. 
Habitat losses have a substantial impact on the health and productivity 
of marine ecosystems, yet NOAA's ability to work closely with 
communities around the country to stem or reverse these losses is 
limited. We are encouraged by the creation of the new Open Rivers 
Initiative and continued investment in the successful Community-based 
Restoration Program, but these great programs fall far short of what is 
needed to address the threats. The conservancy and NOAA are now 
struggling to find financing for a number of projects that we started 
with grants from the Community-based Program.
    The conservancy recommends $20 million for Community-based 
Restoration, $7.2 million more than the President's budget, and more in 
line with the House and Senate recommendations going into the fiscal 
year 2006 conference. We request $10 million for the new Open Rivers 
Initiative, $4 million more than the President's budget. We urge you to 
ensure that this new program is additive to NOAA's habitat restoration 
capacity, and doesn't reduce funding available for existing programs.
    Coral Reef Conservation Program and Coral Reef Watch.--The 
conservancy has developed a strong partnership with NOAA's Coral Reef 
program, and we are delighted with their enthusiastic desire to work 
together on improving resilience of coral reefs, developing approaches 
for sustainable financing for coral conservation activities at the 
local level, and other creative approaches to reducing threats to 
corals.
    However, we are concerned with the decision made the fiscal year 
2006 conference to cut funding for NESDIS coral monitoring in fiscal 
year 2006. The President requested $737,000 for this modest but 
effective program known as ``Coral Reef Watch.'' In 2005, not only did 
NESDIS scientists in this program predict a major coral bleaching event 
in the Caribbean, but these scientists were able to reach out to NMFS, 
NOS and partners in the region to use the attention generated by the 
event to help local managers take action to help reefs recover from the 
devastating effects of bleaching.
    Finally, we urge you to include an additional $1.5 million for 
``Local Action Strategies,'' a unique partnership between NOAA and 
States and territories to address threats to coral reefs at the local 
level.
    Pacific Coast Salmon Recovery Fund.--The Pacific Coast Salmon 
Recovery Fund (PCSRF) has funded hundreds of successful on the ground 
salmon conservation efforts, and we are pleased that NOAA and the 
States receiving these funds have greatly improved tracking the process 
of restoration and management under this important program.
    This program is a critical complement to federal salmon recovery 
and management efforts. It enables the State to initiate restoration of 
salmon habitat and manage fisheries in areas beyond the reach of the 
Federal Government, e.g. on private lands. The PCSRF enables the States 
to leverage significant amounts of State funding to address the needs 
of private landowners in complying with the Endangered Species Act, 
maintaining the economic viability of these lands, while greatly 
contributing to economic recovery. In Alaska, where the vast majority 
of salmon populations and habitats are healthy, these funds help 
maintain the economic viability of the salmon industry, Alaska's 
largest employer, by providing and maintaining fisheries that don't 
conflict with protection of ESA listed stocks that spend part of their 
life history in the Gulf of Alaska.
    We are concerned about the decline in funding for the program, from 
$89 million in fiscal year 2004 and fiscal year 2005 to $67 million in 
fiscal year 2006, and $66 million in the President's fiscal year 2007 
request. The conservancy strongly supports $90 million for this 
program. We are also concerned how the funds are allocated across the 
five States involved in the program. We feel that the conservation 
activities oriented towards recovery and protection of salmon should be 
the primary purpose of this program, and therefore urge the committee 
to consider including report language in this year's appropriation that 
more explicitly links expenditures of PCSRF funds to recovery actions 
identified in federal and State salmon recovery and management plans, 
where applicable.
    Thank you for this opportunity to share with the committee the 
conservancy's priorities in NOAA's fiscal year 2007 budget. We would be 
pleased to provide the committee with additional information on any of 
the conservancy's activities described here or elsewhere. You may 
contact Erika Feller at 703-841-5374, if you have questions on which we 
might be of assistance.
                                 ______
                                 

     Prepared Statement of Liga Conciencia Ambiental del Este, Inc.

    On behalf of the (LIGA) ``Liga Conciencia Ambiental del Este'', I 
appreciate the opportunity to present this testimony in support of an 
appropriation of $3 million from NOAA's Coastal and Estuarine Land 
Conservation Program for the San Miguel project in Puerto Rico.
    The LIGA is a non-profit organization of citizens which volunteer 
at schools, participate in local conservation efforts and aim to 
preserve and protect the Northeast Ecological Corridor (NEC) from the 
reckless impactful surge of construction already quite evident. This 
exotic coastline area between Fajardo and Luquillo in Puerto Rico is 
unbelievably unique and pristine with an array of habitats seldom found 
in other parts of the world. It is home to about 40 rare or 
``critically endangered'' species. Please note that the NEC coastal 
area is considered the third most important endangered Leatherback 
Turtle nesting are in the U.S. jurisdiction. The Fish and Wildlife 
Supervisor James Oland has stated that ``this beach area is the only 
pristine habitat extensive enough to allow for its (Leatherback Turtle) 
future recovery in Puerto Rico''. Beautiful corals still exist and 
various Pre-Columbine Forest types. Various wetlands remain here, 
essential to the existence of the biodiversity present, like for 
example a rare biological phenomenon of not one but two ``thriving 
bioluminescent lagoons''. There may also exist Taino and historical 
archeological finds yet to be correctly researched. The ``accumulative 
effects'' of the proposed Dos Mares and San Miguel Resorts ``mega 
constructions'' would ultimately negatively effect further the water 
shortage problems of this area, due to the more than 3,000 residential 
and touristic units, casinos and gold courses etc., resulting in a 
deficit of over 4 million gallons of water per day.
    Of further need is the concern to have public access to our 
beaches, and a proper buffer zone for our ``El Yunque National Forest'' 
which should extend from the top of the mountain down to the coast. 
This forest contains the only U.S. tropic wilderness area and is also 
the only tropical forest in the United States. We of the LIGA are 
totally against high intensive (5 star) development and truly wish that 
with your help, a natural reserve with the alternative of real 
ecotoursitic recreational opportunities, could be made available in the 
future.
    We have in our hands the chance to save and prepare for future 
generations, a treasure of rare land, ocean and animal species; not 
only for our local citizens and children but also to share with the 
rest of the world. We urge you to please include this project in the 
fiscal year 2007 Commerce, Justice and Science Appropriations bill. We 
thank you for your attention and remain hopeful that you will truly 
consider this proposal-which could only serve to benefit mankind.
                                 ______
                                 

            Prepared Statement of the Nisqually Indian Tribe

    Mr. Chairman, my name is Dorian Sanchez and I am the chairman of 
the Nisqually Indian Tribe. On behalf of the tribe, I would like to 
submit the following written testimony on the fiscal year 2007 budget 
for the Office of Justice Programs.
    The Nisqually Reservation is located in Washington State. We 
currently employ nine land patrol law enforcement officers to patrol 
5,000 acres of reservation and near reservation lands. In addition, 
Nisqually Tribe Police has extensive marine water enforcement duties 
and employs two water patrol officers to patrol over 100 square miles 
of Puget Sound for both the treaty salmon fishery and treaty shellfish 
harvesting. Tribal law enforcement also provides hunting enforcement 
for over 50,000 acres of land in the tribe's usual and accustomed area 
within the Nisqually River watershed.
    We also employ ten detention officers at our 45-bed detention 
facility, which was built with Department of Justice funding in 2002. 
Like many other tribes, we are struggling to cope with escalating 
methamphetamine use and associated increases in gang activity and 
property crime related to drug dealing and manufacturing. The 
methamphetamine crisis has received significant attention recently in 
Congress and in the media, but what is often overlooked is the 
disproportionately devastating impact that meth has had on Indian 
communities across the country. Tribes' resources are stretched beyond 
capacity in order to address this problem.

                           JUSTICE ASSISTANCE

    The administration proposed to consolidate several programs, 
including law enforcement and juvenile justice programs, under the 
Justice Assistance account. Overall funding for these programs would be 
significantly reduced under this proposal, and many programs that 
specifically serve tribes would be cut entirely. The tribe opposes any 
effort by the administration to reorganize the funding structure in 
order to mask program cuts, and we request that the administration 
restore funding to the following programs:
  --Incarceration on tribal lands ($15 million);
  --Tribal courts initiative ($8 million); and
  --Indian country grant program ($5 million).

                    JUVENILE DELINQUENCY PREVENTION

    The tribe also requests that the subcommittee restore full funding 
for title V local juvenile delinquency prevention programs and, in 
particular, that the $10 million earmark for the Tribal Youth Program 
(TYP) be restored. For fiscal year 2007, the administration has 
requested only $32 million for delinquency prevention programs--this is 
half of the fiscal year 2006 enacted amount. In past years, $10 million 
of this funding has been earmarked for tribal juvenile delinquency 
prevention programs under the TYP line item, but in the fiscal year 
2007 budget proposal, no funding is specifically designated for tribal 
youth programs.
    In most tribal communities, juvenile delinquency early intervention 
programs are funded by TYP grants. The Nisqually Indian Tribe received 
TYP funding in 2000 to support the Nisqually Indian Juvenile Justice 
Improvement Project, and these funds were used to hire and train a 
youth counselor for the youth court and to develop detention 
alternatives, such as diversion, community peer review, traditional 
dispute resolution, drug courts and mentoring programs. The tribe 
received funding again in 2003 for the tribe's At-Risk Native Youth 
Intervention project, a program to provide targeted outreach, 
assessment, support and mental health services to children who are at 
risk for academic failure or are already involved in the juvenile 
justice system. If funds are not earmarked for tribal programs, 
competition will intensify for this already-limited source of funding, 
and programs like these may not be funded in the future.
    In addition, the tribe supports restoration of the Juvenile 
Accountability Block Grant program. The administration has again 
proposed to eliminate this important program entirely, calling it 
``unfocused.'' On the contrary, as Congress has recognized in restoring 
this program for the past 3 years, it provides essential funding for 
substance abuse and mental health services and graduated sanctions 
programs. Of particular importance in Indian country is the Tribal 
Juvenile Accountability Discretionary Grant program, a separate JABG 
allocation for Indian tribes to provide delinquency prevention 
services. Successful delinquency prevention programs require 
coordination of multiple systems (substance abuse, mental health, child 
welfare, courts, detention, community-based alternatives to detention, 
etc.). For this wraparound approach to work, all these programs must 
receive funding, and tribes must have the flexibility to allocate 
resources among them as needed. JABG grants are an important source of 
this flexible core funding; if these grants are eliminated, tribal 
juvenile justice systems will be severely crippled.

                              TRIBAL COPS

    The tribe supports the administration's proposed $16 million 
increase to the tribal COPS program. We are concerned, however, that 
this increase is being used to justify cuts to all the other tribal 
programs discussed above. It is important that the subcommittee 
understand that funding for justice programs in Indian country still 
falls far short of meeting the severe need for law enforcement and 
tribal justice resources--a need that will be even greater this year in 
light of significant cuts to Indian programs--including the Tribal 
Courts program--proposed by the Bureau of Indian Affairs. Tribes depend 
on law enforcement and tribal justice funding and this year--at the 
height of the meth crisis--this funding should be increased, not simply 
redistributed or reduced overall.
    If we can provide any additional information, please do not 
hesitate to contact our counsel, Mary J. Pavel or Addie C. Rolnick at 
Sonosky, Chambers, Sachse, Endreson & Perry, LLP, 1425 K Street NW, 
Ste. 600, Washington, DC 20005; 202-682-0240 (tel); 202-682-0249 (fax); 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="711c011007141d31021e1f1e021a085f121e1c">[email&#160;protected]</a>; <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b9d8cbd6d5d7d0dad2f9cad6d7d6cad2c097dad6d497">[email&#160;protected]</a>
                                 ______
                                 

           Prepared Statement of the Skokomish Tribal Nation

    Good morning. My name is Gordon James. I am the chairman of the 
Skokomish Tribe of Washington State. On behalf of the tribe, I would 
like to submit the following written testimony on the fiscal year 2007 
budget for the Office of Justice programs. The tribe respectfully 
requests that the subcommittee support the administration's proposed 
increase to the Tribal COPS program and reject the administration's 
proposed cuts to other tribal justice programs.
    The Skokomish Department of Public Safety has been granted the 
responsibility and authority to enforce laws and regulations as set 
forth by the Skokomish Tribal Council. Enforcement of tribal laws and 
regulations will enhance and strengthen the development of the tribe's 
human resources, encourage the development of the reservation, and 
support community values and goals for the achievement of self-
determination as a nation. The tribe provides the only marine law 
enforcement and rescue services in a 35-mile radius of the southern 
Hood Canal. In addition, the department works closely with non-tribal 
law enforcement agencies and with neighboring tribes to combat the 
scourge of drug trafficking in this rural area.
    As the committee is undoubtedly aware, drug abuse is rampant on 
many Indian reservations, and the recent increase in methamphetamine 
use has had an especially damaging effect on Indian country. The 
Skokomish Reservation saw significant population growth in the 1980s 
and early 1990s, and along with this growth came an alarming increase 
in the extent and severity of drug use and abuse. Our community is 
coping with the far-reaching effects of methamphetamine abuse, placing 
a far greater burden on our law enforcement, health and child welfare 
services, as well on our court system.
    According to data from the tribe's Alcohol Service program, more 
than half of our young adults are affected by drug dependency. We have 
also seen an increase in drug-related crimes, such as armed assaults, 
drug manufacturing and drug dealing. Of the 1,800 calls that tribal 
police have responded to in the last 6 months, more than one-third have 
been drug-related, and many of these calls involved non-Indians. 
Because non-Indians often view reservations as places where they can 
manufacture and sell drugs free from State authority, we have also seen 
an increase in clandestine methamphetamine labs on the reservation. 
Tribal officers play a key role in detecting and busting these labs, 
and it is clear that if the tribe is forced to close its department or 
scale back its law enforcement and justice resources, our rural 
community will indeed become a haven for meth and other drugs.
    The Skokomish Department of Public Safety places strong emphasis on 
Community Oriented Policing for Skokomish tribal members, residents and 
visitors of the Skokomish Indian Reservation. The department consists 
of both patrol and fish and wildlife enforcement divisions, which help 
the department obtain its goals of proactively suppressing criminal 
activity, preventing crime, and protecting the Skokomish Tribe's 
interests, lands, and properties. The two departments were consolidated 
in 2003 to allow for more effective patrol services within the 
reservation. In the last 10 years, the Department of Public Safety 
(DPS) has grown from 1 untrained officer to a force of 13 Washington 
State/BIA-certified officers. There are currently 11 full time officers 
(3 of which are assigned primarily to Fish and Wildlife Enforcement) 
and 2 provisional officers (1 of which is also assigned to Fish and 
Wildlife duties). The department also utilizes the services of 6 
reserve police officers. We also employ a full time civilian that acts 
as court clerk and administrative assistant. All Skokomish Public 
Safety officers are cross-trained to perform patrol duties and fish and 
wildlife enforcement.
    The Patrol Division operates 7 days a week, 24 hours a day. It 
supports the mission of the department by preserving the peace, 
conducting investigations of crimes, providing patrols on tribal lands 
and properties, answering calls for assistance, detecting criminal 
activities, identifying potential disturbances, enforcing traffic 
regulations on reservation lands, investigating and responding to 
accidents, arresting criminal offenders, and providing emergency 
services.
    The Fish and Wildlife Enforcement division works to protect tribal 
treaty fishing, hunting and shellfish rights. Skokomish fish and 
wildlife officers are fully commissioned tribal police officers. They 
enforce fish, wildlife and environmental laws, patrol fishing sites, 
inspect nets, check tribal identification, regulate hunting and fishing 
licenses, monitor fishing, hunting and shellfish locations, and 
investigate violations of Skokomish fish and wildlife, criminal, and 
traffic codes.
    The tribe supports the administration's proposed $16 million 
increase to the tribal COPS program. The COPS program provides a 
flexile source of funding for tribal law enforcement programs like the 
Skokomish Department of Public Safety and many tribes depend on these 
grants.
    However, this increase should not be balanced with cuts elsewhere 
in the budget for tribal programs. Increased funding for the COPS 
program is sorely needed in Indian country, but tribes should not be 
forced to sacrifice funding for tribal courts, juvenile delinquency 
prevention and other justice programs in order to secure adequate law 
enforcement funds. The entire range of law enforcement and justice 
programs (prevention, early intervention, law enforcement, prosecution, 
detention) in Indian country has always been drastically underfunded, 
and the need for this funding has only intensified with the rampant 
methamphetamine production and use on reservations. We ask the 
committee to recognize this need and reject the administration's 
proposed elimination or reduction for the following tribal programs:
  --Incarceration on tribal lands ($15 million);
  --Tribal courts initiative ($8 million);
  --Indian country grant program ($5 million); and
  --Tribal Youth Program, title V local juvenile delinquency prevention 
        ($10 million).
    We cannot overstate the importance of this funding to Indian 
country.
    If we can provide any additional information, please do not 
hesitate to contact our counsel, Mary J. Pavel or Addie C. Rolnick at 
Sonosky, Chambers, Sachse, Endreson & Perry, LLP, 1425 K Street NW, 
Ste. 600, Washington, D.C. 20005; 202-682-0240 (tel); 202-682-0249 
(fax); <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c1acb1a0b7a4ad81b2aeafaeb2aab8efa2aeac">[email&#160;protected]</a>; <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c1a0b3aeadafa8a2aa81b2aeafaeb2aab8efa2aeacef">[email&#160;protected]</a>
                                 ______
                                 

      Prepared Statement of the Conservation Trust of Puerto Rico

    The Conservation Trust of Puerto Rico (CTPR) presents this 
testimony in support of an appropriation of $3 million from NOAA's 
Coastal and Estuarine Land Conservation Program for the San Miguel 
Project in the Commonwealth of Puerto Rico.
    CTPR was created in January 23, 1970 by the government of the 
Commonwealth of Puerto Rico and the U.S. Department of Interior as a 
private, nonprofit organization devoted to the protection and 
conservation of the natural resources of the Island of Puerto Rico. Its 
sole beneficiary is the people of Puerto Rico. The trust is 
administered by three trustees jointly designated by the Governor of 
Puerto Rico and the U.S. Secretary of Interior.
    As the foremost non-governmental conservation entity in the island, 
CTPR currently protects more than 17,000 acres of land on 20 nature 
areas across the island, provides interpretive programs to over 106,000 
visitors per year in its three sites open to the public, promotes 
citizen participation in conservation and reforestation activities 
through its education programs, and produces about 65,000 native trees 
a year in its four tree nurseries. The trust has a staff of 95 
employees who work in property management, visitor interpretive 
services, land acquisitions, donations, and conservation easements, 
public education, fundraising, and administration.
    One of the trust's principal mandates is to acquire--through 
purchase, donations, easements, or other mechanisms--land that is vital 
to Puerto Rico's natural and cultural heritage; and to maintain and 
care for the land already under its protection. In selecting properties 
for acquisition, the trust seeks land of extraordinary natural, 
aesthetic, and historic value.
    Since the mid-1980s, the Conservation Trust of Puerto Rico has been 
active in land acquisition, management, and conservation efforts of the 
lands adjacent and within the Northeastern Ecological Corridor (NEC).
    The NEC, comprising approximately 3,200 acres, is one of the 
Caribbean's last, great, unprotected areas. Located on the eastern 
corner of the main island of Puerto Rico within the municipalities of 
Luquillo and Fajardo, the NEC contains an extraordinary diversity of 
tropical habitats seldom found in other parts of the world. In addition 
to coral communities, mangroves, and pre-Columbian forests, all the 
different varieties of coastal wetlands found throughout Puerto Rico 
are represented within the NEC. The wetlands in this area are essential 
to the existence of a seasonal bioluminiscent lagoon known as Laguna 
Aguas Prietas, an extremely rare biological phenomenon.
    The NEC also acts as a natural bridge where all of Puerto Rico's 
six ecological life zones are connected: from a coastal dry forest in 
Las Cabezas de San Juan Nature Reserve to a lower montane rain forest 
in El Yunque Caribbean National Forest. In one end of the Corridor is 
Las Cabezas de San Juan Nature Reserve, a 539 acres coastal protected 
area owned and managed by the trust, considered one of Puerto Rico's 
most important natural areas. This reserve contains a prize-winning 
restoration of an 1882 neoclassic lighthouse (El Faro) built by the 
Spaniards that is open to the public since April 1991. Of the island's 
14 lighthouses, El Faro's is the second oldest and is recorded on the 
Federal Register of Historic Places. A nature center located in the 
lighthouse provides close-up educational views of the reserve's animals 
and plants, and a rooftop observation deck offers spectacular vistas of 
El Yunque, the NEC, St. Thomas and islands as distant as Tortola. Home 
to 96 bird species, the reserve is popularly known for its coastal 
lagoon (Laguna Grande), one of three major bioluminescent water bodies 
in Puerto Rico exhibiting this unique biological phenomenon all 
throughout the year. This nature reserve receives more than 50,000 
visitors annually.
    In the other end of the Corridor is El Yunque Caribbean National 
Forest. Designated as a United Nations Biosphere Reserve, El Yunque is 
composed of more than 25,000 acres of land. This forest was originally 
set aside in 1876 by the Spanish Crown and is one of the oldest 
protected areas in the Western Hemisphere. It is also the only tropical 
rain forest within the United States national forest system. The forest 
contains rare wildlife and is home to over 50 species of birds, 
including the Puerto Rican parrot--one of the ten most endangered 
species of birds in the world. Considered Puerto Rico's most popular 
nature attraction, El Yunque receives more than 800,000 visitors per 
year.
    This incredible ecological diversity, found at a distance of less 
than 13 miles in length, adds to the NEC's great natural value and 
uniqueness. Such an occurrence, in an amazing limited area, is 
extremely rare in any location around the world. This is why the 
Conservation Trust of Puerto Rico has actively engaged in the 
protection and conservation of the NEC and its surrounding areas. In 
1986, CTPR acquired the lands that currently compose Las Cabezas de San 
Juan Nature Reserve. In 1992, the trust, in collaboration with the 
Puerto Rico Department of Natural and Environmental Resources (DNER), 
proposed the designation of the NEC as an extension of Las Cabezas de 
San Juan Nature Reserve under the name of Segmento El Convento. Since 
then, the National Oceanic and Atmospheric Administration (NOAA) has 
requested that the Puerto Rico Coastal Zone Management program, 
administered by the DNER, develop a strategy and a schedule for the 
official designation and establishment of the NEC as a nature reserve.
    Available for acquisition in fiscal year 2007 is the 1,277-acre San 
Miguel property, consisting of three parcels within the NEC. These 
parcels contain extensive wetland areas contiguous to the Pitahaya, 
Juan Martin and Sabana rivers, and harbor an array of unique upland and 
wetland ecosystems. The project site includes some of the last 
remaining unspoiled dune systems and a significant coral community 
immediately off shore. Its bird fauna is remarkable and according to 
the DNER, it has one of the highest diversity of birds of any natural 
protected area in the north region of the island. The property falls 
within the range of over 40 rare species of flora and fauna, some even 
unique to Puerto Rico, including 16 federally threatened or endangered 
listed species, such as the Hawksbill sea turtle, Virgin Island boa, 
Puerto Rican boa, brown pelican, Puerto Rican plain pigeon, West Indian 
manatee, and Cobana negra (a flowering tree). The area is best known, 
however, as one of the most important nesting grounds for Leatherback 
sea turtles in the Unites States and the Caribbean. Over 420 
Leatherback sea turtle nests were recorded during the 2005 nesting 
season. Due to its ecological value, the NEC has been identified by the 
DNER, the USDA Forest Service's International Institute of Tropical 
Forestry and the U.S. Fish and Wildlife Service, as a critical wildlife 
area of primary importance in Puerto Rico. The NEC also contains a 
variety of archeological resources, such as historical tools and 
structures.
    At the present time, several multinational lodging corporations 
have proposed various mega luxury residential-tourist resorts within 
the NEC. Given the ongoing controversy over development of the 
property, the owners are considering to make the land available for 
conservation if funding is secured. Federal agencies, the Commonwealth 
of Puerto Rico, and private parties have come together in an effort to 
preserve this remarkable coastal property. Public ownership will 
preserve the coastal resources, protect the rivers and wetlands, buffer 
El Yunque Caribbean National Forest, and provide public beach access 
and recreational opportunities.
    Approximately $25 million will eventually be needed to complete the 
San Miguel acquisition. If this effort should fail, some form of 
development would likely occur on this highly environmentally sensitive 
property. The construction of the proposed resort would undermine past 
and current conservation efforts in an area that has been widely 
recognized by the Federal and Commonwealth agencies, and private 
conservation organizations, such as the Conservation Trust of Puerto 
Rico, for its unique expression of biological diversity.
    A fiscal year 2007 appropriation of $3 million from NOAA's Coastal 
and Estuarine Land Conservation program is needed to further the 
protection of the San Miguel tracts. These funds will be matched by 
$2.27 million in settlement funds from the Barge Berman oil spill 
(specifically for land acquisition), up to $5.7 million of other oil 
spill settlement funds (for restoration categories) and additional 
funds are being raised by other interested private parties. The 
Conservation Trust will collaborate and provide additional matching 
funds to secure this transaction. I urge you to include this project in 
the fiscal year 2007 Commerce, Justice, and Science Appropriations 
bill.
    With a limited land mass and a growing population, Puerto Rico must 
act quickly to counter the encroachment of urban areas into unique 
wildlife habitats, such as the ones found in the Northeastern 
Ecological Corridor. Maintaining the health and viability of native 
habitats and biodiversity is essential to our ecological, economic, 
cultural and social sustainability. Thank you, Mr. Chairman, for the 
opportunity to present this testimony and for your consideration to 
this important request in favor of one of Puerto Rico's most threatened 
coastal ecosystems.
                                 ______
                                 

     Prepared Statement of the National Center for Victims of Crime

    The National Center for Victims of Crime submits this testimony to 
urge members of the Subcommittee on Commerce, Justice, Science, and 
Related Agencies to once again reject the proposed rescission of the 
Victims of Crime Act (VOCA) fund as part of the Department of Justice 
appropriations legislation. In addition, we urge subcommittee members 
not to allow the creation of additional earmarks from the VOCA fund, 
and to set the cap on distributions from the fund at $685 million for 
fiscal year 2007.
    The National Center for Victims of Crime, the leading national 
resource and advocacy organization for victims of crime, knows the 
considerable and urgent funding needs of those who serve crime victims. 
Since our founding in 1985, we have worked with public and nonprofit 
agencies throughout the country, providing information, support, and 
technical assistance to thousands of victims, victim service providers, 
allied professionals, and advocates. Our toll-free information and 
referral helpline alerts us to the needs of crime victims nationwide. 
Through our training institute and our daily interactions with our 
members and the nearly 10,000 crime victim service providers in our 
referral network, we stay informed of their work and know the impact of 
federal-level funding decisions on their ability to meet the needs of 
victims. In short, we hear from victims and service providers every day 
about the impact and importance of the VOCA fund.

                      UNDERSTANDING THE VOCA FUND

    Congress created the VOCA fund over 20 years ago to ensure on-
going, dedicated federal support for State and local crime victim 
programs. The fund receives no taxpayer dollars: it is comprised solely 
of criminal fines and penalties imposed on federal offenders. Most of 
the funds are distributed each year by formula grants to the States to 
fund: (a) crime victim compensation programs, which pay many of crime 
victims' out-of-pocket expenses that directly result from the crime; 
and (b) crime victim assistance programs. VOCA assistance funding 
supports more than 4,400 State and local victim programs, including 
rape crisis centers, domestic violence shelters, victim assistants in 
law enforcement and prosecutor offices, and other direct services for 
victims of crime.
    VOCA funds support services such as:
  --The Prescott House Child Advocacy Center in Birmingham, Alabama;
  --an advocate for elder victims of domestic violence at the Women's 
        Community in Wausau, Wisconsin;
  --the Pro Bono Counseling Project, serving crime victims in 
        Baltimore, Maryland;
  --Our House, a program for homicide survivors in Greenville, 
        Mississippi;
  --the Upper Ohio Valley Sexual Assault Help Center in Wheeling, West 
        Virginia;
  --the State MADD office in Baton Rouge, Louisiana; and
  --the victim/witness unit of the Commonwealth's Attorney's Office in 
        Winchester, Virginia.
    VOCA assistance dollars fund services that help victims in the 
immediate aftermath of crime, including accompaniment to hospitals for 
examination; hotline counseling; emergency food, clothing, and 
transportation; replacing or repairing broken locks; filing restraining 
orders; support groups; and more. VOCA money also funds assistance as 
victims move through the criminal justice system, including 
notification of court proceedings, transportation to court, help 
completing a victim impact statement, notification about the release or 
escape of the offender, and help in seeking restitution.
    Along with funding programs that serve victims, VOCA dollars 
support crime victim compensation, which steps in when victims have no 
insurance, no workman's compensation, and no other assistance to meet 
out-of-pocket expenses related to the crime. The Crime Victim 
Compensation program pays medical bills, counseling costs, crime scene 
cleanup, burial costs, and similar expenses. The VOCA fund reimburses 
States for 60 percent of their compensation costs.
    VOCA assistance grant money is crucial to enable both criminal 
justice system-based and community programs to serve victims of crime. 
Programs report that they have already made significant cuts due to 
recent reductions in State and private funding. They have already taken 
such steps as closing satellite offices, reducing services for family 
members of victims, cutting staff positions, and eliminating staff 
training. The VOCA subgrants have been their remaining stable source of 
funding.

               WHY THE VOCA FUND CURRENTLY HAS A BALANCE

    In 1999, Congress acted to ensure the stability of VOCA funding. 
For many years, all money collected in a given year was disbursed in 
the following year. However, the nature of the funding stream--all 
criminal fines on federal offenders--caused the level of available 
funding to vary significantly. In some years, large fines against 
corporate offenders caused a surge in deposits. In 1999, Congress chose 
to reserve a portion of the deposits from such years to offset lower 
collections in leaner years. That year, Congress placed a cap on the 
amount of funding disbursed from the fund. The appropriations 
conference report noted that ``the conferees have taken this action 
(delaying annual fund obligations) to protect against wide fluctuations 
in receipts into the fund, and to ensure that a stable level of funding 
will remain available for these programs in future years'' (fiscal year 
2000; Conf. Rpt. 106-479).

                     REJECT THE PROPOSED RESCISSION

    The administration's proposed budget for fiscal year 2007 would 
rescind the balance of the VOCA fund at the end of fiscal year 2007. 
This rescission, which would include any amounts remaining after the 
fiscal year 2007 appropriation and all moneys collected in fiscal year 
2007, would produce a zero balance in the VOCA fund at the start of 
fiscal year 2008. If enacted, this proposal would cause havoc in the 
victim assistance and compensation arenas, and risk permanently 
destabilizing the web of support for victims of crime that has been 
built during the past 20 years. Congress rejected such a proposal last 
year, and we urge you to do the same for fiscal year 2007.

              IMPACT OF RESCISSION ON VICTIM COMPENSATION

    Crime victim compensation programs must know where they stand 
financially at the outset of the year to make payments predictably and 
on time. When preparing their budgets, State compensation programs 
assume they will receive reimbursements for 60 percent of their 
qualifying payouts to victims, as the Victims of Crime Act provides. 
However, if the VOCA fund has a zero balance at the beginning of fiscal 
year 2008, State compensation programs cannot be sure that they will 
receive that entire reimbursement. It could be an entire year before a 
compensation program knows, for example, whether it can pay a 
physician's bill for an assault victim's emergency surgery. During that 
year, the assault victim may have to endure repeated harassment from 
bill collectors while waiting for a decision on his compensation claim. 
A delay in payment and uncertainty in the amount of the VOCA grants to 
compensation programs is a bureaucratic headache to administrators, but 
an injustice to victims of crime awaiting payments.

                IMPACT OF RESCISSION ON VICTIM SERVICES

    The rescission would undermine the ability of many victim 
assistance agencies to keep their doors open. VOCA assistance dollars 
provide ongoing support to existing programs that help victims through 
the criminal justice process and provide them needed counseling and 
support to recover from the offense. Even as they struggle to diversify 
and expand their funding sources, victim assistance agencies must still 
rely on their VOCA grants to remain open.
    A rape crisis center that loses its VOCA funding, even for several 
months, is likely to lose staff and discontinue services--which hurts 
both victims and the program's longterm viability. When a victim seeks 
the center's help to cope with a traumatic sexual assault, it's no good 
telling her to come back in 6 months when a counselor may be available. 
When the rape crisis center has to end its outreach and services for 
Spanish-speaking victims, it's no good trying to pick up the pieces a 
year later when some funding is restored. The damage has been done, and 
the center's work to build relationships and a reputation with that 
community has been set back years.
    Similarly, if a criminal justice agency loses the funding for its 
victim assistance staff, the loss disrupts the office's efforts to 
maximize the victim's effective participation in the criminal justice 
process. It also undermines the ability of the criminal justice system 
to comply with crime victims' rights laws.
    Moreover, the State granting agencies that direct VOCA funds to 
providers must know at the outset of each year the total amount of VOCA 
victim assistance dollars they will have to disburse before they begin 
making grants. Such information is integral to their ability to 
responsibly and effectively manage such a formula grant.

 FISCAL YEAR 2007 VOCA FUNDING SHOULD BE SET AT $685 MILLION, WITH NO 
                          ADDITIONAL EARMARKS

    Finally, even though our first priority is the rejection of the 
proposed VOCA fund rescission, we also urge you to set the cap on the 
VOCA fund at $685 million for fiscal year 2007 and block additional 
earmarks from the VOCA fund, even for projects that serve crime 
victims. Increasing the cap to $685 million would allow victim services 
to meet growing needs. In Virginia, advocates anticipate a 10 percent 
reduction in victim/witness staff due to the rising costs of benefits. 
They also anticipate a 10 percent decrease in funding for sexual 
assault services. In Wisconsin, advocates report a growing number of 
victims of financial abuse and identity theft, as well as increases in 
violent offenses. Advocates elsewhere speak of the need to expand 
services to elderly victims, to immigrant victims, and to teen victims 
of crime. Additional funding could support services for those victims.
    At the same time, Congress must be vigilant against the creation of 
earmarks out of the VOCA fund. Congress designed the VOCA fund to 
support formula grants that allow each State to fund victim services on 
the basis of the needs and strategic plans of that State. Additional 
earmarks on money from the general VOCA fund would thwart Congress' 
intentions in designing the fund.
    Congress' creation of the VOCA fund in 1984 fundamentally changed 
the way our Nation responds to victims of crime. In establishing the 
fund, Congress acted to provide ongoing support for services and 
compensation programs that help victims rebuild their lives. Congress 
reaffirmed its commitment to victims last year, when it rejected the 
administration's proposal to rescind the VOCA fund. We urge you to 
reject that proposal again this year, preserving the VOCA fund for the 
purposes for which it was created, to appropriate $685 million from the 
fund for fiscal year 2007, and to resist any pressure to further 
earmark the fund.
                                 ______
                                 

           Prepared Statement of the Sierra Club, Puerto Rico

    On behalf on Sierra Club of Puerto Rico and the national Sierra 
Club, I thank the committee for its time and consideration. The 
following testimony is in support of an appropriation of $3 million 
from NOAA's Coastal and Estuarine Land Conservation program for the San 
Miguel project in Puerto Rico.
    The Sierra Club was founded in 1892 to explore, enjoy and protect 
the environment. Our 800,000 members continue more than 100 years later 
in this effort. The Puerto Rico chapter is the newest of the Club's 64, 
and was formalized a little over a year ago after 4 years of work, 
largely on the goal of protecting the Northeast Ecological Corridor. I 
refer you to the attached formal resolution passed by the Sierra Club's 
national board of directors upon the official formation of the chapter 
here in Puerto Rico in February of 2005.
    I will also refer you to the testimony of our fellow environmental 
organizations for a more detailed review of the environmental values of 
the Northeast Ecological Corridor which are numerous: it's 40 rare, at 
risk, endangered and endemic species; the endangered Leatherback turtle 
which nests in the Corridor, one of the three most important nesting 
sites for the turtles in all of U.S. jurisdiction; the Pterocarpus, 
mangrove and pre-Columbian forests, and much more.
    I instead will focus on environmental trends in Puerto Rico and the 
vision our coalition is proposing for the Northeast Ecological Corridor 
and the northeast region of Puerto Rico.
    With 3.9 million people in only 3,500 square miles, Puerto Rico has 
a higher population density than Japan. The island is also among the 
most road-covered places in the world and boasts 2.4 million cars on 
streets and highways which often leave residents trapped in endless 
traffic jams. After decades of rapid development, Puerto Rico is 14 
percent urban, compared with 2.6 percent of the mainland landmass. 
While developed areas are growing three to four times faster than the 
population, urban density is decreasing, leaving huge numbers of 
abandoned buildings. The result is sprawl development which is 
threatening to destroy the very essence of Puerto Rico, commonly known 
as ``la Isla del Encanto'' or the Island of Enchantment''. Three-
fourths of the islands' construction projects are granted zoning 
exemptions.
    Concerned about both the degradation of the quality of life of 
local residents and the diminishing of the island's unique tourism 
potential, an array of organizations formed what is now known as the 
Coalition for the Northeast Ecological Corridor. It is comprised of 20 
local, island-wide, national and international organizations as well as 
over 1000 individuals dedicated to the permanent protection of the 
Corridor.
    We hope to see the Corridor protected as a Nature Reserve but with 
a plethora of eco-tourist amenities including: kayaking, mountain 
biking, camping, access for fishermen, etc. But at the heart of this 
proposal is in the economic development of the two towns adjacent to 
the Corridor, Luquillo and Fajardo. Our hope is that tourists visiting 
the Corridor will have to enter the Reserve through the two towns and 
that the services tourists use will be based in these towns. We hope to 
see development of equipment rental stores, small hotels, restaurants, 
etc.
    The Corridor serves as a natural link between other regional eco-
tourism destinations. El Yunque National Forest, for example, is only a 
15 minute drive from the Northeast Ecological Corridor, is the second 
most visited place in Puerto Rico. But the thousands of the tourists 
that visit the forest have little reason to stay in the region. For 
this reason the coalition is proposing the designation of an Eco-
Tourism region which would be called La Porta de la Naturaleza, 
modeling after the island's western tourism destination, La Porta del 
Sol.
    We are proposing a sort of package. Tourists would leave San Juan 
traveling east. They would spend a day biking and tasting typical Afro-
Puerto Rican food at widely known kiosks in Pinones, Puerto Rico's 
largest mangrove forest. They would spend several days exploring El 
Yunque's trails, waterfalls and hidden swimming holes, staying in one 
of many country inns in the area, before heading to the Northeast 
Ecological Corridor. After several days there the typical tourist would 
take off for one of Puerto Rico's smaller islands, Vieques or Culebra.
    We imagine this eco-tourism region taking life for non-Puerto 
Ricans during the winter months and internal tourists during the summer 
months, preserving some of the encanto for the enjoyment of residents 
and non-residents alike. The northeastern region already has 6,000 
luxury hotel units built, in construction, or in planning in addition 
to 14 golf courses. The Northeast Ecological Corridor is too special to 
sacrifice for more of the same.
    It is with this hope to protect the Northeast Ecological Corridor, 
one of Puerto Rico's only remaining undeveloped coastal areas of 
considerable size that we respectfully request your support of the 
proposed appropriation.
    I thank you, Mr. Chairman, on behalf of the Sierra Club's 800,000 
members, for the opportunity to present this testimony and for your 
consideration of this important request.

                               RESOLUTION
DESIGNATION OF PUERTO RICO'S NORTHEAST ECOLOGICAL CORRIDOR AS A NATURE 
                                RESERVE

    Whereas, the Sierra Club is America's oldest, largest and most 
influential grassroots environmental organization, with over 700,000 
members.
    Whereas, the Sierra Club, through all lawful means, seeks to 
explore, enjoy and protect the wild places of Earth; practice and 
promote the responsible use of Earth's ecosystems and resources; and 
educate and enlist humanity to protect and restore the quality of the 
natural and human environment.
    Whereas, the Northeastern Ecological Corridor (``NEC''), comprising 
approximately 3,200 acres on the eastern corner of the main island of 
Puerto Rico, is one of the Caribbean's last great-unprotected areas, 
containing an extraordinary array of tropical habitats seldom found in 
other parts of the world.
    Whereas, all of the coastal wetlands found in Puerto Rico, such as 
coral communities, mangroves, pre-Columbian forest, and a 
bioluminescent lagoon, are represented within the NEC.
    Whereas, the diversity of habitats within the NEC have made this 
area home of the federally endangered Puerto Rican (``PR'') Plain 
Pigeon, the Snowy Plover, the Brown Pelican, the Puerto Rican Boa, the 
Hawksbill Sea Turtle and the West Indian Manatee, among other 40 
critical species (rare, endemic, threatened and endangered), some even 
designated as critically endangered by the World Conservation Union 
(IUCN).
    Whereas, the NEC is considered one of the most important nesting 
grounds for Leatherback sea turtles (Dermochelys coriacea) in areas 
under U.S. jurisdiction.
    Whereas, the NEC's conservation and location within the foothills 
of the Caribbean National Forest (El Yunque Rain Forest), a United 
Nations Biosphere Reserve and only tropical rain forest managed by the 
U.S. Forest Service, helps guarantee this area great natural value and 
uniqueness.
    Whereas, the NEC is currently threatened by the construction of 
over 1,900 residential and tourist units, two 18-holes golf courses and 
a 9-holes golf course, as well as related facilities from the 
development of the San Miguel Resort and the Dos Mares Resort, to be 
managed by Four Seasons Resorts & Hotels and Marriott International, 
respectively.
    Whereas, the construction of the San Miguel-Four Seasons Resort and 
the Dos Mares-J.W. Marriott Resort would include the filling of 
wetlands, canalization of rivers and the clearance of coastal 
vegetation, significantly impacting the species and other living 
resources that inhabit on the NEC.
    Whereas, the San Miguel-Four Seasons Resort and the Dos Mares-J.W. 
Marriott Resort would further deplete the limited water supplies needed 
by local communities, affecting the quality of life of thousands of 
U.S. citizens in the eastern region of Puerto Rico; in addition to 
severely limiting citizen's access to public beaches and lands within 
the NEC.
    Whereas, the development of the San Miguel-Four Seasons Resort and 
the Dos Mares-J.W. Marriott Resort would be contrary to the goals and 
objectives of the U.S. Clean Water Act, the U.S. Endangered Species 
Act, the U.S. Coastal Zone Management Act and the U.S. Coastal Barriers 
and Improvement Act, including several Commonwealth's statutes.
    Whereas, the destruction of the NEC's ecology and natural 
integrity, and the elimination of its common enjoyment for the sole 
benefit of private interests would be contrary to any principles of 
environmental justice and sustainable development.
    Now, therefore, be it resolved that the Sierra Club's Board of 
Directors endorses the Sierra Club's new Puerto Rico Chapter in its 
efforts to achieve the designation of the NEC as a nature reserve, an 
action proposed since 1978 and supported by the U.S. Fish & Wildlife 
Service, the University of Puerto Rico--Rio Piedras Campus' Department 
of Biology, the Catholic Church's Dioceses of Caguas, the Governor of 
Puerto Rico, Sila M. Calderon's Environmental Council, local community 
and environmental groups and national conservation organizations.
    Be it further resolved that the Sierra Club's Board of Directors 
requests that Four Seasons Resorts & Hotels and Marriott International 
withdraw any further interest in developing the San Miguel Resort and 
Dos Mares Resort on the NEC, respectively.
    Be it further resolved that the Sierra Club Board of Directors 
Chapter requests that the Commonwealth of Puerto Rico designate the NEC 
as a nature reserve, as proposed by the Puerto Rican Department of 
Natural & Environmental Resources in 1992.
    Unanimously passed on Saturday, February 19th, 2005.
                                 ______
                                 

    Prepared Statement of the National Council for Science and the 
                              Environment

                                SUMMARY

    The National Council for Science and the Environment (NCSE) urges 
Congress to appropriate at least $6.02 billion for the National Science 
Foundation (NSF) in fiscal year 2007, an increase of $439 million or 
7.9 percent relative to fiscal year 2006. NCSE supports this increase 
in order to put NSF on the doubling track that is proposed in the 
President's American Competitiveness Initiative as well as a series of 
recent bills and reports. NCSE encourages Congress to support a faster 
rate of growth in order to implement previous recommendations of the 
National Science Board regarding the importance of expanding NSF's 
environmental research and education portfolio.
    The United States leads the world in scientific discovery and 
innovation, but we should not take this leadership for granted. The 
long-term prosperity of the Nation, our quality of life, as well as our 
national and homeland security require a strong and steady commitment 
of federal resources to science and technology. Environmental R&D is a 
critical component of the overall federal investment in research and 
development. Federal investments in environmental R&D must keep pace 
with the growing need to improve the scientific basis for environmental 
decisionmaking.
    As a result of the recent reorganization of the Senate 
Appropriations Committee, the Subcommittee on Commerce, Justice, 
Science and Related Agencies now has broader jurisdiction over 
environmental research and education. NCSE commends the subcommittee 
for its past bipartisan leadership in support of science to improve 
environmental decisionmaking. The subcommittee has an historic 
opportunity to address pressing national challenges by appropriating 
strong and growing funding for environmental research and education at 
NSF, NOAA, and other science agencies under the subcommittee's expanded 
jurisdiction.
    The National Council for Science and the Environment is dedicated 
to improving the scientific basis for environmental decisionmaking. We 
are supported by over 500 organizations, including universities, 
scientific societies, government associations, businesses and chambers 
of commerce, and environmental and other civic organizations. NCSE 
promotes science and its essential role in decisionmaking but does not 
take positions on environmental issues themselves.

                           NSF BUDGET REQUEST

    The President's budget request would increase funding for the 
National Science Foundation by $439 million or 7.9 percent to $6.02 
billion in fiscal year 2007. Even if Congress approves the President's 
request to increase the NSF budget by 7.9 percent in fiscal year 2007, 
the NSF budget would still be slightly below the fiscal year 2004 
funding level in real dollars (after accounting for inflation). 
However, NSF funding for R&D (excluding education, training, and 
overhead costs) would reach a record level in real dollars after 
falling in fiscal year 2005 and 2006.
    The 7.7 percent increase proposed for NSF's Research and Related 
Activities account would benefit all scientific disciplines. NCSE urges 
Congress to encourage NSF to provide substantial increases in funding 
for all fields of science supported by the agency.
    NSF's priority area in Biocomplexity in the Environment is being 
phased out, and fiscal year 2007 is the final year of this highly 
successful initiative. NSF will continue to support interdisciplinary 
studies of this type within the structure of its regular programs. 
After fiscal year 2007, this research portfolio will be referred to as 
Complexity in Environmental Systems. In fiscal year 2007, funding for 
Biocomplexity in the Environment will decline to $42.6 million, a cut 
of $40.8 million or 48.9 percent compared to fiscal year 2006. Three 
primary areas that will be supported in fiscal year 2007 are Carbon and 
Water in Earth Systems; Dynamics of Coupled Natural and Human Systems; 
and Materials Use: Science, Engineering and Society. It is anticipated 
that these three areas will continue as independent programs in the 
future after the Biocomplexity in the Environment priority area ends in 
fiscal year 2007, and NCSE encourages Congress to support this plan.
    NSF's Major Research Equipment and Facilities Construction (MFEFC) 
account contains several projects that will advance the environmental 
sciences. The fiscal year 2007 budget request contains $12.0 million in 
the MREFC account for initial implementation of the National Ecological 
Observatory Network (NEON) and an additional $11.9 million in other 
accounts for NEON concept and development activities. The budget 
request for NSF's Major Research Equipment and Facilities Construction 
account also contains $27.4 million for EarthScope, $42.9 million for 
the Scientific Ocean Drilling Vessel, and $9.1 million for the South 
Pole Station Modernization project. Two new starts in the MREFC account 
are the Alaska Region Research Vessel ($56.0 million) and the Ocean 
Observatories Initiative ($13.5 million), both of which help fulfill 
the administration's 2004 U.S. Ocean Action Plan, developed in response 
to the U.S. Commission on Ocean Policy. These projects have the 
potential to generate scientific breakthroughs and transform the 
environmental sciences. NCSE urges Congress to provide full funding for 
all of these initiatives.
    Optimism about current proposals to double the NSF budget in 10 
years is tempered by the failure of a recent attempt to double the NSF 
budget in 5 years. The National Science Authorization Act of 2002, 
which was passed by Congress and signed into law by President Bush, 
called for a doubling of the NSF budget from fiscal year 2002 to fiscal 
year 2007. The annual appropriations bills have fallen far short of the 
doubling path specified in the NSF Authorization Act. The fiscal year 
2007 budget request for NSF is nearly $4 billion below the level 
authorized in the last doubling initiative. However, the current 
doubling initiative has been given a high priority in the President's 
budget request. NCSE urges Congress to appropriate the funds necessary 
to achieve this goal.

     EXPANDING NSF'S ENVIRONMENTAL RESEARCH AND EDUCATION PORTFOLIO

    The National Science Foundation plays a crucial role in supporting 
environmental R&D. Environmental research often requires knowledge and 
discoveries that reach across disciplinary and institutional 
boundaries. NSF recognizes this and encourages multidisciplinary 
environmental activities across the entire agency, as well as with 
other federal agencies. NSF has established a ``virtual directorate'' 
for Environmental Research and Education (ERE). Through this virtual 
directorate, NSF coordinates the environmental research and education 
activities supported by all the directorates and programs.
    Although the National Science Board said environmental research and 
education should be one of NSF's ``highest priorities'' (see below), 
the growth of the ERE budget has lagged behind the growth of the 
overall NSF budget in recent years. Given that the National Science 
Board has identified environmental research and education as one of the 
agency's highest priorities, funding for the ERE portfolio should grow 
at least as rapidly as the total NSF budget. In order to achieve the 
$1.6 billion funding level recommended by the National Science Board, 
NCSE supports rapid growth in NSF's Environmental Research and 
Education portfolio over the next several years.

 NATIONAL SCIENCE BOARD REPORT ON ENVIRONMENTAL SCIENCE AND ENGINEERING

    The National Council for Science and the Environment encourages 
Congress to support full and effective implementation of the 2000 
National Science Board (NSB) report, Environmental Science and 
Engineering for the 21st Century: The Role of the National Science 
Foundation, within the context of doubling the NSF budget.
    The National Science Board report sets out an ambitious set of 
recommendations that could dramatically improve the scientific basis 
for environmental decisionmaking. The first keystone recommendation is 
as follows:
  --Environmental research, education, and scientific assessment should 
        be one of NSF's highest priorities. The current environmental 
        portfolio represents an expenditure of approximately $600 
        million per year. In view of the overwhelming importance of, 
        and exciting opportunities for, progress in the environmental 
        arena, and because existing resources are fully and 
        appropriately utilized, new funding will be required. We 
        recommend that support for environmental research, education, 
        and scientific assessment at NSF be increased by an additional 
        $1 billion, phased in over the next 5 years, to reach an annual 
        expenditure of approximately $1.6 billion.
    The report says that the National Science Board expects NSF to 
develop budget requests that are consistent with this recommendation. 
At first, growth in the Environmental Research and Education budget 
reflected its priority status: from fiscal year 1999 to 2001, the ERE 
account grew more rapidly than the overall NSF budget. However, the ERE 
growth rate has trailed the total NSF growth rate since that time. From 
fiscal year 2002 to fiscal year 2005, the ERE budget grew by 
approximately 13 percent while the total NSF budget grew by 20 percent. 
The lagging growth of the Environmental Research and Education budget 
relative to the total NSF budget in recent years raises serious 
concerns about its status as one of NSF's ``highest priorities.''
    The National Science Board envisioned a 167 percent increase in 
funding for the ERE portfolio, from approximately $600 million to $1.6 
billion, within the context of a doubling of the total NSF budget over 
5 years. The doubling did not materialized over the past 5 years, but 
we urge Congress to support implementation of the NSB recommendation as 
the NSF begins a new doubling initiative. If the Environmental Research 
and Education portfolio is one of NSF's highest priorities, then the 
growth rate of the ERE budget should not lag behind the growth rate of 
the total NSF budget.
    The National Science Foundation has taken many steps to implement 
the recommendations of the NSB. Full implementation of the NSB report 
will require strong support from Congress and a significant increase in 
funding for NSF's portfolio of environmental science, engineering and 
education.
                                 ______
                                 

     Prepared Statement of the National Center for Victims of Crime

    The National Center for Victims of Crime submits this testimony to 
urge members of the subcommittee to fully fund the Sexual Assault 
Services Program (SASP) as part of the Department of Justice 
appropriations legislation. The SASP, created by the Violence Against 
Women Act of 2005 (VAWA 2005) and authorized at $50 million, will 
provide crucial funding for our Nation's rape crisis centers and other 
organizations serving victims of sexual assault, which are currently 
seriously underfunded and understaffed. This shortage of funds has left 
many victims of sexual violence--women and men, girls and boys--with no 
place to turn for help. Funding the SASP will ensure that all victims 
will receive the counseling and support they need to recover from the 
trauma of sexual violence.
    The incidence of sexual assault in America remains unconscionably 
high. Every two-and-a-half minutes a person is sexually assaulted in 
our country.\1\ Sexual violence is a crime that affects people of all 
backgrounds and ages--children and adults, males and females. 
Approximately 1 in 6 women and 1 in 33 men in America have experienced 
an attempted or completed rape as a child or adult.\2\ Nearly 5 percent 
of college women are sexually assaulted during any given calendar 
year.\3\
---------------------------------------------------------------------------
    \1\ Bureau of Justice Statistics. (2005). Criminal Victimization in 
the United States, 2004: Statistical Tables. Table 1. Washington, DC: 
Bureau of Justice Statistics, U.S. Department of Justice.
    \2\ National Violence Against Women Survey, ``Prevalence, 
Incidence, and Consequences of Violence Against Women,'' November 1998.
    \3\ Fisher et al. (2000). The Sexual Victimization of College 
Women. Washington, DC: National Institute of Justice/Bureau of Justice 
Statistics, U.S. Department of Justice.
---------------------------------------------------------------------------
    Sexual assault exacts a heavy cost on individuals, families, and 
communities. Victims of sexual violence experience higher rates of 
depression, anxiety disorders, mental illness, addiction, eating 
disorders, and self-esteem problems than non-victims. Sexual assault 
victims are also at increased risk for committing suicide or abusing 
substances. The emotional well-being of the victims' friends and family 
are also negatively impacted.\4\
---------------------------------------------------------------------------
    \4\ Seymour, Anne, Kilpatrick, Dean, & Edmunds, Christine. (1992). 
Rape In America: A Report to the Nation. Arlington, VA: National Center 
for Victims of Crime.
---------------------------------------------------------------------------
    Workplaces and communities are also affected when victims suffer. 
Sexual assault victims face loss of economic productivity through 
unemployment, underemployment, and absence from work. According to the 
Centers for Disease Control, 21 percent of victims who have been raped 
by an intimate partner report losing time from work as a result of 
their victimization.\5\
---------------------------------------------------------------------------
    \5\ National Center for Injury Prevention and Control (2003). Costs 
of Intimate Partner Violence Against Women in the United States. 
Atlanta, Georgia. Centers for Disease Control and Prevention.
---------------------------------------------------------------------------
    The National Center, the leading national resource and advocacy 
organization for victims of crime, understands well the state of 
services for victims of sexual violence. Our helpline staff speaks to 
sexual assault victims every day, and works to connect them to local 
services. We also hear from rape crisis centers and State sexual 
assault coalitions across the country who have told us that they are 
desperately struggling to meet the needs of victims. Many of our 
members are also system-based service providers, such as victim-witness 
coordinators in prosecutors' offices and police departments. These 
agencies rely on rape crisis center staff to support victims through 
the medical and criminal justice system. They, too, can testify to the 
impact the shortage of funds has on the ability of rape crisis centers 
to provide services for every victim that needs them.

                   THE SERVICES AVAILABLE FOR VICTIMS

    Approximately 1,315 rape crisis centers across the country help 
victims of rape, sexual assault, sexual abuse, and incest rebuild their 
lives by providing a range of vital services to victims. These centers:
  --operate 24-hour hotlines;
  --provide 24-hour accompaniment to law enforcement departments, 
        hospitals, and legal proceedings;
  --offer short- and long-term individual therapy and support groups 
        for victims and their families;
  --perform legal advocacy; and
  --assist victims with obtaining compensation and restitution.
    Rape crisis centers serve all victims of sexual violence, including 
women who have been raped, child sexual assault and incest survivors, 
adult survivors of childhood sexual abuse, male victims, persons with 
disabilities, and victims who experience abuse in later life. They also 
provide necessary aid to family members and others affected by sexual 
violence.
    Rape crisis centers often play a vital role in a victim's recovery 
after the crime. Studies have found that services such as those 
provided by rape crisis centers can shorten the amount of time a person 
exhibits symptoms of rape-related posttraumatic stress disorder.\6\ 
Victims who have the support of an advocate in the emergency room post-
assault are more likely to file a police report and less likely to be 
treated negatively by law enforcement. Victims also reported less 
distress after contact with the legal system when they had worked with 
a victim advocate.\7\
---------------------------------------------------------------------------
    \6\ Zorza, J. Ed. (1997). Study finds rape crisis programs do work. 
Sexual Assault Report, 1 (2), 17, 30-31.
    \7\ Campbell, R.C. (2006). Rape Survivor's Experience with the 
Legal and Medical Systems. Violence Against Women. Vol. 12, No. 1, 31-
45.
---------------------------------------------------------------------------
              SIGNIFICANT GAPS IN SEXUAL ASSAULT SERVICES

    While sexual assault programs have made tremendous progress toward 
assuring that victims of sexual assault receive the services they need, 
a 2004 survey of the field conducted by the National Center and our 
colleagues revealed significant gaps in the national response to 
victims of sexual assault. Our survey found overwhelmingly that sexual 
assault programs are desperately short of funds to meet the needs of 
rape victims. Rape crisis centers are suffering in many States where 
governments facing tight budgets have been forced to cut support to 
local rape crisis centers. A lack of federal support compounds the 
problem.
    Victim service professionals we interviewed told us about waiting 
lists for counseling in Illinois, Massachusetts, Pennsylvania, 
Wisconsin, and other States. At one Utah rape crisis center, victims 
can be on a waiting list for long-term counseling for 10-12 weeks. One 
program in Louisiana told us that the waiting period for counseling for 
a ``level one'' victim--a recent rape victim who is suicidal--is 5 
working days.
    In some places, victims are being placed in group counseling to 
provide them with some form of support while they are waiting for 
individual counseling. Rape crisis centers report that they have cut 
the frequency of counseling sessions with victims and hours of hotline 
operations, two of the most crucial services rape crisis centers 
provide.
    Rape crisis centers are struggling to meet the needs of child 
victims and their families. An Ohio rape crisis center reported that 
they provide an advocate to work with families of child victims of 
sexual violence at the local Child Advocacy Center (CAC). Currently, 
the rape crisis center can only afford to share her with the CAC 20 
hours a week. This means that 10 to 15 families a week will not get any 
time with the victim advocate. While some needs may be met by the 
medical and investigative staff, these families are not able to get 
counseling or advocacy from a person dedicated to their emotional and 
mental well-being. The rape crisis center director states that the CAC 
is ``begging us for more time but the money is just not there.''
    Sexual assault service providers in rural areas across the country 
are also struggling to serve multiple counties with very little staff. 
Many States report that rural areas often have no services at all. For 
example, West Virginia has 9 rape crisis centers that have to cover all 
55 counties in the State. Texas has 254 counties: 50 of those counties 
have no rape crisis services at all. Victims must travel long distances 
to meet with a counselor or get other assistance. In many places, 
victims simply cannot make the trip, so they suffer alone. Programs in 
rural areas need increased funding to help bring victims to programs, 
send advocates to victims, develop satellite offices in rural areas, or 
make other innovations to improve access to services.
    Rape crisis centers also reported that while their communities 
include many underserved populations--including racial and ethnic 
minorities and victims with disabilities--they have no funds to extend 
their outreach or develop specialized services. In many places, service 
providers stated that although there are large ethnic and racial 
populations within their communities, few victims from those 
populations are accessing services. More funding is required to help 
programs meet such needs for targeted services.
funding the sexual assault service program in fiscal year 2007 must be 

                        A CONGRESSIONAL PRIORITY

    The SASP was enacted as part of VAWA 2005, the reauthorization of 
the Violence Against Women Act, signed into law on January 6, 2005. 
SASP created a much-needed funding stream for direct services for 
sexual assault victims. The act will provide funding for States, 
territories, and tribes to support their efforts to provide services to 
adult and minor sexual assault victims and their family and household 
members. The funds can be used for general intervention, counseling, 
and advocacy, including accompaniment though medical, criminal justice, 
and social support systems; support services; and related assistance.
    State, territorial, and tribal sexual assault coalitions are also 
eligible for SASP funding under a specific set-aside. State coalitions 
provide critical support for rape crisis centers, allowing rape crisis 
centers to focus on providing direct services to victims. Coalitions 
develop statewide policies and procedures for all their member rape 
crisis centers. Coalition staff develop and disseminate public 
awareness and prevention materials for statewide distribution. SASP 
funds can also be used by coalitions to provide training to various 
organizations, including governments, law enforcement, courts, 
nonprofit organizations, faith-based organizations, and professionals 
working in legal services, social services, and health care.
    SASP would also address the gap in services to racial and ethnic 
minorities. Through a funding set-aside, SASP would ensure that 
culturally-specific community-based organizations are able to craft 
services for victims that are relevant to their cultural needs. 
Partnerships with existing organizations will allow for the most 
effective use of funds.
    When Congress authorized SASP, it made a commitment to ensure that 
supportive counseling and services would be available for victims of 
sexual assault across the country. By enacting SASP, Congress 
acknowledged that sexual assault crisis centers and other organizations 
cannot meet the needs of sexual assault victims without additional 
resources. The National Center strongly urges the subcommittee to fully 
fund the SASP so our Nation's rape crisis centers can help all victims 
rebuild their lives after sexual assault.
                                 ______
                                 

      Prepared Statement of the Sustainable Development Initiative

    On behalf on Sustainable Development Initiative (IDS, by its 
Spanish acronym) I appreciate the opportunity to present this testimony 
in support of an appropriation of $3 million from NOAA's Coastal and 
Estuarine Land Conservation program for the San Miguel Project in the 
Commonwealth of Puerto Rico.
    IDS is a non-profit organization dedicated to promoting the 
sustainable development of Puerto Rico's natural resources, especially 
those within public lands. Our organization is composed of 
professionals who work as engineers, economists, biologists, lawyers 
and planners for government agencies and private institutions. IDS 
members provide assistance to community groups through volunteer 
consulting services.
    Over the past 7 years, IDS has focused its work on the conservation 
and sustainable development of the Northeastern Ecological Corridor 
(NEC).
    The NEC, comprising approximately 3,200 acres, is one of the 
Caribbean's last, great, unprotected areas. Located on the eastern 
corner of the main island of Puerto Rico within the municipalities of 
Luquillo and Fajardo, the NEC contains an extraordinary array of 
tropical habitats seldom found in other parts of the world. In addition 
to coral communities, mangroves, and pre-Columbian forests, all the 
different varieties of coastal wetlands found throughout Puerto Rico 
are represented within the NEC. The wetlands in this area are essential 
to the existence of a seasonal bioluminiscent lagoon known as Laguna 
Aguas Prietas, an extremely rare biological phenomenon.
    The NEC's location within the foothills of the El Yunque Caribbean 
National Forest adds to its great natural value and uniqueness. 
Originally set aside in 1876 by the Spanish Crown, this United Nations 
Biosphere Reserve is one of the oldest forest protected areas in the 
Western Hemisphere, and is the only tropical rain forest in the United 
States national forest system. The forest contains rare wildlife and is 
home to over 50 species of birds, including the Puerto Rican parrot--
one of the 10 most endangered species of birds in the world. The 
ecological diversity observed within the NEC and the Caribbean National 
Rain Forest, varying from a coastal dry forest to a rain forest, lies 
within a corridor just 13 miles in length. Such an occurrence, in an 
amazing limited area, is extremely rare in any location around the 
world and can only be enhanced or protected by the conservation of the 
NEC.
    Available for acquisition in fiscal year 2007 is the 1,277-acre San 
Miguel property, consisting of three parcels within the NEC. These 
parcels contain extensive wetland areas contiguous to the Pitahaya, 
Juan Martin and Sabana rivers, and harbor an array of unique upland and 
wetland ecosystems. The project site includes some of the last 
remaining unspoiled dune systems and a significant coral community 
immediately off shore. Its bird fauna is remarkable and according to 
the Puerto Rico Department of Natural and Environmental Resources 
(DNER), it has the one of the highest diversity of birds of any natural 
protected area in the north region of the island. The property falls 
within the range of over 40 rare species of flora and fauna, some even 
unique to Puerto Rico, including 16 federally threatened or endangered 
listed species, such as the Hawksbill sea turtle, Virgin Island boa, 
Puerto Rican boa, brown pelican, Puerto Rican plain pigeon, West Indian 
manatee, and Cobana Negra (a flowering tree). The area is best known, 
however, as one of the most important nesting grounds for Leatherback 
sea turtles in the Unites States and the Caribbean. Over 420 
Leatherback sea turtle nests were recorded during the 2005 nesting 
season. Due to its ecological value, the NEC has been identified by the 
DNER, the USDA Forest Service's International Institute of Tropical 
Forestry and the U.S. Fish and Wildlife Service, as a critical wildlife 
area of primary importance in Puerto Rico. The NEC also contains a 
variety of archeological resources, such as historical tools and 
structures.
    At the present time, several multinational lodging corporations 
have proposed various mega luxury residential-tourist resorts within 
the NEC. One of the largest proposed developments would be built on the 
San Miguel tracts at the boundary of the municipalities of Luquillo and 
Fajardo. The San Miguel Resort would include 1,025 residential units, a 
250-room hotel/casino, 175 timeshare units, and two golf courses. The 
development would involve the filling of wetlands, channelization of 
rivers, and clearance of coastal vegetation, thus destroying the 
natural integrity of the NEC. If the San Miguel resort were to be 
constructed as planned, it would further deplete the limited water 
supplies needed by local communities, resulting in a deficit of over 
4,000,000 gallons of water per day, a deficit which accounts for the 
water requirements of nearly 25,000 people. There is widespread concern 
as well about other negative impacts the development would have on this 
sensitive area, including limited public access to beaches and other 
coastal resources, and unnecessary exposure of life and property on 
lands affected by floods and other natural hazards present at the NEC.
    Given the ongoing controversy over development of the property, 
including years of lawsuits, strong public opposition, and permitting 
difficulties, the owners have decided to make the land available for 
conservation. Federal agencies, the Commonwealth of Puerto Rico, and 
private parties have come together in an effort to preserve this 
remarkable coastal property. Public ownership will preserve the coastal 
resources, protect the rivers and wetlands, buffer El Yunque Caribbean 
National Forest, and provide public beach access and recreational 
opportunities.
    Approximately $25 million will eventually be needed to complete the 
San Miguel acquisition. If this effort should fail, some form of 
development would likely occur on this highly sensitive property. The 
construction of the proposed resort would undermine past and current 
conservation efforts in an area that has been widely recognized by the 
Federal and Commonwealth agencies, and private conservation 
organizations for its unique expression of biological diversity.
    A fiscal year 2007 appropriation of $3 million from NOAA's Coastal 
and Estuarine Land Conservation Program is needed to further the 
protection of the San Miguel tracts. These funds will be matched by 
$2.27 million in settlement funds from the Barge Berman Oil Spill 
(specifically for land acquisition), up to $5.7 million of other oil 
spill settlement funds (for restoration categories), $3 million 
committed by the Conservation Trust of Puerto Rico, and additional 
funds being raised by a local land trust and other interested private 
parties. I urge you to include this project in the fiscal year 2007 
Commerce, Justice, and Science appropriations bill.
    Thank you, Mr. Chairman, for the opportunity to present this 
testimony and for your consideration of this important request.
                                 ______
                                 

    Prepared Statement of the National Fish and Wildlife Foundation

    Mr. Chairman and members of the subcommittee: I appreciate the 
opportunity to submit testimony regarding the fiscal year 2007 funding 
request for the National Fish and Wildlife Foundation. Included in this 
testimony is a summary of our history and fiscal year 2005 
accomplishments, as well as the new and innovative programs we hope to 
accomplish with the funding provided by this committee.
    Congress established the foundation 22 years ago, and since that 
time the foundation's vision for more healthy and abundant populations 
of fish, wildlife and plants has flourished through the creation of 
numerous valuable partnerships. The breadth of our partnerships is 
highlighted through our active agreements with 14 federal agencies, as 
well as various corporations, foundations and individual grantees. 
Through these unique arrangements, we are able to leverage federal 
funds, bring agencies and industry together and produce tangible, 
measurable results. Our history of collaboration has given way to 
programs and initiatives such as the Coral Reef Conservation Fund, the 
Cook Inlet Beluga Whale Fund, the Chesapeake Bay Small Watershed Grants 
Program and the Shell Marine Habitat Initiative. With the support of 
the committee in fiscal year 2007, we can continue to uphold our 
mission of enriching fish, wildlife and the habitat on which they 
depend.
    In 1999, Congress expanded the foundation's mandate to expressly 
include the National Oceanic and Atmospheric Administration (NOAA) and 
its mission. For nearly a decade, NOAA and the foundation have jointly 
supported projects in marine conservation through public-private 
partnerships. The foundation respectfully requests that this Committee 
fund these efforts at $4 million through the National Oceanic and 
Atmospheric Administration.
    This request lies well within the authorized levels and will allow 
the foundation to better meet the demand for new or expanded strategic 
conservation programs. The appropriations provided by the committee are 
also used by the foundation to attract additional funding for 
conservation projects through mitigation, settlements and direct gifts.
    Since our inception in 1984 through fiscal year 2005, the 
foundation has supported over 8,190 grants and leveraged over $339 
million in federal funds for more than $1 billion in on-the-ground 
conservation. This has resulted in more than 18 million acres of 
restored and managed wildlife habitat; new hope for countless species 
under stress; new models of private land stewardship; and stronger 
education programs in schools and local communities.
    In fiscal year 2005, we were appropriated $1.7 million (less 
rescissions) for our general NOAA programs which we were able to 
leverage with NOAA interest dollars and over $7.8 million in additional 
foundation and partner dollars for a total of $9.8 million in marine 
conservation. We achieved this leveraging of the federal dollar by 
cultivating partnerships. In fiscal year 2005, the foundation partnered 
funds entrusted by this committee with seven other foundations and 
several private sector corporations including Shell Oil, Southern 
Company, Bass Pro Co., BP Oil Co. and ConocoPhillips. In a similar 
manner, the foundation was able to leverage the $1 million in funds 
(less rescissions) targeted by this Committee to Tampa Bay habitat 
restoration through the Pinellas County Environmental Fund by bringing 
an additional $1.8 million in funds for an overall fiscal year 2005 
conservation value of $3 million.
    Through the fiscal year 2006 Omnibus Bill, we will receive between 
$0.7 million--$1.7 million of our historical $2.5 million mark for our 
NOAA partnership and $1 million of our historical $1.5 million 
allocation for the Pinellas County Environmental Fund. Our mark in the 
NOAA Fisheries line for our overall partnership is still being 
negotiated. This will be the foundation's second year of drastically 
reduced funding which is having large impacts on the programs we are 
able to support.
    Although we have not yet received our fiscal year 2006 funds, we 
have already received over $4 million in proposals requests through two 
of the seven competing programs for these dollars. The potential 50 
percent reduction in funding, will all but zero out funding for our 
NOAA General Matching Grants Program, one of NOAA's largest leveraging 
vehicles and broadest brush for general marine and coastal conservation 
projects with the foundation. The fiscal year 2006 budget cuts will 
also result in dramatic cuts to our National Whale Conservation Fund 
and the International Sea Turtle Conservation Fund, both programs which 
are making significant impacts to endangered species recovery.
    In these times of tightened budgets, we have focused our limited 
dollars on four of the historical seven Special Grant Programs: the 
Coral Reef Conservation Fund, the Long Island Sound Futures Fund, the 
Delaware Estuary Grants Program and the Great Lakes Watershed 
Restoration Program. Many of these programs were created at the request 
of NOAA to help focus more funds and attention to key priorities within 
the agency. The fiscal year 2005 and fiscal year 2006 cuts will 
obviously impact these programs in the number of projects they can 
support, and may have additional impacts if NOAA is the main or only 
partner. For example, the pilot year of the Great Lakes Watershed 
Restoration Program was so successful that the other agency partners 
are looking to increase their funding levels; NOAA will not have the 
ability to increase their contribution and will therefore reduce their 
role at the table. An even bigger concern may be in the need to have 
federal monies to leverage the private funds that NOAA has asked us to 
raise, to grow these special programs. Our fiscal year 2007 
appropriations request will put us back on track to continue leveraging 
scarce federal resources and allow us to achieve increased conservation 
benefits.
    If fully funded in fiscal year 2007, there are a number of new 
opportunities to continue NOAA's mission in the areas of estuarine and 
coastal habitat, coral reef conservation and marine species management 
and recovery:
    Restoring Estuarine and Coastal Habitats.--The steady rate of 
coastal development and damaging up-stream activities are causing our 
estuarine and coastal habitats to be lost at an alarming rate. The 
foundation has had tremendous success in countering these problems by 
partnering NOAA funds with other agencies, like the Environmental 
Protection Agency, to address these issues from a whole watershed 
perspective. This is demonstrated in our Chesapeake Bay, Long Island 
Sound and Delaware Estuary grants programs and has proven so successful 
that in fiscal year 2005, we expanded our coastal habitat portfolio 
with a new program in the Great Lakes. After an extremely successful 
pilot year, NOAA is interested in continuing to grow this initiative 
with the other agencies involved, especially since it reaches an 
underserved portion of their mission. A new program is also being 
researched for the San Francisco Bay Estuary that should be ready to 
launch in the coming year, if funds are available. New programs are 
also uniting around the Upper Mississippi River Basin. This creates an 
opportunity to partner existing programs like the Foundation's North 
Gulf Coast Initiative targeting the shores of Mississippi, Alabama, 
Louisiana and Texas and the Shell Marine Habitat Program along broad-
sweeping watershed goals, if funds are provided to expand the marine 
focus in the overall watershed.
    Protecting Coral Reefs.--The foundation was successful in fiscal 
year 2005 at bringing in new partners in the U.S. Fish and Wildlife 
Service, the Natural Resources Conservation Service and the Harold K.L. 
Castle Foundation. We continue to set our sights high, and are building 
in new evaluation protocols for individual projects and outlining an 
evaluation of the overall program. The foundation is also actively 
working with other funders in coral conservation to collaborate on 
funding priorities to address hot spots and key threats. With increased 
funding in fiscal year 2007, the foundation would like to expand 
current partnerships between NOAA and the NRCS to reduce nutrient run-
off and sedimentation to coastal reefs and the U.S. FWS to improve the 
management and effectiveness of existing marine protected areas. Funds 
are also needed to enhance the foundation's partnership with the White 
Water to Blue Water Initiative--Anchors Away!--to establish mooring 
buoy systems for reducing damage to reefs from anchors.
    Threatened and Endangered Species Solutions.--Our Special Grant 
Programs that target endangered species conservation have been the 
hardest hit by recent budget cuts. With our fiscal year 2007 request 
the foundation would be able to restore funding to these vital programs 
in species management, like our work in the southern States to restore 
sea turtle nesting habitat and our work in New England, Washington and 
Alaska to research declining right whale, orca and beluga whale 
populations.
    The foundation continues to cultivate partnerships in the private 
sector to try and offset some of these cuts in our species programs. 
One of the partnerships that we will be investigating in fiscal year 
2006 is a new program with global energy industries to study the 
impacts of marine noise, particularly in relation to marine mammals. 
The requested funding levels will allow NOAA, the management agency for 
this issue, to sit at the table as a funder and provide them with a 
greater role in determining what research should be funded.
    Evaluation.--The foundation has become a leader in evaluation and 
adaptive management amongst its peers. The foundation's goal is to 
build the capacity of both itself and its partners to undertake more 
effective evaluation, to assist in both measuring performance and to 
adapt methods and funding strategies for more impactful conservation. 
To address these goals, the foundation is implementing several 
evaluation strategies simultaneously. First, the foundation has 
instituted new protocols within its application process to provide the 
measurable indicators needed to evaluate the impacts of our programs. 
Second, the foundation has convened discussions amongst our agencies 
partners to identify and coordinate potential opportunities for 
collaboration within evaluation. One of the initial results of these 
meetings has been an interest in piloting new evaluation indicators, to 
better articulate the federal investment for GPRA and PART 
requirements.
    Third, the foundation has commissioned several third-party 
evaluations targeting widely-used conservation activities like culvert 
removal to full program evaluations to learn where we have been 
successful and where past methods have not provided the desired impact. 
As an example, in fiscal year 2006, the Foundation's Chesapeake Bay 
Small Watershed Grants Program will be evaluated for the first 5 years 
of grant-making. The evaluation will include 355 projects associated 
with about $10.6 million in federal funds. The federal legislation 
accompanying this program included 10-year goals, and this evaluation 
presents an opportunity to assess the mid-way mark in helping the 
foundation and its partners better focus their resources over the next 
5 years. To capture these evaluations and lessons learned, the 
foundation is taking a fourth key step by developing a new searchable 
project website where users will be able to query information and learn 
more about funded projects, including how to adapt projects for higher 
rates of success.
    Accountability and Grantsmanship.--The foundation constantly 
strives to improve the grant making process while maintaining a healthy 
level of oversight. To improve ease of use for potential applicants, 
foundation applications are now completed and reviewed electronically. 
In early fiscal year 2006, to further improve efficiency, the 
foundation released a revised application, grant contract template and 
reporting form. Even with these efficiencies, the foundation still 
requires strict financial reporting by grantees and has once again 
received an unqualified audit in fiscal year 2005.
    In addition to the evaluation requirements described earlier, all 
potential grants are subject to a peer review process. This involves 
five external reviews representing State agencies, federal agencies, 
affected industry, environmental non-profits and academics. Before 
being recommended to the foundation's board of directors, grants are 
also reviewed internally by staff, including our conservation 
scientists. The internal review process examines the project's 
conservation need, technical merit, the support of the local community, 
the variety of partners and the amount of proposed non-federal cost 
share. The foundation also provides a 30-day notification to the 
members of Congress for the congressional district and State in which a 
grant will be funded, prior to making a funding decision.
    Basic Facts About the Foundation.--The foundation is governed by a 
25-member board of directors, appointed by the Secretary of the 
Interior and in consultation with the Secretary of Commerce. At the 
direction of Congress, the board operates on a nonpartisan basis. 
Directors do not receive any financial compensation for service on the 
board; in fact, all of our directors make financial contributions to 
the foundation. It is a diverse board, representing the corporate, 
philanthropic and conservation communities; all with a tenacious 
commitment to fish and wildlife conservation. I took over the 
chairmanship in January, after serving on the board for 10 years. It is 
an honor to lead such a prestigious board.
    The National Fish and Wildlife Foundation continues to be one of, 
if not the most, cost-effective conservation programs funded in part by 
the Federal Government. None of our federally appropriated funds are 
used for lobbying, litigation or the foundation's administrative 
expenses. By implementing real-world solutions with the private sector 
while avoiding regulatory or advocacy activity, our approach is more 
consistent with this Congress' philosophy than ever before. We are 
confident that the money you appropriate to the foundation will 
continue to make a difference.

   NATIONAL FISH AND WILDLIFE FOUNDATION'S FEDERAL APPROPRIATIONS FOR
                            FISCAL YEAR 2006
                        [In millions of dollars]
------------------------------------------------------------------------
                  Agency Funding Source                   Funding Amount
------------------------------------------------------------------------
Natural Resources Conservation Service..................           2.970
Fish and Wildlife Service...............................           7.656
    Washington Salmon...................................           1.971
    Atlantic Salmon.....................................           0.985
Bureau of Land Management...............................           2.955
Forest Service..........................................           2.637
National Oceanic and Atmospheric Administration.........           1.400
    Pinellas County Environmental Fund..................           0.937
------------------------------------------------------------------------

                                 ______
                                 

                Prepared Statement of Save Barnegat Bay

    On behalf on Save Barnegat Bay, I appreciate the opportunity to 
present this testimony in support of an appropriation of $1 million 
from NOAA's Coastal and Estuarine Land Conservation Program for the 
Potter Creek project in New Jersey.
    Save Barnegat Bay is a not-for-profit environmental group working 
to conserve undeveloped natural land and clean water throughout the 
Barnegat Bay watershed. We were founded in 1971 as a local chapter of 
the Izaak Walton League of America, a leading national environmental 
organization.
    Barnegat Bay is a shallow, lagoon-type estuary, characteristic of 
the back bay system of a barrier island coastline. The 550-square mile 
Barnegat Bay watershed is located along the central New Jersey 
coastline and encompasses nearly all of Ocean County and a small 
portion of Monmouth County. The watershed supports more than 450,000 
residents year-round, and many hundred thousands more during the summer 
tourist season. The Barnegat Bay estuary covers over 42 miles of 
shoreline from the Point Pleasant Canal to Little Egg Harbor Inlet, and 
supports a thriving tourist industry. The bay's fisheries represent an 
invaluable recreational and commercial resource to the region. Although 
long recognized for its great aesthetic, economic, and recreational 
value, this back bay system is now threatened by an array of human 
activities that could damage its ecological integrity. More than 70 
percent of the area along Barnegat Bay's estuarine shoreline has been 
developed or altered, leaving less than 30 percent of the area in its 
natural state. At the request of the State, Barnegat Bay was recognized 
as an estuary of national significance threatened by pollution, 
development, and overuse. It was accepted into the Environmental 
Protection Agency's National Estuary Program in July 1995, one of 28 
such sites nationwide.
    Ocean County has been the State's fastest growing county since 
1950. While run-off and discharge from power boats contribute to the 
degradation of Barnegat Bay, the primary threat to the water quality is 
upland development and associated nonpoint source pollution. Local 
agencies, civic groups, and nonprofit organizations have long been 
committed to the protection of the Barnegat Bay watershed. In 1995, The 
Trust for Public Land published a comprehensive study identifying high-
priority conservation and public access sites in the Barnegat Bay. This 
study, called the Century Plan, has become the ``greenprint'' for the 
protection of the watershed for all those committed to a healthy bay 
ecosystem. Funding from Federal, State, local, and private sources has 
supported the protection of critical acreage within the Barnegat Bay 
watershed, but despite these funding commitments, many of these sites 
still remain unprotected.
    Available for acquisition in the Barnegat Bay watershed in fiscal 
year 2007 is the 100-acre Potters Creek property located in Berkeley 
Township. Comprised largely of forested wetland and marshland, the 
tract also possesses 30 acres of developable uplands.
    These woodlands contain various species of pine and oak, American 
holly, and mountain laurel, while the wetlands are comprised of 
spartina, glasswort, perennial salt marsh aster, and sea pink. These 
wetlands are believed to support upwards of 82 species of birds, half 
of which are thought to breed on or near the Potters Creek tract. Some 
of these species include red-shouldered hawk, northern harrier, and 
peregrine falcon, all State-listed endangered species. The marbled 
salamander and four-toed salamander, both State species of special 
concern, are believed to inhabit the property as well. A total of $5 
million is needed to protect this property. In fiscal year 2006, 
Congress directed $500,000 in Coastal and Estuarine Land Conservation 
Program funds towards this purchase. Berkeley Township has already 
committed $1.5 million towards its portion of the purchase.
    An appropriation of $1 million in fiscal year 2007 from NOAA's 
CELCP program directed to Ocean County will complete the federal 
commitment to this conservation purchase. The total non-federal match 
will amount to $3.5 million. Acquisition of this parcel will preserve 
open space in a rapidly developing area, further the protection efforts 
of the Barnegat Bay watershed, and provide an important buffer to 
already conserved lands. I urge you to include this project in the 
fiscal year 2007 Commerce, Justice, and Science appropriations bill.
    Thank you, Mr. Chairman, for the opportunity to present this 
testimony and for your consideration of this important request.
                                 ______
                                 

                 Prepared Statement of Break the Cycle

    The Violence Against Women Act 2005 (Public Law 109-162), recently 
unanimously reauthorized by the U.S. Congress, provides funding for 
proven effective programs and creates new programs to fill gaps in the 
original legislation. Because the President's budget was completed 
before VAWA 2005 was passed and signed into law on January 5, 2006, all 
of the new programs and many of the reauthorized programs which were 
given an increase in funding are not fully funded in the President's 
budget.
    Break the Cycle is a national non-profit with a mission to engage, 
educate, and empower youth to build lives and communities free from 
domestic and dating violence. Founded in 1996 in Los Angeles, 
California, Break the Cycle has worked to raise awareness among youth 
and youth service providers about domestic and dating violence. Break 
the Cycle provides law-based preventative education and free legal 
services to youth ages 12 to 24. Break the Cycle opened its Washington, 
DC office in 2004, and has worked with both youth and policy makers to 
ensure that youth have the necessary resources available to develop 
healthy relationships and build communities free from violence. Break 
the Cycle is the only organization of its kind in the country.
    Break the Cycle respectfully requests full funding for all VAWA 
2005 programs in the fiscal year 2007 budget. Additionally, because of 
the mission of our organization; to engage, educate and empower youth 
to end domestic and dating violence, we are especially concerned with 
the programs directly affecting youth and will address the vital need 
to fully fund these programs in this testimony.

                 YOUTH AND DOMESTIC AND DATING VIOLENCE

    ``At the age of 13, I began dating my first boyfriend. It was a 
time in my life when I was plagued by all the typical insecurities of 
entering adolescence, being acutely self-conscious and wanting simply 
to feel connected to the world . . . It was the closeness of our 
relationship that allowed me to overlook the times when he would punch 
me and push me around, the threats to commit suicide if I ever left 
him, the emotional strain that I felt being with him . . . As more and 
more time passes, I am learning again to trust myself, to trust others, 
and to take care of myself. It is at these points in life when I 
recognize the need for more young girls to be able to have the type of 
support that I feel I received too late in life . . . girls need to be 
taught to trust, to be able to confront their abuse, to be able to 
learn to live without it.'' Break the Cycle supporter.
    The youth of this country are facing a grave situation that is 
largely ignored by the people who are responsible for helping them grow 
into healthy adults. Sexual and dating violence occur among youth at 
rates disproportionate to the rest of the Nation; teens and young 
women, aged 16 to 24, experience the highest rate of intimate partner 
violence, almost three times the average for women as a whole.\1\ 
Additionally, the age at which a female is at greatest risk for rape or 
sexual assault is 14,\2\ and in one study, one quarter of teen girls 
who have been in a romantic relationship admitted that they had been 
pressured to perform oral sex or engage in intercourse when they did 
not want to.\3\ Yet, domestic violence resources are usually focused on 
adult women or young children who are victims of abuse.
---------------------------------------------------------------------------
    \1\ Department of Justice, Bureau of Justice Statistics, ``Intimate 
Partner Violence and Age of Victim, 1993-1999.'' NCJ 187635: October 
2001, 3.
    \2\ Snyder, H.N. (2000). Sexual assault of young children as 
reported to law enforcement. U.S. Department of Justice, Bureau of 
Justice Statistics (NCJ 182990). Washington, DC.: U.S. Government 
Printing Office.
    \3\ Liz Claiborne Inc. Omnibuzz Topline Findings: Teen Relationship 
Abuse Research. February 2005.
---------------------------------------------------------------------------
    For youth, who face a unique set of circumstances when dealing with 
abuse, these resources do not meet their needs. They are in a stage of 
their lives where they are just learning to navigate the adult world, 
developing positive and healthy relationships is essential to their 
success as adults. Victims of teen dating violence are more likely to: 
use alcohol, tobacco, and cocaine; drive after drinking; engage in 
unhealthy weight control behaviors; commit sexually risky behaviors 
including first intercourse before age 15, multiple partnering, and 
lack of condom use; become pregnant; and commit suicide.\4\ 
Additionally, youth that witness domestic or dating violence also have 
higher probabilities of truancy, poor school performance, and trouble 
concentrating.\5\ These behaviors limit youths' ability to become 
healthy adults. Young people must be educated and empowered to end the 
violence in their lives. VAWA 2005 can help stop this cycle of violence 
where it starts. Congress has taken the first step in recognizing and 
correcting this problem by unanimously passing VAWA 2005, and including 
vital new programs for youth. It is critical, for the healthy 
development of young people, that full funding be provided for all 
programs unanimously passed by Congress. By educating youth and 
empowering them to live lives free from violence, we not only improve 
their current situation, but teach them how to live healthy adult 
lives. The cost of these programs is a small price to pay for the 
safety of our youth, and in the long term will cut down on the huge 
costs of domestic violence that plagues the nation.\6\ It is time to 
teach young people to confront their abuse, and to learn the skills 
that will help them create a future without it.
---------------------------------------------------------------------------
    \4\ Jay Silverman, et. al., Dating Violence Against Adolescent 
Girls and Associated Substance Use, Unhealthy Weight Control, Sexual 
Risk Behavior, Pregnancy, and Suicidality, 286 JAMA, 2001.
    \5\ Lee, Catherine. Witness of Domestic Violence: The Vulnerable 
and the Voiceless. http://www.jrn.columbia.edu/studentwork/children/
downlow/domvio.shtml.
    \6\ Intimate partner violence costs the Nation $5.8 billion 
annually, including $4.1 billion in direct health care expenses. 
Centers for Disease Control and Prevention, National Center for Injury 
Prevention and Control, ``Cost of Intimate Partner Violence Against 
Women in the United States.'' (2003).
---------------------------------------------------------------------------
                              THE PROGRAMS

Services to Advocate for and Respond to Youth (42 USC 14043c; 119 STAT. 
        3004)
    STARY will provide much needed funding to stop the cycle of 
violence where it is most likely to occur, with youth ages 16 to 24.\7\ 
Youth face unique challenges when dealing with domestic and dating 
violence and often do not have access to services to help them. 
Adolescence is a trying time, often filled with the insecurity and 
frustration of learning to navigate the adult world, while not quite 
being an adult. Youth are often untrusting of authority, uninformed on 
the law, dependent on others for their financial well being, without 
transportation, and ignorant of the services available to them. Special 
services and service providers with the skills to deal with these 
unique challenges are vital to early intervention with youth dating and 
domestic violence. Because most domestic violence services are targeted 
at adults, youth are often left without important services and end up 
falling through the cracks, leaving them to carry these same patterns 
of violence into adult relationships. These grants focus specifically 
on services and service providers who can address the needs of youth, 
filling a gap in current services, and helping youth to build lives 
free from abuse.
---------------------------------------------------------------------------
    \7\ Department of Justice, Bureau of Justice Statistics, ``Intimate 
Partner Violence and Age of Victim, 1993-1999.'' October 2001.
---------------------------------------------------------------------------
    STARY is a new program which we urge Congress to fully fund at it's 
authorized level of $15 million in fiscal year 2007.
Access to Justice for Youth (42 USC 14043c-1; 119 STAT. 3005)
    The violence perpetrated by youth against youth is a serious 
problem. However, the legal system in many States does not allow youth 
victims the same access to justice and safety as it does adults. Youth 
often slip through the cracks of the justice system because neither 
adult nor juvenile courts know how to deal with youth perpetrators and 
victims of domestic and dating violence. This problem must be 
addressed. Currently, there is only one juvenile domestic violence 
court in the country. Access to Justice for Youth would provide 
demonstration grants to allow courts, domestic violence and sexual 
assault service providers, youth organizations, and law enforcement 
agencies to work together to create a model system which addresses the 
needs of youth. Both perpetrators and victims must be treated by the 
law in a way that allows for safety, dignity, and justice. This funding 
will give communities the opportunity to work together to create a 
system that truly meets their needs and provides victims and 
perpetrators the justice and protection they deserve.
    Access to Justice for Youth is a new program which we urge Congress 
to fully fund at the authorized level of $5 million for fiscal year 
2007.
Supporting Teens Through Education and Protection (STEP Act; 42 USC 
        14043c-3; 119 STAT. 3010)
    Schools have always been envisioned as a safe haven where youth 
learn and grow into productive citizens. However, violence in schools 
has shattered this idea, and left many young people afraid of the very 
place they are sent to grow and mature. Four thousand incidents of rape 
and sexual assault were reported in public schools across the country 
in a single year.\8\ This number only includes the number reported, and 
not the countless cases of rape and sexual assault that go unreported. 
Additionally, when youth are faced with abusive relationships, most (73 
percent) say they would talk about it with a friend.\9\ Unfortunately, 
the friends in whom they would confide are often uninformed about the 
rights of youth in abusive relationships, and thus unable to help a 
friend in need. Young people cannot be expected to mature into 
productive citizens with this type of violence occurring in the place 
where they are to be nurtured and taught about healthy adulthood. 
Schools need effective polices and procedures to address this problem 
when it occurs among their students and school staff must be taught the 
warning signs of and resources available for students dealing with 
domestic and dating violence. The STEP Act allocates funds to educate 
faculty, develop effective school policies about domestic and dating 
violence, and provide resources to teach students about the issue and 
provide appropriate referrals. Fully funding this program will allow 
schools to work in collaboration with sexual assault and domestic 
violence providers, police, courts, and other organizations to ensure 
that schools are the safe and healthy environments necessary to help 
youth become healthy adults.
---------------------------------------------------------------------------
    \8\ U.S. Department of Education, 1997 (The Department of Education 
no longer reports rapes and sexual assaults in schools as a separate 
category, but rather includes them with other violent crimes.)
    \9\ Liz Claiborne Inc. Omnibuzz Topline Findings: Teen Relationship 
Abuse Research. February 2005.
---------------------------------------------------------------------------
    The STEP Act is a new program which we urge Congress to fully fund 
at the authorized level of $5 million for fiscal year 2007.
Grants to Reduce Violent Crimes on Campus (42 USC 14045b; 119 STAT. 
        3013)
    One quarter of female college students are sexually assaulted 
during their college careers,\10\ and 70 percent of sexual assaults 
reported by college-aged girls are date rapes.\11\ This pervasive 
violence must stop, and fully funding Grants to Reduce Violent Crimes 
on Campus is one way that Congress can help to stop it. Often away from 
home for the first time and adjusting to new freedoms, college students 
face unique challenges, especially when it comes to dealing with 
domestic and sexual violence. Providing this program with full funding 
allows for prevention, services and training essential to end this type 
of violence. In the federal fiscal year 2005, 146 applications were 
submitted to the Office on Violence Against Women, requesting $32 
million for campus programs. The need is great, and Congress can help 
by providing the full $12 million authorized by VAWA 2005.
---------------------------------------------------------------------------
    \10\ Robin Warshaw, I Never Called it Rape: The Ms. Report on 
Recognizing, Righting, and Surviving Date and Acquaintance Rape, New 
York: Harper Perennial, 1994.
    \11\ B. Levy, Dating Violence, (Seattle: Seal Press, 1991), 9.
---------------------------------------------------------------------------
    The President's budget requests $9 million for Campus Grants. We 
urge Congress to fully fund Campus Grants at the authorized level of 
$12 million in fiscal year 2007.

                               CONCLUSION

    Sexual assault and domestic violence are problems that pervade our 
society. The effects of these problems are far reaching, and especially 
detrimental to young people navigating the transition from childhood to 
healthy adulthood. Young people must be taught that domestic violence 
and sexual assault are unacceptable. Services must be tailored to their 
needs and they must be educated about the resources available to them. 
They must be empowered to stop the violence that affects them so 
profoundly. They deserve the building blocks to create healthy 
relationships in the future.
    Today's teen and young adult victims and perpetrators of domestic 
violence and sexual assault will be those we deal with the in the adult 
criminal, civil and family justice systems, healthcare system and 
social services systems tomorrow. We have the opportunity today to 
invest in our youth to protect them from this violence now and save 
countless federal dollars later.
    Across the Nation, young people are taking a stand against domestic 
violence and sexual assault. However, the funds to allow for education 
and services are lacking. Congress has unanimously recognized the 
importance of this issue by passing VAWA 2005. Now it is time for 
Congress to act. By fully funding VAWA 2005, and especially STARY, STEP 
Act, Access to Justice for Youth, and Grants to Reduce Violent Crimes 
against Women on Campus, Congress can do its part to combat the 
pervasiveness of domestic and sexual violence. By fully funding these 
programs, Congress will allow young people the resources necessary to 
mature into healthy and productive citizens. It is time to protect 
young people from abuse, and to teach them to build prosperous, 
healthy, violence-free futures.
                                 ______
                                 

     Prepared Statement of the Natural Science Collections Alliance

    The Natural Science Collections Alliance (NSC Alliance) encourages 
Congress to support the President's fiscal year 2007 budget request of 
$6.02 billion for the National Science Foundation.
    The administration's budget request reflects the recognition of the 
important role that fundamental, peer-reviewed scientific research 
plays in driving innovation, creating new economic opportunities, and 
addressing important societal challenges.
    The National Science Foundation plays an important role in science 
education, in both formal and informal environments, such as natural 
history museums, botanical gardens and other science centers. Moreover, 
through programs such as Research Experience for Undergraduates, GK-12 
fellowships, or fellowships for graduate students and post-doctoral 
researchers, the National Science Foundation provides the resources 
needed to educate, recruit, and retain our next generation of 
scientists. National Science Foundation programs provide the support 
that makes it possible for practicing research scientists and college 
faculty to mentor and train budding researchers. National Science 
Foundation science education initiatives are unique and stimulate 
innovation in teaching and learning about science. The lessons learned 
and models developed through this research inform Department of 
Education and local school system programs.
    Informal science and technology programs supported by the Education 
and Human Resources Directorate warrant increased funding. Economic 
growth in the 21st century demands a scientifically aware and 
technically skilled workforce.
    The National Science Foundation Biological Sciences Directorate 
(BIO) is particularly important to basic biological research, the 
fields of study concerned with understanding how the natural world 
works. These research disciplines include botany, zoology, 
microbiology, ecology, basic molecular and cellular biology, 
systematics and taxonomy. Indeed, according to National Science 
Foundation data, more than 65 percent of fundamental biological 
research is funded by the foundation. Additionally, the National 
Science Foundation provides essential support for the development of 
research infrastructure (for example, natural science collections, 
cyber-infrastructure, field and marine stations, and the National 
Ecological Observatory Network) that is required to advance our 
understanding of biological and ecological systems.
    The President's fiscal year 2007 budget request would provide the 
BIO directorate with roughly $607.8 million (a 5.4 percent increase). 
This funding would support important new research efforts in the areas 
of Molecular and Cellular Biosciences ($111.2 million), Integrative 
Organismal Biology ($100.7 million), Environmental Biology ($109.6 
million), Biological Infrastructure ($85.9 million), and Plant Genome 
Research ($101.2 million). The budget also reflects the need for 
synthesizing biological information from different fields. Thus, $99.2 
million is allocated for the cross discipline Emerging Frontiers 
program area.
    The President's request includes $24 million in funding for the 
National Ecological Observatory Network (NEON). Of the requested 
funding for NEON, $12 million would come from the Major Research 
Equipment and Facilities Construction account and $12 million would 
come from the BIO directorate. NEON will be the first national 
ecological measurement and observation system designed both to answer 
regional to continental scale scientific questions and to have the 
interdisciplinary participation necessary to achieve credible 
ecological forecasting and prediction. NEON is expected to transform 
the way we conduct science by enabling the integration of research and 
education from natural to human systems, and from genomes to the 
biosphere. Social scientists and educators have worked with ecologists 
and physical scientists to plan and design NEON. These research 
communities will all be able to participate in research only possible 
because of the construction of NEON.
    Thank you for your past efforts on behalf of the National Science 
Foundation and for your thoughtful consideration of this request. If 
you require additional information, please contact Robert Gropp at 202-
628-1500.
                                 ______
                                 

           Prepared Statement of James City County, Virginia

    Dear Mr. Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to submit testimony in support of an 
appropriation of $1.2 million from the Coastal and Estuarine Land 
Conservation program in fiscal year 2007 for acquisition of two 
properties at Jamestown totaling 198 acres.
    Since English colonists disembarked from their ship on May 14, 
1607, naming the river and town for the reigning monarch, James I, the 
Virginia peninsula has become one of the most historic regions in the 
United States. It has played a role in many eras of American history 
including colonial, Revolutionary, and Civil War periods. Today 
Jamestown is protected by a variety of public and private organizations 
including the National Park Service, The Association for the 
Preservation of Virginia Antiquities, and James City County.
    In one year's time, America will celebrate the quadricentennial of 
the landing at Jamestown. A number of events, commemorations, 
improvements, and enhancements are planned in order to make this 
celebration a one-of-a-kind event that visitors will not forget.
    In order to preserve the site around Jamestown for future events 
and visitors and protect the important natural and coastal resources 
that mark the shores of the wide James River, it is critical to protect 
lands adjacent to the historic sites from development and inconsistent 
conversion. There is a limited opportunity to acquire two properties 
adjacent to protected lands at Jamestown, the 112-acre Jamestown 
Campsites and the 85.5-acre Jamestown Marina.
    There are numerous historical and ecological resources on both 
properties. The campsites property includes 4,600 feet of James River 
frontage, and the site was part of the Revolutionary War battle of 
Green Spring. It is also a piece of the Capitol City Bike Trail linking 
Williamsburg to Richmond. The marina includes over 3,000 feet of 
shoreline on Powhatan Creek, contains 65 acres of high quality tidal 
wetlands, and is adjacent to the Colonial Parkway.
    In fiscal year 2006, Congress appropriated $2 million for this 
project. An additional appropriation of $1.2 million in fiscal year 
2007 will be used to acquire these properties in time for the Jamestown 
2007 celebration next year. Federal funding will be matched by over $9 
million from James City County, the Commonwealth of Virginia and 
private sources.
    Thank you, Mr. Chairman, for your consideration of this request and 
for the opportunity to present this testimony.
                                 ______
                                 

Prepared Statement of the ASME Technical Communities' National Science 
                         Foundation Task Force

    The ASME Technical Communities' National Science Foundation (NSF) 
Task Force is pleased to provide comments on the NSF fiscal year 2007 
budget request, and supports this year's proposed funding level of 
$6.02 billion for the National Science Foundation.
    Founded in 1880 as the American Society of Mechanical Engineers, 
ASME is a worldwide engineering society of over 120,000 members focused 
on technical, educational and research issues. It conducts one of the 
world's largest technical publishing operations, holds approximately 30 
technical conferences and 200 professional development courses each 
year, and sets many industry and manufacturing standards.

              NSF FISCAL YEAR 2007 BUDGET REQUEST OVERVIEW

    The National Science Foundation plays the critical leadership role 
in directing the Nation's non-defense related scientific and 
engineering research and education. Now more than ever, the Nation's 
future in the global economy relies on the quality of the new ideas, 
the competitive strength of the science and engineering workforce, and 
the innovative use of new knowledge generated through the research and 
education enterprise. As such, ASME shares NSF's broad-based, cross-
cutting vision for basic engineering and scientific research and 
education, and strongly endorses NSF and its efforts to promote the 
crucial fundamental research that engenders new knowledge to meet vital 
national needs and to improve the quality of life for all Americans.
    The total fiscal year 2007 NSF budget request is $6.02 billion 
representing a $439 million or 7.9 percent increase over the current 
fiscal year 2006 estimate, making the outlook for the NSF budget appear 
more positive than it has in the last few years. NSF had received a 3.0 
percent ($171 million) cut in fiscal year 2005, so that despite a small 
increase in fiscal year 2006, i.e. 1.8 percent ($100 million), the 
current estimate for fiscal year 2006 is actually 1.25 percent below 
the fiscal year 2004 budget. The fiscal year 2007 increase benefits 
from the administration's recent American Competitiveness Initiative 
(ACI), which calls for a 10-year budget-doubling effort for NSF.
    Within this request, the research directorates will receive 
increases between 5.4 percent and 8.2 percent, after several years of 
``flat'' funding. Funding for the Engineering Directorate (ENG) would 
increase by 8.2 percent over the current year estimate to $628.55 
million, $108.88 million of which is requested for the NSF Small 
Business Innovation Research (SBIR) and Small Business Technology 
Transfer (STTR) programs that ENG administers.
    For fiscal year 2007, ENG will complete a comprehensive 
reorganization intended to reflect the multidisciplinary nature of 
engineering and the complex integration of the sub-disciplines 
comprising ENG. The new disciplinary-area divisions are: Chemical, 
Bioengineering, Environmental, and Transport Systems (CBET), $124.4 
million, Civil, Mechanical and Manufacturing Innovation (CMMI), $152.2 
million, and Electrical, Communications and Cyber Systems (ECCS), $80.9 
million. The new crosscutting-area divisions are: Industrial Innovation 
and Partnerships (IIP), $120.1 million, Engineering Education and 
Centers (EEC), $126.0 million, and Emerging Frontiers in Research and 
Innovation (EFRI), $25.0 million. This last division is being created 
to provide mechanisms to rapidly respond to breakthrough innovations at 
the interface between divisions and directorates. The other five 
divisions will compete with each other to receive EFRI funds.
    A portion of the ENG budget (allocated from the divisions) will 
continue to support research and education efforts related to broad, 
foundation-wide and interagency priority areas. Networking and 
Information Technology R&D ($11.2 million), Human and Social Dynamics 
($2 million), and Climate Change Science program ($1 million) are 
budgeted at the same levels as the fiscal year 2006 estimate. 
Biocomplexity in the Environment ($4 million) and Mathematical Sciences 
($1.46 million) are significantly reduced, i.e. by -32.7 percent and -
49.3 percent, respectively, under fiscal year 2006, continuing their 
phase-downs and transferring into core programs. On the other hand, 
National Nanotechnology Initiative ($137 million) and 
Cyberinfrastructure ($54 million) investments from ENG increase by 7.2 
percent and 3.8 percent, respectively. Additionally, ENG will lead a 
new $20 million NSF-wide, interagency effort to support research on 
sensors, focusing on prediction and detection of explosive materials 
and related threats. This $20 million effort represents 42 percent of 
the proposed 8.2 percent increase for ENG, and is divided evenly 
between the four ENG divisions of CBET, CMMI, ECCS, and EEC.

                    THE ASME NSF TASK FORCE POSITION

Affirmation and Endorsement
    The ASME NSF Task Force continues its strong endorsement of NSF's 
leadership role in guiding the Nation's basic research and development 
activities. NSF has an outstanding record of supporting a broad 
spectrum of research of the highest quality, from ``curiosity-driven'' 
science to focused initiatives. This achievement has been made possible 
only through strict adherence to the independent peer review process 
for merit-based awards. ASME recognizes the importance and timeliness 
of NSF's priority areas that address major national needs for the 21st 
century.
    The fiscal year 2007 budget request and its 7.9 percent increase 
over the appropriation enacted last year represent an encouraging step 
forward in the country's commitment to NSF's vital role in fostering 
the fundamental research that delivers the ideas, knowledge, and 
innovation to sustain a robust, competitive, and productive Nation. 
Over three-quarters of the total $439 million increase for NSF is in 
the Research and Related Activities Account, which increases by $334.5 
million (7.7 percent) to a total of $4.67 billion. This investment 
involves both established and emerging areas that are the wellspring 
for discoveries that lead to products, process, and services that 
improve health, wealth, living conditions, environmental quality, and 
national security.
    In this request, NSF continues to emphasize programs aimed at 
tapping the potential of those underrepresented in the science and 
engineering workforce--especially minorities, women, and persons with 
disabilities. Support for these programs will total over $640 million. 
Broadening participation in NSF activities also applies to 
institutions, which ensures that the U.S. reflects a strong capability 
in science and engineering across all its regions. The fiscal year 2007 
request will fund the Experimental Program to Stimulate Competitive 
Research (EPSCoR) at $100 million.
    In general, the Task Force also supports and commends activities 
within ENG. NSF's vision of advancing the frontier--by generating 
ideas, marking out creative paths, and solving fundamental research 
questions--is epitomized within ENG. It is important to emphasize that 
it is through such fundamental science and engineering investment by 
which next generation technologies are spawned. Examples of successes 
emerging from ENG include the development of a new method to precisely 
carve arrays of tiny holes only 10 nanometers wide into sheets of gold 
by applying electric current through a thin film of oil molecules. The 
process may yield miniscule molecular detection devices, semiconducting 
connectors, molecular sieves for protein sorting, and nanojets for fuel 
or drug delivery. ENG has also funded pioneering work to develop a 
device that enables previously blind individuals to perceive light and 
patterns. A retinal implant uses an external camera and image-
processing unit to send signals through the optic nerve to the brain. 
ENG's university-based research itself has developed buoys that can 
harness the motion of the ocean to produce electricity. Each buoy could 
potentially produce 250kW of power, and the technology can be scaled up 
or down to suit a variety of energy needs.
    NSF leads the U.S. nanotechnology research effort, and ENG is the 
focal point within NSF for this critical national research endeavor. 
ASME has strongly supported the National Nanotechnology Initiative 
(NNI) since its inception as an NSF priority area in fiscal year 2000. 
By advancing fundamental research and catalyzing synergistic science 
and engineering research and education in emerging areas of nanoscale 
science and technology, we push the frontiers of knowledge and 
innovation, fueling our national economic enterprise. Within the total 
investment for NNI, ENG will fund approximately 30 new awards on 
Nanoscale Interdisciplinary Research Teams (NIRT) or NIRT-like projects 
($65 million across NSF).
    Finally, ASME continues to endorse NSF's bolstering of K-12 
education. In partnership with the Department of Education, NSF will 
invest $104 million to strengthen K-12 science, technology, 
engineering, and mathematics education. Additionally, funding for 
Graduate Teaching Fellowships in K-12 Education will increase by nearly 
10 percent to $56 million. By pairing graduate students and K-12 
teachers in the classroom, effective partnerships between institutions 
of higher education and local school districts are established.
Questions and Concerns
    Continuing with central themes raised in previous years, ASME's key 
questions and concerns arising from the fiscal year 2007 budget request 
center on matters of balance. In particular, ASME is concerned with:
  --gross funding imbalance in the federal R&D portfolio,
  --inadequate funding levels for existing grants, and
  --insufficient funding for core disciplinary research in the ENG 
        portfolio.
    Despite the encouraging increase for NSF in fiscal year 2007 as the 
first installment of the new ACI NSF 10-year budget-doubling effort, 
the present overall budget request of $6.02 billion is still far below 
the $9.8 billion originally authorized for 2007 as part of the National 
Science Foundation Authorization Act of 2002 (H.R. 4664). NSF is the 
only federal agency with a mandate to strengthen the health and 
vitality of U.S. science and engineering and support fundamental 
research and education in all scientific and engineering disciplines. 
Although NSF investments account for only 4 percent of total federal 
funding for R&D, NSF provides 22 percent of federal support to academic 
institutions for basic research, which is crucial in non-medical fields 
and disciplines. Moreover, while NSF does not directly support medical 
research, its investments directly benefit the medical sciences and 
related industries, providing the needed advances in diagnosis, 
regenerative medicine, drug delivery, and the design and manufacturing 
of pharmaceuticals. Given NSF's essential contribution to the immediate 
and future welfare, growth, and vitality of our Nation, the ASME NSF 
Task Force believes strongly that NSF is still severely under funded.
    NSF has had considerable success to date in stretching its funds. 
NSF is one of three agencies that have been recognized as models of 
excellence in Grants Management. However, this efficiency comes at the 
expense of quality research. The funding success rate for NSF has 
dropped dramatically, from 30 percent in the late 1990s to an estimated 
20 percent for fiscal year 2006 agency wide. This funding success rate 
is estimated to be 21 percent for fiscal year 2007--a very modest 
increase. The number of outstanding, meritorious proposals far exceeds 
the available funding for new programs. Nevertheless, even maintaining 
current grant size and duration is not enough. An extended period of 
constant grant sizes has eroded buying power and the ability to 
adequately support professional development. The projected average 
annualized award size for research grants for NSF fiscal year 2007 is 
$148,300, for a project duration of 3 years. Moreover, ENG has the 
lowest estimated funding success rate for research grants of the 
directorates at 14 percent for fiscal year 2006. ENG has the second 
lowest average annualized award size and project duration for research 
grants of the directorates at $118,000 for a project duration of 2.9 
years, as compared to the overall NSF average of $143,000 for a project 
duration of 3 years, for estimated fiscal year 2006.
    In the current budget, ENG receives the largest percent increase of 
the Directorates at 8.2 percent (corresponding to the second largest 
total amount increase at $47.6 million). However, funding available for 
core programs comes into question. As noted earlier, the new Sensor 
initiative constitutes 42 percent of the increase for ENG. In fact, 
investments in the priority areas and the IIP division, which houses 
the SBIR/STTR program, constitute 54 percent of the budget request for 
ENG. The limited funding for unsolicited fundamental research proposals 
is of great concern, considering that new priority areas and even new 
disciplines are engendered from such sources. The Task Force does not 
advocate for the redistribution of monies from priority areas into core 
areas, but rather significant increases for ``unfenced'' funds in order 
to develop creative and novel ideas that feed the comprehensive 
fundamental Science, Engineering, and Technology knowledge base, which 
has been a cornerstone of this Nation's greatness.

                                CLOSURE

    ASME supports the administration's request of $6.02 billion for 
fiscal year 2007, and enthusiastically applauds the National Science 
Foundation's leadership in articulating the Nation's basic research and 
development vision. Because NSF is the only federal agency that 
supports all fields of science and engineering research, ASME still 
feels that NSF is severely underfunded. A substantial and steady 
increase in NSF's budget, by increasing both the number and size of its 
awards, especially in core disciplinary research and education, will 
enable NSF to better position itself to fulfill its leadership 
responsibility in directing the Nation's research and development 
activities. Thank you for the opportunity to comment on the NSF fiscal 
year 2007 budget request.
                                 ______
                                 

 Prepared Statement of the Shoshone-Bannock Tribes Fort Hall Business 
                                Council

    As chairman of the Shoshone-Bannock Tribes of the Fort Hall 
Reservation, I am pleased to submit written testimony to the 
subcommittee regarding President Bush's fiscal year 2007 budget for the 
Department of Justice and its Office of Tribal Justice. The tribes 
recognize the considerable financial burden which the war in Iraq and 
Hurricane Katrina relief effort has placed on the Federal Government. 
We are disheartened and concerned, however, to witness the resulting 
negative impact those funding priorities have caused to programs 
enacted for the benefit of federally recognized Indian tribes, 
especially funding for construction of correctional facilities, police 
departments, and Tribal courts.
    Our physical structures for housing these essential governmental 
programs and personnel are unsafe, inadequate and are not up to code 
requirements. They require replacement. With more than one-half million 
acres of land to patrol and safeguard, we must operate our public 
safety programs wisely. Congress has documented the deplorable 
conditions of detention facilities in Indian country. We ask that you 
act and assist us and other Indian tribes to finance the construction 
of vital infrastructure for our reservations.
    Congress can shore up the Federal Government's on-going trust 
responsibility by restoring and increasing proposed cuts to successful 
programs of the Department of Justice, including the Correctional 
Facilities on Tribal Lands Program, the Tribal Court Assistance Program 
(TCAP), the Tribal Resources Grant Program, and the Tribal Youth 
Program. Proposed reorganization of Justice Programs mask program cuts 
to these and other important Justice Department grant programs.
    As Regina Schofield, Assistant Attorney General, Office of Justice 
Programs, has stated, the needs of Indian Tribal governments to combat 
crime and violence in Indian country continue to be great. The Justice 
Department's Office of Justice programs offer a variety of grants to 
Indian tribes to assist us in our efforts to curb criminal activities, 
assist victims of crime, and deter future criminals by educating our 
younger members. But without the physical structures to house our law 
enforcement personnel, corrections officers and detainees, and Tribal 
Court personnel in, or the funds required to carry out much-needed 
programs to assist our adult and juvenile detainees, our capabilities 
are unnecessarily constrained.
    As always, we are appreciative of the work of this subcommittee for 
your many efforts to improve the quality of life for American Indians. 
We count on the subcommittee to counter overbroad and harmful budget 
cuts to programs of the Department of Justice which contribute to the 
safety of American Indians, who are often the victims of crime.
    We request that this subcommittee significantly increase funding 
for Justice Department programs that assist Indian tribes construct 
police departments, detention facilities and Tribal Courts. Funding for 
the Office of Justice programs' Correctional Facilities on Tribal Lands 
program has dropped off significantly in the last few years. In 2006, 
we understand that the program will fund new construction for only one 
structure in Indian country, with the balance of the program's funding 
(less than $2.0 million) going to assist only existing correctional 
facilities located in Indian country bring their structures up to code. 
The administration has not included funds for this program in fiscal 
year 2007.
    The Fort Hall Business Council of the Shoshone-Bannock Tribes has 
made infrastructure its priority funding request for the fiscal year 
2007 appropriations cycle. Building Phase II of the tribes' Justice 
Center is among the tribes' top priorities. The tribes' have committed 
$4.8 million toward construction of the 67,000 square foot Justice 
Center. Our Justice Center facility has been designed by Lombard Conrad 
Architects of Boise, Idaho. It will house the tribes' police 
department, Tribal Courts, and a 100-bed detention center which will 
have space for 20 juvenile detainees, with ``sight and sound'' 
separation. The Tribes require $6.2 million in Federal grants and loans 
to finance the second phase of the project, construction of the 
detention center and the shell for the police department and Tribal 
Courts.
    For too many years, a crisis has persisted regarding the lack of 
basic infrastructure in Indian country. In good economic times and bad, 
Indian country lacks adequate roads, safe drinking water, sewers, gas 
and electric lines, as well as law enforcement officers, Tribal Court 
personnel, and detention facilities to house our members and generally 
protect the health and safety of our members, non-Indian reservation 
residents, and the visiting public. As Tribal governments have grown 
stronger and more stable over the years, we have witnessed a decrease 
in federal appropriations just when our needs are greatest and tribal 
capabilities are at their highest.
    Just as the administration and Congress recognize that stable and 
peaceful governments and nations can only take root when a population's 
basic human needs are met, the Congress must do the same for Indian 
country here in the United States.
    We ask the Congress--which has the power of the purse and which, 
together with the Executive Branch, holds a position of trustee as to 
the Indian nations and Indian people--to restore budget cuts to already 
under-funded tribal programs of the Department of Justice. The 
administration's proposed fiscal year 2007 budget does not eliminate 
government excess. It cuts vital sources of revenue which the Federal 
Government pays directly to Tribal governments to improve our 
infrastructure.
    Pursuant to the landmark Indian Self-Determination Act, the 
Shoshone-Bannock Tribes have stepped into the shoes of the Secretary of 
the Interior to assume her duties and obligations to the tribes and our 
members. We have contracted law enforcement, Tribal Courts, and 
detention facility operations. The Fort Hall Police Department is 
comprised of 34 employees with six divisions (administration, patrol, 
detention, communications/dispatch, criminal investigations and gang 
investigations). In recent years our tribal police have been helped by 
grants from the Department of Justice's COPS program. While we are 
encouraged by the administration's proposed $16 million increase to the 
Tribal COPS program, the administration has cut other important Office 
of Justice programs which benefit Indian country. If we do not receive 
adequate funding, we will lose well-trained and qualified personnel. 
The remaining officers will work in unsuitable conditions.
    Our existing structures hamper our ability to promote law and order 
on the Fort Hall Reservation and curtail violence from spreading off 
the Reservation. In 2005, the tribes entered into Memoranda of 
Understanding with city and county governments to facilitate the 
investigation and response to illegal drug activities in their 
respective jurisdictions. The tribes are pleased to see Congress taking 
affirmative measures to curb violence against Indian women. We want to 
do our part to curtail violence in southeastern Idaho. Our physical 
plant limitations make it more difficult for us to be strong partners 
with local law enforcement agencies at a time of growing gang and drug 
(methamphetamine) violence.
    The Tribal Court system handles roughly 4,000 civil and criminal 
cases each year, in addition to 1,500 juvenile cases. With just a 
single working courtroom, the tribes face a severe backlog of cases. 
The courts must delay or dismiss cases that should be tried. The Tribal 
Police Department needs more space for evidence storage. Detectives and 
investigators share common workspace, there is no space for 
interviewing witnesses or informants, and the Patrol Division lacks 
space to write up reports. With a new structure, our law enforcement 
capabilities will increase tremendously.
    The corrections facility space was not designed as a jail and is 
not up to code requirements. Just this month a detainee escaped because 
of the crumbling detention facility. There is no space for medical 
treatment or education of our tribal detainees. We would like to offer 
these detainees programs for continuing education (GED) as well as 
spiritual and culturally-appropriate programs so that they may 
integrate into society with improved skills. There are no visitor 
facilities. The layout makes it difficult to prevent visual contact 
between male and female detainees. There is no ``sight and sound'' 
separation of juvenile detainees. Thousands of dollars are expended 
each year by the tribes to house juvenile detainees in other 
jurisdiction's detention centers, removing them from family and 
community and thus increasing the risk that they will become repeat 
offenders.
    We also are required to provide health services to American Indian 
detainees from other jurisdictions who avail themselves of the Indian 
Health Service clinic located at Fort Hall. The clinic does not receive 
reimbursement for the provision of health services to these 
individuals. If we had a state-of-the-art Tribal Justice Center, with a 
100-bed detention center, we could house these American Indian 
detainees and provide them with the services they require and receive 
adequate compensation from other jurisdictions.
    The Fort Hall Business Council decided in 2006 to divide 
construction of the fully designed Justice Center into phased 
construction to spread out the estimated $17.9 million construction 
costs. The tribes are also exploring the feasibility of accessing 
private, low-interest loans to build the Justice Center.
    The 100-bed detention center will have 80 adult beds and 20 
juvenile beds. Excess space will be leased out to accommodate 
surrounding jurisdictions' American Indian adult and juvenile 
detainees. Leasing available bed space will provide the tribes with 
additional revenues to fund the operation and maintenance costs, as 
well as the salaries of the Justice Center detention program, thus 
lowering the annual operating cost of maintaining a state-of-the-art 
facility. BIA Office of Law Enforcement Services officials have also 
stated that the U.S. Bureau of Prisons needs detention space which 
comply with Federal standards for its American Indian detainees.
    The tribes subsidized their Indian Self-Determination Act Law 
Enforcement and Tribal Courts contracts with the BIA in 2004 in the 
amount of $1.6 million. The tribes subsidized Indian Health Service 
operations with a $3.9 million annual health insurance program for 
Tribal employees, permitting the IHS to bill third-party health 
insurers to fund their operations, as well as providing tribal revenues 
to shore up health programs vital to the reservation community. These 
funds could have been used for construction of our Justice Center. The 
tribes require Federal assistance to build the Justice Center so that 
its criminal justice programs may operate at their full potential.
    The budgets of the Justice Department's Correctional Facilities on 
Indian Lands program, and similar programs funding construction of 
infrastructure in Indian country must be increased in fiscal year 2007 
if we are to access the capital required to complete Phase II. State 
and local government officials support our Justice Center.
    The Shoshone-Bannock Tribes' Police Department, corrections 
officers, and Tribal Court personnel keep us safe. They protect our 
families and communities. They save lives. In the wake of 9/11, 
Americans truly appreciated the sacrifice of the Nation's first 
responders; they put their lives on the line every day. Congress has 
recognized how important it is to build infrastructure on Indian 
reservations--law enforcement, Tribal courts, schools, health centers, 
roads, water and sewer systems, and utilities--if tribal communities 
are to attract and retain business, promote economic development, and 
maintain law and order in predominantly rural Indian communities. 
Reservations boundaries are porous and are becoming more so every day.
    Thank you for affording the Shoshone-Bannock Tribes the opportunity 
to make known our comments regarding the President's budget proposal 
for the Justice Department and our needs for fiscal year 2007.
                                 ______
                                 

          Prepared Statement of the Puyallup Tribe of Indians

    Mr. Chairman, my name is Herman Dillon, Sr., Puyallup Tribal 
Chairman. We thank the committee for past support of many tribal issues 
and in your interest today. We share our concerns and request 
assistance in reaching objectives of significance to the Congress, the 
Tribe, and to 32,000+ Indians (constituents) in our Urban Service Area.
    U.S. Department of Justice--Office of Tribal Justice--The Puyallup 
Tribe has analyzed the President's fiscal year 2007 budget and submit 
the following detailed written testimony to the Senate Subcommittee on 
the Commerce, Justice, State, the Judiciary and Related Agencies. In 
the fiscal year 2006 budget process, the Puyallup Tribe supported 
actions of Congress to restore the base level funding for various law 
enforcement and public safety programs. We look forward to working with 
the 109th Congress to insure that funding levels for programs necessary 
for the Puyallup Tribe to carry-out our sovereign responsibility of 
self-determination and self-governance for the benefit of Puyallup 
Tribal members and the members from approximately 435 federally 
recognized tribes who utilize our services are included in the fiscal 
year 2007 budget. The following provides a brief review of the Puyallup 
Tribe's priorities and special appropriation requests for fiscal year 
2007;
    Puyallup Nation Law Enforcement.--The Puyallup Reservation is 
located in the urbanized Seattle-Tacoma area of the State of 
Washington. The 18,061 acre reservation and related urban service area 
contains 17,000+ Native Americans from over 435 tribes and Alaskan 
villages. The Puyallup Nation Law Enforcement Division currently has 26 
commissioned officers to cover 40 square miles of reservation in 
addition to the usual and accustomed areas. The officers are charged 
with the service and protection of the Puyallup Reservation 7 days a 
week, 24 hours a day. We currently operate with limited equipment, 
patrol vehicles requiring constant repair and insufficient staff 
levels. With the continuing increase in population, increase in gang 
related activities on the Puyallup Reservation and the impact of the 
increase in manufacturing of meth amphetamines in the region, the 
services of the Puyallup Nation Law Enforcement Division are exceeding 
maximum levels.
    A major area of concern is the status of the Tribes Regional 
Detention Facility. Due to damages from the February 2001 Nisqually 
earthquake, we have had to relocate to modular/temporary facilities. As 
a regional detention facility, the relocation to the modular facility 
not only impacts the tribe's ability to house detainee's but also the 
approximately 173 native inmates that were incarcerated at the Puyallup 
Incarceration facility during the period of 2001-2002. Relocation to 
the modular facility has also impacted the tribes ability to house 
juvenile detainees. With no juvenile facilities, Native American youth 
are sent to non-native facilities The President's budget request 
provides zero funding for the construction of tribal detention 
facilities in fiscal year 2007. Indian country will be negatively 
impacted by the proposed elimination of funding for tribal detention 
facilities. The total estimated backlog is approximately $400 million. 
In fiscal year 2006, $5 million was provided to construct tribal 
detention facilities. We respectfully request congressional support:
  --Fund the Department of Justice--Detention Facilities Construction 
        program for fiscal year 2007 at a minimum of $30 million for 
        new construction.
  --Support from the subcommittee on the tribes request for funding to 
        design and construct an Adult & Juvenile Detention Facility on 
        the Puyallup Reservation, in the amount of $6.5 million.
    Tribal Court System.--The Tribal Court system is an independent 
branch of the Puyallup Tribal Government having jurisdiction over 
17,000+ Indians within our service area. Jurisdiction extends 
throughout our 18,061 acre reservation and our U&A Grounds for Hunting 
and Fishing. Partial court funding is provided via a Public Law 93-638 
Contract; the funding level has varied little during the past 5 years 
covering only costs of supplies, expenses and partial funding of the 
Court Administrator's salary. Compensation costs for the Judge, 
Prosecutor, Public Defender, Children's Court Counselor and Clerical 
are at best, intermittent. Current levels of federal support are 
grossly inadequate thereby effectively denying access to equal justice.
    Operations of a Tribal Court system with jurisdiction over the 
3,200+ tribal members and the 17,000+ Indians is extremely costly. 
Sufficient funding is needed for the salaries of the Court 
Administrator, Judge, Prosecutor, Public Defender, Children's Court 
Counselor and Clerical. Our needs to provide juvenile services and 
multi disciplinary investigations of child abuse and domestic violence 
abuse is critical. The Tribal Court System lacks the basic resources 
most court systems take for granted, such as; the Federal Digest, the 
Federal Rules decisions, Washington State Reporters and access to the 
Lexus Data Base. A frame work is in place for an adequate court system, 
however we lack sufficient finding due to competing demands/priorities 
we cannot provide funding to other departments--some of which attempt 
timely intervention strategies to lessen court involvement. We have 
provided supplementary support to the court system for the past 8 
years. With the projected increase demand on the court system services, 
it is anticipated that this shortfall will increase over the next 5 
years. We seek congressional support and endorsement in:
  --Request subcommittee support to fund the Office of Tribal Justice--
        Tribal Court System at no less than $8 million for fiscal year 
        2007.
    Community Oriented Policing Services (COPS).--The President's 
budget request proposes to fund the COPS for Indian Country at $31 
million for fiscal year 2007. This represents an overall reduction in 
funding of 33 percent from the fiscal year 2006 enacted level. This 
takes into consideration the administration proposal to eliminate the 
Tribal Court Assistance, Indian Alcohol and Substance Abuse, and Tribal 
Youth programs, and have those programs funded instead through the COPS 
program. As stated in the in U.S. Senate Committee on Indian Affairs 
letter to Committee on the Budget, this action could ``subject these 
important programs to the COPS program's 3-year non-reoccurring funding 
scheme.'' This program provides an essential service to the public 
safety and welfare in Indian County and assist tribal efforts to 
increase the number of law enforcement officers. Today, there are 1.3 
law enforcement officers per 1,000 citizens in Indian county, compared 
to 2.9 law enforcement officers per 1,000 citizens in non-Indian 
communities.
    The demand on law enforcement services will increase as Tribal 
governments continue to enhance civil and criminal justice 
administration and as Tribal governments play an integral role in 
securing America's borders, citizens and physical infrastructure. This 
demand is further impacted by the existing and growing ``gang problem'' 
within the boundaries of the Puyallup Reservation. These gangs are 
different than other reservations due to our urban setting (Puget Sound 
region of the State of Washington), five other city boundaries next to 
our exterior boundaries, six separate local jurisdictions and 
Interstate 5 traversing through the reservation. In an effort to combat 
these gang activities, the Puyallup Tribal council created a Gang Task 
Force from the Tribal Police Department, representatives from various 
tribal services divisions and community members. The Gang Task Force 
developed a gang policy that includes a four prong approach to gang 
related activities. They are: enforcement; intelligence; education; and 
physical-mental health. These programs are currently being implemented 
or being designed for use with supplies and staff being provided by the 
tribe. What is needed to move forward is funding in each pronged 
approach. Enforcement with additional officers, continued training, 
equipment and adequate detention facilities for adults and juveniles. 
Intelligence with equipment, computer software programs and staffing. 
Education with computer software programs, equipment and staffing. 
Physical-mental assistance with funding, equipment and staffing for 
support of family services and Tribal Health Authority. We seek 
congressional support and endorsement:
  --Request subcommittee support to fund the Office of Tribal Justice--
        COPS at $31 million for fiscal year 2007.
  --Request subcommittee support in funding the Indian alcohol and 
        Substance Abuse Demonstration program at no less than $5 
        million for fiscal year 2007.
  --Request subcommittee support in funding the Tribal Youth Program at 
        no less than $10 million for fiscal year 2007.
  --Request subcommittee support in funding the ``Meth Hot Spots'' 
        program to fund cleanup of meth labs at no less than $40 
        million for fiscal year 2007 and request that the subcommittee 
        issue directive language to the Department of Justice to 
        include this amount in their fiscal year 2008 budget.
  --Request subcommittee support in funding programs authorized under 
        the Violence Against Women Act (VAWA), restore funding for 
        these programs at $387 million for fiscal year 2007 and request 
        the subcommittee to issue directive language to the Department 
        of Justice to include this amount in their fiscal year 2008 
        budget.
                                 ______
                                 

            Prepared Statement of the City of Webster, Texas

    Mr. Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of an 
appropriation of $1.54 million from the Coastal and Estuarine Land 
Conservation Program for the Clear Creek Park project in Webster, 
Texas.
    Five miles south of NASA's mission control center at the Johnson 
Space Center, Clear Creek meanders by the City of Webster in Harris 
County. Flowing eastward from its source near Missouri City, Clear 
Creek is a tributary of the Galveston Bay estuary. As the creek nears 
the shores of Galveston Bay, a rich coastal ecosystem develops 
featuring coastal prairie, marshes, wetlands, migratory bird habitat, 
and riparian forests. Several parks along the corridor in both Harris 
and Galveston counties provide residents and visitors with 
opportunities for recreation, outdoor education, and other open space 
activities.
    Webster lies at the lower end of the Clear Creek watershed and is 
home to diverse communities of ecologically important coastal habitats 
and systems. Riparian forests of willow oaks, water oaks, and cedar 
elms provide habitat for amphibians, owls, hawks, neotropical migrant 
birds, and the reddish egret, a State listed threatened bird species. 
Along the creek banks are several areas of coastal prairie. As less 
than 1 percent of North American grassland prairie remains, it is 
critical to protect and restore remaining native prairie lands. Near 
Clear Lake and the entrance to Galveston Bay, marshes, wetlands, and 
embayments support fish, waterfowl, and migrant birds. The bay was 
recognized in 1988 as an estuary of national importance in the National 
Estuary Program, and it is one of 28 such monitored estuaries in the 
Nation. The comprehensive management plan of the Galveston Bay Estuary 
program identified wetlands habitat loss and degradation as a priority 
problem in the estuarine system.
    The Clear Creek corridor offers the potential for significant 
recreational opportunities for residents and visitors. Several parks 
operated by local governments extend along the creek, including Harris 
County's Challenger Seven Memorial Park, Galveston County's Walker Hall 
Park, and League City's Erikson Tract and Clear Creek Nature Park. In 
order to enlarge and further link this important corridor of parks and 
reserves, the City of Webster has proposed the acquisition of 
approximately 270 acres along the northern banks of the creek for a new 
Clear Creek Park.
    Within the planned park area, the City of Webster envisions 
building a trail along Clear Creek for hiking and biking. The trail 
will also feature access to launch sites on the creek for canoeing and 
kayaking, small piers for fishing, observation points and decks for 
bird watching, and picnic areas for families. The multiple 
opportunities along the trail are expected to accommodate and 
contribute to outdoors and environmental education. The opening of a 
trail would also advance the Galveston Bay Estuary Program's goal of 
increasing public access to Galveston Bay and its tributaries.
    Identified for acquisition with fiscal year 2007 funds are 
approximately 175 acres within the proposed Clear Creek Park 
boundaries, nearly 65 percent of the total planned park acreage. Once 
acquired, the City of Webster will own and maintain the property as a 
public park and conservation area. Purchase of this property is 
critical to the protection of habitat and recreational open space along 
Clear Creek, one of the few remaining unchannelized stream and river 
corridors in the Houston metropolitan area. Development is currently 
the largest threat to habitat in the Galveston Bay estuary, and some 
parcels within the park area have already been sold. If additional 
tracts in the proposed Clear Creek Park area are developed, the creek's 
floodway would be degraded by loss of wetlands and increase in runoff 
pollutants.
    The total value of this property is $3.08 million. In order to 
complete its purchase, an appropriation of $1.54 million from the 
Coastal and Estuarine Land Conservation program is needed in fiscal 
year 2007. Clear Creek Park will protect critical coastal land and 
provide multiple recreational possibilities to residents of Webster and 
other nearby communities.
    Thank you, Mr. Chairman, for the opportunity to present this 
testimony in support of the appropriation for Clear Creek Park and for 
your consideration of the request.
                                 ______
                                 

         Prepared Statement of Santa Barbara County, California

    Mr. Chairman and Honorable Members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of an 
appropriation of $1 million from NOAA's Coastal and Estuarine Land 
Conservation program for Gaviota State Park.
    Located in western Santa Barbara County between Coal Oil Point and 
Point Sal, approximately 100 miles north of Los Angeles, the Gaviota 
Coast lies between the Channel Islands National Marine Sanctuary and 
the Los Padres National Forest. Offering a wide variety of natural, 
recreational and agricultural resources, it is a high priority area for 
conservation and is southern California's largest remaining stretch of 
pristine coastline. This remarkable 80-mile landscape represents only 
15 percent of the Southern California coast, but it contains about 50 
percent of its remaining undeveloped land.
    With the constant threat of urban sprawl and development, many 
Californians have taken an active part in preserving Gaviota's 
agricultural heritage and natural resources. The area is one of only 
five places in the world with a Mediterranean climate and associated 
vegetation, and it has a history of agricultural use. The topography of 
the area varies from rocky and narrow beaches to chaparral covered 
mountain slopes. There is also a variety of grassland, shrubland, and 
woodland habitat, with scattered vernal pool communities, estuaries, 
and native grasslands.
    With a vast array of habitat, the Gaviota Coast is home to many 
species of marine and terrestrial wildlife. Marine animals found along 
the coast include dolphin, gray whale, the endangered Guadalupe fur 
seal, and steelhead trout. Terrestrial wildlife includes mountain lion, 
mule deer, golden eagle, and endangered species such as the California 
condor, brown pelican, and marbled murrelet.
    Available for acquisition in fiscal year 2007, the Gaviota State 
Park Addition project is a 43-acre site adjacent to Gaviota State Park. 
This popular park unit serves 86,000 visitors annually and the addition 
of the subject property would enable California State Parks to expand 
the existing trail system, develop new trailheads, provide trailhead 
serving facilities for the park's many visitors and develop much-needed 
campgrounds. The expansion of Gaviota State Park is a top priority for 
State Parks and for Santa Barbara County.
    Immediately adjacent to Highway 101, this 43-acre property is zoned 
for commercial use. Commercial land uses in these coastal foothills are 
incompatible with county and State efforts to prevent inappropriate 
development and protect critical natural, scenic, and recreational 
resources. Acquiring lands adjacent to the park will protect these 
streams from the degradation that would occur from development-related 
pollution.
    Because of its location among other protected properties and 
agricultural lands, this project is part of a larger effort to piece 
together up to 10,000 contiguous acres of protected coastal wildlands 
and open space from the mountains to the sea, including the Los Padres 
National Forest and lands owned and managed by the local Land Trust for 
Santa Barbara County. The subject property is the linchpin for this 
larger assemblage, as it is the only property with commercial zoning on 
a 35-mile stretch of the Gaviota Coast. The total cost of the project 
is $2.5 million, with State and local sources providing the matching 
funds.
    An fiscal year 2007 appropriation of $1 million from NOAA's Coastal 
and Estuarine Land Conservation program is needed to acquire and 
protect this 43-acre property. If added to Gaviota State Park, it will 
expand recreational opportunities, provide much needed visitor 
facilities, protect scenic viewshed and conserve important wildlife 
habitat.
    Thank you, Mr. Chairman for the opportunity to present this 
testimony and for your consideration of the request for an 
appropriation of $1 million for Gaviota State Park.


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
American Geological Institute, Prepared Statement of the.........   282
American Institute of Biological Sciences, Prepared Statement of 
  the............................................................   253
American Museum of Natural History, Prepared Statements of the.297, 298
American Physiological Society, Prepared Statement of the........   268
American Public Power Association, Prepared Statement of the.....   263
American Rivers, Prepared Statement of...........................   299
American Society for Microbiology, Prepared Statement of the.....   243
American Society of Civil Engineers, Prepared Statement of the...   290
American Society of Plant Biologists, Prepared Statement of the..   284
Animal Protection Institute, Prepared Statement of the...........   256
ASME Aerospace Division's Task Force, Prepared Statement of......   270
ASME Technical Communities' National Science Foundation Task 
  Force, Prepared Statement of the...............................   330
Association of Small Business Development Centers, Prepared 
  Statement of the...............................................   266

Blakeslee, Assemblyman Sam, Assemblymember, 33rd District, 
  California Legislature, Prepared Statement of..................   252
Blue Ocean Institute, Prepared Statement of the..................   256
Break the Cycle, Prepared Statement of...........................   325
Byrd, Senator Robert C., U.S. Senator From West Virginia, 
  Question Submitted by..........................................   112

California Industry and Government Central California Ozone Study 
  (CCOS) Coalition, Prepared Statement of the....................   281
California State Coastal Conservancy, Prepared Statement of the..   264
City of Webster, Texas, Prepared Statement of the................   337
Claflin University, Orangeburg, South Carolina, Prepared 
  Statement of...................................................   301
Clark, John F., Director, United States Marshals Service, 
  Department of Justice..........................................    73
    Prepared Statement of........................................    75
Coalition of EPSCoR/IDeA States, Prepared Statement of the.......   245
Columbia River Inter-Tribal Fish Commission, Prepared Statement 
  of the.........................................................   294
Conservation Trust of Puerto Rico, Prepared Statement of the.....   309

Domenici, Senator Pete V., U.S. Senator From New Mexico, 
  Questions Submitted by.........................................    96
Dorgan, Senator Byron L., U.S. Senator From North Dakota, 
  Questions Submitted by.......................................110, 192

Endangered Species Coalition, Prepared Statement of the..........   256
Environmental Defense, Prepared Statement of.....................   256

Federation of American Societies for Experimental Biology, 
  Prepared Statement of the......................................   236
Florida State University, Prepared Statement of..................   289
Friends of the Earth, Prepared Statement of......................   256


Gaviota Coast Conservancy, Prepared Statement of the.............   292
Gonzales, Hon. Alberto R., Attorney General, Office of the 
  Attorney General, Department of Justice........................     1
    Prepared Statement of........................................    11
    Questions Submitted to.......................................    95
    Summary Statement of.........................................     9
Great Lakes Indian Fish and Wildlife Commission, Prepared 
  Statement of the...............................................   286
Griffin, Hon. Michael D., Administrator, National Aeronautics and 
  Space Administration...........................................   117
    Opening Remarks of...........................................   120
     Prepared Statement of.......................................   124
Gutierrez, Hon. Carlos, Secretary, Office of the Secretary, 
  Department of Commerce.........................................   197
    Prepared Statement of........................................   201
    Summary Statement of.........................................   199

Harkin, Senator Tom, U.S. Senator From Iowa:
    Questions Submitted by.......................................   194
    Statement of.................................................     7
HEART (Help Endangered Animals--Ridley Turtles), Prepared 
  Statement of...................................................   256
HerpDigest, Prepared Statement of................................   256
Hutchison, Senator Kay Bailey, U.S. Senator From Texas, Questions 
  Submitted by...................................................    98

International Fund for Animal Welfare, Prepared Statement of the.   256
International Wildlife Coalition, Prepared Statement of the......   256
Inwater Research Group, Inc., Prepared Statement of the..........   256

James City County, Virginia, Prepared Statement of...............   329

Kohl, Senator Herb, U.S. Senator From Wisconsin, Questions 
  Submitted by.................................................107, 113

Leahy, Senator Patrick J., U.S. Senator From Vermont:
    Prepared Statement of........................................     5
    Questions Submitted by......................................99, 114
    Statement of.................................................     5
Liga Conciencia Ambiental del Este, Inc., Prepared Statement of..   306
Local Ocean Trust/Watamu Turtle Watch, Prepared Statement of the.   256

Marine Conservation Biology Institute, Prepared Statement of the.   256
Marine Conservation Society, Prepared Statement of the...........   256
Marine Research Foundation, Prepared Statement of the............   256
Mikulski, Senator Barbara A., U.S. Senator From Maryland:
    Opening Remarks..............................................   119
    Statements of................................................3, 198
Mueller, Robert, III, Director, Federal Bureau of Investigation, 
  Department of Justice..........................................    36
    Prepared Statement of........................................    39
    Questions Submitted to.......................................   113
Murray, Senator Patty, U.S. Senator From Washington, Statement of     7

National Aquarium, Baltimore, Maryland, Prepared Statement of the   272
National Association of Marine Laboratories, Prepared Statement 
  of the.........................................................   233
National Association of State Universities and Land-Grant 
  Colleges (NASULGC), Prepared Statement of the..................   275
National Center for Victims of Crime , Prepared Statements of t311, 317
National Council for Science and the Environment, Prepared 
  Statement of the...............................................   315
National Environmental Trust, Prepared Statement of the..........   256
National Fish and Wildlife Foundation, Prepared Statement of the.   321
National Space Grant Alliance, Prepared Statement of the.........   249
National Wildlife Federation, Prepared Statement of the..........   302
Natural Resources Defense Council, Prepared Statement of the.....   256
Natural Science Collections Alliance, Prepared Statement of the..   328
Nature Conservancy, Prepared Statement of the....................   303
Nisqually Indian Tribe, Prepared Statement of the................   306

Oceana, Prepared Statements of.................................254, 256
Osa Sea Turtle Conservation Project, Prepared Statement of the...   256

Pacific Salmon Commission, Prepared Statement of the.............   278
PRETOMA, Prepared Statement of...................................   256
Pro Peninsula, Prepared Statement of.............................   256
Protectors of Pine Oak Woods, Prepared Statement of the..........   262
Proyecto Tortugas Marinas, Prepared Statement of.................   256
Puyallup Tribe of Indians, Prepared Statement of the.............   335

Santa Barbara County, California, Prepared Statement of..........   338
Save Barnegat Bay, Prepared Statement of.........................   324
Sea Grant Association, Prepared Statement of the.................   238
Sea Sense, Prepared Statement of.................................   256
Sea Turtle Restoration Project--Texas, Prepared Statement of the.   256
Sea Turtles at Risk, Prepared Statement of.......................   256
Seaflow, Prepared Statement of...................................   256
Shelby, Senator Richard C., U.S. Senator From Alabama:
    Opening Statements of........................................1, 197
    Questions Submitted by.................................95, 150, 224
Shoshone-Bannock Tribes Fort Hall Business Council, Prepared 
  Statement of the...............................................   333
Sierra Club, Prepared Statement of the...........................   256
Sierra Club, Puerto Rico, Prepared Statement of the..............   313
Simi Batra of the Trust for Public Land, Letter From the.........   293
Skokomish Tribal Nation, Prepared Statement of the...............   308
South Carolina Aquarium, Prepared Statement of the...............   256
St. Simons Land Trust, Prepared Statement of the.................   261
Stevens, Senator Ted, U.S. Senator From Alaska, Statement of.....     5
Surfrider Foundation, Prepared Statement of the..................   277
Sustainable Development Initiative, Prepared Statement of the....   320

Tandy, Karen, Administrator, Drug Enforcement Administration, 
  Department of Justice..........................................    45
    Prepared Statement of........................................    47
The Humane Society of the U.S., Prepared Statement of............   256
The Leatherback Trust, Prepared Statement of.....................   256
The National Marine Life Center, Prepared Statement of the.......   256
The Pegasus Foundation, Prepared Statement of....................   256
The Wild Animal Rescue Foundation of Thailand, Prepared Statement 
  of.............................................................   256
Town of Brunswick, Maine, Prepared Statement of the..............   260
Truscott, Carl J., Director, Bureau of Alcohol, Tobacco, Firearms 
  and Explosives, Department of Justice..........................    61
    Prepared Statement of........................................    63

United States Tennis Association Tennis and Education Foundation, 
  Prepared Statement of the......................................   273
University Corporation for Atmospheric Research, Prepared 
  Statement of 
  the............................................................   257

Washington State Department of Ecology, Prepared Statement of the   279
Whale and Dolphin Conservation Society, Prepared Statement of the   256
WIDECAST: Wider Caribbean Sea Turtle Conservation Network, 
  Prepared Statement of..........................................   256
Wildlife Rescue and Conservation Association (ARCAS), Prepared 
  Statement of the...............................................   256


                             SUBJECT INDEX

                              ----------                              

                         DEPARTMENT OF COMMERCE

                        Office of the Secretary

                                                                   Page

Additional Committee Questions...................................   223
Advanced Technology Program and Manufacturing Extension 
  Partnership....................................................   216
Bureau of the Census.............................................   220
Congressional Earmarks...........................................   229
Departmental Management...................................218, 220, 229
Economic Development Administration..................206, 219, 224, 230
    Focus on Regional Development................................   207
    Regional Development Account.................................   206
Fiscal Year 2006 Supplemental--National Oceanic and Atmospheric 
  Administration.................................................   224
Hurricane Supplemental Funds.....................................   205
Intellectual Property, Education, Outreach and Enforcement.......   207
National Institute of Standards and Technology...................   218
National Oceanic and Atmospheric Administration..................   210
National Polar-Orbiting Operational Environmental Satellite 
  System (NPOESS)..............................................209, 227
National Weather Service.........................................   211
Ocean-related activities.........................................   217
Patent Examiners:
    Hiring.......................................................   212
    Qualifications and Retention.................................   213
Public Safety Interoperable Communications.......................   221
    Scenarios....................................................   222
    Standards and Testing........................................   222
Timeline of Events for Getting Supplemental Funds to the Intended 
  Recipients.....................................................   205
U.S. Ocean Action Plan...........................................   228
United States Patent and Trademark Office........................   225

                         DEPARTMENT OF JUSTICE

          Bureau of Alcohol, Tobacco, Firearms and Explosives

Alabama Church Fires Investigation...............................    62
Alcohol, Tobacco, Firearms:
    And Iraq.....................................................    62
    Budget Request...............................................    61
    User Fee Proposal............................................    79
Anti-Gang Efforts................................................    65
Arson............................................................    68
Criminal Diversion of Alcohol and Tobacco........................    69
Explosives.......................................................    66
Firearms.........................................................    64
Fiscal Year 2007 President's Budget Request......................    64
Industry Operations: ATF's Dual Role.............................    69
Intelligence/Technology..........................................    70
International....................................................    72
Iraq.............................................................    64
Management.......................................................    73
National Tracing Center..........................................    66
Partnerships.....................................................    72
Response to Hurricane Katrina....................................    63
Southwest Border Initiative......................................    65
Special Programs.................................................    71
Violent Crime Impact Teams.......................................62, 65

                    Drug Enforcement Administration

ChoicePoint......................................................    93
Cocaine Trafficking..............................................    85
Drug Enforcement Administration:
    Intelligence Role............................................    46
    Involvement in the Intelligence Community....................    78
Drug:
    Enforcement Agency Anti-Terrorism............................    83
    Flow Prevention Strategy.....................................    46
    Threats to the United States.................................    53
    Trade Funding and Terrorism..................................    81
Financial Investigations.........................................    58
Fiscal Year:
    2005 Accomplishments.........................................    47
    2007 Budget Request..........................................    50
Fuerzas Armadas Revolucionarias de Colombia--ejercito de Pueblo--
  FARC...........................................................    90
Gangs............................................................    59
Global Drug Trade................................................    45
Independent Verification and Validation of Sentinel's 
  Implementation.................................................    93
Indictments and Extraditions From Colombia.......................    89
Methamphetamine..................................................    45
Opportunities Ahead..............................................    52
Price of Cocaine in Washington, DC...............................    86
Purchase of Software Package From ChoicePoint....................    94
State and Local Assistance.......................................    60

                    Federal Bureau of Investigation

Additional Committee Questions...................................    95
ChoicePoint......................................................   114
Criminal Programs................................................    44
Cyber............................................................    43
FBI Analysts.....................................................   113
Human Resources..................................................    41
Improving Physical Infrastructure................................    39
Information Technology...........................................    40
Legal Attache Program............................................    43
National Security Branch.........................................    36
    CT/CI/DI.....................................................    42
National Security Division.......................................    82
NGI and IAFIS/IDENT Interoperability.............................    40
Seniors Investment Fraud.........................................   114
Sentinel.....................................................36, 38, 77
     Cost........................................................    92
2007 Budget Request..............................................    39
Virtual Case File:
    Cost.........................................................    91
    Project......................................................    38
    Sentinel.....................................................   115

                     Office of the Attorney General

Additional Committee Questions...................................    95
Antitrust Modernization Commission...............................   110
Bulletproof Vests Partnership Grant Program......................   106
Byrne Grants.....................................................    31
    Program......................................................    27
Childsafe Initiative.............................................    10
ChoicePoint......................................................    24
Civil Rights.....................................................    15
Civil Rights Division............................................    10
Community Oriented Policing Services.............................    32
Competition and International Trade..............................    99
Counterterrorism Investigations..................................     9
Crime Victims Fund...............................................    25
Crimes Against Children and Obscenity............................    15
Cuts to:
    Byrne JAG Program............................................    29
    State and Local Law Enforcement Assistance...................   104
Drug:
    Cartels......................................................    33
    Enforcement and Border Security..............................    14
Edward Byrne Memorial Justice Assistance Grants (JAG) Program....   111
Eliminating the Byrne Grant Program in the Face of a Meth 
  Epidemic.......................................................   107
Enforcing Federal Law in the Courts..............................    16
Federal Prison...................................................    20
Fiscal Year 2007 Budget Request..................................     1
Human Trafficking................................................    10
Intergovernmental Agreements.....................................    98
Judicial System Support and Incarceration........................    16
Judiciary Needs on International Borders.........................    96
Justice For All Act..............................................   101
Juvenile Justice Funding.........................................   108
Management and Information Technology Improvements...............    17
Mental Health Court Needs........................................    97
National Motor Vehicle Title Information System..................    95
National Security Division.......................................    21
Northern Border..................................................    34
Northwest Border Security........................................    35
NSA's Domestic Surveillance Program and Its Possible Undermining 
  Affect on Counterterrorism Efforts.............................   112
Office of Intelligence Policy and Review.........................   107
Office of the Inspector General COPS Methamphetamine Initiative 
  Audit..........................................................   101
Preventing and Combating Terrorism...............................    12
Project Safe Neighborhoods.......................................    13
Public and Corporate Corruption..................................    16
Sex Offender Database............................................   111
Sexual Predators.................................................    19
State and Local Programs.........................................18, 31
State, Local, and Tribal Assistance..............................    17
Tunney Act Review................................................   110
Victims of Crime Act Crime Victims Fund..........................   105
Violence Against Women Act.......................................    30
    Funding Within the Department of Justice.....................    30
Whirlpool-Maytag Merger..........................................   109

                     United States Marshals Service

Audited Financial Statements.....................................74, 77
Children's Safety Act............................................    76
Fiscal Year:
    2005 Accomplishments.........................................    75
    2007 Budget Request..........................................    76
Fugitive Regional Task Forces....................................    74
Information Technology...........................................74, 76
Judicial Security............................................74, 76, 79
Local Law Enforcement............................................    83
Offsets..........................................................    77
Summary of Fiscal Year 2007 Budget Request.......................    74
United States Marshals Service Accomplishments...................    73

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

ADA Violations.................................................121, 187
    Preventive Steps...........................................132, 133
Additional Committee Questions...................................   150
Aeronautics Research......................................123, 129, 148
Aging and Damaged Facilities.....................................   140
American Competitive Initiative..................................   149
Balancing the Budget.............................................   123
Banking Funds for Crew Exploration Vehicle (CEV).................   191
Corrective Action Plan Fiscal Year 2005 Financial Audit--February 
  15, 
  2006...........................................................   150
Crew Vehicle Development.........................................   147
Cross-Agency Support Programs....................................   130
Cuts in Science..................................................   143
DC-8.............................................................   193
Emergency Supplemental Funds.....................................   124
Financial Management.............................................   150
Global Earth Observation System of Systems (GEOSS)...............   193
Human Space Flight...............................................   124
Impact of Earmarks on NASA's Mission.............................   131
Implementing the Vision..........................................   125
Integrated Enterprise Management Program.......................133, 134
Internal Weaknesses in Internal Controls.........................   132
International Partners...........................................   146
International Space Station......................................   145
Lunar Robotic Orbiter (LRO)......................................   191
National Aeronautics and Space Administration:
    Centers......................................................   188
    Financial Management.......................................121, 131
    Next Steps...................................................   132
    Science Budget...............................................   137
    Unobligated Balance Growth...................................   190
    Workforce Strategy...........................................   130
National Priorities..............................................   122
Procurement......................................................   189
Propulsion Research..............................................   137
Robotic Lunar Exploration Program (RLEP).........................   134
Science Reductions at the Marshall Space Flight Center...........   138
Scientific Discovery.............................................   128
Space Shuttle....................................................   144
    Flight Rate Schedule.........................................   139
Unobligated Balances.............................................   121
Upper Midwest Aerospace Consortium (UMAC)........................   192
Vision for Space Exploration.....................................   135
Window Observational Research Facility (WORF)....................   192
Workforce Transitioning..........................................   139

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
